<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida           DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma     STENY H. HOYER, Maryland
 DAN MILLER, Florida                 NANCY PELOSI, California
 ROGER F. WICKER, Mississippi        NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky           ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,          JESSE L. JACKSON, Jr., Illinois
California                           PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         
                   
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Craig Higgins, Carol Murphy, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 7B

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-408                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                              ----------                              

                                         Wednesday, March 21, 2001.

   TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS 2002 BUDGET

                                WITNESS

DR. RENEE JENKINS, PROFESSOR AND CHAIRMAN, DEPARTMENT OF PEDIATRICS AND 
    CHILD HEALTH, HOWARD UNIVERSITY COLLEGE OF MEDICINE
    Mr. Regula. Let us get started. We have a lot of witnesses 
today, so we want to move right along. We are sorry we cannot 
give you more time, but that is the way it is. You won the 
lottery or you wouldn't even be here because our requests for 
testimony are about double what we are able to accommodate, but 
it is very helpful to even have a brief statement to give us an 
opportunity to understand--especially for me because I don't 
have time and I hate to tell you this but I am not going to be 
able to read all your statements completely. That is the 
staff's job and I am not even sure they will get through the 
whole thing but we will try as much as possible to evaluate all 
the testimony that is presented. These topics are very 
important on every subject, are of great interest and affect a 
lot of people. We understand that very well.
    We have the little boxes there that the green light will 
go, then there will be an amber light which means you have a 
minute and a half to wrap up and then the red light which means 
stop. Francine has a little buzzer that goes off, she is the 
enforcer. It is a challenge to get through these and we want to 
give everyone a chance.
    Sometimes we will have a few questions. I often have a lot 
of questions but we just don't have time to get into depth with 
all of them. All of these topics are very interesting and more 
importantly, they affect the lives of people. We want to do the 
best job we can in allocating the resources to achieve 
hopefully successes and meeting some of the challenges of the 
illnesses and diseases that confront us.
    First we have Education. Some of you will be here on 
education. I just saw a poll the other day that said among the 
American people, education is the number one issue and close 
behind it is health. These are subjects that are very important 
to people.
    With that, we will get started. Our first witness today is 
Dr. Renee Jenkins, Professor and Chairman, Department of 
Pediatrics and Child Health, Howard University. I would like to 
welcome you.
    Dr. Jenkins. Thank you.
    I am Renee Jenkins from Howard University. I have been 
practicing in the Washington community for 25 years. I am also 
the President of the D.C. Chapter of the American Academy of 
Pediatrics. On behalf of the American Academy of Pediatrics and 
our pediatric and adolescent endorsing organizations, I would 
like to thank the Subcommittee for the opportunity to present 
this statement.
    Today, children are generally healthier now than they were 
only half a generation ago. According to recent reports, the 
national infant mortality and child death rates and the 
percentage of children living in poverty have all declined and 
immunization coverage rates for infants and toddlers have 
increased. However, despite these significant improvements, 
there are still over ten million children and adolescents who 
remain uninsured. Moreover, racial and ethnic health 
disparities for many children and adolescents continue to 
exist. We, you and I, both have more to do.
    As a clinician, I must work hard with my colleagues to not 
only diagnose and treat our patients but also to promote strong 
interventive interventions, to improve the overall health and 
well being of all infants, children, adolescents and young 
adults. Likewise, as a policymakers, you, along with your 
colleagues, have an integral part to play to improve the health 
of the next generation through sustained and adequate funding 
of vital Federal programs that support these efforts. I am 
going to speak on three issues particularly--access, quality, 
and immunizations.
    Under access, as a child and adolescent health clinician, 
we believe that all children and adolescents deserve and should 
have full access to quality health care, from the ability to 
achieve primary care for the pediatrician trained in the unique 
needs of children to timely access to pediatric medical 
subspecialists and pediatric surgical specialists should the 
need arise. Today, federally supported initiatives such as the 
Maternal Child Health Block Grant, Title X Family Planning 
Services and the Health Professions Education Training Grants 
are for many communities their only access to health care. We 
urge you to ensure that these and other important child and 
adolescent health programs receive sustained and adequate 
funding in fiscal year 2002. Of equal importance to access to 
care is an equitable Federal investment in the training and 
education of the Nation's future pediatricians, clinical and 
scientists, particularly in independent teaching hospitals. A 
bipartisan Congress has recognized in the last two years, and 
you have personally supported, maintaining adequate funding to 
continue the education research programs and delivery of health 
care in these child and adolescent-centered settings is 
imperative.
    Under quality, access to health care is only the first step 
in protecting the health of all children and adolescents. We 
must make every effort to ensure that the care provided is of 
the highest quality. Robust Federal support for the wide array 
of quality improvement initiatives is needed if this goal is to 
be achieved. Leading the effort to develop and implement the 
highestquality of care through research and better application 
of science is the agency for Health Care Research and Quality and the 
NIH, National Institutes of Health. Together, these agencies provide 
not only scientific knowledge and basis to cure disease, improve the 
quality of care, but also support emerging critical issues in health 
care delivery. They also address the particular needs of priority 
populations like children and adolescents.
    Continued Federal sustainable funding for health research, 
including pediatric research in the face of new challenges and 
new technology is essential to continued improvements in the 
quality of America's health care.
    Over the years, NIH has made dramatic strides that directly 
impact on the quality of life for infants and children. I am a 
recipient of an NIH grant that has definitely shown in a 
controlled study that one can effectively postpone and reduce 
early sexual involvement in young girls which is important to 
the issue of adolescent pregnancy prevention. We are now using 
the results of this research to pilot a program to educate and 
support parents in their efforts to work with children. We join 
the medical research community to support the fourth 
installment in the doubling of the NIH budget for fiscal year 
2003.
    Under immunization, pediatricians working alongside public 
health professionals and other partners have brought the United 
States its highest immunization coverage levels in history. As 
a result, disease levels are at or near record low levels. 
However, the public health infrastructure that now supports our 
national immunization efforts must not be jeopardized with 
insufficient funding. One of the conclusions of the June 2000 
Institute of Medicine report ``Calling the Shots,'' was that 
unstable funding for State immunization programs threatens 
vaccine safety and coverage levels for specific populations. 
For example, adolescents continue to be adversely affected by 
vaccine preventable diseases such as chicken pox, Hepatitis B, 
measles and Rubella. Comprehensive adolescent immunization 
activities at the national, State and local level are needed to 
achieve national disease elimination goals.
    As a pediatrician who sees adolescents, immunizations were 
generally thought to be a less critical issue in this age 
group. However, the recent college outbreaks of meningococcal 
meningitis which is a life threatening infection of the brain 
and spinal cord have made us much more aware of the need to be 
vigilant about immunization protection even in this age group. 
While the ultimate goal of immunization is clearly the 
eradication of disease, the immediate goal must be the 
prevention of disease in individuals or groups. To this end we 
strongly believe that the continued investment in the efforts 
of the Centers for Disease Control and Prevention must be 
sustained and increased.
    In conclusion, I thank you for this opportunity to provide 
our recommendations for the coming fiscal year. We look forward 
to working with you as the new Chair of this important 
subcommittee, and I would like to personally invite you to the 
Department of Pediatrics at Howard University so that you can 
see child and adolescent health care at work. As this 
subcommittee is once again faced with difficult choices and 
multiple priorities, we know that as in the past years, you 
will not forget America's children.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Thank you.
    With a couple of small grandchildren who live down the road 
from me in Ohio, I have heard a lot about pediatricians.
    We are happy to have our colleague from California, Mr. 
Duke Cunningham. For those of you who don't know, Duke was the 
only Air Force ace in the Vietnam war, so he is not only a 
skilled legislator, he was a very skilled pilot, and is a very 
valued member of this committee.
    Duke is going to introduce our next witness, Carolyn Nunes 
from San Diego. That is your home city, isn't it, Duke. You 
have quite a family of educators, don't you?
    Mr. Cunningham. Dr. Nancy Cunningham. I have two built-in 
lobbyists right at home.
    Mr. Regula. Duke takes care of education.
    Mr. Cunningham. I was a Navy pilot, not an Air Force pilot.
    Mr. Regula. And I am a Navy man. I really missed up that 
one.
    Mr. Cunningham. Thank you, Mr. Chairman.
    I see my colleague, Frank Purcell in the audience. I think 
you are probably here with the nurse anesthetists, Frank.
    My wife has her doctorate degree in Education. The witness 
I am going to introduce is the sister of my wife, my sister-in-
law in charge of Special Education in San DiegoCity Schools. 
She works for Alan Bursin, who was a Clinton appointee in the border 
and now is the Superintendent. I want to tell you he has my full 
support.
    What Carolyn is going to talk about a little bit today is 
not just special education but education reform in five 
minutes, and talk about what we are trying to do.
    Alan Bursin is supportive of many of the Bush initiatives 
for the reform of education. I am very, very proud to support 
her boss, the Superintendent, Alan Bursin.
    Carolyn testified before the Oversight Committee a couple 
of weeks ago on special education. She is here today to do the 
same thing. I have seen her cry when she can't help students 
with special needs. Now she is an administrator but she spent 
23 years in the field of education and is trying to breach the 
gap between schools and the parents to make sure the parents' 
special needs are met with their individual children, but on 
the other hand, trying to breach that the school systems are 
not bankrupted by the local trial lawyers that are ripping off, 
in my opinion, the school systems and the parents.
    There are only two areas in which we should have caps. One 
is trial lawyers and the other I will leave to you to decide 
what it is.
    Carolyn has been a special education teacher and an 
administrator. This is the second year of implementation of the 
blueprint for student success that her boss, Alan Bursin, has 
presented. I want to tell you that on the D.C. Committee we 
capped lawyer fees. To give you an example, we saved $12 
million. Instead of going to lawyers, it went to the children 
with special needs. We have done that for two terms.
    We hired 23 special education specialists, speech 
pathologists, hearing specialists, sighted specialists, and I 
want you to listen very carefully because we need a change in 
special education. Carolyn is the expert in all of San Diego 
City schools to bring that to you.
    It is my honor to introduce my sister-in-law, Carolyn 
Nunes.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

CAROLYN NUNES, SPECIAL EDUCATION PROGRAM MANAGER, SAN DIEGO UNIFIED 
    SCHOOL DISTRICT
    Ms. Nunes. Thank you.
    Today, my testimony focuses on some needed reforms to 
special education law and services in San Diego Unified School 
District and the Nation's school districts. Large scale reform 
efforts are not unfamiliar to San Diego City Schools. 
Currently, the District is in its first year of implementation 
of the Blueprint for Student Success. The reform strategies 
included in the blueprint are designed to improve teaching and 
learning for all students, including special education students 
while ending the practice of social promotion. Initial test 
score data indicates student performance is improving but much 
work remains to be done to successfully implement this program 
districtwide.
    For local reform efforts like the blueprint to continue to 
succeed, the reauthorization of the Elementary and Secondary 
Education Act and IDEA must make changes consistent with local 
reforms and provide the necessary funding to support change. 
The San Diego Unified School District currently serves over 
142,000 students in over 184 schools. Of those, over 15,000 
students have active IEPs and receive special education 
services; 92 percent of the special education current budget 
provides direct instruction and support for students with 
special education services. The following addresses some of our 
current issues regarding special education, IDEA, and funding 
as well as our recommendations for possible solutions.
    Nationally, we have witnessed an alarming increase in the 
number of students with autism. Families are bombarded with the 
latest and new forms of treatment for autism. All who view and 
read this information in the media make assumptions that all 
such services are research based and conform to best practice. 
There are a variety of instructional strategies and 
methodologies that are available. As educators, we realize that 
using only one instructional strategy for all students is not 
appropriate. More emphasis must be placed in the area of 
research in the educational approaches which will promote 
student achievement based on the student's ability and 
independence. School districts are currently finding the need 
to retrain teachers in strategies and techniques used with 
students with autism. We would recommend the development of 
special grants for the purpose of ongoing professional 
development for the training of certificated and classified 
staff in the field.
    Today, multiple agencies are funded by Federal dollars for 
providing services to students with special needs. Each of 
these agencies are under different rules and differentsystems. 
Although these agencies have a common purpose to provide services for 
students, these systems become a barrier. At times, although with good 
intentions, Federal laws will frequently promote a system of 
disconnect. Although Congress placed limitations on the recovery of 
attorneys' fees in the 1997 IDEA reauthorization, little has been done 
to reduce the significant roles such fees continue to play in the 
decisions that school districts and even parents make regarding 
educational programs for children with disabilities.
    An early independent review without all the formal 
requirements of a due process proceeding may temper each side's 
expectations and lead to a quicker and fairer resolution. I 
suggest mandating school districts to participate in alternate 
dispute resolution and all due process proceedings and reduce 
reimbursement of attorneys fees proportionately for parents who 
refuse to participate. Today, significant amounts of program 
monies are spent on independent educational evaluations. These 
evaluations are conducted at the request of parents when they 
disagree with the result of the school district evaluation. 
Under IDEA and its regulations, the school district must 
initiate due process proceedings and its associated costs to 
avoid paying for an independent evaluation. School districts 
have little economic incentive to request due process in 
challenging independent educational evaluations when such an 
action would prove costlier than paying for the evaluation. In 
my experience, special education has resulted in a system 
driven more by the need to comply with numerous requirements of 
both Federal and State laws and regulations than by the genuine 
educational needs of children with disabilities.
    The California Department of Education has developed a 
process of sanctioning school districts who do not meet the 
zero tolerance level of compliance with timelines for review of 
annual IEPs or three year reevaluations. This system does not 
provide for reporting extenuating circumstances that prevent us 
from meeting timelines. While our district has made great 
strides in electronic capture of information regarding the 
status of students receiving special education, 100 percent 
compliance is difficult to achieve. Requests for data 
collection and reports by various agencies at the national, 
State and local levels impose a strain on the district's 
ability to provide information in a timely manner.
    Our recommendations are as follows. Data collection should 
be allowed to report the extenuating circumstances that prevent 
timelines from being met. Definitions regarding placement 
settings, disability categories, designated and related 
services should be consistent across agencies. Data 
repositories should be developed that can be access by any 
interested agency from a central location. Thresholds of 
compliance should reflect the percentage of students reported. 
Special education reform cannot be done in isolation. While 
increased IDEA funding may reduce encroachment from the 
district's general fund, it is necessary to support local 
reform through augmenting other programs in the education 
budget. It is essential to support successful districtwide 
reform efforts that narrow the achievement gap while focusing 
on enhancing the education for all students.
    On behalf of the San Diego Unified School District, we 
appreciate the opportunity to comment on these issues and would 
offer any assistance.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Do you think these regulations should be 
implemented by the Department of Education rather than a 
statutory requirement in the law?
    Ms. Nunes. Yes.
    Mr. Regula. Questions?
    Thank you very much. It is a very important program to a 
lot of parents and to their children. Hopefully, we can meet 
the challenge of funding.
    Mr. Cunningham. Thanks, sis.
    Mr. Regula. Next Ms. Northrup will introduce Dr. Stevan 
Kukic, a Member of the Board of Directors, National Center for 
Learning Disabilities. I might say Ms. Northrup is a valued 
member of this committee and very involved in education matters 
in the City of Louisville, Kentucky, and brings a broad range 
of experience as we deal with the difficult education issues.
    Ms. Northrup.
    Ms. Northrup. Thank you.
    It is my pleasure to introduce today Stevan Kukic of the 
National Center for Learning Disabilities. Dr. Kukic is 
currently the Vice President of Professional Services, Soppers 
West Education Services in Longmont, Colorado, a former 
Director of At Risk and Special Services for the Utah State 
Office of Education for 11 years. His office provided 
supervision for all special education services delivered 
tostudents with disabilities.
    Dr. Kukic has also provided leadership for services for 
students at risk, Title I, migrant education correction, youth 
in custody, homeless, drug and alcohol and vocational special 
needs. In addition, he has served on many national advisory and 
editorial boards and is Past President of the National 
Associations of State Directors of Special Education.
    Finally, he has been a member of the National Center for 
Learning Disabilities' Board of Directors since 1996 and on the 
NCLD's Professional Advisory Board since 1992.
    Dr. Kukic will talk about the subject that is especially 
important to me and to us all, how do we help young children 
develop the skills they need to have to be ready to read.
    Dr. Kukic.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

DR. STEVAN KUKIC, MEMBER, BOARD OF DIRECTORS NATIONAL CENTER FOR 
    LEARNING DISABILITIES
    Dr. Kukic. Thank you.
    It is my pleasure to be with you this morning. Thank you, 
Ms. Northrup, for that great introduction. All of us are keenly 
aware if we could get to problems early, we save money and we 
solve problems in more profound ways. The National Center for 
Learning Disabilities has dedicated itself through its mission 
to make certain that we do intervene as early as we possibly 
can with research based practice and that we do that so people 
with learning disabilities can achieve their fullest potential. 
That is our mission.
    With that in mind, we are pleased to introduce to you this 
possibility that you would endorse our Get Ready to Read 
Initiative that we have begun. This initiative is a national 
screening program to be used by parents of young children as 
well as early childhood professionals who want to promote early 
reading and school success. The initiative seeks to ensure that 
these people have research based, easy to use tools to be able 
to get a better handle on the kinds of problems young children 
have that could cause them later difficulties in reading in 
school. We believe at NCLD if we can accomplish the task of 
this initiative, we will give people the ability to be able to 
assess what children are experiencing in their young lives, to 
recognize those behaviors that will link to resources that will 
be able to help those children and the people who deal with 
them to be able to have those kids be successful.
    It is interesting that even with all the work we are doing 
in this era of standards based reform, still 30 to 40 percent 
of our Nation's fourth graders still do not know how to read. 
There is a wide variety of testing measures that are being used 
to try to deal with this. What is wonderful is that through the 
good work that has been done by the National Institutes of 
Health and especially the National Institute for Child Health 
and Human Development, we have begun to uncover what the 
precursors are to success in reading and school. That research 
has told us that there is a high correlation between the 
quality of early language and literacy interactions and the 
acquisition of linguistic skills necessary for reading. That is 
a very profound piece of research that should be affecting what 
everyone does in relationship to children, and is beginning to. 
It is an interesting note; parents who have children with 
special needs often they wait to get services. There was a 
recent study that suggests that 40 percent of parents wait a 
year or longer before they get some help. If you think of what 
you know about young children, waiting a year or longer is a 
real dilemma.
    Seventy-five percent of children who are not identified as 
having problems and having intervention by the age of nine will 
continue not to be able to read when they leave high school. So 
there is a need for research based screening and assessment and 
a number of complementary efforts have helped to produce the 
prelude to this initiative.
    Congress has supported a number of ongoing literacy 
programs to help improve the ability of children and adults in 
relationship to this issue. The national education goal of 
having all preschool kids ready to enter school and ready to 
learn has also been of value. It sets the stage for what we are 
trying to do in this Get Ready to Read Initiative. Early last 
year with leadership from Representative Ann Northrup and 
Senator Thad Cochran and NICHD, we recruited a team of experts 
to develop this screening tool. The tool was developed under 
the leadership of Grover Whitehurst and Christopher Lonigan who 
worked closely with NCLD staff and advisors and a 20 item 
screening tool was developed. It was developed using a great 
process of validation wherein a set of items were correlated 
with a well accepted goal standard assessment tool so that 
parents and early childhood professionals can have a screening 
tool they can trust. In addition, we have identified a set of 
resources and a set of materials these folks can use after they 
have done the screening so they can link not only to those 
resources andmaterials but to other professionals for 
appropriate diagnosis.
    The tool itself focuses on four building blocks of 
literacy: linguistic awareness, letter knowledge, book 
knowledge and emergent writing. These are all reliable 
predictors of early reading success. It is our goal to 
disseminate this tool through national partnerships. The target 
audience is parents, teachers, child care providers, early 
childhood providers and other professionals. It is our goal to 
saturate the field in one year and to embed the tool in the 
operations of early childhood service organizations. It is a 
tool to be used with four year olds. We have private sector 
partnerships, a major multimedia educational publisher that has 
agreed to disseminate this tool to hundreds of thousands of 
people. With your support, we will be able to get the 
initiative going and be able to do a statewide demonstration in 
nine States including Arizona, California, Kentucky, Maine, 
Maryland, Mississippi, New Jersey, New York and Washington.
    Mr. Regula. How do you get it to young parents that need to 
know.
    Dr. Kukic. This is going to be a paper tool as well as a 
web-based tool. We have a partnership with the multimedia 
international publisher that is helping us be able to get to 
several million people on the web is what they are able to get 
to, so we hope that will work out.
    I will close by saying if we work together in the private 
sector, in the nonprofit sector and with your support, we will 
be able to achieve this great goal to be sure no child is left 
behind.
    I thank you for this opportunity to speak with you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Questions?
    Ms. Northup.
    Ms. Northup. I would like to thank Dr. Kukic for being here 
and for the effort. There has been an amazing amount of effort 
to develop a tool.
    All the research has now told us that children can be 
identified as early as four or five years old as being at high 
risk for needing intervention to learn to read; that if they 
get effective intervention, we should have single digit 
percentages of children that don't read and read to their 
capacity at fourth grade. Is that correct? What you have done 
is actually developed the test that parents or schools could 
use.
    Dr. Kukic. That is exactly correct. This research is not 
equivocal, it is not a possible. I would go so far as to say it 
is fact, we know how to teach kids how to read, we know how to 
identify kids who are at risk of failure at an early age and it 
is a moral imperative that we do so.
    Ms. Northup. I would like to compare that with what is 
actually going on. In my district, an urban district that has a 
significant population of at risk based on poverty levels and 
so forth, at risk children that our public schools do not 
screen children, that a child has to be estimated by a teacher 
to be one year behind before they are even able to request a 
test. This is usually sometime in second grade.
    There is usually a full year's wait before your child is 
actually tested because of the waiting list and so it is often 
fourth grade before a child gets in to special education.
    NIH tells us that at that level, it takes an enormous 
amount of resources in order to catch up a child who has missed 
those years of learning to decode and slowly become more 
accurate and quick so they can get to the understanding age. 
Part of that is because of the enormous cost for every child 
discovered.
    With this tool, you could just screen every child and get 
to the remediation before they ever--they are not necessarily 
learning disabled, they just need intervention.
    Mr. Regula. Mr. Cunningham.
    Mr. Cunningham. Thank you.
    If you do that in California and San Diego, I will put it 
in my newsletter for you so we can put it out there to help 
disseminate it.
    I helped rewrite the IDEA bill, so I am very familiar with 
it, when I was on the Education Committee and authorization. 
One of the problems we had was parent expectations and the 
wrong person reaches out and a parent has a child with special 
needs. They want the absolute best for that child like I want 
for mine but many times, either a medical doctor not trained to 
give that diagnosis on how muchper hour or how much per week in 
training they receive, that parent's expectations are raised to a 
significant level that is unrealistic and what happens is the school is 
expected to poll that judgment. Then there is a conflict between the 
school and the parent.
    In your program, do you have anything that identifies say a 
student with dyslexia that may have a higher problem of reading 
than say a child without that ailment, so that parents don't 
get the wrong idea or at least expectations?
    Dr. Kukic. What I like about the screening tool that we 
have developed is that it is to be used with four year olds. It 
is a functional kind of tool rather than label-based, it is 
based on those prerequisite skills that all kids need if they 
are going to be effective readers. So the interventions that 
work that have been uncovered so far for those children are 
usually not very expensive at all. It demands a redirection of 
the kind of early intervention that is done for these kids as 
four to six year olds. If you do that well, then there is much 
less need for very expensive interventions later.
    There is a lot of a lack of knowledge among a lot of fine 
professionals about this issue and there is a public relations 
or public awareness that our chairman of the board really 
believes in very sincerely that people need to understand what 
this research is saying so we can intervene at an early age in 
an economical way to be able to become a nation of readers. 
That is the point.
    Mr. Cunningham. I would like to read more about the 
program.
    Mr. Regula. Thank you.
    Our next witness will be Dr. Judith Albino, President, 
California School of Professional Psychology. She will be 
introduced by our colleague, Mr. Cunningham.
    Mr. Cunningham. I would tell Dr. Albino that I have a lot 
tied to her programs. First of all, she has four campuses. One 
is Los Angeles, I was born there. Another is in San Diego, I am 
a member of Congress from there. Another is Fresno where I grew 
up at 3212 Pine Street and the other is Alameda where I sailed 
out on an aircraft carrier.
    She is going to be named the President of Alliant 
International University which is combining with USIU where my 
wife got her doctorate degree in education.
    It is my pleasure to introduce Dr. Albino, President, 
California School of Professional Psychology. The school has 
four different campuses, as I mentioned. She is going to be 
named President of a combined school system. USIU and Alliant 
have over 2,300 students supported by three campuses and a 
faculty of over 200 specialists. It supports many of the 
research and community service programs throughout California.
    I am pleased to introduce Dr. Judith Albino. I would say 
you will find another supporter of doubling medical research, 
especially with San Diego with its super computers, its biotech 
and its teaching universities.
    Thank you for coming.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

DR. JUDITH E. ALBINO, PRESIDENT, CALIFORNIA SCHOOL OF PROFESSIONAL 
    PSYCHOLOGY
    Dr. Albino. Thank you.
    I appreciate the opportunity to be here today. We are 
looking forward to expanding our programs in Congressman 
Cunningham's district and we are grateful for his leadership 
there. I should note that CSPP currently is headquartered in 
San Francisco in the district of your subcommittee colleague, 
Congresswoman Nancy Pelosi.
    I want to begin by thanking the subcommittee for its 
recent, very generous support of CSPP's Partners for Success 
Program which works with California school districts to provide 
teacher education with a special emphasis on the prevention of 
violence in the classroom. I appreciate the opportunity to 
testify today on the importance of providing our Nation's 
schools with elementary and secondary school counselors. I also 
am testifying in support of programs of the Health and Human 
Services Administration and the Substance Abuse and Mental 
Health Services Administration.
    Last year, the subcommittee provided $30 million to 
continue funding for the Elementary School Counseling 
Demonstration Program. Legislative constraints limited this 
generous funding to elementary schools. Moreover, the $30 
million provided can only begin to meet the needs for these 
services. At a time when our communities are shocked and 
griefstricken by incidents of violence in our schools, we have an 
obligation to do all that we can to provide resources to keep our 
schools and our students safe. School counselors are an integral part 
of this effort, yet America's schools are in desperate need of 
qualified school counselors. The current national student to counselor 
ratio averages 561 students to every school counselor. The maximum 
recommended ratio is 250 to 1. Yet, not one State in our Nation meets 
that recommendation.
    Although the increase is significant, I am recommending 
that $100 million be allocated to these efforts in fiscal year 
2002 and that the program be expanded to secondary schools. The 
Surgeon General's National Action Agenda on Children's Mental 
Health released this past January outlines goals for improving 
services for the 7.5 million children under the age of 18 who 
need mental health services; 1 in 10 children and adolescents 
suffer from mental illness severe enough to cause impairment. 
Yet, in any given year, it is estimated fewer than 1 in 5 of 
these children actually receives treatment. The long term 
consequences of untreated childhood disorders are costly in 
human as well as dollar terms.
    Many adult Americans also face challenges that could be 
prevented or mitigated with behavioral and mental health 
counseling. These include 18 million with depressive disorders, 
14 million who abuse alcohol and 13 million who use addictive 
drugs. In view of this need, I urge your favorable 
consideration of $3,150,000,000 in support of the programs of 
the Substance Abuse and Mental Health Services Administration 
and $6,472,000,000 in support of programs of the Health 
Resources and Services Administration.
    In closing, I want to mention that CSPP trains more than 
half of the clinical psychologists graduated in California each 
year and about 15 percent of those across our country. More 
than 25 percent of our students come from ethnic minority 
backgrounds. As Congressman Cunningham indicated, CSPP students 
and faculty provide many hours annually of mental health 
services at nominal or no cost. Most recently this amounted to 
nearly 2 million annually. In San Diego County where there are 
812,000 people with diagnosed mental health or addictive 
disorders, the planned construction and staffing of our new 
community mental health counseling center will significantly 
expand these services, leveraging public support with in-kind 
contributions in the form of the services of our faculty and 
doctoral students.
    Thank you for your time and I appreciate your support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Questions?
    Mr. Cunningham. One of the issues we have before this 
committee that affects directly is a hold harmless that follows 
Title I for underprivileged children. California is a payer of 
taxes but doesn't receive its fair share and many of the other 
States while they have lost population, the growth of 
California schools with minorities--you stated of these 
children having problems, 75 percent of them are minorities. We 
are seeking to have the hold harmless rule instated. I worked 
with Senator Feinstein last year to make sure that happened. 
That will help the schools to have the dollars possible.
    Secondly, my adopted son was in a substance abuse program. 
Dr. Samms in San Diego and they do a very good job with those 
children, so you have my support on the issue. When you look at 
Santana High School, Columbine, the drug problems we have in 
our schools, if we can get to these children early, it will 
save a lot of problems down the line. I want to thank you for 
your services.
    Dr. Albino. Thank you. I appreciate that statement. I think 
we all know how important it is to have the resources for these 
children if we are to avoid the kinds of problems we see in the 
schools you have mentioned and in so many others as well. They 
don't all make the headlines but these problems are much more 
prevalent than they should be.
    Mr. Regula. I think you are saying they are all 
interrelated.
    Dr. Albino. They are indeed.
    Mr. Regula. Thank you.
    Next, we have Mr. Pat Teberry from Ohio, a member of the 
Education Committee. You are doing mark up this morning, 
putting together the bill we are supposed to pay for. He is 
going to introduce Dr. Thomas Courtice, President, Ohio 
Wesleyan, where my daughter graduated.
    Mr. Teberry. Thank you.
    There is also another connection to Canton in your 
district. As you may know, Wesleyan has a strong presence in 
Canton. Of about 1,800 students, about 50 are from Canton and 
about 800 alumni in the Canton area.
    I welcome this opportunity to bring to your attention an 
issue of significance, not only to Ohio Wesleyan, but to the 
State of Ohio and the Nation. That is the underrepresentation 
of minority groups in the sciences at the undergraduate and 
professional levels.
    Dr. Tom Courtice serves as the President of Ohio Wesleyan 
University, an independent, undergraduate liberal arts 
institution, founded 159 years ago in Delaware, Ohio north of 
Columbus. Ohio Wesleyan is one of the top liberal arts colleges 
in the Nation. During his seven years as President of Ohio 
Wesleyan University, Dr. Courtice has served tostrengthen that 
institution.
    I am happy to share with you the fact that there are three 
Ohio Wesleyan alumni who are members of Congress--Congressman 
Hopson, Congressman Gilmore as well as Congresswoman Joanna 
Emerson from Missouri. The entire Ohio Wesleyan community is 
proud to call them their own and looking forward to working 
with Dr. Courtice and Ohio Wesleyan and thank you and the 
committee for allowing him to testify today.
    Mr. Regula. Dr. Courtice.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

DR. THOMAS B. COURTICE, PRESIDENT, OHIO WESLEYAN UNIVERSITY
    Dr. Courtice. Thank you.
    Thank you for this opportunity to provide testimony to you 
and the members of the subcommittee.
    Ohio Wesleyan's undergraduate students represent 40 States 
and 54 countries bringing what is a rich diversity to our 
campus and it is this commitment to diversity as well as to an 
enduring commitment to academic excellence that has enabled us 
to reach and maintain the ranking as one of the top liberal 
arts colleges in the United States. I want to address briefly a 
topic that relates to both the quality of education and 
diversity and that is the need for increased attention to 
science education for currently underrepresented or minority 
groups. Ohio Wesleyan has long been acclaimed for its 
particular attention to science education. We employ some of 
the Nation's best science teaching faculty and we have 
committed considerable resources to improving our science 
facilities. In fact, we will soon begin new construction to 
expand and renovate existing science buildings and to bring our 
labs and classrooms up to a 21st century standard.
    Our commitment to exposing our students to a strong science 
curriculum has resulted in a doubling of the enrollments in 
science and math over the last ten years and a similar increase 
in the number of students who graduate with a Bachelor of 
Science Degree. In fact, 25 percent of the class of 1999 
graduated with a science major and over 60 percent of that 
number entered directly graduate or professional schools 
relating to their majors. Student demand for the sciences 
obviously affects the resources that a particular university 
dedicates to its science and math departments, yet the 
increased commitment to the study of science and technology has 
also been mandated by the explosive growth of science research 
and its applications in our society.
    As this commitment to enhancing the quality of science 
studies grows, so too must the commitment to supply a well 
educated, large and diverse work force in these growing fields. 
Scientific, engineering and technological jobs are among the 
fastest growing in the workforce to the point that current 
demand for workers has outstripped supply.
    Demographic trends also inspire concern about the Nation's 
ability to meet its future technological work force needs. 
Historically, white males have made up a large fraction of U.S. 
scientists and engineers. However, this portion of the 
population has a percentage of the total work force is 
projected to decrease significantly in coming years as other 
population groups, African Americans and Hispanics are expected 
to make up to close to 50 percent of the U.S. work force quite 
soon. Unfortunately, due to a lack of financial resources, 
sufficient high school preparation and practicing mentors and 
role models, minorities are currently severely underrepresented 
in the science and technology fields.
    Ohio Wesleyan understands that a more diverse science work 
force means a broader science agenda bringing different 
perspectives to bear and producing a deeper analysis of 
alternatives. As we begin to enhance our own program to 
encourage greater minority participation in the sciences, I 
would ask that the Subcommittee consider funding and support 
for policies and programs which also constructively address 
similar issues. Such programs may incorporate strategies to 
provide students with more minority role models and mentors 
from both public and private sectors. According to the 
information gathered a few years ago by the National Center for 
Education, statistics on African Americans, Hispanics and 
Native Americans teaching in the sciences make up only 1.1 
percent of all full-time college faculty. Creative initiatives 
could help colleges like Ohio Wesleyan broaden the base of 
minority faculty members and mentors in the sciences. Such 
programs may also incorporate more science research and other 
intimate learning opportunities for minority students and they 
may provide engaging residential sciences programs to pre-
college populations.
    Our Nation's well being has long depended on our ability to 
adapt and advance with scientific and technical progress. The 
Federal Government should continue to spend considerable time 
and effort examining what actions will ensure the Nation has an 
adequately trained science work force in the future while using 
liberal arts colleges like Ohio Wesleyan as partners. We 
anticipate deepening our role in this effort. We look forward 
to sharing our experience with peer institutions across the 
country and with public policymakers as we discover what really 
works when it comes to systematically enhancing and expanding 
science education and career opportunities to an increasingly 
diverse population.
    Thank you for providing us the opportunity to testify 
before the subcommittee this morning.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Do you find the students you are getting have 
an adequate background coming out of high schools to meet your 
science curriculum and I am sure you have a placement office 
and do you find it easy to place these students in good jobs 
once they complete their studies?
    Dr. Courtice. I think we have found they have been well 
prepared, particularly if they declare science as a field of 
study. It is just that we can't get enough to come across that 
threshold and declare.
    Placement opportunities are simply overwhelming and with a 
solid science background, the options for young people today 
are quite wide and expansive, whether graduate professional 
study or entering the work force immediately.
    Mr. Regula. Thank you. There certainly is a lot of interest 
in science but a precursor to that is you have to be able to 
read. That puts literacy right at the front end of all this.
    Dr. Courtice. That is why we think those pre-college 
programs are very important.
    Mr. Regula. Do you offer remedial for students coming in?
    Dr. Courtice. We do have remedial work in both quantitative 
and writing skills. We have also tried to introduce some of 
that work prior to the time students actually enroll on campus 
so they are doing that in their junior and senior years in high 
school.
    Mr. Regula. Thank you.
    Our next witness will be Warrick Carter, President, 
Columbia College, Chicago, to be introduced by our colleague, 
Mr. Jackson.
    Mr. Jackson. Thank you.
    Since early last year, Dr. Warrick Carter has served as 
President of Columbia College in my hometown of Chicago. 
Columbia is a private, four-year, liberal arts college 
specializing in the visual arts, performing arts and 
communications. Columbia's philosophy of hands-on, minds-on 
education plus their location in one of the world's most 
vibrant cities adds to a depth and richness of experience for 
all who enter its doors.
    From 1996 to last year, Dr. Carter served as Director of 
Entertainment Arts at Walt Disney Entertainment in Lake Buena 
Vista, Florida and from 1984 to 1996, he served as Provost, 
Vice President of Academic Affairs and Dean of Faculty at 
Berkley College of Music, Boston, Massachusetts.
    Dr. Carter received his Bachelors Degree in Music Education 
at Tennessee State University, his Masters and Doctorate in 
Music Education at Michigan State University.
    I present Dr. Warrick Carter, President of Columbia 
College.
    Mr. Regula. A couple of questions. Do you get a lot of your 
students from college?
    Mr. Carter. Yes, about three-quarters of our students come 
from the State of Illinois.
    Mr. Regula. Yesterday, thanks to Mr. Jackson, we had the 
Superintendent or CEO of the Chicago School system, very 
impressive. My question to you is are you seeing this as a 
result of their efforts in the public school system and the 
level of achievement of the students you are getting?
    Mr. Carter. Yes, we are. In fact, we work hand and glove 
with Chicago Public Schools. We offer a variety of programs 
that serve to train teachers specifically in science. We have 
an innovative approach to teaching science through the arts and 
we are training teachers to do so. We have received some rather 
outstanding accolades because of it. It has changed the whole 
quality of science instruction in the public schools.
    Mr. Regula. Thanks to Mr. Jackson, I will be meeting with 
the CEO this evening. I was impressed with what is being done 
and certainly Mr. Jackson has related a lot of this to me. So 
you are telling me the system is working?
    Mr. Carter. The system is working, working much better than 
it worked before.
    Mr. Regula. Thank you.
                              ----------                              

                                          Wednesday, March 21, 2001

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

WARRICK CARTER, PRESIDENT, COLUMBIA COLLEGE
    Mr. Carter. Thank you for that introduction and your time. 
You have a lot of friends at Columbia College and we look 
forward to seeing you soon.
    I am Warrick L. Carter, President of Columbia College. 
Thank you for this opportunity to speak to you. As Congressman 
Jackson said, Columbia College is a private, nonprofit, 
undergraduate and graduate institution in Chicago's South Loop 
neighborhood that offers educational programs and arts in the 
communications disciplines within a context of liberal arts.
    With a fall enrollment of over 9,000 students, we are the 
fifth largest private institution in the State of Illinois. I 
am here to speak about the many needs of institutions of higher 
education, particularly those of urban colleges and 
universities like Columbia College and how Federal programs can 
help address some of these needs.
    Columbia College is one of the very few open arts 
administration institutions in the United States and has the 
largest minority enrollment of any institution of its kind in 
the country. We enroll students from across the country, across 
the world but it is primarily an Illinois and Chicago 
institution. More than three-quarters of Columbia College 
students are from the State of Illinois and the majority of 
these are from Chicago and the Chicago metropolitan area.
    A third of the college's students are African Americans, 
Latino or Asian Americans and a large number of all of our 
students are first in their family to attend college. 
Delivering excellent higher education with open admission in a 
very diverse urban setting is exhilarating but full of 
challenges. City kids, minority kids, first generation college 
kids are much more likely than their peers to drop out before 
they complete college. The loss of these kids, to their 
families, to Chicago and to the country is staggering. Helping 
students to stay in college and complete their degree at 
Columbia is our most important challenge.
    The U.S. Department of Education funds a number of programs 
that are of critical importance to retention at Columbia 
College, Chicago and to urban colleges and universities in 
general. The Pell Grant Program is first and foremost amongst 
these. At Columbia, nearly one-third of our undergraduate 
students receive Pell grants and are eligible to participate in 
the matching grant programs supplied by the State of Illinois. 
Although these grants do not cover the full cost of tuition and 
fees, without them, many of these students could not attend 
college at all.
    Title III and the Fund for the Improvement of Post 
Secondary Education are also vital to this effort. Currently at 
Columbia, Title III funds a multifaceted, academic and social 
support program for lower income, first generation and minority 
students. These funds support a comprehensive, all college 
effort to enhance and improve the first year experience of all 
new students. Research shows from around the country that the 
first year, even the first semester, and sometimes the first 
week of a student's experience in college will determine the 
likelihood that they will stay in college and ultimately 
graduate.
    In 1999, the college adopted a comprehensive retention 
program that focused on new freshmen which holistically 
addresses the interwoven factors that affect students' success. 
We received a $500,000 grant from the Department to support 
this initiative. In just one year, the percentage of freshmen 
returning to their sophomore year climbed by five percent. This 
past fall, 90 percent of all at risk students who participated 
in a summer program we refer to as our summer bridge program 
returned for a second semester.
    Columbia is now hoping to undertake an ambitious mentoring 
program for our minority students. Under the program, all new 
entering minority students will be paired with a faculty member 
or staff mentor to help students determine his or her own 
educational goals, negotiate the new and unfamiliar college 
experience, and to utilize student services, and hopefully 
develop this ongoing bond that is soimportant to be connected 
to an institution and to stay until completion. As mentoring has proven 
to be a very effective retention tool, this program will reinforce new 
students' decisions to attend college and quickly integrate these 
minority students into the academic, artistic and social fiber of the 
college.
    A sense of community is vital to retention and to providing 
a rich educational environment as well. Campuses such as 
Columbia are diffused and less contained than traditional 
college campuses. Fewer students live on campus and many 
commute daily throughout the metropolitan area. Although our 
dozen plus buildings are interspersed with residential, retail, 
commercial make us a major landowner within the area, we have 
only what can be defined as a loosely defined campus. The 
college hopes to counteract this with a new Student and Art 
Center that will create a focal point for our campus and for 
diverse community groups in the South Loop that we serve, 
private, nonprofit.
    We have the largest program of film studies in the country 
with 1,700 students, one of the largest programs in television 
and radio and recording technology. Our alums have gone on to 
rather well heights and others stay in the area. We have alums 
in California who are Academy Award winners, one for saving 
Private Ryan and Schindler's List, so we are proud of the 
quality of what we do in film and television.
    Mr. Regula. It is a growing industry.
    Mr. Carter. We found in Chicago a lot of independent films 
are moving away from Los Angeles because it is more cost 
effective to do films outside, so we see the industry growing 
in Chicago. There was over $150 million spent in Chicago last 
year in films and television shows.
    In Orlando, where I spent time recently, we did some $500 
million worth of films. Compare that with what is going on in 
California, slowly but surely people are looking to do films 
outside of California. We think our alums are partly leading 
that charge. We have two who have chosen to return to Chicago 
and do their films there. The very recent film, Men of Honor, 
was done there and prior to that Soul Food, also the television 
program. Each case, they chose to return to their hometown and 
therefore create employment for our alums as well as for others 
in the city.
    Mr. Regula. That is a great impact.
    Do you interact with the National Endowment for the Arts?
    Mr. Jackson. Yes, we do. We have been fortunate to receive 
both NEA and NEH funding.
    Mr. Regula. Do you think they do a good job?
    Mr. Jackson. Yes. If that funding were a bit larger, I 
think they would do a much better job.
    Mr. Regula. I knew that was coming. [Laughter.]
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

MARILYN HELD, DIRECTOR, LABORATORY SUPPORT SERVICES, ST. JOHN HEALTH 
    SYSTEM, DETROIT
    Next is Ms. Kilpatrick from the great State of Michigan 
where they have a better football team than Ohio State, but 
times will change, is going to introduce Marilyn held, Director 
of Laboratory Support Services, St. John Health System, 
Detroit.
    Ms. Kilpatrick. Thank you for allowing us to present our 
constituents and for you to take the time to consider them. We 
appreciate it.
    I would like to present to you Ms. Marilyn Held, Director 
of Laboratory Support Services at St. John Health Systems in 
Detroit; a prominent member of the American Society of Clinical 
Pathologists; and has served as a board member on that society, 
has served on the Finance and Planning Committee and has been 
awarded the Distinguished Service Award from the Society in 
1999.
    Ms. Held received her Bachelor's Degree at the University 
of South Dakota, performed her medical technology internship at 
the University of Iowa and completed her graduate education in 
Microbiology at the University of Arizona. I am happy to 
present Ms. Held.
    I have three 10 o'clock assignments this morning, 
Transportation being next door. I am happy to be with you this 
morning and Foreign Operations in a totally other building. 
Please excuse me if I am not able to stay with you.
    Mr. Regula. I have some interest in a few projects in 
Transportation so we will be very nice to you.
    Ms. Kilpatrick. Thank you.
    Ms. Hill.
    Ms. Held. Thank you for your support of the laboratory 
community and back home in Michigan. We appreciate it.
    Ms. Kilpatrick. Thank you.
    Ms. Held. Thank you for inviting me to represent the 
American Society of Clinical Pathologists. The ASCP has 75,000 
members and is the world's largest organization representing 
pathologists and laboratory personnel. I am here to inform you 
today that the United States is facing a very serious shortage 
of medical laboratory personnel. Vacancy rates for 7 of 10 key 
laboratory medicine positions is at an all time high. ASCP in 
conjunction with an independent polling firm conducts a 
biannual wage and vacancy survey of 2,500 medical laboratory 
managers. The data for 2000 was published this month and I 
would like to give you a glimpse of what we found.
    Vacancy rates for cytotechnologists, the professionals who 
perform pap smears, in the northeast, the vacancy rate was 45 
percent, 16.7 percent for the east north central and 33.3 
percent for the far west, rural areas average a 20 percent 
vacancy rate and large cities a rather surprising 28.3 vacancy 
rate. Histotechnologists, the individuals who prepare tissue 
specimens, have an average vacancy rate of over 20 percent, the 
west, south central region of the country has a 73.7 percent 
vacancy rate; the south central Atlantic States have an average 
vacancy rate of 16.7 percent. By comparison, the vacancy rate 
for medical technologists will not appear to be of concern but 
it is. Medical technology vacancy rates average 11.1 percent 
but rural areas are at 21.1 percent.
    Rather than continue to quote statistics, I would like to 
put a face on these numbers. It is estimated that 70 percent of 
diagnostic and treatment decisions for patients are based on 
laboratory tests. In my own institution, our laboratory will 
perform over 10 million diagnostic tests next year alone. Tests 
such as measuring cardiac enzymes for heart attacks, performing 
prostate biopsies, hemoglobin electrophoresis for the diagnosis 
of sickle disease and trait and measurements for high calcium 
levels in blood and urine to assess future risk for 
osteoporosis are only a few examples. In my hospital, we have 
as of yesterday, a 12.4 percent vacancy rate of those personnel 
that assess cardiac enzymes and osteoporosis related tests and 
a 19 percent vacancy rate for people who prepare prostate and 
breast tissue for biopsies.
    One of the logical solutions to this vacancy rate problem 
is to train more students. However, the number of programs are 
decreasing. In my home State, we have seen the number of 
programs plummet from 27 to 8 in less than two decades. 
Nationwide, the number of graduates in medical technology has 
decreased 30 percent in the five years. The continued demand 
for laboratory services is real and is expected to grow. Given 
the country's aging population, the number and complexity of 
biopsy specimens, tests and the use of molecular techniques 
will increase in the next decade. Laboratory professionals who 
entered the work force in the 1960s and the 1970s will be 
retiring soon. Also, the threat of bioterrorism and emerging 
infectious diseases calls for trained laboratory professionals 
to respond.
    There are solutions to these problems. There are allied 
health grants available to attract laboratory professionals to 
the field especially minorities and individuals in rural and 
under served communities. For example, the University of 
Nebraska Medical Center established medical technology 
education sites in rural Nebraska under an Allied Health 
Project Grant. As of 1999, of 69 graduates, 99 percent took 
their first job in a rural community and 74 percent took their 
first job in rural Nebraska.
    The grants are also designed to create successful minority 
recruiting and retention programs for medical technologists. As 
a direct result of this Federal support, the University of 
Maryland, Baltimore, as of the fall 2000, reached a 64 percent 
minority student enrollment at a majority institution, one of 
the highest in the country. Most Allied Health Grant projects 
continue after Federal funding ends, making them a long lasting 
worthwhile investment in the future of allied health. The 
Allied Health Project Grants Program is a relatively small step 
in assuring that funding is available to attract individuals to 
the allied health professions. It needs to be seriously 
considered.
    Thank you for your time. We are requesting $21 million.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Why do you think there aren't more young 
people, certainly the opportunities are enormous? Why don't 
young people elect this field?
    Ms. Held. We have looked at that a lot and the field 
requires a good background in math and science. We are finding 
that with the opportunities in computers, the .coms, the 
biotech corporations that there are many opportunities now that 
people just aren't going into health care as frequently.
    Mr. Regula. Do you get information out to high schools so 
that young people can think about this as a career?
    Ms. Held. Yes. The American Society of Clinical 
Pathologists has partnered with organizations like the National 
Biology Teachers Association and we do work with recruitment in 
those sort of forums. Independently, my organization like other 
hospitals, goes to high schools, middle schools, elementary 
schools whenever we are given the opportunity.
    Mr. Regula. Is St. John a free-standing organization that 
provides services to a number of hospitals?
    Ms. Held. Yes. St. John Health System is a seven hospital, 
integrated delivery network and three of our hospitals are in 
Detroit and four in the neighboring suburbs and out in the 
rural areas as well.
    Mr. Regula. So it is a consortium that all seven can use?
    Ms. Held. Right.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                 WITNESS

DEBORAH A. CHAMBERS, PRESIDENT-ELECT & MEMBER OF THE BOARD OF 
    DIRECTORS, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS
    Next is Deborah Chambers, President-elect and Member of the 
Board of Directors, American Association of Nurse Anesthetists. 
Welcome.
    Ms. Chambers. My name is Deborah Chambers. As President-
elect of the American Association of Nurse Anesthetists, I 
represent 29,000 certified registered nurse anesthetists across 
the country, also known as CRNAs. We deliver safe anesthesia 
care to patients in every State, every day. I will summarize 
four points: what do CRNAs do and where, the nursing shortage 
and the CRNA shortage, our appropriations request and one 
regulatory issue of interest to Congress.
    America's 29,000 CRNAs provide two-thirds of all the 
anesthetics in the United States. We are the sole anesthesia 
provider in over 70 percent of rural hospitals. We are the 
predominant anesthesia provider in rural and urban under served 
areas of communities and to the military. For over 100 years, 
nurse anesthetists have been providing anesthesia. The 
Institute of Medicine reports anesthesia is 50 times safer 
today than it was 20 years ago. We believe this is in part due 
to our advanced training and our continuing education and 
recertification requirements that are by far the most rigorous 
in the field of anesthesia care.
    Yet, as more Americans become eligible for Medicare, there 
are fewer nurses and CRNAs to care for them. It is in America's 
interest to work together so that nurses and CRNAs are 
available for patients who need care. The nursing shortage is 
here today. Student nurse anesthetists must have practiced as a 
nurse for at least two or more years so we are deeply concerned 
that the number of registered nurses under the age of 35 has 
fallen by more than 50 percent over the last 20 years to a 
level less than 20 percent of all registered nurses in the 
country. Our 82 accredited nursing anesthesia programs are full 
but they are graduating about 700 fewer nurse anesthetists per 
year than what HHS says is required to meet the demand. The 
demand is growing and creating a CRNA shortage in the 
marketplace.
    In 1999, the State of North Carolina reported 82 CRNA 
position vacancies and it is projected these vacancies will 
extend to beyond 133 by the year 2004. Today, the number of 
classified ads advertising and recruiting for nurse 
anesthetists published in our national journals is growing 
month by month. What should we do? We should work together to 
educate more CRNAs. With such shortage helping to support the 
education of nurse anesthetists is much more cost effective for 
taxpayers than subsidizing other types of anesthesia providers. 
The committee has shown real leadership and we are asking for 
that leadership to continue.
    We commend the committee for providing significant 
increases for nursing education programs in fiscal year 2001, 
especially for the advanced education nursing program within HHS's 
Bureau of Health Professions. For fiscal year 2002, we recommend an 
increase of $11 million for advanced education nursing to at least $70 
million. We note that the President's fiscal year 2002 blueprint 
identifies this type of program to help alleviate the nursing shortage.
    We recommend an increase of at least $10 million to the 
Nursing Education Loan Repayment Program. We urge an increase 
in the National Institute for Nursing Research budget up to 
$125 million. We also recommend that the committee consider 
funding specific initiatives to help expand existing CRNA 
schools, establish new schools and to recruit and retain 
faculty for the training of nurse anesthetists. While America's 
existing nursing anesthesia schools are full, expanding these 
schools or establishing new ones without Federal funding as a 
catalyst has proven to be very difficult. We look forward to 
working with the members of the committee on this project.
    We recommend the committee permit Medicare's new anesthesia 
care rule to take effect. Published on January 18, 2001, this 
important Medicare rule lets States decide the issue of 
physician supervision for nurse anesthetists. This rule gives 
States and hospitals the flexibility they need to provide 
superior health care to patients. It is supported by hospitals, 
nursing organizations and the National Rural Health 
Association, many members of the House and Senate and many 
members of this panel on both sides of the aisle.
    Secretary Thompson has signed an order to have the rule 
take effect on May 18, 2001. This should be a matter for the 
States which govern health professional scope of practice.
    This concludes my remarks. I welcome your questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Is this group licensed by medical boards in 
each of the States?
    Ms. Chambers. Your licensed as a registered nurse through 
the State and you are certified by the National Association.
    Mr. Regula. So you get your nursing license from the State 
and certification is national?
    Ms. Chambers. Yes, sir.
    Mr. Regula. Can you move from State to State?
    Ms. Chambers. As long as you have license as a registered 
nurse from that State. The certification is the national 
certification so you can move.
    Mr. Regula. Do some States require a doctor be present and 
others not? I have heard that is an issue.
    Ms. Chambers. The whole can of worms is that nurse 
anesthetists practice along with physicians. Obviously in the 
surgical arena, a nurse anesthetist is present to provide 
anesthesia for a patient undergoing a surgical procedure.
    The difference comes in that States rules and regs differ 
from State to State so there are actually 29 States that do not 
require supervision of a nurse anesthetist. What we are asking 
is to let the States decide.
    Mr. Regula. Thank you.
    Mr. Jackson.
    Mr. Jackson. No questions.
    Mr. Regula. Thank you for coming.
    Next, Mr. Jackson will introduce Miguelina Leon, Director, 
Government Relations and Public Policy, National Minority AIDS 
Council.
    Mr. Jackson. Since 1994, Miguelina Ileana Leon has served 
as the Director of Government Relations and Public Policy for 
the National Minority AIDS Council. She is a certified social 
worker with a Masters from Columbia University and she has 
worked in HIV AIDS services in advocacy since 1985.
    Established in 1987, NMAC is the leading national 
membership organization addressing the HIV AIDS epidemic among 
communities of color. With a membership of over 600 
organizations and 3,000 affiliates, NMAC provides training, 
technical assistance and policy analysis for community-based 
organizations on the front lines of the HIV AIDS epidemic.
    NMAC's most recent advocacy work focuses on the elimination 
of ethnic and racial health disparities with a special focus on 
the disproportionate HIV AIDS incidence and death rates among 
ethnic minorities.
    NMAC has worked with the Congressional Black Caucus to 
address the state of emergency of HIV AIDS in the African 
American community, helping to secure $156 million in Federal 
funding for highly impacted communities of color in 1998, $250 
million in 1999 and $350 million last year.
    Mr. Chairman and members of the subcommittee, I present Ms. 
Miguelina Ileana Leon.
                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

MIGUELINA LLEANA LEON, DIRECTOR, GOVERNMENT RELATIONS AND PUBLIC POLICY 
    NATIONAL MINORITY AIDS COUNCIL
    Ms. Leon. Thank you, Congressman Jackson, for that very 
comprehensive presentation.
    My name is Miguelina Ileana Leon. I am testifying today on 
behalf of the National Minority AIDS Council. I would like to 
thank the members of the subcommittee for your extraordinary 
leadership and commitment to HIV AIDS prevention and care 
programs, biomedical and behavioral research and other crucial 
health programs.
    NMAC commends the leadership and the foresight of the 
Congressional Black Caucus and the Congressional Hispanic 
Caucus in crafting and expanding the minority aids initiative 
to assure a targeted response to the growing HIV AIDS health 
disparities among communities of color. Our work as health 
advocates and HIV service providers has been strengthened by 
your combined efforts and generous support. Our Nation has made 
remarkable progress in combating HIV AIDS in the last decade, 
however, the dynamic nature and evolving epidemic represents 
complex challenges and requires intensified efforts to respond.
    The disproportionate impact of HIV on communities of color 
is not a new phenomena, yet the trends over the last decade 
clearly reflect a growing burden of morbidity and mortality 
among ethnic and racial minorities. Consider these facts, 
people of color make up 56 percent of the cumulative AIDS cases 
and 68 percent of the new AIDS cases report by the Centers for 
Disease Control through June 2000. Men of color accounted for 
63 percent of the new AIDS cases and women of color accounted 
for 82 percent of the new AIDS cases among females. Similarly, 
children of color represented 84 percent of the pediatric AIDS 
cases. Most recently, young men of color and women of color 
have become highly vulnerable. Just a few weeks ago, the 
Centers for Disease Control and Prevention released a survey of 
young men which looked at over 2,000 gay and bisexual young men 
in Los Angeles, Miami, New York and Seattle. This survey showed 
that the highest infection rates were among African Americans, 
30 percent, and Latinos, 15 percent.
    The CBC Minority AIDS Initiative was developed in 1999 to 
target funds to eliminate the persistent HIV AIDS related 
health disparities among ethnic and racial minorities. The CBC 
Initiative continues to be needed now more than ever. The 
initiative is intended to expand the infrastructure and 
capacity in minority community-based organizations to provide 
quality HIV prevention interventions and medical and supportive 
services. By building infrastructure and increasing the 
capacity of these organizations, the initiative enables the 
organizations to access needed funding to build their own 
programs in their own communities. The CBC Initiative is not 
intended to create a parallel system of programs or services. 
It does put in place HIV AIDS services in communities that have 
been historically underserved and also complements existing HIV 
prevention and health care services. These resources are 
intended to provide a bridge that will enable minority 
community-based organizations to ultimately broader Federal HIV 
AIDS funding.
    The CBC Minority Initiative cannot stand alone and we know 
it must work in conjunction with other HIV AIDS programs. 
However, we believe it is necessary to expand this initiative 
to a level of $540 million in fiscal year 2002 in order to 
support and expand the infrastructure of minority community-
based organizations and to ensure that we address the health 
disparities by enabling these organizations to provide 
culturally competent services within their own communities. We 
believe it is important to commit to this effort, to sustain 
these efforts and we strongly recommend the Subcommittee 
sustain, safeguard and expand the CBC Minority AIDS Initiative 
by providing the additional funding in fiscal year 2002.
    Thank you for your attention and consideration of these 
issues.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you work in the area of prevention as well 
as curative approaches?
    Ms. Leon. Yes. Actually, we are a national organization and 
we provide training and technical assistance and support to 
organizations on the front line of the epidemic. They actually 
are working in prevention and supportive services, and also 
providing health services.
    Mr. Regula. Is there some growing success in treatment?
    Ms. Leon. There definitely have been great advances in 
treatment over the last ten years. However, what we see in 
relationship to ethnic and racial minorities is that they don't 
experience the same benefits in terms of health outcomes for a 
variety of reasons, including they have less access to quality 
health services, greater numbers of uninsured people and there 
is a large proportion of ethnic and racial minorities that have 
been traditionally hard to reach populations such as the 
homeless, people who have chemical dependency problems and 
women.
    Mr. Regula. Other questions?
    I see we have a vote. I think we can take one more before 
we have to vote.
    We will have Mr. Phil Jacobs, President, BellSouth 
Corporation.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

PHIL JACOBS, PRESIDENT, BELLSOUTH CORPORATION
    Mr. Jacobs. I am Phil Jacobs, President of Georgia 
Operations for BellSouth Corporation and also a graduate of 
Dennison University in Granville, Ohio.
    Thank you for the opportunity to be here.
    I am here today on behalf of a group called Friends of CDC 
to discuss infrastructure funding for the Centers of Disease 
Control and Prevention construction budget in the 2002 budget. 
Let me begin by offering my thanks to this subcommittee on 
behalf of the Friends of CDC for securing the appropriations in 
this year's budget of $175 million. This was an enormous step 
forward and a great step forward to begin the construction of 
new facilities at both of our campuses for the CDC in Atlanta. 
It is just that, a start.
    I am here today to respectfully ask this committee to 
continue to support averting what I believe is a pending crisis 
waiting to happen in health care. The current infrastructure of 
the Centers for Disease Control and Prevention in Atlanta has 
dilapidated buildings that are creating a hazardous situation 
for our world class scientists. This situation must be 
corrected. It is clear to me if we are going to continue to 
have the world's leading health organization to be able to 
address the myriad of health issues that are coming at us 
today, we need to have first class facilities and need to 
continue to recruit first class scientists into those 
facilities.
    Before I tell you more specifically about the facilities in 
Atlanta, let me take a minute and talk about the organization, 
Friends of CDC and how we began. The Friends of CDC is a group 
of corporate citizens who joined together about two years ago 
to highlight the need for infrastructure funding for the CDC in 
Atlanta. This group includes not only my company, BellSouth, 
but also UPS, Home Depot, Delta Airlines, Cox Communications, 
the Southern Company, Healtheon Web/MD, Merck, HCA, the Health 
Care Company, General Electric and Aetna Insurance Company. It 
is a voluntary, civic-minded group deeply concerned with the 
facilities situation at the Nation's premiere health 
institution and we are concerned that this institution's 
facilities have been allowed to deteriorate to the point they 
have today.
    I personally first visited the CDC in Atlanta in 1999 but I 
never imagined what I would see in terms of the horrific 
conditions in the buildings there. By the way, I would like to 
extend to any member of this subcommittee an invitation to join 
us in Atlanta for a tour of the facilities because I will tell 
you now that words can't do justice to the lack of and horrific 
conditions that we are asking our folks to work in.
    Mr. Regula. The $170 million that was put in last year, 
will that provide some help?
    Mr. Jacobs. Some relief, absolutely. As a matter of fact, 
we just had the opening of a new facility on the Emory 
University Campus which gave us an additional number of level 
four laboratories which is where the highest security and most 
dangerous agents are dealt with. However, there are a host of 
other facilities that are still housed in inadequate housing 
that need to be addressed. This $250 million we are asking for 
this year is part of an overall $1 billion program that will 
bring us basically to the 21st century.
    Mr. Regula. Your company is contributing?
    Mr. Jacobs. Financially contributing?
    Mr. Regula. Yes?
    Mr. Jacobs. To the Friends of CDC organization, we are all 
contributors to that organization.
    Mr. Regula. So there is local help and support in addition 
to the Federal money?
    Mr. Jacobs. The money we are contributing which is a small 
amount actually goes towards our efforts in creating public 
awareness around this. There is no contribution to actual 
construction of the buildings.
    As you know, the role of the CDC over the past few years 
has continued to expand, addressing a group of areas, including 
infectious diseases, HIV and AIDS, tuberculosis and since 1973, 
the CDC has discovered more than 35 new deadly viruses and 
bacteria that create human health hazards.
    In addition to infectious diseases, they also work on 
preventing chronic diseases such as cardiovascular, cancer and 
diabetes. Other activities include the maximization of 
immunization rates for children, preventing a wide range of 
environmental diseases by preventing exposure to toxic 
chemicals and protecting employees from workplace injuries and 
disease. I would not allow any of my employees to operate in 
that kind of an environment. Quite frankly, if the same Federal 
and State health and workplace requirements were applied to 
this facility, it would be shut down.
    Let me say that the Parasitic Disease Laboratory which is 
one of the laboratories that has not yet been updated under 
this plan, are in temporary wooden barracks that were built in 
the 1940s, with a lifespan expectancy of 15 years. We are now 
45 years beyond that life expectancy. We have regular 
occurrences where, for example, refrigeration units fall 
through the floor; where power is inadequate and shut down 
periodically. We even had a incidence recently where we lost 
samples in a refrigeration unit, because the power system could 
not adequately supply the building.
    Mr. Regula. Let me tell you, our committee is going down 
there in about a week or shortly thereafter and visit the 
facility.
    Mr. Jacobs. Right.
    Mr. Regula. So I am sure we will be given an opportunity to 
see some of the deficiencies.
    Mr. Jacobs. Thank you; we look forward to having you down 
here.
    Mr. Regula. Do you have much more, sir?
    Mr. Jacobs. No, I will just close by simply saying that 
last was an excellent start, with $175 million, and we 
respectfully request that the $250 million be put in this 
year's budget. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, we thank you and all the companies that 
expressed an interest in this. Hopefully, maybe they can make 
some financial contributions to help get the job done, and we 
appreciate that.
    Mr. Jacobs. Thank you.
    Mr. Regula. The committee will recess. We have a one minute 
vote, which is in process now, and then three five minute 
votes. So I would say roughly ten after or a quarter after, we 
will reconvene, as we can get the votes over with. So if you 
all will be patient, we will go and do our duty.
    [Recess.]
    Mr. Regula. We will reconvene the committee.
    Mr. Jackson, I think you want to introduce your guest here.
    Mr. Jackson. Mr. Chairman, Linda Anderson has served as 
President and Chief Operating Officer for the Sickle Cell 
Disease Association of America, Incorporated, since 1992.
    During her eight year tenure, the Pittsburgh native and 
Carnegie Mellon graduate has used her 24 years of corporate 
management experience to position SCDAA as a source of services 
and support for individuals and families affected by sickle 
cell disease.
    Ms. Anderson was instrumental in developing and 
implementing a five year strategic plan, designed to strengthen 
the infrastructure of the 64 member association, promote the 
association's national programs, and heighten public awareness.
    Ms. Anderson is also active on several national boards or 
committees, including Vice Chair, Executive Committee, 
Community Health Charities, and the President's Committee on 
the Employment of People with Disabilities.
    Mr. Chairman and members of the subcommittee, Ms. Anderson.
                              ----------                              

                                         Wednesday, March 21, 2001.

             THE SICKLE CELL DISEASE ASSOCIATION OF AMERICA


                                WITNESSES

LYNDA K. ANDERSON, PRESIDENT/COO, SCDAA, THE SICKLE CELL DISEASE 
    ASSOCIATION OF AMERICA
TAHIRA YVONNE GIVHAN
    Ms. Anderson. Thank you very, very much, Congressman 
Jackson. On behalf of the Sickle Cell Disease Association of 
America, I want to thank you, Chairman Regula and members of 
the subcommittee, for giving me this opportunity to testify.
    With me today, I have Tahira Yvonne Givhan, the 2000/2001 
national poster child, our junior ambassador, for the Sickle 
Cell Disease Association of America. She is our star. Tahira 
will be speaking with you today on the challenges that she 
faces in life, because of having sickle cell anemia, an 
inherited genetic disease. Before Tahira delivers her remarks, 
I would like to briefly summarize the SCDAA's fiscal year 2002 
appropriations request. First, we ask that $4 million be 
provided to support a two part community outreach 
demonstration.
    Specifically, $2 million is requested from the Maternal 
Child Health Block Grant. Special projects of regional and 
national significance account to support the strengthening and 
expansion of locally-based newborn screening follow-up 
activities; and $2 million is requested from the Office of 
Minority Health, or another account within the Health Resources 
Services Administration, to support the strengthening and 
expansion of locally-based related outreach and supportive 
service efforts.
    Second, we support the efforts underway at the National 
Heart, Lung, and Blood Institute, to strengthen data coordination 
efforts of the ten comprehensive sickle centers, and seek increased 
resources for the establishment of a clinical research network.
    We ask that increased funding and report language in 
support of this effort be included in the fiscal year 2001 
Labor HHS Education Appropriation Bill. A more detailed outline 
of these requests has been submitted for the record. However, 
now I would like for Tahira to tell you why, in her words, 
these resources are so desperately needed.
    Mr. Regula. Well, Tahira, we are happy to welcome you. I 
can see why you chose her. She is a very pretty young lady.
    Ms. Givhan. Thank you.
    Mr. Regula. So we will be pleased to hear your testimony, 
Tahira. What grade are you in?
    Ms. Givhan. Fourth.
    Mr. Regula. Fourth grade, and where do you go to school?
    Ms. Givhan. Oak Mountain Intermediate School.
    Mr. Regula. What city is that?
    Ms. Givhan. Shelby County.
    Mr. Regula. Well, we are pleased that you could come this 
morning, so we will look forward to hearing from you.
    Ms. Givhan. Thank you, Mr. Chairman and other committee 
members. My name is Tahira Yvonne Givhan. I come to you on 
behalf of the Sickle Cell Disease Association of America. I 
have sickle anemia. It is a disease of the red blood cells. I 
am inherited the gene from both my parents.
    First and foremost, thank you for providing the funding for 
new treatment therapies, supportive services, and newborn 
testing. In fact, the doctor tested me while I was still in the 
hospital, as a newborn baby. That is the law in most states, 
and it is a fantastic law, because babies with sickle cell 
anemia often require special care. As a result of your 
investment, sickle cell anemia no longer spells doom and gloom, 
the way it did years ago. The mortality rate for infants with 
sickle cell anemia has decreased dramatically. Again, I thank 
you.
    Yes, the advances made in biomedicine in recent years are 
appreciated greatly. However, more funding is badly needed to 
help find a cure, so that we will no longer have to manage the 
pain and suffering that comes with having this unpredictable 
disease. Because I have sickle cell anemia, my cells are 
sickled, making it hard for oxygen to stay in them. Sometimes, 
these sickle shaped cells become sticky and thick, and can clog 
small blood vessels in my body.
    When this happens, I hurt. This can cause a lot of pain 
anywhere in my body. When my head hurts, my parents and doctors 
have to monitor me closely, to make sure that I do not have a 
stroke, like many people with sickle cell anemia.
    It is true that I enjoy a number of activities like other 
young people my age: ballet, riding my bike, and playing on the 
swing set. But during most of the days of the week, I am very 
tired and in pain. At school, I do not think that my teachers 
understand how difficult it is for me to keep up with the other 
kids, particularly in P.E. So in addition to being in great 
pain, I have to suffer the embarrassment of being different.
    The challenges faced by families that have children with 
sickle cell anemia are pretty serious. Therefore, the services 
provided SCDAA's member organization, such as outreach, are 
very important; but they need more help so that they can help 
more kids like me. I believe and have faith that a cure will be 
found in my lifetime, so that as we move into this new 
millennium, we, too, can enjoy the American dream in its 
totality. When this happens, it will just be wonderful.
    Mr. Regula. Well, Tahira, you are a very persuasive 
witness. [Laughter.]
    Mr. Jackson.
    Mr. Jackson. Mr. Chairman, let me again thank Ms. Anderson 
and Tahira for their testimony. I do not have sickle cell 
anemia, but I, like my father, carry the trait, as well.
    I introduced elevating the Office of Research on Minority 
Health at NIH to a center status last year, which fortunately 
passed with the help of Mr. Bilirakis, John Lewis, Benny 
Thompson, Senator Frist and Senator Kennedy in the Senate.
    Sickle cell anemia just happens to be one of those diseases 
at the National Institute of Health that could use better 
coordination amongst all of the centers. But for the elevation 
of the office to center level, the office itself did not have 
the ability to even sit in the room with the other centers, to 
look across the entire institute, for the purposes of trying to 
arrive at a cure.
    If there ever was a disease, Mr. Chairman, that is 
reflective of the disparities that exist amongst those groups 
who have been left behind in America, it is certainly sickle 
cell anemia. Of all of the options and diseases that will be 
before the Center for Research on Minority Health at NIH, 
sickle cell anemia should be way on top of the list for Dr. 
Ruffin, Dr. Fouchey, and Ms. Kirschstein at NIH.
    I will be arguing on behalf of Tahira and other children, 
as well as Americans who are similarly situated, for the 
appropriate amounts at the National Institute of Health, to 
reflect her desire and our desire to bring an end to this 
devastating illness.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Tahira, do you have to miss much school?
    Ms. Givhan. No.
    Mr. Regula. You must not, because you certainly speak very 
well for a fourth grader.
    Ms. Givhan. Thank you.
    Mr. Regula. Thank you for coming.
    Ms. Anderson. Thank you for having us.
    Mr. Regula. Our next witness is Dr. John Sever, Member, 
International PolioPlus Committee, Rotary International.
                                         Wednesday, March 21, 2001.

        INTERNATIONAL POLIOPLUS COMMITTEE, ROTARY INTERNATIONAL


                                WITNESS

DR. JOHN L. SEVER, MEMBER, INTERNATIONAL POLIOPLUS COMMITTEE, ROTARY 
    INTERNATIONAL
    Mr. Sever. Thank you very much, Chairman Regula and 
Congressman Jackson. It is a pleasure and a privilege to be 
here to tell you about the International PolioPlus Program to 
eradicate polio worldwide. I am a professor of pediatrics at 
the Children's Hospital here in Washington and George 
Washington University. I am representing Rotary International, 
which I am a member of. There are 1.1 million members of Rotary 
International, of which there are about 380,000 members in the 
United States.
    Some years ago, the Rotary founded a coalition to eradicate 
polio worldwide. That includes the March of Dimes Birth Defects 
Foundation, the American Academy of Pediatrics Task Force for 
Child Survival and Development, and the U.S. Fund for UNICEF, 
along with Rotary International. We are working to help 
eradicate this disease worldwide. The goal is to complete that 
eradication by the year 2005, which is just a few years ahead. 
It will be only the second disease in the history of man that 
has been eradicated; small pox being the other disease. So the 
goal is not just to control the disease, not just to immunize 
children, but to eradicate the disease completely worldwide by 
the year 2005, at which point we will be able to stop 
immunizing for polio, because it will no longer exist in the 
world, just as we did stop for smallpox.
    There has been a great deal of progress made, and the 
support from this subcommittee, your support, has been very 
important through the U.S. Centers for Disease Control, over 
the years. That, along with Rotary International's support and 
other nation's support, has really made a big difference. You 
have in your material the fact that in 1988, there were over 
350,000 cases a year worldwide, and today, just last year, 
there were only 3,500 cases. So that is down to just one 
percent of what it was in 1988.
    Mr. Regula. The United States is fairly clean.
    Mr. Sever. The United States has had no polio for almost 18 
years now. There has been no polio. Eradication has been 
complete in this hemisphere since 1991. Eradication in the 
Western Pacific area was achieved two years ago, so this has 
been focusing down. The only places in the world that polio 
still exists is in Southeast Asia, India, Pakistan, Bangladesh, 
and in Africa. So that, right now in the next five years, is 
the focus to complete the eradication of this disease, so that 
it will no longer happen.
    The efforts can be measured in many ways. First, of course, 
one can estimate the number of children who have not been 
paralyzed, who would have been paralyzed, if this effort had 
not taken place, and it now exceeds three million. The effort 
can be measured in terms of cost savings. In the United States, 
for example, although as we mentioned, we do not have any cases 
of polio, we still must immunize all the children in the United 
States for polio, because it could be brought in from one of 
these other areas. That costs us, in this country, about $230 
million a year to immunize for a disease that we do not have. 
That would be, of course, saved, once the disease is 
eradicated.
    Worldwide immunization costs about $1.5 billion a year for 
polio. Again, on a worldwide level, that would be a tremendous 
savings. So both in terms of the reduction, the suffering, and 
the cost, just to mention two areas, there is a tremendous 
benefit for completing this job in the next few years. The U.S. 
Center for Disease Control has been a great assistance. This 
last year, the appropriation was for $91.4 million. When you go 
to Atlanta, and besides seeing the buildings, I hope that you 
will learn more about how they are providing epidemiologists 
worldwide to help participate in this eradication effort.
    There is a large new group in India and another group in 
Africa, which are vital to identifying where polio is 
continuing, and where it has to be immunized in carrying 
national immunization days; plus, providing vaccines. The 
Rotary is also doing this. Rotary, since 1988, has been 
providing money for vaccine immunizations, as well as 
volunteers. By the time this job is done, Rotary will have 
provided about $500 million towards this eradication program, 
from its own contributions and its own funds.
    We are asking this year that the appropriation be increased 
by $15 million, for a total of $106.4 million. The reason for 
that is, that the price of the vaccine has gone up from about 
seven cents a dose, to about 9.6 cents a dose, and because of 
the tremendous amount of effort that is required now in Africa 
specifically to get the job done.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you very much. I think it is great 
that a service organization such as Rotary does get behind what 
is obviously a very worthwhile project.
    Mr. Sever. Thank you.
    Mr. Jackson. Mr. Chairman, I just have one question.
    Mr. Regula. Yes, Mr. Jackson?
    Mr. Jackson. Let me also congratulate you, sir, for the 
work that you have undertaken. To what do we owe the 
substantial cost increase for the cost of the polio vaccine?
    Mr. Sever. Well, basically, the costs of materials have 
gone up in the last couple of years, and the large volumes that 
are now being used have caused the manufacturers to have to 
build additional facilities, as I understand, in order to 
produce this.
    For example, in India, we had an immunization date, which 
is the way you would eradicate this, as we are doing in Africa. 
There are 17 countries in Africa, simultaneously immunizing 
their entire population of children under five years of age.
    It takes enormous amounts of vaccine, and we have had to 
just tremendously increase the capacities to provide this 
vaccine, and to have it available. In India, for example, a few 
weeks ago, they just immunized 140 million children in one day. 
There is just an unbelievable effort to that, and it is an 
enormous quantity of vaccine.
    So unfortunately, the cost of producing the vaccine and the 
cost of augmenting the facilities has come back in terms of 
this increase in vaccine costs.
    Mr. Jackson. Is the cost that you have requested, in terms 
of the increase in the program, does it approximate the size of 
the problem, in terms of our ability to curtail the disease by 
administering polio vaccines, but at the same time, does it 
take into account the fact that the population in many of these 
areas is constantly growing and expanding?
    Mr. Sever. It takes into consideration both, sir. The 
population growth is important. The issues of administration 
under these massive programs has to be taken into 
consideration. The other countries are assisting, too. The 
United States, I think, is the leadership of countries, but 
Great Britain and most European countries are also helping to 
try to get this job done.
    The fact that we are focusing on it to get it done quickly 
in the next five years is important, too, because we can then 
complete the job, and it will not have to go on and on and on.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Our next witness is Lydia Lewis, who will be introduced by 
Mr. Jackson.
    Mr. Jackson. Mr. Chairman, Lydia Lewis became Executive 
Director of the National Depressive and Manic-Depressive 
Association in 1997.
    Headquartered in my hometown of Chicago, the National DMDA 
is the largest patient-directed, illness-specific organization 
in the country, with nearly 400 patient-run support groups 
throughout the country.
    Ms. Lewis' primary responsibility has been to position 
national DMDA as a leading source for information on mood 
disorders, and the treatments for patients, family members, 
health care professionals, the media, and others.
    She holds a bachelor's degree in psychology from the State 
University of New York at Buffalo. She was a charter member of 
the NIH Director's Counsel of Public Representatives.
    She also serves on the oversight committees of several 
large NINH clinical trials, including current trials studying 
the effectiveness of treatments for bi-polar disorder and the 
study of treatment of adolescents with depression. One of her 
proudest accomplishments has been her willingness to confront 
her own life-long battle with depression.
    Mr. Chairman and members of the committee, I present Ms. 
Lewis.
                              ----------                              

                                         Wednesday, March 21, 2001.

          NATIONAL DEPRESSIVE AND MANIC-DEPRESSIVE ASSOCIATION


                                WITNESS

LYDIA LEWIS, EXECUTIVE DIRECTOR, NATIONAL DEPRESSIVE AND MANIC-
    DEPRESSIVE ASSOCIATION
    Ms. Lewis. Thank you very much, Congressman Jackson; I 
truly appreciate the introduction. Mr. Chairman Regula and 
members of the subcommittee, as Congressman Jackson said, I am 
Lydia Lewis. I am the Executive Director of the National 
Depressive and Manic-Depressive Association. We appreciate the 
opportunity to testify in support of funding for neuro-science, 
behavioral science, and genetic research, through the National 
Institutes of Health and the National Institute of Mental 
Health. National DMDA applauds the doubling of the NIH budget, 
and encourages the subcommittee to continue providing strong 
leadership on this effort, which has had a significant impact 
on mental health research.
    While I am here today to testify on behalf of National 
DMDA, I know personally what it is like to battle depression 
every day, to fight the urge to end my life. It is a dreadful 
way to live. I, myself, suffer from the disease, and I am not 
alone. The recent global burden of disease study conducted by 
the World Health Organization, the World Bank, and Harvard 
University found that mental illness has long been 
misunderstood. In fact, it accounts for more than 15 percent of 
the burden of disease in established market economies. This is 
more than the disease burden caused by all cancers combined.
    More than 20 million American adults suffer from unipolar 
or major depression every year, and it is the leading cause of 
disability in the world today. An additional 2.3 million people 
suffer from bipolar disorder. Onset is nearly always before the 
age of 20, meaning more high school drop-outs, more illegal 
drug and alcohol use, higher teen pregnancy rates, more teen 
violence, and more adolescent suicides. An estimated 50 million 
Americans experience a mental disorder in any given year, yet 
only one-fourth of them actually receive mental health and 
other services. Women are more than twice as likely as men to 
experience depression. One out of every four American women 
will experience a major depressive episode in her lifetime.
    Coping with these devastating illnesses is a tragic, 
exhausting, and difficult way to live. Mood disorders and other 
mental illnesses kill people every day. Depression is the 
leading cause of suicide. One in every five bipolar sufferers 
takes his or her life; one in five. Suicide is the third 
leading cause of death among fifteen to twenty-four year old 
Americans. For every two homicides committed in the United 
States, there are three suicides.
    Despite these facts, stigmatizing mental illness is a 
common occurrence. Labeling people with mental illnesscontinues 
to send the message that de-valuing mental illness is acceptable.
    Equally devastating is the stigma associated with the 
research of mental illnesses. Research in behavioral science is 
as critical as that undertaken for any other illness. Our 
understanding of the brain is extremely limited, and will 
remain so for decades, unless much greater financial support is 
provided. Neuro-science research is also critically important 
to understand the mechanisms in the brain that lead to these 
illnesses. Every day, technology and science bring us further 
in understanding the brain. These kinds of successes build upon 
each other. Great strides are being made, but it is imperative 
that the progress be maintained.
    In 1999, the Surgeon General released the first-ever study 
from that office on mental illness. It concluded that these 
diseases are real, treatable, and affect the most vital organ 
in the body, the brain. We are particularly pleased that NIMH 
played a lead role in the Surgeon General's report on youth 
violence. With further research into the relationship between 
mental illness and violence, we are hopeful that tragedies like 
the recent school shootings in California and across the 
country can be prevented in the future. Research supported by 
NIMH has led to a much better understanding of these illnesses. 
We are learning more about their impact on other diseases, such 
as Parkinson's, cardio-vascular ailments, stroke, diabetes, and 
obesity. But more funding for NIMH and other research 
institutions is critical to ensure that any forward momentum is 
not lost.
    We commend the subcommittee's past support of the National 
Institutes of Health and the National Institute of Mental 
Health, and your renewed commitment to full funding of mental 
health research. Together, our efforts will mean real treatment 
options, and an end to the stigma associated with mental 
illness, lives saved, and a far more productive America.
    Again, I appreciate the opportunity to testify.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Mr. Jackson, do you have any questions?
    Mr. Jackson. I do not have any questions, Mr. Chairman.
    Mr. Regula. Thank you for coming.
    Ms. Lewis. Thank you.
    Mr. Regula. Our next witness will be Dr. George Hardy, 
Executive Director of the Association of State and Territorial 
Health Officials. Mr. Hardy, welcome.
                              ----------                              

                                         Wednesday, March 21, 2001.

         ASSOCIATION OF STATE AND TERRITORIAL HEALTH OFFICIALS


                                WITNESS

GEORGE E. HARDY, JR., MD, MPH, EXECUTIVE DIRECTOR, ASSOCIATION OF STATE 
    AND TERRITORIAL HEALTH OFFICIALS
    Mr. Hardy. Thank you, Mr. Chairman, Mr. Jackson, and 
members of the subcommittee. I appreciate the opportunity to 
appear here this morning. My name is George Hardy. I have the 
privilege of serving as the Executive Director of ASTHO, the 
Association of State and Territorial Health Officials.
    In the last century, our nation has made tremendous strides 
in improving the health of Americans. As Dr. Sever just 
reminded you, we have eradicated smallpox from the globe, polio 
from the Americas, and we have had substantial reduction in the 
incidents of disease and death from major infectious and 
chronic diseases. We also recognize that there is a lot more 
that we have to do.
    I would like to make the case that as a nation, we need to 
continue our investment and research, but just as importantly, 
we need to invest in the transfer of research findings to 
public health programs. If research findings are not made 
available to the public, they might just as well not have been 
made.
    If society is going to be the ultimate beneficiary of our 
commitment to research, we need to make the same kind of 
commitment to investment in programming.
    CDC and HRSA provide the states with the resources to carry 
out these public health programs. ASTHO urges the committee to 
assure that CDC receives a total appropriation in fiscal year 
2002 of $5 billion and HRSA, $6.7 billion
    This morning, I will discuss only a few of the important 
programs to states. You have heard about immunization, but you 
are going to hear about it again. Let me tell you how important 
this is.
    In the last 50 years, immunization programs have produced a 
95 percent decline in most childhood vaccine-preventable 
diseases. Despite this, an estimated one million American two-
year-olds have not received one or more doses of vaccine that 
they should have had, at that point in life.
    Not only must we assure that the children are adequately 
immunized, but we also need to assure that adolescents and 
adults receive needed immunization services, such as influenza, 
hepatitis, and pneumococcal vaccine.
    We thank the members of this subcommittee for ensuring that 
CDC received a down-payment last year on much-needed 
immunization funding. But as the Institute of Medicine has 
pointed out, additional funds are still necessary to meet the 
need.
    Just one example of such a need is the important challenge 
of raising immunization levels among children served by WIC 
programs. Specifically, we are requested $32.5 million 
additional dollars for CDC's immunization infrastructure 
program, and $93 million additional for domestic vaccine 
purchases.
    This latter figure, I know, sounds high; but it is 
necessary if we are going to provide the newly-approved 
pneumococcal vaccine for children. This vaccine will cost 
health departments nearly $200 per child to purchase.
    The preventive health and health services block grant is a 
component of every state's strategy to address their own unique 
health needs. ASTHO has just produced this new publication, 
``Making a Difference,'' which I know you have seen, Mr. 
Chairman, and it documents the impact of public health through 
this program.
    Every state does something different. In Ohio, for 
instance, to just pick a state at random, the Health Department 
has shown a marked reduction in the incidents of adverse 
reactions and preventable hospital admissions, as a result of 
medication errors in the elderly.
    As I have said, every state has addressed its own problems. 
I think that this document will convince you of the importance 
of the preventative block.
    Since its inception 20 years ago, funding for the 
preventive block grant has been stagnant. It has not kept pace 
with inflation.
    It has not been adjusted for the increasing population, or 
for the new public health needs that were not even known at the 
time it was created, such as AIDS and West Nile Virus. We are 
asking the subcommittee to provide an additional $75 million 
for that block grant.
    Last year, the Congress enacted the Public Health Threats 
and Emergencies Act, to address bioterrorism, antimicrobial 
resistance, and public health capacity. Each of these are 
critically important, and we would urge the subcommittee to 
fully fund the $534 million that is authorized for these 
services.
    Many other programs at CDC and HRSA deserve this 
committee's attention. The Maternal and Child Health Block 
Grant and the Ryan White Care Act, both programs at HRSA, are 
critical to the states, and we support the request of $850 
million for the MCH block grant.
    I want to close by expressing again our appreciation to 
this subcommittee for its past commitment to public health. 
Your work has made a tremendous difference in the lives of 
people, and we are going to need your help again this year, as 
we try to advance the health of our Nation.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you very much for your comments. I 
am sure there is a great need there.
    The next witness is Dr. Thomas Clemens, Professor of 
Medicine and Molecular and Cell Physiology, University of 
Cincinnati.
                              ----------                                


                                         Wednesday, March 21, 2001.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                                WITNESS

DR. THOMAS L. CLEMENS, PROFESSOR OF MEDICINE AND MOLECULAR AND CELL 
    PHYSIOLOGY, UNIVERSITY OF CINCINNATI COLLEGE OF MEDICINE, NATIONAL 
    COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES
    Dr. Clemens. Thanks, Mr. Chairman and Congressman Jackson.
    My name is Tom Clemens. I work at the University of 
Cincinnati. I do basic research in bone biology. With me is 
Charles Hall, a patient with fibrous dysplasia.
    The National Coalition for Osteoporosis and Related Bone 
Diseases appreciates this opportunity to present our position 
on the need for continued and expanded funding for osteoporosis 
and related bond disease research at the National Institutes of 
Health. We also appreciate the committee's past support for the 
goal of doubling the NIH budget, and last year's significant 
increase.
    The bone diseases represented by our coalition occur in all 
populations and at all ages. They are devastating diseases, 
with significant physical, psycho-social, and financial 
consequences, including pain, disability, and death.
    Consider, if you will, what we already know about how our 
bones function. Throughout life, our bone is constantly being 
remodeled through repeated cycles of bone breakdown and bone 
build-up. As we age, this balance shifts in favor of bone 
breakdown, rather than bone build-up. If unchecked, this 
delicate balancing act goes awry, and this results in bone 
disease.
    Our increasing understanding of this process has led to 
exciting new drug therapies, that balance out. Yet, bone 
disease still has no cure, and there are many important 
questions remaining unanswered.
    What are the major bone diseases? One is osteoporosis, the 
most prevalent bone disease in this country. It is 
characterized by low bone mass and structural deterioration of 
bone. Ten million Americans have osteoporosis, and 18 million 
more have low bone mass, placing them at risk of the disease.
    In 1995, osteoporosis was responsible for 2.5 million 
physician visits; 180,000 nursing home omissions, and over 
400,000 hospital admissions. The direct cost of fracture is 
$13.8 billion, which should triple by the year 2040.
    Paget's disease of bone is a chronic disorder that may 
result in enlarged or deformed bones in one or more regions of 
the skeleton. Complications may include arthritis, fractures, 
bowing of the limbs, and hearing loss. Paget's affects up to 
eight percent of our population over 60. That is two to three 
million Americans.
    Osteogenesis Imperfecta is a genetic disorder that is 
typically diagnosed in infancy. Osteogenesis imperfecta causes 
bones to break easily. For example, a cough or a sneeze can 
break a rib; simply rolling over in bed can break a leg.
    Osteogenesis Imperfecta affects an estimated 30,000 adults, 
children and infants in the United States, causing as many as 
several hundred broken bones in a lifetime.
    I understand from Mr. Grove, Chairman Regula, that you have 
actually had the opportunity to see a number of these patients 
at the Institute of Child Health.
    Fibrous dysplasia, which affects Mr. Hall, is a chronic 
disease of the skeleton, which causes expansion of one or more 
bones, due to the development of a fibrous scar within the 
bone. This weakens the bone, causing pain, deformity, 
disability, and fracture. At present, there are no approved 
therapies for this disease.
    Osteopetrosis is a disease present at birth, at which bones 
are overly dense. This is due, again, to an imbalance between 
bone formation and bone breakdown. Complications often begin 
before the age of five, and include fractures, frequent 
infections, and problems with sight and blood vessel disease. 
The National Institute of Arthritis and Muscular Skeletal and 
Skin Diseases, NIAMS, leads the Federal research effort on bone 
disease; however, the need for trans-NIH search is vital. Bone-
related disease cuts across many research institutes at the 
NIH. Given the breadth and depth of these diseases, we urge the 
committee to instruct NIH to make this one of its top trans-NIH 
priorities.
    With the steady greying of Americans, now is the time to 
find solutions to these dehabilitating diseases, in order to 
alleviate the stress that will be placed on the Medicare system 
in the future.
    Vast opportunities still exit to expand our current 
knowledge base. Initiatives that may serve as springboards to 
further research include: basic research, funded by the NIH; 
and clinical trials with power-thyroid hormone, or PTH, the 
newest front-line treatment for osteoporosis.
    One form of PTH has just been submitted to the FDA for 
approval. Researchers still do not really know how it functions 
at the cellular level.
    While osteoporosis was once thought to be a woman's 
disease, it is now an important issue among men. An estimated 
one-third of hip fractures, worldwide, occur in men, including 
the one recently sustained by President Ronald Reagan. A major 
study on how the disease affects men is currently underway and 
supported by the NIH. In the area of osteogenesis imperfecta, 
researchers are exploring the effectiveness of a drug that 
appears to increase bone marrow density and decrease bone loss.
    Finally, a new clinical center for patients with fibrous 
dysplasia was recently established at the NIH, and has proved 
to be a resource for physicians and patients around the 
country, while furthering research on this crippling disease.
    Mr. Chairman, the research community sincerely appreciates 
the committee's efforts over the years to ensure continued 
strength of the NIH research program. The high value that we 
continue to place on biomedical research will lead to the 
prevention of disease, reduce disability, and decrease the 
staggering health care costs associated with bone and other 
diseases.
    Just let me say one more thing before I finish, and that 
concerns the timing of our request. With the completion of the 
human genome project, researchers right now are poised to make 
new discoveries and identify new gene targets. This is going to 
be absolutely essential, so the timing of our request is 
critical.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you deal with brittle bones?
    Mr. Clemens. Yes, and the one disease that I did mention, 
osteopetrosis, is called marble bone disease. Osteogenesis 
imperfecta is also associated with brittle bones, and is called 
actually Brittle Bone Disease.
    Mr. Regula. That is a very difficult challenge.
    Are there any questions, Mr. Jackson?
    Mr. Jackson. Mr. Chairman, just by virtue of the fact that 
NIAMS is an institute at NIH, and they are already engaged in 
trans-NIH research on many of the diseases that you indicated, 
is there a specific funding request for any of the diseases 
that you mentioned, that should be covered, above and beyond 
what the committee and the President have already made a 
commitment to do? I am not so sure that I actually heard that 
in your testimony.
    Mr. Clemens. We would recommend a 16.5 percent increase for 
NIAMS; but I wanted to stress the trans-NIH funding; because 
there are institutes, for example, child health and the cancer 
institutes, where these bone diseases are also funded. So we 
would like to recommend the 6.5 increase, with the trans-NIH 
funding for that. That is not over and above 16.5 percent.
    Mr. Regula. Thank you very much.
    Our next witness is Lawrence Pizzi, Volunteer, North 
American Brain Tumor Coalition.
                              ----------                              

                                          Wednesday, March 21, 2001

                  NORTH AMERICAN BRAIN TUMOR COALITION


                                WITNESS

LAWRENCE PIZZI, VOLUNTEER, NORTH AMERICAN BRAIN TUMOR COALITION
    Mr. Pizzi. Good afternoon, Mr. Chairman. I am going to 
follow suit with many of my predecessors, and tell you that 
although I was born overseas, my first and earliest memories 
are Kent, Ohio. [Laughter.]
    Mr. Regula. You are getting close.
    Mr. Pizzi. I knew I had to come up with something.
    Mr. Regula. Well, Chicago and Ohio have done well today.
    Mr. Pizzi. My name is Larry Pizzi. It is my privilege to 
appear today as a representative of the North American Brain 
Tumor Coalition, a network of 12 charitable organizations that 
raise funds for brain tumor research, and provide information 
and support to individuals with brain tumors, their families, 
and their friends.
    We corroborate in advocacy to increase brain tumor 
research. We also work to guarantee that every brain tumor 
patient has access to the best possible health care.
    I am also the Executive Director of one of the coalition's 
founding member organizations, and the only member of the 
coalition not represented by one of the states on this 
committee. I am from Massachusetts.
    Most importantly, though, I am the father of Timothy 
Lawrence Pizzi, a child diagnosed with a brain tumor in 1989. 
He lived nearly seven years, before dying at the age of 12.
    Mr. Regula. This was your son?
    Mr. Pizzi. Yes, my son.
    Mr. Regula. He was born with the tumor?
    Mr. Pizzi. He was diagnosed at age six with a tumor that he 
probably had since birth. He died at age 12. He and thousands 
like him, children and adults, are the reason that my testimony 
today is a privilege, and I thank you.
    Brain tumors are a unique disease and present special 
challenges for all that they touch. Brain tumors are not a 
single disease. Instead, there are at least 126 types of 
central nervous system tumors. It is difficult to treat brain 
tumors, not only because of their diversity, but because of the 
unique biology of the brain.
    I am sure that you can understand how it is possible to 
remove a lung, a breast, or prostate that is affected by 
cancer; but we cannot remove the brain. Treatment strategies 
that are successful with other cancers cannot be used to treat 
brain tumors.
    Moreover, brain tumors affect the organ that make us who we 
are. They are a disease not only of the body, but also of the 
soul. They are a disease of the quality of life.
    A recent Government study accurately defined a brain 
tumor's impact as mental impairment, seizures, and paralysis 
that affect the very core of a person, and have a demoralizing 
effect on loved ones.
    Added to these burdens is the knowledge that for most brain 
tumors, adequate treatment is not available. In children, even 
if they do survive the devastating impact of the treatment, it 
often leaves them with permanent damage. However, these are 
exciting times, and there is hope for progress.
    I would simply echo those who have come before me, and ask 
that we continue to fund the National Institutes of Health in 
such a way that we essentially double the research budget by 
the year 2003. We join the other patient organizations in 
commending this committee for its role in that progress, and we 
would ask that you continue it.
    Brain tumor research suffers from a lack of trained 
clinical investigators. Good funding is going to be very 
important to continue attract them.
    Mr. Regula. Is there any one institution that is focusing 
on this, that you are aware of?
    Mr. Pizzi. That is my next point. We have been urging for a 
number of years corroboration between the two institutes at the 
National Institutes of Health, that have responsibility for 
brain tumors, the NINDS and NCI. That is the National Institute 
of Neurological Disorders and Stroke and the National Cancer 
Institute.
    I am very glad to say that over the last year, we have seen 
much progress in that area, resulting in this document by a 
progress review group, that was carried out jointly bythe NINDS 
and the NCI, and advocates in the extra-mural community.
    I am here today to ask you and your committee to ensure 
that this progress review group document, which represents a 
true corroboration between Government, the private sector, and 
the advocacy sector, not become a document on a shelf.
    These organizations, the NCI and the NINDS, have worked 
very well together to produce a national strategy for attacking 
this disease. We have a couple of specific requests.
    One is that we enhance brain tumor research through 
continuing the corroboration that this document represents. The 
two institutes should strengthen their mechanisms for 
coordination and corroboration among extra-mural researchers. 
The written version of my testimony contains the details of how 
we would like this accomplished.
    They should organize and fund a series of inter-
disciplinary meetings, of researchers that would focus on the 
subjects of brain tumor biology. They, along with the Center 
for Scientific Review, should make sure that study sections, or 
the people who look at the grant requests coming up from the 
field, saying yes, we should fund this or no, we should not, 
have the right expertise to evaluate brain tumor grants. 
Currently, they do not.
    Mr. Regula. You do not think they are capable of making 
judgments on the allocation of the resource money?
    Mr. Pizzi. Brain tumors are highly specialized. Our 
experience is that the specialists who make up the brain tumor 
community are not adequately represented on those.
    I will close with this point. In addition, there is the 
recently established NCI-NINDS Neuro-oncology Branch. They see 
this as great progress, because it represents the two 
institutions. We would like to see that branch continue, to not 
only work intermurally in Bethesda, but to be sort of the focal 
point for the corroboration.
    I would like to tell you that my son was very close to a 
very prominent brain tumor researcher. His name was Dr. Mark 
Israel. One day shortly before my son died, knowing that he 
would die, he called Mark on the telephone, and asked him the 
question that he would always love to ask him, ``Mark, are 
still looking for a cure?'' Mark, of course, told him that he 
was. Timothy said to him, ``Now would be a good time.''
    It did not work for Tim, or thousands of others, since he 
died five years ago. He became part of one statistic that I 
will leave you with. Brain tumors are the leading cause of 
cancer deaths in children under the age of 20, now surpassing 
acute lymphoblastic leukemia, and are the third leading cause 
of cancer deaths in young adults, ages 20 to 39.
    We applaud the dedication of this subcommittee to advancing 
biomedical research. We look forward to working with you to 
support brain tumor research at a time when advances, we 
believe, are truly going to be possible, and to make a time 
when the Timothys of this world will have a much brighter 
future.
    I thank you.
    [The information follows:] 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    What are the choices, since you cannot use chemicals or 
chemotherapy?
    Mr. Pizzi. Brain tumors are resistent, generally, to 
chemotherapy, because of the nature of the biology of the 
brain. Radiation is a very common treatment; but, of course, it 
does a lot of damage to normal, healthy brain tissue.
    So we have a case where the treatment can leave the patient 
cured or in remission, but with so many deficits. Nearly 80 
percent of adults who have brain tumors or are treated for them 
are unable to go back to work, even though they are still 
alive.
    Children who are treated for brain tumors live the rest of 
their lives with cognitive deficits. So it is just the nature 
of where it is, Mr. Chairman. It is truly a unique organ of the 
body. There are 126 kinds of them. There is no other cancer 
that has that many sub-sets of a disease.
    Mr. Regula. It puts pressure on the brain.
    Mr. Pizzi. Automatically, and that, of course, is a major 
problem.
    Mr. Regula. I had a friend that died that way.
    Thank you very much.
    Mr. Pizzi. Thank you very much for your time.
    Our next witness is Ken Moss, Friends of Cancer Research.
    Mr. Moss?
                              ----------                              

                                          Wednesday, March 21, 2001

                       FRIENDS OF CANCER RESEARCH


                                WITNESS

DR. KEN MOSS, FRIENDS OF CANCER RESEARCH
    Ms. Segal. Good afternoon, Mr. Chairman, I am Ellen Segal 
of Friends of Cancer Research. I am pleased to introduce to you 
Dr. Ken Moss. He is from your home state of Ohio, from 
Cleveland. He is an endothesiologist, and he also teaches at 
Case Western.
    Dr. Moss and his wife Anita are going to put a human face 
on this disease, and talk about their daughter Elisa. You will 
hear from Dr. Moss.
    Dr. Moss.
    Dr. Moss. Thank you.
    Chairman Regula and members of the subcommittee, thank you 
for the opportunity to testify today.
    I come before you not as a physician, but as a father of a 
beautiful and talented 17 year old, who passed away last 
October from cancer.
    I took this photo on Elisa's high school graduation, almost 
four months before she died. She looked exactly the same way on 
that fateful day in October. In fact, hours before she died, 
she stopped in front of the mirror on the way out the door to 
the doctor's office, telling her mother that she was going to 
put on makeup, so that no one would be able to tell that, ``I 
am a cancer patient.''
    Elisa was gifted and mature beyond her years. Almost 
everyone she met liked her. Over 900 people attended her 
funeral. Classmates flew home from college from as far away as 
California, because Elisa meant that much to them.
    It is impossible in five minutes to tell you of all the 
anguish, fear and frustration that we felt as we watched 
helplessly as cancer slowly took her.
    While returning from a New Year's cruise in January of 
1998, my daughter noticed pain in her thigh. I did not think 
anything of it; however, the pain persisted. Within a few 
weeks, my wife arranged for a MRI. A mass was found and quickly 
biopsied.
    ``I am sorry, but your daughter has cancer.'' No statement 
will strike more terror into a parent than that. Even worse, 
Elisa had a rare, highly malignant tumor. The prognosis was a 
20 percent five year survival.
    As a parent, I was devastated; but as a doctor, I simply 
could not accept it. We took her to Memorial Sloan Kettering 
for a second opinion. They recommended high dose chemotherapy, 
surgical excision, and a bone marrow transplant.
    Throughout the chemotherapy that caused extreme illness, 
loss of her hair, and most importantly, forced her to remain at 
home and stop going to school, Elisa fought back. She never 
gave up and she never complained.
    During each of the 12 surgical procedures that she had in 
the two years that followed her diagnosis, she always remained 
optimistic, and she was an inspiration to everyone who knew 
her.
    In August, 1998, Elisa underwent a stem cell transplant. 
Yet, six months later, she relapsed, with a tumor in her lung. 
After a biopsy confirmed the worst, a big debate ensured about 
what to do. Traditional medicine had failed her, so we examined 
experimental protocols at the National Cancer Institute.
    One study in particular had promise, and Elisa, who had 
always played an active role in her treatment, agreed. This 
began a period of four months of commuting to Bethesda with 
Elisa. But the home run that we had hoped run was not to be, 
and by August 1, 1999, it was clear to investigators that Elisa 
was not responding and, in fact, her tumors were doubling, both 
in size and in number, each month.
    I brought Elisa back home to the Cleveland Clinic, and her 
doctor sat me down and told me that she had less than three 
months to live, and that her only chance was more chemotherapy, 
to hopefully shrink the tumors and buy her more time. To me, 
this was insanity, doing the same thing again, and expecting a 
different result.
    I knew that her only hope was to target the cancer cells by 
other means, such as attacking the tumors' blood supply. My 
family and I had already read all the literature. We were 
knowledgeable about the tremendous advances that were being 
made with different agents.
    There were so many promising treatments on the horizon; if 
only we had the time to wait for the studies to be carried out; 
time for new drugs to come to market. But we did not, and Elisa 
had only three months to live.
    Elisa's doctors at the Cleveland Clinic accepted my 
suggestion that we try a radically different approach that was 
only vaguely described in one person and in animal studies. The 
treatment which we modified constantly over the next 13 months 
significantly slowed her tumor growth. Not only did Elisa not 
die, she went with us on a 10 day Christmas cruise, and had a 
ball.
    In March, Elisa returned to high school and completed her 
senior year. She went to prom and lived as normally as she 
could, despite the fact that twice a week, in our family room, 
I would hook her up to an IV, and administer the experimental 
treatment.
    She graduated with highest honors, and was accepted to Case 
Western Reserve University, where she intended to get a 
combined degree in nutrition and biochemistry.
    Sadly, her time ran out before the treatment protocol that 
we were using could be fine-tuned. Elisa was content to live 
with her cancer. She was hopeful that we could convert it to a 
chronic disease.
    Elisa's dream can become a reality if Congress and the 
White House live up to the five year commitment to double the 
NIH budget. If the Government falters on the commitment, at a 
time of great excitement and optimism amongst cancer 
researchers, the momentum will be lost. It is also essential to 
fund NCI's bypass budget request, which is a comprehensive 
national plan for cancer research.
    There is hope in the near future for effective treatment 
alternatives, and promising laboratory research awaits clinical 
studies, such as those underway at the NCI. No single treatment 
will effectively control cancer. Combinations of different 
treatments will be necessary. Costly clinical studies of 
treatment combinations must be started.
    Elisa did not die because she had incurable cancer. My 
daughter died because we did not know how to control it.
    A week before she died, she said her goodbyes. She made one 
request to each member of her family. She requested that my 
son, Jordan, name his first-born child after her. She requested 
that my wife, Anita, visit her grave every day, for the first 
year.
    To me, she asked that I ensure that her death would not be 
in vain; that something positive would result from it. It is 
for this reason that I come before you today. Please do not 
allow Elisa's legacy to die.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We will try. Thank you for coming.
    Our next witness will be Michaelle Wormley, Executive 
Director of Women Opting for More Affordable Housing Now, Inc.
                              ----------                                


                                         Wednesday, March 21, 2001.

           WOMEN OPTING FOR MORE AFFORDABLE HOUSING NOW, INC.


                               WITNESSES

MICHAELLE WORMLEY, EXECUTIVE DIRECTOR OF WOMEN OPTING FOR MORE 
    AFFORDABLE HOUSING NOW, INC.
JOANNE KANE, EXECUTIVE DIRECTOR OF THE MCAULEY INSTITUTE
    Ms. Wormley. Good afternoon, Mr. Chairman and members of 
the subcommittee. You have my written statement. I will just 
provide you with some of the highlights.
    I am Michaelle Wormley, the Executive Director of Women 
Opting for More Affordable Housing Now, WOMAN, Incorporated. We 
are a Southeast Texas non-profit organization, that creates 
affordable, livable transitional housing, and supportive 
services for women living in abusive relationships. We are 
asking for at least $25 million for fiscal year 2002, for a 
housing assistance program authorized under the Violence 
Against Women Act last year.
    WOMAN, Inc. grew out of a networking group of nine battered 
women's shelters and service providers in a 13 county area, 
including Houston, Dallas, and Beaumont, Texas. Our long-term 
goal, since we were founded in 1993, has been developing 
transitional housing facilities at each of the nine locations 
represented in the consortium.
    Each sponsor provides comprehensive social services and 
property management, while WOMAN, Inc. may finance, own, 
maintain, operate and sell the properties it develops in order 
to provide the most cost-effective project that is affordable 
to woman earning 50 percent or less of the medium income.
    I am accompanied today by JoAnne Kane, Executive Director 
of the McAuley Institute. McAuley was founded by the Sisters of 
Mercy in 1983, and is the only national faith-based housing 
organization that focuses its resources on low income women and 
families.
    McAuley has worked closely with WOMAN, Inc. since 1993, 
providing both technical assistance and financial services. 
Many of the women who participate in housing programs and 
related services provided by the community-based groups like 
WOMAN, Inc. are survivors of domestic violence.
    As housing providers, the dilemma that we saw was that 
families, having begun to stabilize their lives in a shelter 
program had only one choice when seeking affordable housing; 
that of returning to their batterers.
    Our vision was to provide survivors more viable options for 
restoring their lives. That vision was honored by the Fannie 
Mae Foundation with the maximum Awards of Excellence in May of 
1999, and recognition of our Destiny Village Project in 
Pasadena, Texas. Destiny Village is a 30 unit apartment 
complex, which provides supported housing to families leaving 
domestic violence.
    Over the past several years, McAuley, along with a 
coalition of 200 groups representing domestic violence and 
sexual assault survivors have strived to re-authorize the 
Violence Against Women Act with the Housing Assistance Program.
    With the October, 2000 Enactment of VAWA 2000, our goal was 
partially realized. VAWA housing assistance would provide a 
bridge, up to eighteen months, to help survivors secure a 
stable, secure environment for themselves and their children.
    The new law requires that the housing assistance must be 
needed to prevent homelessness, and may be used for rent, 
utilities, security deposits, or other costs of relocation. 
Support services to enable survivors to obtain permanent 
housing, and to aid their integration into a community, 
including transportation, counseling, child care services, case 
management, and employment counseling could be supported with 
grant funds.
    VAWA enjoyed strong bipartisan support, and the Congress 
clearly intended to create and fund a viable housing assistance 
program under VAWA.
    We fully expect the program to be extended this year as 
part of the Child Abuse Prevention and Treatment Act, for which 
the current authorization is five years, and expires this year.
    The need for this program is critical. According to the 
U.S. Conference of Mayors 1999 survey of 26 cities, domestic 
violence was listed as the fifth leading cause of homelessness.
    The Texas Department of Human Services figures indicate 
that for the fiscal ending 1998, 3,796 adults were denied 
shelter, due to lack of space. A conservative estimate from 
HUD's homeless office is that nine percent of all clients 
serviced came directly from a domestic violence situation.
    An informal poll of domestic service providers nationwide, 
conducted over the last two months about a national coalition 
against domestic violence, the number one funding need 
identified by shelter based programs was for transitional 
housing for battered women.
    The importance of housing assistance to families fleeing 
abusive situations cannot be overstated. Short-term housing aid 
and targeted supportive services can help survivors bridge the 
gap between financial and emotional dependency, and productive, 
healthy, and life-sustaining environments for themselves and 
their children. We ask that you provide $25 million for VAWA 
housing assistance for the coming year.
    JoAnne, did you want to speak?
    Ms. Kane. The experience of WOMAN, Inc. is duplicated 
across the country, both as a direct response to the woman 
fleeing violence, and an example of successful programs, 
created by local women leaders to deal with some of our 
nation's most intractable problems.
    These women leaders project a solely pathological 
assessment, which looks at violence alone as the problem. They 
craft multi-faceted programs that combine human development and 
community development, family health andcommunity building 
strategies.
    The care-givers are often finding themselves in the same 
situation as the women, knowing that housing is the one 
solution, and yet finding that the opportunities for women 
decline daily. There are 5.4 million worse case housing needs 
in this country, and 60 percent are women.
    So the appropriation is needed, a system and a practical 
system is ready to respond, and their are women for whom the 
opportunity is not just a home of their own, but an opportunity 
to leave family violence behind forever.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Do the habitat programs help?
    Ms. Wormley. They are a critical response to the need. 
However, again, in trying to assure stability for the mothers 
and the children, transitional housing is very critical.
    Mr. Regula. Thank you very much.
    Our next witness is Jerold Goldberg, Dean, Case Western 
Reserve, School of Dentistry. Welcome to the panel.
                              ----------                              

                                         Wednesday, March 21, 2001.

       HEALTH PROFESSIONS AND NURSING EDUCATION COALITION [HPNEC]


                                WITNESS

JEROLD GOLDBERG, D.M.D., DEAN, CASE WESTERN RESERVE UNIVERSITY SCHOOL 
    OF DENTISTRY, TESTIFYING ON BEHALF OF THE HEALTH PROFESSIONS AND 
    NURSING EDUCATION COALITION [HPNEC]
    Mr. Goldberg. Mr. Chairman, I am Jerry Goldberg, Dean of 
the Case Western Reserve University School of Dentistry. I am 
testifying today on behalf of the Health Professions and 
Nursing Education Coalition [HPNEC].
    This is an informal alliance of over 40 organizations, 
dedicated to ensure that Title 7 and 8 programs continue to 
help educate the Nation's health care personnel.
    These programs improve the accessibility, quality, and 
racial and ethnic diversity of the health care work force. In 
addition to providing unique and essential training and 
education opportunities, these programs help meet the health 
care delivery needs of under-served areas in this country. At 
times, they serve as the only source of health care in many 
rural and disadvantaged communities.
    Additionally, the graduates of Bureau of Health Profession-
funded programs are three to ten times more likely than average 
graduates to participate in medically under-served communities. 
These programs graduate two to five times more minority and 
disadvantaged students.
    As the Nation's health care delivery system rapidly changes 
and makes dramatic changes, the Bureau of Health Professions 
has identified the following five priorities, to ensure that 
all providers are prepared to meet the challenges of the health 
care in the 21st Century. They are: geriatrics, genetics, 
diversity, and informatics.
    HPNEC has determined that these programs require $550 
million to educate and train the health care work force that 
addresses these priorities.
    As part of the two year effort to reach this goal, HPNEC 
recommends at least $440 million dollars for Title 7 and 8 in 
fiscal year 2002. These figures do not include funding for the 
Childrens Hospital's Graduate Medical Education Program, and 
are now separate from Title 7 and 8 funding.
    The programs are organized in the following categories: 
minority and disadvantaged health professions; primary care 
medicine and dentistry; interdisciplinary, community-based 
linkages; health professions work force information and 
analysis; public health work force development; Nurse Education 
Act; and student financial assistance.
    A serious defect in our health care system is the lack of 
dental care for low income populations and those in under-
served areas. With funding from Title 7, institutions are able 
to provide oral health to these under-served populations.
    Dentists who have benefitted from advanced training in 
general dentistry and pediatric dentistry consistently refer 
fewer patients to specialists, which is especially important in 
rural and under-served urban areas, where logistics and 
financial barriers can make specialized care unobtainable.
    The Bureau of Health Professions in HRSA provides threeyear 
grants to start expanded programs and to expand programs, after which 
time, these programs must be self-sufficient. Eighty-seven percent of 
the dentists who go through these programs remain in primary care 
practice.
    Members of HPNEC are concerned that the Administration has 
severely cut or even eliminated portions of Title 7 and 8 
funding. It states in the health profession section of the 
budget blueprint that ``Today a physician shortage no longer 
exists. Moreover, the Federal role is questionable in this 
area, given that these professions are well paid, and that 
market forces are much more likely to influence and determine 
supply.''
    We contend that typical market forces do not eliminate work 
force shortages in under-served areas, and that their effect on 
skyrocketing costs of living has directly contributed to the 
kind of health care professionals in these regions. HPNEC has 
provided a letter to the President, outlining this position.
    We appreciate the subcommittee's support in the past. We 
look to you again to support these programs and their essential 
role in the health care system. Thank you for accepting this 
testimony.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for bringing this to our attention.
    Our next witness is Dr. Frankie Roman, Medical Director, 
Center for Sleep Disorders, at Doctors Hospital in Massillon, 
Ohio. We are happy to welcome you, my next door neighbor, 
almost.
    Dr. Roman. For a second, Mr. Chairman, I thought you were 
avoiding your neighbor. [Laughter.]
                              ----------                              

                                         Wednesday, March 21, 2001.

                       NATIONAL SLEEP FOUNDATION


                                WITNESS

FRANKIE ROMAN, M.D., MEDICAL DIRECTOR, CENTER FOR SLEEP DISORDERS, 
    NATIONAL SLEEP FOUNDATION
    Dr. Roman. Good afternoon, Mr. Chairman and Congressional 
staff members. Thank you for inviting me to present testimony 
this morning, or this afternoon, on behalf of the National 
Sleep Foundation.
    We have submitted written testimony to the official record, 
and I would like to use my time to address some of the major 
points regarding how sleep disorders, sleep deprivation, and 
fatigue impact the Nation's health and safety.
    As the Chairman mentioned, I am based in Massillon, Ohio. I 
drive through Navarro, Ohio, his home town every day. I just 
want to make my Ohio connection clear.
    The National Sleep Foundation is an independent non-profit 
organization that works with thousands of sleep experts, 
patients, and drowsy driving victims throughout the country, to 
prevent health and safety problems, related to fatigue and 
untreated sleep disorders.
    The Foundation's interest today in the subcommittee's work 
is based on the National Sleep Foundation's relationship with 
the Center for Disease Control and Prevention, and specifically 
with the National Center for Injury Prevention and Control.
    The NSF today is asking the subcommittee to consider 
providing an additional $1.5 million to the center's fiscal 
year 2002 funding, to address sleep deprivation and fatigue-
related injuries.
    Sleep represents a third of every person's life, and has a 
tremendous impact on how we function, perform, and think during 
the other two-thirds. Unfortunately, that is the first thing we 
sacrifice. We give up sleep to attend all these Congressional 
hearings and Congressional fund raisers later on in the 
evening.
    Too many of us forget that lack of adequate, restful 
slumber has serious consequences at home, in the work place, at 
school, and on the highway. Members of Congress are not immune 
to this. If you recall, Mr. Chairman, I did an informal survey 
a few years ago, with the help of your office. We found that 
seven percent of the Congressional members fall asleep during 
these Congressional hearings.
    Mr. Regula. Maybe it has got something to do with the 
witnesses.
    Dr. Roman. Well, hopefully it does not.
    The numbers were worse for the Congressional staff members, 
so I am not even going to mention that, just for them.
    It just shows that the ill effects of sleep deprivation are 
suffered by all, including members of Congress. This is 
something that touches each and every person in this country.
    Tragically, drowsy driving claims more than 1,500 lives, 
and accounts for at least 100,000 crashes in the UnitedStates, 
every year. The sad thing is that these incidents are preventable. Just 
this past week, Mr. Chairman, I saw a school bus driver from our 
community, who fell asleep at the wheel, and the kids are complaining 
about how the bus is wagging.
    I have seen many police officers, I have actually seen some 
of your Congressional members, I have seen elected officials 
from the school and the Government in our community; and so I 
do not put a face or a name today before you. However, I ask 
you, the next time you go to your community, look around and 
you will see that this is an issue that affects each and every 
one of us.
    Many of the groups before you, too, would benefit from my 
request today, or what the National Sleep Foundation is trying 
to accomplish through the CDC.
    Fatigue or sleep deprivation should be considered an 
impairment like alcohol and drugs. New research shows that a 
person who has been awake for 24 consecutive hours demonstrates 
the same impairment in judgment and reaction time, as an adult 
who is legally drunk. Today, it is unacceptable to drive or 
work under the influence of drugs and alcohol. Fatigue should 
fall under the same category.
    The National Sleep Foundation has worked with volunteers 
like myself for the next decade to raise awareness and minimize 
fatigue-related injuries. While public awareness is desperately 
needed, a strong Federal partner with the expertise and the 
ability to disseminate, test, and improve education, training 
and injury prevention programs to communities like ours in 
Stark County, Ohio, is crucial to attacking these problems.
    We feel that the CDC is our partner, and should help the 
NSF and public health officials address these problems.
    We have data telling us that lack of sleep affects the 
Nation on many different levels, from the airline pilot, and I 
have several pilots of that nature, to the child in the 
classroom, I receive many with a court order coming to see me; 
and from the Amish. Surprisingly, even though they have a 
simple life style, they are identifying sleep disorders as a 
problem in their day-to-day lives.
    This research is absolutely no good if we cannot translate 
it into education and injury prevention programs for the 
general public. Public education, physician and police 
training, school-based programs and work place prevention 
programs are all desperately needed.
    We believe that the CDC can and should play a vital role, 
working with the sleep community to address these problems by 
developing a sleep awareness plan that would set national 
priorities around sleep issues and public health and safety. 
This proposed sleep awareness program would allow the CDC and 
other Federal agencies to develop and distribute accurate 
medically sound information in programs to local communities.
    This information, coupled with training for those involved 
with public health and safety at the state level, will begin to 
turn the tide of injuries, health problems, and costs 
associated with sleepiness and sleep disorders, which I see on 
a daily basis.
    I thank you, Mr. Chairman, for your time. Again, we wish 
that the subcommittee would consider increasing the overall 
budget for the center by $1.5 million, to allow the center to 
act as a coordinating body for the development and 
implementation of this five year sleep awareness plan.
    Thank you for your consideration in this request. I would 
be glad to answer any questions that you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. It seems to me that you are talking about two 
different things, disorders and deprivation. Deprivation is 
lifestyle.
    Dr. Roman. Yes, but we consider it a disorder, also, 
because many of the sleep disorders cause sleep deprivation. 
Only through education and awareness will people realize that 
it is just not lifestyle, and that there are other things going 
on.
    Mr. Regula. Do you try to treat physical causes, or just 
try to treat the habits of people; that they just do not get 
enough sleep, they do not go to bed on time, and so on.
    Dr. Roman. We do both, Mr. Chairman.
    Mr. Regula. Are there certain physical causes that people 
do not sleep well, and is that something you treat?
    Dr. Roman. Yes, the most common one that we see is sleep 
apnea. That is people who snore and stop breathing in their 
sleep. Most of their manifestation is, I do not get enough 
sleep, or I feel tried when I wake up. These are people who 
fall asleep in different social situations, including driving 
or at work, or even on the toilet seat.
    Mr. Regula. Well, I suppose our societal lifestyle has 
something to do with it, the demands are so great.
    Dr. Roman. Unfortunately, the first thing that we all 
sacrifice is sleep, to get in all the activities, social, 
professional, and personal, that we would like. What we 
aretrying to educate the public is, this is a major mistake.
    Mr. Regula. Is there any magic number? I see different 
numbers. You should have six hours, seven hours, eight hours. 
Would that not depend a little bit on the physiology on the 
individual?
    Dr. Roman. Yes, the average is around eight hours. But 
there are some people who require less sleep, and some that 
require more. You cannot train yourself to sleep less. That is 
a myth; where you can say, I can get by with only four hours.
    What we do as a society, most Americans, we are chronically 
sleep deprived, and on the weekends, we make up, we sleep in; 
which, unfortunately, makes us start off the next week in a 
bind.
    For example, next week, which is National Sleep Awareness 
Week, and our clock shifts forward, there is a seven percent 
increase in accidents that Monday. It does not matter if you 
spring forward or fall back with our clock, but there is a 
seven percent increase. So I strongly recommend that no one 
drive next Monday.
    Mr. Regula. You should stay home from work; is that it? 
[Laughter.]
    Well, you apparently have got an ally in our President. He 
seems to have good habits about going to bed early, and that 
will be helpful.
    Dr. Roman. He also takes naps, which we strongly recommend. 
Unfortunately, it is very un-American to take naps.
    Mr. Regula. I thinking about one, myself, if I can get 
through this list. [Laughter.]
    Dr. Roman. I thank you for your time, Mr. Chairman. I am 
available in our community, as I am your neighbor. I will 
always be available to you. Thank you very much.
    Mr. Regula. Well, thank you for coming.
    Next is Deborah Neale, a member of the Ohio Chapter 
Executive Committee of the Ohio State Public Affairs Committee.
                              ----------                              

                                         Wednesday, March 21, 2001.

   OHIO CHAPTER EXECUTIVE COMMITTEE OF THE OHIO STATE PUBLIC AFFAIRS 
                               COMMITTEE


                                WITNESS

DEBORAH NEAL, MEMBER, OHIO CHAPTER EXECUTIVE COMMITTEE OF THE OHIO 
    STATE PUBLIC AFFAIRS COMMITTEE
    Ms. Neal. Thank you, Mr. Chairman.
    Good afternoon, I am Debbie Neal, a long time volunteer of 
the March of Dimes. I also bring you greetings from our former 
State Senator Grace Drake, who has just agreed to be on our 
committee in Cleveland, Ohio.
    As you know, the March of Dimes is a national voluntary 
health agency, founded in 1938 by President Roosevelt, to find 
a cure for polio. Today, the three million foundation 
volunteers and 1,600 staff members in every state, the District 
of Columbia, and Puerto Rico, work to improve the health of 
infants and children, by preventing birth defects and infant 
mortality.
    I am here today seeking the prioritization of funds to 
improve and health and well being of mothers, infants, and 
children, through research, prevention of birth defects, and 
developmental disabilities, and improved access to care. I am 
not here to lobby for funds for the March of Dimes, as less 
than one percent of the Foundation's funding comes from Federal 
sources.
    The Foundation supports continuing the five year effort to 
double the funding. We are especially interested in three 
issues within the National Institutes of Health.
    First, the National Institute for Child Health and Human 
Development should have the resources to expand research on 
birth defects and developmental biology, allowing for testing 
of new treatments for autism, and further research on Fragile 
X, which is the most common inherited cause of mental 
retardation.
    Secondly, we recommend increased funding for the National 
Human Genome Research Institute, to allow scientists to develop 
the next generation of research tools, and thereby accelerate 
an understanding of genomics.
    Third, other activities at NIH strongly supported by the 
Foundation include work being done by the National Center on 
Minority Health and Disparities; advancement of treatment 
options for sickle cell disease; and extra-mural research 
through the Pediatric Research Initiative.
    As you know, Mr. Chairman, last year, the Children's Health 
Act of 2000 created a new center on birth defects and 
developmental disabilities at CDC, bringing the number of 
centers that make up the CEC to seven. Support in Congress for 
this new center is indicative of the importance that members 
place on research and prevention activities related to birth 
defects.
    The new center begins operations in mid-April, April 15th, 
and we encourage the subcommittee to commit the resources 
needed to ensure a successful launch.
    Currently, three-quarters of the states monitor the 
incidents of birth defects. However, the systems vary 
considerably. CDC is working with states to standardize 
datacollection through 26 cooperative agreements, lasting three years 
each. However, funds are not adequate to support all the states seeking 
assistance, including our own state of Ohio.
    The March of Dimes recommends adding $2 million to CDC's 
state-based birth defects surveillance program. This CDC also 
supports eight regional birth defects research and prevention 
centers, where groundbreaking work on spina bifida, heart 
defects, Downs Syndrome, and other serious, life-threatening 
conditions present at birth are underway.
    Increased funding would allow additional data collection to 
study genetic and environmental causes of birth defects. The 
March of Dimes recommends adding $8 million to the budget for 
these eight centers.
    Developmental disabilities, monitoring and research are 
also important, and the Foundation supports CDC's plan to 
create five regional research centers to study developmental 
disabilities, such as autism, cerebral palsy, mental 
retardation, and hearing and vision deficits. The funding 
needed is $5 million.
    The new Center on Birth Defects and Developmental 
Disabilities will administer the folic acid education campaign 
and newborn screening program. The current folic acid education 
campaign has been inadequate, and should be funded at a greater 
level of $5 million for 2002, with an estimate by 2006. This 
life-saving intervention is needed to reduce the number of 
babies born with neural tube defects.
    Newborn screening for metabolic diseases and functional 
disorders such as PKU, sickle cell disease, and hearing 
impairment is a great advance in preventative medicine. To 
support newborn screening, the foundation recommends an 
increase, so that CDC can provide states the technical 
assistance needed to ensure that babies who test positive for 
these conditions receive appropriate care.
    Finally, we would like to focus your attention on two 
programs, administered by the Health Resources and Services 
Administration, that improve access to health care for mothers 
and children.
    The Maternal and Child Health Block Grant compliments 
Medicaid and the Children's Health Insurance Program. It is no 
wonder we call it CHIP. That is easier to say. This program 
targets service to under-served populations. The foundation 
recommends funding at the authorized level of $850 million.
    Secondly, community health centers are an essential source 
of obstetric and pediatric care, and the foundation supports 
$175 million in new funds, to increase both the number of 
centers, and improve the scope of services offered.
    Thank you for allowing me to testify today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Was it the March of Dimes started to eradicate 
polio?
    Ms. Neal. It was.
    Mr. Regula. So you heard the success story of that?
    Ms. Neal. It is. In fact, our friend, Pat Sweeney, has 
always said, it should change its name from the March of Dimes 
to the March of Quarters, because of inflation. [Laughter.]
    Mr. Regula. Right, but it was a tremendous success story.
    Ms. Neal. Well, it is fascinating to listen to the doctor 
talk about eradication worldwide. I mean, it is in our 
lifetimes that this has happened.
    Mr. Regula. I believe he said that they vaccinated 107,000, 
I believe.
    Ms. Neal. Yes, at one time.
    Mr. Regula. No, that was million, 170 million.
    That is great progress to make those achievements. We hope 
we can have the same success with birth defects.
    Ms. Neal. One of the reasons that I have chosen to be a 
volunteer with March of Dimes for so many years is because they 
do accomplish a lot of real concrete success stories.
    Mr. Regula. Well, thank you for coming.
    Ms. Neal. Thank you.
    Mr. Regula. Next is Dr. Amy Lee, Assistant Professor of 
Community Medicine, from Northern Ohio.
                              ----------                              

                                         Wednesday, March 21, 2001.

      FRIENDS OF THE HEALTH RESOURCES AND SERVICES ADMINISTRATION


                                WITNESS

AMY LEE, MD, MPH, MBA, FRIENDS OF THE HEALTH RESOURCES AND SERVICES 
    ADMINISTRATION
    Dr. Lee. Actually, besides your wonderful support to my 
academic institution, I have a brother who lives in Stark 
County, and my real estate agent works with your son, David, at 
Cutler GMA. That is my Ohio connection.
    Mr. Regula. My goodness.
    Dr. Lee. I am honored to be here today to testify on behalf 
of the Friends of the Health Resources and Services 
Administration or HRSA.
    The Friends of HRSA is an advocacy coalition of 125 
national organizations, and it represents millions of public 
health and health care professionals, academicians such as 
myself, and consumers.
    HRSA programs assure that all Americans have access to 
basic health care services. In Ohio, in fact, three fourths of 
our public health funding comes from Federal sources, and HRSA 
plays a major role in this support.
    HRSA is a health safety net for nearly 43 million 
Americans, who lack health insurance; 49 million Americans who 
live in areas that have little access to primary health care 
services; and also African American babies who are 2.4 times 
more likely than their white counterparts to die before their 
first birthday.
    The Agency's overriding goal is to provide 100 percent 
access to health care, with zero disparities. The Friends of 
HRSA feel the Agency requires a funding level of at least $6.7 
billion in order to achieve this goal.
    HRSA funding goes where the needs exists. Although programs 
are geared towards health care access, I would just like to 
highlight two programs, and mention several others.
    The first program is the new community access program. It 
allows communities to build partnerships among health care 
providers to deliver a broader range of health services to 
uninsured and under-served residents. Cincinnati actually 
received a CAP grant, and was one of the highest grant 
applications.
    This program coordinates some 50 organizations in this area 
through strategies to improve care, including the 
implementation of regional disease, management protocols for 
asthma, depression, diabetes and hypertension.
    The Friends are very concerned that the Administration's 
budget blueprint recommends eliminating this program of 
coordinated service delivery. This is an innovative program 
that is not duplicated anywhere else.
    The next program I would like to highlight is the health 
professions programs, which assure adequate national work 
force, despite projected nationwide shortages of nurses, 
pharmacists, and other professionals. Actually, Dr. Goldberg 
speak on behalf of this program, as well.
    Graduates of these programs are three to ten times more 
likely to practice in under-served areas. In addition, they are 
two to five times more likely to be minorities. The Friends are 
also concerned that cuts in these programs, which are proposed 
in the Administration's budget blueprint will impact this 
poorly.
    These programs provide up-front incentives for dozens of 
types of health professionals, not only physicians, but mental 
health, dentists, and also public health professionals, as 
well.
    Market forces will continue to drive shortages and mal-
distribution in many of these sectors, potentially leaving 
health centers under-staffed, without the support of health 
professions programs.
    Also, it is clear for the need for other HRSA programs, as 
well. The Maternal and Child Health Block Grant provided funds 
for the Cleveland Healthy Start Program, and they saw a 40 
percent in infant mortality, as a result.
    I really did not need to look any further than my local 
newspaper, the Akron Beacon Journal, to find other sources of 
need. On February 20th, the Akron Beacon Journal reported ``HIV 
stalks careless men.'' It reported that HIV is increasing in 
numbers in young people and heterosexuals.
    HRSA, next to Medicaid, provides the largest source of 
funding for AIDS programs, for low income and under-insured 
Americans.
    Over the weekend, actually, they ran a series of Ohioans 
spreading out, and blacks flee to suburbia. This told of folks 
who were going to suburban areas and rural areas to stay and to 
live there. Of course, there will be more need for programs 
such as the programs provided by HRSA to provide health care 
services.
    I would like to submit these three articles for the record, 
as well.
    Mr. Regula. Without objection.
    [The referenced articles follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Dr. Lee. As you can see, HRSA programs are all about access 
to health care for Americans. We are really, because if we have 
a toothache or if we get sick, we know where to go, and we will 
get taken care of. For millions of these Americans, it is not 
that easy.
    I would like to close with a story from a HRSA-funded 
vision specialty clinic; actually from your district in Wayne 
County in Wooster. On one occasion, a four year old boy was 
taken in by one of the Head Start Clinic staff, because they 
thought he might have problems seeing. They found, on exam, 
that he was functionally blind.
    Because of the actions of the crack staff, this boy had 
glasses in three days. After he put the glasses on, the doctors 
said, he passed the smile test, because when they put the 
glasses on, the boy had a huge grin. For the next few days, the 
days said that he just looked at things and people that he had 
never really seen before, because he had these glasses, and due 
to the services of this HRSA specialty care clinic.
    I do not think it is by accident that we have heard a 
number of public witnesses here that have spoken on behalf of 
HRSA programs, because HRSA offers that link between the 
services and the people that need it the most.
    Thank you for this opportunity for me to speak on behalf of 
the Friends of HRSA. I welcome any questions.
    Mr. Regula. Well, do you, in your role as Professor of 
Community Medicine, work with the physicians in training there?
    Dr. Lee. I work with a few. Actually, I am mostly an 
Administrator. I direct the master public health program, which 
is a partnership program of five public institutions there.
    I am also involved in public health activities through the 
Ohio Public Health Association. I am President this year, as 
well. I am a little involved in the medical student training.
    Mr. Regula. But the public health programs would be 
delivered by physicians and/or nurses, I assume?
    Dr. Lee. Actually, the master public health program, it 
could be physicians, but also nurses, health care 
administrators, for them to better provide health care services 
to communities, as opposed to individuals.
    Mr. Regula. I assume the community health centers would be 
something where you would have a direct involvement.
    Dr. Lee. Actually, I sat on the board for the one in Akron, 
and because of a lot of other responsibilities, I had to give 
that up. But I was very much involved in that community health 
center for awhile.
    Mr. Regula. Are you using the new center up there, that you 
bring in people for lectures?
    Dr. Lee. Oh, that center has not been built, yet.
    Mr. Regula. You have not got it built?
    Dr. Lee. No, no, the ground has not been broken, yet.
    Mr. Regula. Oh, my.
    Dr. Lee. They are still making the plans.
    Mr. Regula. Well, at least you have the money.
    Dr. Lee. Yes, yes, thanks to you. [Laughter.]
    Mr. Regula. Okay, thank you for coming.
    Thank you for coming. Our witness is doctor James Pearsol.
                              ----------                              

                                         Wednesday, March 21, 2001.

       CENTER FOR DISEASE CONTROL AND PREVENTION (CDC) COALITION


                                WITNESS

JAMES A. PEARSOL, BA, MED, CHIEF, OFFICE OF POLICY AND LEADERSHIP, OHIO 
    DEPARTMENT OF HEALTH
    Mr. Pearsol. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. You may be a Cleveland Indians fan. If you 
are, then maybe you know Jimmy Person, who has quite a baseball 
player and quite a character. I am not a baseball player, but I 
probably qualify as a character.
    I am honored to be here today to testify on behalf of the 
CDC Coalition. The CDC Coalition is a nonpartisan association 
with more than 100 hundred groups committed to strengthening 
the Nation's prevention programs. Coalition members groups 
represent millions of public health workers, researchers, 
educators, and citizens served by CDC Coalition programs.
    I would like to welcome the Chairman into his new position. 
In addition, overseeing the funding for Public Health Service 
and to thank you for the work that you will do in the 
forthcoming year on this difficult bill. The CDC Coalition is 
the Nation's prevention agency that is putting health research 
into practice.
    Public health prevention is about two things. The what of 
health prevention is preventing adverse health outcomes and the 
how are the tools of the trades including programs, 
surveillance, and best practices. Prevention translates into 
lives saved and pain and suffering avoided, health costs 
avoided, quality of life improved, use of best health 
practices, and use of credible health information.
    In the best professional judgement of the CDC Coalition, 
CDC will require funding of a least $5 billion to adequately 
fulfill its mission for fiscal year 2002.
    Mr. Regula. Do you work directly with CDC?
    Mr. Pearsol. Yes. We receive, again, probably $40 million 
of our budget, part of the three-fourths of Federal funding at 
the Ohio Department of Health, and pass that on in large 
measure to local health and community departments.
    Mr. Regula. The funding is channeled through CDC.
    Mr. Pearsol. Correct.
    Mr. Regula. The Federal portion.
    Mr. Pearsol. That is correct.
    Mr. Regula. You in turn work with local public health 
agencies in the communities around Ohio.
    Mr. Pearsol. That is correct.
    Mr. Regula. The State County Board of Health would be 
working directly with to you.
    Mr. Pearsol. I work directly for them, Bill Franks and his 
Board, the city, Bob Patteson, and Mayor Watkins.
    Mr. Regula. Go ahead.
    Mr. Pearsol. Thank you. Health prevention is like auto 
maintenance. It is not appreciated until it fails. It is not 
much fun when it fails. In any maintenance of prevention 
ignored is guaranteed to lead to failure. CDC makes Public 
Works in Ohio, and I will give you some examples. Chronic 
diseases are Ohio's quiet killer. Five diseases account for 70 
percent of Ohio's deaths. In fact, heart disease, 91 deaths 
each day, cancer, 68 deaths each day, stroke, 18 deaths each 
day, lung disease, 15 deaths each day, and diabetes, nine 
deaths each day.
    The CDC Center for Chronic Disease Prevention and Health 
Promotion supports programs that combat this chronic set of 
diseases. The impact on the elderly is profound and about 80 
percent of seniors have at least one chronic condition and 50 
percent have two or more. We know that breast and cervical 
cancer, prostate, lung, and colon rectal cancers can be avoided 
through early detection.
    The CDC supports programs like these and other chronic 
illness such as diabetes. Nearly 16 million Americans have 
diabetes and the largest increases are among adults 30 to 39 in 
age. CDC supports state and territorial diabetes control 
programs that attack this problem.
    Health disparities persist in all of these disease that I 
talk about in Ohio. This CDC's REACH program that is racial and 
ethnic approaches to community health address serious 
disparities and infant mortality, breast and cervical cancer, 
HIV and AIDS, etc. In Ohio, infant mortality rates for African 
American are twice those of whites.
    One of Ohio's Public Health Service success stories is 
childhood immunizations. In 1994, only about half of our two 
year old had been immunized by 2001 and 78 percent had been 
immunized, which is a 55 percent increase. This was possible 
through the availability of low cost vaccine from CDC. Injuries 
and their prevention is crucial.
    Each day an average of 9,000 U.S. workers sustained 
disabling injuries, 17 died from work related injuries, and 137 
died from work related illnesses. Finally, the preventive help 
block grant is the key to flexible funding at the local level 
were local program can match solutions to demand in the local 
community.
    The how of CDC is cease surveillance. This is a lot like an 
air traffic control system. It is the disease tracking control 
system. It is a basic monitoring system that detects early 
warning signs. The National Electronic Disease surveillance 
system created Ohio's early warning system for disease 
outbreaks. The Epidemic Intelligence Service Officer Corps has 
supported many outbreak investigations in Ohio and including TB 
outbreak in Columbus, Typhoid outbreak in Cincinnati, Listeria 
in northwest Ohio; part of a National outbreak, 
Cryptosporidiosis in a Delaware county swimming pool, and E. 
coli in Medina county fair grounds water system.
    In terms of capacities and skills, the CDC Coalition 
supports full funding for the provisions authorized in the 
Pubic Health threat emergency act sponsored by representative 
Burns Stewpack. This concluded my prepared remarks. I would be 
happy to answer any questions.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you work any with the schools as part of an 
education program for preventive medicine?
    Mr. Pearsol. Yes. We work directly school program with 
nursing staff and the Public Health teachers. In order to get 
the message to the community.
    Mr. Regula. There are a lot of gains that could be made in 
preventive medicine to achieve good health, that is to develop 
programs of preventive medicine to alert people.
    Mr. Pearsol. Yes, that is right. We believe this is the 
key. Ohioans smoke more are more obese, exercise less, and eat 
fewer fruits and vegetables. Those are behaviors that can 
change the kinds of chronic diseases that I am mentioned that 
kill Ohioans and others in Americans in this country.
    Mr. Regula. Is it an education process?
    Mr. Pearsol. Yes, education is part of the process. It is 
changing the behaviors and repeating the message.
    Mr. Regula. Thank you.
    Mr. Pearsol. Thank you, Mr. Chairman.
    Mr. Regula. Our next witness is Gerald Slavet.
    Ms. Hurley-Wales. It is Slavet.
    Mr. Regula. I am intrigued by ``From the Top.'' Is that 
Ringling Brothers?
    Mr. Hurley-Wales. No, it is a radio program.
    Mr. Regula. Oh, where is it?
    Mr. Hurley-Wales. Actually, in your area, it is on WCLV in 
Cleveland.
    Mr. Regula. What kind of a program is it?
    Mr. Hurley-Wales. Well, I am happy to answer that.
    Mr. Regula. I guess you are going to tell us.
    Mr. Hurley-Wales. Right, I will tell you all about it.
    Mr. Regula. Okay.
                              ----------                              

                                         Wednesday, March 21, 2001.

            GERALD SLAVET EDUCATION PERFORMANCES FOUNDATION


                                WITNESS

JENNIFER HURLEY-WALES, EXECUTIVE VICE PRESIDENT, GERALD SLAVET 
    EDUCATION PERFORMANCES FOUNDATION
    Ms. Hurley-Wales. My name is Jennifer Hurley-Wales. I am 
here to testify on behalf of Gerald Slavet of the Education 
Performances Foundation. Gerald is out of the country today. We 
were very appreciative to have this opportunity to appear 
before you and the Subcommittee.
    I am the Executive Vice President of our foundation and co-
founder of our flagship project ``From the Top.'' Since its 
launch in 1998, ``From the Top'' radio program has brought into 
the foreground the exceptional achievements of pre-collegiality 
classical musicians. It helped build the self esteem of the 
young participants, and provided role models for 100 to 1,000 
young people across the United States.
    The mission of ``From the Top'' is to celebrate and 
encourage the development of youth through music. The project 
is designed to demystify classical music making it more 
accessible to young audiences and adults. ``From the Top'' 
believes that young people that can play Mozart's Clarinet 
Concerto are just as cool as those who dunk basketballs.
    We know those who play that kind of music are usually 
strong students and that is why we celebrate young classical 
musicians in the same way that their athletic schoolmates are--
as heroes.
    Early involvement with classical music plays a key role in 
the development of children's intellects, which is important 
for the new economy that relies on math, science, and 
analytical skills.
    We believe that ``From the Top's'' is entertaining and 
accessible and national radio program will lead to a public 
conversation at the grass roots level. Perhaps this will help 
influence public opinion and policy about the value of arts 
education.
    ``From the Top's'' weekly radio series taped before a live 
audience, features America's most exceptional 9- to 18-year-old 
classical musicians and performance and interviews. Now 
broadcast on 215 station nationwide, the show has a projected 
listenership of 700,000 people each week.
    A passionate listenership I should say as demonstrated by 
the daily flood of positive e-mails we continue to receive.
    Mr. Regula. Do you go nationwide?
    Ms. Hurley-Wales. We are on 215 stations nationwide.
    Mr. Regula. Produced in Cleveland?
    Ms. Hurley-Wales. It was produced in Boston.
    Mr. Regula. OK.
    Ms. Hurley-Wales. ``From the Top'' is considered today the 
most listened to classical music program on public radio.
    Tapings take place before family audiences in Boston at New 
England Conservatory's Jordan Hall and in halls across the 
country including Carnegie Hall in New York and the Kennedy 
Center in Washington. In fact, we will be here next week.
    The extraordinary popularity and success of ``From the 
Top'' radio series has led to the creation of three additional 
components. ``From the Top'' television specials are in 
development for production for PBS. They will feature host 
Christopher O'Riley, performances and documentary style 
profiles of five exceptional young musicians and ensembles.
    ``From the Top.org'' is the only site on the Internet that 
provides a complete suite of services and community for young 
people who are passionate about music. The site is an 
interactive forum for kids, teachers, and parents to discuss, 
present, and research all matters that relate to music.
    ``From the Top's'' newest initiative, Sound Waves education 
project addresses the urgent need to bring cultural 
missionaries into our communities through curricular materials 
linked to the radio shows, teacher training workshops, and 
cultural leadership training for young musicians.
    This Sound Wave project builds on ``From the Top's'' 
greatest asset and the power of the young performer as a role 
model for other kids. Thanks to the interest and leadership of 
Congressman Joe Moakley, and the support of this Subcommittee, 
our foundation has received funding from the U.S. Department of 
Education in the past, including a $510,000 grant for this 
fiscal year.
    ``From the Top'' would not be in existence without the U.S. 
DOE funding. Please know that we are aware of the importance in 
improving our funding and we mounted a comprehensive 
development effort to that effect. We appreciate the support of 
this Subcommittee and we now respectfully request that you 
extend your commitment to young people and the arts by 
providing a $1.25 million grant to Education Performances 
Foundation to continue support for this innovative program.
    This grant would allow us to further develop and implement 
our cultural leadership training and expand the reach of 
educational efforts through school, community, and Internet-
based programs. Your continued support would allow the 
overwhelmingly positive impact of ``From the Top'' to continue 
and multiply for the greater mission of our project to be 
reached. Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I thought that I left the arts when 
I left Interior. The next witness is Joseph E. Pizzorno, 
President Emeritus of Bastyr University in Seattle, Washington.
                              ----------                              

                                         Wednesday, March 21, 2001.

                           BASTYR UNIVERSITY


                                WITNESS

JOSEPH E. PIZZORNO, JR., PRESIDENT EMERITUS, BASTYR UNIVERSITY IN 
    SEATTLE, WASHINGTON
    Mr. Regula. Do you know my friend Sled Gordon?
    Mr. Pizzorno. Actually, I have talked to him several times.
    Mr. Regula. We worked together on Interior matters.
    Mr. Pizzorno. Great. You said Washington like a true 
native. You must have spent some time with him.
    Mr. Regula. We spent quite a bit of time together. He was 
Chairman and I was Chairman of house, parks, and forests. We 
also took care of the flagship in your part of the world. You 
are in Seattle.
    Mr. Pizzorno. Yes.
    Mr. Regula. OK. We look forward from hearing from you.
    Mr. Pizzorno. Thank you, Mr. Chairman. My name is Joseph 
Pizzorno. I am a licensed naturopathic physician in the state 
of Washington. I am also the founding President of Bastyr 
University. The first fully credited institution of natural 
medicine in the United States.
    I am also a member of the Seattle County Board of Health. 
The Chair of special interest groups on Alternative Medicine 
for the American Public Health Association. I have also been 
appointed to the White House Commission on Complementary and 
Alternative Medicine Policy. This was created by Congress to 
advise Congress on how to integrate natural medicine into the 
health care system.
    While I am very active in several of these organizations, 
and have 25 years of leadership in natural medicine, education, 
research, and health policy innovation, I am not here 
representing any particular organization.
    I am here because I believe that the most pervasive and 
silently accepted crisis in America today is ill health of our 
people. We have a health care system that is oriented towards 
disease treatment and symptom relief, but does relative little 
to actually restoring and promoting people's health.
    Every decade, for the past 50 years, the incidence of 
chronic and degenerative disease has increased in virtually 
every age group in the past 50 years. The message that I am 
presenting to you today is somewhat different from the message 
you have heard earlier today.
    Our current health care system is excellent in many ways, 
such as acute conditions and emergency care, but it is not 
particularly effective in restoring and promoting health. 
Health promotion is the area in which natural medicine is most 
effective.
    My written testimony addresses several areas and defines: 
What is Complementary in Alternative Medicine? How popular is 
CAM? Why is it important in heath care? Who are the CAM 
professionals? What state of the research in CAM? What are the 
critical issues that determine if the full benefits of CAM will 
be experienced by the American people. Finally, I present 
specific recommendations to the Subcommittee.
    What is CAM? It is something that is know by many names. 
Natural medicine, alternative medicine, integrative medicine, 
and complementary medicine. It seems that our government is now 
calling it CAM. I will use CAM in my further address.
    When many people think about CAM, they think about it as 
simply substituting natural therapies for drugs and surgery. 
That is not what natural medicine is about. It is about 
philosophical approach to heath care fundamentally difference 
from that of the conventional medicine.
    It is about health promotion rather than disease treatment, 
about correcting the underlying causes of ill health rather 
than system relief. It is about improvement in function rather 
than waiting for end stage pathology that requires heroic 
intervention. It is about education, healthy lifestyles, self 
care, and natural health products rather than dependence on 
medical doctors.
    It is about supporting the body's own healing processes 
rather than turning to drugs to support or replace by systems. 
It is about a powerful belief in the inherent ability of the 
body to heal if just given a chance. These concepts of healing 
change the way in which we think about and provide health care.
    Why are these concepts important to health care? Americans 
are experiencing unpresitant burden of ill health and disease 
worsening disease trends, appallingly high incidence of 
treatment side effects and out of control health care costs. 
There are a lot of statistic in my written testimony.
    Of the 191 countries that maintain health statistics, the 
United States rant seventy second in health status according to 
the World Heath Organization. According to Christopher Muray, 
M.D., Director of WHO's Global Program on Evidence for Health 
Policy.
    Basically, you die earlier and spend more time disabled if 
you are an American rather than a member of most advanced 
countries. One of the key differences between health care in 
the United States and most of the rest of the world, especially 
those ranking higher in health statistics, is significantly 
higher healthier life styles and in several countries such as 
number two ranked Australia, and much greater use of CAM in 
natural health care products.
    In fact, in both European countries, ranking above the 
United States in health care statistics, the lead prescription 
drugs are herbal medicines and not synthetic chemicals. CAM is 
most effective precisely in those area weakest in conventional 
medicine.
    How popular is CAM? 42 percent of Americans now seek the 
services of natural medicine practitioners. There were 629 
million visits in natural medicine practitioners in 1997, which 
was more than primary medical doctors for primary care.
    What can I recommend to this committee? Currently, the 
primary mechanism for Federal funding in CAM research is 
through the NIH National Center for CAM research. It receives 
less than one percent of the NIH total budget and that is 
inadequate to meet the need of the mission.
    The state of CAM research is widely misunderstood. It is 
easily dismissed as having no evidence. In fact, there is 
tremendous amount of evidence supporting the natural medicine. 
The textbook of natural medicine 10,000 citations of peer 
review scientific literature documenting the authenticity of 
these kinds of interventions.
    I would like to leave you with one recommendation. We have 
experience tremendous benefits in our country form having 
invest a lot of resources in conventional medicine research. We 
have invested less than one half of one percent in research 
into natural medicine. I believe that we can experience the 
same kind of benefits if we engage in more natural medicine and 
reap the benefits of the centuries long traditions of healing. 
Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Peterson must be delayed 
arriving. I take one more and hopefully he will get here. Mr. 
Akhter. I have a meeting with the Secretary of Education. If 
you can cut it short, that would be helpful.
                              ----------                              

                                         Wednesday, March 21, 2001.

                   AMERICAN PUBLIC HEALTH ASSOCIATION


                                WITNESS

MOHAMMAD AKHTER, EXECUTIVE DIRECTOR, AMERICAN PUBLIC HEALTH ASSOCIATION
    Mr. Akhter. Thank you, Mr. Chairman. My name is Mohammad 
Akhter. I am the Executive Director of the American Public 
Health Association. We have 55,000 members and they are primary 
concerned with the health of the American people. I am not here 
to testify and support particular agency, particular program or 
special group of people, but just the American people.
    Mr. Regula. You have heard the testimony. Will your 
testimony be similar to what we have heard.
    Mr Akhter. No. It is very specific. Let me point out to you 
three or four areas we think the major emphasis should be 
really help the American people be healthy and happier for the 
future.
    First, there are health disparities among our Americans. We 
have made tremendous progress in life expectancy, immunization, 
and other arenas. I have been health commissioner in 
Washington, DC. I have been state health director for the state 
of Missouri. We have done wonderful work. However, some of 
minority do not enjoy the same health status.
    The number of minorities is increasing. By 2050, there will 
be 50 percent of all people of racial ethnic descent. We cannot 
have a strong Nation if some of our people our suffering this 
disproportionately from heart disease and cancer. For example, 
the infant mortality rate is twice as high for the African 
American than it is for the average American.
    Similarly, the death rate from the diabetes is twice as 
high for Hispanics as it is for rest of the country. Last year, 
Congress passed a bill and created a center in the NIH for 
minority health. Mr. Chairman, we respectfully request that the 
center be fully funded so it can get its work going. In 
addition, we are asking that you fund the agency for health 
care research and quality so that research can be taken to the 
people at large to be able to help people.
    Secondly, Mr. Chairman, these were the issues that are very 
near and dear to most Americans. The second most important 
problem among our communities is the substance abuse problem. 
Many of the social and public health problems have root cause 
is the substance abuse.
    President has put some additional money in the budget for 
substance abuse treatment. We hope that the Subcommittee will 
look at this carefully. We will push that forward.
    The third area is our seniors. 80 percent of them have one 
chronic condition and 50 percent have two or more. They become 
utterly disabled and have to go to nursing home or need more 
medical care. HCFA has started a new program were they have 
combined the company assessment with health promotion disease 
prevention and treatment. We can keep people healthier in their 
own homes. Not only improve theirquality of life, but also save 
some money.
    Finally, Mr. Chairman, last year, the Congress passes a 
bill to deal with the bad terrorism to repair our Nation. The 
responsibility for this was placed in the Center for Disease 
Control in Atlanta. It is a problem today, as it was last year. 
We need to fund that completely so that we can have our 
communities prepared and our people protected.
    Lastly, Mr. Chairman, like the economy, disease is also 
become global. Now the hoof mouth disease. A disease can come 
at any time. We have the best scientist in the world. We need 
to make them available to other countries so that they can 
contain the disease at a local level. The Office of 
International Health, CDC, NIH where they have these experts, 
that those programs be funded so that the programs can be 
available to other countries so we do need to fight the 
diseases once its inside of our borders.
    Mr. Chairman, I appreciate very much the opportunity to 
testify before you. I would be glad to answer any questions.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for your testimony. You are 
absolutely right. Announce prevention. It is worth a pound of 
cures, they always say. Thank you for being here.
    Our next witness is Marianne Comegys. I appreciate the 
patients of all of you. Somebody has to be last. Francine makes 
out the list so do not hold me responsible. [Laughter.]
                              ----------                              

                                         Wednesday, March 21, 2001.

  MEDICAL LIBRARY ASSOCIATION AND THE ASSOCIATION OF ACADEMIC HEALTH 
                           SCIENCES LIBRARIES


                                WITNESS

MARIANNE COMEGYS, CHAIR, MLA GOVERNMENT RELATIONS COMMITTEE, MEDICAL 
    LIBRARY ASSOCIATION AND THE ASSOCIATION OF ACADEMIC HEALTH SCIENCES 
    LIBRARIES
    Ms. Comegys. I am Marianne Comegys, Associate Professor at 
Louisiana State University Health Science Library in 
Shreveport, Louisiana.
    I am pleased to testify on behalf of the Medical Library 
Association and the Association of Academic Health Sciences 
Libraries regarding fiscal year 2002 budget for the National 
Library of Medicine.
    MLA is a professional organization representing 1200 
institutions and 4,000 individuals involved in the management 
and dissemination of biomedical information.
    AAHSI is compromised of the directors of libraries of 142 
accredited U.S. and Canadian medical schools. The NLM is the 
world's largest medical library with 5.8 million items through 
National network of regional libraries. MLM ensures that health 
professionals and the public have access to health prevention 
and treatment.
    Mr. Regula. OK. You have sold me. Where do you get your 
funding? What does it come through.
    Ms. Comegys. It comes through NIH. The NLM is one of the 
agencies within NIH.
    Mr. Regula. Your effort would be to get more funding for 
NIH.
    Ms. Comegys. Right, through the NLM.
    Mr. Regula. So that can give you more money.
    Ms. Comegys. Specifically, to the NLM as well.
    Mr. Regula. You would like that to be mentioned in the 
report.
    Ms. Comegys. Right.
    Mr. Regula. I got the message. You will have to wrap up in 
a minute or two.
    Ms. Comegys. Okay, I will.
    I will mention that recognizing the invaluable role that 
NLM plays in our health care delivery system, NLM also joins 
with ad hoc for medical research funding, and recommends a 16.5 
percent increase for NLM in the NIH in fiscal year 2002.
    Many of our programs today, that the other witnesses have 
testified to, and one of the important issues that I will just 
sort of mention and sort of just regard this today since you 
are in a hurry, is that we provide, as the medical library 
community, the information resources necessary for those.
    Mr. Regula. Who uses your services, doctors?
    Ms. Comegys. The public, the health care physicians, and 
right now, there is a big push for consumer health.
    Mr. Regula. Well, if I wanted to use your services as a 
layman, where would I go?
    Ms. Comegys. You can go now to the public libraries; you 
can go to the medical libraries.
    But what we are doing now and what the National Library of 
Medicine has done is emphasize the consumer, and what wehave 
provided for you, Mr. Chairman, is easy access to this information 
through user-friendly databases.
    Mr. Regula. Here comes my pinch hitters. Now you have go 
lots of time. [Laughter.]
    Mr. Peterson [assuming chair]. He said you had lots of 
time, so take it.
    Ms. Comegys. Well, okay, I will start over. Do I still have 
that five minutes?
    On behalf of the Medical Library Community, I thank the 
subcommittee for the leadership in securing a 15 percent 
increase for NLM in fiscal year 2001. With respect to the 
library's budget for next year, I will address four issues: 
NLM's basic services outreach and telemedicine activities, 
PUBMED Central and the clinical trials database, and a need for 
a new library building.
    It is a tribute to NLML that the demand for its services 
continues to steadily increase each year. There are more than 
250 million Internet searches annually on the Medicine 
database.
    Mr. Chairman, NLM is a national treasure. I can tell you 
that without NLM, our Nation's medical libraries would be 
unable to provide the type of information services that our 
Nation's health care providers, educators, researchers, and 
patients have come to expect.
    NLM's outreach programs are designed to educate medical 
librarians, health care professionals and the public about NLM 
services. The need for enhanced outreach activities has grown 
in recent years, following the library's decision to provide 
free access to its Medicine databases.
    Mr. Chairman, we applaud the success of NLM's outreach 
initiatives, and look forward to continuing our work with them 
on these important programs. Telemedicine also continues to 
hold great promise for dramatically increasing the delivery of 
health care to under-served communities. NLM has sponsored over 
50 telemedicine related projects in recent years.
    Introduced in 2000, PUBMED Central is an on-line collection 
of live science articles, which evolved from an electronic 
publishing concept, initially proposed by former NIH director, 
Dr. Harold Varmus. This new on-line resource will significantly 
increase access to biomedical information, and we encourage the 
subcommittee to continue to support its development.
    I also want to comment on a new NLM service. It is the 
clinical trials database. This service is free, and it logs 
more than two million hits a month. It is an invaluable 
resource, which lists 5,000 Federal and privately-funded trials 
for serious or life-threatening diseases.
    In order for NLM to continue its mission, a few facility is 
urgently needed. Over the past two decades, the library has 
assumed several new responsibilities, particularly in the areas 
of biotechnology, high performance computing, and consumer 
health. As a result, the library has had tremendous growth in 
its basic functions.
    An increase in the volume of biomedical information, as 
well as library personnel, has resulted in a serious shortage 
of library space. The medical library community is pleased that 
Congress last year appropriated the necessary architectural and 
engineering funds for facility expansion at NLM.
    We encourage the subcommittee to continue to provide the 
resources necessary to acquire a new facility, and to support 
the library's information programs.
    Thank you for the opportunity to present the view of the 
medical library community.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. Who all has access to the library.
    Ms. Comegys. To the databases of the libraries?
    Mr. Peterson. Yes.
    Ms. Comegys. Everyone, from the physician to the researcher 
to the consumer; and one of the pushes that the National 
Library of Medicine has had for the last few years, and it has 
actually come the demand of the consumer, is that they know 
more about themselves and their health, and where to find this 
type of information.
    So Medline, which is a database of references and articles, 
now is free, on the web. It is easily accessible amd the user-
friendly version is called Medline-Plus.
    Mr. Peterson. Medline-Plus.com?
    Ms. Comegys. Well, Medline-Plus is actually through NIH 
NLM, and then I think Medline-Plus is a database that lists 450 
different health topics.
    Within that database, there is also dictionaries. There are 
consumer health links to other information on specific 
diseases. There is drug information. There is information on 
physicians within each territory. There is also, as I 
mentioned, the clinical trials database, and that is also quite 
accessible for anyone.
    So you, as a patient, or you, as a family member of someone 
who has a serious or life threatening disease, could go in, 
look on the clinical trials database, which is on theweb, which 
is free, and see which clinical trials are available right now, which 
are those that will be available.
    Then you, as an informed patient now, or informed family 
member, can go to your physician and say, you know, this is 
something that I think I would be interested in and want to 
participate in. It gives you all of the criteria listed, as 
well.
    So one of the pushes for NLM is the consumer and the 
consumer health, along with the human genome project which, of 
course, is for the researcher, and it is that enormous DNA data 
sequencing information, of course, which all the researchers in 
the U.S. and worldwide are so excited about. So we are from the 
researcher, as well as to the consumer.
    Mr. Peterson. If I was to inform my constituents on how 
they could utilize this, what should I tell them?
    Ms. Comegys. You can actually tell them, in Pennsylvania, 
they can go to their public libraries and have access to it. 
You can actually tell them to look on the Internet, just to 
search at home under National Library of Medicine. Within that 
website, it gives you all of the databases that I have 
described, plus others that they can have access to, free of 
charge.
    I can get you the website information. That is something 
that more and more people utilize, the Med-line databases. As I 
mentioned in my report, I think it mentioned so many million 
hits. Thirty percent of that is actually from the public, and 
that is probably increasing every day.
    Mr. Peterson. The rest is doctors, hospitals.
    Ms. Comegys. Researchers, health care professionals, and 
medical students.
    Mr. Peterson. If you could give us a short paper on that.
    Ms. Comegys. I will do that.
    Mr. Peterson. We may bog down the system.
    Ms. Comegys. Well, that is great. Do you know, the National 
Library of Medicine has sort of looked at those statistics, and 
they have never been down. They have continued to keep the web 
site.
    That is good, because they were actually surprised at the 
increase that has come about from that database. That is why 
they have gone to more and more of the consumer-based database.
    We, in the medical library community, work with the 
National Library of Medicine, through regional medical 
libraries. We go out, through grants from NLM, and train the 
public librarians on how to search for this information. We 
train the health care professionals on how to search it. We 
have grants to train the public health professionals on how to 
search, and how to help the patient, so that it is not just the 
patient out there, trying to search it with not as much 
knowledge as maybe they needed. But actually, it is quite user 
friendly. You could get on there today, and find out all sorts 
of information.
    Mr. Peterson. I shall do that.
    Ms. Comegys. The other thing is that I want to mention 
that, it is an accurate up to date databases. One of the 
concerns is that I think is with all the medical literature out 
there on the web. How accurate, reliable or up to date is the 
information. When you come to our databases, that is what you 
are getting is good information.
    Mr. Peterson. I wonder if real physicians use that often.
    Ms. Comegys. Yes, that is one of the other projects within 
the outreach projects with the NLM. Many of the grants are 
given to the regional medical library groups. There are eight 
regional library groups and through those groups, the grants 
are distributed to the local areas. The push for the rural and 
the medically undeserved areas.
    Telemedicine also comes in now to also help within those 
areas. Those in those areas that are medically undeserved have 
no less health information than those in the large cities. This 
is real important to us as well.
    Mr. Peterson. How does your telemedicine project work?
    Ms. Comegys. They all work quite differently. You can have 
telemedicine where it is the consultation from a small town 
physician who is sending visual images. We can do this now 
because of the technology. The high bandwidth and the wheel 
time video imaging that is available to us now.
    Small town physician can actually send these visuals images 
to the specialist in the larger city. The specialist in the 
large city can work on diagnosis and treatment. The patient 
would not have to travel to that large facility and that city. 
On a personal level right now in Louisiana at the Louisiana 
State University, we have a telemedicine program that we are 
working with the prisoners at a correctional institution in 
Louisiana.
    Our physicians at LSU are looking at information at the 
prison for those physicians there and then we are diagnosing 
and sending treatment information back to them so that they do 
not have to transport those prisoners to Shreveport or any 
other major facility.
    It can be used whether is it consultations with the 
physician and a patient. There is a lot of home health 
telemedicine projects. You can use it for continuing education 
with the physician and the student, who many of our students 
are in rural areas in Louisiana. Louisiana has a lot of rural 
areas. The patient themselves sort through some telemedicine 
projects and having access to the electronic resources.
    Mr. Peterson. Thank you very much.
    Ms. Comegys. Thank you.
                                          Thursday, March 22, 2001.

                           MEMBER OF CONGRESS

                                WITNESS

HON. LOUIS STOKES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. We'll get started. I see we have many 
interested people again. I think it's great that you're here. A 
lot of you are going to a lot of trouble to be here to testify 
for your cause, and that's what this country's all about. I 
know that it's time and money that you have to do, but you're 
not only helping your cause, you're helping a lot of others who 
are going to follow along. Really, it's a very generous thing 
for each of you to come and bring to our attention the 
importance of something that's close to your heart.
    This Committee does have a lot of challenges, obviously. 
This is our sixth day of public witnesses. We have the former 
chairman of this Committee with us this morning, Mr. Lou Stokes 
from Cleveland. How many years did you chair this, Lou?
    Mr. Stokes. About as long as the committee, Mr. Chairman, 
24 years.
    Mr. Regula. Twenty-four years. I need you as a consultant. 
I've been on it for about 24 days.
    Mr. Stokes. You'll do fine, Mr. Chairman.
    Mr. Regula. Lou's out practicing law in Cleveland, Ohio. He 
did a lot of good things, not only here, but the other 
committees, and we're happy that you're here today.
    Just a few of the rules. We have the boxes here which are 
timekeepers. I hate to do it, but we have to. We have about 28 
today, and we've had 28 most every--this is the sixth day. I 
think it's indicative of the great interest that the public has 
in this Committee, is the fact that we've had so many, and then 
on top of that, we had to have a lottery to decide who would 
get to be even a public witness, because the requests are far 
more than we can accommodate. But it's great that you bring 
these things to our attention.
    The boxes will be green and then it goes to amber, which 
means you've got a minute to wrap up, and then the red light 
goes on and the buzzer. So we regret it has to be that way, but 
we'll do the best we can to get all the evidence in.
    I see Nancy has arrived. Would you like to introduce your 
former Chairman?
    Mrs. Pelosi. It would be an honor.
    Mr. Regula. Okay. I don't know whether to call you Chairman 
or former Congressman or lawyer. You have a selection of 
titles, Lou, but I like to call you best of all friend. That's 
the one I like.
    Mr. Stokes. And that's something that means a great deal to 
me, Mr. Chairman, the friendship that you and I share, and the 
friendship you shared also with my late brother, Carl, with 
whom you served in Ohio.
    Mr. Regula. That's right. Lou's brother Carl was the first 
African American mayor of a major city in the United States, he 
was mayor of Cleveland. I sat beside him in the State House of 
Representatives, and we became very good friends. In fact, he 
endorsed me. [Laughter.]
    And he's a Democrat in Canton District. So see, Steny, 
there's an opportunity for you. [Laughter.]
    Mr. Hoyer. You never can tell.
    Mr. Regula. I think, Nancy, you came close once. You were 
out there, weren't you, at that meeting?
    Mrs. Pelosi. Yes, Mr. Chairman, I remember it well. And so 
do you. [Laughter.]
    Mr. Regula. Okay, well, Mrs. Pelosi, will you introduce our 
first witness this morning?
    Mrs. Pelosi. Mr. Chairman, this is a very great honor, as I 
know that any one of my colleagues would attest to. As you 
indicated in your opening remarks, this is almost a family 
affair for all of us, for Steny, for Jesse, because when Lou 
comes to the Committee, he not only comes personally, but he 
brings a great tradition with him.
    You talked about Carl, and I have my connection, too, my 
brother, Thomas D'Alessandro was a very close friend of Carl. 
They were both mayors in that very difficult time in our 
country's history, both young mayors. And they had a very, very 
close personal bond.
    I always used to say to Lou when I came here, I one day 
would love to meet your mother, she has to be the greatest mom 
in the world to have produced two great sons. Now the 
courthouse is--is it this Saturday?
    Mr. Stokes. It was this past Sunday.
    Mrs. Pelosi. This past Sunday, it was dedicated in Ohio in 
honor of her in her name. So with all of that personal and 
political history, I'm pleased to welcome our former colleague, 
Lou Stokes, behind whom and under whose leadership it was a 
pleasure to serve here and in other committees in the Congress. 
Congressman served in the Congress for 30 years, my friends, 
for those younger people here who don't know, 30 years, 1969 to 
1999. He spent many of those years as a member of this 
Subcommittee.
    He's currently senior counsel of the law firm Squire, 
Saunders and Dempsey, and is a member of the faculty of Case 
Western Reserve University, senior visiting scholar at the 
Mandel School of Applied Social Sciences. Congressman Stokes is 
also a member of the board of advisors for the Trust for 
America's Health, which brings him here today. He will describe 
what it is, so I won't take any time to do that.
    But Congressman Stokes and the Trust for America's Health 
have shown great leadership in the effort to improve our 
Nation's response to environmental health hazards. As Iwelcome 
him, I want to say that in welcoming Lou Stokes to this Committee, I am 
welcoming the best that America has to offer.
    Our chairman, Mr. Stokes.
    Mr. Hoyer. Mr. Chairman?
    Mr. Regula. Mr. Hoyer.
    Mr. Hoyer. Thank you. I want to join Nancy's remarks. 
Before you got here, Nancy, I indicated to our audience that I 
had the great privilege and honor of sitting next to Lou for 
many years as he served on this Committee. He and his brother 
and family have been giants on behalf of so many different 
issues.
    But clearly, every young African American child in America 
can have an extraordinary role model in Lou Stokes. As I sat 
next to him, as you know, Mr. Chairman, you didn't serve on 
this Committee, so you didn't have the privilege of seeing him, 
but whether it's the historically black colleges dealing with 
higher education, or it was in TRIO, or it was in primary and 
secondary education programs, or whether it was dealing with 
employees at NIH who were aspiring to be treated on the basis 
of their character, their talent and their contribution rather 
than the color of their skin, Lou Stokes has been and continues 
to be a giant on behalf of all Americans.
    I want to join Nancy in welcoming him to this Committee. 
His leadership was a powerful, it was a quiet leadership, a 
leadership of conscience and of character, not of bluster and 
power, which made it even more powerful because of that. And 
Lou, all of us who know you are honored to be your friend and 
honored to have served with you. I join Nancy and Ralph and 
Jesse in welcoming you to the Committee.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman.
    Let me just say that we run the danger this morning with 
all of the accolades that we could bestow upon Mr. Stokes, of 
the kind things that all of us who have had the opportunity to 
work with him, who have witnessed him from afar, and those of 
us who for the very brief tenures that we've been in the 
institution have had the great opportunity and privilege of 
working with Mr. Stokes, we run the danger this morning of our 
accolades being much longer than your testimony. [Laughter.]
    When I first came to this Committee, I came really as the 
successor to Lou Stokes. Many of the programs that I champion 
and argue for on this Committee were programs that Lou Stokes 
one, authored as a member of this institution, shepherded the 
legislation through the process, and then, on this Committee, 
fought to make sure that those programs were fully funded.
    The outstanding work that his family has done, his brother 
as mayor of Cleveland, the Congressman himself here in the 
United States institution, there are very few people who have 
earned the respect of both sides of the aisle like Congressman 
Lou Stokes.
    I remember when he announced his retirement, and many of us 
went to the Floor essentially to say goodbye to Mr. Stokes, the 
outpouring from both sides of the aisle was nothing less than 
astounding. I've seen other members of Congress who served the 
same amount of time in the institution, and literally within 15 
or 20 minutes, whatever accolades were being bestowed upon 
them, essentially the special order was essentially over. We 
could have spent the entire day, maybe even the entire week, 
talking about the contributions that Lou Stokes has made to 
this Nation.
    I'm indeed honored that you're before our Committee, and 
I'm equally as honored to have the great privilege of trying my 
very best to follow in my footsteps on the Committee. I'm very 
grateful, Mr. Stokes.
    Mr. Stokes. Thank you.
    Mrs. Pelosi. This isn't about Mr. Stokes' contribution to 
this Committee, but it's important to note that he was the 
chair of the Ethics Committee, he was the chair of the 
Intelligence Committee, and all that that implies in terms of 
the changes. As the Ranking on Intelligence now, I can speak to 
all that he has done to, as far as diversity is concerned in 
that community as well. He has pioneered so many fronts, he's 
the all American boy. We could again take all day to talk about 
him.
    Mr. Jackson. I believe he was also lead investigator on the 
assassination of Martin Luther King, Jr., lead investigator on 
the assassination of John F. Kennedy, as well. So for those of 
you who are here, it's really a great privilege and a great 
honor for those are here and are very unfamiliar with our 
Committee to be in the presence of Mr. Stokes.
    Thank you, Mr. Chairman.
    Mr. Regula. Well, it's not only that, you go to Cleveland, 
every other street is a Stokes Boulevard. [Laughter.]
    And the Stokes VA clinic, and I don't know, is there 
anything left to name up there? Between you and Carl and your 
mother, I guess you skipped the Terminal Tower. But you've done 
well. Lou, we're happy to welcome you.
    Mr. Stokes. Mr. Chairman and Mr. Hoyer, Mrs. Pelosi and Mr. 
Jackson, I'm indeed overwhelmed.
    Mr. Regula. And we have a new member down here, Mr. 
Sherwood.
    Mr. Stokes. Mr. Sherwood.
    Mr. Regula. He's the newest member of our Subcommittee.
    Mr. Stokes. Greetings, Mr. Sherwood.
    Obviously I'm overwhelmed, your kindness and your kind 
remarks this morning have indeed overwhelmed me. It's difficult 
to even say to you what it meant to walk back into this room 
where I spent 24 of the 30 years that I served on the 
Appropriations Committee. It is a part of my life, and I 
suppose will always remain a part of my life, as will the 
personal friendships I had with each one of you.
    We've spoken, Mr. Chairman, of the great friendship you 
had, not only with me but with my brother, Carl, with whom you 
served. And Mr. Hoyer, I remember even you were out in Ohio 
when my daughter was running for judgeship out there, and you 
shared that experience with us. She's still on the bench, and 
enjoying it, thanks to you and others.
    Mrs. Pelosi, as you mentioned, your brother and my brother 
were mayors at the same time, and they were great friends. You 
enjoyed a special relationship also with my brother Carl.
    And Mr. Jackson, in your case, your father, Rev. Jesse 
Jackson, was highly instrumental when Dr. King came to 
Cleveland and walked the streets of Cleveland, to register 
voters in a way that they were able to elect Carl Stokes as 
mayor of Cleveland and set history. Your father was one of the 
young lieutenants that Dr. King brought with him. And your 
father over the years was a part of everything that Carl and I 
did in that city.
    It was a great honor for me to counsel with you about the 
fact that when I was leaving here, that this would be a great 
subcommittee for you to get on. I hear such wonderful things 
about what you're doing in terms of carrying on the work that I 
endeavored to do over the years.
    Mr. Chairman, I'm indeed honored to be here this morning.
    Mr. Chairman and members of the subcommittee, I'm currently 
serving on the board of a new public health organization called 
the Trust for America's Health. A former chairman of this 
Committee, John Porter, and Governor Lowell Weicker are also on 
this board.
    The Trust's mission is to put prevention back into the 
fight against chronic diseases. I serve on the Pew 
Environmental and Health Commission, located at Johns Hopkins 
Hospital. Based on the Commission's recommendation, the Trust's 
first initiative is to fight for the creation of a nationwide 
health tracking network to track chronic diseases. Today, 
chronic diseases such as cancer, asthma, leukemia, birth 
defects and Parkinsons kill four out of five Americans. More 
than a third of our population, 100 million women, children and 
men suffer from chronic diseases. These diseases annually cost 
our country $325 billion.
    Yet there is no national system to track these killer 
diseases. Our Federal and State agencies only coordinate 
tracking infectious diseases: polio, typhoid and yellow fever, 
diseases that a national tracking system helped to eradicate.
    Chairman Regula, let me give you some examples from our 
home State of Ohio. Even though asthma attacks are the number 
one cause of school absenteeism, and asthma has increased 75 
percent between 1980 and 1994, Ohio does not track this 
disease. Ohio does not track cerebral palsy, autism and mental 
retardation, even though the National Academy of Sciences 
estimates that 25 percent of these diseases in children are 
caused by environmental factors.
    Although birth defects are the leading cause of infant 
mortality, Ohio does not have a birth defects registry. Even 
though multiple sclerosis has increased by about 20 percent 
between 1986 and 1995, Ohio does not track this disease. And 
unfortunately, Ohio is not unusual, it is the norm.
    To fill this void, the Pew Commission proposed a nationwide 
health tracking network. The network involves three basic 
features. The first feature establishes and coordinates local, 
State, and Federal health agencies to collect vital data. This 
data becomes part of a national system to track and monitor 
priority chronic diseases and potentially related environmental 
factors.
    The second is an early warning system that would identify 
environmental health threats in their earliest stages and give 
public health officials valuable data about health risks, such 
as lead poisoning. This network would be similar to the 
existing system that informs communities about infectious 
disease outbreaks.
    The final piece consists of enhancing and coordinating 
local, State and Federal health officials into rapid response 
teams to quickly investigate clusters and outbreaks. The 
response system would include regional programs to investigate 
local health problems and centers at our universities to assist 
with research and data analysis. The network would provide our 
doctors and hospitals, public health officials and communities, 
with data on patterns and possible environmental factors to 
enable them to form preventive strategies.
    Currently, chronic diseases cost our country $325 billion 
annually and are expected to reach $1 trillion in 15 years. 
These medical costs could be reduced significantly if we had 
data to prevent the onset of these diseases. The network has 
estimated the cost at about $275 million, or less than $1 for 
every man, woman and child in America. This investment is 
necessary now to stem the crushing medical costs to our 
country.
    This subcommittee and the Administration have rightfully 
doubled the investment in NIH. But we need to fund a network to 
give our NIH scientists the data they need. As a Nation, we can 
track birds and people with West Nile virus and the ebola virus 
on another continent. But we still can't track asthma.
    In the fiscal year 2001 budget, this subcommittee asked the 
CDC to research developing a network and expects the CDC to 
present the findings during this year. Now I am asking this 
subcommittee to finish what you have already begun. Please make 
the investment in this basic public health tracking tool. Only 
with your help can we pull our health tracking system into the 
21st century and win the war against chronic diseases that 
cause so much human suffering.
    I thank you for the privilege of testifying.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Lou, where would you think we should 
put this kind of a record keeping, data collecting, in NIH or 
CDC or HHS?
    Mr. Stokes. I would think probably, Mr. Chairman, that CDC 
ought to be the appropriate agency here. And as I said, in the 
2001 budget, the subcommittee asked CDC to look into this 
matter and report back to the subcommittee. I would think that 
they would probably be the correct one, the Centers for Disease 
Control.
    Mr. Regula. Right. Questions? Mrs. Pelosi.
    Mrs. Pelosi. Just a comment, Mr. Chairman. I thank--it's 
music to our ears to hear the maestro sing this song. Because 
this is such an important issue and you've worked on it so many 
years, Mr. Stokes.
    I just want to call the Chairman's attention, this subject 
came up, whether it was yesterday or the day before, when we 
were talking about the Sugar Law Guild Center, where they 
talked about tracking, and especially in minority communities, 
which are disproportionately affected by some of this, and the 
tracking will give us the data to verify that.
    But again, this was the only hearing that we had in this 
Committee, was on this subject, environmental health, and the 
issue of tracking was very, very important in that, the asthma, 
and how it affects children especially, is really a 
responsibility we have to get to the bottom of.
    So there's a connection to all of this. The non-profit 
community is playing a very major role, and with the prestige 
of Mr. Stokes, I'm sure we're going to find an answer to this.
    Thank you, Mr. Chairman. Thank you, Mr. Stokes.
    Mr. Stokes. Thank you very much.
    Mr. Regula. I checked with the staff, of course, as you 
know, the bill didn't get finished until December, early 
December or late November. Anyway, we don't have a report back 
yet, but we anticipate that coming this year, the response to 
the Committee's action.
    Mr. Stokes. Good.
    Mr. Regula. Any other questions?
    If not, thank you, Lou. We're happy to welcome you back 
here.
    Mr. Stokes. Thank you so much.
    Mr. Regula. It's a great idea.
                              ----------                              

                                          Thursday, March 22, 2001.

                            SAFER FOUNDATION


                                WITNESS

DIANE WILLIAMS, PRESIDENT AND CEO, SAFER FOUNDATION
    Mr. Regula. We'll move on. Next, Mr. Jackson will introduce 
Diane Williams.
    Mr. Jackson. Mr. Chairman, as President of the Safer 
Foundation, a position she has held for four years, Diane 
Williams heads the Nation's leading non-profit provider of 
social services, education and job opportunities, exclusively 
targeting ex-offenders. Ms. Williams' association with Safer 
began in the 1970s as a volunteer, then serving on the agency's 
board of directors and as the vice president for development 
and strategic initiatives.
    Before she began her tenure at Safer, Ms. Williams was 
marketing director for the enhanced business unit at Ameritech, 
and she has held executive positions at AT&T and Rockwell 
International. Ms. Williams is an accomplished speaker in the 
areas of criminal justice policy, community corrections 
strategy, as well as prevention and basic education programming 
for adult and juvenile ex-offenders.
    She has been profiled in the Chicago Tribune, Chicago Sun 
Times, and her televised appearances include talk shows aired 
on CBS, NBC and WGN. In 1994, Diane was named the best and 
brightest among business executives by Dollars and Sense 
Magazine. Ms. Williams earned an MBA from Northwestern 
University and serves as an adjunct professor in marketing at 
Aurora College.
    Mr. Chairman and members of the Subcommittee, I present Ms. 
Diane Williams.
    Ms. Williams. Thank you, Congressman Jackson and Mr. 
Chairman, for allowing me to present the Safer Foundation to 
you today. You heard a long list of things that I've done, and 
this that I do today and throughout my time at the Safer 
Foundation is the most important work that I've done in my 
career. So you scare me to death when I come here and present 
this subject today.
    The Safer Foundation is a not-for-profit organization that 
works to reduce recidivism by supporting the efforts of former 
offenders to become productive, law-abiding members of their 
communities. We provide a full spectrum of services, including 
education, employment and case management.
    Established in 1972, with facilities in Chicago, Rock 
Island, Illinois and Davenport, Iowa, Safer has placed clients 
in over 40,000 jobs and is the largest community based provider 
of employment services for ex-offenders in this country. The 
Nation's prison population you know is on the rise. Over 
600,000 men, women and youth are released from institutions 
each year.
    When ex-offenders come out of the correction system, they 
often have a variety of needs, as does the community have a 
variety of needs around helping them to re-integrate into 
society. All too often, many ex-offenders do not secure 
permanent, unsubsidized employment, because they lack 
occupational skills, have little or no job hunting experience, 
or find that many employers refuse to hire those with criminal 
records. Without a strong support system in place, all too 
often ex-offenders fall back into the criminal subculture. They 
do what they know how to do best.
    The re-entry partnerships initiative begun in 1999 is a 
Federal demonstration that assists eight States in confronting 
the challenges presented by the return of offenders from prison 
to the community. Funded through the Department of Justice, the 
Department of Labor and the Department of Health and Human 
Services, re-entry partnerships include identification of the 
appropriate re-entry offender population, surveillance and 
monitoring, community based support resources, and coordination 
between the criminal justice system and the employment, social 
services and treatment systems.
    The Safer Foundation respectfully requests that the 
subcommittee continue to support and to expand this important 
initiative.
    Safer is also committed to bridging the gaps that preclude 
the ex-offender population from successfully living in the 
community. We do that by providing, as we said, employment 
services geared to make successful job placements. We have 
employment specialists who work with our clients to complete 
job applications, to train them on how to behave inthe 
interview process, but even more importantly, to train them on how to 
behave in the job once achieved, so that they might not only be placed 
in employment, but retain that employment for a long, successful period 
of time.
    We have focused lots of our efforts on what we call a 
lifeguard position, which supports that client around those 
issues that arise while working sometimes or often for the 
first time when you're working, how you interact with your 
supervisor, how to work with other people and how to keep up 
your commitment as a team member in that work environment.
    The one on one relationship provided by our job developers 
is critical as we transition or assist to transition people 
into the mainstream. In addition to offering job training and 
placement, Safer also offers education programs. Current 
research indicates that the more education an offender has, the 
less likely they are to return to prison. Our youth empowerment 
program is one of Safer's most effective education programs, 
both in terms of helping clients earn their GEDs and also in 
reducing recidivism.
    Sixteen to 21 year olds are referred by probation and 
parole officers, or word of mouth, and are placed in this 
program which is designed to help students continue their 
education and training after Safer. Rather than provide 
traditional classroom instruction, which we know has been a 
failure for the clients that we serve, we offer an approach 
that's considered peer tutoring, or in today's more appropriate 
terminology, cooperative education. We started it before there 
was such a term as cooperative education.
    In addition to learning basic skills to prepare for taking 
the GED, these youthful ex-offenders learn problem solving 
skills that are needed to succeed in the world of work and 
community, increase their level of confidence in their ability 
to learn and to make and sustain constructive life changes. Of 
the over 300 students that have participated in our youth 
empowerment program, 81 percent complete the program. And their 
academic progress increased 12.5 percent from pre to post GED 
readiness. This is the equivalent of three grade levels in an 
eight week period of time.
    Of the students who finish the program, 50 percent passed 
the GED exam the first time they took it, a pass rate well 
above the State average, and actually the norm that the country 
averages. Nearly 200 of the students who completed the training 
were placed in either higher education, vocational training or 
jobs, and 95 percent completed at least 30 days retention in 
their placements.
    Perhaps most significantly, our three year recidivism rate 
for the youth empowerment program is only 21.4 percent, less 
than half of the Illinois juvenile rate of 51 percent for the 
same period.
    We are in the process of building a program on the south 
side of Chicago because three out of the four students that 
apply for our program today are denied access to the program. 
We are asking your support in continuing that project that 
Congressman Jackson was very instrumental in helping us to 
start this year. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    How far out do you reach? Do you go beyond Illinois?
    Ms. Williams. We've gone into Illinois and Iowa, have not 
gone beyond those two States today. It is interesting that you 
ask that question, Mr. Chairman, because a number of other 
folks are asking us about coming to States where they serve.
    Mr. Regula. I think I heard you say that among juveniles, 
the recidivism rate is 51 percent?
    Ms. Williams. In the State of Illinois, for the 16 to 21 
year old age group, that's correct.
    Mr. Regula. I suspect it's even higher--I was on the Ohio 
Crime Commission, and at that time it was 75 percent in the 
adult population. That's tragic.
    Ms. Williams. It is tragic. On the adult side, we have in 
Illinois, it's almost 50 percent. Our recidivism rate for the 
adult population that we serve is 17 percent. So we do help 
people.
    Mr. Regula. The ones you serve are at 17 percent?
    Ms. Williams. That's correct.
    Mr. Regula. Those that are outside the system, it's 
probably much higher.
    Ms. Williams. That's correct.
    Mr. Regula. Any other questions? Yes, Mr. Kennedy.
    Mr. Kennedy. Yes, Mr. Chairman, I want to commend the good 
work that's being done, just say, we have a permanent prison 
class in this country right now, 2 million people in jail. 
These people are going to have to come out. And the thought 
that we as a Nation have not come to grips with what that's 
going to mean, I mean, these are people with a record. They're 
going to be living in our society, trying to get jobs, trying 
to get re-integrated. I mean, we're going to pay the price as a 
Nation if we don't come up with a better solution than we have 
now for helping them re-integrated into the community.
    And every one of those people that you're saving is also, I 
would venture to say, many families who might otherwise be 
victimized by this person that you're saving, a lot of 
heartache and grief. So I think you're doing more than our own 
criminal justice system is doing to help keep our communities 
safer. And I want to thank you for the good work you're doing.
    Ms. Williams. Thank you very much.
    Mr. Regula. Thank you.
                              ----------                              

                                          Thursday, March 22, 2001.

                 MARYLAND STATE DEPARTMENT OF EDUCATION


                                WITNESS

NANCY S. GRASMICK, MARYLAND STATE SUPERINTENDENT OF SCHOOLS, MARYLAND 
    STATE DEPARTMENT OF EDUCATION
    Mr. Regula. Our next witness, Mr. Hoyer will introduce Dr. 
Nancy Grasmick.
    Mr. Hoyer. Thank you very much, Mr. Chairman.
    While Dr. Grasmick is coming forward, I'll start to 
introduce her. Dr. Grasmick has been superintendent of schools 
in Maryland since 1991, for over a decade. Nancy, are you the 
longest serving superintendent in the United States now?
    Ms. Grasmick. There's one other that's longer.
    Mr. Hoyer. Dr. Grasmick is a graduate of Johns Hopkins 
University, Towson and of Gallaudet. So she has a very broad 
background and a lot of ways to communicate with people, and 
does so extraordinarily well on behalf of children and on 
behalf of families.
    I'm not objective when it comes to Dr. Grasmick, I must 
say, because Judy, my wife Judy and Nancy were at Towson 
together, and graduated together and worked together throughout 
their professional careers and frankly, until Judy died. Dr. 
Grasmick has received too many awards, Mr. Chairman, for me to 
articulate. But if you read her resume, she has been cited as 
one of Maryland's most outstanding leaders, one of the Nation's 
most outstanding educators, has been cited, as I say, both by 
National and State organizations for her work and leadership in 
education.
    She has been the superintendent, which is, by the way, 
selected by our board, under two governors. She is the only 
person that I know of that was the secretary of two departments 
at the same time in the State of Maryland. She was with 
Juvenile Family--what was the name of it, Nancy?
    Ms. Grasmick. The Office for Children, Youth and Families.
    Mr. Hoyer. The Office of Children, Youth and Families, 
which we have a similar one, as well as the superintendent of 
schools, an extraordinarily accomplishment. She has been 
recognized by her peers throughout the Nation as somebody who 
has brought a commitment to quality education and to 
accountability, which is being discussed, properly so, so 
widely.
    So I'm pleased on behalf of all the Committee to welcome 
Dr. Grasmick to our Committee, and look forward to her 
testimony.
    Ms. Grasmick. Thank you. Thank you, Mr. Hoyer. It's really 
an honor to be here and testify before you, Mr. Chairman, and 
members of the Committee.
    It is also an honor to perpetuate the vision of an 
extraordinary woman, Judy Hoyer, who was such a champion and 
pioneer for young children in the State of Maryland. In her 
honor, and because of her incredible work, we have created in 
the State of Maryland a concept known as the Judy Center.
    As you begin your work on the fiscal year 2002 budget, I'm 
asking that you give consideration to nationally replicating 
this incredible collaborative full service program for all of 
America's young children. What is a Judy Center? It is a 
comprehensive early childhood education program, which is 
coupled with family support services for children birth through 
six years of age and their families. It is either located in a 
public school or located in a facility in close proximity to an 
elementary school.
    Currently in the State of Maryland, our Judy Centers are 
serving over 4,400 of these young children. Over the years, 
Government has been dedicated to generating program after 
program, wonderful programs, for young children and their 
families. However, these programs have been generated in a 
piece-meal fashion where they are scattered across communities, 
where space is sometimes the primary consideration of where 
they will be located.
    Often citizens do not know of the existence of these 
services and they don't have the capability to access them. 
Imagine needing three or four different services for your 
child, but you don't have transportation to even get to one 
service. It can be a daunting task, and sometimes the 
conclusion is, it's easier not to participate than to try to 
figure out how to access these services.
    This is the wonderful part of the Judy Centers. We take the 
best part of Government, all of the helpful services being 
generated, and make them accessible to families. This is cost 
effective, it provides services to our citizens, but in 
addition to that, it provides for cost avoidance. In the State 
of Maryland, we are spending more than $328 million a year of 
State and Federal funding to help children catch up as they 
matriculate through their school career.
    We're all aware of the current brain research talking about 
the potential for learning that young children have. In 
Maryland, we've created a kindergarten work sampling system, 
and we have concluded that 40 percent of the children entering 
kindergarten in the State of Maryland are not ready to learn as 
we've defined it as a national goal. These Judy Centers offer 
full day, full year services, including kindergarten, pre-
kindergarten, therapeutic nurseries, special education 
services, infant and toddler programs, before and after school 
child care, Head Start, Family Support Centers, Healthy 
Families, parent involvement programs, community health 
programs. It builds a continuum of education and support 
services from birth through school entry.
    Thirteen of our 24 jurisdictions in the State of Maryland 
currently have Judy Centers. We anticipate the expansion very 
soon. Why do these centers work? In addition to the reasons 
I've already cited, they are results oriented, strong 
accountability for outcomes, program accreditation is a 
requirement for all of the programs contained in these centers. 
Family support services are required. Project coordination and 
case management services are essential.
    Finally, it brings together a whole community of 
professionals. And I would say that all of us in this room know 
that education is the bridge to opportunity. The Judy Centers 
help young children and their families take those first steps 
on that bridge.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. That's a wonderful legacy for Judy 
Hoyer.
    A couple of questions. Can you use Title I or do you use 
Head Start money to finance these? How do you handle that?
    Ms. Grasmick. We cobble together a lot of the dollars that 
we receive. Yes, we do use Head Start monies for a portion of 
this, and yes, we do use some of our Title I funding for a 
portion of this. Certainly we do that. But it's all of the 
collateral services that make these so special that often are 
not funded.
    Mr. Regula. Do you use volunteers at all, medical personnel 
or consultants?
    Ms. Grasmick. We have medical personnel, we have the 
presence of higher education in terms of doing professional 
development for the individuals who work in these centers. So 
there's a K-16 relationship, as well as social workers, health 
professionals, etc.
    Mr. Regula. Another aside. Do you do testing in the 
Maryland system?
    Ms. Grasmick. We certainly do, throughout the school career 
of children. I'm proud to say in quality counts, which is the 
national assessment of all 50 States, Maryland was rated number 
one with a score of 98 for its assessment accountability and 
standards.
    Mr. Regula. Questions?
    Mr. Hoyer. She's terrific, isn't she? [Laughter.]
    Obviously I'm not very subjective on this issue, Mr. 
Chairman, I admit to that. But I know those of my colleagues 
who have served on this Committee for some time, Nita Lowey and 
I particularly, talking about comprehensive schools, and in Dr. 
Grasmick's testimony, this is not necessarily a program that 
costs more money. What it seeks to do, we have at the Federal 
and State levels a lot of programs that all of us have 
sponsored or supported, that have a multiplicity of parents who 
are all very proud of those programs.
    The problem that Judy had and that others have at the local 
level is looking sort of at this array of programs that are 
designed to help Mary Jane or Johnny Brown. But the complexity 
of getting from HHS, Department of Education, Department of 
Transportation, Department of Agriculture, HUD and other 
agencies who have resources available to help children learn 
better and to help their families be more functional and 
therefore have the family unit and the child ready to learn and 
learning well, is a challenge.
    I will be introducing in the next couple of weeks the Full 
Service Community Schools Act of 2001. I put $500,000 in this 
bill about five years ago, for the purposes of having a study 
done by HHS and the Department of Education on how to better do 
this. They came out with a report, we didn't implement it as 
quickly as we could.
    The Governor and Judy, the present Governor, who was then 
county executive of Prince George's County, and Governor 
Schaffer, then our Governor, very close to Dr. Grasmick, and 
Judy put together a similar center in Prince George's County, 
Mr. Chairman, and that has served as the model for this program 
that Dr. Grasmick and Governor Glendenning put together. In 
fact, it was Governor Glendenning's suggestion to name these 
the Judy Centers, which he thought was much more family 
friendly than the actual title of the bill, which was the 
Judith B. Hoyer Early Child Care and Education Act.
    But Dr. Grasmick, I want to thank you so very much for the 
leadership and commitment that you have shown in making sure 
not just that this program works, but that we are effectively 
reaching out to every child, and that like President Bush says, 
we cannot afford to leave a child behind.
    Thank you for being here, and thank you for your 
leadership.
    Ms. Grasmick. Thank you, Congressman.
    Mr. Regula. Mrs. Pelosi.
    Mrs. Pelosi. Mr. Chairman, I know usually you don't want us 
to have too many comments, but very briefly, I want to join 
Congressman Hoyer in welcoming Dr. Grasmick. Her reputation in 
Maryland is well established for a long time. As Steny pointed 
out in his opening remarks, her qualifications are exquisite.
    But I just want to thank you for this model, which as 
anyone who knew and loved Judy would know how much this means 
to her. I want to thank you and Mr. Hoyer for your leadership 
on this. Your successful implementation of it serves as a model 
to the rest of the country. For that we're all grateful. Thank 
you.
    Ms. Grasmick. Thank you.
    Mr. Regula. Thank you for being here.
    We have a motion to adjourn on the Floor. If everybody 
could go over and get back quickly. I think Mr. Jackson--Mr. 
Peterson will do one other one until you get back and introduce 
your witness. I think, Mr. Hoyer, you have some, too.
    Mr. Hoyer. I'll go vote.
    Mr. Regula. So we will do one, then we'll go to yours, Mr. 
Jackson.
                              ----------                              

                                          Thursday, March 22, 2001.

                  MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

RONNY B. LANCASTER, MBA, J.D., PRESIDENT, ASSOCIATION OF MINORITY 
    HEALTH PROFESSIONS SCHOOLS
    Mr. Regula. Okay, we'll get started. Mr. Jackson, if you'd 
like to introduce your guest today, Mr. Ronny Lancaster.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for the opportunity to introduce 
Ronny Lancaster. Mr. Lancaster is the Senior Vice President for 
Management and Policy at the Morehouse School of Medicine, and 
the President of the Association of Minority Health Professions 
Schools. Mr. Chairman, the Association of Minority Health 
Professions Schools is comprised of the Nation's 12 
historically black medical, dental, pharmacy and veterinary 
schools. Combined, these institutions have graduated 50 percent 
of all African American physicians and dentists, 60 percent of 
all African American pharmacists, and 75 percent of all African 
American veterinarians.
    Mr. Chairman, working closely with the Association in the 
106th Congress, we were successful in passing legislation 
establishing the National Center for Minority Health and Health 
Disparities at the NIH. Following the passage of this 
legislation, this subcommittee included a line item 
appropriation of $130 million in fiscal year 2001. Mr. 
Chairman, members of the subcommittee, I want to thank Mr. 
Lancaster and the Association of Minority Health Professions 
Schools for their commitment to improving the health status of 
all Americans, and I look forward to working with Mr. 
Lancaster.
    Mr. Lancaster, welcome to the subcommittee.
    Mr. Lancaster. Thank you, Mr. Jackson.
    Thank you, Mr. Chairman, and good morning to you and 
members of the subcommittee and to Mr. Jackson.
    Mr. Chairman, it's an honor to appear before the 
subcommittee this morning, and thank you for the opportunity. 
It is an honor to be introduced by any member of Congress, and 
a privilege to be introduced by Congressman Jackson, a member 
not only of this subcommittee, but a member who has 
distinguished himself in that in just a second term he has 
successfully sponsored legislation which leads to the 
improvement of lives for millions of Americans in our 
association and the Nation. We owe Mr. Jackson and his 
colleagues a debt of gratitude for their hard work, their 
vision and their commitment in accomplishing this most 
important objective.
    Our association also welcomes you, Mr. Chairman, and we 
look forward to a long association during your tenure as Chair. 
We ask that the record reflect our deep appreciation to 
Chairman John Porter who led this subcommittee with 
distinction.
    Mr. Chairman, before beginning my formal testimony, I'd 
like the opportunity, very briefly, to introduce the gentleman 
to my left, your right. This is Dr. John E. Maupin, President 
of Meharry Medical College. It will be my privilege to hand 
over the gavel as president of this association to Dr. Maupin 
in about two weeks.
    Mr. Chairman, you may know, and interestingly, Mrs. Pelosi 
mentioned in introducing Mr. Stokes, she referred simply to 
difficult days in our Nation's history. We, I think, all 
recognize that our history has been punctuated by glorious 
moments, and yet simultaneously, unfortunately, there have been 
difficult times. Meharry Medical College stands alone with 
Howard University School of Medicine as only two universities 
in this Nation where for almost eight decades, these were the 
only medical schools in the country where African American and 
other students were allowed to go for medical education. So it 
is a privilege to introduce Dr. Maupin, and again a privilege 
to hand the gavel to him.
    Mr. Chairman, I'm here this morning to ask the support of 
the subcommittee for three areas. These include support for the 
continuation of the doubling effort for the National Institutes 
of Health, support for the Title III program which is 
administered by the U.S. Department of Education, and finally, 
support for a group of programs administered by the Health 
Resources and Services Administration, HRSA, collectively 
referred to as Health Professions Programs.
    To go through these, just a word about each of these 
quickly, Mr. Chairman. Support for the doubling of the 
appropriation to support the National Institutes of Health is 
nearly universal. We add our voice to that chorus. The National 
Institutes of Health has done a magnificent job in leading the 
world in scientific inquiry and discovery, leading in turn to 
the improved health status of many Americans.
    Regrettably, despite the success, NIH has not done as good 
a job focusing on the important subject of minority health and 
health disparities. Now, thanks to the leadership of Mr. 
Jackson and Congressman Charlie Norwood, and the strong support 
of Republican and Democratic leaders in both chambers, we now 
have at NIH a new national center for minority health and 
health disparities charged with examining these very important 
issues.
    So we support a 16 percent increase for NIH and request 
also a funding level of $200 million for this new center, to 
enable it to conduct the important work for which it has been 
charged.
    Secondly, Mr. Chairman, with respect to the Title III 
program, this program is authorized by Title III of the Higher 
Education Act, commonly referred to as Title III, and its 
purpose simply is to strengthen historically black graduate 
institutions by establishing and strengthening program 
development offices, helping to initiate endowment campaigns at 
those institutions, strengthening information technology 
programs and finally, strengthening their library capacity.
    And finally, Mr. Chairman, I will say also, we are very 
appreciative to this subcommittee for their very strong support 
of this program last year, and we request support again in this 
program at the level of $60 million.
    Finally, in the area of health professions, we ask your 
support for the group of programs collectively referred to as 
Health Professions, programs such as the Health Careers 
Opportunities Program, HCOP, which encourages minority and 
underprivileged youth to consider careers in health 
professions, another program, Scholarships for Disadvantaged 
Students, which makes it possible for these students, frankly, 
to receive an education. And finally, Centers of Excellence 
programs, which seeks to support a level of excellence at each 
of our institutions.
    These programs, Mr. Chairman, collectively, without 
exaggeration, are the difference at our institutions between 
the doors being open and closed.
    So in closing, Mr. Chairman, once again I'd like to thank 
Mr. Porter for his leadership in the past. I'd like to thank 
Mr. Jackson for the privilege of introducing me this morning. 
And finally, thank you, Mr. Chairman, for the privilege of 
appearing this morning. Welcome, and we look forward to working 
with you during your tenure.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    How many institutions do you represent?
    Mr. Lancaster. There are nine institutions, Mr. Chairman, 
with twelve graduate programs at these nine institutions. These 
institutions are located throughout the country.
    Mr. Regula. Are these exclusively African Americans, or do 
you have a mixture of student body?
    Mr. Lancaster. They all have a history in the African 
American tradition, that is to say, they are HBCUs. But, it's 
really important to emphasize that each of our institutions 
admit a wide range of students. My institution, for example, 
the Morehouse School of Medicine, 80 percent are African 
American students, approximately 10 percent are Hispanic and 10 
percent are white.
    Mr. Regula. Okay, thank you.
    Mr. Jackson, questions?
    Thank you for coming.
    Mr. Lancaster. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, March 22, 2001.

                 SOCIETY FOR INVESTIGATIVE DERMATOLOGY


                               WITNESSES

LUIS A. DIAZ, M.D., PRESIDENT, THE SOCIETY FOR INVESTIGATIVE 
    DERMATOLOGY; CHAIRMAN, DEPARTMENT OF DERMATOLOGY, UNIVERSITY OF 
    NORTH CAROLINA AT CHAPEL HILL
DANIELLE CURTIS
DAVID ZARET
    Mr. Regula. Next is Dr. Luis Diaz, The Society for 
Investigative Dermatology and Chairman of the Department of 
Dermatology, University of North Carolina, and accompanied by 
Danielle Curtis and David Zaret.
    Dr. Diaz. Thank you, Mr. Chairman, subcommittee members.
    On behalf of the Society for Investigative Dermatology, the 
thousands of patients with skin diseases and myself, I wish to 
thank you, Mr. Chairman, for this opportunity to testify before 
your Committee. I am Luis Diaz, President of the Society for 
Investigative Dermatology, a dermatologist dedicated to patient 
care, skin research and training of dermatologists and 
scientists. I work at the University of North Carolina.
    On my left is Danielle Curtis, a patient suffering with 
vertiligo, an autoimmune disease in which the immune system 
destroys the pigment of the cells. On my right is Mr. David 
Zaret, a patient suffering from a disease named anthivulgaris, 
an autoimmune disease in which the immune system destroys the 
skin on the lining of the oral cavity. These diseases were 
lethal until the decade of the 1950s.
    Complications of treatment of these diseases are serious. 
You can imagine the problems that Danielle and David are 
suffering every day of their lives.
    The mission of the Society for Investigative Dermatology is 
to support research in skin diseases, and to facilitate the 
training of physicians and scientists of the future. We believe 
that scientific research on skin diseases is the best approach 
to bring hope and assistance to millions of Americans of all 
ages, gender and ethnicity that are currently suffering from 
these ailments. Through research, we wish to enhance our 
knowledge in prevention, diagnosis and treatment of skin 
diseases.
    We have four suggestions which are also advocated by the 
American Academy of Dermatology, representing all U.S. 
dermatologists, and the Coalition of Patient Advocates for Skin 
Disease Research, which is composed of 24 organizations 
concerned with skin diseases. One, our Society is deeply 
grateful to the members of this Committee for our efforts to 
double the funding of NIH over five years. We support the 
proposal of the Ad Hoc Group for Medical Research Funding, 
which calls for a 16.5 percent increase in funding for NIH in 
fiscal year 2002 and specifically for the National Institute of 
Arthritis, Musculoskeletal and Skin Diseases, NIAMS.
    Last year, Congress passed and the President signed a bill 
which included a major section regarding clinical research and 
loan repayment provisions for young trainees interested in 
biomedical research. The pool of physician scientists is 
decreasing at an alarming rate in all fields of medicine, and 
in dermatology. We request that this Committee provide the 
appropriate level of funding for this new, important 
legislative initiative.
    You would be surprised, Mr. Chairman, the information 
regarding total cost to society of a skin disease is not 
updated since 1979. Information about incidence, prevalence, 
mortality and disability, along with the economic cost is 
unavailable. Also unavailable is information about loss of 
economic productivity and activities that are foregone as a 
result of disease.
    A number of Federal agencies collect information about 
these matters. We believe a workshop developed under the 
auspices of the NIAMS and including representatives of all 
various agencies to identify existing information sources on 
the causes and scope of skin diseases, and to recommend 
strategies to developing new information sources would be very 
valuable. Such a workshop would be useful to NIAMS for its own 
planning purposes, it would be useful to the field of 
dermatology for its use in planning for future research, 
manpower and service needs. And it would be very helpful to the 
volunteer organizations in informing their constituencies on 
patients, for raising funds from the public for research.
    If the committee is interested, we would be pleased to work 
with your staff regarding bill report language in that regard.
    Thank you very much for giving me the opportunity. I am 
pleased to answer any questions you may have, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Any questions?
    Thank you for coming. I see you're headquartered in 
Cleveland, is that right? Or the Society is.
    Dr. Diaz. In Cleveland, yes.
    Mr. Regula. How many members do you have nationwide?
    Dr. Diaz. Three thousand.
    Mr. Regula. Mostly physicians that treat?
    Dr. Diaz. Physicians and scientists working in research in 
dermatology.
    Mr. Regula. So you get help from NIH?
    Dr. Diaz. We get help from NIH, yes.
    Mr. Regula. Okay. Thank you for coming.
    Dr. Diaz. Thank you very much, Mr. Chairman.
                              ----------                              

                                          Thursday, March 22, 2001.

                       RETT SYNDROME ASSOCIATION


                               WITNESSES

KATHY HUNTER, FOUNDER AND PRESIDENT, INTERNATIONAL RETT SYNDROME 
    ASSOCIATION
CHERYL DUNIGAN
    Mr. Regula. Next, Mr. Hoyer will introduce Kathy Hunter.
    Mr. Hoyer. Thank you very much, Mr. Chairman. I also 
understand she's joined by Dr. Dunigan.
    Mr. Chairman, some years ago, Kathy, when did we do this, 
1985?
    Ms. Hunter. In 1986.
    Mr. Hoyer. In 1986, I spoke with Chairman Natcher, and we 
had some testimony about a disease, an affliction that I had no 
knowledge of. But I knew a wonderful, and still know, a 
wonderful young woman named Christy. And she and I went to 
church together.
    She at that point in time, I presume, was about seven or 
eight years of age. For the first 18 months of her life, she 
developed normally, 16, 20 months, developed normally. And then 
for some unknown reason, her neurological development not only 
stopped, but it went back. And to this day, she has not 
progressed much beyond the age of a 14 or 15 month old. Her 
body has developed, obviously. She is still a good friend, and 
I see her in church from time to time, not as often as she used 
to come.
    She's a wonderful young woman. She was afflicted with what 
we now know is Rett Syndrome. It is a syndrome that affects 
young women at that age. The tragedy of course is that it 
afflicts a normally growing child that parents have related to 
for the first few months of life, thinking that their child was 
going to develop fully and normally.
    We put $500,000, we didn't earmark it, but we put in, we 
asked NIH to look at this. And both Johns Hopkins and Baylor 
undertook to look at this syndrome and have now developed, 
identified and we are making progress.
    Kathy Hunter has a child as well with Rett Syndrome, and 
founded an organization to spur research and development, and 
parents getting together and talking to one another and making 
it easier to cope and to understand and work on behalf of these 
afflicted young children. She has done an extraordinary job, as 
so many citizens who take unto themselves the personal 
responsibility to make a difference. She and her husband have 
made an extraordinary difference, and I am pleased to be her 
friend and to welcome her to this Committee. She is one of 
those advocates on behalf of health of her own child, but on 
behalf of thousands and thousands of other children and 
parents, and of our society.
    John Kennedy once said, in talking about some children with 
disabilities that although these children were the victims of 
fate, they would not be the victims of our neglect. And 
certainly, Kathy Hunter has not neglected these children. Thank 
you, Kathy, for all you've done.
    Thank you, Mr. Chairman.
    Ms. Hunter. We're so appreciative for your leadership and 
your advocacy and support and that of the Committee over the 
years.
    Julia Roberts has just become our national spokesperson, 
and we made a film that's now showing on Discovery Health.
    Mr. Hoyer. Kathy, if you could tell her that I would 
certainly be open to working closely with her as well----
    [Laughter.]
    Mr. Hoyer. I love seeing you, I want you to know that, I 
don't want her as an alternative. But you could bring her to 
testify next time.
    Ms. Hunter. It would be very helpful to have a pretty 
woman, but we're also very happy to have your support.
    Mr. Hoyer. Thank you.
    Ms. Hunter. Thank you for this opportunity to convey the 
importance of increased funding to the National Institutes of 
Health to accelerate research on the cause, treatment and cure 
for neurological disorders. The International Rett Syndrome 
Association joins the biomedical community's efforts to double 
the NIH budget by fiscal year 2003 and stands by the request 
for a $3.4 billion increase for NIH in fiscal year 2002.
    The impact and burden of neurological diseases cannot be 
emphasized enough. As I have for the last 16 years, I come 
before this Committee to talk about the Rett Syndrome story. 
It's the tale of a unique and puzzling brain disorder which 
doesn't show its face until the child is about a year old, 
andhas achieved normal developmental milestones, and then a frightening 
mental and physical deterioration follows.
    Rett Syndrome robs its victims of the ability to walk, 
speak, and use their hands purposefully. It renders children 
incapable of performing the simplest acts of daily living 
without total assistance from others. Though rarely fatal, Rett 
Syndrome follows a tragic and irreversible course leaving its 
victims permanently impaired for life.
    Pearl Buck said, ``We learn as much from sorrow as from 
joy, as much from illness as from health, as much from handicap 
as from advantage and indeed, perhaps more.'' And this is true. 
Parents learn many good lessons in their journey with Rett 
Syndrome, but our children's suffering does not begin to 
balance the knowledge or insight gained from the terrible 
tragedy of Rett Syndrome.
    My daughter with Rett Syndrome is 27 years old. She's as 
tall as my heart.
    Think of what it would be like to realize that your child 
will never grow up like her brothers or sisters, and imagine 
what it's like to provide the kind of care and support required 
for an infant, but for a lifetime. But I'm not here to tell you 
just about the bad news about Rett Syndrome. I'm here to share 
some marvelous news, and that is that last year when I was 
here, I told you about the dedication and triumph that led to 
the miraculous discovery of the gene for Rett Syndrome. Located 
on the X chromosome, this gene produces part of a switch that 
shuts off the production of proteins. When these are not shut 
off when they should be, the protein over-production causes 
nervous system deterioration which you see in Rett Syndrome.
    This finding is the first incidence of a human disease 
caused by defects in a protein whose function it is to silence 
other genes. So in a way, Rett Syndrome is the little disease 
that could.
    The gene discovery will help us better understand the 
disease process in Rett Syndrome and will likely lead to 
treatments. Because brain development continues long after 
birth and symptoms of Rett Syndrome do not develop for several 
months, there's a window of opportunity during infancy in which 
we might be able to intervene to prevent further damage, 
something we never thought possible before. In fact, clinical 
trials based on the gene discovery are already underway.
    One of the most thrilling pieces of news is the recent 
development, just in the last two weeks, of two animal models 
which mimic Rett Syndrome. These mouse models will allow drug 
experimentation which may mitigate the damage or improve 
function, and will permit post-mortem studies at all stages of 
development. Even more exciting, researchers will be able to 
study the effects of the mutation in animals who have not yet 
developed clinical symptoms. These studies could answer many 
questions about the cascading effect of the mutation in the 
brain and throughout the body, both before and after birth. The 
understanding of these basic molecular changes greatly improves 
our understanding of finding prevention and treatment 
strategies.
    Studies of the mouse have already shown that the genetic 
defect is in effect not only during brain development before 
birth, but has a critical prolonged effect even after birth. 
Since it's easier to treat newborns than to correct defects in 
embryonic development, this gives us hope and promise for 
future treatments.
    Since the first time I came before this Committee, we have 
come such a long way. I told you, now I'm wearing reading 
glasses and I brought my grandchild with me. So back in 1986, 
when NIH funding began, it was a study of a rare and little 
understood disorder. It was a pretty risky venture. Work had to 
start at the beginning, because this was a disorder that had 
nothing more than a name.
    Before the gene discovery diagnosing Rett Syndrome before 
the age of four or five years was often difficult. Today, we 
have a new genetic test to improve the speed and accuracy of 
early diagnosis, and people don't have to wait like I did until 
my daughter was 10 years old, and also to screen prenatally in 
families who already have a child with Rett Syndrome.
    Another significant result is the discovery that Rett 
Syndrome is not limited to females, as previously thought. It's 
now known that while rare, males can have Rett Syndrome, they 
die before birth or shortly after birth. So the mutation could 
play a major role in non-specific mental retardation in both 
males and females. The finding of the MECP2 mutation appears 
also in people who do not have Rett Syndrome and this knowledge 
leads us to know that it's responsible for milder forms of 
mental retardation, and may account for a large number, about 
65 percent of people who have mental retardation and have no 
known diagnosis for it.
    So this rare, little-known disorder that came to your 
attention some 16 years ago may have a profound effect that 
lasts far beyond Rett Syndrome. The biggest news in this story 
is not about Rett Syndrome, it's about those thousands and 
thousands of people who fall into that category, the 65 percent 
of unknown causes for mental retardation.
    So we urge you to increase funding that will bring about a 
better tomorrow and a brighter future for people with 
neurological disorders. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Hoyer. I want to again thank you. The bad news is that 
this syndrome exists. The good news is, as Kathy indicated, 
that we've had recently some extraordinary progress.
    I would say to my friend, Don Sherwood, and Patrick 
Kennedy, who are both spending their first few days on this 
Committee, it is an extraordinary opportunity to assist both 
individuals but more importantly, millions of people in the 
United States and around the world. Dr. Rett is from 
Switzerland, right?
    Ms. Hunter. Austria.
    Mr. Hoyer. Austria, excuse me. From Austria. He was the 
first medical doctor to identify this, but NIH grants to 
Hopkins and Baylor have been really the spur that has led to 
the discoveries. So it is a good news story as well that we are 
on the brink, hopefully, of possibly prevention and perhaps 
even amelioration.
    Thank you, Kathy. Doctor, thank you.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Thank you for coming.
                              ----------                              

                                          Thursday, March 22, 2001.

                 AMERICAN ACADEMY OF FAMILY PHYSICIANS


                                WITNESS

JAMES C. MARTIN, M.D., BOARD MEMBER, AMERICAN ACADEMY OF FAMILY 
    PHYSICIANS
    Mr. Regula. Next we have our colleague from San Antonio, 
Texas, Mr. Charles Gonzalez, who's going to introduce Dr. James 
Martin. Welcome, Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, members of the Committee. It is 
a distinct pleasure, of course, to be introducing someone who 
will be testifying here this morning who is from San Antonio. 
It's Jim Martin, and as I said, he is from San Antonio, and 
he's here representing the American Academy of Family 
Physicians, AAFP.
    After 20 years of private practice, Dr. Martin now serves 
as program director for the Family Residency Program at Santa 
Rosa Health Care in San Antonio. He is also a clinical 
professor with the University of Texas Health Science Center in 
San Antonio. Dr. Martin has been a member of the AAFP since 
1976, and currently serves on the board of directors. The AAFP 
represents more than 88,000, I believe it may be closer to, or 
surpasses now, 90,000 family physicians, family practice 
residents and medical students nationwide.
    Health profession training programs are vital in the effort 
to train more family doctors, especially in medically under-
served communities, much like my district, San Antonio, Texas. 
What determines the effectiveness of a Congress is how well 
informed are its members. So to Dr. Martin and all other 
witnesses that will be testifying today, I commend them. And as 
a member of Congress, and even on behalf of this Committee, the 
important role that you play to inform us in making the 
decisions that better serve our constituents.
    And with that, it's a great pleasure to introduce Dr. Jim 
Martin of San Antonio.
    Dr. Martin. I would like to address three specific funding 
issues with you this morning. The first is family medicine 
training under Section 747 of the Public Health Safety Act. The 
second is the Agency for Health Care Research and Quality, and 
the third are the rural public health programs which you now 
sponsor.
    Before doing that, the Academy has asked me to thank this 
Subcommittee for its incredible support for these programs 
through the years. We especially appreciate your recognition 
last year of the need to enhance the program by additional 
funding in fiscal year 2001. The Academy now asks you to also 
provide appropriate support for Section 47 by $158 million, $96 
million of which will go to family medicine training.
    That becomes very important to us, especially at a time 
when the Administration budget blueprint suggests that cuts 
should occur in these programs. The rationale of the cuts is 
based on the presupposition that there already are enough 
primary care family physicians, and that the market should be 
able to regulate the supply itself. The realities of health 
care in American would suggest otherwise, which I would like to 
state to you.
    First of all, there is a shortage of primary care and 
family physicians in America. The Institute of Medicine, the 
Council on Graduate Medical Education, and other entities have 
long advocated that we have a balanced physician work force, 50 
percent primary care physicians, 50 percent subspecialists. By 
the most conservative number that I could find, America is 
short 20,000 family physicians.
    And the markets have not helped us here, in that the number 
of students interested in primary care specialties have 
decreased over the last four years, and we suspect in the 
national residence and matching program that will come out 
today that that trend will still continue, with a decreased 
interest on the part of medical students.
    There is good news. Your Title VII funds have been 
effective. The Graham Policy Center has shown very clearly that 
students who are in medical schools receiving Title VII funding 
are more likely to go into primary care, they're more likely to 
go into family medicine, they're more likely to practice in 
rural areas, and as Congressman Gonzalez said, they're more 
likely to practice in the primary care health profession 
shortage areas, or HPSAs, which I will shorten it to at this 
point.
    A very intriguing study by the Graham Policy Centerlooked 
at the HPSAs across the country. There are 3,000 counties in the United 
States, 800 of which now are primary care HPSAs. If we take the general 
internists, general pediatricians and the obstetrician gynecologists 
out of this mix, there become another 176 counties that are HPSA 
designated.
    If we remove the family physicians, that number goes to 
almost 1,500. The conclusion is that family physicians are 
responsible for the health care infrastructure of half of the 
counties in the United States, and we don't have enough of 
them.
    Very briefly, I would also ask you to continue to support 
the ARHQ programs. We have worked very carefully with them. We 
especially appreciate what ARHQ brings to the table in its 
research at the practice level. We also appreciate their 
commitment to addressing some of the quality and health safety 
issues that we now are all concerned about.
    For the second the Subcommittee recognized that the 
research that's being done here is taking the new discoveries 
of the NIH and other basic biomedical technology and 
translating that into how we take better care of our patients 
at the doctor patient level, and we think this is some 
important.
    And finally, I ask you also to continue to support the 
National Health Care Service, your State offices of rural 
health, for the work that they do.
    That concludes my remarks. I'd be happy to respond to any 
questions that you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I agree with you, there's a real shortage. But 
how do you overcome the fact that here comes a student with a 
huge debt for education, and obviously, the specialists have 
better earning power than the family practice. I don't know if 
we can address that simply by saying we want more members in 
family practice.
    Dr. Martin. Well, they are issues that need to be 
addressed. I think that there are individuals out there who 
want to be what family doctors and the primary care physicians 
do. I think it's important for the medical schools to go back 
and look at their admitting policies and try to identify those, 
what shall I say, more altruistic individuals who are willing 
to take on jobs where they are not paid as well, and where 
their work hours are much longer than some of their 
subspecialty colleagues.
    Mr. Regula. Do you think Medicare's reimbursement rates 
tilts this table a little bit?
    Dr. Martin. They're certainly not helpful, especially for 
those in the rural or the inner city areas, like Congressman 
Gonzalez has.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. On the Medicare reimbursement, though, for the 
residency it tilts it, clearly. The subsidies are enormous for 
specialties. We should like to get some specific 
recommendations from you in terms of what we can pass on to our 
colleagues, because the reimbursement for these residencies, 
we're all paying for that. The Medicare program is subsidizing 
these people getting a specialty.
    So that's all money that's taxpayer money that's going to 
help educate someone to get higher earning power, and if it's 
the need of this country to have primary care physicians, we 
ought to reverse that policy, especially given the fact there's 
a shortage of graduate medical education dollars. We ought to 
point it, if we do have a shortage, towards those primary care 
professions.
    Dr. Martin. May I respond to Mr. Kennedy? We agree very 
much that needs to be addressed. As I stated earlier, there 
needs to be a balance. Obviously, we need many subspecialists. 
But we also need an appropriate number of primary care, and 
specifically family physicians. I hope that the work force 
policies will really look at that graduate medical education 
funding, and make sure the funds go to where this country needs 
it.
    Mr. Hoyer. I just want to make an observation. You have an 
extraordinarily effective member of Congress who has presented 
you to this Committee. His dad was a giant, as you know, in 
this institution. I am struck by the fact that his personality 
is different from his father's, but his father was and he is 
extraordinarily effective and popular and respected in this 
institution. I'm sure you probably know that, but I wanted to 
reiterate. He does a great job.
    Mr. Gonzalez. Thank you, Steny.
    Mr. Regula. Thank you. Thank you for bringing the doctor.
    I think you make a good point, Mr. Kennedy, we slant the 
table.
    Mr. Kennedy. In terms of budget cutting, there's always a 
fight for those of us who represent prime graduate medical 
education programs. And we're fighting for the dollars. But if 
there are going to be cuts, let's make sure that the funding 
goes to support our priorities.
    Mr. Hoyer. If Mr. Kennedy will yield, I am very confident 
that because Mr. Regula is such an effective leader of this 
Committee, that our 302(b) allocation will be sufficient to 
fund all the priorities that this Nation ought to be investing 
in. [Laughter.]
    Mr. Regula. Take down his words. [Laughter.]
                              ----------                              

                                          Thursday, March 22, 2001.

                  OHIO STATE UNIVERSITY COLLEGE OF LAW


                                WITNESS

GREGORY H. WILLIAMS, DEAN OF THE OHIO STATE UNIVERSITY COLLEGE OF LAW
    Mr. Regula. Okay, Mr. Hoyer, you're going to introduce Greg 
Williams.
    Mr. Hoyer. Dr. Williams, the Dean of the----
    Mr. Regula. I'm trying to figure this one out. It's an Ohio 
State University Law School Dean, and we go to Maryland to get 
him introduced.
    Mr. Hoyer. Well, it's not so surprising, because of course, 
Dr. Britt Kerwin was the President of the University of 
Maryland College Park for many years, until stolen away in the 
dead of night by Ohio State.
    But I frankly think that we're sort of a twofer here. I 
don't think it was lost on the folks that put together their 
spokesperson that he was from Ohio State. Not that they would 
be that cynical, understand. [Laughter.]
    I understand that.
    Mr. Regula. Trained in Maryland, learned well.
    Mr. Hoyer. Dean, we welcome you to this Committee.
    Mr. Chairman, I suppose the reason that I'm doing this is 
that I had been a proponent last year of a program that was 
authorized in 1998. The Dean is going to talk about it. But the 
effort is to, we talk about diversity, we talk about reaching 
out to people, and to include the legal profession, the medical 
profession, other professions, so that we do have a diversity, 
not just so that we have diversity for diversity's sake, but 
diversity so that we will have expertise and experience in 
various different cohorts of our population. It's an 
extraordinarily important effort.
    And so I suppose it's for that reason that I am doing this. 
But Dean, we welcome you to discuss this Thurgood Marshall 
program, Thurgood Marshall, of course, a son of Maryland as 
well. That may be another reason, Mr. Chairman, that I'm 
involved in this. But in any event, Ohio State, as you know, 
one of the great institutions of this country. And I might say, 
Dr. Kerwin, I teased, you didn't steal him at all, he chose to 
go there.
    But in my opinion, one of the finest educational leaders in 
our country. We were very, very sorry to lose him. He is an 
extraordinary talent, as you know, Dean, and I know a delight 
to work with as well.
    Thank you, Mr. Chairman.
    Mr. Williams. Thank you, Mr. Hoyer, and thank you, Mr. 
Chairman, for being here. I appreciate the opportunity, and Mr. 
Hoyer, you're right, Dr. Kerwin is truly outstanding and we are 
very fortunate to have him at Ohio State.
    As indicated, I am Dean of the Ohio State University 
College of Law. It's a real pleasure to be here. I want to 
thank you, Mr. Hoyer, for your support of Thurgood Marshall 
Educational Opportunity Program. It's been very important, and 
we appreciate that support.
    Actually, it's certainly consistent with things you've done 
in the past and things you've supported. You may not remember, 
but our meeting goes back many years ago. Thirty years ago, you 
and I served on the national membership committee of the Young 
Democratic Clubs of America.
    Mr. Hoyer. How could I forget?
    Mr. Williams. Thank you. So it's a real pleasure to be here 
today. I'm speaking as past president of the Association of 
American Law Schools, as well as Dean of the Ohio State 
University College of Law, and for Martha Barnett, the 
President of the American Bar Association, who unfortunately is 
not able to be here.
    But more importantly, actually, I'm speaking as a legal 
educator with 25 years experience working with the CLEO 
program, which I'm sure you know administers the Thurgood 
Marshall program. For almost a quarter of a century, I 
personally have recruited law students to this program, 
minority, disadvantaged students, and have worked with them to 
develop their legal careers. In 1999, I served as the first 
African American male president of the Association of American 
Law Schools, and my theme as president of the association of 
American Law Schools was enhancing diversity in the legal 
profession. I spent a lot of time working with law schools 
around the country talking about the issues that the Committee 
is concerned about.
    As you know, Congress has authorized the Thurgood Marshal 
program in the Higher Education Act Amendments of 1998, and the 
program is designed to increase the number of low income, 
minority and disadvantaged persons in the legal profession. The 
Marshall program is administered through the Council on Legal 
Education Opportunity, which is a non-profit organization 
supported by the American Bar Association, as well as the 
Association of American Law Schools and a number of other 
groups.
    The CLEO program was established in 1968 to make it 
possible for economically and culturally disadvantaged students 
to enter and successfully complete law school. Since that time, 
over 6,000, over 6,000 students have gone through the CLEO 
program. I have personally seen many of these students, in 
fact, I've taught in the CLEO programs in Iowa and Ohio and 
Wisconsin and other places. And of all the students that I've 
seen go through the program in the last 25 years, I can't 
recall more than two that did not successfully complete the 
program.
    So it is a program that truly has made a difference. In 
fact, I think there are three members of Congress presently 
serving who went through the CLEO program. It's a program that 
has truly made a difference. The CLEO training program as 
funded by the Marshall program has been so successful that many 
States have tried to emulate it. Chairman Regula, as you may 
know, Chief Justice Moyer, of the Supreme Court of Ohio, has 
developed a program to develop a CLEO type program in the State 
of Ohio to complement the national efforts that are ongoing, 
and Chief Justice Moyer, of course, has provided greater 
leadership on this issue.
    By opening the doors of opportunity to more minority and 
disadvantaged students, the Marshall program will help to 
ensure that the legal profession reflects the diversity of the 
population that it serves. The social justice system that 
represents the population that it serves is a critical 
component to maintaining public trust and confidence in the 
justice system.
    A recent ABA report called Public Perceptions of the 
Justice System found that almost half of all Americans believe 
that the justice system treats minorities different than 
whites. A significant contributor to this perception is a 
society that's nearly 30 percent persons of color, yet minority 
representation in the legal profession is less than 10 percent. 
One key to remedy this crisis in confidence, in my view, in the 
justice system is to increase the number of minorities serving 
as lawyers, judges, prosecutors, public defenders and 
legislators.
    Over the past five years, minority law enrollment has 
increased only four-tenths of 1 percent, the smallest increase 
in the past 20 years. In 1999, the total number ofminority law 
graduates in the United States dropped for the first time since 1985. 
With the minority population growing in the United States and the law 
school enrollment increasing only at four-tenths of 1 percent, minority 
representation in the legal profession looks bleak.
    Currently, minority representation in other areas actually 
is much higher, including accounting and economics, engineering 
and medicine. All of those are higher in representation of 
minorities than the legal profession.
    Increasing diversity in the legal profession has multiple 
advantages even beyond the public trust and confidence. Within 
an educational setting, there's been a number of studies 
recently, for instance, one done at Harvard and the University 
of Michigan that found that it really made a difference when 
the classes were diverse in terms of the experience that the 
students were going to be able to get in law school. And of 
course, what we find is most of the, not most, but many of the 
graduates who go through the CLEO program and minority students 
are in fact going out to serve those communities that need 
service the most.
    It appears that my time is finished, but I would urge you 
to seriously consider funding the Thurgood Marshall program. It 
is a program that has truly made a difference in this country 
and deserves your continued support. And I thank you very much.
    [Editor's Note.--Prepared statement to be kept as part of 
committee files.]
    Mr. Regula. You make a very good point.
    Any other questions?
    Well, thank you for coming. We have a vote on the rule on 
tornado shelters and two suspensions and a possible motion to 
adjourn. I don't know why anyone would want to adjourn.
    [Recess.]
    Mr. Regula. We have a vote coming up very soon. Let us see 
if we can take one more witness before we have to vote.
                              ----------                              

                                          Thursday, March 22, 2001.

                  COALITION OF ACADEMIC HEALTH CENTERS


                                WITNESS

DONALD C. HARRISON, SENIOR VICE PRESIDENT AND PROVOST FOR HEALTH 
    AFFAIRS, UNIVERSITY OF CINCINNATI
    Dr. Harrison. Good morning, Mr. Chairman and members of the 
subcommittee. Mr. Chairman, your good friend, Bill Keating, who 
has visited me a number of times, sends his regards.
    My name is Dr. Donald Harrison. I am the Senior Vice 
President and Provost for Health Affairs at the University of 
Cincinnati.
    I am also a practicing cardiologist and I served as 
National President of the American Heart Association and Vice 
President of the American College of Cardiology. I was Chief of 
Cardiology for 20 years.
    I am here on behalf of a coalition of 20 academic health 
centers across the nation to highlight issues of concern to all 
academic health centers in the United States.
    We are the institutions that conduct a significant portion 
of extramural, biomedical and behavioral research funded 
through the National Institutes of Health.
    I would like to thank all of the members of this 
subcommittee for the outstanding support to NIH over the past 
several years. These additional funds have clearly had 
significant impact on the cause, prevention and the treatment 
of health problems, which afflict the citizens of our nation 
and the world.
    A few of these merit mention. First, the life expectancy of 
our citizens has increased by more than 20 years since the1930s 
to reach 76 years for males and 80 years for females for a child born 
today.
    Secondly, the adjusted death rate from heart disease and 
heart attacks has been reduced by 40 percent in the past 25 
years.
    Thirdly, our ever-increasing elderly citizens live much 
more active lives, thanks to artificial joint replacement, 
pacemakers and medications which prevent osteoporosis and the 
treatment of breast and prostate cancer and the control of 
diabetes.
    On the other hand, the advances in the future, which can be 
developed from the human genome project, will dwarf our past 
accomplishments.
    I am here today to seek your support for further enhancing 
this extraordinary partnership that has been established with 
great foresight over the years between the academic 
institutions and the Federal government.
    For the fiscal year 2002, we urge you to provide a 
$3,400,000,000 increase for the NIH, which is a little more 
than 16 percent. Such an increase will bring the Agency's 
budget to $23,700,000,000 and keep on track to double the NIH 
budget by fiscal year 2003.
    I will repeat a statistic that I am sure you all are very 
aware of. The NIH currently funds fewer than four of every ten 
approved research grants. For this reason, I urge you to 
continue your efforts to double the NIH budget by 2003.
    We are really just at the dawn of the biomedical 
revolution. This increased funding will keep our world 
preeminence in medical innovation. It will also fuel our 
country's economic growth and development.
    Universities and other research institutions bear the cost 
for conducting NIH research that are not supported by the 
Federal research dollars. In fact, all institutions, both 
public and private, provide part of the research expense for 
their institutions.
    Let me raise a major concern regarding the state of 
extramural research facilities and laboratories. For the past 
two years the NIH has included $75,000,000 in extramural 
research facilities and laboratories.
    For the past two years the NIH has included $75,000,000 in 
extramural construction funding through the National Center for 
Research Resources. It is vitally important that institutions 
have the facilities and equipment to exploit research 
opportunities and utilize the increased projected grant 
funding.
    Exciting developments in genomics, molecular biology and 
neuroscience, cancer and many other fields require these kinds 
of laboratories and instrumentation. Even the best minds cannot 
compensate for outdated equipment and facilities. New 
technology is expensive, but it is important for the 
advancement of science.
    That National Science Foundation, in a study in 1998 on the 
status of scientific and engineering research facilities in the 
United States colleges and universities found that there was 
$11,500,000,000 in deferred research construction and repairs 
needed.
    I urge the subcommittee to provide the funding level of 
$250,000,000 for extramural research construction in the year 
2002.
    A second significant concern of academic medical centers is 
the increased cost of research institutions for complying with 
research related Federal regulations. While extramural 
researchers have always been subject to Federal research 
regulations, the increasing number of research administration 
imposed on institutions has resulted in escalated costs.
    Let me stress that researchers are not opposed to providing 
these safeguards and do not question the necessity of the 
measures. But we believe that the Federal government and the 
Federal Research Institution should help us fund the cost of 
these regulations.
    Finally, I would ask the committee to consider $50,000,000 
to go to the Agency for Health Care Research and Quality to 
reduce medical errors. This is a major problem.
    Mr. Chairman, the polls reflect the fact that the American 
public strongly supports Federal investment in biomedical 
research. Each of these institutions mentioned will increase 
the productivity of this relationship.
    Best wishes to you and good health to all Members of the 
Committee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We accept that.
    Mr. Hoyer. Mr. Chairman, I know you are trying to go vote, 
but Dr. Harrison mentioned that the average life expectancy of 
a child born today was 76 for males and 80 for females.
    Mr. William Hazeltine, whom you may know, who was one of 
the leaders in the mapping of the human genome, spoke to our 
bipartisan retreat.
    He indicated--and he was speaking to the younger members, 
not me, because my grandchildren perhaps fall in this category. 
He said he believes that the average life expectancy of the 
children of the younger Members, Patrick's age, would be 100 
and that the life expectancy of our grandchildren would be 120, 
which obviously will be confronting us with extraordinary 
challenges as well. But it is amazing.
    Dr. Harrison. That is a wonderful goal.
    Mr. Kennedy. Mr. Chairman, that means when I get to be 
Chairman I get to be there for a while.
    Mr. Regula. That is right.
    Mr. Hoyer. He didn't say the rest of us were going to die 
real soon, however.
    Mr. Regula. The committee will be suspended for 
approximately 20 minutes.
    [Recess.]
    Mr. Regula. We will reconvene the committee. Our next 
witness is Dr. Charles Schuster, Professor of Psychiatry and 
Behavioral Neuroscience, Wayne State University College of 
Medicine. Welcome.
                              ----------                              

                                          Thursday, March 22, 2001.

              COLLEGE ON PROBLEMS OF DRUG DEPENDENCE, INC.


                                WITNESS

CHARLES R. SCHUSTER, PROFESSOR OF PSYCHIATRY AND BEHAVIORAL 
    NEUROSCIENCE, WAYNE STATE UNIVERSITY SCHOOL OF MEDICINE
    Dr. Schuster. Thank you very much. First of all, let me ask 
permission to change my written testimony from ``good morning'' 
to ``good afternoon.''
    Mr. Regula. Or ``good evening.''
    Dr. Schuster. I am here today representing not only myself 
as a drug abuse research scientist and treatment provider, but 
as well I serve as the President of the College on Problems of 
Drug Dependence.
    The college has been in existence since 1929 and is the 
oldest and largest scientific society devoted to the study of 
addictions. It has over 600 members and about 1,000 people come 
to our annual scientific meeting.
    The membership is comprised of a broad array of scientists, 
from molecular biologists through criminologists, policy 
analysts, and sociologists, et cetera, concerned with the range 
of problems that drug abuse is involved with.
    I would like to first of all today, on behalf of the 
college, thank this committee for their support of the NIH in 
general in terms of the doubling of its budget, and 
specifically for its support of the National Institute on Drug 
Abuse and appeal to you for continuing this support for it 
obviously is one of the nation's most important problems.
    On the way here today I came across a recent report from 
Constant Horgan of Brandeis, which states that substance abuse, 
is the nation's top health problem, causing more deaths, 
illness and disabilities than any other preventable health 
problem today.
    I am not going to burden you with statistics about that 
because we are all aware of the tragedies associated with it.
    What I would like to say is that the National Institute on 
Drug Abuse is a governmental organization that is very 
important, not only to the members of the College, but as well 
to our society in general, because it supports the overwhelming 
majority of scientific research on the complex problems 
associated with drug abuse and dependence.
    This research has already paid off in a number of ways in 
terms of the development of effective prevention and treatment 
interventions, which are already being utilized. However, a 
great deal more is in the pipeline.
    We are at a time when advances are occurring very, very 
rapidly. In my written testimony I said that we were studying 
the long-term effects of methamphetamine or speed on the brain 
and that definitive evidence would be soon forthcoming.
    Well, in the weeks between the time I wrote this and the 
time I am coming here a report has come out definitely 
corroborating the fact that methamphetamine causes the same 
kind of brain damage in humans that has been reported in 
laboratory animals for many, many years. So, this is a very 
rapidly emerging field.
    My own group is now studying MDMA or Ecstasy in terms of 
the effects of it on the brain. One of the things we are very 
interested in and is of the utmost importance to us to 
understand if we are going to be able to effectively treat the 
problem of drug abuse is what happens in the brain when people 
move from casual, experimental drug use to regular drug use and 
finally to compulsive drug use, which is what characterizes 
addiction. What is going on in the brain there?
    We now have the techniques to PET scanning, functional MRI 
and magnetic resin spectroscopy to study these kinds of things 
in living human beings and animals. Rapid advances are being 
made in this area today.
    In addition, NIDA's research has been responsible for a 
variety of behavioral interventions to help people cope with 
the behavioral changes that they have to make when they 
transition from being active drug users to a drug abstinent 
state.
    These are very effective procedures that are now being 
utilized across the United States and I think are making a real 
difference.
    One of the areas that I am personally involved in that I 
think is very exciting is the so-called National Drug Abuse 
Treatment Clinical Trials network. This is a new program at 
NIDA, which is designed to bridge the gap between 
academicresearchers, which is myself, and community treatment programs.
    It is true in all branches of medicine that there is a gap, 
but it is particularly large in the area of the treatment of 
drug abuse.
    NIDA has now established a network of 14 regional training 
and research centers. These are academic centers spread out 
across the United States, each one of which has gone out into 
their community and established a collaborative relationship 
with community treatment programs where research has never gone 
on.
    Now, what we are doing is taking new treatment 
interventions which have been shown under rigidly controlled 
clinical trials to be effective or efficacious, as we call it. 
We are then looking at them in community treatment programs to 
find out if they are useful in the real world. If they are 
useful, how can we better get other community treatment 
programs that are not part of the CTN to adopt their use.
    This is the goal of this project. Although there are 14 of 
these centers around the United States linked up with about 100 
treatment programs, I think the National Institute on Drug 
Abuse is very much interested in expanding this.
    Mr. Regula. Are all addictions centered in the brain?
    Dr. Schuster. Yes.
    Mr. Regula. What does the body do, send a message that they 
want to smoke or that they want a shot, to the brain?
    Dr. Schuster. The message begins in the brain. We have 
studies now in which we can take individuals who are chronic 
drug users, we put them into a machine called a Functional MRI 
and we provoke them to crave drugs by giving them cues that 
have in the past been associated with their drug use.
    We can delineate the regions of the brain that are 
activated when they see these cues and they report an 
overwhelming urge to get the drug.
    Mr. Regula. So, part of drug therapy would be to change 
patterns of the things that trigger?
    Dr. Schuster. Absolutely. This is can be done in a couple 
of ways. First of all, we are looking for medications that may 
decrease craving. We are also looking for behavioral and 
psychological interventions that may alter that. Great progress 
has really been made because we understand the mechanisms now.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Very interesting.
    Mr. Kennedy.
    Mr. Kennedy. I wanted to get into the whole idea of this 
being behavioral and biological. We, obviously, need to fund 
more research in the area of how the genome and how we can 
intervene earlier. Because to wait until people get to be 
addicts is just a waste of time.
    I think it is probably very useful for us to advance the 
concept that the brain is part of the body and mental health is 
overall health so that we don't have insurance companies 
treating people differently for mental health issues that are 
chronic like drug and substance abuse any different from asthma 
or diabetes or anything like that.
    We need to get this bill passed in this Congress, hopefully 
the Domenici Parity Bill and the Roukema bill on this side will 
pass, because that is the best thing we can do in my view right 
now, to get more treatment to people out there.
    Dr. Schuster. I would also like to comment on the fact that 
one of the problems that we have with the treatment of drug 
addiction is the fact that many of the people that we see also 
have concomitant mental health problems, other psychiatric 
disorders. It is very common.
    Yet, because of the separation in the funding streams, it 
is oftentimes very difficult for us to provide both services in 
the same site. As a consequence of this, when you take 
somebody, as somebody said earlier today, they don't have a 
car. They have to take three buses. You refer them to a 
psychiatrist or a mental health clinic on the other side of 
town and they don't get there.
    We really have to work on trying to mainstream these so 
that we can provide these kinds of services in the same venue, 
so to speak.
    Mr. Kennedy. That is my point, Mr. Chairman, about the 
schools for the kids because it is a non-threatening 
environment. It is not some substance abuse treatment center, 
some mental health place that has all kinds of stigmas laden 
with it. You can treat people collocated.
    As you said, a lot of this is behavioral and it is mental 
health. We need to identify these kids who are predisposed, 
either through sociological factors, their parents, they have 
trouble at home, their parents are addicts or what have you, 
and address it early on.
    Mr. Regula. Thank you for coming.
    Dr. Schuster. Could I have ten seconds? Research has shown 
that if we could ensure the children learn to read in the first 
grade, if they become positively engaged in school that is the 
most effective prevention intervention we could have.
    Mr. Regula. Good point. We have the whole gamut here.Thank 
you.
    Mr. Steve Wilhide, President of the Southern Ohio Health 
Service Network.
                                          Thursday, March 22, 2001.

         NATIONAL ASSOCIATION OF COMMUNITY HEALTH CENTERS, INC.


                                WITNESS

STEVE WILHIDE, PRESIDENT, SOUTHERN OHIO HEALTH SERVICE NETWORK
    Mr. Wilhide. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I want to thank you for the 
opportunity to be here today. I am President and CEO of the 
Southern Ohio Health Services Network, which is a rural 
community health center. I am speaking on behalf of the 
National Association of Community Health Centers regarding 
funding for the Consolidated Health Center Program within the 
Department of Health and Human Services. I would like to thank 
this committee for your increases that have enabled us to serve 
millions more people nationwide in our community health 
centers. We appreciate your commitment to this program and 
appreciate your consideration of expanding the program so we 
can serve millions more.
    Southern Ohio Health Services Network is a Federally 
supported community health center founded in 1976. I was 
brought there as the first Executive Director. Our first year's 
budget was $49,000. It was an Appalachian Regional Commission 
grant and $200,000 from the Department of Health and Human 
Services to provide direct care.
    Today, approaching our 25th anniversary, we have a budget 
of approximately $17,000,000 of which about 20 percent comes 
from a Federal grant and we serve approximately 50,000 people 
who had one or more visits for one or more services last year.
    We have over 50 physicians, dentists, nurse practitioners, 
social workers, and clinical psychologists.
    Mr. Regula. Do you have volunteers?
    Mr. Wilhide. We have volunteers. We have a volunteer 
physician who is retired that I met through my church who 
volunteers. We have a nurse who is retired and volunteers and 
we have a volunteer board that is very, very active. I will be 
getting back to my board meeting this afternoon.
    Nationwide, health centers serve 11 million people, 4.6 
million of whom have no health insurance.
    We applaud President Bush's call to double the number of 
patients served by health centers and to double the number of 
sites. We would urge Congress to appropriate $175,000,000 more 
in order to achieve that goal.
    I think it is important to understand that community health 
centers are locally controlled and operated entities. The 
boards of those health centers, the majority of whom are 
consumers of the care, determine what health care needs are 
prioritized and then hold me accountable for reporting back to 
them as to what progress we are making toward clinical outcome 
goals.
    So, the board, each year, sets forth a list of clinical 
priorities, whether they want to decrease the risk of diabetics 
who have foot problems or what have you. We report to the board 
on our progress.
    Back in 1977 and 1978 two of our counties had the highest 
infant mortality rates in the State of Ohio, higher than many 
Third World countries. The board felt this was unacceptable. We 
targeted that program. We were able to receive a Maternal and 
Child Health grant in addition to our Federal dollars and other 
dollars. We worked with the entire community, public health 
departments, and community action programs with outreach, the 
Grads Program which targets pregnant teenagers to keep them in 
school.
    Mr. Regula. Did that include nutrition help?
    Mr. Wilhide. Absolutely. We also have the WIC Program that 
we operate. We were able to integrate all these services into 
one comprehensive approach. Because as many people have 
indicated before, it is not a medical problem, it is not a 
psychological problem, it is total integration that makes up 
the human being.
    So, we actually were able to recruit, through the National 
Service Corps, and we would not have gotten these doctors had 
we not, pediatricians and obstetricians, gynecologists. The 
first pediatrician ever to serve in Brown County just retired a 
few months ago.
    I am please to report today that our infant mortality rates 
are below State average in those two counties and 82 percent of 
women are getting first trimester prenatal care compared to 
about 58 percent before we started the campaign. Again, it was 
a combination of education, nutrition, socialwork, and 
psychology, integrated together into one setting.
    In addition to being responsive to local health care needs, 
community health centers have proven to be effective and 
efficient over the years. They provide their comprehensive 
services at an average cost of about $350 per person per year. 
That is obviously less than $1 per person served.
    They are having many studies to show their cost 
effectiveness in reducing hospitalization, reducing unnecessary 
emergency room utilization, higher child immunizations. My own 
program has a 93 percent immunization rate of two-year-olds. 
That is considerably above the State average.
    So, again, I think we are not a medical model. We are a 
comprehensive model with a variety of services based upon the 
needs of our own individual communities.
    Last year the National Association of Community Health 
Centers surveyed 100 health centers and found that those health 
centers could serve 50 percent more people if funding was 
available.
    In order to do this we are going to have to establish new 
sites in new locations and expand existing services in present 
locations.
    By way of example, in Adams County, which you may not be 
familiar with, which fortunately now is only the second poorest 
county in the State, I think Perry County is first; we opened a 
23,500 square foot mall-type service facility and closed two 
aging facilities that were inadequate. We have in that facility 
the only psychiatrist in the county, a clinical pharmacy, 
internal medicine, the WIC Program, social work. There is a 
significant increase in the numbers of elderly served and 
dental. We have gone from three dental operatories to nine and 
the appointment books are full right now.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I am sure they are.
    Thank you for coming. I think those community health 
centers do great work.
    Mr. Donald Price, President of the Society for 
Neuroscience.
                              ----------                              

                                          Thursday, March 22, 2001.

                        SOCIETY FOR NEUROSCIENCE


                                WITNESS

DONALD L. PRICE, PRESIDENT
    Dr. Price. Good afternoon. My name is Don Price. I am a 
Professor of Neurology, Pathology and Neuroscience at Johns 
Hopkins and present President of the Society for Neuroscience.
    The Society for Neuroscience has about 28,000 members and 
its major commitment is to basic and clinical neuroscience. We 
are obviously very grateful for the support that we have gotten 
in the past and that biomedical research has gotten in the 
possibility.
    So, with that as a background, I want to depart from those 
remarks and give you an example of a human disease where really 
extraordinary progress has been made. That is Alzheimer's 
disease, which is the most common cause of dementia in late 
life.
    I think we are now on the threshold of coming up with 
therapeutic targets which could prevent this disease. What I 
would like to do, because you heard for example, an elegant 
discussion of the problem of rats. I would like to explain how 
that happens.
    The first thing that happened with Alzheimer's was to 
define it as a disease. The second thing was to look at the 
brain and find that there were very unusual deposits called 
ambyloid in the brain tissue. Then, the gene that encoded the 
protein that gave rise to ambyloid was identified. It turns out 
that it was like this pen. It is a protein thatlooks like this 
and the ambyloid component is imbedded in it.
    So, somehow abnormal scissors, enzymes, leave that peptide 
out and it becomes deposited in the brain of an Alzheimer's 
patient and causes the disease.
    Over the past few years we have identified mutations in 
that gene that are linked to the human disease. I brought two 
specimens, one from my grandson and the other from my 
administrative assistant. It is not hard to tell which is the 
Alzheimer mouse versus the other.
    But basically, what you can do is you can take the mutant 
human gene, put it in the mouse and the mouse will come up with 
the disease. It is now possible to use these mutant mice to 
test mechanisms and therapies. It represents the kind of 
advance that I think we are going to see over the next decade 
for Parkinson's disease, for Rett syndrome where the gene has 
now been identified, and so forth.
    It really represents an extraordinary step forward in terms 
of trying to treat disorders which, when I was neurology 
resident and a clinician, one really didn't want to diagnose 
because the news was so bad for the family.
    It is now possible to knock out the genes that make these 
scissor-like clips. It turns out when you knock those genes out 
in mice, the mice look perfectly well. What that tells you is 
that you could then give this mouse an inhibitor of that 
cleavage product, that enzyme, and this would not happen. The 
mouse would not get Alzheimer's disease. If it works in mice, 
it should work in humans.
    To emphasize the point that was made before about 
prevention, if one comes up with a small molecule that can get 
into the brain that can inhibit these enzyme activities that 
cleave this ambyloid protein, one could potentially completely 
prevent a disease like Alzheimer's.
    I think the same story is going to be translated to Lou 
Gehrig's disease and many of the other devastating neurological 
diseases. When genes are identified for psychiatric diseases, 
we are going to be able to do the same kinds of things.
    So, really, that is how the NIH monies are being invested. 
I think they are critical if we are going to improve the health 
of our population.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Are there questions?
    I have just one. Does Alzheimer's have a pattern of onset 
that you would start this treatment once you identified it? You 
would not do it in a healthy person, I assume.
    Dr. Price. No. I think it would depend. I mean Alzheimer's 
disease clearly starts much earlier than the first obvious 
clinical sign. If you had a very safe drug, you could start it 
early. The earliest case of Alzheimer's that I know of is a 
young person who had a gene lesion who got it at 16 years of 
age. So, it can occur from 16 to late 80s. But it usually has a 
very indolent course.
    So, to answer your question directly, if you had a safe 
therapy, then one might treat patients prospectively.
    Mr. Regula. I understand there is some genetic pattern, 
that it is inherited.
    Dr. Price. That is right. It is really the identification 
of those genes that has allowed this kind of research to go 
forward. That is what we are going to see, I think, in 
psychiatry in the next decade.
    Mr. Regula. Well, thank you for coming.
    Dr. Price. Thanks very much.
    Mr. Regula. Dr. Robert Felter, Chairman of Pediatrics and 
Medical Director, Tod Children's Hospital in Youngstown.
    I am happy to welcome you.
                              ----------                              

                                          Thursday, March 22, 2001.

              NATIONAL ASSOCIATION OF CHILDREN'S HOSPITALS


                                WITNESS

ROBERT A. FELTER, CHAIRMAN OF PEDIATRICS AND MEDICAL DIRECTOR, TOD 
    CHILDREN'S HOSPITAL, YOUNGSTOWN, OHIO
    Dr. Felter. Good afternoon. My name is Robert Felter. I am 
a pediatric emergency physician and currently Chairman of 
Pediatrics and Medical Director of Tod Children's Hospital in 
Youngstown, Ohio.
    Thank you for the opportunity to testify on behalf of the 
National Association of Children's Hospitals. Mr. Chairman, I 
especially want to thank you and the members of your committee 
and your colleagues very much for last year's appropriation off 
$235,000,000 for Graduate Medical Education or GME Programs for 
the nation's nearly 60 pediatric teaching hospitals.
    You enacted this funding at a time when it was critically 
needed by hospitals all across the country. Your 2001 
appropriation is a major step toward fulfilling the Congress's 
authorization of the $285,000,000 needed to provide equitable 
Federal support for our GME Programs.
    In today's increasingly price competitive health care 
marketplace, Medicare has become the only major reliable source 
of GME support. Teaching hospitals absolutely rely on it to 
remain competitive. But children's hospitals qualify for 
virtually no Federal GME support from Medicare because we care 
for children.
    On the average, one of our hospitals receives less than one 
half of one percent of the GME support which other teaching 
hospitals receive through Medicare. That creates a huge gap in 
Federal support for children's hospitals. According to the 
Lewin Group, it amounts to about $285,000,000 annually.
    It puts at risk not only our hospitals, but also the future 
of our entire pediatric workforce and health care for all 
children. Here is why: On the average our hospitals consist of 
less than one percent of all hospitals, but we train nearly 30 
percent of all pediatricians, nearly 50 percent of all 
pediatric specialists and almost all pediatric emergency 
specialists such as myself.
    We are also the major pipeline for future pediatric 
research. We also serve all children, regardless of economic 
need, from the furthest rural to the nearest inner city 
neighborhoods. We provide personal, compassionate care combined 
with state-of-the-art medical treatment.
    Mr. Chairman, as we discussed in your office last week, you 
know that this affects my own hospital very much. We provide 
more than 30 pediatric sub-specialists and highly specialized 
programs such as our pediatric in-patient cancer unit. We serve 
all children. More than 60 percent of our care at Tod 
Children's goes to children who are assisted by Medicaid or 
have no insurance.
    We also train 27 medical residents each year. The majority 
of them go into practice in the Youngstown area or in Ohio.
    Mr. Regula. You got some financial support for that program 
out of this committee this current year; right?
    Dr. Felter. Yes, we got $200,000 for Tod and we will get a 
little over $1,000,000 this year from the increased finances. 
Again, it costs us about $200,000,000.
    As you know, Youngstown is an economically depressed 
community, which makes it difficult for us to attract and 
retain strong clinical talent. The loss of our GME Program 
would seriously affect Youngstown's pediatric workforce. We 
face the potential for that loss right now. We spend more than 
$2,000,000, our hospital does, just on the direct cost of the 
program.
    We face increasing pressures to eliminate either that 
training program or other programs. Frankly, without strong 
Federal funding through Children's Hospital GME program, the 
future of our training program is in jeopardy. That in turn 
puts into jeopardy the long-term future of our children's 
hospital and the health of our community.
    With such a major impact on small institutions such as Tod 
Children's Hospital, you can image the impact of this funding 
on much larger institutions in their regions such as Children's 
Hospital in Boston or Los Angeles, which train hundreds of 
residents.
    Please take the next step to close the gap by appropriating 
full funding this year. It is vital for the future of our 
pediatric workforce and the healthcare of all children.
    Thank you again for your past support. We appreciate very 
much your consideration of our request today for fulfillment of 
equitable GME support for children's hospitals.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson [assuming chair]. I didn't really hear most of 
your testimony, but I didn't really need to. I am very familiar 
with Pennsylvania's Pittsburgh Children's Hospital and CHOP in 
Philadelphia. I call them miracle hospitals, because that is 
really what you do. We send our very sickest children to you 
and you do miracles.
    I totally support, personally, and I am just speaking for 
one person, of closing that gap. If there is any part of our 
teaching system that should not have been shortchanged, it is 
our kids.
    Dr. Felter. Thank you very much. I appreciate the support.
    Mr. Peterson. Are there any questions?
    Thank you very much.
    Next we will hear from Stephen Bartels, President of the 
American Association for Geriatric Psychiatry. We welcome you. 
Please proceed.
                              ----------                              

                                          Thursday, March 22, 2001.

             AMERICAN ASSOCIATION FOR GERIATRIC PSYCHIATRY


                                WITNESS

STEPHEN BARTELS, PRESIDENT
    Dr. Bartels. Mr. Chairman and members of the subcommittee I 
am Dr. Stephen Bartels, President of the American Association 
for Geriatric Psychiatry. AAGP is a professional membership 
organization dedicated to promoting the mental health and well 
being of older Americans and improving the care of those with 
late life mental disorders.
    Mr. Chairman, I join many of those other witnesses here 
today in thanking the subcommittee for its continued strong 
support for increased funding for the National Institutes of 
Health over the last several years.
    However, I am here today to convey the serious concern 
shared by researchers, clinicians and consumers that there 
exists a critical disparity between Federally funded research 
on mental health and aging and mental health needs of older 
Americans.
    Mr. Chairman, as we have already heard today, the U.S. 
Census projects that numbers of Americans over age 65 will 
increase dramatically over the coming decades.
    However, despite recent significant increases in 
appropriations for research in mental health, the proportion of 
new NIH funds for research on older persons has actually gone 
down and is woefully inadequate to deal with the impending 
crisis of mental health in older Americans.
    With the Baby Boom generation nearing retirement, the 
number of older Americans experiencing mental health problems 
is certain to increase in the future. By the year 2010, there 
will be approximately 40 million people in the United States 
over the age of 65. Over 20 percent of those people will 
experience mental disorders.
    Current and projected economic costs of mental disorders of 
aging alone are staggering. Depression is an example of a 
common problem among older persons. Approximately 30 percent of 
older persons in primary care settings have significant 
symptoms of depression. Depression is associated with greater 
health care costs, poor health care outcomes and increased 
morbidity and mortality.
    Older adults have the highest suicide rate of any age 
group. AAGP would like to call to the subcommittee's attention 
the fact that recent increases in the National Institute of 
Mental Health and the Center for Mental Health Services have 
not been reflected in new research funding on mental health in 
aging.
    For example, while total research grants awarded by NIMH 
increased 59 percent in 1995 to the year 2000, NIMH grants for 
aging research increased at half that rate over the same 
period. In fact, between 1999 into the year 2000, the actual 
amount of new funding for aging grants by NIMH declined.
    I brought this diagram here to show that the proportion of 
total NIMH newly funded research devoted to aging declined from 
an average of eight percent in 1995 down to six percent in the 
year 2000. It is juxtaposed against significant increases that 
this committee has approved for NIMH over the last several 
years.
    I have also taken the liberty to bring this other diagram 
that shows the increasing numbers of people who are elderly 
that are projected to come, the associated health care 
expenditures. This large increase is showing the number of 
people with mental disorders as opposed to younger people and 
this is the NIMH funded research at the current rate, which is 
quite low.
    Now, Mr. Chairman, the research that this committee has 
funded shows definitely that treatment works for many mental 
health problems in older persons. However, if current trends in 
funding for aging and mental health continue at NIMH and CMHS, 
we will dramatically fall short of the need for continued 
developments and our understanding of the causes of mental 
health problems in older people and the development of 
effective prevention and treatment.
    Improving the treatment of late life mental problems will 
benefit not only the elderly, but also the current Baby Boomer 
generation whose lives are often profoundly affected by those 
of their parents who comprise an unprecedented challenge to the 
future of mental health services in America.
    In short, Mr. Chairman, this is not simply a concern for 
our nation's elderly. Under-funding research on mental health 
in aging is a problem for those of us with parents afflicted 
with mental disorders and for the future of those of us who 
will reach retirement age in the next two decades.
    Based on our assessment of the current need and future 
challenges of late life mental disorders, we submit the 
following three recommendations for consideration:
    One, the current rate of funding for aging grants at NIMH 
and CMHS is inadequate. Funding of aging research grants by 
these agencies should be increased by approximately three times 
the current funding level, to be commensurate with the current 
need. Two, infrastructures within NIMH and CMHS are needed to 
support the development of initiatives in aging research, 
including the creating of positions with these agencies 
dedicated to promoting, maintaining and monitoring research on 
mental health in aging. Three, the establishment of grant 
review committees with specific expertise in reviewing research 
proposals on mental health in aging. In conclusion, we are 
dramatically under-investing in research on mental health in 
aging at a time when the NIMH and CMHS budgets have seen 
significant increases. The projected economic impact of the 
aging Baby Boom generation on Medicare and Social Security 
systems is well known.
    But there is another challenge that has not received 
attention. We can expect an unprecedented explosion in the 
number of people over age 65 with potentially disabling mental 
disorders.
    I would like to thank you for allowing me to submit this 
testimony today. We will be happy to answer any questions.
    Mr. Peterson. In your research, are you tracking some of 
the mental health drugs that our seniors have been on for 
decades?
    Dr. Bartels. Yes.
    Mr. Peterson. I would like to just raise one. I have a 
personal experience. My mother had depression problems all of 
her life. I don't remember when she would not go into the lows 
and the highs. She was never doctored until the last two or 
three decades. I do not think we doctored it much when I was a 
child.
    But she was on a drug called Vivactil for maybe 25 or 30 
years. I had a younger brother who over a period of time had to 
get the doctors that prescribed that to reconsider that drug. 
He had done some research. He was always unsuccessful. I guess 
I kind of hold myself responsible that I didn't give him more 
assistance, but I certainly didn't hamper him.
    Recently, she had a health problem where she broke her hip 
and was temporarily in a nursing home for rehab. The doctor 
there quickly agreed with my brother that she ought to be off 
that drug.
    My mother could not carry on a conversation with me for 
three years. My mother can carry unlimited conversation today 
after six months. I just find that a tragedy that she was 
deprived of the ability to communicate. She knew my name. She 
always knew me. She expressed love for her children, but she 
could not communicate.
    She is actually gaining. We were blaming it all on 
Alzheimer's. She is actually gaining the ability to have a 
conversation with her children.
    In discussing this with nurses, they feel there are a 
number of mental health drugs over long periods of time that 
have actually harmed people's ability to think and carry on a 
conversation.
    Do we monitor them long term?
    Dr. Bartels. Well, not well enough. I think part of that 
has to do with health services research in pharmacoepidemiology 
and look at precisely this: co-prescriptions, old medications 
that have bad side effects that do impair cognition.
    The good news is that there are new medications which have 
minimal side effects that enhance functioning. We know, for 
example, like your mother had a hip fracture, that untreated 
depression actually results in worse health care outcomes. 
Those people do not get better as fast and they are more likely 
to die.
    So, untreated depression, untreated disorders without the 
state-of-the-art medications is actually a tragedy.
    Mr. Peterson. Well, I guess in Pennsylvania where they had 
the PACE Program where they really know what everybody is on 
and she was in the PACE Program. I have been going to talk to 
them because I have worked with them for years at the State 
level.
    How many people are still on that drug? I personal think it 
is a bad drug.
    Dr. Bartels. I think there are newer and better drugs that 
are out there and that is part of the research that we are 
hoping to focus on, looks at those medications, treatment and 
services that will make a difference for people like your 
mother.
    Mr. Peterson. Of course, I am one who thinks we rely too 
much on drugs today. There are wonderful drugs. I am not 
against new drugs.
    Dr. Bartels. There are very effective non-pharmacologic 
interventions also that we are doing research on.
    Mr. Peterson. There are so many seniors. I tour home health 
agencies. Five, six, seven, eight, nine or ten drugs, I am just 
amazed how many drugs our seniors are on and the complications 
of them. Are we studying that, too?
    Dr. Bartels. We are. Our group at Dartmouth is doing just 
those sorts of studies right now.
    Mr. Peterson. Do you have any questions?
    The gentleman from Rhode Island.
    Mr. Kennedy. I agree, Mr. Chairman. The fact of the matter 
is seniors are over-utilizing the health care system for many 
reasons, because they are depressed or they are not getting 
connections. So, they use the Medicare system as a way to get, 
you know, some attention and whatever that makes up for lack of 
proper love and so forth from their family or the losses that 
they have suffered.
    If you would establish a kind of program that was a 
practicum of how to identify depression among seniors, I mean 
if you had limited resources and I am not talking about the 
research angle and increasing science, which I agree with you 
on, but just out there right now, what would be your kind of 
vision of what a program would look like?
    Dr. Bartels. I think there are several things. First of 
all, you are exactly right that we know from health services 
research that there is increased health services utilization, 
emergency room visits, hospitalizations, et cetera, with 
untreated depression.
    I think the place to go is where seniors are, which is to 
say that because of the stigma of mental illness, they are less 
likely to go to specialty care providers. So that primary care 
physician offices, educating primary care physicians to better 
identify and use state-of-the-art treatments is a place to go, 
senior citizens centers as well as senior housing.
    Some of the innovative programs that we have actually 
looked at and a number of us have researched, I think, are the 
places to look at.
    Mr. Kennedy. I would love to have you share what some of 
your findings have been in those areas because I would like to 
get those things back in my community because I know there are 
too many seniors who are suffering needlessly. People think, 
oh, that is just part of being old.
    Dr. Bartels. I would be delighted to talk with you in 
details about some of these programs.
    Mr. Kennedy. That would be great. Thanks very much.
    Mr. Peterson. Thank you.
    We are trying to accommodate people who have plane 
reservation problems. We are next going to hear from Dr. Felix 
Okojie, Vice President, Research and Strategic Initiatives, 
Jackson State University.
    If you have a similar problem, let us know. We will try to 
accommodate you.
    Please proceed.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 22, 2001.

                        JACKSON STATE UNIVERSITY


                                WITNESS

FELIX OKOJIE, VICE PRESIDENT, RESEARCH AND STRATEGIC INITIATIVES
    Dr. Okojie. Mr. Chairman, distinguished members of the 
subcommittee, I am Felix Okojie, Vice President for Research 
and Strategic Initiatives at Jackson State University. I want 
to thank you members of the committee for giving me the 
opportunity to appear before you today as you consider the 
fiscal year 2002 funding year priorities for this subcommittee.
    First of all, I would like to be on record with this 
committee for the extraordinary and strategic efforts for 
putting significant amounts of dollars in agencies like NIH and 
the education in that has helped historically Black colleges 
and universities across this country to contribute 
significantly to the health and other problems of the citizens 
of this country.
    As a result of the efforts of this committee, I would like 
to speak very briefly to how Jackson State University in 
Jackson, Mississippi has benefitted and continues to benefit 
from the efforts of this committee.
    There are two initiatives that the university is very much 
interested in that we think, because of the resources that have 
already been invested at the university by Federal agencies as 
a result of the appropriations from this committee, can even 
further enhance the critical goal that we have.
    There is a study going on right now in Jackson called The 
Jackson House Study, which is an epidemiological, 
cardiovascular disease study by the largest CVD study for 
African-Americans in this country. Within that we also have a 
major cancer study going on at the medical school.
    Jackson State University recently developed an 
epidemiological institute where CVD and things like prostate 
cancer will be the major focus.
    Jackson State University is at the forefront in trying to 
help to meet some of the disparity, particularly in the area of 
cities in Mississippi and this country.
    One of the initiatives we would like to highlight is the 
establishment of a minority Rural and Urban Health and Wellness 
Center. The impetus for this center is as a result of the 
critical mass of the human resource and intellectual capital 
that has been harnessed over the years to do a lot of disparity 
studies in collaboration with institutes like NIH and CDC.
    Information out of these studies can be disseminated both 
in the rural and urban areas of the State as well as across 
different parts of this country. So, the Health and Wellness 
Center would take advantage of this synergy and the 
intellectual capital to capitalize and to disseminate 
significant information on both disparities as it relates to 
those common issues that afflict minority populations in 
Mississippi and in other parts of this country.
    I ask this committee that sufficient funding be provided in 
the health facilities account of the HHS section of the 
Education Appropriations bill to support projects such as this 
that Jackson State is proposing.
    The other major project is a project called the Mississippi 
e-Center at Jackson State University. This is a center that we 
would like the committee to be aware of. Again, this center is 
designed to create some more outreach efforts through the use 
of technology to reach urban and rural areas in Mississippi, as 
well as providing some new and innovative ideas that can help 
service some of the needs across this country by using 
research, e-technology programming and e-service opportunities 
to meet the needs of minorities in this country as well as 
major aspects of people in this country.
    Mr. Chairman, thank you for this opportunity. I will take 
any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. Thank you very much. I guess we have no 
questions.
    Next, we will call on Dorothy Hill, President of the 
American Psychiatric Nurses Association. Please proceed.
                              ----------                              

                                          Thursday, March 22, 2001.

                AMERICAN PSYCHIATRIC NURSES ASSOCIATION


                                WITNESS

DOROTHY HILL, PRESIDENT
    Ms. Hill. Mr. Chairman, my name is Dottie Hill and I am 
Vice President of Patient Care at Arcadia Hospital in Bangor, 
Maine. I am here today as President of the American Psychiatric 
Nurses Association, or APNA. Thank you for providing me with 
the opportunity to outline APNA's funding priorities for fiscal 
year 2002.
    Founded in 1987, APNA is comprised of approximately 4,000 
psychiatric nurses representing every State in the nation. Our 
mission is to advance psychiatric and mental health nursing 
practice, improve mental health care for culturally diverse 
individuals, families, groups and communities and to help shape 
mental health care policy.
    Before moving on, I would like to quickly review some 
startling statistics to demonstrate the impact mental illness 
has on our country. One out of every five children has a mental 
health disorder. Two-thirds of our nation's seniors living in 
nursing homes have a mental health disorder.
    Although 80 percent of those with depression can be 
effectively treated, only one out of three receives appropriate 
treatment.
    The economic burden related to mental illness is staggering 
with the total estimated cost for mental health disorders in 
1994 at approximately $204,000,000,000. I would like to 
reiterate that mental illnesses are biological, medical 
illnesses.
    First APNA is seeking increased Federal support for 
psychiatric nursing research. Psychiatric nurses have been and 
will continue to be an integral part of our nation's research 
community.
    With this in mind, APNA would like to commend this 
subcommittee and in particular, Congresswoman DeLauro for the 
fiscal year 2001 appropriations measure that led to a joint 
NINR and NIH mentorship program for psychiatric nurse 
researchers. The program will support the development of expert 
psychiatric mental health nurse researchers in the area of 
measuring outcomes in the care of psychiatric patients.
    APNA is extremely excited about this program and wishes to 
acknowledge the tremendous work done by Dr. Patricia Grady, 
Director of NINR, and Dr. Steven Hyman, Director of NIMH, and 
the staff at both institutions.
    In addition to supporting the nurse researcher mentorship 
program, strong Federal support is needed in order to build our 
nation's research capacity by ensuring an adequate supply of 
nurse researchers.
    As a result, we would ask the committee to include nurse 
researchers in any research-related loan repayment program so 
that we can attract the most promising students into 
psychiatric nursing research.
    We would also like to take a moment to note our concern 
that current NIH and NINR funding does not fully reflect the 
broad range of psychiatric nursing research. With the grant 
funding focused on issues such as violence and substance abuse, 
while these issues are very important, we would like to extend 
this research portfolio.
    In all, APNA is seeking $144,000,000 for NINR and at least 
a 16.5 percent increase for NIMH.
    APNA's second priority relates to the nursing shortage our 
country now faces. I am sure you folks have heard a lot about 
that. In order to address this serious problem, APNA and other 
members of the health professions and nursing education 
coalition recommend at least $440,000,000 in fiscal year 2002 
overall funding for Title VII and Title VIII of the Public 
Health Service Act.
    These figures do not include funding for the children's 
hospitals Graduate Medical Education Program, an amount 
separate from Title VII and Title VIII funding.
    Within the health professions programs, APNA is joined by 
other members of the nursing community in seeking a minimum 
increase of $25,000,000 within Title VIII.
    Further, we are seeking an additional $10,000,000 for 2002 
for the Nursing Education Loan Repayment Program. Equally 
important, APNA is advocating for an improved data collection 
to learn even more about our nursing workforce.
    Finally, APNA would like to ask for the committee's helpto 
ensure that recent reforms related to the use of seclusion and 
restraint include the expertise of our nation's psychiatric nurses. We 
are concerned that new policies could overlook our nation's psychiatric 
nurses in a way that could negatively impact patient and staff safety.
    Safety in nursing work environments is crucial with the 
impending nursing shortage.
    Thank you very much for providing me with the opportunity 
to present our funding priorities. I would be happy to answer 
any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. The last county medical society that I met 
with shared with me that 40 to 50 percent of their patients 
needed mental health treatment. That has not been historic; has 
it?
    Ms. Hill. It actually has been historic, but I don't think 
we have discovered or admitted or understood that until more 
recently with some of the advances that we are finding, that 
people have described before this community in terms of being 
able to look in people's brains and understanding that many of 
what we heretofore thought were maybe disorders of aging or 
just adulthood or disorders related to stress actually had a 
biological and medical basis.
    The more we understand that, the more we are beginning to 
diagnose and hopefully treat those illnesses.
    Mr. Peterson. But you don't think that is an uncommon 
figure?
    Ms. Hill. No, I do not.
    Mr. Peterson. Do psych nurses basically work in psych 
units? I have a lot of small rural hospitals. They don't all 
have psych units. But if they don't have a psych unit, would 
they hire a psychiatric nurse?
    Ms. Hill. Eighty percent of our psychiatric nurses are 
functioning in hospitals, but not in small rural hospitals. If 
there is not a psychiatric unit in a hospital, it would be very 
hard to find a psychiatric nurse.
    Mr. Peterson. They are basically in where the units are?
    Ms. Hill. Right.
    Mr. Peterson. You kept using the term ``mental health 
nursing research.'' I don't quite understand that term.
    Ms. Hill. Well, in the past most of the nursing research 
that has been done has not been funded. Psychiatric nursing, 
mental health nursing research has not been funded or it has 
been under-funded.
    We have had some great success in the last year getting 
some dollars put towards nursing research for psychiatric 
nursing. That is what we are asking about. Much of the funding 
has gone to much broader nursing research that does not relate 
to psychiatry.
    Mr. Peterson. Is that separated from psychiatric research 
in general? I guess that is the question maybe I should have 
asked. Why is it separate who the provider is, whether it is a 
nurse or a doctor?
    Ms. Hill. Again, nursing research has a specific body of 
knowledge all its own which relates to how patient care 
influences how patient care influences people to get better. It 
is a different science.
    Mr. Peterson. Do you think we need to get a little bit 
drastic, maybe, in our future budgets about dealing with the 
nursing shortage in general, beyond psychiatric, I mean just in 
general. Are we approaching, in your view, a huge crisis?
    Ms. Hill. A drastic crisis.
    Mr. Peterson. I have young nurses in my district, who, now 
that we are basically Bachelor's degree nurses, who found that 
they can go to school one more year and be anything they want. 
That is a foundation for other careers. So, what we thought was 
maybe the right direction now allows them to just move on. 
Several are going to be accountants, CPAs. That is not exactly 
what you would think a nurse would go to.
    But because of what they found on the floor in their first 
two or three years in practice, they are just moving on. They 
are going to night school and they are going to move on and 
leave the nursing profession.
    If it is like that across the country, we are really in 
trouble.
    Ms. Hill. That is right.
    Mr. Peterson. We are always looking for projects or pilots 
that we can do across this country. I think we really need to 
put our thinking caps on to discover how we can get people into 
nursing quickly.
    Ms. Hill. I agree.
    Mr. Peterson. I look forward to your advice.
    Ms. Hill. Thank you.
    Mr. Peterson. Dr. Robert Schwartz, Professor and Chairman, 
Department of Family Medicine and Community Health, University 
of Miami, School of Medicine.
    Good afternoon and welcome.
                              ----------                              

                                          Thursday, March 22, 2001.

               ORGANIZATIONS OF ACADEMIC FAMILY MEDICINE


                                WITNESS

ROBERT SCHWARTZ, PROFESSOR AND CHAIR, DEPARTMENT OF FAMILY MEDICINE AND 
    COMMUNITY HEALTH, UNIVERSITY OF MIAMI SCHOOL OF MEDICINE
    Dr. Schwartz. Thank you. It is an honor and a privilege to 
be here. As you mentioned, I am Professor and Chair of the 
Department of Family Medicine and Community Health at the 
University of Miami School of Medicine. I am also a member of 
the board and legislative chair of the Society of Teachers of 
Family Medicine.
    I have been a practicing physician and teacher for more 
than 20 years. I thank you for the opportunity to be able to 
talk on behalf of the organizations of academic family medicine 
today.
    I am here to discuss two programs under the purview of this 
committee: The Family Practice Training Programs under Title 
VII of the Health Services Act; and the Agency for Health Care 
Research and Quality, also known as AHRQ.
    Both of these programs address real and important needs in 
our society. These programs are not sexy. They do not have a 
natural and sympathetic constituency. What they do have is a 
proven ability to make positive changes in our nation's health 
care and in our patient's lives.
    These are programs this committee supported well in the 
last funding cycle. We are asking for that support again this 
year.
    We ask in addition that the funding for the Primary Care 
Medicine and Dentistry Cluster of Title VII be increased 
$158,000,000. This would allow for $96,000,000 for family 
practice training programs.
    Currently, the Federally funded educational system 
reinforces the sub-specialization of the physician workforce. 
The President's budget blueprint says that the nation has too 
many doctors. We respectfully disagree.
    What we are experiencing is a surplus of specialists. We do 
have a shortage of doctors, primary care physicians and doctors 
who care for families.
    Title VII programs are designed to counter this market bias 
and support development of the primary care physician 
workforce. These are the only Federal programs that explicitly 
fund the infrastructure to produce physicians who will address 
Congressional stipulated goals. They will help deliver health 
care to under-served populations. They will bring health care 
professionals to rural areas and will improve geographic mal-
distribution of the physician workforce.
    We are excited because now we have new data. Federal 
funding through Title VII of Family Medicine Department's pre-
doctoral programs and faculty development has made a 
difference. A current study shows that these three types of 
grants really do make a difference in producing more family 
physicians and more primary care doctors.
    Pre-doctoral and department development grants made a 
difference in producing more primary care doctors serving in 
rural areas and more doctors serving in primary care health 
professional areas, also known as HPSAs.
    Sustained funding during the years of medical school 
training had more positive impact than intermittent funding. 
Another recent study data show that without family physicians 
over 1,000 additional counties would qualify for this 
designation as a HPSA.
    This compares to an additional 176 counties that would meet 
the criteria if all internists, pediatricians and obstetricians 
in aggregate were withdrawn. These funds must be maintained and 
increased to help our nation's service needs.
    I would like to share one of the main success stories 
created by Title VII funding. Dr. Joyce Lawrence is a young 
African-American woman who grew up in Liberty City, one of the 
poorest communities in South Florida and even in the country.
    She was able to gain entrance to the University of Arizona 
School of Medicine and early in her training was exposed to a 
Title VII-funded pre-doctoral family medicine. This had an 
enormous impact on her future.
    Dr. Lawrence graduated, returned to Miami, determined that 
she was going to do something for the community in which she 
grew up. She gained a position in our residency program, 
supported through the years again by Title VII dollars and 
successfully completed her three-year post-graduate training.
    Dr. Lawrence was recently hired as the medical director for 
a privately-funded school health initiative to put health care 
back into the Miami-Dade County school system, one of the 
largest public school systems in the country, one with limited 
health care access for its predominately minority and under-
served community.
    This is a real success story, but only one of many made 
possible by sustained Title VII funding for academic family 
medicine in the country.
    Mr. Chairman, the other program I am testifying on today is 
funding for AHRQ. We also appreciate the increased funding 
provided this past year. However, we support a budget 
allocation of $400,000,000 for fiscal year 2002. This includes 
funding for patient safety, translating research into practice, 
outcomes research and 350 new investigator-initiated grants.
    Why? Just like Title VII programs, the research conducted 
through AHRQ is critical to responding to national health care 
needs. While our country has dramatically increased investment 
in basic medical science research through NIH programs, there 
has been little support to answer questions of major concern to 
many America's and their family physicians.
    Nor has there been adequate effort to develop the clinical 
applications in primary care from this new basic science 
knowledge. We applaud the investment in NIH, but we feel 
strongly that an increase in funding for AHRQ will dramatically 
enhance the ability of the recent resources to maximize 
research in primary care.
    As a practicing family doctor, I need to know how the rapid 
advances in new pharmacological products, information, 
technology, gene therapy, and diagnostic techniques are 
applicable to the care of my patients.
    In addition, we need to know the risks of these new 
treatments and techniques. AHRQ is the only Federal agency to 
support this.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. Thank you, Dr. Schwartz.
    Let me ask the first question. What do you consider primary 
care?
    Dr. Schwartz. Well, that is a good question and obviously, 
it is a controversial one.
    Mr. Peterson. It shouldn't be.
    Dr. Schwartz. It shouldn't be. A family doctor is a 
physician who has been trained to take care of the entire 
family. They do pediatrics. They do adult medicine. Many of 
them still do obstetrics and gynecology. They specialize in 
geriatrics. Behavioral medicine is a very important component 
of the family medicine programs.
    It is really the broadest physician that exists in the 
United States and it is the perfect physician for rural areas 
and urban centers. The interesting thing is that the majority 
of the care to poor and minority populations, the under-served, 
takes place in academic or residency training programs 
throughout the country.
    Mr. Peterson. I always considered family physicians 
internists. OB-GYN, I know that is one lot, too. But I don't 
understand it because OB-GYNs are many women's primary doctor. 
And you mentioned pediatrician. Who should I have included in 
that? Anybody else?
    Dr. Schwartz. Primary care is usually all of those that you 
mentioned. But family physicians consider themselves the real 
primary care physician because we really do the broad range of 
services where many families go to one physician and then, if 
they have a problem, they are referred to somebody else and a 
third and a fourth.
    One of the things that we hold up most importantly is 
continuity of care, seeing the same physician year after year, 
understanding patient's problems and understanding them within 
the context of family. Those are some of the things that 
unfortunately modern medicine has pushed aside.
    We have really created so many sub-specialties, I hear all 
the time of people being grateful for having a family physician 
who really knows the entire family.
    Mr. Peterson. In the rural setting, if I did not look at 
their license, I would not know an internist from a family 
physician because they practice almost the same. Most people 
don't know the difference.
    Dr. Schwartz. No. That is true.
    Mr. Peterson. Where are we at today in the percentage 
coming through the primary care specialty? Do you know what the 
numbers are nationally? I don't.
    Dr. Schwartz. Well, you are going to hear in the news very 
soon that today was the match results and unfortunately family 
medicine training programs did not do as well as they have done 
in the past. That is a significant problem. It has improved 
dramatically in the last decade, but as has been mentioned 
today, there are many pressures that push students into sub-
specialty medicine. Salaries are much higher in diagnostic 
radiology.
    Loan repayment is an enormous issue. Students are coming 
out with $90,000 or $100,000 indebtedness. Those are clearly 
forces that push people away from doing family medicine.
    Mr. Peterson. A decade or more ago in State government I 
chaired health and welfare. I got the attention of our nine 
medical schools by proposing legislation that would have made 
those who go into primary care residencies less costly than 
those who chose the other.
    The medical schools were all in my office within a week 
discussing this issue. Now, what I was able to do was-we 
changed the numbers in Pennsylvania. I have not watched them 
since I left five years ago. But we changed the numbers and 
primary care residencies grew in Pennsylvania because of that 
action and that fear that we were going to do something to 
penalize them.
    Of course, some of the bigger schools went back into 
primary care because they needed the doctors themselves, just 
to fill their own slots.
    Now, I guess I would be for loading some incentives. We 
have to somehow change this. Everett Koop was the one who 
brought me to the issue years ago. We don't have that kind of a 
voice any more. He talked about this issue a lot.
    I don't think people realize where we are headed.
    Dr. Schwartz. I think you are right. I think it is an 
extraordinary problem in terms of people understanding that 
primary care physicians are essential in health care.
    Many of the problems that were discussed today in terms of 
the research, et cetera, can only really be handled on the 
front line. There is less hospitalization than ever before 
because of the cost of hospitalization. Well, where is that 
care going to take place but in the community?
    You also mentioned the issue of medications. I feel very 
strongly that our communities and patients are over-medicated. 
One of the reasons we need money in AHRQ is because outcomes 
research needs to occur in the community. A lot of the things 
that we empirically know as physicians need resources to be 
funded.
    Mr. Peterson. Come to me privately with you are ideas about 
what we talked about. We are running short of time here today. 
I would love to talk to you for an hour. Sometime contact me, I 
will be glad to work with you.
    Dr. Schwartz. Thank you very much, sir.
    Mr. Peterson. Next, we are going to hear out of order 
Patricia Underwood, the First Vice President of the American 
Nurses Association.
    If you have a flight problem, let us know.
    Welcome. Please proceed.
                              ----------                              

                                          Thursday, March 22, 2001.

                      AMERICAN NURSES ASSOCIATION


                                WITNESS

PATRICIA W. UNDERWOOD, FIRST VICE-PRESIDENT
    Ms. Underwood. Good afternoon. Mr. Chairman and members of 
the subcommittee, I am Patricia Underwood, the First Vice 
President of the American Nurses Association, the only full 
service professional organization representing the nation's 2.7 
million registered nurses.
    This afternoon I will address funding for nursing education 
and research. The American Nurses Association believes that our 
shared goal of ensuring the nation of an adequate supply of 
well-educated nurses will reaffirm the need for increasing 
funding for these programs.
    Mr. Chairman, as you know, there is a shortage of nurses, 
particularly due to a mal-distribution of nurses and their 
unwillingness to work in dissatisfying and unsafe environments. 
An even more critical shortage of nurses is coming due to a 
lack of young people entering the nursing profession.
    Due to an aging workforce, the average age of the working 
nurse is 43.3 years, and also due to nurses leaving the 
profession because of increasingly stressful, non-supportive 
working environments.
    This shortage will mean that patients in hospitals and 
long-term care may not get the frequent checks that they need 
to ensure quality of care, prevent complications and thereby 
increase hospital stays and increase mortality.
    This shortage will also mean that there will be not enough 
nurses to care for our vulnerable population such as children, 
the elderly or those with mental health problems. It will mean 
that there will not be enough nurses to promote health in our 
inner city environments and in the rural areas of our nation.
    There are several things that can be done right now to 
begin to increase the supply of nurses and to create the 
environments that will attract and retain nurses.
    ANA is encouraged by President Bush's budget blueprint that 
recommends focusing on resources, on grants that address 
current health care workforce challenges such as the nursing 
shortage.
    Now, the first thing that we can do is to support the 
expansion of programs under the Nurse Education Act 
reauthorized under Title VIII of the Health Professional Act of 
1998. It provides for competitive grants to schools of nursing 
to strengthen nurse education. Unfortunately, lack of funding 
within the current NEA has kept the Health Services 
Administration from funding programs such as scholarships for 
disadvantaged students.
    The HRSA Division of Nursing reports that it will not even 
hold a competitive grant cycle for nurse stipend and pre-entry 
programs for this year due to lack of funds.
    The American Nurses Association supports a $25,000,000 
increase to a total of $103,700,000 for NEA.
    Secondly, we need to find ways to increase the number of 
nursing faculty because the average age of the nursing faculty 
is 55 years. If we are going to be able to increase the number 
of nurses, we have to have the faculty to education them.
    Preparation at the Masters level could be increased through 
NEA by expanding the current loan repayment program. Fifty 
percent of all applications made for loan repayment, however, 
are denied due to a lack of funds.
    ANA supports increasing the funding for this repayment 
program to $10,000,000 for fiscal year 2002.
    Preparation of faculty at the doctoral level could also be 
increased to some degree through pre- and post-doctoral 
training grants provided by the National Institute for Nursing 
Research.
    Currently, we need to look at funding to ameliorate the 
shortage. We need to look at issues that address the nurses 
working environment.
    Research shows that health facilities catering to nursing 
needs are like magnets and can draw nurses to them. It is 
interesting, ANA has data that clearly indicates that when you 
have appropriate nurse staffing in acute care settings, there 
is a decrease in hospital-acquired infections, a decrease in 
patient falls, a decrease in pressure sores, a decrease in 
lengths of stay and an increase in patient satisfaction, all of 
which increase recovery and decrease the cost of health care.
    Appropriate staffing also increases nurse satisfaction with 
the care that they provide. Further, research has shown very 
clearly that the ability of nurses to have decision-making 
authority at the bedside and throughout the organization is one 
factor that enables hospitals to attract and retain nurses.
    Increased funding for the National Institute for Nursing 
Research so that research to find models to retain nurses and 
identify interventions that are able to achieve the desired 
health outcomes with the lowest cost is essential.
    Nursing research helps attract talented people into the 
profession and provides nurses with an opportunity to conduct 
research that makes a difference in the lives of patients.
    Mr. Chairman, we thank you for your support of nursing 
education and research. You have the opportunity to act in a 
way that will truly influence the health of our nation.
    Thank you. I would be happy to answer questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. I would just like to run an issue by you. 
Last year when a group of nursing school people were visiting 
me, I urged them to come back and give us some ideas on how to 
deal with the nursing shortage.
    Two weeks ago they came to my office and gave me a 
proposal, asking for a little money. It was the following: This 
major nursing school from a major university in Pennsylvania is 
going to couple with a group of hospitals and also with a group 
of LPN programs and it will be a two-year nursing degree 
utilizing LPNs with a certain amount of floor experience.
    I would be interested in your reaction to that. That is 
sort of a difference in the trend. We have been phasing out of 
the two- and three-year programs that have provided a lot of 
our nurses to all four-year Bachelor degrees.
    Are we in a position where we may have to reverse that?
    Ms. Underwood. I do not personally agree with reversing 
that. The problem is, when you think about the shortage, many 
times people think, okay, let's get more bodies in there to 
give care.
    The reason this shortage that we are heading for, and it is 
going to peak around 2010, is that we have an increasing 
demand, because of the increasing acuity in the health care 
system throughout the country, we have a demand for an increase 
in nurses with more knowledge and experience.
    It is those very nurses that have more knowledge and 
experience would are going to be retiring and moving out of the 
system. So, just increasing the number of new people coming in 
is not going to help that. One of the things that I think is a 
much more attractive model that a number of State have been 
using, is to really encourage nurses who have their associate 
degree, their two-year programs, to make the articulation 
between the two-year and the four-year and the articulation 
actually between the LPN and the two-year and four-year much 
more smooth and to really get those people in and facilitate 
their moving up in terms of the nursing education.
    But just having more people educated is not enough if we 
don't change the working environments to keep people.
    You mentioned to another speaker about the people who are 
preparing for nursing and then going into other fields. While 
nursing is great, we need to keep them in nursing.
    Mr. Peterson. But I think something has happened that I 
didn't anticipate. I didn't realize a Bachelor degree nurse 
could go to school for one more year and go to almost any 
career that she wants. That is something I think we have to 
look at.
    I guess a lot of my hospital administrators and nursing 
home administrators would argue with your theory. I personally 
think we need to do what you want to do and do what this 
university wants to do.
    We can discuss that another day, but I think the problem is 
large enough that if we did all of the above, we are still 
going to be in trouble.
    Ms. Underwood. One important point that I think you did 
make and it came through: This is not a situation that nurses 
can solve by themselves, even if we are totally united as a 
profession.
    We really need to work with all of you and with the public 
and with the physicians and with the hospitals to address the 
issue.
    Mr. Peterson. Thank you.
    Mr. Regula [resuming chair]. Our next witness is Dr. 
William Harmon, Transplant Physician and Director of Pediatric 
Nephrology, Children's Hospital, Boston.
    We are happy to welcome you.
                              ----------                              

                                          Thursday, March 22, 2001.

                  AMERICAN SOCIETY OF TRANSPLANTATION


                                WITNESS

WILLIAM E. HARMON, TRANSPLANT PHYSICIAN AND DIRECTOR OF PEDIATRIC 
    NEPHROLOGY, CHILDRENS HOSPITAL, BOSTON, MASSACHUSETTS
    Dr. Harmon. Mr. Chairman, thank you for the opportunity to 
present testimony on behalf of the American Society of 
Transplantation. I am William Harmon, a transplant physician 
and Director of Pediatric Nephrology at Children's Hospital in 
Boston and Secretary-Treasurer and Chairman of the Public 
Policy Committee of the American Society of Transplantation.
    The AST, which is a professional organization that has no 
governmental support, was established in 1982. Our membership 
which now numbers more than 1,600 is comprised of physicians, 
surgeons and scientists engaged in the research and practice of 
transplantation medicine, surgery and immunobiology.
    The AST is the largest professional transplant organization 
in the United States and represents the majority of 
professionals in the field of transplantation.
    Today, there are more than 75,000 Americans whose names are 
on the organ transplant waiting list. During the next hour, 
four new names will be added to that list. By the time I get 
home to Boston this evening, at least 15 individuals will have 
died because the wait for a transplant was just too long.
    These patients awaiting transplantation represent a cross-
section of our society. They are mothers and fathers who 
provide for their families. They are community and business 
leaders. And they are children who should havetheir entire 
lives ahead of them.
    We have made great strides in the past four decades of 
transplantation and we have developed extraordinary medical and 
surgical procedures to provide transplants to people with 
catastrophic organ failure. But the very success of these 
procedures has expanded the pool of candidates much faster than 
the supply of available donors.
    We simply don't have enough organs to transplant. The organ 
transplant waiting list has increased in size by approximately 
380 percent in the last ten years while the number of available 
donors has changed very little.
    Each year the AST identifies the shortage of available 
donors as the number one problem in the field of 
transplantation. The Society is particularly pleased to see 
that Secretary Thompson was very quick to emphasize the need 
for enhancing organ donation in the United States.
    Support for organ donation is only half the battle. The 
other critical issue is ensuring the long-term survival and 
function of the transplanted organ. Over the last 40 years, 
transplantation of solid organs has moved from an experimental 
to an accepted therapy with approximately 22,000 transplants 
performed in the United States annually.
    The short-term success of this procedure has improved 
greatly over the last few years with recipients now enjoying 
more than 90 percent survival at one year. Most of this success 
can be attributed to research in immunosuppression that is 
being funded by Federal appropriations.
    Our better understanding of immunity and the body's 
response to foreign proteins has led to countless breakthroughs 
in many areas of medical science.
    The AST believes that now at the dawn of a new millennium 
we are on the threshold of many important scientific 
breakthroughs in the area of transplantation research. These 
include new insights into the immune mechanisms of rejection, 
the induction of total tolerance transplant organs, the 
immunologic response to animal organs and tissues, so-called 
Xenographs, and even bold new experiments in tissue engineering 
and organ development.
    As one example, two years ago NIAID, NIDDK and the Juvenile 
Diabetes Foundation collaborated in the formation of the Immune 
Tolerance Network, which is dedicated to the rapid development 
and deployment of novel clinical trials in the broad areas of 
organ transplantation and autoimmune diseases.
    Already new trials have begun and important scientific data 
are being collected by the ITN.
    AST strongly urges the subcommittee to continue its 
leadership in the area of biomedical research and to provide at 
least a 16 percent increase in funding for the NIH in fiscal 
year 2002.
    The AST supports the level of increase for NIAID and HLBI 
and NIDDK.
    To truly translate the promises of scientific discovery 
into better health for all Americans, the President, Congress, 
and the American people must continue the commitment to 
significant, sustained growth in funding for the NIH.
    Clinical and basic transplantation funding at the NIH must 
be increased. In particular, we recommend to Congress that the 
NIH give consideration to high priority initiatives of NIAID 
and HLBI and NIDDK, which I have provided to you in written 
testimony.
    The fruits of current research have produced many important 
successes in the field of transplantation. Ever more precise 
and powerful transplant immunosuppressive drugs have greatly 
increased both patient and graft survival. However, despite 
today's success, virtually all the transplanted organs will 
eventually be lost.
    Many challenges lie ahead of us, including the 
understanding of preexisting and concomitant illnesses such as 
cardiovascular disease, hypertension, infection, hepatitis, 
bone disease, diabetes and malignancies.
    In addition, the therapeutic strategies to induce donor-
specific tolerance hold promise. The strategies to overcome 
Xenogenetic barriers have begun. Expansion of these programs, 
as well as others I have provided, will ultimately enable 
transplant physicians, surgeons and scientists to provide 
patients with a successful transplant for a failed organ for 
their entire natural lifetime.
    Therefore, I end my remarks here today by repeating AST's 
request that this subcommittee and Congress stay on track to 
double NIH's research budget by the year 2003 and permit these 
high priorities and initiatives to move forward.
    Thank you very much.
    Mr. Regula. Thank you. As I understand it, there is a 
nationwide compilation of the people who have need of a 
transplant so that you have to take your turn.
    Dr. Harmon. Yes. Every patient who is on the transplant 
list is known by what is known as the Organ Procurement and 
Transplant Network, which is funded through the NOTA 
legislation which was enacted in 1987.
    We track every patient and every donor so we know who is 
coming up. There are 75,000 of them waiting right now.
    Mr. Regula. I know. My secretary in the committee I 
previously chaired is waiting on lungs. I think she is number 
two or three at Johns Hopkins.
    I explored Pittsburgh and they said, well, the order of 
succession is the same no matter where you go because it is a 
nationwide program.
    Dr. Harmon. It is a national program.
    Mr. Regula. You are doing a lot of great work, though. I 
know my colleague, Floyd Spence, is a wonderful example of the 
success. He had a lung replacement maybe ten years ago.
    Well, thank you for coming.
    Dr. Harmon. Thank you very much.
    Mr. Regula. The next witness is Dorothy Mann, Board Member 
AIDS Alliance for Children, Youth and Families.
                              ----------                              

                                          Thursday, March 22, 2001.

             AIDS ALLIANCE FOR CHILDREN, YOUTH AND FAMILIES


                                WITNESS

DOROTHY MANN, BOARD MEMBER
    Ms. Mann. Good afternoon, Mr. Chairman. My name is Dorothy 
Mann. I am a Board member of the AIDS Alliance for Children, 
Youth and Families, a national organization addressing the 
needs of children, youth and families who are living with, 
affected by or at risk for HIV and AIDS. It is my honor also to 
serve on the CDC's HIV STD Prevention Advisory Committee.
    I am also the Executive Director of the Family Planning 
Council in Philadelphia, serving over 120,000 Title X funded 
family planning clients. We also provide a range of community-
based HIV and STD prevention, screening and treatment services.
    Mr. Chairman, I am here today because our nation is 
becoming complacent about AIDS. How many new HIV infections do 
you think we have in this country every year? In 2001, 40,000 
people will become newly infected with HIV. Half of these 
infections will occur in people under 25.
    That means 100 people in this country will become infected 
with HIV today and again tomorrow. Can we prevent HIV from 
infecting 40,000 people in America? Yes. But it will take 
bolder leadership, increased funding and smarter allocation of 
resources.
    The Ryan White Care Act, which was reauthorized by Congress 
in the year 2000, is the most critical Federal program 
dedicated to people living with HIV and AIDS.
    Today I will focus on Title IV of the Care Act, which 
provides funding for medical care, social services and access 
to research for children, youth, women and families. Simply 
put, Title IV is a success story. It has enabled communities to 
respond quickly and efficiently to the HIV epidemic.
    Since the science became clear about the role of AZT in 
reducing mother-to-child HIV transmission, Title IV grantees, 
including my own, have played a major role in the remarkable 
steady decline in the number of infants born with HIV in this 
country.
    CDC estimates that fewer than 200 infants were born with 
HIV last year. But even one baby born with this disease is too 
many. As the number of HIV-infected women of childbearing age 
rises, reducing perionatal transmission becomes more 
challenging and expensive.
    Despite the successes of Title IV, currently funded at 
$65,000,000, much more needs to be done.
    The President's budget calls for a four percent increase in 
discretionary spending. But with 40,000 new infections each 
year, we need to increase spending on Federal AIDS programs 
much more than four percent or people will die.
    If funding for the Federal AIDS program does not keep pace, 
individuals, families and entire communities across the country 
will continue to be decimated by this terrible disease.
    The AIDS Alliance recommends a total funding of $83,000,000 
for Title IV for fiscal year 2002. This is a 28 percent 
increase over 2001, which is the same rate we received this 
year.
    As you know, the Congressional Black Caucus Minority AIDS 
initiative has provided critical increase in Federal AIDS 
programs reflecting the disproportionate impact of HIV and AIDS 
on communities of color. Eighty-four percent of the clients 
served by Title IV are people of color.
    AIDS Alliance would be happy to provide additional 
information to this committee as you consider the Congressional 
Black Caucus funding for 2002.
    It goes without saying that HIV is spread from an infected 
person to an uninfected person. Thus far we have focused HIV 
prevention efforts almost exclusively on uninfected people. We 
have largely ignored those who are already infected.
    Mounting evidence suggests that as people with HIV are 
living longer and more active lives, they are more likely to 
engage in unprotected sex. Let me be clear. I am not advocating 
laws or policies that criminalize or stigmatize HIV-positive 
people or their behavior.
    I am talking about interventions that help HIV-positive 
people reduce their risk behavior and protect their uninfected 
partners.
    What can be done? We must work to break down the walls 
between HIV prevention and care programs. As you appropriate 
funding to agencies such as HRSA, CDC, and SMSA, you must 
encourage coordination to the greatest extent possible to 
reduce barriers between these agencies and between prevention 
and care.
    It is estimated that CDC needs an additional $300 million 
each year to implement their new strategic plan to reduce HIV 
new infections to 20,000. Scientific evidence should be the 
basis for HIV infection policies.
    We know, for example, that needle exchange programs work 
and do not increase drug use. Yet, we still have Federal 
restrictions on their funding. We need to take politics out of 
science.
    Let me leave you with a final thought: Reversing the 
nation's growing complacency about AIDS is a daunting task, but 
we must do more, much more, than simply prevent an escalation 
in the rate of new infections.
    It is intolerable. If we had 40,000 American casualties in 
a war, would we find that acceptable? I hardly think so. We 
have to do more because if we don't, it will only get worse.
    Thank you.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Our next witness is Emily Sheketoff, Executive 
Director, American Library Association.
                              ----------                              

                                          Thursday, March 22, 2001.

                      AMERICAN LIBRARY ASSOCIATION


                                WITNESS

EMILY SHEKETOFF, EXECUTIVE DIRECTOR
    Ms. Sheketoff. Thank you, Chairman Regula.
    We wish to thank you for your support for our libraries in 
the past. We look forward to working with you on behalf of 
America's libraries in your first year as Chairman of this 
subcommittee.
    I know that you are familiar with libraries, as a result of 
your experiences as a teacher, and as the father of a librarian 
at Western Reserve in Hudson, Ohio.
    I would like to talk to you about the crucial benefits that 
Federal support brings to the libraries.
    Mr. Regula. You did not know that my wife started the 
National First Ladies Library.
    Ms. Sheketoff. Yes, sir, and I have a terrific magazine 
article with a good picture of that for you. [Laughter.]
    So I tried hard. On Federal support for libraries, we would 
like to talk about two key National goals: outreach to those 
for whom libraries service requires extra effort or special 
materials, such as individuals with disabilities; and 
mechanisms to identify, preserve, and share library and 
information resources across institutional or governmental 
boundaries through technology.
    The library community is capable of astonishing creativity 
and expertise in support of National goals such as revitalizing 
the economy, having children start school ready to learn, and 
developing literate, informed adults.
    Oftentimes, one of the few sources of funding for 
innovation available to libraries is Federal funding. It is 
estimated that library programs generate from three to four 
dollars for every Federal dollar invested.
    Mr. Chairman, our new President has said on many occasions, 
``We must leave no child behind.'' I can tell you that 
America's libraries believe that we must lead no reader behind. 
That is why we feel so strongly that library programs need 
additional Federal funding.
    We need to ensure equitable access and participation of our 
Nation's readers to library activities and opportunities in 
their communities. We need to support our libraries continuing 
efforts to keep pace with the rapidly changing information 
technology environment.
    We need to recognize the important contributions that 
libraries make to the social, civic, and educational health of 
their communities. Like many schools, libraries often service 
as the hubs of their communities, and provide important 
services, training in technology, and opportunities for life 
long learning, particularly in traditionally under-served 
areas.
    Recently, the library community corroborated on developing 
a draft for the reauthorization of the Library Services and 
Technology Act, which will expire in fiscal year 2002. We are 
seeking to increase the authorization level to $500 million. As 
you know, this represents a significant expansion in the 
Federal Government's commitment to the support of our Nation's 
libraries.
    Today, we request your support for fiscal year 2002 of a 
down-payment of $350 million for library programs authorized 
under LSTA. With this increase, more libraries could expand 
their services to include technology training and literacy 
programs that enable students to achieve the success and 
education, and programs for families, who may not have not used 
libraries before.
    Library programs for young children encourage pre-reading 
skills and develop a love for reading.
    Mr. Regula. We will have to wrap it up. I am going to have 
to go vote here. You are preaching to the choir.
    Ms. Sheketoff. Great, well, I just wanted to give you an 
example in Ohio. In this year, Ohio received $5.5 million. If 
the state distribution was increased to $350 million, Ohio 
would get about $11 million. This would enable Ohio to complete 
the school library connections to the statewide Ohio network.
    In 1999, the libraries of Ohio requested $7.5 million in 
LSTA funding, but received only $2.9 million. So you see, the 
need is great and the funds available can stretch only so far.
    We are also asking that this subcommittee support education 
Title 6, the Block Grant that goes to libraries, at least at 
the $400 million level.
    As you know, school library materials are only one option 
of this block grant. Unfortunately, less and less of the funds 
are used for school library materials. As a result, many school 
libraries have old, outdated, and inaccurate material on their 
shelves.
    Research shows that a good library media program in the 
school is an excellent predictor of student achievement. In 
summary, an increase in LSTA funding to $350 million would 
allow more of the 16,000 libraries to begin to provide Internet 
training and information access services to families, adult 
learners, the small business sector, and the communities who 
need them.
    Thank you very much, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you, and they are very important. I 
understand that. We, of course, have constraints on what we 
have available.
    Ms. Sheketoff. With a real dedication to education, the 
library component is really critical.
    Mr. Regula. Well, we hope that we get enough adequate 
funding from OMB.
    Thank you for coming today. I regret that I have to get 
over to there and vote or we will run out of time.
    Ms. Sheketoff. Thank you, Mr. Chairman.
    Mr. Regula. The committee will be in recess for about 10 
minutes.
    [Recess.]
    Mr. Regula. We will reconvene.
    Our next witness is Mr. Richard Kase.
                              ----------                              

                                          Thursday, March 22, 2001.

              ARTHRITIS FOUNDATION NORTHEAST OHIO CHAPTER


                                WITNESS

RICHARD D. KASE, CHAIRMAN, CANTON OHIO ADVISORY BOARD, ARTHRITIS 
    FOUNDATION NORTHEAST OHIO CHAPTER
    Mr. Kase. Good afternoon, Mr. Chairman and members of the 
subcommittee, which are few and far between at this stage of 
the game.
    Mr. Regula. Yes, that is true.
    Mr. Kase. It is truly an honor to speak to you, one of 
Canton's favorite sons.
    I want to thank you for the opportunity to speak today 
about how Congress can continue to play an important role in 
helping improve the quality of life for the 43 million 
Americans living with arthritis, including the 300,000 children 
living with the disease.
    Specifically, I would like to thank the subcommittee for 
its leadership in supporting funding increases to support 
arthritis research at the National Institute of Arthritis, and 
musculoskeletal skeletal and skin diseases and the Centers for 
Disease Control and Prevention's Arthritis Program.
    As I said, my name is Richard Kase. I am from Canton, Ohio. 
I am a business man and a volunteer. I am here today in my role 
with Arthritis Foundation of Northeast Ohio as the Volunteer 
Chair of the Canton Area Advisory Board.
    I am also one of the 43 million Americans living with this 
painful and oftentimes debilitating disease. I was first 
diagnosed with osteoarthritis in 1992, at the age of 40.
    Due to osteoarthritis, I have had five knee operations and 
one back surgery. While osteoarthritis limits my daily 
activities, simply climbing stairs is extremely painful.
    I consider myself fortunate. For today, there is new hope 
for the millions of Americans with arthritis. We have new, more 
effective therapies to prevent pain and disability, thanks to 
the Federal investment in research.
    With the CDC's arthritis program, we are reaching out and 
empowering millions of Americans to help them take steps to 
improve their quality of life.
    Mr. Chairman, 95,000 persons living in Ohio's 16th 
Congressional District have arthritis. One of those individuals 
is Tiffany Kenyan.
    Tiffany was diagnosed with juvenile rheumatoid arthritis at 
the age of four. Every day is a challenge, as she faces the 
pain, physical disabilities, and psychological trauma brought 
on by the disease.
    Now a teenager, Tiffany has been unable to do many of the 
activities that most of her friends take for granted. However, 
thanks to new therapies, early diagnosis in the treatment and 
the support of family, she plans golf, dances, and swims when 
possible. She may have arthritis, but it does not have her.
    Like me, Tiffany has been a beneficiary of the research 
investments in the National Institutes of Health by this 
subcommittee. Our lives have been made better, thanks to a new 
generation of treatments and therapies, for the many serious 
forms of the disease.
    Ongoing growth in the NIH budget will provide the National 
Institute for Arthritis and Musculoskeletal and Skin Diseases 
the resources to support critical research ranging from 
osteoarthritis to lupus to juvenile rheumatoid arthritis.
    To meet this pressing national need, the Foundation urges 
the members of the subcommittee to continue the doubling of the 
NIH budget, within five years, and provide $462 million, as 
part of the NIH's fiscal year 2002 appropriations for NIAMs.
    With this in mind, the Arthritis Foundation strongly 
believes this investment must be matched with a similar 
investment in public health programs, designed to ensure that 
all Americans benefit from our new understandings about the 
disease, effective self-management strategies, and improved 
treatment options.
    As a person with arthritis, I am proud that Congress has 
recognized the importance of this national effort by 
establishing and funding the National Arthritis Action Plan, 
which is a public health strategy.
    This innovative public health strategy is being implemented 
by the CDC, in partnership with state health departments across 
America. The Arthritis Foundation, and its 55 state-based 
chapters.
    Among our goals are improving the scientific information 
base on arthritis; researching how we can better prevent 
arthritis; and encouraging more individuals with arthritis to 
seek early diagnosis and treatment, to reduce pain and 
disability.
    Due to this subcommittee's support and leadership, the CDC 
was provided with $12 million as part of the fiscal year 2001 
budget, to move forward with this vision. To date, 37 states 
have been awarded funds to begin executing the plan.
    Based on the enthusiasm of our state partners, the 
Foundation's commitment to invest its resources, and the 
pressing need to address the growing public health problems 
associated with arthritis, we strongly encourage the members of 
the subcommittee to provide the CDC with $24.5 million, as part 
of the fiscal year 2002 budget, to help establish state-based 
arthritis programs in all states in territories.
    This modest investment will help us meet the challenge of 
arthritis, and lead to a day when arthritis is no longer the 
leading cause of disability in the U.S., for individuals 18 
years of age and older.
    It will help lead to a day when arthritis no longer costs 
our economy $82.5 billion a year in medical care and related 
expenses, including lost productivity.
    Congressman Regula, for generations, we have labored under 
the many myths surrounding arthritis. Arthritis was an 
inevitable part of the aging process. There were no effective 
treatment options, apart from taking a few aspirin.
    Exercise was harmful for individuals with arthritis. 
Children do not get arthritis was another myth. It cannot be 
prevented.
    Today, we stand ready with the necessary tools, expertise 
and energy, to shatter these myths, and capitalize on the 
fruits of our research to help improve the lives of Americans 
living with arthritis.
    On behalf of the 43 million Americans living with 
arthritis, I appreciate the opportunity to speak to you today, 
and urge the members of the subcommittee to help us win the war 
against arthritis by supporting funding for these critical 
Federal Programs.
    It has been a pleasure and honor to testify to you today on 
behalf of all of the arthritis victims. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. You are saying that there have been some very 
substantial progress, though?
    Mr. Kase. There has been tremendous progress, relative to 
new drugs that have reached the market; great progress relative 
to public awareness and prevention.
    Mr. Regula. Do the drugs just relieve the pain, or do they 
actually affect some degree of cure or change?
    Mr. Kase. It is really a supplement to other non-steroidal 
drugs, just to relieve the pain. I, for one, have been on 
Vioxx, which is a new medication. You take one a day, as 
opposed to the 12 Advil that I was taking every day.
    Mr. Regula. I see Vioxx advertised. Does it work pretty 
effectively?
    Mr. Kase. For me, it has worked very well. For some people, 
it does not work quite as well, and it has some side effects 
for other individuals. But for me, it was a very good drug, and 
is a very good drug.
    Mr. Regula. Thank you for coming. I know it is a 
substantial trip here from Canton, Ohio.
    Mr. Kase. But to come to see you, Congressman, it was well 
worth it. [Laughter.]
    Mr. Regula. You had better reserve judgment until we get 
the bill out and see.
    Mr. Kase. Well, we will talk about that back in 
Canton.Thank you. [Laughter.]
    Mr. Regula. Well, we are going to do what we can for all of 
these things. It depends what we have available in the 
allocation of funds, which is beyond our control.
    Our next witness is Dr. Paul Mintz, Professor of Pathology 
and Internal Medicine, University of Virginia Health System.
                              ----------                              

                                          Thursday, March 22, 2001.

                  AMERICAN ASSOCIATION OF BLOOD BANKS


                                WITNESS

PAUL MINTZ, M.D., PROFESSOR OF PATHOLOGY AND INTERNAL MEDICINE, 
    UNIVERSITY OF VIRGINIA HEALTH SYSTEM; AMERICAN ASSOCIATION OF BLOOD 
    BANKS
    Dr. Mintz. Good afternoon, Mr. Chairman. I appreciate the 
opportunity very much to come here today.
    I am Professor of Pathology and Internal Medicine at the 
University of Virginia. Today, I am speaking to you on behalf 
of the American Association of Blood Banks, the professional 
society for approximately 8,000 individuals involved in blood 
banking and transfusion medicine; and about 2,000 institutional 
members, including community blood centers, the American Red 
Cross, and hospital-based services.
    Mr. Regula. I understand they are having trouble getting 
people to donate. Is that true?
    Dr. Mintz. That is true, sir. There really has been 
intermittent blood shortages. Of course, fewer and fewer people 
are eligible to donate, as restrictions are put into place.
    Mr. Regula. Yes, well, mad cow disease has put a six month 
waiting period on anyone in England, as I understand it.
    Dr. Mintz. It is anyone who actually has lived in England, 
between 1980 and 1996, for six months, cannot be a blood donor, 
indefinitely, in the United States.
    Mr. Regula. Indefinitely?
    Dr. Mintz. That is correct. That actually is also going to 
apply now in France, for people who have been in France for 10 
years or Portugal for 10 years, based on a new recommendation. 
So there are fewer and fewer eligible blood donors in this 
country; that is correct.
    AABB has long recognized the critical role of the National 
Institutes of Health, and especially the National Heart, Lung, 
and Blood Institute, and other public health agencies that they 
have played in ensuring that patients have access to the best 
possible transfusion therapies.
    In fact, today, the Nation's blood supply is safer than it 
has ever been. Each year, over 26 million units of blood are 
transfused into millions of individuals. With enhanced Federal 
support for research, transfusion medicine promises new 
lifesaving therapies, as well as an even safer blood supply.
    We strongly encourage to support the following research 
initiatives. First, ongoing Federal support for blood supply 
data is needed. Blood safety and availability are inseparable 
requirements for ensuring optimal patient care.
    The safest possible blood component cannot benefit the 
patient if it is not readily available. The number and duration 
of seasonal blood shortages are increasing. An aging population 
and more complex medical procedures have resulted in an 
increasing demand for blood.
    In order to predict and prepare for possible shortages, we 
need reliable data regarding both collection and utilization of 
all types of blood components.
    In 1996, recognizing the significant need for blood supply 
data, the AABB founded the National Blood Data Resource Center, 
the NBDRC. In prior years, NHLBI had funded this data 
collection. However, when this Federal funding ceased, there 
was a clear vacuum in public and private support for national 
blood data collection.
    The AABB is very proud of the fine work that the NBDRC has 
produced, including its important biennial nationwide blood 
collection and utilization survey. In fiscal year 2000, the 
NHLBI agreed to fund the collection of certain monthly supply 
statistics. Unfortunately, ongoing support from the NHLBI for 
blood supply data is not continuing in fiscal year 2001.
    The AABB is very concerned that so long as no specific 
Federal agency is responsible for supporting critical data 
collection regarding the blood supply, we will not be able to 
generate necessary long-term information.
    Policymakers, including Congress, cannot make sound 
decisions affecting patients lives, absent reliable data. 
Therefore, the AABB strongly urges Congress to designate an 
appropriate office within the Public Health Service, to be 
responsible for Federal support of blood supply data 
collection. In addition, Congress should appropriate sufficient 
dollars to support long-term efforts, like those of the 
National Blood Data Resource Center, to collect,analyze, and 
distribute data about the Nation's blood supply.
    In short, we need to know who is donating the blood, what 
kind of components are being collected, and where it is going. 
Then we can plan responsibly regarding donor selection 
criteria, and patient initiatives.
    Mr. Regula. I assume you work with the American Red Cross, 
since they seem to take the lead.
    Dr. Mintz. Yes, that is correct. The American Red Cross is 
responsible for about half the blood collection in this 
country, and then other community blood centers are responsible 
for the other half. We, in the AABB, actually work with all of 
these centers.
    A second initiative that I would like to suggest is 
research regarding non-infectious risks of transfusion. The 
AABB urges the subcommittee to support additional Federal 
efforts to enhance the safety of blood transfusion.
    In recent decades, the United States invested significantly 
in reducing transfusion risks associated with infectious 
diseases, as you well know. This investment has paid off 
dramatically.
    When I first taught medical students in 1979, I told them 
there was one percent risk of acquiring what is not hepatitis C 
from a blood transfusion. That risk is now about one in a 
million. The same kind of statistics apply to HIV. The risk of 
acquiring such an infection from a blood transfusion has 
actually been reduced about 10,000 fold in the last 20 years.
    Mr. Regula. So you have better control.
    Dr. Mintz. We have better testing, better donor screening, 
and also viral inactivation of many blood components.
    Mr. Regula. How do we help?
    Dr. Mintz. Actually, I think that right now, Federal 
funding should be directed toward non-infectious risks. There 
is actually about a 100 fold increase in risk of patient who is 
receiving a blood transfusion right now, getting the wrong 
unit, than there is of getting an infection.
    There has not been an investment in the processes to assure 
appropriate safeguards in getting the right unit to the right 
patient.
    Mr. Regula. Where would that investment be; CDC, NIH?
    Dr. Mintz. I think it would be in developing a clinical 
trials network, that would emphasize research in the non-
infectious risks of transfusion, including providing processes 
to get the right unit to the right patient, and other non-
infectious risks, such as immuno-modulation.
    Mr. Regula. Well, thank you, and we will put your testimony 
in the record.
    Dr. Mintz. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We have two young ladies here, and one of them 
from my district. They are in the Presidential classroom, and 
this is the real world, young ladies.
    What we are doing in here will touch your lives, because we 
do all the research on medical, and something that is 
discovered over the next many months and years may save your 
life.
    Likewise, we do education. Of course, I am sure that is 
important to both of you. So we are happy to welcome you. As 
soon as we get finished up here, we will go back and get a 
picture with you in the office.
    Okay, next we have Kathryn Peppe, President of the 
Association of Maternal and Child Health Programs.
                              ----------                              

                                          Thursday, March 22, 2001.

           ASSOCIATION OF MATERNAL AND CHILD HEALTH PROGRAMS


                                WITNESS

KATHRYN PEPPE, PRESIDENT, ASSOCIATION OF MATERNAL AND CHILD HEALTH 
    PROGRAMS
    Ms. Peppe. Thank you, Mr. Chairman. I am Kathy Peppe, 
President of Association of Maternal and Child and Health 
Programs. I am also the Chief of the Division of Family and 
Community Health Services at the Ohio Department of Health. 
That is Ohio's maternal and health program.
    Thank you for the opportunity to testify today. We at the 
Association of Maternal Child and Health Programs really 
appreciate the subcommittee's interest and support of Maternal 
and Child Health Services Block Grant, and all of the programs 
that are supported with that funding source in our states.
    For over 65 years, programs authorized under Title 5 of the 
Social Security Act, the Maternal and Child Health Programs 
Block Grant, have helped fulfill our Nation's strong commitment 
to improving the health of all mothers and children. Title 5 is 
the foundation of our Nation's public health system.
    It continues today to watch over and promote the health of 
mothers, children, and youth, while serving as a safety net 
program for all of our country's high risk and most vulnerable 
residents.
    State maternal and child health programs funded by the 
Block Grant have demonstrated their ability to adapt through 
decades of change.
    We have had to respond to the emergence of new diseases, 
the discovery of new vaccines and treatment methods, and the 
changing health care financing and delivery systems across the 
country. Yet Congress has remained committed to this public 
health program, because we have been accountable for what we 
have been doing.
    We have provided proven preventive health programs with 
demonstrated and measurable results. Grants to the State Health 
Departments are used to help locally-determined needs that are 
consistent with the national healthy people goals for fiscal 
year 2010 or 2000, so on.
    This includes reducing maternal and infant mortality, 
helping children with disabilities function to their full 
potential, and educating children and adolescents about how to 
reduce risky behaviors and learn healthy lifestyles.
    The Maternal and Child Health Block Grant encompasses lots 
more than just moms and babies. Children with special health 
care needs and teenagers are a major focus for our programs.
    Maternal and Child Health Programs ultimately address the 
health needs of families. The flexibility of the Block Grant 
gives us the chance to develop innovative programs and services 
that go beyond health care needs to address individual specific 
needs and help people access needed health care services.
    Last year, Congress raised the authorization level for the 
Title 5 Program to $850 million. While funding for other public 
health programs has been expanded over the past five years, 
Title 5's funding has remained relatively flat in the past 
decade. So the increased authorization was desperately needed 
and comes at an ideal time for us in states.
    The MCH programs have just completed a five year needs 
assessment. As a result, all of the states and territories are 
poised to move forward to address their unmet health needs, as 
soon as additional funding is appropriated.
    Each state knows precisely how it would allocate its 
resources to meet the priority needs for maternal and child 
health populations. In Ohio, we could use additional funds to 
expand our child and family health services clinic programs. 
These are clinics that provide primary health care for pregnant 
women, child and infants, who otherwise would go without health 
care.
    We could implement a statewide system of child fatality 
review. We could offer additional children with special health 
care needs access to the services of specialists around the 
state. We could put preventive dental sealants on the teeth of 
more children to reduce cavities.
    I want to share with you a couple of stories about real 
people, who we have touched in Ohio. Anna is someone who is 
from Stark County, your home. She is a pregnant 31 year old 
woman with a history of premature delivery, closely spaced 
pregnancies, and late entry into prenatal care; plus asthma, 
tobacco use, drug use, homelessness, and three of her four 
children are in permanent placement.
    Fortunately, Ohio's Title 5 Program had what Anna needed. 
The Ohio Infant Mortality Reduction Initiative paired a trained 
outreach worker from the local neighborhood, where these high 
risk, low income pregnant women, who are either uninsured or 
under-insured.
    The outreach worker helped this mom, and subsequently her 
baby, get into care and stay in care, as well as meet other 
basic needs. Thanks to the outreach program, Anna has her own 
apartment today. She has completed parenting classes and 
attends substance abuse treatment programs.
    The best news is that she delivered a healthy beautiful and 
drug free baby girl, she regained custody of one of her other 
children.
    This is a victory for Ohio. In its recent needs assessment, 
Ohio Title 5 Program identified the reduction of infant 
mortality, particularly for those with disabilities, as one of 
our top 10 health issues.
    It is an excellent example of how assessment of local needs 
can translate into effective programs. Let me just close by 
saying that we are urging you to remember the faces of people 
who are actually touched by block grants in the states and 
their stories like Anna's.
    There are hundreds of thousands of other stories that we 
could share with you similar to these. Please fully fund the 
Title 5 Program at $850 million.
    Mr. Regula. It sounds like you are having a lot of success 
and that is what we like to hear on these programs.
    Ms. Peppe. Yes, thank you. I would be happy to answer any 
questions.
    Mr. Regula. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Our next witness is Carl Suter, Director of 
Vocational Rehabilitation Programs, Council of State 
Administrators; welcome.
                              ----------                              

                                          Thursday, March 22, 2001.

      COUNCIL OF STATE ADMINISTRATORS OF VOCATIONAL REHABILITATION


                                WITNESS

CARL SUTER, DIRECTOR, COUNCIL OF STATE ADMINISTRATORS OF VOCATIONAL 
    REHABILITATION
    Mr. Suter. Good afternoon, Mr. Chairman, I am Carl Suter. I 
am the Director of the Illinois Rehabilitation Agency of 
Vocation Rehabilitation Services.
    I also am a member of the Council of State Administrators 
of Vocational Rehabilitation. We are a Federal and State 
partnership, and have been a partnership for over 80 years in 
helping individuals with disabilities become employed.
    The Rehabilitation Act and the Vocational Rehabilitation 
Program is the cornerstone of our Nation's commitment to 
serving individuals with disabilities and helping them to 
become employed.
    Our program, every year, get thousands of folks into jobs. 
One of the things that I am here to tell you today, is that 
even though I know Congress had intended in the past to give 
our program cost of living increases every year, states like 
Ohio and Illinois are not receiving those cost of living 
increases.
    For example, in Illinois, we received less than one-half of 
one percent of an increase for cost of living.
    Mr. Regula. Do you think that other states are getting it, 
and you are not; or is it across the board?
    Mr. Suter. Well, because of the way the formula works, in 
Illinois and Ohio, the formula has had an adverse impact on us 
being able to get what the COLA, the overall COLA that you had 
for the program. In Illinois, we got less than one-half of one 
percent. I think that Ohio got less than two percent of an 
increase.
    This comes at a time in which, when you would look at Louis 
Harris pole and other National surveys, we know that 70 percent 
of people of disabilities are not employed. Yet, two thirds of 
those wish to work. Individuals between the ages of 18 and 60 
are not working, and yet they want to work.
    Our program has many pressures on it. The special education 
program, is a great program, a sister program, that helps many 
youths with disabilities get great services. Now as those youth 
begin to come to adulthood, and they come to vocational 
rehabilitation, that adds additional pressures to our program 
to serve them.
    I would like to tell you about one youth in Illinois to 
kind of illustrate this point. Rick is a young man with Down's 
Syndrome in the Chicago area. We started working with him when 
he was a junior in high school. We helped him get a job after 
school and on weekends.
    When Rick graduated last summer, he told us that he did not 
want to sit at home, like some of his friends were going to be 
doing. He wanted to work. He wanted a real job.
    He did not want to have to get $550 each month from SSI. He 
wanted to work. We got Rick a job working in a hospital. He is 
earning over $9 an hour. He is getting full benefits.
    There are thousands of Ricks in this country. They want to 
work, and they turn to vocational rehabilitation services for 
the kinds of training technology that they need.
    There are many pressures on our program. The Olmstead 
decision is another one, where folks are coming out of 
institutions and now into the community. Not only do they want 
to live independently; they want to work.
    With TANF, we have had great success in this country in 
getting folks off of TANF. But what is left now is the hard 
core of that population. Many of those, in fact, have 
disabilities and they are coming to us for vocational 
rehabilitation services.
    We have enough funds to only serve one in twenty eligible 
individuals with disabilities; one in twenty. Yet, the data 
shows that there are thousands and thousands, hundreds of 
thousands of folks who need our services.
    The Rehabilitation Services Administration tells us that in 
fiscal year 1999, we spent $2.2 billion on services for this 
population. We serve nationally over 1.2 million people and got 
230,000 of those folks into competitive jobs.
    Sir, let me leave you with one recommendation. Our Council 
of State Administrators of Vocational Rehabilitation would like 
for us to be able to have an increase that will allow us to 
serve these hundreds of thousands of folks who come to us.
    We are asking for a 10 percent increase in funding, about 
6.5 percent over the regular CPI that we would normally 
bereceiving. That equates to about $240 million.
    Mr. Regula. Well, you really have two problems. You need to 
change the formula, because I think it penalizes Illinois and 
Ohio; and secondly, of course, to get more money into the 
program.
    Mr. Suter. Right.
    Mr. Regula. Thank you for coming.
    Mr. Suter. Thank you very much.
    Mr. Regula. I know that it is a good program. I am familiar 
with it back home.
    Mr. Suter. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Our next witness is Steve Korn, President of 
National Council of Social Security Management Associations.
                              ----------                              

                                          Thursday, March 22, 2001.

   NATIONAL COUNCIL OF SOCIAL SECURITY MANAGEMENT ASSOCIATIONS, INC.


                                WITNESS

STEVE KORN, PRESIDENT, NATIONAL COUNCIL OF SOCIAL SECURITY MANAGEMENT 
    ASSOCIATIONS, INC.
    Mr. Korn. Chairman Regula, my name is Steve Korn and I am 
here as President of the National Council of Social Security 
Management Associations, an organization of over 3,000 managers 
and supervisors who work in SSA's field offices and telephone 
centers.
    Thank you for giving me the opportunity to come before you 
today to talk about the budget needs of the Social Security 
Administration, from the perspective of the front-line managers 
and supervisors who are directly responsible for delivering 
service to the American public.
    Over the past two decades, SSA has witnessed a dramatic 
reduction in staff. For example, the local Canton, Ohio field 
office lost seven positions just in the past six years.
    In addition, over the past five years, supervisory staff in 
SSA's local field offices and telephone centers have been 
reduced by more than 1,000 positions. Accommodations of 
dramatic reductions in both overall and supervisory staff, has 
resulted in a critical situation whereby the level and quality 
of service provided to the public is in severe jeopardy.
    A little over a year ago, the Bipartisan Social Security 
Advisory Board warned of the need to bolster resources in the 
Social Security field offices. The board found that staff 
resources in offices all over the country have declined to the 
point where their ability to provide quality service to the 
community is threatened. The board reaffirmed these findings in 
an updated report issued earlier this month.
    To better quantify the findings of the Social Security 
Advisory Board, our organization conducted a survey of field 
office management throughout the country. The responses which 
were received from managers in over 50 percent of all field 
offices confirm that services were below acceptable levels in 
three critical areas: telephone service, the quality of work 
products, and in employee training.
    They also found that customer waiting times are increasing. 
A copy of these findings has been sent to this committee, as 
well as to each Congressional office.
    While the statistics of the results are revealing, I 
thought it was interesting to share a couple of the more than 
64 pages of comments that we received from these front-line 
managers.
    For example, regarding telephone service, a manager in the 
Chicago region, which includes the State of Ohio writes the 
following: ``We need more incoming lines. However, we do not 
have the staff to cover the additional lines.''
    Another manager offered this chilling story. A physician 
contacted us in response to a representative pay issue. He 
wrote the manager saying he was on hold for over an hour.
    Fortunately, he had a speaker phone, which enabled him to 
take care of his patients while waiting for us to answer. 
Hedisconnected the call before we ever spoke to him. In his letter he 
stated, ``You call me from now on, because I will never contact Social 
Security again.'' I wish I could tell you that this was simply an 
isolated incident, but unfortunately, it really is not.
    Another Chicago region manager wrote, ``As we take the SSA 
measures to the community, we have generated more work for the 
staff. We say we are ambassadors of the agency, and cultivate 
good relationships with neighborhood. We then make our public 
wait longer to be served, and have insufficient staff to 
validate what we went out preached.''
    Another manager writes, ``Quality has suffered here to a 
great extent as the result of the loss of front-line 
supervisors. These were the people with the hands-on 
experience. They reviewed the work. They addressed individual 
employee shortcomings. They saw to the technical needs of the 
employees. Now they are gone.''
    If these current service delivery and quality problems were 
not bad enough, Social Security will face additional challenges 
over the coming decade, as the large baby boom generation 
begins to file for disability and retirement benefits, at the 
same time that the agency faces its own wave of retirements.
    For example, Quinzella Hobbs, who is the manager of the 
Canton Field Office, reports that right now, 29 percent of her 
staff has both the age and required years of services to retire 
today. It generally takes replacement hires three years to 
become fully productive.
    In the face of these current and future challenges, NCSSA 
recommends the following. First, SSA's budget should reflect 
the immediate need to increase front-line staffing in SSA's 
field offices by 5,000 full-time equivalents, a 17.5 percent 
increase.
    Second, SSA's field offices and telephone centers should be 
allowed to fill front-line supervisory positions, based on the 
need to maintain adequate levels of quality training and 
customer service.
    Third, SSA's administrative budget should be removed from 
the discretionary spending caps, along with SSA's program 
budget, allowing Congress to allocate sufficient funds to SSA, 
based on demonstrated service needs.
    As an independent agency, in accordance with Section 104(b) 
of the Social Security Act, Social Security submitted its own 
fiscal year 2000 budget to this committee. Social Security 
requested $8.11 billion, which is $438 million more than was 
requested by the new Administration.
    The additional funds will allow SSA to begin to address 
many of the problems identified. For example, new employees can 
be hired now, so they can be trained and up to speed before we 
lose our experienced employees. Certainly, we would urge you to 
support this higher level of funding.
    Mr. Chairman, I thank you again for inviting my testimony. 
I am certainly happy to answer any questions that you might 
have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you, and I am aware of some of the 
problems because, of course, we look to our local Social 
Security Office to help with constituent problems. I have hired 
a couple of your people away. That is probably one of the 
reasons that you have a shortage. [Laughter.]
    They are good people, and they are well trained. It works 
out well for us. But we are aware of the problem, and we, of 
course, have the report that was submitted. Thank you for 
coming. Where are you located?
    Mr. Korn. I am located in Vallejo, California, Northern 
California. Again, the problems we face are very similar to 
what is faced in your state.
    Mr. Regula. Is automation helping you?
    Mr. Korn. Automation is essential. Quite honestly, without 
automation, we would be much worse. The problem is, there is 
not enough automation out there to address the problems.
    Mr. Regula. Somebody has to put the material in to 
automate.
    Mr. Korn. And there has to be people to use what is out 
there. So it is a combination. It is not one answer.
    Mr. Regula. Well, thanks for coming; you have made a long 
trip here.
    Mr. Korn. Yes, I have.
    Mr. Regula. We appreciate it.
    Mr. Korn. I am happy to do it.
    Mr. Regula. Do not be too distressed that we do not have 
other committee members here. You have got the most important 
people here, and that is the staff.
    Mr. Korn. That is absolute true, and we have the Chairman. 
Thank you very much.
    Mr. Regula. You are welcome.
    Our next witness is Mr. John Black, General Counsel, 
National High School Federation.
                              ----------                              

                                          Thursday, March 22, 2001.

                    NATIONAL HIGH SCHOOL FEDERATION


                                WITNESS

JOHN BLACK, GENERAL COUNSEL, NATIONAL HIGH SCHOOL FEDERATION
    Mr. Black. Thank you. Good afternoon, and I appreciate the 
opportunity to give the keynote address here today.
    Actually, Dr. Martin and I are both from Indiana. Given the 
success, or lack thereof, of the Indiana University basketball 
team, I guess we are just having one of those weeks.
    Mr. Regula. Well, your former coach was from my district.
    Mr. Black. Oh, really?
    Mr. Regula. Yes, we keep chairs away up there. [Laughter.]
    Please continue.
    Mr. Black. Well, I am here on behalf of the National High 
School Federation, which is an organization comprised of all 50 
state associations and the District of Columbia, and one of the 
members is Clara Mascara in Ohio High School Athletic 
Association.
    We have approximately seven million young people who play 
under the rules that we write each year in 17 sports. One of 
them is right here, and maybe both of them. We have got a 
couple of high school athletes there.
    We have a concern that is coming up. It factors into the 
idea that a lot of teachers who used to be coaches are going on 
to other things; either they are getting tired of coaching or 
they run for Congress.
    So we wind up with a situation where instead of having 
experienced educators providing coaching to young people, we 
wind up, particularly at the lower level, the JV and freshmen 
and sophomore teams and in middle schools, with a lot parents 
and a lot of volunteers from the community, who may know 
something about ``Xs and Os,'' but are not necessarily 
experienced in the teaching skills that help them instill what 
we like to think of are some of the advantages of participation 
in inter-scholastic activities.
    The CDC has pointed lately very much at childhood obesity, 
and Health and Human Services has talked a lot about the 
benefits of extra-curricular participation, in terms of staying 
in school, better grades, lower team pregnancies, lower 
incidents of drug use.
    So we think we are doing a good thing. It costs about three 
percent of the total budget for education to take care of 
athletics and extra-curricular activities. However, we are 
winding up with all these coaches who really need to have a 
little bit of extra help, in terms of how to take advantage of 
what we call the teachable moments that come in the course of 
teaching.
    We have a program that has worked for about 10 years. It is 
the Coaches Education Program. It is very inexpensive. It costs 
about $40 per person. It is focused on people who are not 
trained educators.
    Our concern is that although we are giving it to about 
25,000 people a year, that is only a drop in the bucket. We 
have got an awful lot more coaches out there, and there is a 
very high turnover.
    So we are thinking that it might make some sense to try a 
model program, where we make it available, and particularly 
available to inner city in situations, where the $40 to come as 
a volunteer coach may seem as a real impediment.
    We would like to try that on an experimental basis in a 
couple of states, to just see if it works and see if it helps.
    Mr. Regula. Have you put your suggestion in your statement?
    Mr. Black. We have.
    Mr. Regula. We will get a chance to look at it.
    Mr. Black. Okay.
    Mr. Regula. And we appreciate your being here.
    Mr. Black. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. All right, our last witness today is Dr. 
William Martin, President and CEO of Indiana University Health 
Care, and President of the American Thoracic Society, and Board 
Member of the American Lung Association. Tell us your story.
                              ----------                              

                                          Thursday, March 22, 2001.

    THE AMERICAN LUNG ASSOCIATION AND THE AMERICAN THORACIC SOCIETY


                                WITNESS

WILLIAM J. MARTIN, II, MD, THE AMERICAN LUNG ASSOCIATION AND THE 
    AMERICAN THORACIC SOCIETY
    Dr. Martin. Well, I realize that I am the last witness of 
the last day. I would first like to thank you and your members. 
This is our only chance to put forth the story for our patients 
and the scientific community, and we thank you very much for 
this opportunity.
    I am a pulmonary and critical care physician at Indian 
University and, as you noted, President of the American 
Thoracic Society and a Board Member of the American Lung 
Association.
    In my brief time before you today, I would like to raise 
three issues. The first is the rapidly disappearing physician 
scientist. That is not simply physician scientists in lung 
disease, but in all of health related science.
    Physician scientists are essential to the research 
enterprise, because they link bench research to the patient's 
bedside. However, fewer and fewer physicians are devoting their 
time and talents to research.
    There are several mechanisms at NIH that they could use to 
address these problems, but perhaps most importantly, Congress 
needs to address why physicians choose not to pursue science.
    Invariably, this is because of the overwhelming debt from 
medical school, which you have earlier today, that can average 
anywhere from $75,000 to $150,000.
    Physicians with large debts often leave their research 
careers behind, and pursue private practice, where debts can be 
more easily paid off. The next generation of physician 
scientists should not be selected on the basis of whether or 
not they have debts from medical school.
    Last year, Congress passed legislation that provided debt 
relief for physicians who do clinical research. We would 
request that Congress support expansion of this program to 
include all areas of biomedical science.
    If enacted, Congress would ensure that the quality of the 
scientist, and not his or her financial background, would 
determine the next generation of physician scientists.
    Mr. Regula. Was this debt relief on student loans, Federal 
supported loans?
    Dr. Martin. Yes, it is for medical school. It was part of 
an omnibus package last year. This was specifically the 
Clinical Research Enhancement Act.
    The second issue that I wish to bring to your attention is 
that of chronic obstructed pulmonary disease, or COPD. COPD is 
a collection of airway disorders, including emphysema, that are 
progressive and fatal.
    An estimated 16 million Americans have COPD, and another 16 
million Americans are undiagnosed. COPD affects twice as many 
Americans as diabetes, and is the Nation's fourth leading cause 
of death.
    In the April issue of ``Scientific American,'' which I was 
just reading on my way here, it is noted that the mortality 
rate for heart disease and stroke for the past 20 years has 
declined by more than 50 percent. In contrast, in this same 
article, the mortality for COPD has increased by 34 percent.
    Surprisingly, little is known about how COPD develops. 
Genetics may provide important clues. We know that of all long-
term smokers, only 15 percent develop COPD. This is something 
that shows that some people are disposed to the disease.
    We also do not fully understand the role of genetics in 
other types of airway diseases, such as asthma. More research 
into COPD will likely help us understand why certain people 
with asthma also develop progressive and irreversible disease.
    In approximately two weeks, April 4th, an important 
document will be released by NHLBI and the World Health 
Organization called GOLD, that provides for the world community 
what can be done for COPD.
    We need break-through research to understand why people 
develop COPD and to effectively reduce the morbidity and 
mortality associated with airway diseases.
    The third issue is tuberculosis. Tuberculosis is an 
airborne infection that primarily affects the lungs, but can 
also affect other body parts, such as the brain, kidneys, and 
spine.
    TB is spread by coughing and sneezing. There are over 
18,000 active cases of tuberculosis in the United States. The 
Institute of Medicine recently published a report that 
documents the cycles of attention and progress toward 
tuberculosis elimination, followed by periods of insufficient 
funding, and the re-emergence of TB.
    The IOM report provides the U.S. with a road map of 
recommendations on how to eliminate TB in the U.S. The American 
Lung Association and the American Thoracic Society endorse the 
IOM report and its recommendations.
    Representatives Brown, Morella, and Waxman will soon 
introduce legislation to give NIH and CDC the authority and 
resources to implement the IOM report.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you. This shows a connection 
between the lungs and the heart. I am not sure how this is 
different from just an ordinary heart problem.
    Dr. Martin. I am sorry, in reference to COPD?
    Mr. Regula. Yes.
    Dr. Martin. Well, with COPD, although people with advanced 
COPD develop heart failure, and it is a complication, the vast 
majority of people with COPD die a slow respiratory death.
    Mr. Regula. Then it obviously would be connected with 
smoking?
    Dr. Martin. It is, and I think it does not always engender 
public support, when you consider a disease like COPD as being 
self-inflicted.
    Mr. Regula. Yes.
    Dr. Martin. But I would argue that every patient that I 
have ever taken care of with COPD acquired the addition to 
cigarettes when they were an adolescent, and typically under 
the age of 15.
    Mr. Regula. So that is the time to try to deal with the 
problem.
    Dr. Martin. Absolutely.
    Mr. Regula. I think you are right. It grieves me, when I 
drive past a high school, and I see these kids out there.
    Dr. Martin. Yes.
    Mr. Regula. You girls see that in your schools, do you not, 
and you wonder, why would you want to start? I do not know. 
Well, good luck to you.
    Dr. Martin. Thank you very much.
    Mr. Regula. Thank you, and we are sure glad to see you 
today.
    Dr. Martin. I bet. [Laughter.]
    Mr. Regula. The hearing is adjourned.
                                           Tuesday, March 27, 2001.

                    TESTIMONY OF MEMBERS OF CONGRESS

                     VARIOUS PROGRAMS AND PROJECTS

                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Our first witness this morning is Mr. Joseph 
Crowley from the State of New York, who has some interest in 
various programs and projects. We try to limit you to five 
minutes. Good morning.
    Mr. Hoyer. Good morning, Mr. Chairman. I want to welcome 
the distinguished representative from the State of New York, 
Mr. Crowley. He's one of our outstanding members.
    Mr. Crowley. I thank Chairman Regula and my good friend, 
Mr. Hoyer, but also the Ranking Member, Mr. Obey, for granting 
me this opportunity to testify before the Subcommittee on 
Labor, Health and Human Services and Education Appropriations, 
to discuss some of my key priorities.
    To best communicate the needs of my district, I would like 
to present my remarks in three specific parts. They are 
educational priorities, strengthening of public health 
infrastructure and improving the quality of life for the people 
of Queens and the Bronx in New York.
    Regarding education, I believe it is imperative that our 
society continue to invest in our children and in our public 
schools. I recently conducted a study of the schools in my 
Congressional district that documented how almost every child 
in the public school system is being taught in classrooms that 
are nearly 100 percent over capacity. Unfortunately, this 
situation is all too common in school districts throughout New 
York City, and unfortunately more so throughout our Nation.
    In these types of environments, the teacher's ability to 
teach becomes seriously altered. For these reasons, old 
teaching methods and techniques do not always prepare young 
teachers for real life situations that occur in inner city 
school classrooms every day. As a response, the City University 
of New York has launched a teacher empowerment zone, which is a 
major effort to improve teacher training programs.
    The program would create virtual classrooms with teachers 
teaching students to observe during the course of their study, 
in addition to other traditional learning tools. A student 
enrolled in the teaching program would have the opportunity to 
monitor a real classroom with the use of digital technology and 
at the end of the class period, engage in a dialogue with the 
teacher of the class to discuss the events that have occurred.
    One of the sites of the program would be at LaGuardia 
Community College, part of the City University of New York 
system. This school is centrally located at a transit hub that 
links Queens, the most ethnically diverse borough in the City 
of New York, with the world's center of finance, commerce and 
of arts. The College provides access to higher education and 
serves New Yorkers of all backgrounds, ages and means. For its 
part in the teacher empowerment zone, LaGuardia Community 
College has launched a major campus-wide initiative to expand 
the educational use of digital technology and is prepared to 
focus particular attention on the interlocking issues of 
technology in instruction and assessment.
    For this project, I am requesting $2.8 million. This money 
would be used to improve the infrastructure and provide the 
faculty development needed to advance this initiative.
    Additionally, funding would be used to improve and expand 
classroom connectivity, create links to local secondary 
schools, upgrade available software and enhance professional 
development programs. This is a worthwhile and creative program 
that deserves Federal assistance.
    To continue to build on our children's potential, I am also 
seeking assistance for the Queensborough Public Library to 
expand its Jackson Heights Queens branch. The Queensborough 
Public Library has the highest circulation of any library 
system in the United States, and spends more money per capita 
on books than any other major urban library system in our 
country.
    The funding I seek will not only expand the Jackson Heights 
branch, but will also provide greater access of materials to 
patrons, provide resources for new children's programs, and 
allow for more computers, offering free access to the 
electronic information.
    Furthermore, there is one more additional educational 
program I would like to touch on that I did not include in my 
prepared remarks. The Taft Institute at Queens College, which 
is also my alma mater, the Taft Institute was founded in 1961 
to honor Ohio Senator Robert Taft's exemplary record of public 
service and political courage. The Taft Institute is a non-
partisan enterprise dedicated to promoting informed citizen 
participation in the United States and around the world.
    In 1996, the Taft Institute chose Queens College of the 
City University of New York as the site of its national 
headquarters. This institute strives to reverse the mounting 
trend of citizen apathy and cynicism. Its programs reflect the 
conviction that true democracy requires that each new 
generation of citizens be committed to civic involvement. At a 
time when the high water mark of political involvement, the 
simple act of casting a ballot, scarcely reaches 50 percent, 
the need for such a program should be self-evident. Yet the 
unexamined, often unspoken premise persists that active 
citizenship will somehow emerge spontaneously in adulthood 
without prior learning or experience.
    The Taft Institute takes the opposite view. Responsible 
citizenship must be fostered from the earliest age. To thisend, 
the Institute has created a program of professional development to 
inspire and empower the teachers who will help to shape America's 
political future.
    Funding for Taft Institute programs comes from both public 
and private sources. While private sector funding has 
significantly increased in recent years, the Institute seeks 
new sources of support to continue and expand the innovative 
civic education programs essential to our country. Among its 
distinguished fellows would be our Speaker, Dennis Hastert, 
just to name one.
    I hope that we can work together for this important 
program, and I am therefore reaching out to this Congress and 
this Committee for $300,000 for this important institute.
    With regard to the health concerns of New Yorkers and all 
Americans, I want to inform the Committee that last Thursday, I 
sent a letter to President Bush requesting at least $25 million 
for the Centers for Disease Control. These funds would be used 
to monitor, detect and combat West Nile encephalitis, a disease 
that originated in my Congressional district, but has since 
spread throughout the eastern seaboard.
    I was pleased to be joined by 43 other Northeastern members 
of Congress in this effort to ensure that adequate attention 
and resources are provided to combating this mosquito-borne 
virus.
    Additionally, I will be asking the Committee to provide the 
needed resources to combat sexually transmitted diseases 
including HIV and AIDS. Here I urge a two-pronged attack, one 
globally based and one locally based. On the prevention side, I 
would appreciate if the Committee would highlight the need for 
funding of microbicide testing. Microbicides would fill a gap 
in the range of prevention tools because they are woman 
controlled and could protect against various STDs, not just 
HIV. These user controlled products that kill or inactivate the 
bacteria in viruses that cause STDs and HIV-AIDS are the only 
hope to prevent the transmission for many women overseas and 
even some here in our own country.
    Locally, I seek funding for an innovative program in my 
district to combat sexually transmitted disease, including HIV-
AIDS in the often overlooked minority community. While the rate 
of HIV-AIDS infections is decreasing in the white population, 
it has drastically increased in the African American and Latino 
populations.
    Finally, as the representative of the middle and working 
class districts in northwestern Queens and the southeastern 
Bronx, I would like to discuss some specific needs of my 
constituents. Among these needs are for the young adults of 
Queens and the Bronx. Therefore, I am working to secure vital 
dollars for additional computers for a job training center at 
the Queens Bridge Homes, America's largest public housing unit. 
In these uncertain economic times, these dollars are needed now 
more than ever to assure the support and strength of this job 
training and skill providing site.
    Oftentimes, public housing is seen as a trap of despair, 
but Queens Bridge is different. It has been successful in 
utilizing the full potential of residents to keep it safe and 
full of promise. I hope to build on the existing job training 
and educational center at Queens Bridge, so as to harness all 
the abilities of the people of this community.
    For my older constituents, I am working for two senior 
centers in my district that are in need of assistance. First, 
the Sunnyside Community Services Senior Center in Sunnyside, 
Queens, which seeks capital project funding to make their 
center both disability accessible and more senior friendly. 
While my office is working with them and the city and the State 
of New York for funding, a shortfall is expected, and I hope 
this Congress will be able to provide some funding for this 
important senior center.
    Additionally, I will be championing the cause of the 
seniors of North Flushing Senior Center, a center as familiar 
to Representative Lowey as it is to myself. Last year, a 
funding shortfall almost caused havoc at this important 
community organization. I hope that working together, we can 
ensure that meals are always provided and the good works of 
that institution will continue well into the future.
    There are a great many other needs in my community and 
throughout our global community for assistance. I thank you, 
Chairman Regula, for your time, and my good friend, Steny 
Hoyer, for being here and taking the time to listen to some of 
my priorities.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Quick question. The superintendent 
of New York, I heard him speak at a seminar, sounds like an 
impressive regime that he's installed. What do you think?
    Mr. Crowley. In terms of?
    Mr. Regula. The New York City school system. Is it Mr. 
Levy?
    Mr. Crowley. The chancellor. Yes, I think he's an 
impressive individual, and someone who has been able to work 
with not only both sides of the aisle, so to speak, but really 
work within all the different communities of New York. The one 
thing that he's been grappling with and we've all been 
grappling with has been class size, and the problem with school 
modernization and overcrowding, the lack thereof in schools.
    In my district particularly, we're faced with the fact that 
the average school age is 50 years of age, and one out of every 
two schools is 75 years or older.
    Mr. Regula. He mentioned it.
    Mr. Crowley. These are real problems. In Queens County, we 
expect to be between 30,000 and 50,000 seats shy by the year 
2007. So forget about a school building, there's not actually a 
seat for these young people to sit in. That's a real crisis 
that we're facing in the New York city public school system. 
But Chancellor Levy is doing all he can.
    Mr. Regula. Sounds like an interesting approach. Mr. Hoyer?
    Mr. Hoyer. I have no questions, I'd like to thank 
Congressman Crowley for obviously a very thoughtful 
presentation, dealing with a number of different areas of 
critical concern to his district, and frankly, to the country.
    Mr. Crowley. Thank you. Thank you both.
    Mr. Regula. We'll give you the forms, if you don't have 
them, to make a formal request.
    Mr. Crowley. Thank you very much.
                              ----------                              

                                           Tuesday, March 27, 2001.

                  EDUCATIONAL AND HEALTHCARE PROGRAMS


                                WITNESS

HON. BILL PASCRELL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula. Our next will be Mr. Pascrell of New Jersey, 
Education and Health. Summarize as much as you can. We have a 
long list today.
    Mr. Pascrell. Mr. Chairman, thanks for extending the 
courtesy to us, and members of this great Committee. Just a 
week ago, I was here with Thelma Thiel, if you remember, the 
President of the Hepatitis Foundation, and you were so kind to 
her, and I thank you for that.
    Today I want to talk about two subjects, education and 
health care, if I may. As a former teacher, I know the impact 
that large classroom sizes have on student performance. The 
quality of our children's education is largely dependent upon a 
strong teaching work force.
    According to the United States Department of Education, the 
Nation will need 1 million new teachers by the year 2010. 
Similar to what's happening to teachers is happening to nurses 
in America, as you well know. The looming shortage is already 
creating problems for school districts across the country.
    Even in advance of the peak of the shortage, school 
administrators are already reporting tremendous difficulties in 
recruiting qualified teachers. We can't get science and math 
teachers, they're moving into other areas that are obviously, 
will put more money in their pocket, to be very honest with 
you.
    While this is certainly a national problem, New Jersey, Mr. 
Chairman, particularly is plagued by the mass exodus of 
qualified teachers who are retiring. We rank among the top five 
States in the Nation for projected growth, however, in the 
student population.
    The number of high school graduates in the State is 
expected to increase by 25 percent in the year 2008. That's not 
a long way off. Mr. Chairman, the numbers do not tell the whole 
story here. Unless the new members of the teaching force are 
well educated, well prepared and unless current teachers' 
knowledge and skills are updated and honed, our Nation's need 
for quality educators will not be met.
    A compelling and growing body of research shows that the 
single greatest determinant of student achievement is teacher 
quality. New and experienced teachers alike are educating an 
increasingly diverse population with many different languages 
and cultural backgrounds.
    Mr. Regula. If I could interrupt you there. If you had a 
priority choice between more pay, upgrading skills versus 
reducing classroom size, assuming you can't do both, which 
would you opt for?
    Mr. Pascrell. Qualified teachers.
    Mr. Regula. That's my inclination, too, that that's number 
one, is to have qualified teachers.
    Mr. Pascrell. I can recommend a book, and I don't want to 
take more time, Mr. Chairman, you've been more than fair with 
me, but the book, Thomas Jefferson's Children, excellent book 
on education, provides reforms that are succinct and we can all 
understand. I recommend it.
    Mr. Regula. Thank you.
    Mr. Pascrell. Schools of education must meet the needs of 
this diverse student population and the needs of our 
technologically advancing world. That's why we wired our 
schools. The university in my district has been working on this 
problem. Montclair State University, 90 years in business, has 
built a nationally recognized teacher education program. 
Currently, Montclair graduates approximately 300 teacher 
candidates a year. It also turns away hundreds of qualified 
students each year, because of an acute shortage of space at 
the university.
    To alleviate this problem and to help the State and the 
entire Nation create more teachers, Montclair State is building 
a $45 million center for teacher preparation and technology. 
State of the art, authentic, not money thrown to the wind. The 
new center will allow the university to increase the number of 
teacher candidates it graduates each year by 60 percent. It 
will also allow the university to increase the number of 
masters degrees it awards to teachers already in the field, a 
critical component of teacher retention.
    While increasing in number of teachers, the center for 
teacher preparation and technology will make certain these 
teachers are competent in incorporating instructional 
technology into their teaching. This center will include 
interactive distance education equipment, wireless technology, 
full internet access and applications and hardware to keep 
track of student progress more effectively. This is supported 
bipartisanly, Mr. Chairman.
    Montclair State will receive $5 million from the State of 
New Jersey. It is asking Congress for $5 million to complete 
this critical project. And the rest of the money will be raised 
by the University itself.
    There are numerous pieces of legislation that call for an 
increase of teachers in the coming years. I believe, Mr. 
Chairman, this is a good project. I ask the Committee to take a 
look at it. Ask me any questions if you will. I think it's 
worthy, because it goes to the very heart of what we're talking 
about in education.
    The second project is a 21st Century institute for medical 
rehabilitation research. During the last cycle, my colleagues, 
Frelinghuysen, Payne, Rothman and Andrews and I asked this 
Committee for $3.9 million. Congress provided $775,000 of that 
amount. I'm here today to ask for the remaining funds, Mr. 
Chairman.
    This Committee has long recognized the extraordinary value 
and promise of medical research. You have demonstrated that 
time and time again with your support for increases in funding 
to NIH. All Americans should be grateful for this action as you 
are bringing all of us new hope for key breakthroughs in 
medicine and treatment.
    Up until now, this area has not seen the kinds of increases 
that many others have enjoyed and the need remains substantial 
in the area of rehabilitation medicine and research. One of the 
premier institutions in the country in the rehabilitation 
research field is in my district, the Kessler Medical 
Rehabilitation Research and Education Corporation, and the 
Kessler Rehab Hospital are widely regarded as leaders 
nationally in rehab medicine, treatment and research. Much more 
can and must be done to accelerate and build on the work which 
is already underway.
    So several years ago, the Kessler organization decided to 
create a new and unique effort in the United States. This was 
it, this was pro forma for the rest of what has happened since. 
Last year, your Subcommittee recommended funding for this 
effort. I'm deeply grateful, Kessler is deeply grateful.
    One area of rehab that I am particularly involved in, and 
interested in, we've done work in other areas, is the traumatic 
brain injury. We now have a registration list which is very 
critical. Kessler is dealing with this problem, Mr. Chairman. 
Two million Americans experience a traumatic brain injury every 
year. Two million. About half of these cases result in at least 
short term disability.
    Eighty thousand people sustain severe brain injuries, 
leading to long term disability. Most people with a brain 
injury must experience some type of rehab in order to function 
in their daily lives. So Mr. Chairman, to make a long story 
short, I ask for these two projects, and I think they're worthy 
projects, and I've come to the right Committee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, we'll probably get a better estimate of 
that later in the year. [Laughter.]
    Thank you. Is Kessler tied with NIH in any way?
    Mr. Pascrell. Yes, much of the dollars comes from NIH. It's 
probably the premier institution in the country.
    Mr. Regula. So it works with them?
    Mr. Pascrell. A lot of breakthroughs, Mr. Chairman.
    Mr. Regula. Your education institution that you mentioned, 
is that a State university?
    Mr. Pascrell. Yes. Montclair State University is a State 
university.
    Mr. Regula. Mr. Hoyer.
    Mr. Hoyer. No questions. Thank you.
    Mr. Regula. Thank you for coming.
    Mr. Pascrell. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, March 27, 2001.

           NATIONAL CENTER FOR INJURY PREVENTION AND CONTROL


                                WITNESS

HON. MICHAEL HONDA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Honda, we're ready for you. Glad you came.
    Mr. Hoyer. Mr. Chairman, as you know, Mr. Honda is one of 
our newer members, but a very experienced member, a 
distinguished member of the general assembly in California, and 
does an outstanding job.
    Mr. Honda. Does that mean I get a raise?
    Mr. Regula. Do you take any responsibility for the rolling 
blackouts?
    Mr. Honda. No, not yet. I take the responsibility of 
helping, though.
    Mr. Regula. It's a tough issue out there.
    Mr. Honda. Yes, it is. Not to be funny, though, there may 
be light at the end of the tunnel.
    Mr. Chairman, thank you very much for allowing me to 
testify here. I want to thank Mr. Hoyer for acknowledging my 
presence also.
    Distinguished members of the Subcommittee, thank you for 
this opportunity to testify today. I'm here to respectfully 
request your assistance on a very important initiative that 
affects millions of Americans. Specifically, I'm asking you to 
consider an additional $1.5 million for the National Center for 
Injury Prevention and Control at the Centers for Disease 
Control and Prevention, to address a very important topic, 
sleep deprivation and fatigue related injury.
    I think many people smile when they hear the term sleep and 
fatigue, because they probably just pooh-pooh it and say that 
it's something that doesn't seem to be very important.
    Mr. Regula. We had a public witness, an M.D., that spoke at 
length about that, runs a couple of clinics back in Ohio.
    Mr. Honda. Right.
    Mr. Regula. So it is, and I think the NIH has done some 
work, is doing work on the impact.
    Mr. Honda. Right. We just need to do more work in the 
public domain to sort of raise the issue. I appreciate this 
opportunity.
    Sleep represents a third of every person's life. It has a 
tremendous impact on how we live, function, perform, and think 
during the other two-thirds of our lives. Lack of adequate, 
restful sleep has serious consequences at home, in the 
workplace, at school and on the highway. Untreated sleep 
disorders, of which there are more than 80, and sleep 
deprivation contributes to injuries, impaired work 
productivity, academic performance, reduced quality of life, 
poor health and even death.
    As a teacher, a school principal and school board member, I 
have seen sleep deprivation as a growing problem for high 
school students, the largest at-risk group for fall-asleep car 
crashes, as well as being a factor in causing car accidents for 
parents, transportation workers, police officers and medical 
residents.
    According to the National Sleep Foundation, the direct or 
indirect cost to the United States economy due to sleep 
disorders and sleep deprivation are estimated to exceed $100 
billion each year. As someone with a sleep disorder myself, I 
know these problems all too well. I am one of the approximately 
40 million Americans who suffers from chronic sleep disorder. I 
was diagnosed with obstructive sleep apnea, which is a very 
common sleep and breathing disorder that affects at least 12 
million Americans.
    Each time a person with sleep apnea stops breathing, 
sometimes up to 400 times a night in severe cases, and I was 
one of them, the brain awakens the person just enough to get 
them breathing again. What I learned is that when you stop 
breathing, the chemistry of your blood changes, and it clicks 
off in your brain to say, wake up, dummy, wake up.
    That's when you hear folks just gasping for breath in the 
middle of the night, and then they continue to sleep. This 
allows them to go into deep sleep, what they call REM, where 
they get that rest, but they continue to appear to be sleeping, 
to get their rest, but they don't get that deep rest.
    This not only affects the quality of a person's sleep and 
daytime functioning, but it leads to very serious health 
problems. Untreated sleep apnea has been linked to 
hypertension, cardiovascular disease, diabetes, depression, 
memory problems, obesity and other serious problems.
    I am very lucky, because unlike most undiagnosed Americans 
with sleep disorders, I have a nationally recognized physician, 
Dr. William DeMent, who was able to treat my sleep disorders. 
And the diagnosis and proper sleep treatment definitely has 
improved the quality of my life immeasurably. I say, Mr. 
Chairman, that it's a malady that can be cured overnight.
    While public awareness is desperately needed, a strong 
Federal partner with expertise and ability to disseminate 
tested and proven education training and injury prevention 
programs to communities throughout the Nation is needed even 
more. The CDC can help us address the comprehensive and complex 
health and safety problems related to sleep issues by 
developing a sleep awareness action plan that would set 
national priorities around sleep issues in public health and 
safety.
    This five year sleep awareness action plan would develop 
the evaluative research including daily collection through the 
National Center for Injury Prevention and Control and others at 
the CDC. The research would include an attempt to validate or 
improve existing surveys and survey methodologies regarding how 
sleep deprivation problems are related to the on the job 
injuries, highway crashes and other medical conditions, such as 
diabetes, heart disease, cancer and obesity.
    The data from this research will allow the CDC to devote 
accurate educational material and model prevention and health 
promotion programs to provide to States as they address these 
important issues. This information will begin to turn the tide 
of injuries, health programs and costs associated with 
sleepiness and sleep disorders.
    So as I sit here today, I'm happy to report that I am 
feeling fine. But I want all of you to know that it has taken 
hard work with my doctor, reprioritizing with my family and my 
life. I hope that you all take the time you need to get the 
quality sleep you need every night. As a new member of 
Congress, I am quickly learning that our schedules are so 
packed and our days are so long that you are probably not 
getting all the sleep that you need, but getting sufficient 
sleep should not be optional.
    I just want to close by thanking you for the opportunity to 
testify today, and I look forward to working with the group and 
providing myself as a personal testimony to the issue of sleep 
disorders and fatigue, as it relates not only to adults and 
sleep disorders, but also fatigue as it relates to young people 
who are coming to a point where, especially seniors that are 
coming to graduation. We see too many youngsters who fall 
asleep at the wheel because of fatigue. It doesn't have to be 
disorders, it's just our attitude toward sleep and sleep 
deprivation.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think you're suggesting that CDC needs to do 
a major public information campaign to make people aware that 
this is a problem that's curable.
    Mr. Honda. That's correct. Succinctly put, Mr. Chairman. 
We're looking for support of $1.5 million.
    Mr. Regula. We're going to be visiting there next week, so 
it will be a good question for us to raise.
    Mr. Hoyer, questions?
    Mr. Hoyer. No, I have no questions. Thank you, Mr. Honda.
    Mr. Regula. Thank you for coming.
    Mr. Honda. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. ROBERT FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Filner.
    Mr. Hoyer. I pledge to Mr. Filner that I will read every 
sentence of your statement.
    Mr. Filner. I just want you to give me the money. 
[Laughter.]
    Mr. Regula. Welcome, Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. And we all appreciate 
your--and the staff and as many members as possible--sitting 
through and listening to all these requests. We do appreciate 
it and thank you so much.
    I bring forward to you two proposals that are important to 
my district, my constituency, but I think also serve as models 
for broader application to similar situations in other parts of 
our Nation. First is a $3.9 million appropriation for Paradise 
Valley Hospital to create what is called a complementary 
medical center, and therefore address health needs of a 
minority population that is often overlooked. Your Committee 
provided about $700,000 for this center in the last 
appropriation. This would allow them to actually set up and 
begin services in this complementary medical center.
    It would be a unique showcase of how public and private 
health care enterprise can cooperate, because it would provide 
needed specialty care to an under-served community which then 
could be replicated throughout the country. What we have in 
Paradise Hospital is the only community hospital in our county. 
It serves not only the whole county, but it is located in the 
fourth poorest city in California, National City, one of the 
cities I represent. In fact, the thirteenth poorest city in the 
Nation.
    And it is truly a safety net provider, but has not been 
able to provide the kind of complementary health care that 
wealthier medical centers can.
    Mr. Regula. Is this a non-profit or a city facility, or 
State?
    Mr. Filner. It's a non-profit hospital, but it's a private 
hospital. It's in the Adventist medical chain of facilities.
    As I said, the complementary nature or the complementary 
medical techniques have been available to wealthier 
communities, but have never really been given in a holistic way 
or in a very comprehensive way to disadvantaged populations. 
What we have in mind here is to showcase that when these 
services are provided to even poorer communities, they will 
have a very much enhanced medical care and in fact save us, of 
course, as a Nation, money in the long run.
    So again, you have provided some startup money for this in 
the last appropriation cycle. The money that I would ask for 
now would allow them to actually set up the center.
    In my second request, I am joined by my colleague, 
Congresswoman Susan Davis from San Diego. We are asking that 
the senior community center of San Diego be funded for a 
demonstration program, $250,000 for Title IV of the Older 
Americans Act, to establish a demonstration project entitled 
Health Promotion/Harm Reduction.
    What this is for is seniors, a growing number of seniors, 
who have emotional or mental health problems, to help them 
before they get more seriously ill or in fact, thrown out on 
the street into homelessness. The only organization in San 
Diego to provide at-risk seniors is the senior community 
centers. They have shown in an 18 month test that if they 
provide intensive case management services in conjunction with 
nutrition services, the self-reliance of this population is 
greatly increased.
    So with just $250,000, they think they can in fact decrease 
emergency medical interventions, reduce medical costs to our 
community, get early treatment of illness and thus allow 
seniors to have an independent and healthy lifestyle.
    These are two areas, again, for San Diego, mainly in poor 
communities for a population that is under-served, as you well 
know.
    Mr. Regula. Is the senior unit a private, non-profit?
    Mr. Filner. It's a non-profit also.
    Mr. Regula. It's not operated by your senior groups?
    Mr. Filner. It's not operated by the city government. It's 
a private non-profit.
    Again, these services, we believe of course not only will 
help our specific population, but serve as good models for 
other places in the country.
    So that's what I have before you, Mr. Chairman. I thank you 
for the time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for bringing this to our attention.
                              ----------                              

                                           Tuesday, March 27, 2001.

                IMPACT AID AND CROHN'S AND LYME DISEASE


                                WITNESS

HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. The next witness is Representative 
Congresswoman Sue Kelly from New York. Sue, on Impact Aid, 
Crohn's and Lyme Disease.
    Ms. Kelly. That's a polyglot, isn't it?
    Mr. Regula. You have quite a list.
    Ms. Kelly. I brought this map, because I want to show you 
this map. This map shows you the area, actually, of West Point. 
And this little tiny strip, this little tiny strip outlined in 
red right there, this all belongs in one township. This little 
tiny strip of land, which represents about not quite 7 percent 
of all of the land in this----
    Mr. Regula. It's the Hudson River, I assume.
    Ms. Kelly. This is the Hudson River. Right there, bounded 
by the Hudson River, that's all the land that this township has 
that they can use for any kind of tax purposes at all to 
support the school system. This is the most highly impacted 
school system in the Nation, here at West Point.
    Mr. Regula. Is that all West Point?
    Ms. Kelly. This is all West Point.
    Mr. Regula. How many acres would be in that?
    Ms. Kelly. West Point? I don't know. I should know. I'm the 
Vice Chairman of the West Point Board, I should know, but I 
don't. [Laughter.]
    But the thing I'm trying to point out here is that these 
people can't grow. This is mountain in here. So they have 
mountainous areas in here, they have the river over here.
    Mr. Regula. Is that a school district?
    Ms. Kelly. There is a school district here, and the 
students who are taught in grade school on the Point come out 
into this school district for their high school.
    Mr. Regula. So the Point doesn't operate a high school?
    Ms. Kelly. It doesn't operate a high school, a junior high, 
high school. They come out into this district for their high 
school.
    Mr. Regula. That would be all the personnel that operate 
it.
    Ms. Kelly. All the civilian and military personnel. And 
remember, this is an active base as well. All those people send 
their kids out here into this little area to this high school.
    Years ago, this high school was properly funded. And I'm 
talking about Section 8002. This is the most highly impacted 
district in the Nation. We've got to have our Impact Aid. 
Because years ago, we can get a copy of that for you if you 
want. Years ago, this was fully funded and we had enough 
funding coming in there to help the school district. When I was 
elected, that school district was teaching social studies out 
of a book that stopped at the Vietnam War. That was six years 
ago.
    These kids had very old books, they had teachers that were 
leaving, their teachers hadn't had any advanced training, the 
school buildings themselves were in terrible shape. And this 
school district was a threatened school district. There it is, 
sandwiched between the Point, the river and mountains. They 
can't grow, they've got nothing to tax. They need our help.
    We've got to have that money that we had, at least what we 
had last year if not more. We really do need an increase. But 
since we've been working----
    Mr. Regula. Does that go out by formula?
    Ms. Kelly. Yes, it goes out by formula. I'm just trying to 
locate it and see.
    Mr. Regula. Does it depend on the per capital wealth of the 
district as to how much they get?
    Ms. Kelly. You can imagine, if it's a military base, you 
know the state of what the military gets paid.
    Mr. Regula. On the portion that they tax. Do you use real 
estate taxes in New York for schools?
    Ms. Kelly. We use real estate taxes for schools, but 
there's no place to tax. This is very, there's only so much of 
that land you can use, because people live there, too. There's 
housing.
    Mr. Regula. What I'm getting at is, the Impact Aid is 
predicated on the amount of available tax revenues within a 
district. So Impact Aid would vary from place to place 
depending on the wealth of the district that's involved. What 
you're saying is you need more, either change the formula or 
more money to this district.
    Ms. Kelly. I need more money in this district. We need a 
better formula for taking--now, there's 8002, which is land 
based, and I'm talking about land based right now, because----
    Mr. Regula. Staff tells me you went from 32 million to 40 
million last year. So apparently we do control in the Committee 
the macro amount that goes to each of the districts.
    Ms. Kelly. You do, yes, absolutely.
    Mr. Regula. That's what I was trying to determine, is it 
formula, and the answer is no. It's just a judgment call.
    Ms. Kelly. Well, correct me if I'm wrong, sir, but I think 
perhaps there is a formula for one part of this. It's the per 
capita student part that has a formula. Then the part I'm 
talking about does not.
    Mr. Regula. Kind of an enrichment.
    Ms. Kelly. It is something to make up for the fact that the 
land was taken by the Federal Government. The Point didn't used 
to be that large. But for one reason or another, during the 
various wars, they've added land in because they need it for 
training. And as they've added land in, endingit for training, 
they've eaten into the township.
    Mr. Regula. Does the Point train any other than cadets? Do 
they have other training facilities there? You mentioned that 
it was more than just a military academy.
    Ms. Kelly. It's an active Army base as well.
    Mr. Regula. That's what I'm saying, do they train troops 
there?
    Ms. Kelly. I don't know if we train--we train specified 
things. They run mountaineering courses, they do some other 
things. Plus they have some, if I remember correctly, I know we 
have a mint there, there's a number of Federal activities that 
are going on at the Point and a lot of people working there and 
living there on the Point.
    The thing is, what we got last year wasn't even 50 percent 
of what basically we are entitled to under what we were 
promised when the Point's land was taken, when the Point took 
our land. So from an Impact Aid standpoint, we really, I really 
need to help these people. Because what's happened, because we 
got that increase, we now have teachers who are coming back 
into the district. We are training the teachers, we have bought 
new books, there's a social worker to help the kids, which 
we've never had before, and we really need not only that, but 
the school has a new roof over part of it, so that now they can 
use that part of the school. It was really raining in.
    So it's not money gone to waste. It's good money, we need 
to do it. And we really need to have a full funding. I'll take 
50 percent, that's $62 million, but it's the second step of a 
promise that we have made in the past to this school district. 
And Impact Aid all across the Nation needs our help. But this 
is the most highly impacted district in the Nation.
    I want to go quickly to a couple of other things that I 
have on the ticket here. Because we can talk further if you'd 
like about the Impact Aid. I want to talk about Crohn's 
disease. Crohn's disease is an inflammatory bowel disease.
    Mr. Regula. We had some public witnesses on that. Not here 
today, but in the past couple of weeks.
    Ms. Kelly. It encompasses a whole group of diseases. 
There's about a million people in the United States who have 
this disease. It is economically and physically debilitating 
for people. I know about that, because my daughter has Crohn's 
disease.
    Mr. Regula. You're asking for more money on research on 
this?
    Ms. Kelly. I want you to designate more money to research. 
I know you can't tag it that way, but I'd like report language 
that really strongly recommends NIH do something to put more 
money into research for Crohn's. It's on the increase, and it 
is very debilitating. People who have Crohn's disease have the 
option of losing a part of their intestine or sometimes all of 
their intestine. The disease can come from your mouth to your 
anus.
    It blocks off your ability to allow food to get through 
your gut, and then what happens is you go, what happens to a 
lot of people with Crohn's disease is they get sick, they have 
an operation and they lose a piece of something. They are fine 
for a while, they get sick, they have an operation, they lose 
another piece of something. Pretty soon, there's not much left 
between their mouth and their anus, and they live with a 
feeding tube if they live at all.
    It's a very serious disease, it's on the increase, and we 
are paying very little attention to the people who have Crohn's 
disease. We need to give them some hope and we need to do some 
research. I hope that you will think about putting some strong 
report language in about that.
    Mr. Regula. We will have NIH before us, and your concern is 
that we just get more money into research to try to find cures.
    Ms. Kelly. There are some interesting ideas about cures. 
Dr. Crohn actually lived in my district before he died. And he 
is the person who identified this disease that was killing 
people and no one knew what it was. But from his 
identification, from that point onward, there's been very 
little attention paid to it. It's one of these diseases that 
people just simply don't pay a lot of attention to.
    Just like Lyme disease, which is the other thing that 
brought me here today. I could talk about a couple of other 
things, like juvenile diabetes and so forth. But Lyme disease, 
the epicenter of Lyme is in my district. So I'm here for three 
causes: Impact Aid, which I care ardently about; Crohn's 
disease, which is in my family; and Lyme disease, which I have 
had. We are in the epicenter of it, we need to have----
    Mr. Regula. Is this the deer----
    Ms. Kelly. Deer ticks, yes. And we have some ideas about 
what we can do to stop the transmission of Lyme. We need money 
for research. We have come up with a vaccine that works, but it 
doesn't work on people over 60 or under 10, as far as I know, 
from what their research has shown. So we can't vaccinate our 
very young. And it's a debilitating disease. Many people are 
left permanently disabled because of Lyme disease.
    So from a long range standpoint, it's a very expensive 
disease.
    Mr. Regula. It's tick-borne, and the deer is the host?
    Ms. Kelly. The deer are a host for the tick. The tick is 
actually the host of the spirochete that causes the disease. 
There is now three identified diseases, but it's only the deer 
tick I'm talking about. There's also the reketsial diseases 
that are borne by dog ticks. That's the Rocky Mountain spotted 
fever and so on. We have cases of Rocky Mountain spotted fever 
that have been on Long Island last year. It used to be only in 
the Rocky Mountains. Now that is spreading.
    We need research on tick-borne diseases, both reketsial 
diseases and the spirochete diseases, because we don't 
understand completely how to stop them. And they are walking 
right straight through our Nation.
    I'm chairman of the Lyme Disease Caucus. We have a number 
of people, I've had several of our colleagues come up to me on 
the Floor saying, let me get on your caucus, my wife just got 
Lyme disease, because it is very prevalent in the midwest, it's 
prevalent on the coast and in the mountainous areas and the 
Rocky Mountains and out in California and Oregon and 
Washington. But it's most prevalent, and the epicenter is in 
the northeast. We need your help.
    Mr. Regula. I remember you telling me about it. It doesn't 
seem to have impacted in Ohio yet, but it will probably get 
there.
    Ms. Kelly. That's perhaps because the doctors don't know 
how to identify it. One of the biggest problems we have is that 
doctors don't understand what they're looking at. They know 
they have a disease and they can treat it with a broadspectrum, 
heavy duty antibiotic, and sometimes if it's a mild case, it will knock 
it out. And they think, well, didn't quite identify it, but I got it. 
So the patient is better.
    Part of what we need to do is use this money for educating 
the doctors and the other part for doing the research needed to 
stop the disease itself. We can do it.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Mr. Sherwood.
    Mr. Sherwood. What's the name of the school district?
    Ms. Kelly. The name of the school district is Highland 
Falls School District.
    Mr. Sherwood. What's the annual budget?
    Ms. Kelly. I don't know if I have it. I'll have to get back 
to you, because I don't remember.
    Mr. Sherwood. Do you have the cost per student per year?
    Ms. Kelly. I can give you a cost per student per year. I 
can also give you a per student, how much the Impact Aid means. 
We're talking about over a million dollars to this school 
district. And if we don't get it, that school district will 
fold.
    Mr. Sherwood. You mentioned $62 million.
    Ms. Kelly. Because this is what we've been asking for. This 
is the second step in what we had asked for originally and got 
started on. And a ten year program to bring the section 8002 
funding into its full funding level. And that's only 50 percent 
that I'm asking for.
    Mr. Sherwood. But did you use the term $62 million?
    Ms. Kelly. I did, yes. We need to have the funding next 
year. We need to have the funding next year at $62 million, 
because this is what the school district has got to have.
    Mr. Sherwood. You mean that's their total budget or what 
you're asking for under Impact Aid?
    Ms. Kelly. No, this is for the total Impact Aid. Our school 
district gets a piece of that. But what we haven't had is 50 
percent funding. We need to get it fully funded. Any one of us 
who represents an impacted district knows full well that 
without that funding, we're going to go down the tubes with 
these school districts. Since we have a President who's 
dedicated to education, we want to fund these schools. We need 
to.
    Mr. Sherwood. But doesn't the State of New York fund their 
participation in your school district on the wealth effect? In 
other words, the smaller your tax base, the higher percent you 
get from the State? That's the way it works in Pennsylvania.
    Ms. Kelly. We get some aid that way, but we have not gotten 
the school building aid that we needed. There's just not enough 
money to--we have New York City, as you know, that eats up the 
majority of our funding for our education budget. So we have 
not had that much. The people in this town, if you look at 
their income, this is not a wealthy town. It's a very, very--I 
hesitate to say low income, but it's lower middle income folks 
who live there. These people are people who are living on 
Government salaries because they work for West Point, they're 
the people who are the teachers at West Point or they're 
working on the base, and these are guys and women who are, you 
know, they're taking Government salaries. They don't have a lot 
of resources. And they don't have the money to put into the 
school itself, and there are not a lot of wealthy people who 
live in the surrounding area to put taxes in.
    Mr. Sherwood. Is there a local elected school board that 
makes the financial decisions?
    Ms. Kelly. We do have a local elected school board that 
makes those decisions, yes.
    Mr. Sherwood. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Cunningham, any questions?
    Mr. Cunningham. Mr. Chairman, thank you. I'd just make a 
comment. I've worked with Ms. Kelly even when I was chairman of 
the Education Subcommittee on Authorization. I went to that 
area. Matter of fact, if you haven't made a trip to, West Point 
itself is underfunded, the military academy, compared to the 
other academies. If you look at the area around, she's not 
exaggerating. Impact Aid is critical to her particular 
district, more so than I think a lot of districts. Maybe not so 
much as mine----
    [Laughter.]
    Mr. Cunningham [continuing]. But it is important. Having 
visited the area, it is, Impact Aid is very important to that 
area.
    Ms. Kelly. I thank you. Mr. Cunningham has worked very 
carefully with me, because he has been there, he's driven 
through the trailer parks that these people live in, and he 
knows full well that it's very important for us to get----
    Mr. Regula. The trailer parks are on the West Point campus?
    Ms. Kelly. Not on the campus, sir, but they're outside in 
Highland Falls. That's where these folks can afford to live.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                           Tuesday, March 27, 2001.

                               IMPACT AID


                                WITNESS

HON. MARK STEVEN KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. Mr. Kirk from the State of Illinois, Impact 
Aid. We've heard that subject discussed here.
    Mr. Kirk. Thank you, Mr. Chairman. I'm here to basically 
underscore the point. I sit here as the successor to John 
Porter, so I with some trepidation testify before this 
Committee.
    Mr. Regula. You have Great Lakes, then, don't you?
    Mr. Kirk. I do. And I used to be sitting on the seats in 
the back row there very recently. So to be here is a real 
honor.
    For me, in our Congressional district, as far as the United 
States military in the midwest, we're about it. But boy, are we 
it. If you join the United States Navy, you're coming to the 
Tenth----
    Mr. Regula. I spent some time in Great Lakes. Very familiar 
with it.
    Mr. Kirk. And now that all naval training is being 
concentrated there--well, we didn't steal it, we bought if fair 
and square. For us, now, at Great Lakes, we expect the recruit 
population will go from 50,000 to 70,000 in the coming four 
years. So as a member of the military family, it is only 
growing in our district.
    Mr. Regula. Is that the only one giving boot camp now?
    Mr. Kirk. That's it.
    Mr. Regula. For the whole USA?
    Mr. Kirk. For the surface fleet, right.
    With me is the actual superintendent of the district, 187 
school district, Dr. Patricia Pickles. Mr. Chairman, with your 
permission, if I could have Dr. Pickles join me up here.
    Mr. Regula. Okay.
    Mr. Kirk. I actually stand in awe of Dr. Pickles and what 
she went through. As the Impact Aid situation worsened about 
four years ago, this Subcommittee rescued the program, and 
specifically district 187. We were looking at scenarios in 
which we would have to close down schools in north Chicago and 
send, bus the students to schools in surrounding school 
districts, which would have made no sense, because we had a 
perfectly functioning good school infrastructure there.
    But the structure of education funding did not allow us to 
meet the needs of the students. In our 187 school district, 
several others were approaching over 30 percent of the students 
coming from military housing. So this program is essential for 
our very survival, and will become increasingly essential. As 
Great Lakes expands its impact on all of the surrounding school 
districts will grow.
    I have a detailed statement, which with your permission----
    Mr. Regula. All the statements will be part of the record.
    Mr. Kirk. I would just like to underscore a couple of key 
points. The military family that we know, I just left the fleet 
last year, so for me, I'm coming straight out of that 
environment. My last tour was in Operation Northern Watch. For 
us, we have seen, Charlie Muscow is a great academician at 
Northwestern University, who studies the cultural divide 
emerging between the active duty military and the civilian 
world, it's really expanding. And we see that in the kids.
    For us, we are expecting that about 50 percent of the 
recruits coming into today's military are from military 
families. So the children of the men and women who protect us 
today will be the people who protect our children tomorrow. 
With all of this concern about military pay, health care, 
housing and benefits, I would suggest we add one key component. 
And that is Impact Aid for military education.
    I made this point very forcefully with Secretary Rumsfeld, 
who is actually also the Congressman from our district. He 
represented our district in the 1960s. And with Secretary 
Paige, who made a very forceful statement in favor of Impact 
Aid before the House Budget Committee. That's the key point 
that I want to make, that these young leaders in these impacted 
schools will most likely be the military personnel of the 
future. That point needs to be made to support this program.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Does Great Lakes impact on a number of school 
districts?
    Mr. Kirk. It does. For us it's North Chicago, Waukegan, 
Highland Park, Glen View, Lake Forest.
    Mr. Regula. And they all get a piece of the Impact Aid, 
then?
    Mr. Kirk. They do, but let me hand it over to Patricia. She 
has one of the, probably the most heavily impacted districts in 
the country.
    Ms. Pickles. Most of the students do attend North Chicago 
Public Schools, district 187, 35 percent of our student 
population----
    Mr. Regula. Thirty-five percent of your student population 
is military?
    Ms. Pickles. Thirty-five percent.
    Mr. Regula. So Impact Aid is an important part of your 
budget?
    Ms. Pickles. Very important part. Over 72 percent of our 
student population qualifies for free and reduced meals. With 
that 35 percent, more than 200 of those students are identified 
as needing special needs, so they need special education, which 
is an additional burden in terms of cost. And as the 
Congressman stated, almost 10 years ago, our district almost 
dissolved because we didn't have the funds to support them due 
to the Federal presence.
    So we dearly need Impact Aid.
    Mr. Regula. All right, thank you. I know it's a tough 
situation, you heard Ms. Kelly.
    Mr. Kirk. As you all know, Chairman Porter spent a lot of 
time on this. It was no accident. And for us, I would expect 
that the size of the military under this Administration will 
grow. It's already growing in my district, so it's under those 
concerns that we look forward to supporting your legislation 
and supporting the program.
    Mr. Regula. Thank you.
    Mr. Kirk. Thank you.
    Mr. Cunningham. Mr. Chairman, could I ask one real quick 
question on it? San Diego does have a lot of military, as well 
as important in Impact Aid. You alluded to, as far as the 
special education, we have a hospital called Balboa there. Many 
times, military families seek orders that are close to those 
hospitals, because of their children and special education. Is 
that one of the reasons that military families are drawn there, 
because of the medical facility?
    Mr. Kirk. Yes, we are not only home to the Great Lakes 
Naval Hospital, we're also home to the North Chicago VA Medical 
Center, which, if you look at the morbidity and mortality 
statistics among DOD and military related health care 
facilities, is one of the best in the country. The taxpayers 
spent about $110 million there to bring that facility up to the 
state of the art. And that is an enormous attractive factor.
    What we've seen now, and it's just like, I just got off 
Dakani so I know the attractiveness of San Diego. But 
similarly, in northern Illinois, people like to, when they 
leave the service, remain with us. And it's because of those 
services.
    Mr. Cunningham. I know my sister-in-law just testified 
before the committees in charge of special education in San 
Diego City. I think it would be good to do a study on the 
relationship of military families, special education and Impact 
Aid, how it really affects the entire community.
    Mr. Kirk. Right.
    Mr. Cunningham. Because the original intent is to make sure 
that it didn't, with Native Americans or the military, and it 
does. So it's an area in which I think all of us, Republicans 
and Democrats, support. I don't see why we can't help. I don't 
know if we can help as much with budget, but I think we could 
do that.
    I was sworn in at Glen View Naval Air Station and I coached 
football at Insdale. So I'm very familiar with the area.
    Mr. Kirk. Gosh. Well, Mr. Chairman, as you know, since the 
military most likely will be growing, this program is one of 
the pieces of glue that allowed the community to welcome the 
military family and expansion in our districts. If expansion of 
Great Lakes means bankrupting the local school districts, we've 
got a problem on our hands.
    So thank you.
    Mr. Regula. Thank you. Mr. Sherwood, any questions?
    Mr. Sherwood. No, thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            HEALTH PROJECTS


                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Next is Mrs. Woolsey from California. Any park 
issues today?
    Mrs. Woolsey. No park issues today, no, but there will be 
in the future, I can assure you.
    Mr. Regula. I'm quite sure.
    Mrs. Woolsey. Speaking of Impact Aid, that affects Park 
Service personnel also.
    Mr. Regula. True.
    Mrs. Woolsey. Thank you, Mr. Regula, for hearing me again, 
and thank you, members of the Committee, for giving me the 
opportunity to talk about five excellent education and health 
projects in my Congressional district.
    Some of you, well, you, Mr. Regula, Mr. Chairman, you heard 
my constituent, Dr. Sushma Taylor testify last week about 
Center Point, a non-profit comprehensive drug and alcohol 
treatment center. Center Point is one of a very few full 
service drug and alcohol treatment centers that provides 
comprehensive social, educational, vocational, medical, 
psychological, housing and rehab service.
    Mr. Regula. Do they take patients from all over the country 
or just in California?
    Mrs. Woolsey. Mainly in California, but I'm sure that they 
do tradeoffs with other areas in the country.
    Mr. Regula. But is it a private non-profit?
    Mrs. Woolsey. Private non-profit.
    Mr. Regula. Thank you.
    Mrs. Woolsey. But there's local funding, Federal funding, 
State funding involved. That's why again, I'm supporting their 
request for $1.8 million to purchase and equip an additional 
rehab center, and $1.5 million for their successful adolescent 
residential treatment program.
    Next, I'm very proud that I represent the only public four 
year university, Sonoma State University, serving the large six 
county region north of the San Francisco Bay. On behalf of 
Sonoma State University, I'm asking for $1 million for lab 
equipment for their masters program in computer and engineering 
sciences. I'm also requesting for them $1 million for their 
lifelong learning institute, which offers programs specifically 
tailored to the interests and needs of the North Bay senior 
population.
    The third request I have is an exciting new program in my 
district for Dominican University, a private university that 
serves minorities, women in great proportions and has one of 
the best diversities of any private institution that I know of 
in at least the North Bay, but probably in many parts of the 
country.
    What they have is, they're trying to develop a training and 
lifelong learning center to address the current shortage of 
math and science teachers, and to meet the need for health 
professionals in the Bay region and around the Nation. We don't 
have a number for their request at this moment, they came in with a 
huge number that would have wiped out all the rest of my requests, so 
we're asking them to come back with something else, and I'll provide 
that when I write my requests to you.
    Mr. Regula. If you have multiple requests, it would be 
helpful if you sort of prioritize them, because obviously we're 
not going to have enough funding to do everything everybody 
would like.
    Mrs. Woolsey. And Mr. Chairman----
    Mr. Regula. So if we had your priorities, it would be 
helpful.
    Mrs. Woolsey. I appreciate that, and I am willing to do 
that. I also know that what we ask for we don't always get all 
of, but I sort of feel that if we get our nose under the tent 
and you see how well these programs work, then the next year we 
can build on that.
    One of the programs that we've had experience with in that 
regard is Yosemite National Institute, an institute that 
conducts institutionally rigorous hands-on environmental 
science programs in my district and elsewhere. One of 
Yosemite's highest priorities is to make these programs 
available to low income minority communities, those who 
traditionally have little access to quality, science-based 
education programs.
    That's why I support their request, Mr. Chairman, for $1 
million to develop more outreach programs for this population.
    I'm also requesting, and behind me I have a whole group of 
people who came and met with me this morning, and I was already 
prepared to come here and they asked could they come with me, 
so they're back there. I'm requesting $2 million for the Sonoma 
County Health Care Information Network. It's a network that 
integrates local health information in order to improve the 
quality of local health care.
    Mr. Chairman, the Sixth District of California is a leader 
in meeting the health and education needs of the 21st century, 
and that's because I've been able to work with them and to get 
the support from our Federal Government and from your Committee 
to give them the help they need to be successful. So I thank 
you very much, and I thank the Subcommittee.
    I look forward to working with you. I will prioritize these 
requests.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I know that you did get some help 
last year.
    Mrs. Woolsey. I did. You've been good. And I appreciate 
your work.
    Mr. Regula. We'll see. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

          NATIONAL CENTER FOR SOCIAL WORK RESEARCH WITHIN NIH


                                WITNESS

HON. ASA HUTCHINSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS
    Mr. Regula. Okay, Mr. Hutchinson from the great State of 
Arkansas. You're interested in the National Center for Social 
Work Research with NIH.
    Mr. Hutchinson. That's correct, Mr. Chairman, and thank you 
for this opportunity to present the case for this. This is 
legislation I'm sponsoring with Congressman Rodriquez. It would 
create the national center for social work research within----
    Mr. Regula. So it's a new regulation you would hope to get?
    Mr. Hutchinson. That's correct, it's new authorization. 
Even though the authorization has not yet passed, I wanted to 
alert you to the fact that we have introduced this legislation, 
we'll be asking for support for funding it. And this is within 
the National Institutes of Health, but they do some social work 
research, but it's not organized toward a national center. 
Presently, there is limited funding available through NIH, but 
this would emphasize the importance and urgency of research on 
social problems from child abuse to juvenile violence. It would 
give researchers more guidance, it would change the hard data 
into effective policy recommendations.
    Funding appropriated to a national center for social work 
research would be used for grants to universities and other 
non-profit organizations to support ongoing research, national 
coordination and dissemination efforts and to cooperate with 
legislators of Government, every level.
    I think a national center is needed to address some very 
important issues. As a father of four and new grandfather, I am 
concerned about the next generation. And some questions that 
could be asked, why does our system not work better to prevent 
violence in our schools? Why has there been a increase in child 
abuse today over 50 years ago? Is there a reason for the 
occurrences of child abuse being on the rise? Are there 
societal pressures on parents that didn't exist even 10 years 
ago?
    What can we do to help these families? I don't have the 
answers to those questions. And I think that that is the reason 
this is needed, and I daresay with great respect for this panel 
that you might not have the answers to all of those questions.
    So social workers are the professionals who can give us 
insight into those areas. I was struck by a recent Rand health 
study on youth violence, which stated that ``to devise better 
programs, researchers need more information.'' Our Nation's 
young people are increasingly affected by violence, both as to 
its perpetrators and its victims. Many violence prevention 
programs aim to reverse this trend but few of them have been 
properly evaluated and even fewer have been shown to work.
    We need to learn what causes young people to become 
violent. Such information could provide the tools for 
legislators to make better policy decisions and aid parents, 
teachers and counselors in providing better care for these 
young people.
    Just this month, there's been two school shootings that 
we're all aware of in California, which has reminded us of the 
many dangers of ignoring children's needs. The alarming 
sequence of school shootings from Jonesboro, Arkansas, to 
Paducah, Kentucky, to Littleton, Colorado and scores of others 
cry out for a response. We find ourselves searching for answers 
that do not come easily, and we have to research the solutions, 
analyze them for our families, our community schools and 
interaction between the peers.
    To do that most effectively, they've got to have an 
understanding of the factors that lead to these tragedies, 
information social workers are compiling right now. But today's 
resources are limited. Policy makers lack the information that 
is needed, information that the social workers have. And the 
national center will provide this critical link.
    I can think of no one better qualified or in a better 
situation to evaluate this great need than the social workers 
who work with these children on a daily basis. It makes sense 
to put them to work on these public policy decisions. Social 
workers are problem solvers. They work to solve problems 
dealing with people's counseling needs, health care needs, 
treatment of mental and emotional disorders. So they are 
uniquely qualified to do research into this particular area.
    As the Subcommittee considers the fiscal year 2002 Labor 
and Education Appropriations Act, I respectfully request and 
encourage you to consider funding for a national center for 
social work research, ideally to be funded at our authorization 
level that's requested, but whatever that you believe fits 
within your budget, the highest level possible, I think it 
would be well deserving.
    Let me conclude with this. I'm a conservative, and 
sometimes conservatives don't jump into the social work arena. 
But whenever you look at the President's initiative on using 
faith based organizations, when you look at the arena of child 
abuse, when you look at juvenile violent crime, whenever you 
look at our investment in cancer research and things that are 
causing people to die, is it not incumbent upon us as 
conservatives to say, we ought to invest in research in the 
very societal problems that lead us this direction, and that 
give us this heartache in society.
    So I don't think we should neglect this area of community, 
of family, of what we can do as policy makers. And this would 
coordinate it, rather than just being out there all over the 
globe, we need to put it in a focused fashion in the National 
Institutes of Health, tell them to elevate this to a higher 
priority, because we need some help in solving these problems.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. And your bill does that, I assume?
    Mr. Hutchinson. That's exactly what the bill does.
    Mr. Regula. Questions? Mr. Cunningham.
    Mr. Cunningham. Asa, my wife drug me to an event this 
weekend. Remember Peter Yarrow? Peter Yarrow is a good friend 
of David Obey as well, Peter, Paul and Mary. Maybe you remember 
that name.
    Mr. Hutchinson. That I remember. [Laughter.]
    Mr. Cunningham. He was, I thought, well, this guy is a left 
wing anti-military guy and I didn't want to go. But I'll tell 
you what, he's got a program called Don't Laugh at Me for 
children, and it is fantastic. I think he's a fantastic 
individual. I've got the tape and the things, I'll let you look 
to it. It may be something that we can get a copy for you. But 
it talks about the very things you're doing. I was 100 percent 
sold, once I saw the program.
    Mr. Hutchinson. Good. And you're a wise man to go where 
your wife leads you. [Laughter.]
    Mr. Regula. Thank you. As I assume, you want to pull 
information that's being developed in many disparate sources 
into once center, so there's a focus of it, which then would be 
able to communicate this out to the public?
    Mr. Hutchinson. Absolutely. To coordinate what is going on 
out there, to beef it up, to analyze it a little bit more,to 
get the information to the people who are making the decisions, 
to give us more hard data as the Rand study indicated.
    Again, cancer research would be a good example of that, 
women's health issues, you know, once you coordinate it, it 
gets more focused and directed. We need to do this in the 
social work arena.
    Mr. Regula. Have you presented your bill to the authorizers 
yet?
    Mr. Hutchinson. Oh, absolutely. And Congressman Fred Upton 
is, I believe, going to put a package together or children's 
health bill, or a public health bill.
    Mr. Regula. This is the Education and Work Force Committee, 
then?
    Mr. Hutchinson. Correct. So this would be a component, I 
believe, of what they will do----
    Mr. Regula. Oh, part of the Commerce Committee, Energy and 
Commerce.
    Mr. Hutchinson. Yes. But we have worked with them and I'm 
very hopeful that this will move forward.
    Mr. Regula. Okay, well, thanks for coming this morning.
    Mr. Hutchinson. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                     VARIOUS PROGRAMS AND PROJECTS


                                WITNESS

HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Baca, various programs and projects, from 
California. Welcome.
    Mr. Baca. Thank you very much, Mr. Chairman, for granting 
me an opportunity to discuss the importance of education and 
social issues and needs of the 42nd Congressional district.
    As you are aware, and my colleagues, I am deeply honored to 
testify before you. I believe that this Subcommittee handles 
some of the most important issues facing our Nation, and 
especially my district. I have submitted a more detailed 
written statement of my actual requests.
    Mr. Regula. It will be made a part of the record, 
obviously.
    Mr. Baca. Thank you.
    Education is a top priority for my district, for myself, 
and has been since I served in the legislature in California 
and continues to be here. I share with you in my belief that 
every student should have an opportunity that he or she should 
be whatever they want to be. As the President indicated, that 
no child should be left behind, that means having good quality 
education, encouraging students to stay in school, to go to 
college, to graduate from school. Many of the appropriations 
requests I am submitting for reading instruction, mentoring, 
teaching training, are designed to address these goals, 
including student retention, crucial issues in my district.
    Health issues is one important priority in my district. 
I've submitted to the Subcommittee venues in Congress seeking 
for funding for drug and alcohol treatment for youth age 12 to 
17. Sometimes we forget that a lot of our youth in that area 
are not receiving the funding especially as it pertains to 
drugs and alcohol. It's important we put our top priority into 
supporting individuals. I've supported this legislation in the 
State legislature. I hope that we can support that kind of 
legislation to really address teenage drinking and alcohol, 
especially as it pertains to a lot of us and the effects it has 
in our schools, especially what's going on, too, as we look at 
what's going on.
    Expanding the Healthy Family programs in California to 
include indigent adults, supporting health care for seniors and 
children, fighting against breast cancer, license plate funding 
program, supporting prostate cancer, diabetes research and 
treatments are also important priorities, which require Federal 
funds which I am requesting this year. Specifically, I am also 
requesting funding for San Bernardino Community College 
district, in my district, we're multi-campus, providing KVCR 
television station owned by the district for $21 million for 
digital conversion and expansion of operations, studio space, 
for $35 million to $42 million for moving the KVCR facility to 
a more desirable location.
    Last year you granted me $1.7 million to obtain for distant 
learning. This is very important, especially as we see 
community colleges right now. Most of our students are going to 
community colleges, they can't into four year institutions. And 
KVCR, through its digital program, is doing a lot more of the 
outreach and providing educational services. We need to make 
sure they continue to provide an opportunity, especially as we 
look at students right now that are trying to get into our four 
year institutions and can't get in to our State colleges and 
universities. This is an avenue that can be done through KVCR 
telecommunications in providing not only classes that they can 
take and outreach, but also assuring that we provide the 
facilities. I think this is very important for our area as 
well.
    I'm also requesting $500,000 for Fontana Unified School 
District for subsequently retrofitting an ADA improvement to 
the civic auditorium, a facility that is utilized by hundreds 
and thousands of students in the City of Fontana, purchased a 
building in 1985, this is high priority funding and 
retrofitting which I think is very important for us. While also 
the capacity to the city, it has capacity only of 1,000 but we 
need to continue to improve and provide subsequent retrofitting 
for that area.
    I'm also requesting $3 million for the City of Ranch 
Cucamonga, which I share along with Dreier and Miller that were 
surrounded in that area to design and construct a new senior 
citizen center that provides 25 to 30 square feet. The city is 
providing matching funds of $2 million for land and ongoing 
maintenance and operation cost.
    For the City of San Bernardino, I'm requesting $1.5 million 
for the city to support job training for the city on one stop 
career center. This request is strongly supported by the civic 
and business groups in my district, along with Congressman 
Lewis.
    Mr. Chair, I have many other projects that I've outlined 
specifically, the California University at San Bernardino, San 
Bernardino County Superintendent of Instruction Schools, San 
Bernardino County Unified School District, the University of 
California at Riverside, with an incubator that's important to 
our area, as we look at providing jobs and getting 
universities. It's the only university in that area that is 
supported not only by myself, Ken Calvert, Mary Bono, Miller 
and also Congressman Lewis support the project for funding in 
that area, even though it's not in my district, but it's the 
only university within that area, and I think it's our 
responsibility to provide assistance to them.
    These are but a few of the many projects that I have 
submitted requests for you. You have specific details on the 
others, Mr. Chairman. I thank you for giving me the opportunity 
to come before you. I know it is a long list and a wish list of 
many areas. But I believe it's important that I represent my 
district, submit those requests and whatever possible can be 
funded, I would appreciate very much if the Committee would be 
able to look at some of the important projects to improve the 
quality of life, education and health in our area.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Questions?
    Thank you for coming. You do have a substantial list.
    Mr. Baca. Thank you, Mr. Chair. I look forward to your 
continued support, and I'm not shy. [Laughter.]
                              ----------                              

                                           Tuesday, March 27, 2001.

                    CLOSE UP FOUNDATION AND PROJECTS


                                WITNESS

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Regula. Mr. Payne, New Jersey.
    I'm sorry, Don, I got you out of order here.
    Mr. Payne. Well, I may not get an extra program, then. 
[Laughter.]
    Mr. Regula. Pretty high price you're asking.
    Mr. Payne. Thank you. It's certainly a pleasure to be here, 
Chairman Regula. Let me just start by saying that our city of 
Newark, New Jersey is really on the rebound, it's coming back. 
We had a civil disorder in 1967 that really is the dividing 
point as we look at history in Newark. And because of support 
that we've gotten from your Committee, we've been going in the 
right direction over the last decade.
    Mr. Regula. Are you getting a new airport there, or a lot 
of pretty major----
    Mr. Payne. Yes, pretty major, the road construction funding 
has just made it, actually, it's the third largest airport now, 
it's overtaken Kennedy and JFK, I mean, JFK and the other New 
York air, LaGuardia.
    Mr. Regula. Is it a hub at this point for any of the 
airlines?
    Mr. Payne. Yes, Continental, which has gained a lot of 
strength and health now, and is doing an excellent job to 
overseas, South America.
    Mr. Regula. We left out of there for the----
    Mr. Payne. That's right, it's a great place. So anyone 
who's traveling, at least come through Newark. We have a little 
city tax on it, you know.
    But it's great to be here. I'll be brief. We have some 
health projects, the Emergency Medical Services demonstration 
project, the Children's Health Care Services and Outreach 
Center, and Babyland Family Services. What the coordinated 
Emergency Medical Services demonstration project is, it's a 
project to bring together transportation and emergency services 
in older cities. This is a very vital need. So we have, we're 
asking for $5 million to help with this demonstration project. 
Of course, the details are in the packets.
    The second one is the Newark Children's Health Care Service 
and Outreach Center. It's to positively impact on the health of 
Newark's children through the development of a coordinated 
health care system that will allow the city to bring health 
care services to the community. Through the centralization of 
services, we believe that we can increase access to an array of 
health and social service needs to Newark's citizens. We ask 
for $2.5 million for that.
    And thirdly, the Babyland Family Services is a major non-
profit child and family service organization, providing 
comprehensive child care and family development services to 
1,500 at-risk children and their families annually. Babyland is 
seeking additional funding to establish the technological 
linkages to nurture the educational development of almost 700 
children, provide computer training for 2000 parents, teachers 
and entry level professionals. We're asking $2 million there.
    Just quickly, at the UMDMJ, we have a series of programs 
that we're asking. One is elimination of health disparity, and 
they have a very well focused program. We're asking for $5 
million over a five year period. There is also a cancer 
institute center, the Dean and Betty Gallow Prostate Cancer 
Center. Dean Gallow is a former member of this Subcommittee, 
unfortunately passed away from prostate cancer. His widow, 
Betty Gallow, has been carrying the work on that Dean started. 
So we're asking for $10 million to assist in that project, 
which has become extremely successful.
    I'll conclude there, but there is one national program that 
I am making a request for, Mr. Chairman, it's the Close Up 
Foundation, civic education fellowship program. As you know, 
the Close Up Foundation is a civic educational program that 
brings students from around the country to our Nation's capital 
to study about government. It's been around for quite a while.
    As you know, we need all the help we can get in civic 
education and responsibility. We see what's happening at our 
high schools and elementary schools in our country. As a former 
teacher and coach, I didn't coach in the Army, but I coached in 
high school, we really see the need for these kinds of 
programs, bringing youngsters to our Nation's capital, 
stressing civic education, which I think is missing in a lot of 
our school systems.
    So with that, we'll submit our full text and I appreciate, 
like I said before, the previous support and look for continued 
support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Questions?
    Mr. Cunningham. Don, the Close Up Program, that's not the 
one that recently had controversy with Reverend Jackson, is it?
    Mr. Payne. No, not to my knowledge, no. It's really a 
program that has a lot of support from business, but we do need 
to have our Federal support. But to my knowledge, this is not 
that program.
    Mr. Cunningham. Okay, thank you, Don.
    Mr. Payne. Thank you very much.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. ROBERT SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF VIRGINIA
    Mr. Regula. Mr. Scott, from the great State of Virginia.
    Mr. Scott. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to speak with you 
today.
    To save time, Mr. Chairman, you have the testimony and I 
want to just speak very briefly on two projects, the Massey 
Cancer Center at the Medical College of Virginia, and the 
Achievable Dream Program in Newport News, Virginia.
    The Massey Cancer Center, Mr. Chairman, is a building, a 
$26 million project. We're requesting $2.8 million from 
appropriations. The board of directors will be raising $10 
million to $15 million.
    Mr. Regula. Is this a private non-profit?
    Mr. Scott. I'm sorry?
    Mr. Regula. Is it a private, non-profit school?
    Mr. Scott. The Medical College of Virginia is a State 
college. It's part of the Virginia Commonwealth University.
    Mr. Regula. Right.
    Mr. Scott. It's a $26 million program. The board of 
directors will be raising $10 million to $15 million, and we 
have received previous requests of $1.2 million, and we hope to 
receive the remaining $2.8 million to complete the project. The 
center is one of 59 national cancer institute programs, and 
it's an excellent program, Mr. Chairman, and I would hope that 
staff will read the details on it, and it's one that we're very 
much interested in. They have an outreach program going into 
the rural areas where they've had a significant impact on 
incidence of cancer and success in treating cancer from the 
Medical College of Virginia, going out into rural areas.
    The Achievable Dream Program is an education program 
consisting of teaching at-risk students at an elementary and 
middle school. Basically they have as kind of a hook, you come 
in and play tennis in the afternoon during the summer, 
education in the morning, then they go into the full year-round 
session. It's basically an inner city school. They have extra 
curricular and character building activities.
    They have shown that the program works. Their test scores 
are at or above the city average, and we have some areas where 
there are very high income students, very low income students. 
These low income students are at or above, in some cases way 
above, the city average. They receive significant support from 
the community, an average of about $1,800 per student. We're 
asking for $1.5 million from funds for the improvement of 
education so that we can start an early childhood center for 
three to four year olds. The earlier you start, the much better 
you can do.
    This is a very successful program, and we hope we can have 
your continued support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Questions? Mr. Cunningham.
    Mr. Cunningham. Bobby, we have a teaching hospital in San 
Diego for medicine, and it's just about to fold. With the HMOs, 
California is a leader in HMOs, yes, we do need HMO reform. But 
are you having those similar problems with the teaching 
hospitals and the training of doctors? A, the number that are 
requesting medical school has gone down, secondly, that they're 
having trouble funding it.
    Mr. Scott. A significant portion of the patient load is 
Medicaid, Medicare. So the reduced reimbursements are squeezing 
all of the hospitals, particularly the teaching hospitals, 
because they're open to everybody. So anybody that comes in, 
they're going to deal with. It's a major strain.
    Mr. Cunningham. I think across the Nation we're having 
trouble, and we're going to have trouble having good doctors, I 
think, in the future, unless we attend to it.
    Thank you.
    Mr. Scott. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                  CLEVELAND BOTANICAL GARDEN (PROJECT)


                                WITNESS

HON. STEPHANIE TUBBS-JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mr. Regula. Next, from the great, great State of Ohio, 
Stephanie Tubbs-Jones. Stephanie, you're going to speak on 
behalf of the Cleveland Botanical Garden.
    Ms. Tubbs-Jones. That's correct. If you'll allow me to 
stray for just a moment, I want to bring you greetings from my 
predecessor, the Honorable Congressman Louis Stokes.
    Mr. Regula. He was here in person last week.
    Ms. Tubbs-Jones. Oh, really? Did he tell you about us 
naming a post office after his mom, and how great it was? Well, 
doggone it, I'll have to tell him he preempted me.
    Mr. Regula. About everything I see in Cleveland has been 
named after him. We're running out of streets.
    Ms. Tubbs-Jones. I think so. [Laughter.]
    I'm just trying to hold my name out there. I can't get the 
streets and the buildings, but I'm doing okay.
    Mr. Chairman, thank you very, very much for the opportunity 
to present this morning. I'm here on behalf of the Cleveland 
Botanical Gardens. This is our fiscal year 2002 request, to 
secure $1 million in Federal funds to enable the Cleveland 
Botanical Garden to develop interactive ecological exhibits and 
educational materials for students from kindergarten through 
12th grade and their families.
    You have all this information in your packet. I thinklast 
year when I presented, you had the opportunity to taste right from 
downtown salsa, which is a salsa that is produced by the students who 
grow tomatoes at this facility and surrounding facilities. What the 
botanical gardens has attempted to do is let young people in 
Cleveland's school districts and surrounding school districts have an 
understanding of ecology, an understanding of preserving the 
environment.
    So in this next step, we've already begun the funding of a 
glass house, but what the next step will allow us to build, two 
ecological systems, one like that exists in Costa Rica, where 
you have high ground properties, where people will be able to 
come through and interact with the activities, similar to 
probably some of the rainforest and other areas. But the other 
areas have focused on the lowlands, and we're going to focus in 
on the highlands.
    I could be very detailed in my presentation, but I know you 
don't want me to be, so I will not. But I come here to say that 
this is a project that's very important to my Congressional 
district, but also important to the region and the area and the 
State of Ohio. I appreciate all the support that you gave me 
last year, and in my second term as now a sophomore member of 
Congress, no longer a freshwoman, I'm here to say I need your 
help again, and any additional information that I can supply 
you, I'll be glad to do so, and I thank you for the opportunity 
to be heard.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think I got a note that they're doing long 
distance learning from there.
    Ms. Tubbs-Jones. That's correct. In fact, the director of 
the program would be here, but he's in Costa Rica, because 
we're doing exchange programs with children from Ohio and 
children from Costa Rica. It's a pretty exciting opportunity 
and a collaboration between Case Western Reserve University, 
the Botanical Gardens and the University of Costa Rica.
    Mr. Regula. Questions?
    You got some support for this last year, I believe.
    Ms. Tubbs-Jones. Yes, sir, and if I didn't say it, I 
thought I did, thank you for last year's support, and I'm back 
again. Anything else you can give me, I'd appreciate it.
    Mr. Regula. I'm not surprised. [Laughter.]
                              ----------                              

                                           Tuesday, March 27, 2001.

               LUPUS RESEARCH AND CAREGIVERS AND PROJECTS


                                WITNESS

HON. CARRIE P. MEEK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Regula. Our next guest is Carrie Meek from Florida. 
Carrie, we're glad to have you, an also a member of our Full 
Committee.
    Mrs. Meek. Thank you, Chairman Regula, and all my friends 
on this Committee. I'm pleased to be here today.
    It's regarding a program in which I'm very, very interested 
and very concerned. I want to testify this morning on my 
highest funding priorities for fiscal year 2002. I understand 
you have a very awesome responsibility and you don't have the 
resources that you really need to meet some of these 
responsibilities. But we'll have to do the best we can.
    There are some issues that I'm interested in, and I know 
the time is limited, so I want to submit the rest of my 
testimony for the record.
    Mr. Regula. Without objection.
    Mrs. Meek. My number one priority, Mr. Chairman, is 
increased funding for lupus. Each of you is aware of this 
disease, we've been before your subcommittee for many years. 
And thank God, it was authorized last year, through Chairman 
Bilirakis' committee. It was a very long fight. It is something 
that I come before this Subcommittee to ask you, now that it's 
authorized, will you please fund it to the point that we can 
stop the killing and the maiming of this disease of young 
women?
    I'd like to request $30 million for the Centers for Disease 
Control to fund a grant program authorized under Title V, 
Subtitle B of Public Law 106-505. It's the Public Health 
Improvement Act of 2000, for treatment and support services for 
lupus patients and their families. This is a little bit 
different from the rest of the things you've been doing for us. 
Through the years, you have each year provided some funding for 
lupus. Now we're asking you to provide funding to support the 
lupus patients, in that they have a very, very hard time with 
their physical bodies being naturally undermined by this 
disease.
    I also request $25 million in additional research funding 
over and above the enacted 2001 level on the Title V, to enable 
the National Institutes of Arthritis, Musculoskeletal, and Skin 
Diseases, you call it NIAMS, to conduct expanded research to 
understand the causes and to find a cure for lupus. First of 
all, there is no cure for lupus. The treatment for lupus many 
times is just as harmful to the patient as is the lupus itself.
    The third thing is, if you continue the research, sooner or 
later you will get to the cause and a cure for this disease.
    Now, it's very important to me that we find a cure for 
lupus, and find a cure for the suffering that people go 
through. My sister died of lupus, a lot of young women die of 
lupus in their child bearing years. I've been urging the Congress to 
direct NIAMS and NIH to mount an all-out campaign against lupus.
    Now, rest assured that this is not to say that they have 
not been working hard on this. Except that they need more 
resources to do the support service, they need more 
researchers, more resources to do the research as well.
    Now, this is a killer. It's an autoimmune disease and it 
kills more people than HIV-AIDS and most of the other 
autoimmune diseases. It's really significant for women to focus 
on this disease, because about 1.4 million Americans have some 
form of lupus, and most of them are women. Many of these 
victims, if you've ever seen anyone or talked to anyone with 
lupus, the pain is very debilitating. The women aren't even 
able to hold their own children.
    Suffice it to say, Mr. Chairman and members of the 
Committee, I'm asking for $30 million for the Centers for 
Disease Control to fund a grant program which will support 
lupus patients. I'm requesting $25 million in additional 
research funding. That's going to NIAMS, which is a part of the 
National Institutes of Health. These groups have done an 
outstanding job, and if anyone can beat this diseases, it's 
those two.
    The most discouraging thing is that the family members 
suffer so from this particular disease.
    My second priority, Mr. Chairman, is a demonstration 
project to develop and test HIV-AIDS prevention, a media 
campaign. We brought it before the Committee last year, they 
thought it was a good idea, but they didn't fund it. What we'd 
like to do is a demonstration project to develop and test on 
HIV-AIDS. We know that the media program has worked with 
cigarettes. It has worked with HIV. But I'm requesting this 
now, and you know the drug program has worked. Every time you 
see one of those very well thought out drug programs regarding 
children, you will see that it's very, very effective.
    I'm requesting $10 million for the Centers for Disease 
Control and Prevention to develop and implement a grass roots 
minority HIV-AIDS prevention media campaign. That would be 
modeled after the $185 million the Congress spent on anti-drug 
media programs for the National Office of Drug Control. Funding 
for it would be used to develop and test the effectiveness of 
the HIV-AIDS prevention media campaign in 20 United States 
counties with the greatest number of minority HIV infections.
    I won't prolong that. Each of you is aware of the 
propensity of HIV-AIDS to kill and to maim the population.
    Third, Mr. Chairman and members, $15 million to fund the 
Higher Education Demonstration Projects, which will ensure 
equal opportunities for individuals with learning disabilities. 
Now, you all have heard of learning disabilities in youngsters 
from K-12. And a lot is done for them. Very little is done for 
youngsters who get out of high school and go to college and 
have learning disabilities.
    And to say that means that they need support as well as the 
younger persons do. It's one that shows you that you'd be 
surprised that a number of youngsters who go to college with 
learning disabilities, they don't read very well, most of them 
are very bright students. But they have these learning 
disabilities, and the teachers are not really capable of being 
able to understand how to teach these young people, nor do they 
understand what these learning disabilities are.
    So I'm urging the Committee to include $15 million to fund 
the grant program currently authorized. We were able to get 
this program authorized about two years ago here in the 
Congress through the Labor HHS Committee, and we were able to 
get it funded at $5 million for the entire country. But think 
of all the students who are enrolled in institutions of higher 
education who need these services and cannot get them.
    So as I understand it, each year a million dollars has been 
placed in that program to take care of some of the needs. I'm 
sure you realize that $1 million more each year certainly would 
not put that program where it should be.
    What this does, it identifies college students with 
learning disabilities and develops effective techniques for 
teaching these students. I think it's very fair that we think 
of the fact that we are really developing our students, and 
just because they have a learning disability doesn't mean that 
they're not bright. I think if you note, Einstein was learning 
disabled. That just gives you one example of the kind of 
student you're dealing with with learning disabilities. They're 
very bright students.
    University professors have found the research that has 
developed as a result of this program has been very helpful, 
helping them to teach students in higher education.
    My next one, Mr. Chairman, I listed them all for the 
Committee to look at, increased funding for community health 
centers. I support an increase in funding for the consolidated 
health centers program by at least $175 million for fiscal year 
2002 in order to provide an inexpensive way to get high 
quality, affordable primary health care to under-served 
communities.
    Now, just take my State of Florida. There are 2.5 million 
people who have no regular source of primary care. Most of 
these people are in urban inner city areas like my home 
community in Miami, and in isolated rural areas. They do need 
better health care. And of course, the community health care 
centers is one that can provide that kind of help to people.
    The last one has to do with please increase funding for 
graduate medical education for pediatric hospitals to $285 
million, the fully authorized level. You say, well, Carrie, 
that's really asking for a lot. You made a good start in your 
funding for pediatric graduate medical education the last time. 
But this is one of the areas of health care which has been 
overlooked for a very long time. We should take the next step 
by moving as quickly as possible toward funding at the fully 
authorized level.
    And I want to thank the Chairman and the members of the 
Committee for your patience in listening to the list of things 
I've brought before you. I'm sure that you will look at them in 
such a way as will meet the needs of the people of this 
country. I think of all the things we deal with here in the 
Congress, health is one of our most important ones, and I thank 
the Committee for having me appear before you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Questions? Thank you, Carrie. Did you get that building 
down there that we had a couple of years ago and name it after 
the President, the college?
    Mrs. Meek. No, you wanted to name it after me, that's why 
they didn't build it, I think.
    Mr. Regula. Did they build it?
    Mrs. Meek. Yes, they did.
    Mr. Regula. They didn't name it after you, though?
    Mrs. Meek. No, they did not.
    Mr. Regula. Well, we'll have to----
    Mrs. Meek. We'll have to take the money back, Mr. Regula. 
[Laughter.]
    Mr. Regula. Has it been named yet?
    Mrs. Meek. No, not yet.
    Mr. Regula. Maybe we can address that problem.
    Mrs. Meek. All right, thank you so much.
                              ----------                              

                                           Tuesday, March 27, 2001.

           MEDICARE AND HEALTH CARE FINANCING ADMINISTRATION


                                WITNESS

HON. PETE STARK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Stark from California.
    Mr. Stark. Thank you, Mr. Chairman. Do you have any 
leftover buildings in the 13th Congressional District in 
Northern California? Maybe Duke and I could work something out.
    Mr. Regula. No money.
    Mr. Stark. No money, okay. [Laughter.]
    Well, if I were just to build the sign that goes over the 
door, could I contribute that?
    Thank you for giving me the opportunity to address you this 
morning, Mr. Chairman, members. I hope you'll take my complete 
statement for the record, and just let me summarize it for you.
    As the Chair recalls, for 10 years, I guess, I chaired the 
health subcommittee of the Ways and Means Committee. It has 
since been chaired both by Mr. Chairman Thomas and now Mrs. 
Johnson. I believe we are all in accord on this, and we have 
all had our disagreements with HCFA. Under the 10 years that I 
chaired the Committee HCFA was under Republican, under a 
Republican Administration, it's been under a Democratic 
Administration when Mr. Thomas was there. The reports have been 
late, we've had complaints from doctors and hospitals, you've 
all had complaints in your Congressional districts.
    But the truth is, in all of that time, we have been able to 
say, as we speak to people across the country, that they're 
operating the Medicare operation a couple of hundred billion 
dollars a year with a 2 percent overhead. There's not an 
insurance company in the world, Blue Cross and Kaiser maybe 
come to 12 percent, that could operate on 2 percent. And some 
of the more expensive insurance companies that are doing the 
same thing, 14, 18 percent. And it's these same insurance 
companies, Blue Cross, that do a preponderance of the work 
under the supervision of HCFA for distributing these payments.
    Think about this. Today, Medicare beneficiaries will make a 
million physician visits. This is not just hospitals. This is 
going to the doctor. A million visits. And Medicare will 
process more than 3 million claims today and spend a billion 
bucks. That's what we're doing every day. And we're doing this 
on their share of the budget, about $2.2 billion for program 
management.
    The graph will show, Mr. Chairman, that this is in real 
dollars, the dotted line down here, and it's only in the past 
year that we've gotten up to 1993 expenditures.
    Now, what's wrong? Their computer system doesn't work. They 
haven't gotten up to the full time employee level that they 
were 10 years ago. We have been starving them. And since 1996, 
we gave 700 new legislative provisions for them to administer. 
Now, you can say we're cockeyed for doing that. My point is 
that we all do that. This is a Congressional mandate, and it's 
been under both parties and under both Administrations.
    The money, although you get scored for it, comes out of the 
trust fund. So those of us who want to protect the trust fund 
realize, but let me just tell you this. That it was in 1996 
that we came out with this, or we didn't come out, we got this 
14 percent of what we were spending. Again, let's say it's $2 
billion a year. Twenty-eight billion of that was spent 
incorrectly. Now, some of the incorrect payments were fraud and 
abuse, and some were just mistakes, just filled out the form 
wrong, paid the check wrong, whatever we did. We were throwing 
away, if you will, in the 20s of billions of year.
    They have cut that, because of legislative provisions we 
mandated, to 6.8 percent. They have cut that in half. So they 
have saved $12 billion in six years by addressing the fraud 
provisions which we forced on them.
    Now, what I'm telling you, they're doing this, and they're 
still only spending $2 billion a year for administration, and 
the results of what they're doing have saved us $12 billion. So 
I'm just here saying, could we double their budget over a 
period of years and get them up to say, 4 percent of benefit 
spending. I don't know how much a new computer system is going 
to cost. It's in the dark ages. But you and I know that the 
phone company can find everybody, and our credit card people, 
Visa and Master Charge are more efficient than HCFA, and 
they're spending more to collect money from us.
    So that's my plea. I'll be glad to try and answer any 
questions. This is one of our better managed bureaucracies.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Has mechanization helped, the computers and 
record keeping?
    Mr. Stark. Of course. And they're behind the curve. There's 
no question that mistakes were made, I'm trying to think of how 
many years ago it was, Mr. Chairman, they decided to do eight 
different computer programs around the country, because they 
felt they had to give eight different people a chance to bid on 
the work. How do you have eight different systems?
    Mr. Regula. Do they still have more than one system?
    Mr. Stark. They have more than one. Because historically, 
when Medicare came into being, it was, the billing part of it 
was turned over mostly to Blue Cross people around the country. 
So every are has a different billing system. Because they have 
a different person, we actually contract out the majority of 
the work to people called intermediaries. We've got to change 
that. This is the 21st century.
    Mr. Regula. Are you saying change the contracting out, or 
changing the coordination?
    Mr. Stark. Changing the coordination, changing the method. 
There's a whole lot of modernization. But they've got to have 
the equipment and the personnel to do it.
    And I have great faith in Governor Thompson, a good 
administrator in my natal State of Wisconsin. But we've had 
good administrators right along. It's one of the biggest 
bureaucracies, as you know.
    Mr. Regula. It's a Herculean task.
    Mr. Stark. It is. And we can't starve them at the same time 
we're forcing more work down on them. As I say, I don't think 
we can find either a budgetary fight or a partisan fight on 
this issue. I know we don't get scored for the savings out of 
the fraud and abuse as opposed to directly. But it's there, and 
as I say, these are----
    Mr. Regula. Do the intermediaries pick up fraud?
    Mr. Stark. They will trigger investigations, because 
they're the ones who can understand patterns. But each 
intermediary, the problem is, has a different way of judging. 
In other words, certain screening tests, that would call for 
surgery or certain screening tests that would call for more 
clinical tests could differ. One area of the country might pay 
for bone marrow and another might not. Don't ask me why. This 
is just the historical way they have done this.
    So there's a lot we can accomplish. But for us to begin to 
proceed more rapidly, which we should do, is going to take 
people and--the sheer volume, the complexity of all the 
different medical procedures. And one of these days, we're 
probably going to get into pharmaceuticals, and that's just 
going to add another whole bunch of words and numbers and 
procedures that you and I wouldn't be able to spell or 
understand, but we would end up paying for.
    Mr. Regula. That's an enormous challenge.
    Mr. Stark. Yes. If you could find, as you push these 
numbers around, some there, I think that you will find the 
Republican Administration, the Democratic minority will move to 
help in any way we can.
    Mr. Regula. Pretty much a bipartisan issue.
    Mr. Stark. I believe so, Mr. Chairman. I certainly don't--
all I can tell you is that in the past years, the current chair 
and the now chair of the full Committee have supported efforts 
to see that HCFA gets better funding.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. I talked with Governor Thompson about this 
problem the other night. It's very real and we have to address 
it. We find that all over the Government, that our computer 
systems are not anywhere near up to date with the work we're 
trying to accomplish. And it costs us money in unusual ways, 
because of that.
    Mr. Stark. If the gentleman would yield, and this is the 
poster child of the type of operation that can save from 
computerization, because of the huge volume of small claims and 
forms that have to be filled out. As I say, we're all excited 
that Governor Thompson can do a good job over there, but I 
think we've got to give him the resources.
    Mr. Sherwood. I agree.
    Mr. Stark. I thank the gentleman for his concern.
    Mr. Regula. Thank you.
    Mr. Stark. I thank you for the opportunity to present the 
case here today, and I hope you can find a few dollars to help 
out this group.
    Thank you very much, Mr. Chairman.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

              CONGREGATE AND HOME-DELIVERED-MEALS PROGRAM


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Regula. Mr. Boehner.
    Mr. Boehner. I'll yield to my colleague who's in the middle 
of a hearing.
    Mr. Regula. Oh, all right, Mr. Shays, congregate and home 
delivered meals program.
    Mr. Shays. Thank you. He yielded on the agreement I'd be 30 
seconds. I thank him very much.
    Mr. Chairman, just to make you aware of the fact that our 
congregate meal and our home delivered meals has been somewhat 
static, and there hasn't been a sense of--
    Mr. Regula. Static in reimbursement, static in numbers?
    Mr. Shays. Funding, except in terms of adding a little bit 
to the congregate last year. But the bottom line is, I'm asking 
if you would restore $43 million to put $43 million into the 
congregate meal program to bring it to a total of $421 million, 
which would bring it to the funding level of 1995.
    The only point I want to make to you is that there have 
been unused funds in the congregate meal that have been unused 
by agencies, and they have built up a level of spending now so 
those unused funds from past years have been used up, and 
you're going to start to see around the country some 
significant deficits. Just an alert to you that you may need to 
take a look at it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Don't we get a lot of volunteers involved in 
this operation?
    Mr. Shays. Yes, it's great. You get a lot of volunteers, 
but this pays for the meals. You get a lot of volunteers who 
come to the congregate sites, a lot of volunteers who do the 
home delivered meals. It's a cost effective program.
    Mr. Regula. Do they get reimbursed mileage, because they 
drive their automobiles?
    Mr. Shays. I'm not even sure of that, sir. We just had a 
challenge in our district because what we found is they had 
built up to levels using past funds. They built up their 
spending level above the annual appropriations that exist. So 
the States made up the difference in Connecticut. But I suspect 
you may be having a problem around the country that will start 
to surface as people use past funds for present operations.
    Mr. Regula. Well, and of course, more seniors, too.
    Mr. Sherwood?
    Mr. Sherwood. No questions.
    Mr. Regula. Well, thanks.
    Mr. Shays. Thank you, and I thank my colleague for 
yielding.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. JOHN A. BOEHNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Regula. Mr. Boehner.
    Mr. Boehner. Hello, Mr. Chairman. I'm glad to be here this 
morning.
    Mr. Regula. What will you be doing to our budget over there 
in your committee?
    Mr. Boehner. We'll be working very closely with you. Good 
morning and thanks for the opportunity to be here. Let me say 
hello to my friend and the newest member of your Committee, Mr. 
Sherwood. It's nice to see that you're here.
    And I appreciate the job that you all have in terms of 
trying to decide how to allocate the biggest chunk of the 
Appropriations Committee. It is a difficult choice. I'm here 
today as chairman of the Education and Work Force Committee to 
really outline our priorities. I think the President has done a 
good job in his proposal on education, which is embodied in a 
bill that we introduced last week, H.R. 1. And the effort there 
is to close the achievement gap that exists between 
disadvantaged students and their peers, and to work with States 
to improve the schools to be the best in the world.
    I could talk about the President's education proposal, but 
you all understand it fairly clearly. More flexibility in terms 
of consolidating programs, in allowing schools to have more 
flexibility over how to use those resources in their schools.
    Secondly, actually doing a better job of targeting the 
money to the schools who need it the most. And thirdly, putting 
into place a new reading program that is absolutely essential. 
Because if children can't read, they're not going to learn.
    We know that the early childhood reading program, and the 
President's proposal, will do a lot to improve reading scores, 
and we think, learning.
    Now, money is not the only issue here. We've spent $130 
billion since 1965 on well intentioned, well meaning education 
programs. The fact is, we've gotten almost no results for the 
money we've invested. And what we need is a system of 
accountability and rededication of the Federal Government's 
commitment to helping those students who would otherwise fall 
through the cracks.
    Let me point out three issues that I think are most 
important on the education side. They're outlined in the 
authorization levels in our bill, H.R. 1, which is in effect 
the President's proposal. A $461 million increase in Title I, 
$320 million for the President's State assessment initiative 
for grades 3 through 8 in reading and math and thirdly, $975 
million for the President's reading first and early reading 
program.
    When you look at what we're attempting to do over there in 
terms of providing for more accountability and more 
flexibility, we believe that, and targeting, targeting the 
money to these children who most need it, these three programs 
that we've outlined here are the core of making this work.
    I'd also ask that you find the resources to increase 
funding for IDEA. This Committee has done a marvelous job the 
last five years in increasing IDEA funding. The President's 
calling for increased funds, and I know that every member of 
Congress listens to what I listen to when I go home from every 
one of my school districts. And that's that IDEA needs more 
money.
    You should be aware that part of the President's request 
for his reading program and the early childhood reading program 
will in effect help with IDEA issues in local districts. That's 
because there are an awful lot of students that end up in IDEA 
because they can't read. To the extent we can solve this 
reading problem or address this reading problem, both the early 
childhood reading and the K-3 reading program, I think we'll 
take a big step in helping these school districts with their 
IDEA money issues.
    Secondly, in this area, the President has also asked for a 
billion dollar increase in Pell Grants. We all understand the 
need to continue the effort to increase the Pell Grants, to 
help those children, again, at the bottom of the economic 
ladder, who without that effort would never be able to attend 
post secondary education programs. And I think that again, 
you're getting a lot of requests, but I think we all understand 
the importance of the Pell Grant program.
    Let me switch gears and talk about the other side of my 
committee, and that would be the labor side. I support the 
President's plan to level fund the Department of Labor, 
especially in our enforcement areas. In the past, the DOL has 
had the habit of administering the Nation's labor and 
employment laws beyond what I believe the scope of what 
Congress intended. And I think taxpayers savings will arise 
from effectively protecting workers by properly enforcing 
important labor and employment laws.
    I would ask that you support the efforts of the Department 
of Labor's inspector general to better protect workers benefit 
funds and reduce waste, fraud and abuse that continues to exist 
there.
    So I thank you for the opportunity to be here and look 
forward to answering any questions that you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. One of the components of the President's 
program is testing.
    Mr. Boehner. Correct.
    Mr. Regula. Do you anticipate that the Federal Government 
will fund these tests, even though the States develop them?
    Mr. Boehner. What the President proposed is that we, the 
Federal Government, assist the States in developing their 
tests. Under his proposal and under H.R. 1, the States will 
determine what tests to use in their States.
    Mr. Regula. I understand that.
    Mr. Boehner. But the actual implementation of it is left to 
the States. Now, this bill is going through committee here in 
the next month or month and a half. Whether we get into funds 
for the actual implementation of the test is yet to unclear. 
But Mr. Chairman, I think you understand that in virtually 
every school district in America, there's testing that goes on 
every year.
    Mr. Regula. Oh, yes.
    Mr. Boehner. And under the President's proposal, some 
States are already testing in every grade, reading and math. 
Others may be doing other tests. But frankly, I'm not so sure 
that when it's all said and done there's any additional testing 
that's going to result from the President's proposal. I believe 
that the requirement that we'll have in our bill, that we have 
annual assessments in reading and math in grades three through 
eight may in fact replace some other testing that's already 
being done.
    Mr. Regula. Staff just advised me, apparently the budget 
resolution withholds a $1.25 billion from this Committee, 
unless we appropriate a commensurate increase for special ed. 
Well, obviously that's going to squeeze what we have to do some 
of these other things that are embodied in your bill.
    Mr. Boehner. Sounds like a big issue between the 
Appropriations Committee and the Budget Committee.
    Mr. Regula. I've noticed that there's some discussion of 
that. You're going to be involved, too, because you're going to 
bring to us through authorization programs that cost money.
    Mr. Boehner. I'm confident that when the budget resolution 
gets through the House and the Senate and we come to 
conference, that all of these issues will be ironed out to our 
satisfaction, as they always are.
    Mr. Regula. That there will be adequate funding.
    Mr. Boehner. I'm convinced that there will be adequate 
funding. Even though the President has called for an overall 
increase in discretionary funding of about 4 percent, it is 
going to put pressure on all of you to make serious decisions 
about what needs to be funded.
    Mr. Regula. True. Very true.
    Mr. Boehner. But I think it's obvious from all the national 
polling that we see that education is the number one issue in 
the country. The President called for it during his campaign. 
He has devoted serious time to this over the last several 
months.
    And as we get the bill through our Committee and the Floor, 
and the Senate does theirs, I do expect that we will have a 
bill signed into law prior to your bill, your appropriations 
bill, being on the Floor. I would expect that Mr. Miller and I, 
the Ranking Democrat on the Committee, we expect to work 
closely with you as we move through this process.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Mr. Chairman, I have great faith in your 
ability to work those things out.
    Mr. Boehner. So do I.
    Mr. Sherwood. But the assessment issue I think is so 
important. Because parents and students deserve to know where 
they stand in relation to other schools. I think our education 
establishment has tried to push that on the back burner, 
because they don't want the comparison and they worry about 
teaching towards the test and those sorts of things.
    Well, I think our college board tests and so forth have 
told us that if the test is well designed, there are tests that 
work. I like the President's proposal to bring assessment 
forward, testing forward.
    Mr. Boehner. Well, Mr. Sherwood, as a former school board 
member, you understand better than most, well, the Chairman's a 
former member of the education establishment, I might add, but 
the annual assessments really are important, because there's a 
big secret out there. The big secret is that about half of our 
kids just are not learning.
    Now, we've lost a generation of students in our country. We 
can keep looking the other way, and act like it doesn't exist. 
We can continue to allow the disease of low expectations to 
continue. But the people that get hurt the most are the people 
at the low end of the economic ladder in our country, the most 
disadvantaged of our children are the ones who are trapped and 
who will never succeed without an education.
    And although we've done all types of well intentioned 
programs out of here, the fact is that we need to start asking 
for results. And one of the issues that, and Mr. Miller and I 
are in much more agreement than most of you would ever guess 
about the direction of this bill, because the money needs to 
get to those students who most need it.
    Those schools in inner city neighborhoods and rural 
communities, they've got bigger problems. They need the extra 
funds in order to ensure that those kids get a decent 
education. But without the testing, without the bright light of 
truth being shone on what's happening in some of our buildings, 
I don't think we'll ever get there. Because there's a certain 
amount that we can do in terms of the Federal Government.
    But when you put the bright light on what's happening in 
these schools, it will energize communities, businesses, 
parents to get out of their easy chairs, get away from their TV 
and find out what in the world is happening in our schools. 
That is just as important as the change in direction that we're 
going to be proposing the next couple of months.
    Mr. Sherwood. Expectations are the key.
    Mr. Regula. Accountability.
    Mr. Boehner. That's it. We'll have plenty of time to talk 
about it as the year goes on.
    Mr. Regula. I think we'll hear from you in the future.
    Mr. Boehner. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                        HEALTH RESEARCH PROGRAMS


                                WITNESS

HON. CHRIS SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula. Mr. Smith, Chris, health research programs.
    Mr. Smith. Thank you very much.
    Mr. Chairman and members of the Committee, thank you for 
this opportunity to appear before the Committee. I would ask 
that my full statement be made a part of the record, Mr. 
Chairman.
    Thank you. Let me just say on last Congress, I formed, 
along with Congressman Ed Markey a caucus that now comprises 
131 members and continues to grow in the area of Alzheimer's 
research. As all of us know, and many of us have had family 
members who have suffered the devastating impact of that 
disease, as we all know, it's not terminal, but it devastates 
not only the patient but also the family and especially the 
primary caregiver, who often, it turns out to be, is the 
spouse, raising serious questions about respite care.
    But the bottom line is that right now, there are about 4 
million people who have Alzheimer's and many more thousands, 
tens of thousands, who are in the process of developing this 
devastating disease. It's estimated by the year 2050, 14 
million people, today's baby boomers, will have Alzheimer's 
disease in those who are moving into that age category. So it's 
a ballooning epidemic, that if we don't marry up the necessary 
resources in research and trying to get to the cause and 
hopefully to solve it, to reverse it in those who have it and 
prevent it in those who do not have it, we're talking about a 
major----
    Mr. Regula. Chris, I'm curious. Is this prevalent in other 
countries in somewhat the same degree that we have it?
    Mr. Smith. It's a very good question. Increasingly, it's 
recognized that Alzheimer's is a disease of aging. So where you 
have an aging population, and many of our developing countries, 
people simply don't make it into their 60s or 70s. It's 
estimated that anyone who's 85 or older, one out of every two, 
are in some part, one degree or another into Alzheimer's 
disease. So it is a function, to some extent, of our aging.
    Mr. Regula. It has parameters of degrees of severity, I 
assume, from what you are saying.
    Mr. Smith. Yes, there are. It's a progressive disease that 
gets progressively worse as the dementia and the plaques and 
everything else in the brain form.
    Mr. Regula. Then in turn have impact on the physical well 
being of the individual, is that correct?
    Mr. Smith. That's correct. It may not lead to, like we see 
with some diseases, a breakdown where the kidneys don't 
function. It doesn't do that. But it leads to an overall 
deterioration of the patient. They're not as viable. They 
certainly are not interacting.
    But primarily, if they exist and get worse and worse and 
worse, they very often just sit in a chair and do very little. 
They don't recognize family members. And the impact on the 
family members, because I've known so many of them, sometimes 
it's much harder for them, for a husband or wife to go spend 
time with their family member and they don't even recognize 
them.
    So we're asking on behalf of our coalition, of our caucus, 
for a $200 million increase to really declare war on this. 
There have been a number of very promising studies that have 
been done. They're all in one stage or another, and it seems to 
me that this is something we can lick if we again have enough 
resources.
    The second, if I could, because I know we--it's not a vote. 
The second is in the area of autism. I've been involved in the 
autism issue since elected to Congress 21 years ago. On and 
off, I always thought CDC-NIH were doing what they could do, 
inquiries that I would make over the years, particularly in the 
1980s, suggested that yes, we're doing what we can.
    Three years ago, in one of my major cities, Brick Township, 
we discovered that there may be a cluster of autistic children. 
There seemed to be an elevated number, perhaps as much as 
double what the national average was expected to be, which is 
one out of every 500 children.
    We asked CDC to come in, we asked other people from ATSDR 
to come in and do a study. They did. They found out that indeed 
there was a four per thousand, a doubling of instances of 
autistic children in that area. From my contacts since and 
during that process, I have been astonished as to what we don't 
know about autism and how we have almost been frozen in time 
over the last 20 years doing very little to mitigate this 
disease.
    We don't know what causes it, we don't even know what the 
prevalence of this terrible disease is, the reporting that goes 
on in State after State is passive. Most States don't have a 
clue.
    To remedy that, last year I introduced legislation that 
became Title I in Mike Bilirakis' bill of the Centers of 
Excellence to get at the prevalence issue, but also to begin 
looking at what can we do, what triggers autism. We all know 
families who have had autistic children who are into their 
second and going into their third year, all of a sudden, bingo, 
their child can't communicate. And this developmental disorder, 
for whatever the trigger is, becomes very compulsive and again, 
they start down a course of expenses and tragedy, even though 
they love their children desperately, it is a heartbreak like 
few heartbreaks one can experience.
    We're asking for a very modest $5 million to try to, in 
addition to what's already been allocated, to try to, it would 
be for the Center for Birth Defects and Development 
Disabilities at CDC. We've scoped it out, we think it's a good 
idea. We ask you to take a look at it. More needs to be done 
without a doubt. New Jersey has taken the lead. We don't know 
why there seems to be an elevated number in New Jersey. If 
there is one. There may be no cluster. There may be a problem 
that is going on everywhere else, it's just been below the 
radar screen.
    And I would hope that you could take a look at this as 
well.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. No questions, Mr. Chairman.
    Mr. Regula. Well, I'm sure, Chris, both of these require 
attention. I think NIH is working on them, and as you know, 
there's been a commitment to double their budget over a five 
year period. And I assume the groups contact them, because they 
do allocate resources at NIH. We don't try to dictate just 
where they should do their work.
    Mr. Smith. I do understand that, and I think they have 
realized maybe belatedly, because they have such a full plate, 
just that this has been underfunded in the past and this is a 
problem overseas as well. In Poland, for example, I've been 
working with a group that's, they don't know how to deal with 
it. Some of our people, Johnson and Johnson has been active in 
this. There seems to be a gross under-reporting of these cases 
as well over there. I'm sure as we get into the surveillance 
and the prevalence issue, we're going to find that there's so 
much more that we don't know. The numbers are higher, and I say 
that as a tragedy.
    Just one final point. We have formed a caucus, Mike Doyle 
and I formed it this year, we have 101 members, and that's 
growing as well, to deal with the issue of autism. I know 
you'll be very sympathetic, and I look forward to working with 
you.
    Mr. Regula. Thank you for coming.
    Mr. Smith. Thank you, Mr. Chairman, Mr. Sherwood.
    Mr. Regula. We'll recess until 2:00 o'clock this afternoon.
    [Recess.]
                              ----------                              


                           Afternoon Session

    Mr. Regula. Well, Wes, you are number one.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                 WITNESS

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Watkins. First, let me say congratulations, Mr. 
Chairman to you, after many years of serving in the Interior. 
Well, you are still in the Interior, but you are just not the 
Chair over there. I appreciate the opportunity, and I 
appreciate all your work over all the years on the various 
committees, and especially Interior, and now as Chair of the 
Subcommittee on Labor and HHS.
    Mr. Chairman, you know, you have probably heard me over the 
years talk about our needs in the rural and economically 
depressed areas of the southeast Oklahoma quadrant. I have 21 
counties in my district, and all of them are rural, and also 
the Tulsa area, which is doing well economically, and the big 
Oklahoma City metropolitan area. I have got a nick that goes in 
between, and then all of the southeast part.
    Mr. Regula. They do not have any oil, do they?
    Mr. Watkins. They have very little on the far west side. 
That touches very little of my overall district.
    But one thing that has not touched us is the fact that we 
have been left behind economically speaking, with all the 
manufacturing. I do not have a Fortune 500 company in my 
district. I have got some timber in one area that is 
warehoused, but I do not have big, huge manufacturing.
    I am a product of out-migration. When I was growing up, my 
family had to leave three times to go to California and search 
for jobs. That is what made the burning imprint on my life 
about going into public life, in order to try to build the 
economy and build jobs. As I have told people before, I am not 
in politics as an end, but politics as a vehicle.
    We are trying to change that. We have done some good, and 
we have still got a long way to go. The per capita income in my 
district is about 60 percent of the national average; not the 
top, but it is about 60 percent of the out-migration.
    Like I said, we have been doing some good. We have had to 
do a lot of things on our economic infrastructure. One of the 
things also that has happened to us is we have been passed by 
the high technology, the information technology, in that rural 
area of the state of Oklahoma. The big cities, again, are doing 
well.
    What I am trying to do, I am working with Career Tech. 
Career Tech is the state vocational technical education system 
all across the state of Oklahoma. I am working with them trying 
to work through the hub and provide the high tech potential in 
that area. We call it REVTECH.
    Last year, the committee provided $921,000. I am asking 
this year, Mr. Chairman, and I hope you will be able to help 
us, for about $1.25 million to help work with the State 
Department of Career Tech. That would allow us, in a lot of 
those different areas, to be able to provide the necessary 
wiring, the technology, et cetera, to be able to attract more 
people.
    For instance, I work with an industry that is up around 
Tulsa, but not in my district. They said they could hire 500 
more people if they could find trained people. Well, I have got 
500 people, but they are scattered throughout my area, if I can 
get them all together.
    So that is the one request that we have up at the top of 
the list. The other is the fact that for many years, I have 
worked on international trade. The reason for my commitment and 
dedication to international trade is the fact for every $1 
billion of increase in trade, you actually produce about 20,000 
jobs. So it makes a lot of sense.
    Mr. Chairman, I know your background is in rural areas, and 
some of it is in agriculture. I think, if I recall, you were 
out on the farm there.
    We are not going to save rural America just with 
agriculture alone. I say that with two degrees in agriculture. 
I love agriculture. But we have got to have off-farm jobs some 
way to be able to survive or to be able to re-build our small 
communities.
    We are working also on the international trade aspect of it 
at Oklahoma State University, our land grant university there. 
This committee helped last year with $320,000. I am asking, if 
you could, give us $750,000, or as close to that as you 
possibly can.
    The other thing that you worked with me on last year on the 
committee was Fragile X, and I am just asking for language as 
to the help on working with that. That is one of the things 
that has come along, that has dealt with the retarded. They 
have made some very scientific breakthroughs, and I have got 
some language in there for that.
    The other request, and I have had several others, but this 
other one is the one new one. It is the Seminole Junior 
College, or Seminole College. They have got dormitories, but 
there is some renovation that needs to take place there, if 
they are going to be able to continue to use them. I am trying 
to figure out how we can get that done.
    I have said to community there that I would do my best to 
try to help them with some renovation some way, if we possibly 
could. So that would be a big help to that community.
    Mr. Regula. Is that BIA operated?
    Mr. Watkins. No, it is not, but there are a large number of 
Native Americans there. In fact, Mr. Chairman, and you probably 
know this from your work with the Interior, Oklahoma has got 
the highest percentage of Native Americans of any state in the 
nation. In fact, close to 22 percent are in Oklahoma.
    Mr. Regula. Okay, we will look at them.
    Mr. Watkins. If you could help me, sir, I would appreciate 
it very, very much. This is a committee that I felt like there 
are some things there that maybe you could help us. I really 
would appreciate it.
    Mr. Regula. It will depend a lot on what we have available 
to work with.
    Mr. Watkins. Being on the Budget Committee, I am trying to 
do my best to let you have as much as we possibly can.
    Mr. Regula. We look forward to that, Wes.
    Mr. Watkins. We will keep pushing for it.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Ms. Mink, I see you have various programs, too.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. PATSY T. MINK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII
    Mrs. Mink. I brought a very modest list. [Laughter.]
    Thank you, Mr. Chairman. I do not know how long my voice is 
going to last, so may I just ask unanimous consent that my 
testimony be inserted in the record.
    Mr. Regula. Yes, all the testimony will be included in the 
record.
    Mrs. Mink. I also brought with me a letter which 85 members 
have signed with respect to the ovarian cancer research. I 
believe you are familiar with my annual trek to this committee, 
urging that more funds be committed to this research.
    Mr. Regula. That would be through the NIH.
    Mrs. Mink. Yes, that is correct. I remember when I started 
this campaign for funding for research in this area, that the 
NIH was only spending $7 million. Today, it is up around $70 
million, but we need a lot more.
    It is a very tragic situation where the situation of our 
research has not come to a point where an early detection test 
has been found. I believe they are close to it, but until we 
can find a satisfactory detection for ovarian cancer, we are 
going to continue to lose many, many thousands of young women. 
A lot of the women who come down with this are in their mid-to-
late 30s. It is very, very tragic.
    About 23,000 women are diagnosed each year. Most of them 
are in their late stages, where they cannot be saved. So the 
mortality every year is about 14,000, which is the highest in 
the reproductive illnesses.
    So I think it really takes a determined effort on the part 
of this committee to recognize the enormous situation that 
women are in today.
    There are no symptoms for ovarian cancer, usually, that the 
doctors can detect by physical examination or by pain or other 
kinds of things. So unless we have a test, it is not going to 
be possible to save these lives. So the research is really 
very, very critical.
    My bill that I have circulated in the House with about 115 
co-sponsors asks for a $150 million commitment. I hope that 
this committee will find the necessary funds to make that 
possible.
    The other institute which I feel needs to have real 
attention is the National Eye Institute. We are not aware of 
how many people in America suffer from eye diseases. We need to 
spend more money on research, money to determine why these 
illnesses occur, and what can be done to alleviate this 
condition.
    Some of it has to do with diabetes and other kinds of 
related illnesses. But the NEI, which is a separate institute, 
the National Eye Institute, is currently funded at $510 
million. This year, I am hoping that you will be ableto go up 
to $604 million for this institute.
    Last year, we had put in a bill asking for the funding to 
be doubled in at least five years, and we are marching steadily 
ahead. So I hope that the progress that we have gained in the 
last several years will not be stayed in any way, and that we 
will continue.
    The last item is one that relates to education funding. We 
are really absolutely transfixed on the fact that our young 
people are killing each other in our schools for almost no 
understandable reason. A lot of them are from middle class 
neighborhoods, coming from well stationed families, without any 
clear evidences of problems in their homes.
    The Speaker, Mr. Hastert, established a task force last 
year on school violence. I was fortunate enough to serve on 
that. Most of us had various approaches to it. But the one 
thing that we agreed on was the necessity for having additional 
staff put into our schools, particularly in the intermediate 
years.
    We do not want to call them counsellors, because they 
already have categories for those people. We do not want to 
call them social workers or whatever. So we came up with the 
title, school-based resource staff.
    The schools could then pick whatever kind of personnel they 
felt suited for their particular school situation. But what we 
want to do is to get a ratio of one of these resource staff 
people per every 250 students.
    That is still a high ratio, but we think that is a starting 
point. In order to get there, Mr. Chairman, we have a target of 
100,000 additional school-based personnel. I hope you will come 
up with the funding necessary to support it.
    Mr. Regula. Would you contemplate 100 percent of that being 
Federally financed?
    Mrs. Mink. Yes, 100 percent; it is like 100,000 teachers, 
to phase them in. But the target is 250 to one ratio, 
ultimately.
    Some schools already have that. So they would not be 
getting into this particular fund. But for those school 
districts that do not have these extra personnel to take care 
of handling the students, this is not the chore of the 
curriculum-type person or the vice principal, who has to do 
administrative work, or worry about discipline and those kinds 
of things.
    This is a school personnel individual that is there solely 
and exclusively to deal with the students, so they can go to 
someone with their problems; or if they hear something about 
someone making some outrageous statements or threats, they can 
go to this individual, without the fear of peer pressure and so 
forth. They can go to this individual and tell us staff person 
what they heard, and let the staff person decide to what level 
that should be taken.
    We think that this is a position that the Federal 
Government can take very, very easily. Our task force that the 
Speaker appointed unanimously agreed that this is a step that 
must be taken.
    So I thank you very much for your consideration.
    Mr. Regula. Thank you for coming, Patsy.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Next is Billy Tauzin from the great state of 
Louisiana. Boy, you are just getting warmed up down there on 
your celebrating, are you not?
    Mr. Tauzin. Lent time is a time for rest.
    Mr. Regula. So you are resting now, is that it? [Laughter.]
    Mr. Tauzin. We are paying for our sins.
    Mr. Regula. Well, you need more than 40 days.
    Mr. Tauzin. Actually, 40 is a good start.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. BILLY TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Tauzin. Mr. Chairman, thanks for having me. I bring to 
you today a young friend of mine who has been before the 
committee for three years now. His name is Keith Andrus. He is 
a ninth grade student, and he happens to be the son of my 
office manager, Rachel Andrus. She and her husband, Ron, are 
here with me. He is also afflicted with Friedreich's Ataxia. 
Now Friedreich's Ataxia and Usher Syndrome are very rare 
disorders which occur in rural medically under-served Cajun 
populations at a rate of 2.5 times the national average. It is 
genetically, apparently, connected and, as a result, the Cajun 
population in my state have severe incidents of this particular 
disorder.
    It is rare. It is degenerative. It severely diminishes the 
physical abilities, and ends up confining patients to 
wheelchairs by their late teens.
    The quality of life is heavily comprised and, sadly, 
because of heart problems, life expectancy is shortened to 37 
years. Currently, Mr. Chairman, there is no treatment and no 
cure. Keith stands as an example of courage, in the face of 
that kind of a statement: no treatment, no cures.
    By the way, there are many people across America who face 
this disorder. There is a young family in Ohio, in Struthers, 
Ohio. They are a very closely knit family with a mom and dad 
and three kids. One of the twin boys has Friedreich's Ataxia. 
That is in your own home state, just asan example.
    But across America, families like them watch their children 
grow up knowing that so far, there is no treatment and no cure.
    We are trying to do something about that. I am pleased to 
tell you that your subcommittee established at home in 
Louisiana the Center for Acadiana Genetics and Hereditary 
Health Care. It was established through a health care outreach 
grant. It is administered through the Health Resources and 
Services Administration.
    For three years, you have helped fund this center. By the 
way, it is heavily supported at home. Over 50 percent of its 
support comes from state and voluntary contributions. We are 
asking your support for the $1.5 million of Federal funding to 
keep the center open.
    Mr. Regula. It was $921,000 last year?
    Mr. Tauzin. Right, and the center, Mr. Chairman, links the 
School of Medicine, the Biomedical Center, the hospitals, the 
rural clinics, and a strong telecommunications network to 
provide urgently needed health services, information, and 
education regarding these kinds of genetic diseases.
    By the way, this is, of course, not the only disease that 
is genetically connected. Through the work of the center, in 
connection with other genetic research done around the country, 
we are learning and discovering much more about Usher Syndrome 
and diseases like diabetes, cancer, heart disease, Alzheimer's, 
Parkinson's and other psychiatric disorders.
    But here is this kid and his hope, literally, lies with 
you. Will we find a cure; will we find a treatment in time?
    Mr. Regula. Well, we have done a lot with genetics.
    Mr. Tauzin. We are doing an awful lot.
    The work that your committee has done is supported at NIH. 
We, at Energy Commerce, have jurisdiction over at NIH. I want 
to thank you from the bottom of my heart for the commitment 
that you have made to NIH.
    Mr. Regula. You did the authorizing in your committee.
    Mr. Tauzin. So we are connected here, Mr. Chairman. We will 
continue to be connected in this vital effort.
    But the bottom line is that we can not stop this kind of an 
effort. This kind of an effort may lead to a day when I can 
bring Keith here and say, guess what, we have found a cure; we 
have found a treatment in time for him and in time for others 
like him, and families like him.
    Mr. Regula. It seems to me that the potential lies in the 
genetic research that they are doing today.
    Mr. Tauzin. In fact, at one of the hearings, Mr. Chairman, 
we heard that work being done in a completely different area 
yielded some very exciting information that may, in fact, touch 
upon Friedreich's Ataxia one day.
    The neat thing about the work being done in all these 
different areas is that with the human genome completed, we are 
going to be able to tie some of that work together and discover 
how one has application on the other.
    My plea to you today is not for a large sum. I am not 
asking for half a billion dollars or hundreds of millions of 
dollars, just $1.5 million to keep literally hope alive for 
this young man and others like him.
    I lay it again at your feet and ask you humbly to take it 
seriously, and to keep this thing alive for him.
    Mr. Regula. Well, we have a lot of challenges on this 
committee, as you can fully understand. A lot of what we can do 
is dependent on funding. We are doing some wonderful things in 
research, and we hope that this will be one of them.
    Mr. Tauzin. Oh, I have no doubt that it is. Keith will tell 
you that he has no doubt. With the advances we are finding, he 
has no doubt that we are going to find it in time. His family 
has no doubt. I just want to commend him for his personal 
courage, and for his family's courage.
    Mr. Regula. Does he go to school here in Washington?
    Mr. Tauzin. He is here in school.
    Go ahead and say hello, Keith. What school do you go to?
    Mr. Andrus. Woodson High School
    Mr. Regula. Is it in D.C.?
    Mr. Andrus. In Virginia.
    Mr. Regula. In Virginia; that is Fairfax County, probably.
    Mr. Tauzin. Keith is already having great difficulty 
walking. As a result, he can not carry hot liquids or liquids, 
because of health reasons. Every year that Keith has come, the 
committee has been able to see how the disease is wrecking his 
frame and hurting his chances for a good healthy, long life.
    Mr. Regula. Keith, we will make every effort to help the 
NIH find a cure. Thanks for coming.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Thank you all.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Yes, Mr. Stupak, you are just in time.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman, Nancy; thanks for 
giving me the call and saying, come on over in a hurry. I was 
just down the hall, and I made it. [Laughter.]
    We have a number of requests for the committee's 
consideration, today, Mr. Chairman. First, let me start with 
Operation Uplink. This involves technological assistance to the 
Upper Peninsula of Michigan. What we are looking for is $2.5 
million to fund an initiative to comprehensively design and 
advance an information-based infrastructure in the Upper 
Peninsula.
    What we are really saying is this. Northern Michigan 
University, Michigan Technological University, Bay de Noc 
Community College, Marquette General Regional Hospital, our 
regional libraries, economic development, and local government 
would like to get linked up. In doing that, we want to look at 
certain factors which are unique to the Upper Peninsula.
    If we could get a well-designed telecommunications 
infrastructure, we would have the opportunity to level the 
playing field between rural areas, like my district, and the 
urban areas.
    Mr. Regula. Would this require fiberoptics, or what type of 
link are you contemplating?
    Mr. Stupak. With the technology clusters that we are 
talking about, and this last mile of connections that theyare 
talking about, it would be better than the fiberoptics. We have some 
fiberoptics around Marquette and the rest of the Upper Peninsula. We 
are talking about high speed Internet, broad band access, things like 
this.
    In my district, even with this great economy that had been 
going for the last few years, the Upper Peninsula still had 5.8 
percent unemployment. In Michigan Tech, where part of this is, 
it is around 10 to 12 unemployment.
    What we are saying is, in order to compete and to really 
get our future going, we really would like to have this UP 
uplink program going.
    If you take a look at it, Mr. Chairman, it is not much 
different than what we did. I have introduced legislation in 
the past to bring electricity, to bring telephones, to bring 
those services to rural America.
    This is one region of the country that is geographically 
unique. We have always had a problem with high unemployment, at 
5.8 percent, while the rest of Michigan was 3.6 percent. I said 
some parts, in the winter months, like on the eastern end of 
the Upper Peninsula, unemployment is 30 percent.
    Now when the ice leaves the lakes, as you know, come 
summertime, they would have virtually no unemployment; but for 
four or five months out of the year, we are at 30 percent 
unemployment. What do you do on those cold winter nights? If we 
had the technology, I think there are a lot of things that we 
could do and can do.
    That is where we would like to go with that opportunity. It 
is $2.5 million. I would hope that you would take a look at 
that request.
    The next one is for our gerontological studies, basically 
for senior citizens. Again, this is at Northern Michigan 
University, the Upper Peninsula. Our population is about 12 
percent senior citizens. On the western end, again, we just did 
a study in Kohebic, in Ougan Counties, and it is 25 to 30 
percent of older population that is 65 and older.
    While we would like to use the center for research, 
education, community service in rural Michigan, that is related 
to older individuals and the aging process. It would be the 
knowledge of the aging process and the aging network, and its 
service provisions apply information as a mechanism to enhance 
the lives of people who reside in rural communities like 
Michigan's upper peninsula.
    This would be worked out in Northern Michigan. Again, these 
two programs almost go hand in hand.
    Thirdly, Mr. Chairman, Northwestern Michigan College, you 
helped them out last year. This is in Traverse City. Again, 
they want to operate a life-long learning center on the West 
Bay Campus.
    The senior citizen center is there. It is a waterfront 
area. The lifelong learning center would be the hub for 
participatory learning for faculty, staff, and students at 
Northwestern Michigan Community College in Grand Traverse 
County.
    As you know, Mr. Chairman, this is probably one of the 
fastest growing areas of Michigan. Retirees leave the auto 
plants in southern Michigan and they come up to my district to 
retire.
    Traverse City and Northwestern Michigan have been a leader 
in trying to provide senior programs. Again, this would go with 
Northwestern Michigan College in Traverse City.
    Last, but not least, the Olympic Scholarship is a program 
that we have been here a couple of times, advocating for in the 
last two years. You have funded it, which has helped out many 
athletes. Athletes train at our four Olympic Centers in 
Marquette, Michigan; Lake Placid, New York; Colorado Spring, 
Colorado; and outside San Diego, California.
    These athletes, most of them are young people. They are in 
sports such as speed skating, boxing, Greco-Roman wrestling, 
many of the Nordic sports.
    There are no scholarships for them. But they are willing to 
train. They take money out of their own pockets. They go all 
over the nation, doing training, competing. They go to Europe, 
where they get some help.
    At the same time, many of these people would also like a 
degree. Even if you won the gold medal in Greco-Roman 
wrestling, I do not know how you could make that into some kind 
of an economic benefit for the rest of your life, or speed 
skating.
    Even though we may win the gold medal, like some of the 
athletes that came out of Marquette, a couple of Olympics ago, 
and we may win the speed skating, there is no career in that. 
There is nothing.
    So where they are putting in all the hours, we think we 
should have an Olympic education training center, as Northern 
Michigan and these others are, and let them go to school, give 
them a scholarship, let them train.
    The boxers start at 5:00 in the morning. I have been up 
there talking to them many times. Many of them come from inner 
cities. Many of them come from poor backgrounds. They are 
there, and if it was not for the Olympic scholarships, not only 
could they not probably participate and train and work for the 
Olympics, but at the same time, they are getting a quality 
education.
    So the Olympic scholarships have been a great advantage to 
the four sites throughout this country. I hope you would fund 
it again.
    That is a quick overview. Like I said, I literally ran down 
here, and I think I ran through my report, too. But it is all 
here, and it is 15 pages. I am not going to read it. But if you 
have any questions on any of these three programs, that I have 
outlined, I would be happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Okay, thank you; are there any questions?
    [No response.]
    Mr. Regula. Thank you.
    The Olympic Center is named after your son, I believe.
    Mr. Stupak. Yes, that is true, and I thank the committee 
for that courtesy that they have shown us. Thank you.
    Mr. Regula. Thank you.
    Next is Representative Danny Davis.
                              ----------                              

                                           Tuesday, March 27, 2001.

                      CONSOLIDATED HEALTH CENTERS


                                WITNESS

HON. DANNY DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Davis. Thank you very much, Mr. Chairman and members of 
the subcommittee. I am pleased to provide the subcommittee with 
testimony in support of the urgent need to increase funding by 
$250 million for the Consolidated Health Centers Program; that 
is community, migrant, homeless, and public housing health 
centers, to at least $1.419 billion for fiscal year 2002. I 
realize that this committee has been very supportive of the 
community health center program in the past. In fact, members 
on both sides of the aisle of this committee have united to 
advance this program. It is a true testament of the integral 
role health centers play in the delivery of health care for 
this nation.
    I appreciate the committee's support last year of our 
request for a $150 million increase. Unfortunately, the $150 
million increase has only enabled health centers to serve 10 
percent of the Nation's 43 million uninsured people. With the 
uninsured population continuing to grow at a rate of over 
100,000 individuals per month, it is estimated that the 
uninsured population will reach over 53 million by 2007.
    There is no question that much more needs to be done to 
expand health center services to reach more uninsured people, 
and to continue to provide quality care to existing health 
center patients.
    I applause President Bush's recent call to double the 
number of patients served by community health centers, enabling 
millions more to have access to the most basic health care.
    In fact, the President's budget has recommended a modest 
increase of $124 million for the health center program. I 
believe that is a good start, but because of the demand for 
health care and the rise in the number of uninsured, I believe 
we will need to raise that number to $250 million.
    With an additional $250 million, health centers will be 
able to serve and expand facilities in rural and urban 
communities, and see an additional 700 patients.
    Our nation is still divided when it comes to health care; 
that is, those who have and those who have not. I have had the 
good fortune to work directly with and in community health 
centers, prior to running for public office.
    It has been my testament and my goodwill to see that there 
is no other group of centers or programs in the nation that has 
been able to provide the kind of access to health care that 
these centers have given.
    So, Mr. Chairman, I would urge that we seriously look at 
increasing by $250 million, so that all of the uninsured people 
in this country, who would then benefit, would come out of the 
uninsured, to the serviced area.
    I thank you, Mr. Chairman. It has been a pleasure to be 
here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. They use a lot of volunteers, am I correct, in 
the community health centers?
    Mr. Davis. Well, they used to. Volunteerism in this country 
is not quite what it used to be. They use volunteers. But these 
centers basically started out of the old OEO programs. They 
were put in urban and rural communities where nothing hardly 
was there.
    Many of them have become the centerpieces for economic 
development in those communities, as well, and they are the 
biggest thing there. They provide not only health care, but 
they have provided employment opportunities, business and 
economic development opportunities, and they are pretty much 
considered to be community-owned. People feel really good about 
them.
    Mr. Regula. I am sure that is true. We have one in our 
area.
    Are there any questions?
    [No response.]
    Mr. Davis. Thank you very much, Mr. Chairman and members of 
the committee.
    Mr. Regula. Thank you.
    Next is my colleague from Ohio, Mr. Kucinich.
                              ----------                              

                                           Tuesday, March 27, 2001.

                 UNITED STATES HOUSE OF REPRESENTATIVES


                                WITNESS

HON. DENNIS KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Kucinich. Good afternoon, Mr. Chairman.
    Mr. Regula. Dennis, we are happy to welcome you.
    Mr. Kucinich. It is my pleasure to be in front of your 
subcommittee. I appreciate it very much. Good afternoon to my 
colleagues; I appreciate the chance to be in front in your 
committee. With the permission of the Chair, I will begin 
whenever it is appropriate.
    Mr. Regula. Go ahead.
    Mr. Kucinich. Thank you very much for the opportunity to 
appear before the committee. I am urging the committee to 
prevent the use of Federal funds for prolonging the public 
comment period of the final Medical Privacy Standards.
    Last month, a new 30-day comment period was opened on the 
standards mandated by the Health Insurance Portability and 
Accountability Act, and several industries are lobbying to 
extend the period even further.
    These regulations are long overdue. When Congress passed 
HIPAA in 1996 with strong bipartisan support, it required HHS 
to promulgate rules by August 23rd, 1999, if Congress did not 
legislate. During HHS' work on the regulations, Congress and 
other interested parties articulated their views.
    In September, 1997, the Secretary of HHS submitted a health 
privacy report to Congress and testified before the Senate 
Committee on Labor and Human Resources. Several bills were 
introduced.
    The proposed rule was published in November, 1999. Industry 
and consumer groups asked for the comment period to be 
extended, and HHS pushed the deadline back by 45 days.
    The rule generated extraordinary feedback; 52,000 comments. 
Clearly, the health care and insurance industries have had 
ample opportunity to make their voices heard, and have done so.
    Now the industry groups seeks to weaken the medical privacy 
law by delaying the rule's implementation. The rule already 
allows health plans two years to comply, and gives small plans 
an additional year beyond that deadline. These groups do not 
have a leg to stand on in lobbying for continued delay.
    They have had plenty of input into the regulations, have 
known for five years that the regulation was forthcoming, and 
now have another two to three years to meet the deadline.
    By not implementing the rule, not only are the medical 
privacy of patients put at risk, but so is the privacy of their 
Social Security numbers, the privacy of their financial 
information, their ability to maintain health coverage, and 
even keep a job. That is really the core of this.
    Here are some examples of abuses that have occurred because 
of the lack of medical privacy laws. Last December, Terry 
Sergeant, a North Carolina resident, was fired from her job, 
after being diagnosed with an expensive genetic disorder.
    Three weeks before being fired, she was given a positive 
review at work and a raise. She suspects her self-insured 
employer found out about her condition and fired her to avoid 
the medical expense.
    A truck driver in Atlanta was fired from his job after his 
employer learned that he had previously sought treatment for a 
drinking problem.
    A California woman requested that her pharmacy not disclose 
her prescription information to her husband, from whom she had 
separated. When he contacted the pharmacy, he received a copy 
of all of her prescription records, and then gave them to the 
rest of the family, her friends, the Department of Motor 
Vehicles and others, claiming she was a drug addict and a 
danger to her children.
    A banker who served on his county's health board cross-
referenced his customer accounts with patient information, and 
then called the mortgages of anyone with cancer.
    The University of Michigan Medical Center inadvertently put 
several thousand patient records on public Internet sites for 
two months in 1999. Only when a student searching for 
information about a doctor found links to private patient 
records with numbers, job status, medical treatments and other 
information was the problem discovered. It goes on and on and 
on, Mr. Chairman. I will submit, with the Chair's permission, 
all of this testimony.
    But what it comes down to is that the implementation of the 
Medical Privacy Rules on April 14th ought to be strongly 
considered. Americans long ago asked Congress to respond to the 
threat of vulnerable privacy records, and many have already 
suffered from abuse of private information made public.
    This committee can ensure that these protections go into 
effect if you prohibit the use of funds in this bill to delay 
the implementation of the medical privacy regulations any 
longer.
    I am here presenting this in my capacity as the Chair of 
the Progressive Caucus. I thank the Chair for his indulgence 
and I thank the members. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are there any questions?
    [No response.]
    Mr. Regula. Thank you.
    Mr. Kucinich. Thank you and good afternoon.
    Mr. Regula. Do we have any other members here? Don Young is 
the next one on the list.
    Mr. Kucinich. Mr. Chairman, in concluding, I am just going 
to submit all of this record, if the Chair would accept it.
    Mr. Regula. Oh, yes, all statements are part of the record.
    Ms. Pelosi. Would the Chair yield?
    Mr. Regula. Yes, certainly.
    Ms. Pelosi. Mr. Chairman, I do not know whether you saw it 
last night, but on TV on PBS, they had a special presentation. 
What it consisted of, largely, is something of interest to the 
committee. It was about environmental health.
    What it was, it was the release of documents from the 
chemical industry, as to what they knew and when they knew it, 
about danger to workers in the work place, and communities 
surrounding these factories.
    Last year, as I have mentioned a couple of times in our 
hearings, under Chairman Porter's leadership, we had a hearing 
on environmental health. Scientists came and talked about the 
need for bio-monitoring to monitor what people are breathing 
and drinking in the water, from chemicals in the environment.
    It was a very important hearing. In fact, I have been on 
the committee, and others who have been on it longer, do not 
recall us ever having a hearing on a single subject. Usually, 
we have hearings of this kind.
    So that hearing, plus the funding and the generosity of 
this committee to fund the CDC over the last four years to 
increase the funding of the environmental health project, have 
taken us a long way down the road to having an understanding of 
the connection between health or disease and chemicals in the 
atmosphere or in the water.
    I would commend Moyer's show to the Chairman's attention, 
and to all of our colleague's attention. Certainly, we want to 
have a balanced approach as to how we go forward. We do not 
want to do anything that is not science-based. But certainly, 
on behalf of our children's health, we really do not know what 
risk we are putting children at.
    Of course, because they are younger and developing, they 
are impacted more directly and more negatively than older 
people.
    Mr. Regula. Well, it seems to me, we have had an EPA for 
many years, and we have all these agencies. Would they not have 
a vast body of knowledge about these types of hazards?
    Ms. Pelosi. You would think so. In the testing that is 
done, you know, they will test the air, they will test the 
water, and they will test this or that. But this is the work 
that we are doing now to see what to monitor in human beings.
    Because of the generosity of this committee over the past 
few years, the CDC is in a much better position to do some of 
the monitoring, which I think you have heard in one of the 
points that Mr. Stokes made, when he was here, on the 
environmental health issue that he is working and that 
monitoring.
    Then we see that children have higher incidences of asthma, 
because of the atmosphere in which they live and that the 
connection between the environment and health is a direct one. 
The committee has taken the lead on this. I think it would be 
interesting to see some more evidence on that.
    Mr. Regula. What conclusions did Moyer reach, or what 
recommendations, if any?
    Ms. Pelosi. Well, the whole point was that we have to have 
data. We have to have a ground truth on the basis of which we 
go forward. Even the chemical industry admitted in their own 
statements that we really do not know what some of the risks 
are to these. Even though they have set out to make some tests, 
they have not done them, yet.
    Again, this is information that would be useful to the 
committee. The committee has to have a scientific basis and 
data on which to make judgments. This is another piece of 
information that I think would be useful to the committee, as 
it balances its decisions.
    Mr. Regula. Where did you see this?
    Ms. Pelosi. It was on PBS, and it was called ``Trade 
Secrets.'' Basically, what it was, a lot of the chemical 
industries, over the past 40 years, have known the danger that 
their chemicals have posed to the public, but have kept that 
information from the public.
    Indeed, in their own documentation, they show how, when 
they were going to go to NOISH, which is the science part. OSHA 
is the work place safety and NOISH is the scientific research 
part of it.
    They said, well we cannot deny if they ask us, but we will 
not volunteer the information, even though NOISH had put out a 
call for all information regarding some of these chemicals in 
the atmosphere. So it is interesting.
    Mr. Peterson [assuming chair]. I think the situation with 
liability that we have, I know ladder companies, and this is on 
the whole safety side, were hesitant to improve the ladder, 
because they admit then that the ladder was not as strong and 
safe as it could have been with the new improvements, and they 
were instantly liable, if anybody got hurt on the old ladder, 
so they never put the new structure out or changed it.
    I have a feeling that companies, as they improve their 
processes, realize that they have come up with a new process 
that is better than how they were doing it, but instantly are 
liable to the trial lawyers for cases, because they have now 
improved the process. They have found out how to reduce it. I 
mean, I really think this thing cuts both ways.
    Ms. Pelosi. I say we have to balance that. You bring up an 
interesting point. When I say this was a trade secret, all of 
this was largely a presentation of their own documents, of the 
documents of the chemical industry that are now public.
    One of the things that does not relate to workman's comp or 
anything like that is, for example, hair spray, and what is 
involved in aerosol hair spray. If you have it in the work 
place, you have some protection in liability, because of 
workman's comp and this or that.
    But once that is proven to be a danger to the general 
public, then it is a different dynamic, if you were to be sued 
or something like that. So they have, in this case, even more 
reason to keep the information secret, not because of what it 
meant in terms of work place, but what it meant in terms of the 
general public.
    I see that one of our colleagues has arrived. Again, this 
would be a good committee, because we have the CDC. We have the 
NIH. We have the science at NOISH. We have the scientific 
institutions, as part of our dynamics.
    We do not want to proceed on a notion or emotion. We want 
to proceed on the basis of science. This is a very valuable 
contribution, in terms of avoiding the science.
    We have a different responsibility, I think. But we do have 
responsibility for balance, and I look forward to working with 
you on that.
    Thank you, Mr. Chairman.
    Mr. Regula [resuming chair]. Thank you, Nancy.
    We have a health care task force group. The first speaker 
in that group will be our friend from Ohio, again, Mr. 
Kucinich, and I believe Ms. Christenson is here, also.
    Ms. Pelosi. Mr. Chairman, I am sorry, I did realize Mr. 
Kucinich was coming forward again, or I would not have 
continued.
    Mr. Regula. No, that is all right. I think it is a real 
problem.
    Ms. Pelosi. For everything that I have said, it is more so 
in minority communities and disadvantaged communities, because 
that is where a lot of these chemicals are.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Representative Kucinich.
                              ----------                              

                                           Tuesday, March 27, 2001.

    HEALTH CARE INSURANCE PORTABILITY AND ACCOUNTABILITY ACT (HIPAA)


                                WITNESS

 HON. DENNIS KUCINICH, CHAIR, CONGRESSIONAL PROGRESSIVE CAUCUS HEALTH 
    CARE TASK FORCE
    Mr. Kucinich. Mr. Chairman, it is a pleasure to be a part 
of your committee once again. I thank you very much for the 
chance to appear, and to Ms. Pelosi. I saw that two hour 
program. We will have a chance to chat about it soon; thank 
you. I am here on behalf of the Congressional Progressive 
Caucus, of which I am the Chair, and to address some issues 
that I know this committee is very concerned about.
    America is home to the most advanced medical research 
facilities and scientists in the world. In part, that is 
because this committee has provided funding and guidance to 
achieve it.
    I am pleased that so many of my colleagues have supported 
doubling the budget at the National Institute of Health. I 
think we all appreciate the priority of finding therapies and 
cures for diseases and other ailments to improve public health; 
but America is home to irony, as well.
    For example, the United States ranks 25th among other 
nations in infant mortality rates, which is twice the rate of 
Singapore, which has the lowest rate. These statistics reflect 
the gross failure of our health system to provide access to 
adequate prenatal care.
    Every day, 410 babies are born to mothers who receive late 
or no prenatal care, according to the National Center for 
Health Statistics. African American infants are more than twice 
as likely as white infants to die before their first birthday.
    Among others, the United States ranks 20th in maternal 
mortality levels. According to the World Health Organization, 
half of these could be prevented through early diagnosis and 
appropriate medical care of pregnancy complications.
    For a country with advanced medical technology, it is 
unfortunate that mothers and infants do not have access to 
basic preventive health care. This example illustrates the 
broader point that this committee must also fund programs to 
get cures that we pay for to the people who need them, prevent 
disease, and ensure a minimum level of health care to every 
American.
    The AIDS crisis in our country requires a comprehensive 
strategy, meaning prevention therapy and research for a cure. 
Up to 900,000 Americans are now infected with HIV, and half of 
this population is under the age of 25.
    This committee, I hope, will be able to fund the following 
programs at the Centers for Disease Control to prevent 
infection and provide care for those who are infected: 
prevention activities that depend on CDC funds given to local 
health departments; HIV Prevention Community Planning Groups, 
and the Substance Abuse Prevention and Treatment Block Grant.
    The minority HIV/AIDS Initiative works on both prevention 
and providing care resources in communities of color, where the 
major of new AIDS cases occur.
    In order to provide care for those infected with HIV, the 
Ryan White CARE Act and the Housing Opportunities for People 
with AIDS Program support a range of services. This coordinated 
group of programs is crucial to dealing with the HIV virus, and 
all should be fully funded.
    The Progressive Caucus is also asking that the committee 
raise its funding level of support to programs under the Health 
Resources and Services Division that are critical to maintain a 
skilled health work force.
    They have a number of other recommendations here, which I 
would ask the Chair and the committee to please give their 
thoughtful consideration to. As any of the health programs we 
are talking about, the solution needs to be comprehensive.
    Besides research and development of therapies, we must 
train doctors and nurses in new therapies, for us to have 
medical professionals serve in shortage areas of the country.
    This strategy must also include educating people about how 
to take care of their own health, and exercise preventive 
strategies. Prevention is the best medicine.
    Mr. Chairman, the committee has been a leader in providing 
for health advances in our country. I ask it to continue to be 
a leader by funding initiatives to make health advances 
accessible to all Americans.
    I thank the Chair, and thanks to all the members for your 
time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Representative Christensen.
                              ----------                              

                                           Tuesday, March 27, 2001.

           CONGRESSIONAL BLACK CAUCUS HEALTH CARE TASK FORCE


                                WITNESS

HON. DONNA M. CHRISTIAN-CHRISTENSEN, A DELEGATE FROM THE U.S. VIRGIN 
    ISLANDS, CHAIR, CONGRESSIONAL BLACK HEALTH CARE TASK FORCE
    Ms. Christensen. Thank you. Good afternoon, Mr. Chairman 
and members of the subcommittee. It is a pleasure to be here.
    Mr. Chairman, I want to begin by congratulating you on your 
assumption of the Chair of this new subcommittee. As Chair of 
the Interior Subcommittees for several years, my constituents 
have been the beneficiary of your leadership.
    Of course, the territories are a part of the health dilemma 
that we are going to discuss this afternoon. It is one which is 
defined by grave disparities in health care status.
    The subcommittee has my full testimony. I am going to 
summarize and also clarify a few points in it, if I might.
    First, the funding, including my request in the CBC and HIV 
and AIDS minority initiative, is not intended just for African 
Americans, but for all communities of color. It also extends to 
people living in our rural areas.
    Second, the request is additional to and not intended to 
supplant or take away from any other Department of Health and 
Human Services funding. Indeed, we are requesting that the 
department's budget be fully funded, at least at the 2001 
level.
    Third, the request, which includes our HIV and AIDS 
initiative, is for $1 billion for fiscal year 2002, and 
hopefully for subsequent years through 2006.
    Fourth, while they do not come under the jurisdiction of 
this subcommittee, we have included in our overall agenda, 
universal coverage in the full lifting in the cap on Medicaid 
for the territories. We hope for your support, as well as the 
support of other subcommittee members on this initiative.
    My testimony here today, however, is on the state of 
African American health in this country, and what I think it 
will take to adequately address it.
    In any discussion on the health of people of African 
descent in the United States, it is important that it be framed 
in the context of what is called the Slave Health Deficit; 400 
years of health care, deferred or denied, a deficit that has 
never been made up.
    Even at the dawn of this new century and millennium, 
African Americans have the lowest life expectancy of any other 
population group in this country, and the gap has widened, 
actually, since 1985.
    Today, hundreds of African Americans will die from 
preventable diseases. This number is increased over the last 20 
years. Deaths from heart disease are 38 percent higher in black 
males and 68 percent higher in black females.
    In recent years, our death rate due to stroke was about 75 
percent higher than in our white counterparts. The prevalence 
of diabetes in African Americans is almost 70 percent higher 
than in whites; and with less access to care, African Americans 
suffer more amputations, blindness and kidney failure.
    The infant mortality gap has widened since 1985, and ours 
is twice that of our white counterparts. Over 50 percent of all 
new HIV infections annually are in African Americans, and we 
make up 45 percent of all AIDS cases, and we are only about 13 
percent of the total population.
    An African American male is almost eight times as likely to 
have AIDS as his white counterpart, and for women, that is 
about twenty times more likely.
    Mr. Chairman, our health agenda in the request to the 
subcommittee makes an attempt to address the causes of 
disparities. The facts that I have just recited just barely 
scratch the surface.
    Twenty-three percent of African Americans are uninsured. 
Many have Medicaid; but recent studies have called into 
question the quality of care, and in particular, for HIV/AIDS, 
that Medicaid recipients have received.
    Much current research has demonstrated that even with 
insurance, and when other factors are equal, African Americans 
and particularly women experience clear discrimination in their 
receipt of health care services.
    On the other hands, when language, ethnicity, and culture 
are the same or similar, research shows better rapport and, 
therefore, better compliance and outcomes.
    Mental health services are severely lacking for American 
Americans at all ages. Put simply, according to our Surgeon 
General, Dr. David Satcher, the U.S. mental health system is 
not well equipped to meet the needs of racial and ethnic 
minority populations.
    All of these and other factors conspire to create the 
disparities that exist for African Americans, as well as other 
people of color. They form the basis for our request.
    As discussed briefly in the full testimony, they are: 
allotting full funding for the new Center for Minority and 
Disparity Health Research at NIH, as well as having the other 
offices of minority health in the agencies funded.
    The $1 billion request would provide the following: 
increase health providers of color; provide adequate staff for 
our medically under-served areas; enhance the ability of our 
providers to practice their art and to provide for ethnics and 
diversity training in our health profession schools, and 
collect important health data.
    These are provisions of the Minority and Disparity 
Education Act of 2000. It would increase and provide culturally 
and linguistically sensitive mental health services in 
communities of color; adequately fund the community health 
centers, which are the nexus of health care for our 
communities; provide adequate health services for inmates in 
correctional facilities; provide adequate outreach and funding 
for immunization programs; continue and expandthe CDC minority 
AIDS initiative.
    Mr. Chairman, in 1998, the Congressional Black Caucus, 
joined by community organizations and health advocates from 
around the country, called on Secretary Donna Shalala to 
declare a state of emergency for HIV and AIDS in the African 
American community and other communities of color.
    What we achieved was a declaration of a severe and ongoing 
crisis; and to have, first $156 million in 1999; $249 million 
in 2000; and this year, $350 million targeted to communities of 
color.
    This initiative, which needs to be expanded, has been 
effective, and it has been affected across all communities of 
color. However, we made one mistake; we should have called for 
a state of emergency in the overall health of African Americans 
and other people of color.
    It is this emergency, that for the health of African 
Americans and for people of color, across all of the diseases, 
which is the emergency that truly exists.
    With the full funding of the request before you today, 
which this country today has the resources to do, we can begin 
to respond appropriately to the crisis that exists in health 
care for our communities today. Under your leadership, this 
country can make the moral and political commitment to 
guarantee access to medical care as a fundamental right to all 
of its people.
    I thank you, Mr. Chairman and subcommittee members, for the 
opportunity to testify. I will be happy to answer any 
questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Pelosi. I just have a brief question.
    Mr. Regula. Yes, go ahead.
    Ms. Pelosi. I was so impressed by the very important 
testimony that our colleague has presented. It stands on its 
own, and her credentials are well known to us.
    But I would like her to put on the record her credentials 
as a health professional, and all that she brings to this 
testimony today, Mr. Chairman. We are so proud of her.
    Ms. Christensen. I should have said that I chair the Health 
Braintrust of the Congressional Black Caucus. I am a family 
physician, and have been in practice for 21 years in the Virgin 
Islands, also. I was a public health official in the Virgin 
Islands for many of those years.
    Mr. Regula. Well, that is a vanishing group, the family 
physicians.
    Ms. Christensen. Yes, and that is the pearl of American 
health.
    Mr. Regula. I agree with you. I felt strongly that we 
should encourage more family physicians. You cannot just take 
one area of a human being, and not be sensitive to the whole 
person.
    Ms. Christensen. I suspect that it will come back.
    Mr. Regula. Probably economics are driving it, as much as 
anything. With the high costs that students have, they feel 
like the specialties pay better.
    Ms. Christensen. Well, they do. That is another area that 
has to be addressed, in terms of the reimbursement. I know that 
HCFA is going to be under much scrutiny this year. Hopefully, 
some of those issues will be addressed.
    Mr. Regula. Well, it is great what you did. Were you in a 
smaller community?
    Ms. Christensen. I practiced in the Virgin Islands. I was 
always able to make house calls, for most of practice. The 
island that I practice on has between 50,000 and 60,000 people.
    Mr. Regula. There are others besides you there, I hope?
    Ms. Christensen. Yes. [Laughter.]
    Mr. Regula. That would keep you busy.
    Well, thank you for bringing this to our attention.
    Ms. Christensen. You are welcome. Thank you, again, for the 
opportunity to testify.
    Mr. Regula. Next, we have our friend from Alaska.
                              ----------                              

                                           Tuesday, March 27, 2001.

                          CLOSE UP FOUNDATION


                                WITNESS

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA
    Mr. Young. I have a very short statement that I will read 
in its entirety, primarily because the staffer wrote it, and 
this is the first time she ever wrote anything for me.
    Mr. Regula. I thought you were going to say that it was the 
first time you ever asked for any.
    Mr. Young. No, not really. [Laughter.]
    I will say, Mr. Chairman and members of the committee, I 
would suggest, as we have new members on this committee that 
have not been involved in the Close Up Program, and that is 
what I am here today to talk about.
    The Ellender Fellowship Program is a critical component in 
Close Up's educational program to educate our Nation's young 
people about how our Federal system of Government works, and 
their rights and responsibilities as citizens.
    Congress created the Allen J. Ellender Program in 1972, out 
of a belief that our Nation was at a critical juncture in 
ensuring that the next generation of Americans would share in 
the values and beliefs of the preceding generations, who forged 
our democratic form of government.
    By the way, Mr. Chairman and members of the committee, 1972 
was the first year that I ran for this job.
    I believe that we must ensure the present generation of 
young Americans is committed to the ideals of active 
citizenship, service to the community, and loyalty to country, 
that are the foundation of our democratic system of government.
    We must be dedicated to educating young people about civic 
virtue and teaching them about their place in our democracy.
    Our national heritage includes an unwavering belief in the 
importance of each and every citizen to the success and health 
of our democracy. The Close Up Foundation has embraced this 
belief and made it an integral part of its mission to educate 
young people.
    Close Up is dedicated to the principle that the poorest 
among our Nation's young people should have an opportunity to 
come to Washington to gain first-hand experience in how our 
Government works.
    The Close Up Foundation utilizes the Ellender Fellowship 
Program to reach out to student populations that are among the 
most economically needy and under-served. The Ellender 
Fellowship recipients include students from our Native 
American, immigrant, rural and inner city communities.
    As the State of Alaska's sole representative in the House, 
I have had the privilege to meet with numerous students from 
Alaska, visiting Washington as part of the Close Up's civic 
education program.
    Mr. Chairman and members of the committee, we have had 
11,000, since the beginning of this program, from Alaska, that 
have come to participate in this good program.
    For students in rural Alaska, Washington, D.C. is far 
removed from their everyday lives, and is a place that operates 
in a way that they may not fully understand. Many of these 
students do not have access to C-Span, so they have never seen 
Congress in action.
    Close Up recognizes that their geographic isolation does 
not mean they play less of a role in the future of our country.
    I believe that we should be highly supportive of programs 
that successfully aid young people in becoming well-rounded, 
informed, and active citizens.
    The Allen J. Ellender Fellowship Program provides teachers 
and economically disadvantaged students with a unique 
opportunity to travel to Washington, and learn first-hand about 
Government.
    A health democracy depends upon the participation of its 
citizens. This critical education program deserves our full 
attention and our full support.
    In closing, I would ask the subcommittee to recognize the 
critically needed work of the Close Up Foundation through 
continued and increased funding of the Allen J. Ellender 
Fellowship Program.
    I want to thank you, Mr. Chairman and members of the 
subcommittee. As I said, this is a short statement. I wouldbe 
willing to answer any questions. Again, I want to stress, there are 
11,000 Alaskan students who have participated in this program.
    Thank you, Mr. Chairman.
    [The information follows:] 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are there any questions?
    The Ellender Fellowship or Foundation provides money for 
students to participate, who otherwise would not be able to?
    Mr. Young. That is the primary purpose of this program, to 
have those people in from the rural areas and impoverished 
area; and believe me, we still have them in Alaska, to come to 
Washington, D.C.
    We do have other schools that do participate in this in 
here, from a more influential group of people. However, we are 
a long ways away, and it has been very good for the State of 
Alaska.
    Mr. Regula. Is Ellender just confined to Alaska?
    Mr. Young. No, it is nationwide; it is huge. Alaska has 
participated in it. I have helped raise money in the private 
sector for this program.
    Mr. Regula. Well, you have had 11,000 over what period of 
time?
    Mr. Young. Since 1972.
    Mr. Regula. Given your population base, that is still a 
lot.
    Mr. Young. Yes, that is a lot of them; and if we had the 
same population, same ratio, it would be over 250,000 in 
California. We really do participate in this program.
    Mr. Regula. Yes, they do.
    Well, thank you for coming today.
    Mr. Young. I am pleased to see that my two new members did 
not ask me any questions. I was not sure that I could answer 
them.
    But thank you, Mr. Chairman, and congratulations to you. 
Mr. Porter sat in that chair for many years, and I know you 
will do a wonderful job.
    Mr. Regula. He did a great job when he was here.
    Mr. Young. And you will do equally as well.
    Thank you very much.
    Next is Mr. Fattah from Pennsylvania.
                              ----------                              

                                           Tuesday, March 27, 2001.

           CONGRESSIONAL BLACK CAUCUS EDUCATIONAL BRAIN TRUST


                               WITNESSES

HON. CHAKA FATTAH, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF PENNSYLVANIA, ON BEHALF OF REP. MAJOR OWEN, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF NEW YORK, CHAIR, CONGRESSIONAL BLACK 
    CAUCUS EDUCATIONAL BRAIN TRUST
HON. RUBEN E. HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS, CONGRESSIONAL HISPANIC CAUCUS
    Mr. Fattah. Thank you, Mr. Chairman. If you do not mind, I 
have asked my good friend, Congressman Hinojosa, to join me, 
because we share a similar interest, and we could expedite the 
committee's work.
    Mr. Regula. That is fine.
    Mr. Fattah. Let me thank you for allowing me to pitch hit 
for Congressman Major Owens, who was scheduled to provide this 
testimony, and is unable to do so. I am going to let my written 
testimony stand for the record.
    I would like to thank the Chairman, because of his 
tremendous interest in a variety of matters, relative to 
education. I am not going to belabor any of the points that 
need to be made.
    I would also like to welcome my two colleagues from 
Pennsylvania, Congressman Peterson and Sherwood, who have 
served with me before in the State Senate, and worked on 
education-related matters. We have a lot of mutual interests.
    Let me say on behalf of the Congressional Black Caucus, the 
Caucus has laid out a number of positions, which are 
articulated in the written testimony about the need for this 
committee's continued support.
    This committee really has been in the vanguard of pushing 
for a set of programs and initiatives that have helped hundreds 
of thousands of young people live up to their potential, pursue 
an adequate education, and to go on to higher education.
    There is an emphasis, obviously, on the Pell Grant and the 
Trio Programs and, most particularly, the Gear Up Program, 
which is close to my heart.
    I want to thank the committee for its support over the last 
three cycles for its support for Gear Up, which I authored and 
moved through the House, with a lot of help from a lot of 
different people. It is now helping over one million young 
people in our country.
    Mr. Regula. You introduced me to it, when we were down at 
St. Petersburg.
    Mr. Fattah. That is right, and it is a tremendous program. 
It is doing very, very well.
    But I know that this subcommittee will have an allocation, 
and you have some very difficult decisions to make. I respect 
whatever deliberations and outcomes there will be from the 
result of that. There are a lot of choices from Head Start on 
through in the education pipeline, to help move young people 
and their families.
    However, in terms of the Congressional Black Caucus and the 
Hispanic Caucus, we represent constituencies that these 
programs impact most acutely, and they are very important, too. 
So we just want to urge you to do all that you can do.
    I would also say that I am very concerned, and I will 
betestifying before the House Education Committee tomorrow, about the 
whole question of how to encourage states to do more themselves to give 
disadvantaged and poor communities, both in urban and rural areas, an 
equal educational opportunity.
    Part of the problem is that the Federal Government is 
trying to help make up the deficit that is the result of a lack 
of full support from our state governments in the poor 
communities in those states. We need to work more as a Congress 
to try to encourage states to treat both our rural school 
districts and urban school districts in a way in which young 
people will get a fair and an equal opportunity.
    I know that we cannot legislate outcomes, but I think that 
we could do more to encourage states not to have poor children, 
who are already disadvantaged, made more disadvantaged by the 
way that they create their funding cycles and dispense 
curriculums around the state.
    Nancy Pelosi, in the great State of California, knows that 
there is a major litigation going on there in which young 
people in Compton High have little or no opportunity to take AP 
courses; and young people at Berkeley High have more than 25 AP 
courses to choose from.
    It just creates a circumstance in which not every young 
person can pursue, within their own potential, what God-given 
talents they have.
    So I just think, Mr. Chairman, that your committee will 
make a lot of tough decisions about allocations and 
programmatic thrusts.
    We can also do more by encouraging these states to take 
their children, and to give not just the wealthy, middle class 
suburban youngsters every opportunity, but to also make sure 
that those who are impoverished, who live in rural and urban 
communities in their states, to have the same opportunity to 
have quality teachers in the classroom, good facilities, and an 
adequate curriculum to prepare them.
    So thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think it is a universal thing. Ohio is going 
through the same type of lawsuit, involving Appalachia.
    Mr. Fattah. Yes.
    Mr. Regula. Mr. Hinojosa.
    Mr. Hinojosa. Thank you very much, Mr. Chairman.
    On behalf of the Congressional Hispanic Caucus, CHC, I want 
to thank you and the members of the Appropriations Committee 
for allowing Chaka and me to come before you and discuss the 
educational needs of the African American children, Hispanic 
children, and all minority children in the United States.
    I want to preface my remarks by saying that I have only 
served four years in Congress. As I start my fifth year, I want 
to say that it has been a real pleasure for me to collaborate 
with Chaka Fattah.
    Both of us serve on the Education Committee, and we are 
well informed and certainly committed to work on trying to help 
children graduate from high school and go on to higher 
education.
    It is no doubt that two caucuses, the Black Caucus and 
Hispanic Caucus, working together, are beginning to really make 
a difference in bringing to the forefront the importance of 
educating children early: Early Start, Head Start, Gear Up, K-
12 programs that are exemplary in helping students graduate 
from high school, and then of course bringing a great deal of 
attention to the work that is being done by HSIs and HBCUs.
    All of this is to say that some of the senior members of 
committees that I serve on in Education have commented that 
never before have they seen the collaborative work being done 
by the Black Caucus and the Hispanic Caucuses.
    So I thank you for this opportunity. As you know, the 
Census Bureau projects that by the year 2030, Hispanic children 
will represent 25 percent of the total student population. 
Census figures already indicate that Hispanics have become the 
Nation's largest minority.
    In my area, the largest county that I represent, Hidalgo 
County, has grown to 88 percent in population.
    Mr. Regula. Where is that located in Texas?
    Mr. Hinojosa. It is south of San Antonio, 250 miles. 
Hidalgo County is on the Texas border region, between 
Brownsville and Laredo, an area that is the third fastest MSA 
in the country. It is an area that in my own district, it has 
grown by 50 percent over the last 10 years.
    Mr. Regula. That would be southwest then; am I correct?
    Mr. Hinojosa. We are considered the Southwest. Texas is so 
spread out that I am 850 miles from west Texas and El Paso. I 
am 650 miles from Dallas. It is an area that is just growing by 
leaps and bounds.
    Mr. Regula. Where do you fly to go home?
    Mr. Hinojosa. I fly Houston, and then Houston to McAllen. 
It takes me seven hours.
    Mr. Regula. But you are not on the Gulf of Mexico, though?
    Mr. Hinojosa. No, I am approximately an hour. Solomon Ortiz 
represents the coastal area from Brownsville to Corpus 
Christie; and I run parallel with him, from McAllen to San 
Antonio; Rodriguez is parallel with mine, from Rio Grande City 
to San Antonio. Then the fourth one would be Henry Bonilla from 
Laredo to San Antonio.
    All that area has grown so much that we are going to get 
two new Congressional Districts in that area.
    Mr. Fattah. They are taking those from Pennsylvania, right? 
[Laughter.]
    Mr. Regula. They are both going to be Republican; is that 
right?
    Mr. Fattah. We will see. [Laughter.]
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are there any questions from the members?
    [No response.]
    Mr. Hinojosa. I want to say that the amounts that are in my 
prepared material have some very specific numbers that we are 
asking, as the Congressional Hispanic Caucus, on the 
Appropriation funding that we are asking.
    For example, on Title 1, we are asking for a level of 
funding of $24 billion. If you ask why it is that much, the 
reason is that we are not serving all of the eligible children. 
So what we did is, we took the number that are eligible and 
multiplied it, because it is a formula-funded program, and it 
would take $24 billion to serve all those that are qualified 
and eligible.
    The Caucus also is suggesting a funding level of $508 
million for Title 7 of the ESEA. Another figure that is very 
important to us is the request for $500 million for adult 
continuation programs.
    Mr. Regula. That is a pretty hefty increase that you are 
proposing.
    Mr. Hinojosa. We are, simply because this is the time that 
President Bush is saying that education is the foremost 
important issue. If we are going to do what he says, and not 
leave any child behind, then it is going to take getting up to 
the funding level that will reach all the children, and not 
just a few.
    If you look at some of the programs, such as Gear Up, and 
you will see that we are asking for an amount that will take us 
into the next funding level, so that they would be getting, 
what is that number, Chaka?
    Mr. Fattah. $495 million.
    Mr. Hinojosa. Yes, $495 million.
    Mr. Fattah. Right.
    Mr. Hinojosa. Again, I am not trying to exaggerate when I 
say that when you are only serving 38 percent of the children 
who are eligible in head start; when we are serving only a 
small number who qualify for Gear Up; when you take a look at 
the under-funding that has occurred in the last 10 years for 
HSIs, Hispanic Serving Institutions, where we were getting only 
$10 million in help, and we took that number from $10 million 
to $28 million, just think about this.
    There are 203 Hispanic Serving Institutions, and over three 
million Hispanic college students. So this is just to say that 
we have neglected many of these exemplary programs. All we are 
asking is that you take a good look at these programs, because 
they are the ones who are going to help our students graduate 
from high school, go on to colleges, and become professions. In 
fact, some of them may become Congressmen.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Regula. I think Henry Bonilla went through the Trio 
Program.
    Mr. Fattah. Yes.
    Mr. Regula. Is the state pulling its share?
    Mr. Hinojosa. We are challenging them, I guarantee you. We 
are challenging the State of Texas to do their share.
    Mr. Regula. Are there any questions?
    Mr. Sherwood.
    Mr. Sherwood. I would just like to suggest to the gentleman 
from Texas that he take good care of those two Congressional 
seats, because we might want them back some day. [Laughter.]
    Ms. Pelosi. Mr. Chairman, I would like to commend these two 
gentlemen. They have worked so hard on the education issues on 
their committee and with Mr. Fattah here on the Appropriations 
Committee. Mr. Hinjosa will do a lot for the economic 
development of his area on the Banking Committee, which has 
some important jurisdiction, down there for economic 
development.
    But when they talk about Gear Up, the work on the 
authorizing side is so important to us here, both for the 
Hispanic servicing institutions and the Historical Black 
colleges and universities, that have been such a tremendous 
resource to us.
    So for all of the K-12 preschool and the rest and higher 
education, thank you for making it, I do not want to say 
easier, but for helping our community give this such a high 
priority. I am pleased to work with you in these areas.
    Mr. Fattah. Thank you, Mr. Chairman, for giving us the 
time, and we look forward to working with you. I am sorry that 
I am off the House Education Committee. However, I am happy to 
be on the Appropriations Committee.
    Mr. Regula. I believe you made a worthwhile change.
    Next is Mr. Underwood from Guam. I used to see you in the 
Interior.
                              ----------                              

                                           Tuesday, March 27, 2001.

   CONGRESSIONAL ASIAN PACIFIC AMERICAN CAUCUS HEALTH CARE TASK FORCE


                                WITNESS

HON. BOB UNDERWOOD, A UNITED STATES DELEGATE FROM GUAM AND CHAIR, 
    CONGRESSIONAL ASIAN PACIFIC AMERICAN CAUCUS HEALTH CARE TASK FORCE
    Mr. Underwood. Mr. Chairman, it is always a pleasure to 
appear in front of you, begging for more money in various 
capacities.
    Mr. Regula. And you are pretty good at it. [Laughter.]
    Mr. Underwood. Well, thank you, Mr. Chairman and members of 
the committee, for the opportunity to present the concerns of 
the Asian and Pacific Island Caucus on some major health issues 
concerns.
    You may already know, Mr. Chairman, that the Asian and 
Pacific Island is the most diverse ethical and racial group in 
the country, comprised of both immigrant populations and 
indigenous populations of Pacific Islanders.
    It also is the most heterogenous community. What you may 
not know is that Asian and Pacific Islander communities are 
severely hampered by a lack of accurate demographic data to 
monitor and enforce civil rights, laws, and ensure equal access 
to Federal programs, and in particular, health care. This lack 
of meaningful data makes it difficult to track health treads, 
identify problems areas and solutions, and enforce civil 
rights.
    This problem has been attempted to be resolved by the 
Office of Management and Budget back in 1997, when it made a 
significant change to the standards for maintaining, collecting 
and presenting Federal data on race and ethnicity.
    This chain separated Asians from Native Hawaiians and other 
Pacific Islanders, and allowed respondents to designate more 
than one racial ethnic category. We hope that this effort will 
provide more accurate data.
    In addition, to this particular issue, the 1990 Census also 
reported that about 35 percent of Asian and Pacific Islanders 
live in linguistically-isolated household, in which none of the 
individuals ages 14 or over spoke any English very well.
    In 1997, the Census reported the rate of persons with 
limited English proficiency grew to 40 percent for Asian and 
Pacific Islanders Americans, and over 60 percent for Southeast 
Asian Americans.
    The absence or severe lack of culturally and 
linguistically-assessable services leads to the gross under-
utilization of health care services, misdiagnosis and treatment 
of disease, chronic illness and needless suffering.
    It also contributes to Asian and Pacific Islanders seeking 
treatment at a much later more progressed state of illness, 
which is not only costlier to treat, but is often preventable 
with earlier detection.
    Asian and Pacific Islanders are often mislabeled as the 
model minority with few health is social problems. This label 
is a myth and a gross myth representation of the community, 
which is very diverse.
    Within this population alone, there exits divergent social 
economic achievement rates, among euthenics and racial diverse 
cultures.
    Recent data from various institutions and Government 
agencies, including the Department of Heath and Human Services 
and the Census, revealed for example the following disparities.
    Compared to the total U.S. population, disproportionate 
numbers of minority Americans lack health insurance; about 24 
percent of Asian and Pacific Islanders Americans. Asian and 
Pacific Islander Americans continue to experience the highest 
rate of tuberculosis and hepatitis B in this country.
    Approximately one half of all woman who give birth to 
Hepatitis B carrier infants in the U.S. were foreign-born Asian 
woman. Liver cancer, which is usually caused by exposure to 
Hepatitis B virus, disproportionately effects the Asian 
Americans. Filipinos have the second poorest five year survival 
rates for colon and rectal cancers of all U.S. ethnic groups.
    Cancer is reported as the leading cause of death in nearly 
all Pacific Island jurisdiction. In Guam, lung cancer accounts 
for one-third of all recorded deaths. Native Hawaiians have the 
second highest mortality rate in the National due to lung 
cancer.
    Cervical cancer is a significant problem in Korean and 
American women, and it affects Vietnamese American women at a 
rate five times higher than white women. Breast cancer 
incidents in Japanese American women is approaching that of 
white women.
    Moreover, some studies indicate that approximately 79 
percent of Asian-born Asian American women have a greater 
proportion of tumors larger than one centimeter at diagnosis. 
Breast and cervical cancer rates for Marshallese Islander are 
five times and 75 times higher respectably for rates for all 
U.S. women.
    Native Hawaiian woman have the highest incidents of 
mortality rates of endometrial cancers of all U.S. woman. 
Diabetes affects tomorrow's indigenous people of Guam and 
Commonwealth of the northern Marianas Islands at five times the 
National average. Infant mortality rates in the U.S. insular 
areas of American Samoa, Guam and Siena more than double the 
National average.
    Finally, in my home island of Guam, there has been a recent 
and significant incidence of suicide, and particularly teen 
suicides, fostered by contacts through suicide packs over the 
Internet.
    Last week, the Guam Department of Mental Health and 
Substance reported that about 95 percent of the admissions into 
the children's unit of the Guam Memorial Hospital are related 
to suicide intentions.
    In response to all of this, we have listed five listed 
budgetary priorities, including a funding increase of $12 
million additional for the Office of Minority Health and the 
Department of Health and Human Services for the REACH 
initiative in the Center for Disease Control.
    This is currently funded at $35 million. In fiscal year 
2000, the CDC was able to fund only 32 grants, which works in 
collaboration with OMH and other appropriate Federal agencies, 
to intensify efforts to eliminate health disparities. However, 
a funding increase is requested to allow communities to apply 
for REACH initiative grants.
    For the National Center for Minority Health and Health 
Disparities in the NIH, we are asking again for additional 
funding for the minority ADIS initiative, which was funded in 
2001 at $350 million, which is an increase of $100 million over 
fiscal year 2000. However, the 2001 funding fell short of the 
original funding request of approximately $540 million.
    Finally, in fiscal year 2001, SAMSA's minority fellowship 
program received nearly $2 million over the fiscal year level, 
for a total of $3 million.
    A $2 million increase is again requested for fiscal year 
2002, to help address the critical needs to enhance the quality 
and effectiveness of the provision of health and mental health 
services to community of colors by increasing numbers of well-
trained professionals.
    It is very critically important to understand that the 
context of the provision of health care services in minority 
communities is affected by cultural linguistic factors and the 
lack of, in many instances, trained personnel.
    I believe that it should be our strong commitment as a 
Nation to help bridge this gap for the provision of health 
services, so that we can reduce the disparities, some of which 
I have outlined here today.
    Again, I want to thank you, Mr. Chairman, as always. I do 
not know what other subcommittee you are going to go to next, 
but I always enjoy appearing in front of you. Thank you very 
much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I am sure you will have a request, whatever 
subcommittee it is. [Laughter.]
    Mr. Rodriguez.
                              ----------                              

                                           Tuesday, March 27, 2001.

          CONGRESSIONAL HISPANIC CAUCUS HEALTH CARE TASK FORCE


                                WITNESS

HON. CIRO RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS AND CHAIR, CONGRESSIONAL HISPANIC CAUCUS HEALTH CARE TASK 
    FORCE
    Mr. Rodriguez. Mr. Chairman, let me first of all apologize 
for being a little bit late. As the Chairman of the Hispanic 
Caucus and member of the VA committee, we had an opportunity to 
provide some testimony on health, and you will have an 
opportunity to vote on those bills this afternoon on the VA, 
which is also very critical for a lot of Hispanic veterans that 
are out there.
    But I want to thank you for allowing us the opportunity, as 
Chairman of the Task Force on Health with the Hispanic Caucus, 
that has 18 members of the 21 Hispanic members of the Congress, 
to be here before you.
    Hispanics continue to experiences barriers in the areas of 
health care insurance. I want to briefly just mention to you 
that out of 44 million uninsured Americans in this country, 
one-quarter of those, or 11 million, are Hispanics.
    These are individuals that are working. In fact, out of 
those 11 million that are Hispanics that are uninsured, 9 
million are working individuals, that despite the fact that in 
this country, if you are working for a small company, if you 
are not working for a major corporation, if you are not working 
for Government, you do not have access to insurance.
    Yet, you are not poor enough to qualify for Medicaid; you 
are not old enough to qualify for Medicare; and you find 
yourself without any access to insurance. So the importance of 
the CHIPS Program is critical, and so we want to be supportive 
of those efforts and encourage the importance of continuing to 
fund those efforts in that area.
    The importance of access to health care is one of the 
things that is lacking in the Hispanic community, and one of 
the areas that impacts us the most.
    To address the growing problems, and one which is a 
negative impact on local health disparities in our local 
communities, it is important that we continue to move forward 
in those efforts.
    Our community health centers that provide a vital safety 
net for Hispanics and other minorities throughout this country 
need to continue to be funded. Seventy percent of those served 
by the community health centers are minority. Sixty-six percent 
of them live in poverty.
    The request from our efforts, from the Hispanic Caucus, is 
that we fund them at $250 million above the current funding 
levels for the community health centers.
    President Bush has promised to provide $3.6 billion, over 
five years, to build additional 1,200 community health centers. 
We request a $250 million increase. It would put us on the 
right track to meet the President's needs in this specific 
area. So we ask for your serious consideration.
    Hispanics also account for 20 percent of the new AIDS 
cases. As we look at the issue of AIDS, we see the new data 
that is there and it looks like we are making some inroads but 
despite, it is hitting disproporionately a lot of the low 
income areas.
    Despite the fact that Hispanics represent 12.5 percent of 
the population, we represent 20 percent of HIV cases. So we ask 
for your help and your support in that specific area and 
request full funding at the level of $539.4 million for year 
2002 for the Minority AIDS Initiative to promote capacity 
building for minority-based organizations.
    The U.S. Census 2000 shows that Hispanics make up 12.5 
percent as I indicated. One of the basic ways of dealing with 
AIDS is to make sure we have those community-based programs. 
With the Hispanic community, we have not been able to organize 
those. We have been lagging behind in resources to fight the 
issue of AIDS and we need those resources to make sure we 
establish those community-based organizations to reach out to 
those pockets that are out there.
    In the area of diabetes, it strikes Hispanics--especially 
Mexican Americans and Puerto Ricans--at a disproportionate 
rate. In addition, growing evidence shows that Type II diabetes 
and adult onset diabetes increasingly strikes Hispanic 
children. We are learning more about the relationships. The 
beauty of this is we have a lot of new research where we can 
identify those specific areas with young people, with children. 
We have been able to identify a large number, but now we have 
to do something about that. We need to move forward.
    We ask for increased support of $100 million for Hispanic 
focus on diabetes prevention and treatment. These activities 
include targeting geographic areas throughout this country that 
need to be targeted.
    It doesn't do any good to identify those kids--we are doing 
it--and not do anything about it. Part of that is the education 
that goes along with that. So we ask for your help, assistance 
and your efforts.
    In the area of mental health and substance abuse, one of 
the areas that we have neglected as a country and where people 
have fallen through the cracks, as indicated earlier by my 
friend, is we are finding a lot of young people. When they 
first came to tell me we were having a large number of suicides 
among young ladies of Mexican-American descent, I told them I 
don't believe it, show me the research. Sure enough, they came 
to me and it is startling to see the rates of suicides among 
young Hispanics as well as alcohol and drug abuse. So it 
becomes important that we look at that area of mental health 
and substance abuse, and that we provide some resources.
    President Bush's budget includes an initiative to double 
NIH funds for 2003. While the Hispanic caucus supports 
increasing research funding levels, it is important to find 
ways to encourage Hispanic focused research. The key is toalso 
look at specific research that targets Hispanic populations with a 
clear understanding that with what we face, we can then deliver 
culturally competence.
    There is example after example and one example that comes 
to me, which I have been sharing, when we talk about competency 
and culturally relevant, when this person was told she was 
positive. When you tell them in positive, then you think 
everything is okay and sure enough this person later on had a 
child and contracted AIDS. So there is a need and we should not 
take things for granted. We need to reach out and make sure 
people understand, especially when we deal with issues of 
mental health and the competency and cultural relevancy of 
reaching out to those individuals.
    We had another case of mental health with a person in a 
State hospital in San Antonio who would go out and walk and 
walk, walk and stop, walk and stop and walk and stop and people 
would try to stop her. She would get angry and throw a fit. She 
was actually doing her rosary. She would walk so many steps and 
would stop and keep on. People didn't understand that.
    It is important to recognize the importance of cultural 
competency, language proficiency and what it means. We are 
going to ask for some funding in that specific area of $3 
million. If you want specifics on the funding, I would look 
forward to meeting with you to provide some of those 
statistics.
    The budget also proposes reduced funding to the health 
professionals which provide training grants to institutions to 
increase the number of under represented health professions. 
This is a serious mistake. Right now, every agency in the 
Federal Government is expecting to retire one-third of our 
people. We were just told in the GAO report on the military 
that of 50 percent, 65,000 employees, we are going to retire 
32,000 of them, almost half.
    There is a need for us to invest in apprenticeships. It is 
important for us to invest in those individuals and make sure 
that we have good quality professionals.
    In the area of access to health care, there is a nursing 
shortage in this country and this is not the time to cut back 
on these programs. The budget estimates of $125 million for 
community access programs provides grants to communities, 
hospital and community health centers that serve uninsured 
youngsters and is key. Please look at that funding, especially 
in terms of the apprenticeship programs and providing the 
health professions the assistance that is needed.
    We need to go beyond that. We need to make sure we have 
those qualified professionals out there, those individuals that 
can be culturally competent and have access to the training 
that is important and needed.
    According to the Department of Health and Human Services, 
there are 3,000 medically under served communities. So we need 
these grants.
    Thank you for the time and the opportunity to address the 
subcommittee on the Congressional Hispanic Caucus priorities 
and we look forward to working with you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. The community health centers have served a very 
worthwhile role and I hope we can increase those because I 
think it catches a lot of people who are uninsured and probably 
not able to get medical care.
    Mr. Rodriguez. Yes, sir. In fact, 67 percent are uninsured 
in that category and 70 percent are minority.
    Mr. Regula. Questions?
    Ms. Pelosi. I want to thank the two gentlemen for their 
excellent testimony and Mr. Underwood for his leadership in the 
Asian Pacific Islander Caucus and Mr. Rodriguez who has been 
working on this for such a long time. Last year, he was able to 
get $1.7 million for minority health research and outreach. We 
are hoping that money will be coming very soon to help in 
getting a handle on what these needs are.
    I wanted to bring Congresswoman Christensen in on this as 
well. As you testified earlier, we are blessed that the former 
Chair of the Interior Committee is now in the Health seat 
because he understands the needs of the territories better than 
anyone.
    Mr. Regula. I have had a lot of assistance from Mr. 
Underwood.
    Thank you both for your interest.
    Our next witness is Ms. Ros-Lehtinen from Florida.
                              ----------                              

                                           Tuesday, March 27, 2001.

                          CLOSE UP FOUNDATION


                                WITNESS

HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF FLORIDA
    Ms. Ros-Lehtinen. We are so thankful to have such a strong 
organization nationally and in all of our districts.
    Thank you, Mr. Chairman and members of the subcommittee. We 
are pleased to submit my testimony in support of the Close Up 
Foundation's Allen J. Ellender Fellowship Program.
    During my time in Congress, I have been a strong supporter 
of Close Up and its civic education programs. As a former 
educator, I believe the Close Up Foundation Civic Education 
Program is a valuable weapon in our arsenal to combat 
disaffection with government among our young people.
    The Allen J. Ellender Fellowships are vital in reaching out 
to a diverse group of young people, specifically those in need 
of financial assistance so that we can enable them to 
participate in Close Up's unique civic education program. 
Without the Ellender Fellowship Program, the Close Up 
Foundation would be unable to reach students who are perhaps 
more in need of having their importance to our democracy 
validated.
    The only criterion for a student to receive an Ellender 
Fellowship is an income eligibility requirement and student 
recipients of these fellowships are among the neediest students 
in our educational system. Impressively, the overwhelming 
majority of Ellender Fellowship recipients participate in local 
fundraising activities throughout the year to cover the full 
cost of the program.
    The foundation also has special programs to reach students 
who are recent immigrants to the United States. As a member 
from Florida, one of the most culturally diverse States in our 
Nation, I can personally attest to the growing positive 
influence that these immigrants have had upon the cultural 
fabric of our Nation and the great contributions that they make 
every day to our country. They too need to be educated about 
their adopted homeland and specifically about how our 
government and our democratic form of government works. Close 
Up also outreaches to students in our rural towns and urban 
communities who are beneficiaries of Ellender Fellowship 
assistance.
    I understand the subcommittee faces an extremely difficult 
task in trying to prioritize what programs to fund and at what 
levels, but I ask you to consider the grave need for civil 
education programs, and particularly for programs that reach 
our disadvantaged youth.
    The Close Up Foundation uses the relatively small 
appropriations that it receives for the Ellender Fellowship 
Program as seed money around which educators and students 
expand their local Close Up programs. I ask that the 
subcommittee demonstrate its support for Close Up's civic 
education program by not only maintaining the current $1.5 
million funding level for the Allen J. Ellender Fellowship 
Program but by increasing the funding level. This would send an 
important signal that we in Congress believe that citizenship 
education is as important to being a well-rounded individual as 
knowing math, science and literature. It would be a great 
investment in the strength and well being of our democracy.
    I thank the Chairman and I thank the members and the staff.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you think these young people go back home 
and take the message of things they learn here in the Close Up 
Program back to their colleagues?
    Ms. Ros-Lehtinen. I think so. At least that has been the 
case in our district office. We encourage them to participate, 
they come to our district office, put in their time there as 
well, and go back to their areas, whether they are working in 
Washington or in the district office and really make it work. 
They demonstrate that this is a great country where we are 
given all kinds of opportunities.
    I thank you for funding it and we hope to be there with 
even a little more this year.
    Mr. Regula. Next we have a panel of Mr. Hayworth and Mr. 
Edward on Impact Aid. We heard from some of our colleagues 
earlier making a pretty powerful case. I will let Mr. Sherwood 
take this one.
    Mr. Sherwood [assuming chair]. Gentlemen.
                              ----------                              

                                           Tuesday, March 27, 2001.

                               IMPACT AID


                                WITNESS

HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. Hayworth. Let me thank the gentleman from Pennsylvania. 
It is good to see him in the Chair but my joy at seeing him 
there is eclipsed by the temporary departure of the full 
Chairman of the Subcommittee who is all too aware of the 
challenges we confront.
    I would note for the record that a number of my 
constituents join me in this chamber here today for this 
testimony who could offer very eloquent testimony as to just 
how important this program is. On behalf of all the members of 
the Impact Aid Coalition, I want to thank you and members of 
the subcommittee for affording us this opportunity to address 
what we consider to be a very, very important issue, an issue 
of critical importance, impact aid.
    Impact aid is a Federal education program that provides 
funding to more than 1,500 school districts connected in some 
way to the Federal Government, whether by an Indian 
reservation, a military installation, or the designation of 
Federal land. Traditionally, property sales and personal income 
taxes account for a large portion of the average school 
district's annual budget but impact aid schools educate 
students whose parents may live on nontaxable Federal property, 
shop at stores that do not generate taxes, work on nontaxable 
Federal land, or do not pay taxes in their States of residence. 
School districts could also receive impact aid if some or all 
of their property was taken off the tax rolls by the Federal 
Government.
    As one of the Co-Chairs of the Impact Aid Coalition, I am 
honored to be here to fight for this important program and I am 
so pleased the gentleman from Texas, Mr. Edwards, joins me in 
this endeavor. The Coalition will be sending you a letter 
requesting your support for its goals of securing $1.19 billion 
in funding for the Impact Aid Program for fiscal year 2002. 
While this is an increase of approximately 19 percent over last 
year's funding level, Mr. Chairman, it is important to note 
that the amount the Federal Government actually owes impact aid 
schools for basic support and Federal property payments is more 
than $2 billion.
    Increasing impact aid funding to $1.19 billion will be an 
important step toward fully funding this program which 
currently receives less than half of its authorized funding.
    As you may know, the Sixth District of Arizona, which I am 
honored to represent, is the most federally impacted 
congressional district in the country. My district alone 
receives nearly $100 million in impact aid funds. Without these 
funds, thousands of my young constituents would simply not be 
educated, constituents who join me today in this hearing room.
    My district is unique because it has the largest Native 
American population in the 48 contiguous States, nearly 1 out 
of every 4 of my constituents is a Native 
American.Approximately 50 percent of the land mass in my district is 
tribal land. Many Native American reservations face staggering 
unemployment rates and other devastating economic conditions. For many 
children on these reservations, education is their only hope to escape 
a life of poverty.
    I am sure you are aware of the Federal Government's treaty 
obligations to our sovereign Indian tribes and nations. Part of 
these obligations includes educating these children. It was 
part of the treaty trust obligation. Without impact aid, the 
Federal Government cannot live up to those aforementioned 
treaty obligations. Therefore, I wholeheartedly support the 
Coalition's goal of securing $1.19 billion for this important 
program.
    You know that I am ever critical of wasteful and 
unnecessary government bureaucracy. Therefore, I am 
particularly pleased to support impact aid as funds in this 
program are provided directly to the local school districts for 
general operating expenses. The use of impact aid funds is 
determined by locally elected school boards. As you know, the 
money appropriated by Congress is sent by electronic financial 
transaction directly to the financial institution of the 
eligible school district. There is no administrative cost 
associated with the program.
    I am also a strong critic of wasteful spending and the 
inappropriate use of Federal tax dollars that is seen from time 
to time here in our Nation's Capitol. I am completely committed 
to maintaining a balanced budget. However, because impact aid 
services military families and Indian tribes, my colleagues 
understand this full well. It is an unequivocal Federal 
responsibility.
    Through a robust impact aid program, we can demonstrate our 
commitment to those children who would otherwise be shut out 
from most educational opportunities. By funding impact aid, at 
$1.19 billion for fiscal year 2001, we can fulfill our 
responsibility of providing these educational opportunities to 
each of our Nation's students.
    Again, thank you, Mr. Chairman, and members of the 
subcommittee for inviting members of the Impact Aid Coalition 
here today to voice our opinions, to be joined by our 
constituents. I would be happy to remain here to answer any 
questions you might have.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you very much.
    Now we will hear from the gentleman from Texas.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                WITNESS

HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS, ON BEHALF OF THE IMPACT AID PANEL
    Mr. Edwards. It is an honor for me to join my colleague, 
J.D., to speak on behalf of the bipartisan 127 House member 
Impact Aid Coalition.
    To most Americans, the term impact aid may not mean 
anything but to 13 million American children, it means the 
difference between receiving a quality education and a mediocre 
or poor education.
    With the Chairman's approval, I would like to submit my 
written testimony and would like to do something a bit 
different if I could, and then give back some of my five 
minutes of time.
    I would like to put a human face on the statistics behind 
those 13 million Americans impacted directly by this education 
program.
    This comes from a Washington Post article of March 14, a 
story of one military family. Let me read several excerpts. The 
first is a letter from an Army Soldier, Randy Roddy who was in 
Saudi Arabia at the time his son was about to have his second 
birthday. This is what he wrote to that son. ``As your second 
birthday rolls around and it is apparent that we will not be 
able to spend it together, I find it important to write you and 
tell you some things you need to know. Someday perhaps you will 
be able to pull out this letter and comprehend.''
    He then goes on to say, ``I must start by telling you how 
proud I am to have you as my son. You never cease to amaze me 
when I see you on a video cassette. Because of events in this 
world of ours that are bigger than either you or me, I have not 
been able to share these last five months with you.''
    The article goes on to talk about Mr. Roddy's spouse. It 
said, meanwhile at Ft. Bliss in the Texas desert, Lisa had her 
own struggles raising their child, working a receptionist job 
to supplement their pay, soothing the fragile emotions of 
several dozen wives whose husbands served in Randy's command. 
``They look to me,'' she said, ``as a troop commander's wife. I 
helped deliver two babies, I helped when someone's car was 
repossessed. One wife tried to kill herself and her three 
children and called me.'' The articles goes on and says, ``You 
don't just join the Army, the whole family does.''
    It talks about Mr. Roddy's four-year-old child, a little 
girl, who lost all of her hair because of being distraught when 
her father was deployed to Korea on a company tour for a year.
    The reason I mention the story of the Roddy family is it is 
clear we underpay our military soldiers and their families, all 
of our troops from all services. It is clear to our Military 
Construction Subcommittee that 60 percent of our military 
families live in housing that does not meet basic DOD 
standards.
    The reason I mention that is it seems to me if we can't pay 
our military soldiers and their families what they deserve, if 
we ask them to live in substandard housing, if we ask their 
families to spend month upon month away from loved ones serving 
our country, risking their lives for you, me and our families, 
the very least we should do as a country for these families is 
to say to them while you are serving your country and risking 
your life, we are going to ensure that your children will 
receive a quality education.
    I think the story of the Roddy family tells the story of 
the importance of impact aid. Whether it is Native American 
children or children of military families, amidst the many 
important competing priorities that you must set, I hope this 
subcommittee would once again remember the importance of 
funding adequately the Impact Aid Program. I would like to look 
at Mrs. Roddy who will be before our Military Construction 
Subcommittee in a few weeks and say, despite all of the 
difficulties and perhaps some of the things we ask you to 
sacrifice, we will see that your children receive a quality 
education.
    That has happened in the past, Mr. Chairman, because of the 
members of this subcommittee and we respectfully ask, on behalf 
of the Coalition and these 13 million children for whom we 
speak, that you please continue that leadership effort and 
support fully funding for impact aid.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you both very much for your exceptional 
and compelling testimony.
    Two years ago at a readiness hearing in Italy with our 
distinguished late chairman of the Readiness Committee, Mr. 
Bateman, I was talking with some military personnel there and 
made almost the same statement you did. When our brave young 
men and women are defending us around the world, the least we 
can do is see there is a good education for their children.
    In all these areas where the Federal Government, by treaty 
or law, has denied these school districts of revenue that would 
normally be there, we have to step up to the plate, so we will 
take a strong look at it.
    Mr. Hayworth. One note. We should point out that though my 
friend from Texas concentrated on military dependents and I 
talked about some of the challenges facing tribes, these 
concerns are not mutually exclusive. If you take a look at 
those who answer the call to military service, tribal members, 
Native Americans, more than any other group, answer the call to 
military service. So there is a connected interrelationship 
here. I would appreciate the committee taking that into 
account.
    I commend my friend from Texas for very eloquent testimony 
about what is faced by military dependents. You can see on the 
faces of my constituents here and they could offer very 
profound testimony from their real life experience.
    I appreciate your hearing us and the Chair's indulgence for 
this time this afternoon.
    Mr. Sherwood. The gentleman from New York, Mr. Fossella.
                              ----------                              

                                           Tuesday, March 27, 2001.

                       JUVENILE DIABETES RESEARCH


                                WITNESS

HON. VITO J. FOSSELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Fossella. Thank you for providing me the opportunity to 
testify today.
    I would like to thank you and this committee for continuing 
the effort to double the budget of the National Institute of 
Health by the year 2003. Since being elected to Congress, I 
have been a strong supporter of meaningful funding for the 
National Institute of Health, and I applaud the President's 
recent announcement that he will seek increased funding for 
life-saving medical research at the NIH.
    I would pause to thank publicly all those dedicated 
professionals employed by the NIH and all health care 
professionals publicly and privately who dedicate their lives 
to try to improve the human condition.
    Politics is a lot of things to a lot of people but one 
thing we can agree upon is that we can all work together to 
improve the human condition. We have seen it time and time 
again where illnesses we thought could never be solved have led 
individuals to lead better lives. As far as I am concerned, our 
best days are ahead.
    Of special concern to me is meaningful funding for the 
National Institute of Diabetes and Digestive and Kidney 
Diseases for fiscal year 2002. Finding a cure for Type I 
diabetes is absolutely doable and with congressional support, 
it will happen. No one in my parents' generation ever imagined 
a human being would travel in space, let alone land on the moon 
but on May 25, 1961, President Kennedy stood before a joint 
session of Congress to declare it ``time for a great new 
American enterprise.'' Then in 1969, what seemed impossible 
became reality.
    I believe we are now in a time of a great American 
enterprise, a time when we are closer than ever before to not 
only helping the millions who currently suffer from the 
insidious condition of diabetes but laying the foundation for 
future generations to live their lives free of this disease.
    It is not just a health issue, it happens to be an economic 
one as well. Diabetes happens to be a very costly disease to 
our Nation and accounts for approximately $105 billion in 
direct and indirect health care costs. One out of ten health 
care dollars overall are spent on individuals with this 
disease.
    I understand the World Health Organization estimates there 
are 125 million people worldwide with diabetes. This number has 
increased 15 percent in the last 10 years and is actually 
expected to double by the year 2005. In the U.S., the CDC 
refers to diabetes as ``a major public health threat of 
epidemic proportions.''
    Ten million people in our Nation have already been 
diagnosed with diabetes while an estimated 6 million have 
diabetes but are undiagnosed. To put that in prospective, 
onaverage, there is an estimated 23,000 people diagnosed and another 
14,000 undiagnosed in every congressional district across the country.
    More important than the costs are the lives this disease 
takes. Each year, 193,000 people die from complications from 
this disease. That is one every three minutes. Clearly a cure 
must be found and I believe it will be.
    Great and promising strides have recently been made in 
funding a cure for Type I diabetes. The contributions must 
continue and with your assistance, I am confident a cure will 
be discovered during our lifetime.
    Researchers are collaborating on many new treatments and 
others on the identification of the genetic components of 
diabetes. One of these promising treatments is known as the 
Edmonton Protocol for Eyelet Cell Transplantation. This is a 
process where insulin-producing cells called eyelet cells are 
removed from the pancreas and transplanted to a diabetic 
patient. The success rate has been extremely encouraging.
    The researchers in Edmonton, Canada have announced they 
were successful in transplanting the insulin producing eyelet 
cells into a number of men and women with Type I diabetes 
resulting in the discontinued use of insulin injections which 
is the scourge of millions who suffer from it. To date, more 
than 16 men and women have received this transplant and 100 
percent remain off insulin entirely.
    Researchers are further studying this transplantation 
without the need of the dreaded immunosuppressant drugs. The 
Edmonton Protocol has given the diabetic community great hope 
for a cure. Clinical trials of this extraordinary 
transplantation will be taking place and are taking place here 
in the United States. The procedure may not be helpful to 
children because it requires the use of the immunosuppressant 
drugs I mentioned before. Children's fragile bodies simply 
cannot withstand these very strong drugs.
    It is my hope that continued research with your support and 
members of this committee and indeed all of Congress, will soon 
enable more adults and even children to utilize eyelet 
transplantation. Our support is crucial to capitalize on the 
success of eyelet cell transplantation and to shorten the 
timeline to cure that we know is within our grasp.
    Mr. Chairman, you have been a leading advocate in this in 
playing an important role in encouraging increased research of 
diabetes and particularly Type I diabetes. Last year, Congress 
and the White House approved a 60 percent increase, the largest 
ever in juvenile diabetes research funding at the NIH. This 
increased funding will allow researchers to explore new 
opportunities to cure diabetes.
    It is my hope that Congress remains committed to helping to 
find a cure for diabetes. The time is now, the cure is within 
our grasp. It is not just the individuals, it is the families 
that are affected adversely, the 18-month-olds, the two-year-
olds that have to live and forever live until a cure is found 
with the six to eight times a day of pin pricks and two, three 
and four injections. All we would like to do is help them live 
a normal and healthy life.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula [resuming chair]. I understand. I have had some 
families from my district visit with me and I know the 
difficulty it creates for everyone involved. We do hope we can 
get a cure. It would be a wonderful thing to get a breakthrough 
on that.
    I know NIH is pursuing research very aggressively, 
especially using cell process as you described. That would be a 
wonderful thing if we could. We will do all we can.
    Mr. Fossella. Thank you, sir.
    Mr. Regula. Mr. Wu, you get the honor of being the last one 
today.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. DAVID WU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
    Mr. Wu. Thank you.
    I thank you for the opportunity to testify before the 
subcommittee today. As you prepare the fiscal year 2002 
appropriations bills, I would like to bring to your attention 
several projects from my congressional district that I think 
are worthy of national attention.
    I am seeking $2.5 million from the Fund for the improvement 
of post-secondary education to support the Mark O. Hatfield 
School of Government at Portland State University. It is named 
in honor of Oregon's most prominent and distinguished national 
leaders and has been a solid academic center for the 
advancement of education and research about public service.
    The money will be used to fund faculty and staff and 
support students at the school and the various research 
institutions such as the Institute for Tribal Government which 
the larger committee helped fund last year.
    Among the activities that will be funded is advanced 
education for elected and appointed officials at all levels of 
government, including those at non-profit organizations and 
other public institutions.
    In addition, funds will be used to increase the awareness 
of the importance of public service and to foster among young 
Americans greater recognition of the role of public service in 
the development of United States and to promote public service 
as a career choice.
    There is an extensive history of Federal funding for the 
Hatfield School of Government. Congress approved funding for 
the school in fiscal year 1999 and 2000 and last year as I 
noted funding was approved for the Institute of Tribal 
Government, an institution unique in the 50 States to study and 
support tribal governments.
    The second project I would like to mention briefly is a 
million dollar request from the Fund for the Improvement of 
Education for the Portland Metropolitan Partnership. We talk a 
lot about improving primary and secondary teaching but without 
strong leadership from the top, I don't believe that progress 
is possible. This program at Portland State University is aimed 
at providing that kind of leadership within schools.
    Third, I am seeking $2 million from the Administration on 
Aging for Oregon Health Sciences University for the second 
phase of the Center for Healthy Aging. The subcommittee 
supported the first phase of this project with a $1 million 
appropriation in fiscal year 2000. This demonstration project 
promotes health and prolonged independence by coaching 
participants and connecting them with resources to bring about 
positive changes in health behaviors and status.
    Here I would like to go off the written track a bit by 
mentioning that Oregon is among that handful of States thathas 
really innovated in helping older Americans achieve and maintain 
independence for longer periods of time. This not only gives older 
Americans their choice of lifestyles because I think many would prefer 
to stay as independent as long as possible, but in addition, it helps 
save the Federal Government money because if we don't have to 
institutionalize people, it is a significant savings. The Center on 
Health Aging's purpose is disseminate a clinical model which works both 
for older Americans and for our public purse. It is a worthwhile 
project this committee has seen fit to fund in the past.
    About two weeks ago, this subcommittee heard from Dr. 
Grover Bagby, the Director of the Oregon Cancer Center at OHSU. 
Dr. Bagby addressed the growing shortage of nurses faced by 
academic as well as rural health centers. The baby boom 
generation has provided its share of nurses and as a result, we 
will be facing large scale retirements soon. OHSU is expecting 
that 45 percent of the nursing faculty will retire within four 
years and because of this, we are attempting to alleviate the 
nursing shortage through the Laboratory for Teaching Technology 
application and innovation in nursing at OHSU. I am requesting 
$1.9 million from the Health Resources and Services 
Administration, Rural Health Outreach Grant Account.
    Without the teaching nurses at OHSU, we do not expect to be 
able to get nurses into the rural parts of the State nearly as 
effectively as we otherwise could.
    Finally, I hope you will be able to support a small portion 
of the Columbia River Estuary Research Program through the Fund 
for the Improvement of Post Secondary Education. We are seeking 
funding to train scientists, students and faculty for this 
program. Last year, the subcommittee supported the program 
through an appropriation to establish certificate and graduate 
degree programs in environmental information technology. We are 
seeking to continue that programmatic development and training.
    I might add I became familiar with this program several 
years ago as a private citizen. It is an amazing public/private 
partnership where this research institution has basically gone 
to the mouth of the Columbia River, one of the major estuaries 
of the U.S. west or anywhere in America, and by studying the 
currents, studying temperature, salinity, water density and 
flows, by being able to predict where things wind up, these 
folks are better able to help ships navigate the Columbia 
River, help salmon smelts navigate downstream to get out to the 
ocean, help predict where pollutants will wind up.
    There is an obvious hardware component of this program but 
there is a very important human and training component to this 
program. That is where we are seeking help from this 
subcommittee. It is a well leveraged and well worthwhile 
program.
    I thank the committee for its attention to these programs 
of importance to Oregon and am ready to answer any questions 
you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Sounds like you have some 
interesting projects.
    Is the School of Government at Portland something like what 
they have at Harvard with the Kennedy School?
    Mr. Wu. In essence, it is our northwest version of the 
Kennedy School, yes, or the midwest version of the Hubert 
Humphrey School or the LBJ School.
    Mr. Regula. The aging project sounds interesting. You are 
trying to help older people stay independent for a longer 
period of time?
    Mr. Wu. That is an important goal. Perhaps that is a 
primary goal along with helping them to stay healthier longer.
    Mr. Regula. That goes along with it. You can't be 
independent if you are not healthy.
    Mr. Wu. That is right. And at a fixed health status, if you 
will. We want to help people stay healthier but at one fixed 
health status, if you are able to coach the individual and also 
bring together community resources to focus on the individual, 
if the individual can reach out to the resources and bring 
community resources to bear, at the same health status that 
person might be tempted to go into an institution whereas if 
you bring the services together in the right way and empower 
the individual.
    Mr. Regula. You make the community more friendly to 
independence?
    Mr. Wu. Yes.
    Mr. Regula. Do you involve the family? A lot of times this 
would take education of families for support members. Does the 
program involve family members too?
    Mr. Wu. Absolutely. In this program there is a very strong 
educational component for the family and I should say outside 
of this program in the general model, there is the availability 
for some State funding of family members so that family members 
can take more time away from other things and be more 
appropriate and more effective caregivers to fellow family 
members.
    Mr. Regula. Sounds like a very worthwhile program.
    Mr. Wu. It is something that had a bit of room to run in a 
few other States and no where has it gone as far as it has 
especially in the Klamath Valley part of the State of Oregon. 
If we can make this model effective and try to replicate it 
elsewhere, I have heard academicians from around the country 
discuss how this would make people happier by keeping them 
independent but be a major cost savings to the Federal 
Government.
    Mr. Regula. I think that is absolutely right on both 
counts.
    Do you have Klamath Valley?
    Mr. Wu. No, I do not. It is Mr. Walden's good fortune to 
have the Klamath Basin.
    Mr. Regula. It would be further east.
    Mr. Wu. A bit to the east and to the south.
    Mr. Regula. Do you have the city?
    Mr. Wu. Most of my congressional district is rural but I 
also have the urban core of Portland, the financial district, 
the most urban parts of Portland through the high tech suburbs 
but two-thirds or three-quarters of my congressional district 
is actually forestland or agricultural land.
    Mr. Regula. What corps or cattle?
    Mr. Wu. Not much in the way of cattle but we have a lot of 
orchards, a lot of nursery stock as it became too costly to run 
nurseries in southern California, a lot of the nursery folks 
came up to my neck of the woods, and hazelnuts or filberts as 
we prefer to call them in the northwest and I think some of the 
best wines in America.
    Mr. Regula. You must have a somewhat temperature climate 
there?
    Mr. Wu. Yes. It is a temperate climate more like the 
Mendocino coast or the burgundy kind of climates in Europe. We 
are so far north that our vinters have the challenge of highly 
variable growing seasons. That creates both the best of times 
and the worst of times as agriculture tends to do.
    Mr. Regula. Thank you for coming.
    The committee is adjourned until 10:00 a.m. tomorrow.
                                            Tuesday, April 3, 2001.

           McKINNEY EDUCATION FOR HOMELESS CHILDREN AND YOUTH

                                WITNESS

HON. JUDY BIGGERT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. I call the committee to order.
    We have four panelists. You are not the ones that were 
scheduled for Panel 1, but we have four of you, so I am just 
going to go ahead and then as the others come in, we will use 
them on Panel 2 or Panel 3. I would be interested to hear what 
you have to say, and I know these are tough issues.
    We will start out with you Mrs. Biggert. Try to stick to 5 
minutes, if possible.
    Mrs. Biggert. Thank you, Mr. Chairman and distinguished 
members of the subcommittee, who aren't here, but I will say 
hello to them anyway.
    Mr. Regula. This is not unusual. That is why I get the 
extra pay.
    Mrs. Biggert. I am sure they will join you as time goes on.
    As the Republican cochair for the Congressional Women's 
Caucus, I am pleased to have the opportunity for our members to 
testify today. Every year this forum has provided the caucus an 
opportunity to come together as a bipartisan group to discuss 
issues affecting women throughout the United States. And I 
would like to thank you again for extending us the opportunity 
for this year.
    Today I would like to express any support for the McKinney 
Education for Homeless Children and Youth, the EHCY program, 
and I respectfully request the subcommittee to appropriate 
$70,000,000 for this program in fiscal year 2002. Children 
represent one of the fastest growing segments of the homeless 
population. In fact, an estimated 1,000,000 children and youth 
will experience homelessness this year, a situation that will 
have devastating impact on their educational advancement.
    Because of their unstable situation, these children face 
significant hurdles in obtaining an education. Studies show 
that homeless children have four times the rate of delayed 
development, are twice as likely to repeat a grade, and are 
more susceptible to homelessness as adults. EHCY removes these 
obstacles to education for homeless children and has made a 
real difference in the lives of many children and families. 
Yet, appropriations for the McKinney Education Program, the 
only Federal education program targeted to these children, have 
not kept up with demand for services or inflation.
    Despite the increase in homelessness, Congress did not 
increase the funding for this program at all from 1995 until 
2000. When Congress did finally increase the funding in 2001, 
it appropriated $35,000,000 for the program an increase of just 
$6,200,000. The lack of adequate funding for this program has 
been a major barrier to educating homeless children and youth. 
According to a recent national survey, in 1997 States were only 
able to serve 37 percent of school-aged children identified to 
be in this difficult situation.
    Compounding the problem is the poor collection of data on 
homeless children. States often do not have the resources to 
conduct the necessary assessments, and the lack of a uniform 
method of data collection has resulted in unreliable national 
data and the possible underreporting of homeless children.
    Earlier this month the subcommittee heard testimony from 
Lois Ferguson on behalf of the National Coalition for the 
Homeless. She gave emotional testimony about her experiences 
with homelessness and how the EHCY program had benefited her 
family. EHCY can make a real difference in many more lives, but 
only if the funding is there.
    I understand and appreciate the enormous budget constraints 
under which this subcommittee is working. However, I believe 
there is no better time than now to renew and strengthen 
Congress' financial commitment to helping provide homeless 
children with access to a quality education. I ask that you 
match the $70,000,000 that the Senate Health, Education, Labor, 
and Pensions Committee has recommended for the program in 
fiscal year 2002. By doing so, you will be reaching out to 
homeless children, helping to ensure that they don't lose out 
on what is guaranteed for all our children, a free public 
education. You also will be meeting President Bush's call to 
leave no child behind.
    Thank you very much for allowing me to testify today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you think the faith-based, if that program 
does develop, would be one group that might offer some services 
for these children?
    Mrs. Biggert. I think that is one way to address it. But 
what really concerns me is getting them back into a school 
system immediately and no red tape. And I think that the amount 
of money to do that, to have help financially for the 
ombudsman, and then the awareness that they know they can go to 
a school right away. And spreading $70,000,000 even over 50 
States doesn't go very far.
    Mr. Regula. I notice you are close to Chicago. They have 
had some enlightened programs in their school system. Has the 
Chicago system done anything innovative in providing these 
services?
    Mrs. Biggert. What we did in Illinois--and, in fact, I have 
introduced the homeless education bill, which is in the 
reauthorization of the K-through-12 program, and that is the 
model that we use for that program. So Illinois has a very 
great model for all the States in the education of children, 
and it is working very well there. And even, in fact, just a 
couple of weeks ago one of my schools, you would not think 
would have homeless children in it, it really worked out a 
program for a couple of kids that were homeless and didn't know 
where to go were enrolled in school; and they had the ombudsman 
that was provided in this program.
    So it really is working there. It was brought to my 
attention from other States, saying why can't we have the same 
kind of program.
    Mr. Regula. I guess it takes local initiative, because we 
had $35,000,000 last year, which obviously is not enough.
    Mrs. Biggert. Well, you know, for the homeless centers just 
to be able to provide not only for education, but to be able to 
provide for all the homeless and particularly the children.
    Mr. Regula. I am sure it is a severe problem.
                              ----------                              

                                            Tuesday, April 3, 2001.

                         THE WELLNESS OF WOMEN


                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Mr. Regula. Mrs. McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and good 
morning to you.
    Mr. Chairman, as the co-chair of the Women's Caucus, I am 
proud to come this morning. And we thank you for the 
opportunity to come before you this morning to again lay out 
our agenda for women and women's health. I am proud to have the 
women who have come this morning as a strong showing of 
advocacy for women across this country, especially the women 
who know of the myriad of health issues and problems that we 
see.
    I have testified in the past, Mr. Chairman, before you and 
others, on the need for us to look at the National Bone Marrow 
Program, telemedicine, breast, cervical, and lung cancers, 
fibroid tumors and other critical health issues. I was very 
pleased and very happy to have sat in the audience when the 
President mentioned his increase in funding in his budget for 
NIH.
    I respectfully request then that the 16.5 percent that the 
NIH is requesting for the various outlines of health issues 
that I will talk to this morning really be put in the budget, 
that is, $3,400,000,000 for NIH so that we can see some 
improvement in women's health. We have chosen for our theme 
this 107th Congress ``The Wellness of Women,'' and we certainly 
want, in our efforts and others' efforts, to promote and 
preserve women's health.
    As you know, heart disease is the number one killer for 
American women. Studies suggest that women are more likely than 
men to die from a heart attack, and women who recover from a 
heart attack are more likely than men to have a stroke or 
another heart attack. In fact, 44 percent of women die within a 
year following a heart attack compared to 27 percent of men. 
CDC is asking for $50 million to expand community education 
programs in 35 States for cardiovascular health programs.
    Another illness, Mr. Chairman, is that of cancer. It is the 
second leading killer of American women claiming 43,900 women 
in 1997. So early detection coupled with improved treatments 
has led to a decline in breast cancer rates, as well as 
cervical cancer, if women do get Pap smear tests. However, lung 
cancer has become the number one killer for women in terms of 
cancer in the cancer category, so we are asking, as well as the 
CDC, for the National Breast, Cervical, and Lung Cancer the 
Early Detection Program in the amount of $210,000,000 so that 
we can try to grapple with this whole notion of women and lung 
cancer, as well as cervical and breast cancers.
    Another disease that is really crippling women is that of 
lupus. Lupus affects one out of every 185 Americans. Although 
lupus can occur at any age and in either sex, 90percent of the 
victims with lupus are women. During the child-bearing years, lupus 
strikes women 10 to 15 times more frequently than men. And so we are 
asking for again, the NIH appropriation for lupus at $55,200,000.
    We are also--and the final thing that I would like to 
address is diabetes, the fourth leading cause of death in 
African American, Native Americans and Hispanic women, the 
sixth leading cause in Asian women and the seventh leading 
cause in white women. An estimated 16,000,000 Americans have 
diabetes, but only 10,600,000 cases are diagnosed, of which 
4,200,000 are women. Left untreated, diabetes can lead to 
severe vision loss, heart disease, stroke, kidney disease, and 
amputation of the lower limbs.
    The current NIH appropriation earmarked for diabetes is 
only 65 percent of the funding necessary. Therefore, I am 
asking for 1,500,000,000, which is 100 percent of the funding 
needed to address this single most costly disease in America.
    Mr. Chairman I was really thrown aback when I went to one 
of the clinics in my district to find that young African 
American women, ages 25 to 35, are really being crippled with 
visual impairments due to diabetes because they do not have 
health insurance. And so we are asking for this increased 
funding for education programs, for research, and for treatment 
of women.
    We know that women now are making up 52 percent of the 
heads of households; there must be a wellness among women for 
them to continue to be sometimes the only breadwinner for our 
children.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you. I might mention to you, we did go to 
the Centers for Disease Control yesterday, nine of the 
committee members and the staff. It was a very interesting day, 
and they mentioned some of the things that you just brought 
out.
    Ms. Millender-McDonald. Thank you.
    Mr. Regula. I think one of the problems in diabetes is that 
people don't know they have it until their vision and some of 
the things you just mentioned becomes evident of it.
    Ms. Millender-McDonald. I will be following them. And thank 
you so much; the CDC and NIH I will be working with them, so I 
do thank you.
    Mr. Regula. They do a nice job. We will be hard-pressed to 
do all the things that we need to do----
    Ms. Millender-McDonald. I know that is right.
    Mr. Regula [continuing]. With what is allocated to us, but 
we are going to give it a try.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                       WOMEN IN SMALL BUSINESSES


                                WITNESS

HON. SHELLEY MOORE CAPITO, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF WEST VIRGINIA
    Mr. Regula. Mrs. Capito.
    Ms. Capito. Thank you, Mr. Chairman, for allowing me to 
come here today and give you some brief and very general 
testimony.
    Wellness of women--I am the Vice Chair of the Women's 
Caucus--I am talking more wellness of women in terms of their 
economic wellness. In recent years women have made great 
strides in the workplace, especially as entrepreneurs. Between 
the years of 1987 and 1997 the number of women-owned businesses 
has increased 89 percent, and today there are more than 
8,500,000 small business owners in the United States that are 
women, and many in West Virginia, my home State.
    The small business has been and always will be the key to 
the American dream, especially for women and other minorities. 
But erecting and ignoring government barriers that hinder their 
success will slow their creation of and stifle their growth. In 
February of this year, six of my constituents received Small 
Business Administration loans; three of those business owners 
were women. Although they were very happy to receive the 
financial support, they probably would have been happier if the 
government would remove some of the unnecessary regulations 
that prevent them from doing such things as offering expanded 
health insurance policies to their employees or creating new 
jobs, all things that could be done with the costs that they 
expend jumping through the hoops of government bureaucracy.
    Women need to have better access for financing, for they 
are small businesses. As leaders entrusted with this 
responsibility, we need to be vigilant and recognize these 
needless barriers that burden our small businesses. So we have 
to be aware that we need to not tolerate the unnecessary 
obstacles that prevent women and minorities from the American 
dream. I can't help but wonder how many more women or minority 
entrepreneurs we could have if we made starting and running a 
small business a little bit easier.
    So today I would like to ask that we work together to 
preserve and extend the ideas of the American dream, and let's 
send this message that the true entrepreneurial spirit is 
available to them.
    Thank you for letting me make this general statement. I 
appreciate you listening.
    Mr. Regula. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I read a comment the other day that--I think it 
was Germany's czar for production said, if his country had used 
women as effectively as the United States, it could have had a 
pretty substantial impact on their ability to fight World War 
II. He recognized--fortunately, belatedly--that women are 
very--and I think that was a unique phenomenon in the United 
States, the impact of the women on the war effort. Rosie the 
Riveter truly was a very great part of it.
    And the point you make is well taken that the role has 
expanded. When I came here there were 18 in the House, now we 
have how many?
    Mrs. Biggert. Sixty-one.
    Mr. Regula. There was one in the Senate. Now there are 
nine.
    Ms. Capito. Watch out.
    Mr. Regula. None on the Court and now we have two, of 
course.
    I was startled to sit with a lady the other day who had 
three or four stars, which is kind of unique too. Times have 
changed, fortunately for the better.
    Stephanie, you are on the third panel, but I will just take 
Louise and then we will come to you.
                              ----------                              

                                            Tuesday, April 3, 2001.

                NIH OFFICE OF RESEARCH ON WOMEN'S HEALTH


                                WITNESS

HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK
    Mr. Regula. Mrs. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman. Good morning to you 
and Ms. DeLauro.
    I guess, in view of this conversation, it is probably good 
to point out this is Equal Pay Day, and women in the United 
States are still only paid 78 cents to the male dollar. So we 
are making some progress, but it is going pretty slow there. 
And we have contributed a great deal; we do want to be 
recognized.
    I do appreciate the opportunity to testify before the 
subcommittee on issues that are important to the Women's 
Caucus. As a Vice Chair of the caucus, I speak on behalf of all 
my colleagues when I say that we look forward to continuing our 
excellent working relationship with this subcommittee under 
your leadership.
    I would like to highlight briefly two issues that are 
extremely important to the health of American women. The first 
is women's health research at the National Institutes of Health 
and particularly the efforts of the NIH's Office of Research on 
Women's Health.
    This is a tiny office with a monumental mission. It has a 
threefold mandate to, one, strengthen, develop, and increase 
research into diseases, disorders, and conditions that affect 
women, determine gaps in knowledge about such conditions and 
diseases, and establish a research agenda for NIH for the 
future directions in women's health research;
    Second, to ensure that women are included as participants 
in NIH-supported research; and
    Third, to develop opportunities and support for 
recruitment, retention, reentry and advancement of women in 
biomedical careers.
    Under the leadership of Dr. Vivian Pinn, this office has 
made major inroads on all of these issues. Its progress is 
hampered, however, by a lack of resources. Over the past 4 
years they have received paltry budget increases, especially 
given the fact that Congress is working to double the NIH 
budget. For fiscal year 2000, NIH received a budget increase of 
14 percent, but the ORWH budget was increased less than 4 
percent. It is currently carrying out its mission with a 
$22,000,000 budget and, by contrast, the new Center for 
Minority Health and Health Disparities is funded at 
$132,000,000 for fiscal year 2001 and the Office of AIDS 
Research at $48,200,000.
    Last year I organized a letter from 22 women Members to 
Acting Director Ruth Kirschstein asking her to increase the 
budget. It is my understanding that she has requested a 
respectable budget increase for the Office of Research on 
Women's Health for fiscal year 2002. I hope the subcommittee 
will not only fund this request fully, but include language in 
the accompanying report encouraging the future permanent 
director to maintain this commitment. And that is a very 
important step.
    I would like to turn now to the other issue on my agenda, 
which is environmental health. The interplay between an 
individual's genetic predisposition to disease and the 
environment is not well understood. The evidence is clear and 
accumulating daily, however, that the by-products of our 
technology are linked to illness and that women are especially 
susceptible to these environmental health-related problems.
    There are many reasons for that, the makeup of a woman's 
body containing more fatty tissue, more exposure to household 
chemicals, and the like. You may have seen or heard Bill 
Moyers' recent report, titled ``Trade Secrets.'' Mr. Moyers 
detailed the fact that the chemical industry has kept 
confidential documents over the past 50 years about adverse 
health effects of workplace chemical exposures on their 
employees.
    In addition, a recent CDC report showed that all Americans 
have traces of pesticides, metals, and plasticizers in our 
blood and urine. What does this mean for our health? We don't 
know. However, the chemical industry has also provided great 
benefits to society through industrial and technical 
advancement. It is a question of benefit versus risk, but we 
need to at least understand the risk to make an assessment.
    I urge the subcommittee to provide increased funding for 
the National Institute of Environmental Health Sciences to 
enhance the research on environmental causes of disease so that 
we may improve the public health of America. This investment 
will save the lives and health of people who today suffer 
needlessly because we lack the scientific data to understand 
the effect of environment of exposures on human health.
    Mr. Chairman, I would like to note that I am proud to have 
recently introduced H.R. 183, the Women's Health Environmental 
Research Centers Act, a bill that will enhance scientific 
research in women's health and the environment and will fill a 
gap in the NIEHS research agenda by targeting resources to 
women's environmental health. NIEHS fully supports the 
initiative, and I would very much like to work with you, Mr. 
Chairman, on empowering the agency to create these research 
centers.
    Again, thank you very much for the opportunity to address 
you on these important issues.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    I might mention that at CDC they have one section on 
environmental health generally. An interesting footnote, they 
said they could take a sample of your blood and tell you all 
the various components how much arsenic is in it, how much all 
the various metals. Ms. DeLauro was there.
    You want to go ahead and ask some questions or comments.
    Ms. Slaughter. They can tell you almost everything from a 
drop of blood, including all the diseases that you have had as 
a child. It is a remarkable fluid that we have here. As former 
microbiologist, I am very fond of it.
    Mr. Regula. I like a good supply myself.
    Ms. DeLauro.  I will just briefly comment to Mrs. Slaughter 
it was a really fascinating what the CDC is doing--I was there 
with the group yesterday--particularly in this area and what we 
could do by way of tracking illnesses and so forth and dealing 
with genetic predispositions. So your words are well taken.
    Ms. Slaughter. Three to 4 percent of breast cancer in women 
is genetically linked; the rest of it must be environmental. So 
we need to study this very closely.
    Mr. Regula. Staff advises me that we are probably getting a 
larger allocation on the women's health issues.
    Ms. Slaughter. Thank you. I am so happy to hear that. Thank 
you very much.
    Mr. Regula. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. I personally want to 
thank you and thank the entire Women's Caucus. This is always 
the highlight of the presentations for us.
    And I want to particularly associate myself with your 
comments on environmental health. To date, they really haven't 
done enough work in that area. And I feel there so strongly the 
mapping we have done in New York, the coincidences between high 
rates in particular areas--not only New York, San Francisco, 
around the country. I think this is something that we have to 
continue looking at. I have always been interested in the work 
of Stephanie Coburn and the connections of her research with 
cancer. So I want to thank you and the entire Caucus for your 
presentations.
    Ms. DeLauro. I can explain it to my colleagues; I have to 
leave at 10:30.
    Pay Equity Day it is, and there is a press conference about 
the Paycheck Fairness Act, which, as my colleagues know, is a 
piece of legislation most of them are on for pay equity for 
women; and we are going to do that over on the Senate side this 
morning.
    But I just wanted to say, this is an unbelievable 
committee. When I first came, it was a 15-member committee. In 
terms of the representation for women, there are three 
Democratic members, there were two Republican members. I can go 
back and think about when it was Mrs. Pelosi, Mrs. Lowey, and 
myself, and Helen Bentley on the other side--a feisty, 
wonderful woman.
    But I think, Mr. Chairman, in terms of focus of this 
committee and where it goes and what it does not only on just 
women's health and those issues, but broadly, with the 
portfolio that exists in the committee, that I think women have 
made a difference; and the women members who come before this 
committee every single year talk about issues that face this 
Nation broadly and, I think, make a remarkable contribution to 
what is being done.
    Just one additional thing: When I first came here, it was 
only 10 years ago, I worked with women here who were courageous 
in charting the waters for the NIH, doing clinical trials for 
women and for minorities, and for there to be an Office of 
Women's Health at HHS; and because of the tenacity of the women 
who served in this body longer than 10 years ago--I look at 
people like Louise, Nita was here, it is people like Pat 
Schroeder and Barbara Kennelly and Nancy Johnson who charted 
the way--Connie Morella.
    Thank you, Mr. Chairman. I apologize to my colleagues for 
interrupting your testimony.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    I understand from my colleagues, Nita Lowey and 
RosaDeLauro, that they both have meetings at 10:30. This makes my 
arrival just right, so I can carry on for them when they leave. So I 
just want to thank you guys and say again, like Rosa said, this is a 
great committee and I really look forward to working on it.
    On the pay equity, we had a wonderful press conference and 
committee hearing up in Rhode Island about 2 weeks ago. The 
response was overwhelming. My local newspaper carried it front 
page, the whole story. My colleagues in the State legislature 
are pressing for it; they say they are not going to go for a 
budget that doesn't include it within State payroll. So it is 
not just equal pay, but pay equity, that there is a point 
system for jobs so that, you know, given experience and the 
duties of the job, that is going to be the criterion by which 
people are paid, not a set, you know, number of jobs that are 
set up.
    So anyway, thank you, Mr. Chairman. Thank you, my 
colleagues.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman. I am looking forward 
to listening to my esteemed colleagues and helping them work on 
this very important program. Thank you.
    Mr. Regula. Well, thank all of you on the first panel. And 
I just want to tell you, if my wife and daughter were here, 
they would be cheering you on.
    Ms. Slaughter. I am sure you will, as well.
                              ----------                              

                                            Tuesday, April 3, 2001.

               NORTHEAST OHIO NEIGHBORHOOD HEALTH CENTERS


                                WITNESS

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mr. Regula. Our next panel. We have the three--oh, here is 
Connie. Don't wait. We will go ahead. Is Connie on panel 4? 
That is all right. Okay. It is very informal here.
    Okay, we will take them in the order I have them here. But 
you were here early, so we will start with you, Stephanie.
    Mrs. Jones. I appreciate you giving me the opportunity to 
plead.
    Mr. Chairman, the Congressional Black Caucus is holding 
election reform hearings somewhere in this building. I am 
trying to get over there to all my colleagues.
    Good morning. Just for the record I would like to add to 
the names of some people who have been working in the past on 
the issue of women's health: Mary Rose Oakar, as well as my 
predecessor, Louis Stokes. I got that in.
    I appreciate your extending time for me to relate some of 
the very urgent concerns of the 11th Congressional District 
regarding the provision of health care at federally qualified 
community health centers.
    Northeast Ohio Neighborhood Health Centers is located in 
the heart of Cleveland and serves some of the most impoverished 
neighborhoods in the city. As in most large cities, large 
hospital health care providers have been migrating out of the 
inner city. The end result of this migration is many more 
uninsured for our health care centers to serve. The majority of 
constituents served by these centers live under 100 percent of 
the Federal poverty line. Many of these people are now working 
but remain uninsured because their jobs do not provide health 
benefits.
    The rollout of Ohio's SCHIP has helped. SCHIP covers 
children who live at up to 200 percent of Federal poverty 
level. Moreover, the State of Ohio has expanded coverage to 
adults living at 100 percent of the Federal poverty level.
    The Northeast Ohio Neighborhood Centers have experienced an 
increase of almost 10 percent in the uninsured patient base in 
the last year, partially due to hospital closings. NEON is not 
the only provider that has suffered immensely from managed care 
in our city.
    Approximately one-half of NEON's 35,000 patients are 
children. Approximately 28,000 of those 35,000 patients live 
under 100 percent of the poverty level. Many of them have 
mental health or drug and alcohol problems as well as diabetes, 
hypertension, cancer or high-risk pregnancies, as well as other 
health issues that often parallel living in poverty.
    Twenty-three physicians and six dentists logged more than 
115,000 encounters in the year 2000. NEON provides 
transportation, translation and counseling to encourage and 
empower patients.
    Despite the hospital closings, managed care and numerous 
other earth tremors in the health care system, NEON's 
community-based system of five health care center sites is 
still open and providing care.
    I will skip over only to say that the neighborhood health 
centers need additional support for them to continue to be able 
to provide care.
    In my district we lost two large hospitals in this control 
of the health care delivery system; and only on Sunday, in the 
Plain Dealer newspaper, it was reported that many of the 
hospitals are diverting patients. They close down their EMS 
center, their emergency room; and, therefore, the EMS trucks 
have to go to the next hospital, the next hospital. That has a 
significant impact on the delivery of health care.
    Very quickly, we would like to have $600,000 to do MIS 
upgrades or information management upgrades, as well as we seek 
$3,800,000 in addition to the MIS for many of the facilities 
that NEON operates. The facilities are old, and they are in 
need of renovation to be able to continue to provide care.
    I thank my colleagues and the Women's Caucus for giving me 
the opportunity to be heard today. I would ask this committee 
to keep in mind the desperate need of community health centers 
in our Nation and the need for them to provide care. I submit 
my testimony for the record.
    Also, let me not forget, there--I should say that, 
incidently, Mr. Chairman, you may also know that there is a 
center comparable in your community in Massillon.
    Mr. Regula. I am very aware of it. They reminded me several 
times.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. CONNIE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Regula. I think what we will do is do the panel and 
then questions, because we have a pretty full schedule here to 
get through today. So, Connie, you are next.
    Mrs. Morella. Thank you, Mr. Chairman.
    I want to begin by congratulating you on the chairmanship 
of what I consider one of the most important subcommittees of 
the Appropriations Committee and thank you for extending to us 
this opportunity to testify before you. And, Ms. DeLauro, I am 
wearing my red for Equal Pay Day.
    Mr. Regula. Isn't there equal pay in the Congress?
    Mrs. Morella. Well, it is--actually, I would say it is one 
of the few places where we are pretty close to equal pay, but 
in so many other areas that is not the case.
    Among my top priorities is the continuation of our 
commitment to double the budget for the National Institutes of 
Health, and we are on the right track. We are in year number 4 
of the 5-year plan. The President has called for 
$23,100,000,000, which is a 13.8 percent increase. To keep on 
track, we could use $23,700,000,000.
    Let me jump around to a couple of other issues that are 
important to all of us and indeed to me.
    Since 1990, I have been the sponsor of legislation to 
address women and AIDS issues. Women are the fastest-growing 
group of people with HIV, with low-income women and women of 
color being hit the hardest by the epidemic. AIDS is the 
leading cause of death in young African American women.
    We particularly urge your support for the development of a 
microbicide to prevent the transmission of HIV and sexually 
transmitted diseases at a level of $75,000,000. Currently, less 
than 1 percent of the budget for HIV and AIDS-related research 
at the National Institutes of Health is being spent on 
microbicide research. Actually, I would like to see the 
important work of the Office of AIDS Research quickly converted 
into a proactive, strategic plan for microbicide research and 
development that has the active involvement and support of NIH 
and institute leadership. Much progress has been made, but more 
needs to be done.
    You know, microbicides, I remember many years ago when I 
first introduced legislation I couldn't pronounce microbicide, 
but it is so critically important to making sure that we don't 
have HIV and AIDS and sexually transmitted diseases. It is like 
a vaginal solution that has nothing to do with a spermicide, so 
it is not a birth control method; and, boy, what a difference 
this would make in the world.
    I would like to jump to breast cancer. Mr. Chairman, as you 
know, women continue to face a one in eight chance of 
developing breast cancer during their lifetime. More than 
2,600,000 women are currently living with breast cancer. This 
year alone more than 183,000 women will be diagnosed with 
breast cancer, and 41,000 women will die of the disease.
    This subcommittee has clearly demonstrated its commitment 
to breast cancer research. We urge you to continue this 
momentum in this fiscal year 2002. On behalf of all the women 
who live in fear of the disease, we urge the subcommittee to 
continue its strong commitment.
    And, Mr. Chairman, although it is not a widely known fact, 
tuberculosis is the biggest infectious killer of young women in 
the world. In fact, TB kills more women worldwide than all 
other causes of maternal mortality combined. Currently, an 
estimated one-third of the world's population, including 15 
million people in the United States, are infected with the TB 
bacteria; and due to its infectious nature TB can't be stopped 
at national borders. So it is important to control TB in the 
United States, and it is impossible to control it until we 
control it worldwide. I urge support for an annual investment 
of $528,000,000 for the Centers for Disease Control in its 
efforts to eliminate TB. Of course, there is that multiple-
drug-resistent strain of TB that is so dangerous.
    The Violence Against Women Act is a very important 
priority. We reauthorized it, added some new programs. Now I 
respectfully request that the funding become a priority for 
this subcommittee; and I am requesting that the shelters under 
the FVPSA, which is the Family Violence Prevention Act, be 
funded at their authorized level of $175,000,000 for fiscal 
year 2002.
    Also, transitional housing that Asa Hutchinson and Bill 
McCollum helped to put into that bill, the transitional housing 
program to be funded at its original and one-time authorization 
level of $25,000,000.
    Rape prevention and education to be funded at its full 
authorization level of $80,000,000 for fiscal year 2002.
    Several other programs I have mentioned in the testimony 
that I am submitting but are, very briefly, the Women in 
Apprenticeships and Nontraditional Employment Act, I introduced 
that many years ago, it has been working well on $1,000,000, to 
continue it. The Campus-Based Child Care Program, which is 
working to allow low-income women to have some assistance with 
child care on college campuses. What a great way to get them 
off of welfare and into the work world.
    That being said, you are very kind and gracious, you and 
the members of this subcommittee, Mr. Sherwood, and I see Ms. 
Pelosi is here. We had Ms. Lowey, Ms. DeLauro and Mr. Kennedy 
listening to us and hope that you will be able to accommodate 
these.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                    PREVENTION OF DOMESTIC VIOLENCE


                                WITNESS

HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEVADA
    Mr. Regula. Could you all stay when you finish the panel? 
Then we will take the questions. Because we are on a pretty 
tight schedule to get through all the other witnesses.
    Ms. Berkley.
    Ms. Berkley. I am delighted to have an opportunity to 
testify before this subcommittee which enjoys a wonderful 
reputation for tackling issues of major importance to women and 
children and families in our Nation and has been instrumental 
in improving the quality of life for millions of American 
families that, prior to your interest and actions, had little 
hope for their futures or the futures of their children.
    I want to thank you for allowing me to speak today in 
support of increased funding for programs to prevent domestic 
violence. Crimes of domestic violence have devastating 
consequences for women personally, as well as for their 
families and for society as a whole. In my district of southern 
Nevada, I have visited shelters for battered women and talked 
with law enforcement officers, counselors and community 
leaders. I had an opportunity to do a drive-along with the 
police when they were doing their domestic violence shift, and 
I have seen firsthand the horrible effects domestic violence 
can have on a community. That is why today I ask you to 
continue efforts to prevent domestic violence by fully funding 
domestic violence grant programs within the Department of 
Health and Human Services.
    These programs, which include grants for rape prevention 
and education, community intervention and prevention 
organizations, as well as the National Domestic Violence 
Hotline, are vital to the fight against domestic violence.
    Of particular importance, however, is funding that supports 
shelters for battered women. These shelters are often the only 
source of protection and relief for women who are fleeing from 
a violent situation.
    Women across the country need the services that domestic 
violence programs provide; and, again, I urge you to fully fund 
these programs.
    I have had an opportunity to tour all of the domestic 
crisis shelters in southern Nevada in my district, from the 
ones where people are going just for a very temporary 24-hour 
situation to get them out of their house, get their children 
out of the house, to the more complex situations where, when I 
went to visit the shelters, they blindfolded me and drove me 
there because these are places that are so secret that the 
perpetrator of the violence cannot find his family and continue 
to perpetuate the crime against his family.
    Most of these women, when I sit down and speak to them, 
they tell me how desperate they are to have a place to go not 
only for themselves but particularly for their children. Many 
women are stuck in a violent situation because theydon't have 
anyplace to go, and they endure incredible violence in their homes 
because they are afraid to be without an income, without a roof over 
their heads, without shelter for their children.
    If we can provide this tool for them to get out of those 
situations, they can break this dependency and codependency 
that they have on the perpetrator of the violence and begin to 
get the counseling they need and break out of the situation and 
be able to take care of not only themselves but their children 
as well. Many times, it is just a shelter to house them until 
they can get on their feet. But if we don't provide this they 
will end up back in the abusive situation.
    When I was practicing law I spent a good deal of my pro 
bono time trying to help these women get out of the situation, 
provide them with low-cost divorces. But it wasn't--it was the 
dependency, it was the emotional damage, it was the 
psychological fear that they had of breaking that tie and 
getting out of their home and feeling that without that home 
they would be destitute and on the streets. And for many of 
these women they endure incredible pain and incredible violence 
just so their children aren't out in the streets.
    Again, I want to thank you very much, but unless we fully 
fund these domestic crisis shelters we are going to have this 
problem in perpetuity; and the cost to society is far more 
extensive if we don't spend the money to fully fund these 
shelters and these programs than if we don't.
    Mr. Regula. Thank you.
    Are you familiar with Parents Anonymous? It is--at least in 
Ohio they are pretty active where they--it is like single 
mothers can go and talk to each other and get help. It is a 
support group and somewhat goes to what you are discussing 
here.
    Ms. Berkley. There are many programs available, but in the 
final analysis, if the women has to go back to that violent 
environment, she is never going to break the cycle.
    Mr. Regula. Very true.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Kennedy. Mr. Chairman, these grants also help us 
identify those children, because the National Institutes of 
Mental Health have developed an absolute correlation between 
children from families with domestic violence and drug abuse, 
cognitive delay in learning and further violence within the 
family among these children. This is absolutely a determinative 
in terms of the cycle of violence. So these grants have another 
effect of allowing us to try to address the needs of these 
children along with their mothers in many cases.
    So I look forward to working with you on making sure that 
we get some training for these kids, too, when they face these 
situations. A couple of States have done very well by these 
grants to get the whole families involved.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Well, the testimony is very compelling; and 
we have all in our private lives seen examples. If there is 
anything that we can do, such as these grants, to put that 
behind us, we are certainly on the right track. Thank you.
    Mr. Regula. Ms. Pelosi.
    Ms. Pelosi. Mr. Chairman, while I was listening to the very 
excellent testimony of Representative Berkley, especially 
toward the end when she was talking about her own experience 
doing pro bono work, I was reminded of our work together when 
we were on Commerce, Justice, State together. We were able to--
I had worked with Senator Cohen, others in the Senate and 
this--not Senator Cohen, others in the Senate on the Republican 
side where we tried to make--for women to have legal 
assistance. They were testing the income of the spouse.
    So we had an amendment in our Commerce, Justice bill for 
legal assistance that would say that the income of the spouse 
would not be counted against the woman when she tried to get 
some legal assistance, some legal aid. Which made a very--as 
you well know, you graciously did pro bono work, but everyone 
is not able to avail themselves of that. So that made it a 
difference, too.
    But this has been a fight for a while in the Congress to 
get as much as possible for these grants. It is one of the 
proudest moments that we have, when the Women's Caucus comes 
before us with this array of issues that are so important; and 
we have been able to make a substantial difference in many 
areas of health, Mr. Chairman. Everybody understands that this 
is a tricky issue, because everyone is uncomfortable with it 
and all the more reason we have the maximum resources to do it. 
So I am glad the Women's Caucus has made this a priority.
    Mr. Regula. As you pointed out, you and I have been 
champions of legal services in Commerce, State because that is 
one way that women can get help that otherwise just wouldn't be 
available.
                                            Tuesday, April 3, 2001.

                        COMMUNITY HEALTH CENTERS


                                WITNESS

HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mrs. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and congratulations 
on your chairmanship. Thank you to the entire subcommittee for 
allowing us to come before you to testify today.
    I would lend my voice to many of the issues that--probably 
all of the issues that these women are going to talk to today, 
but in particular I want to take a couple of minutes to talk 
about increasing the funding for community health centers. We 
would like to see an increase in the amount of $250,000,000.
    I will tell you, it is some of best money that we can 
spend, because this directly affects areas that are usually low 
income, as parts of my district are. It is about putting health 
care readily accessible to people there, because they either 
don't have transportation or they do not have an ability to get 
off work or they have children they have got to take care of or 
they have to bring the children with them.
    What happens when you don't have community health clinics 
is that people don't go and see a doctor. When they do go and 
see the doctor, it is with a very chronic problem already when 
they walk through the front door. Where is it that they go? 
They don't go to a clinic. They go to an emergency hospital 
where they know it is the highest cost of delivery in the 
entire health care system.
    So when we are able to put these community clinics in areas 
where people can come, they can come with their kids, they can 
walk, they are readily available, they are open on Saturdays 
and Sundays, and they can get preventative medicine. They can 
work on issues of nutrition for diabetes, for example, where 
the Latino community has about five times the amount of 
diabetes in our community than anybody else in the United 
States, and that is simply because of nutrition. There are 
problems that we have that become very expensive if we don't 
get access to health in a meaningful way to people in lower 
income areas.
    One of the things that has happened in my district and why 
I feel so strongly about this is that we are now seeing what we 
call back room clinics in pharmacies. So if you go to an 
independent pharmacy or you go to a drugstore that doesn't even 
have a pharmacy there in my area and you need something, you 
need medication for your kid, your kid is sick, what is 
happening is that these people are taking them into the back 
room, somebody who is not even a doctor is analyzing what is 
wrong with this kid and giving them drugs that are either 
coming in, brought across the border from Mexico--and we have 
had, just in the last 6 months, an 18-month-old baby girl and a 
15-year-old boy die because of illegal drugs, prescription 
drugs coming from someplace else being given to these kids. And 
these parents are--this is the kind of health care that they 
think they can afford.
    So the more that we can do to put in neighborhood clinics 
the better it will be for all of us in the long run. We don't 
need to lose these kids simply because parents are doing the 
best that they think they can do in a system that is pretty 
much ignoring them.
    And I am talking about working people. I am talking about 
people who have taxes taken out of their paychecks. I am 
talking about people who pay taxes when they go and they buy 
everything at the store. These are people who are low income 
and need the access to health care.
    So I would hope that you would really consider increasing 
the amount towards the community health care centers.
    Mr. Regula. Thank you.
    Any questions?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                          TRANSITIONAL HOUSING


                                WITNESS

HON. JANICE D. SCHAKOWSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF ILLINOIS
    Mr. Regula. Our next witness is Mrs. Schakowsky, the 
successor to my great friend, Sid Yates.
    Ms. Schakowsky. As I was going to say, Mr. Chairman, though 
you and I don't know each other very well, I feel very warmly 
toward you because of the great relationship that you had and 
the things Sid Yates said about you, so thank you very much.
    Mr. Regula. I still miss him. He used to call me after I 
was gone to tell me how to run the committee.
    Ms. Schakowsky. Well, I wanted to also talk about violence 
against women and the needs for transitional housing, and I am 
so glad that Connie Morella spoke to you about it. Shelly 
Berkeley talked about the need for shelters.
    I wanted to particularly emphasize the $25,000,000 for 
transitional housing that was authorized in the Victims of 
Trafficking and Violence Protection Act of 2000. So I am hoping 
that that money now can be appropriated.
    The Department of Justice has identified 960,000 women 
annually who report having been abused by their husbands and 
boyfriends, but we know that number is really just the tip of 
the iceberg. The first comprehensive national health survey of 
American women conducted by the Commonwealth Foundation says 
that 3.9 million American women actually experience abuse by an 
intimate partner each year, 3.9 million.
    Hundreds of these women, hopefully thousands, are able to 
get out of those situations, but they have few financial 
resources and often have no place to go. Lack of affordable 
housing and long waiting lists for assisted housing mean that 
many women and their children are forced to choose between 
abuse at home or on the streets.
    While we absolutely need more money for shelters because 
they are filled to capacity right now, we know that, in fact, 
50 percent of homeless women and children--that is, 50 percent 
of the families, the women and children who are homeless right 
now are fleeing abuse. So the connection between housing and 
abuse is overwhelming.
    Housing can prevent domestic violence and mitigate its 
effects. Shelters provide immediate safety to battered women 
and their children and help women gain control over their lives 
and get on their feet. A stable, sustainable home base is 
crucial for women who have left a situation of domestic 
violence. While dealing with the trauma of abuse, they are also 
learning new job skills, participating in educational programs, 
working full-time jobs or searching for adequate child care in 
order to gain receive sufficiency. Transitional housing 
resources and services provide a continuum between those first 
emergency shelters and independent living and so those 
transitional housing dollars are very important.
    According to estimates by the McAuley Institute, 
$25,000,000 in funding for transitional housing would provide 
assistance to at least 2,700 families. We must be supportive of 
individuals who are escaping violence and seeking to better 
their lives.
    In closing, let me reiterate my appreciation to the 
subcommittee and restate my strong support for providing safe 
transitional housing assistance to women and children fleeing 
domestic violence. Thank you.
    Let me just, on a personal note, mention that my last visit 
to this committee last year I was sitting next to Loretta 
Sanchez. Actually, it was sort of depressing because she was 
talking about being in the first Head Start class and how 
important it was, and I was there to talk about being the 
first--teaching the first Head Start class. I thought, oh, my 
word, the difference here. But I am so happy that so many of us 
are here today talking about domestic violence and the 
importance of providing the support for women seeking to flee 
that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We hope that in Head Start we can maybe improve 
on it and make it a little more of an educational experience, 
rather than just warehousing of kids. That tends to be the 
characteristic of it, and I think you will miss a great 
opportunity in Head Start to not do more on the education side 
of it. I have never figured out quite why it was in the welfare 
department and not in the education department.
    Ms. Schakowsky. Head Start has been a wonderfully 
successful program.
    Mr. Kennedy. Mr. Chairman, on the Head Start, the thing 
that the teachers say is most important is the social and 
emotional development of the child. That is what gives them the 
cognitive advantage over those kids that haven't gone through 
Head Start. So it is not so much that they are learning their 
ABCs, but they are in an environment that starts to make it 
conducive to learning down the road. So it is kind of an 
interesting thing. But it is not the cognitive development so 
much at Head Start, which is what we think it is, but it is the 
social and emotional development, which I might add is lacking 
in our other primary education, which we need to work on.
    Ms. Schakowsky. I agree. I didn't want to step on my own 
message, though. I wanted to be sure that I am focusing here on 
the $25,000,000 for the transitional housing.
    Mr. Regula. This committee has a broad jurisdiction.
    Any other questions? Thank you very much.
                              ----------                              

                                            Tuesday, April 3, 2001.

                 ENFORCEMENT OF WORK PLACE PROTECTIONS


                                WITNESS

HON. HILDA SOLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mrs. Solis.
    Ms. Solis. Thank you, Mr. Chairman and members. It is a 
pleasure to be here for the first time to speak before your 
subcommittee; and I want to add my comments also, along with 
those that have been made by previous members, regarding health 
care research and the whole issue of domestic violence.
    Just as kind of a footnote there, in my own district I was 
successful in getting one shelter established in Los Angeles 
County in the area that I represented. It is a really sad 
situation when you think about all the animal shelters that 
exist in my district.
    When you put a price at where you value human life and what 
have you, we only were able to get funding for one shelter. So 
much more is sorely needed.
    I would hope that this committee would strongly take a good 
look at how we can enhance partnerships, both public and 
private, with law enforcement, so we can have both permanent 
shelters for those and transitional.
    Our problem in our district is that we have many women who 
are faced with this issue of domestic violence, and with that 
bring their children. In cases for Latinos, for example, you 
are talking about 4 or 5 siblings, children that come along 
with that one woman, who is looking for a place to go and 
possibly a warm meal, a roof over her head, but also the 
opportunity to find employment. So I would hope that this will 
be a priority for this coming session.
    But my remarks, I would like to focus in on the issue of 
enforcement of Federal wage and overtime laws by the Department 
of Labor. As you go through in crafting the Labor-HHS funding 
budget for fiscal year 2002, I would like to urge the committee 
to allocate sufficient funds for the enforcement of workplace 
protections.
    This issue is very critically important to women, not just 
in my district, but in many corners of our country, 
particularly in those areas where you find an enormous number 
of low skilled workers, women in particular, who are working, 
as an example, in the garment industry.
    My district has a very high proportion of individuals who 
work in the garment industry. Unfortunately, a few years ago it 
was discovered there was a sweatshop in the City of El Monte, 
which I happen to represent. There were 72 women, Thai women, 
that were held hostage there, many for 7 years. They did not 
mention though, however, in those news articles, there were 
many Latino women also working there day in and day out and 
were forced to work under very harsh conditions and were not 
given minimum wage, were not given overtime, were actually 
placed in a warehouse setting where they were pretty much 
locked in and could not leave the compound as it was later 
viewed by the public.
    I would hope that we could do as much as we can to help to 
provide information to the workforce, but particularly women 
that tend to be attracted to this particular type of industry, 
because it is a problem, not only in California, but along the 
border and other parts of the country, where I believe we need 
to do more to provide those protections for women and their 
children, because we also know there are many children working 
in it these factories as well.
    Because of a lack of resources in the past few years and 
also on the part of our local municipalities that may not have 
enough funding to follow through on code enforcement to really 
go through and find out if, for example, a true small business 
is actually working legitimately and that they are paying for 
their licenses and what have you. We are finding there has been 
a cutback in these areas, and obviously that leads to more 
abuse.
    So I would hope that this committee would take a strong 
look at protecting the rights of women in the workplace as we 
work towards pay equity. We also have to work towards a place, 
an environment, where they can work and be treated with 
dignity, and that they are fully aware of their rights when 
they are at the workplace, and that the employer also plays a 
meaningful role in providing that kind of information as well.
    This year we are going to be working on trying to elevate 
the minimum wage. In the State of California, we happen to have 
a higher minimum wage than here at the Federal level, and I 
hope we can work in partnership to bring some equity. That 
isn't to say where I would like to see it. I would like to see 
it much more higher, but at least it is a start. I would hope 
we can venture into those discussions.
    I would like to thank you for the opportunity to speak to 
you today.
    Mr. Regula. Thank you. We will bring this issue up with 
Mrs. Chao when she testifies, because it would be her 
department responsibility.
    Questions.
    Ms. Pelosi. No questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

               SCHOOL-BASED LATINO MENTAL HEALTH SERVICES


                                WITNESS

HON. GRACE F. NAPOLITANO, A MEMBER OF CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Thank you very much. Our next witness is Mrs. 
Napolitano. Am I saying it right?
    Ms. Napolitano. You are very right on, sir.
    Good morning, and thank you so much for the opportunity you 
have given the Women's Caucus to come before you and bring the 
issues that all of us feel are important. I associate myself 
with the remarks at every turn.
    One of the reasons, Mr. Chairman and members, that I am 
here, is because there is an issue that has been identified in 
the last 2 years dealing with youth mental health crisis in 
this country. Recent incidents in school shootings only add 
more urgency to that particular matter, and that is the reason 
why I am here, again, to respectfully request you continue 
support for the school-based Latino mental health services 
program in my an area. It is a pilot we begun.
    Let me provide some disturbing facts that illustrate, and I 
am sure you heard them before, but I just need to get them to 
you again, the depth of the crisis for young Latinos in the 
country.
    Today, nearly one in three Latino adolescents has seriously 
considered suicide. This is the highest rate for any racial or 
ethnic group in the whole country. Additionally, they also lead 
their peers in the rates of alcohol and drug abuse, teen 
pregnancy, and self-reported gun handling.
    These statistics are all more alarming when one considers 
that fewer prevention and treatment services reach young 
Latinos than any other racial or ethnic group. This is a report 
that came to us in 1999 with the state of Hispanic girls 
through the National Alliance for Hispanic Health, a 
conglomerate of groups that provide mental health services for 
Latino groups. This is in spite of the fact that Hispanic girls 
now represent the largest minority of girls in the country, and 
are expected to remain so for the next 50 years.
    Last year this subcommittee gratefully took a major and 
laudable step when it directed SAMHSA to provide $680,000 
through the programs of national and regional significance 
activity, center for the mental health services, to begin 
addressing the mental health need of Latino adolescents through 
innovative school-based mental health services in our area.
    What we have done is we have taken the nonprofit mental 
health care provider and all other mental health advisers and 
have gone to the schools, setting the program actually in three 
middle schools and a high school, to give the direct services. 
The funding does not go to the State, does not go to the 
county, but goes directly to the providers and the schools 
where the most need is.
    Now I am asking, I am urging and I am begging the 
subcommittee to give this fledgling pilot program an 
opportunity to make a difference in the lives of these young 
women and many others. School administrators, teachers, 
community mental health providers, and parents, and, most 
importantly, young Latinos believe this program is urgently 
needed.
    This subcommittee and Congress has begun to provide 
national leadership in dealing with this crisis and in finding 
appropriate solutions. Our aim as a society should be to help 
these young girls reach their true potential and allow them to 
make positive contributions to their communities, to their 
State and to their Nation. Failure to do so may condemn a 
generation of young girls to lives that are significantly less 
hopeful and productive than they deserve.
    Again, I respectfully request the subcommittee to continue 
providing this program at the same level of funding as last 
year, and hopefully this program will provide a way for 
duplication throughout other areas where it may be so 
desperately needed at this point.
    Thank you again for the consideration, and look forward to 
answering any questions you may have.
    Mr. Regula. Thank you. Questions.
    Mr. Kennedy. Yes, Mr. Chairman.
    I applaud you for your work on this. I have been working 
with the chairman to address this issue. Would you kind of 
explain further how the schools end up being a non-stigma 
environment so the kids can get the help in the schools, rather 
than in some mental health counseling outside, which would 
certainly be so loaded with stigma, and of course explain the 
culture, the Latino culture, so that it really oppresses people 
with this mental health issue. We think we have got a stigma. 
Imagine what it is for the Latino culture.
    Ms. Napolitano. It is a tremendously important area to be 
able to provide the service in the school itself. Understanding 
that my Latino friends and relatives and my peers and everybody 
else, they consider it an area that you don't go. You don't 
talk about it, you don't bring it up. Especially in the male 
Latino, you just don't admit that you have a mental problem.
    The stigma is they don't know the difference between a 
mental health issue and a mental disease issue. Part of what 
has happened in our society, and the Latino society 
specifically, is this has carried on to the family, you are not 
allowed to admit you have a mental problem or a mental health 
issue that can be dealt with, that you can talk out.
    So the idea is to have it in the schools where the peer 
pressure is. These teachers can be a part of it. The parents 
will be a part of it. This is not just a school thatis going to 
be involved. It is a whole community effort by bringing all the players 
in at the school to deal with the issue.
    The classrooms are going to be set up so that they can go 
to specific rooms to deal with it, and there will be classes 
given to others that do not have the same problem of dealing 
with mental health issues, but rather to understand that it is 
not a stigma, but rather an idea for them to identify, in their 
own mind, how they can deal with pressures and those kind of 
issues.
    Mr. Kennedy. Thank you very much.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Ms. Napolitano. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

         ON BEHALF OF CHILDREN WITH MENTAL ILLNESS AND HIV/AIDS


                                WITNESS:

HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Regula. Okay. Ms. Jackson-Lee.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. It is 
nice to see you, and thank all the members for being here on a 
Tuesday morning. Might I associate myself with all of my fellow 
colleagues from the Women's Caucus and their different issues. 
Might I particularly associate myself with my colleague sitting 
next to me on the issue of mental health.
    I have offered, over the last two sessions, the Omnibus 
Give a Kid a Chance Mental Health Bill, that deals with 
providing more resources for children that are dealing with 
mental health concerns. I would like to give you what you may 
already know very quickly, and then focus in particular on the 
concerns that I have.
    Mr. Chairman, I think you may be aware that 13.7 million 
children in this country have diagnosable mental health 
disorder, yet less than 20 percent of them receive treatment. 
The White House and U.S. Surgeon General have recognized mental 
health needs to be a national priority in this Nation's debate 
about comprehensive health care.
    I have found that at least 1 in 5 children, adolescents, 
have a diagnosable mental, emotional or behavorial problem that 
may lead to school failure, substance abuse, violence or 
suicide. However, 75 to 80 percent of these children do not 
receive the services.
    According to a 1999 report of the U.S. Surgeon General for 
young people 15 to 24 years old, suicide is the third leading 
cause of death behind intentional injury and homicide. In 
particular, in the African American community, the U.S. Surgeon 
General has found that the rate of suicides among African 
American youth has increased 100 percent in the last decade. 
Black male youth, ages 10 to 14, have shown the largest 
increase in suicide rates since 1980 compared to other youth 
groups by sex and ethnicity, increasing 276 percent. Almost 12 
young people between the ages of 15 and 24 die every day by 
suicide.
    When we speak about another selective group in the study of 
gay male and lesbian youth suicide, the U.S. Department of 
Health and Human Services found lesbian and gay youth are two 
to six times more likely to attempt suicide than other youth 
and account for up to 30 percent of all completed teen 
suicides.
    I interact with such a group, family group, in Houston, 
working with these young people in particular, trying to make 
adults available to be engaged in their lives. You see it 
firsthand because, as my colleague said, they are intimidated, 
they don't know where to turn for information. They are 
different, whether they are Latino, whether they are African 
American, whether they are different by way of a lifestyle, 
whether they are different by way of their particular religious 
background.
    Mr. Regula. Do you think they recognize that they have a 
need?
    Ms. Jackson-Lee. No, Mr. Chairman. I think, as my colleague 
has said, sometimes it is culturally different, sometimes there 
is a cultural difference. If I take my community, the African 
American community, very heavily based in religious beliefs, it 
is well-known that you are directed toward your Savior, and, if 
you are not grounded in that, then you are not directed 
anywhere. It is a stigma in the community, and I would argue, 
not having firsthand experience to the gay and lesbian 
teenager, but as I have been told by groups that advocate for 
them, they particularly are isolated because they are 
different. So I think what it is is that I don't know what I 
have, I am confused, but no one will understand me.
    So I think that this whole concept of having services, 
whether it is in the schools, which I support, whether it is in 
community-based health clinics, which I support, because I want 
parents to be able to feel free who are not able to access the 
private sector for psychiatric or counseling service, to have 
the access to do this.
    This is not a conversation about guns, Mr. Chairman. I know 
it is well known, my position, but I think over the last 48 
hours, we have saw some studies that were shocking aboutteenage 
boys being able to have access to guns or bring guns to school. So we 
know that our children suffer from gun violence. Handgun Control 
reports that in 1996, more than 1,300 children, aged 10 to 19, 
committed suicide with firearms.
    What I would like to get at is the intervening act factor, 
to be able to help these young people before they get to that 
point.
    With the high number of uninsured young people, Texas has 
the second highest rate of uninsured children in the Nation 
with over 25 percent, there are programs that you support that 
I would like to ask for increased support.
    The National Mental Health Association has a children's 
mental health services program that provides grants to public 
entities for comprehensive community-based mental health 
services for children with serious emotional disturbances. 
These grants go to direct services that include diagnostic, 
evaluation services, outpatient services at schools, at home, 
and in the clinic, and day treatment. I would like to see that 
funded and provided additional funding.
    In addition, I would like to see parity for alcohol and 
drug addiction treatment for young people and their families. I 
emphasize their families, Mr. Chairman. I think that is an 
excellent combination, because many times the adults in the 
home, whoever is the supervising adult, a grandmother maybe, 
are as much in need of service as might be the child.
    I met with these individuals through the National Mental 
Health Association, and I had grandmothers raising 15-year-olds 
who already had a child and already tried to attempt to commit 
suicide 2 or 3 times, a little girl 15 years old. And to see 
the grandmother who was not that old to have to confront the 
needs of this 15-year-old, they both needed to be in 
counseling.
    The Children Mental Services Health Program only serves now 
34,000 children, so I ask the committee to authorize $93 
million for that. The Safe Schools Health Student Initiative is 
another program of the Children's Mental Health Services 
Program, and I would ask for $78 million involved in that 
program.
    Quickly, Mr. Chairman, I want to move from mental health 
and focus briefly only on children as victims of HIV-AIDS. I 
know this may have been previously discussed.
    I support a particular community organization called the 
Donald R. Watkins Memorial Fund, which has seen its dollars cut 
drastically. It is estimated that 800,000 to 900,000 Americans 
are living with HIV and every year another 40,000 become 
infected.
    I happen to come from a community in Houston that at the 
time of the issuance or the establishment of the Ryan White 
treatment dollars, we were 13th in the Nation of HIV infected. 
That was about 1991-92. My particular community has not 
decreased as much as we would like, and we find a large number 
of our young people infected with HIV-AIDS. In fact, we find a 
large number of African American's infected, and particularly 
children.
    So I would ask to receive a total additional amount, I 
believe this is $4 million during FY 2000, and even more during 
FY 2001. Let me get this amount into the record. I am asking 
for an increase for $89 million for Title I, $45 million for 
Title II, $46 for Title III, $19 million for Title IV, so 
Houston will receive additional funds, as well as the Nation, 
and I am particularly asking for direct grants for Donald R. 
White Memorial Foundation for $500,000 for their special 
services dealing with children and young people.
    I will conclude, because my statistics may be a little 
long, to simply say that Andy Williams in California, 
Columbine, we can all talk about guns, we can talk about taking 
guns away from children, but these children are disturbed. And 
as I followed this, I had a hearing in my district with Senator 
Wellstone. It is amazing. First of all, what we do is we put 
most of them in a juvenile justice system, because we don't 
have any place to put them.
    The parents don't know what to do. The parents don't 
intervene soon enough. If we had just known, or Andy Williams 
had somewhere to go to talk about this bullying or maybe talk 
to the children about character issues. And I think mental 
health, if we can destigmatize it and ensure that children feel 
free--it is just like coming to a counselor or going to Burger 
King or McDonald's, to be able to express your feelings, we 
might not have all of these painful situations that are 
happening in our community.
    I am with these children, I talk to the gay and lesbian 
youth, it is really an emotional situation when you speak to 
them. No one cares about them.
    I just think we can do better. I know how we are fighting, 
when I say fighting, I know the difficulty of appropriators. I 
appreciate all of you very much. But this has gotten to be a 
crisis in our Nation, not taking care of our children who are 
disturbed and resulting in adults who are dysfunctional.
    So I would appreciate very much your indulgence. I conclude 
by simply saying I had an amendment on underserved populations 
in the last Congress, and this is what this is all about, many 
underserved populations, because they are not getting some of 
the services that they need.
    Mr. Regula. I think you are suggesting that there ought to 
be counselors available somewhere for this disturbed youth to 
go.
    Ms. Jackson-Lee. Somewhere, and it can be either theschool-
based efforts, that I support enthusiastically, and then there are 
these community-based mental health clinics that, because they are in 
the community, they can be called any manner of names. Whether they 
have to be called mental health clinics, they become familiar.
    The National Mental Health Association has interfaced with 
this structure, where they put them in the community and the 
parent, the guardian, whoever it is, can go with the child, and 
it may be down the block, or it may be just a few blocks away, 
or maybe connected to the school, or it may be connected to 
some community-based group. But what it does is it allows the 
families to come without stigma and also not go very far away. 
When you hear the word ``psychiatrist'' or do you have to go to 
a doctor's office, these are community-based entities that may 
be helpful. I think they are in only 34 States right now.
    Mr. Regula. Could they be part of the community health 
centers? We have had testimony here about the importance of 
those.
    Ms. Jackson-Lee. That is part of the effort of the National 
Mental Health Association. We would like to see more funding so 
they could be in more states.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. This is not social 
science; this is not soft science. We have the Surgeon General 
just come out with his report on children's mental health. This 
is part of the health. The brain is like any other organ. It is 
like diabetes, asthma, it is a chronic illness, it needs to be 
treated regularly.
    We have one in five children, according to the Surgeon 
General's report and as Ms. Jackson-Lee pointed out, who have 
severe emotional mental illness, and the schools are one of the 
primary places to capture them, because that is obviously a 
non-stigma environment.
    In addition to that, as Ms. Jackson-Lee pointed out, the 
community health centers are good places. But what we also need 
to do is train the primary care physicians to identify 
depression and mental illness. You would be surprised how many 
regular primary care general physicians do not know how to 
identify this, and therefore it goes undetected.
    You also, being a member of Commerce-Justice-State, the 
Office of Juvenile Justice and Deliquency Prevention, the 
juvenile crime rate is going up. What is the surprise?
    We know through sociological studies that parents are 
spending one-third less time with children today than they did 
just a couple of decades ago. If you don't think that comes 
with a price, when you have two parents working or it is a 
single-parent family, where that child doesn't see the parent 
until the end of the night and the child has to be put to bed, 
this is a significant cost to our society. We need to bring the 
families together somehow, and hopefully these kinds of 
programs will help do it. I just wanted to pass that along.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Mr. Regula. Mrs. Pelosi.
    Ms. Pelosi. Mr. Chairman, I just want to associate myself 
with Mr. Kennedy's remarks. We have to have parity in terms of 
mental health and what other people call other health issues. I 
particularly want to commend both of our witnesses for their 
focus on the School-Based Mental Health Initiative, and also 
Congresswoman's Jackson-Lee's testimony about HIV-AIDS, and I 
want to say that thanks to both of our witnesses and many women 
here this morning, we were able to send a letter to President 
Bush on March 29 signed by 153 members in a bipartisan fashion 
to talk about the AIDS epidemic.
    I think that at some point we will have the opportunity to 
meet with the President on this subject, and the subject of 
young people and HIV-AIDS, which is certainly an important 
component of it. We are optimistic we can meet with the 
President.
    Good work on these issues. Mr. Chairman, the testimony that 
people bring in for a few minutes is important to us. This is 
like the tippy-tippy-tip of the iceberg of the work that they 
do in that regard. Thanks to both of you.
    Mr. Regula. I would be curious, since the Secretary of 
Education is from your town, did you have anything in the 
school system there, any counseling, that would be accessible 
to students in a disturbed state?
    Ms. Jackson-Lee. We were beginning to make some progress on 
school-based health clinics. In those health clinics we had 
individuals who could stand in for counselors. When I say that, 
nurses who were trained, et cetera, they could go right in the 
school.
    They are slowly but surely--in fact, we argued in the 
present legislative session in Texas for more funding for 
school-based clinics. But we, too, I would say the Secretary of 
Education is very open to this, but we too need more growth in 
those areas.
    I will also I guess acknowledge that we have been--I will 
knock on some wood here-- fairly fortunate in Houston, but 
again, I don't take any special pride, because violence breaks 
out anywhere and everywhere. So it is just that it is something 
that we need to make great strides on.
    Might I just say on the hearing that I had in Houston, the 
juvenile justice officials came forward and noted 
whatCongressman Pelosi noted and Congressman Kennedy noted, is that we 
don't know what to do with these children. They said you are sending 
them to us because we are the only physical plant they can be housed.
    You would think they would say bring them on or we are 
prepared to do it, but they were the ones pleading with us, 
find us more mental health services because you are sending us 
children who we can't treat, we can only house them.
    Mr. Kennedy. Mr. Chairman, if I could, these kids who end 
up in our juvenile justice system, you have 95 percent or 
higher that come from abusive homes. This is, like, the 
correlation is too great. We know which kids are high risk. We 
ought to intervene earlier. These kids, by the time they end up 
in the juvenile justice system, the parents know, the teachers 
know, the schools know, for us to let them slip through its 
cracks itself is criminal.
    On the Elementary and Secondary Education Act with the 
Education Secretary, this might be a good issue for us to try 
to include somewhere in the Elementary and Secondary Education 
Act, because it is so fundamental to the child's education.
    Mr. Regula. We will have an opportunity when the Secretary 
of Education is before us to talk about that, and probably one 
of the things that teacher education should include is some 
course or so that would, because the teacher would be a very 
good person to identify disturbed children early.
    Ms. Napolitano. They are with them a major portion of the 
time, and they can tell when the student is beginning to act up 
or the grades are beginning to fall.
    Mr. Chairman, I have a mental health hospital in my area 
and have been involved for many years at the adult level. We 
have also different clinics from the Mental Health Association 
that I have been involved with through the years.
    They deal with really mostly the disease more than the 
illness. I think it is time we began to add substance to the 
local provision of services by giving some assistance to the 
families, as my colleague was saying, for mental health 
services.
    What we are attempting to do is begin to show that the 
partnership between the county and the State, adding additional 
services, maybe not even in funding, but services, whether it 
is personnel or whether it is a locale, so that we can expand 
on the delivery of the service at the local level.
    You are right. The correlation of the children, the 
neglected one, the at-risk kids, all has a bearing, and we all 
know those areas. So if we can target the areas and begin to 
work with the community to be able to deal with the child, we 
will be successful. That is what I am attempting to do, along 
with my colleague.
    Mr. Regula. Thank you both for coming. It is a significant 
problem you have identified. We will do what we can.
    Ms. Jackson-Lee. Mr. Chairman, may I ask a procedural 
question on the time that members have to have requests in?
    Mr. Regula. The 27th of April.
    Ms. Jackson-Lee. It has not passed. Someone had given me a 
date that caused migraine indigestion.
    Mr. Regula. My experience in Interior is some requests may 
not be timely, but they still get to the chairman.
    Ms. Jackson-Lee. I am trying to meet your rules and 
regulations. So you are saying April 27th?
    Mr. Regula. That is correct.
    Ms. Jackson-Lee. Thank you, Mr. Chairman.
                              ----------                              

                                            Tuesday, April 3, 2001.

                              RE: PROJECTS


                               WITNESSES

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Sherman.
    Mr. Sherman. Mr. Chairman, it is interesting to appear 
before you in a new capacity. I want to thank the members of 
the subcommittee for being here. I have had a number of 
projects in my district that I think will interest the 
subcommittee.
    The first--I guess it works better when you turn the 
microphone on.
    The first is a request for $500,000 to help build the new 
Guadalupe Community Center in the poorest part of my district. 
It is a program run by Catholic Charities of Los Angeles. The 
building program will cost $1.5 million. Private charities will 
come through with one-third of that amount, the City of Los 
Angeles roughly a third, and I am asking the Federal Government 
to provide the final third.
    The center serves 900,000 individuals from low income 
families, 84 percent of its clients are Hispanic. It provides 
emergency food, clothing, case management, senior nutrition, 
welfare to work services, a youth mentoring program. Due to 
immigration, there is a substantial additional need. The center 
needs to expand so it can provide English as a second language 
and computer and math skills. That is the first project on my 
list, is a request for half a million dollars for the Guadalupe 
center.
    The next two projects are so important that I am 
bringingthem to the subcommittee's attention, even though 80 percent of 
the project is outside my district. The projects will take place 
primarily in Elton Gallegly's district. He and I share Ventura County. 
He can't be here today. He is counting on my eloquence to explain the 
programs.
    The first is a preventive health care program for the 
people of Ventura County. This is an outreach program to 
provide preventative health so we don't have people showing up 
at emergency rooms. The county has had a drop of roughly 20,000 
people in the number who are in Medicaid, but then there has 
been a 20,000 increase in the number who were on Medicaid and 
now have no insurance at all.
    This is an innovative program to provide cost-effective 
preventive medical services. Some $9 million is being provided 
by the county, and we need $5 million of Federal funds, 
slightly more than a third, Federal funds for this program.
    The next of the two Ventura County projects that are 
primarily outside my district is a Center for Mental Health 
Services grant request dealing with mental health services for 
those in prison, in transition to being released and rejoining 
society. This program has already received $900,000 in Federal 
support for start-up, and the State has granted $1.6 million.
    It is an innovative program to provide a full range of 
mental health services to those in prison. There has been a 
significant reduction in recidivism from those who get this 
kind of treatment, and this is, I think, an ideal pilot study 
to show the importance of this treatment to other county prison 
facilities.
    The next project I am seeking $2.75 million for a child 
care center in Newbury Park. This will go an along with some 
local funds. The total budget is $3 million. We are also 
seeking in roughly the same area funds for a senior adult 
center expansion.
    Finally, for a YMCA that will be focusing much of its 
attention on the low income people of the region, providing 
social services. Roughly half the money there is being provided 
by local government and local charities, and we are seeking the 
other half from the Federal Government.
    Mr. Regula. Thank you. Things haven't changed too much 
since Interior.
    Mr. Sherman. I do have many things on the list, but I did 
put them in what I think is a reasonable order. As I say, the 
first one is a $500,000 project.
    Mr. Regula. Questions.
    Mr. Honda.
                              ----------                              

                                            Tuesday, April 3, 2001.

                        RE: EDUCATIONAL PROGRAMS


                                WITNESS

HON. MIKE HONDA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Honda. Good morning, Mr. Chairman. I think the last 
time I was before you we were talking about sleep or fatigue; 
is that correct?
    Mr. Regula. Right.
    Mr. Honda. I just want to thank the Chair and the 
distinguished members for the opportunity to present my 
testimony today.
    I have submitted a full written testimony for the record, 
but today I would like to focus on increasing school 
construction, recruiting 100,000 new teachers over the next 7 
years, increasing Pell grants, as well as fully funding special 
education.
    If we are going to judge teachers, Mr. Chairman, and 
students by test scores, then Congress must fund programs that 
encourage improvement, growth within education, and we must 
demonstrate a commitment and respect and confidence in students 
by providing safe, permanent classrooms that are not crumbling.
    Nearly 80 percent of Americans support providing Federal 
funding for school repair and modernization, yet the 
President's budget eliminates $1.2 billion the Congress 
approved last year for school renovation and cuts another $433 
million in unspecified programs.
    It would take nearly $112 billion to bring public and 
elementary and secondary schools to adequate condition. 
Thisfunding would help renovate up to 14,000 needy public schools and 
serve around 14 million students. I urge the committee to spend the 
$24.8 billion over the next 2 years in new tax credit bonds to renovate 
up to 6,000 schools.
    If we want students to learn more at a faster rate, then we 
need to reduce class size to enable teachers to teach 
efficiently. We also need to provide the teachers with the best 
training in order for them to provide the best instruction, and 
in order to attract and train teachers for both high need 
schools and underserved teaching topics, such as math and 
science, Congress should increase compensation for qualified 
teachers.
    According to the National Center for Education statistics, 
elementary and secondary school enrollment will grow from 52.2 
million in 1997 to 54 million in 2006, requiring new schools 
and new teachers. Research has also shown that students in 
smaller classes and grades K-3 learn fundamental schools better 
and continue to perform well even after returning to larger 
classes after third grade.
    I urge the committee to continue to recruit 300,000 new 
teachers over the next 7 years in order to reduce class size 
averages in the early grades. I also encourage the $1 in new 
funding in 2002 and $18.4 billion over the next 10 years to 
provide up to $5,000 in supplemental pay to fully qualified 
teachers in high poverty schools or those in need of 
improvement under Title I.
    I request an increase of $600 in the maximum Pell grant, 
for a total of $4,350. I also ask that Congress fully fund 
special education in order to free up general fund money to 
allow schools to spend their money where it is most needed.
    By failing to meet these needs, Mr. Chairman, in the 
education system, we are failing to meet the needs of every 
single American. If we truly expect our schools to meet the 
challenges of greater accountability and higher achievement, 
then we as Congress need to ensure that we continue to fund the 
initiatives that we have put forward. Congress, as well as 
schools, need to be held accountable for their actions, and 
accountability is a two-way street.
    I just want to close by talking about accountability, and I 
guess student achievement.
    We know that we have made mandates, such as PL 94-142, 
which is requiring the pursuit of special education 
identification of youngsters. Since we are at 13 to 15 percent 
funding level, where we said we would be funding them at 40 
percent, this ties up, as you well know, a lot of the local 
funds that school districts are trying to use, as they try to 
meet the mandates. So we have created a mandate without the 
full funding.
    As a school principal of two schools, identifying 
youngsters, I know this is a big struggle between parents who 
want youngsters to be identified and seek the special help and 
school districts in their inability to fully fund it all. If we 
really want to help our local schools, then we should fully 
fund special education so they can free up their local money to 
do the things that they could do more efficiently at the local 
level.
    Mr. Regula. Thank you. Questions?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Pelosi. Mr. Chairman, since many of our witnesses today 
are senior Members of Congress, and Mr. Honda is a freshman, he 
alluded to his experience as a school principal, but, for the 
record, I wanted him to tell you how he knows of what he speaks 
as a very distinguished record as an administrator and a 
teacher in the San Jose area.
    Mr. Honda. Thank you, Ms. Pelosi.
    Mr. Chairman, I have spent over 15 years as an 
administrator in a K-8 school in South Central San Jose, and I 
know that we tell our parents what their rights are, and a lot 
of times, in the community I worked with, we had to be their 
advocates in order to be able to identify these youngsters.
    Many times school districts are so strapped that they are 
hesitant to go all the way, because they have to look at their 
bottom line. We put them in this situation that is untenable 
for both the districts and we frustrate our parents because 
they want the best for their youngsters, as do the schools.
    In other sections of our valley, parents do know their 
rights and they bring lawyers with them to the school 
districts. That creates, again, another situation where it is 
untenable for both sides. So if we solve this problem, we will 
solve the problem not only for the poor neighborhoods, who 
where administrators need to be the advocates of the 
youngsters, and also the well-to-do neighborhoods, where 
parents have the wherewithal to bring attorneys with them, and 
we can solve that problem by fully funding a mandate that we 
have put forward a few years ago.
    Ms. Pelosi. Mr. Chairman, our witness also brings 
impressive academic credentials from graduate studies at 
Stanford University in education.
    Mr. Honda. I get it.
    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Mr. Honda, as a 20-year school board member, 
I have great respect for your credentials as a principal and 
know how important that is. IDEA is something that we have to 
step up to, because we have created the mandate, but not put 
the funding with it. So I certainly agree with you on that, and 
the Pell grants, and a lot of your presentation.
    But when you talk about the Federal Government providing 
100,000 new teachers or reducing the student-teacher ratio, 
doesn't that go against what you said earlier, that if we 
provide the IDEA funds, then the districts have the right to 
run, the ability to run their own deal?
    I am very pro-education then and I agree with you, but I 
think there are things we can do from Washington and things we 
shouldn't try to do from Washington.
    Mr. Honda. I agree with you, Mr. Sherwood. I was aschool 
board member for over 9 years in San Jose unified. I understand how 
budgets are dealt with. You are caught in the middle really as a school 
board, isn't that correct? At the Federal Government level, you know, 
the 100,000 teachers was an effort by the Federal Government to help 
reduce class sizes in many classrooms across the country. I think that 
is a good role for the Federal Government to do, to encourage the 
reduction of class size, and also to find funds to be able to 
compensate teachers who are teaching in high need areas and who are 
teaching in subject matters that are subject matters that we need, like 
math and science.
    Now, today we are talking about accountability, and if we 
are talking about accountability, then we have to also be 
accountable by fulfilling our obligation and fully funding that 
mandate. We are also talking about student achievement.
    Now, student achievement is obtained by having time on 
task, and the way we attain time on task in our role can be to 
help reduction of class size and encourage that, and we can 
fully help the local school districts if we fund fully special 
education. That frees up an incredible amount of monies that 
can be reinvested in reduction of class sizes and hiring new 
teachers. But when we do that, Mr. Sherwood, you know when we 
reduce class sizes, we create a need for more teachers. So we 
need to help support that effort and do just our part so until 
they get on their feet.
    The other thing is when we create more teachers, we need 
the classrooms when we reduce class size. If we don't do those 
two things, in addition to in our effort to reduce class size 
and to increase student achievement, if we don't help in the 
construction of new classrooms, providing new teachers, then we 
are only going one-third of the way.
    The other way we can help the local school districts is to 
free up the local money so they can reinvest that in those 
areas also. So we need to help school districts be able to 
provide new construction or modernize by putting up the $25 
billion for the tax credit, because at the local level, when we 
create a bond indebtedness, we are in there for 30 years, 
right? If we come up with a tax credit against the interest on 
the principal, that reduces the local effort by 10, sometimes 
15 or 20 years, and that is a big impact that is not really 
well seen by the general public. But we do know that, because 
we have been involved in that kind of dynamics of budgeting.
    So the Federal Government has a very unique role, but a 
very important role, to help attain accountability, student 
achievement, by helping the local classroom achieve that time 
on task by creating, hiring more teachers in those needed areas 
and providing the funds to create more classrooms or modernize 
classrooms.
    Mr. Sherwood. We agree and we disagree.
    Mr. Regula. Thank you, Mr. Honda.
    Mr. Honda. I am trying to give a macro-picture along with 
the details.
    Mr. Regula. Thank you.
    Mr. Honda. Thank you very much. Let me close, Mr. Chairman, 
by reiterating what some of the other folks said. I do think we 
need to start looking at more brain research. That is one area 
we haven't paid a lot of attention to. Youngsters do come with 
developing minds and brains. If we look at minds as one set, we 
have to look at the brain and its development in the process of 
education.
    The last comment is we are getting close to senior prom, 
graduation, and you know as well as I do that we see tragedy in 
our newspapers about youngsters dying behind the wheels, not 
because of drugs, not because of alcohol, but because of 
fatigue. I would just like to reiterate if there is some way we 
can admonish our schools to talk to our youngsters about taking 
care of themselves and not get overly tired so that they avoid 
those tragedies.
    Thank you, Mr. Chairman.
    Mr. Regula. Good point. Mr. Bereuter.
                              ----------                              

                                            Tuesday, April 3, 2001.

 APPROPRIATION FOR THE UNIVERSITY OF NEBRASKA--LINCOLN AND FUNDING FOR 
                        THE CLOSE UP FOUNDATION


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Bereuter. Mr. Chairman, Ms. Pelosi, Mr. Sherwood, 
members, thank you for letting me testify today. May I observe 
the Chairman loose, unusually rested and tan, and I am not 
quite sure how he did it, but I know how he got his tan, 
because I was with him.
    I am here to testify, Mr. Chairman, and members of the 
subcommittee, on two items, an appropriation for the University 
of Nebraska--Lincoln, and funding of the Close Up Foundation.
    The first item is the Great Plains Software Technology 
Initiative. A substantial amount of detail is given about this 
program. It is, in some ways, a unique program, but I think it 
is replicable across the whole country. It takes a look at the 
importance of information technology, attempts oh to help our 
students cope with it; to use it well as a building block for 
their future.
    The program at the University is the result of an $18 
million grant from one of our alumni, a challenge grant, and 
this would provide an opportunity for some internship programs 
as these students in their educational experience in this 
honors program implement the curriculum with industry applying 
what they are learning in the process as they approach the 
junior and senior year. This will provide an opportunity for 
additional students, but, most importantly, it helps develop 
further the curriculum which is replicablearound the country.
    It is an important initiative. I took a look at the whole 
range of proposals from the University of Nebraska systems, 
including this campus, which is in my district, and decided 
this was the one that I thought had the greatest opportunity 
for replicability around the country for its application.
    Secondly, I want to speak about the Close Up Foundation, as 
I usually do. They have a request for $1.5 million, which is 
almost below the area where you observe it. But I think it is 
an important testimony to the corporate world that provides 
most of the funds for the fellowships for low income students 
that the Federal Government and the Congress, specifically, 
thinks this is an important program.
    When I first came here, Nebraska was one of only seven 
States that did not participate, although I was speaking to 
teachers and student groups, and today Steve Janger, the 
president and founder, tells me that we have the highest 
participation rate on a per-capita basis in the country. I just 
spent about 45 minutes this morning speaking to students from 
my district.
    It is, in my judgment, the most outstanding citizen 
education program that brings people to Washington of any age 
group, and this happens to be a course focused than our high 
school juniors and seniors. I, along with Mr. Roemer, I 
believe, who also takes a lead on helping the Close Up 
Foundation, interested in making sure that this program which 
focuses on the Federal Government, a national program, is not 
block granted, that it maintains its separate identity through 
the authorization process, where Mrs. Landrieu is working in 
the Senate and where various House Members are taking a lead to 
make sure the Close Up Foundation's programs continue.
    Mr. Chairman, thank you very much for listening to my 
request. I would be happy to answer any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Thank you.
    Mr. Regula. Thank you.
    Mr. Dreier. This is a switch. I am usually on the other 
side of the table with you.
                              ----------                              

                                            Tuesday, April 3, 2001.

                         RE: DIABETES RESEARCH


                                WITNESS

HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Dreier. It is very nice to be here.
    Mr. Chairman, let me begin by extending very hearty 
congratulations to Mr. Sherwood on his recent appointment to 
this very important committee, and obviously the great 
intelligence that all of you had in placing him on your 
subcommittee.
    I want to congratulate you also, because I have spent the 
last 30 minutes or so listening to the testimony, and you have 
very important work with which you deal, and this is the first 
time I have been before this subcommittee, and I appreciate it.
    It is interesting, if 10 days ago someone had said to me 
that I was going to be testifying on diabetes funding before 
Ralph and his subcommittee, I would have said, well, that is 
interesting, but I was--really would be a little skeptical 
about it.
    A week ago Sunday night, many people watched something that 
took place in the area that I am privileged to represent, the 
Academy Awards, and I happened to see an old friend of mine, a 
guy called Doug Wick, accept the Oscar for the best motion 
picture. He produced Gladiator.
    Doug and I had been friends for 25 years, but, quite 
frankly, we had lost contact, and I have been very good friends 
with his parents, whom I mentioned to you the other day, 
Charles Wick, who is director of the U.S. Information Agency in 
the Reagan Administration, and Doug's mother, who was the 
chairman of the Reagan inaugurals in the 1980s, and I 
maintained contact with them, but frankly had not been in touch 
with Doug.
    But when Doug won this academy award, I decided to call him 
and congratulate him, and we had a nice chat, and he informed 
me that his daughter, Tessa, had 3 years ago--she is now 10--3 
years ago had been diagnosed with juvenile diabetes, and he 
asked that I come before you to strongly support the funding 
that has been provided, and I am very happy that the President 
has doubled the budget for NIH, and we have also had a 
significant increase I know for diabetes funding, due in large 
part to your efforts, and I want to encourage that.
    What I would like to do is I would like to just read 
highlights of a letter that Lucy and Doug Wick's daughter, 
Tessa, wrote recently to a number of people, encouraging 
support for diabetes funding. I have a longer version which I 
would like to put in the record.
    Mr. Regula. Without objection.
    Mr. Dreier. As I said, she has politics in her veins with 
her grandparents, so she has a much longer version, but I am 
going to take the somewhat briefer version. I was rather moved 
by this.
    I haven't even met Tessa. I look forward to meeting her.But 
Doug encouraged me to be here, so let me just share this with you.
    ``January 15th, 1998, was a day I will never forget. It was 
the worst day of my life. I was at school in second grade when 
right before lunch my parents rushed through the door and told 
my teacher I would have to leave. I could tell by the look on 
their faces that they were not taking me to Disneyland. 
Instead, they drove me to the UCLA hospital.
    ``When I got to the hospital, the doctors told me I had 
diabetes. They said that I would have to get 2 or 3 shots every 
single day. I was used to maybe 1 shot every year. And there 
was more bad news. I was going to have to prick my finger 4 or 
5 times a day and put a drop of blood into a little computer. I 
was going to have to do this before every meal, before bed, and 
maybe even in the middle of the night. So far, according to my 
sister's calculations, I have had to prick myself or inject 
myself with insulin over 4,500 times, and I have had diabetes 
for a year and a half.
    ``And then there was this creepy information about what I 
could eat. For instance, everyone likes to trade food at lunch, 
but unless I want to have an extra shot, which is usually 
never, I have to stay away from cheesecake, slurpies and 
cookies. I don't know if you are a big lunch trader, but I am, 
and take it from me, what is the use of trading food if you 
can't win any of the good stuff?
    ``Sometimes I try and remember what it was like to just eat 
whatever I wanted without taking a shot of insulin. I try and 
remember all the nights that I could just go to sleep without 
worrying about having a seizure in the middle of the night and 
making my mom wake up at 2 in the morning to check my blood 
sugar just in case.
    ``The last 2 summers I have gone to diabetes camp. The 
first day the camp director stood up and said, will anybody 
here with diabetes please raise your hands? And every single 
kid and all the staff members raised their hands. I couldn't 
believe it. Then the director said, I guess anybody here with 
diabetes will be the normal ones, and everyone clapped.
    ``I like feeling normal at camp. But where I really wanted 
to feel normal is at home, at school, and with my friends, and 
that is only going to happen one way, and that way is to find a 
cure. So please support diabetes funding and help us find a 
cure.
    ``Thank you very much, Tessa Wick.''
    Obviously no one could say it any more eloquently than 
Tessa did in this letter, Mr. Chairman. But I just want to 
congratulate you and encourage you to proceed with funding for 
this very important effort to find a cure for diabetes.
    Mr. Regula. Thank you. I have a young lady in my district 
whose parents brought her to visit with me in the office, an 
identical situation. You really reach out to these young 
people. We hope to find something. We are going to commit as 
much in the way of resources as we can to this.
    Mr. Dreier. Thank you very much. I will convey that word to 
the Wicks for you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Give my best to Charles. He did a terrific job 
at USIA. I worked with him. Of course, Mrs. Wick was active 
with the Ford Theater.
    Mr. Dreier. Right. She still is.
    Mr. Regula. She still is. That is a great program there.
    Mr. Sherwood.
    Mr. Sherwood. It is bad enough with adult onset diabetes, 
but to think a child is looking forward to their whole life 
with this insidious disease, tell your young lady that her 
testimony was very compelling and we will pay attention.
    Mr. Dreier. Thank you very much, Don. I will try to be as 
nice to you all when you come before the Rules Committee as you 
have been to me today.
    Mr. Regula. We will keep that promise in hand.
    Mr. Dreier. I said I will try.
    Mr. Regula. Okay, Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman. Congratulations again 
on your ascension to the most important, in my estimation, of 
many of the important subcommittee chairmanships. As a member 
of the education committee, we look to you to fund many of our 
suggestions, but also to work in a bipartisan way with you on 
cooperative projects.
    Mr. Regula. We await your bill with interest.
    Mr. Roemer. We are working in a bipartisan way to try to 
report an ESEA bill to you. Congratulations to Mr. Sherwood on 
his elevation to this important committee.
    I ask unanimous consent to have my entire statement entered 
into the record.
    Mr. Regula. Without objection.
                              ----------                              

                                            Tuesday, April 3, 2001.

                       RE: TRANSITION TO TEACHING


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Roemer. My good friend, Mr. Dreier, talked about the 
Academy Awards. One of the parts that you may have seen, if you 
watched, Mr. Chairman, was that they wanted to keep the 
testimony as short as possible. I am sure you are looking for 
some of that in your time here. They were going to award a high 
definition television to those people that kept their testimony 
short. While I don't pretend to be any Julia Roberts, I might 
have more success between the two gentleman here in the room if 
I was for the three or four actual projects that I am going to 
ask your cooperation for.
    I will try to keep my testimony short, although I don't 
certainly have the----
    Mr. Regula. You won't get a television, but you will get 
our appreciation.
    Mr. Roemer. Okay. I will try to get the appreciation and 
the support for my projects.
    Certainly the Preventing Child Neglect and Delinquency 
Program with the University of Notre Dame is important. The Ivy 
Tech College Machine Tool Training Apprenticeship Program, 
where we are trying to train more people in manufacturing jobs 
is very important in my district as we go through some rough 
layoffs.
    As Mr. Bereuter testified about the importance of the Close 
Up Program, that is a program that I have been involved in for 
my 10 years here in Congress. Steve Janger does a great job 
running that program, and they bring a host of minority 
students into Washington, D.C. for civic education. I hope you 
will continue to show your strong support for that.
    I am testifying here for a program that we started last 
year for the first time, Transition to Teaching. We provided in 
the appropriation billion dollars 31 million for this 
appropriation, and I would encourage your subcommittee to fund 
it once again.
    Imagine, Mr. Chairman, if you have a 17-year-old son or 
daughter, sending them to school, and you are going to try to 
encourage your son or daughter to maybe take an honors class in 
physics and go to Ohio State University. And that physics 
teacher is not certified in physics, but certified in physical 
education.
    Imagine if you have a second grader going to school and 
they are having difficulty reading, and we are having a teacher 
who is not certified in teaching reading in their first year 
who is not comfortable with the format, the subject matter or 
the inclusion of technology into the curriculum. Many of our 
first year teachers are in that position.
    We are going to have to hire 2 million new teachers in the 
next 10 years, many of which will fall into the situations that 
I have just outlined for you, in the second grade or as juniors 
in high school.
    We have this transition to teaching program that follows up 
on the very, very successful troops to teachers program that 
was instigated in 1994. We brought people from the military 
into the teaching profession. Many of them were trained in 
science and technology and math. Eighty three percent of them 
are still teaching in high need areas, in high need schools, 
and now we have followed on with the transition to teaching 
program where we are rewarding universities and not-for-
positive profits to train the next generation of teachers in 
math, science, technology areas, to come into our schools in 
mid-career, at 45 or 50 years old, and teach in these subject 
matters in high need areas. This is a program that is going to 
work very well, that is hopefully going to address some of our 
need for the 2 million new teachers, although it is not the 
silver bullet by itself, and I hope you will continue to fund 
this program.
    Thank you for the testimony today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I assume that there will be 
hopefully a lot of military retirees that will participate.
    Mr. Roemer. There will be some, Mr. Chairman. That has 
actually slowed down since 1994, with some of the attrition and 
some of the military people leaving now. We are doing 
everything we can to try to keep some of those people and 
retain them, and we are looking outside the military to follow 
up on the troops to teachers with this transition to teaching 
program.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you.
    Mr. Roemer. Thank you. Thank you, Mr. Chairman.
                              ----------                              

                                             Tuesday, April 3, 2001

        FUNDING REQUESTS FOR EDUCATION, LABOR, AND HHS PROGRAMS


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Ms. Waters.
    Ms. Waters. Good morning. Thank you very much, Mr. Chairman 
and members, for sitting in those seats for the hours that you 
have to sit to hear all of the testimony that comes before this 
committee and a particular thanks for the time that you are 
giving to all of the Members today. I am delighted to be here. 
I will go into a few of my requests. Mine are not as program 
specific as they are general in nature, and I have broken them 
down into the three areas that you have oversight 
responsibility for: Education, health and human services, and 
the labor issues.
    Mr. Regula. We will put your entire statement in the 
record.
    Ms. Waters. Thank you very much. On education I am hopeful 
that this Congress will be known as the Education Congress. We 
have all talked a lot about education, and there is some 
confusion about how much increase we are going to have in this 
education budget. I certainly hope that it is in the 
neighborhood of 11 percent or more rather than the 4 or 5 
percent I keep hearing alluded to.
    Under education, educational technology is very important. 
This includes programs such as the Technology Literacy 
Challenge Fund. There is a digital divide, and if we are to 
prepare young people for the future, particularly in some of 
the poor communities, we must make sure that they have access 
to computers and new technology. So I think that we should not 
have any cuts in that area.
    Teacher training is extremely important. I was at a teacher 
training program this past weekend that was done by my local 
school district where they have the teachers, the 
administrators and the parents all together, and teacher 
training, mastering English for many of the immigrant students 
and students who are coming from other places, and I thought it 
was very, very effective. We have got to put money into teacher 
training programs.
    School modernization. Without a doubt we have schools that 
are falling apart. The air conditioning does not work, the 
heating systems are broken, graffiti on walls, the toilets not 
working. And so I think again if we are to be the Education 
Congress, we have got to make sure that we modernize our 
schools and buy some new schools because we have expanding 
populations that cannot accommodate the growth in many of these 
areas.
    After school programs such as the 21st Century Learning 
Centers, very important. Many of our schools could help out 
with the problems of the entire community if they had after 
school programs, programs that gave additional support to what 
is going on in the classrooms during the day, and I think we 
have talked about that a lot and we have these facilities that 
are sitting there and we should put them to good use.
    Let me move on to Health and Human Services. Numerous 
studies have demonstrated that minorities are 
disproportionately impacted by a variety of health problems. 
The National Institutes of Health is collaborating on 12 5-year 
projects to research how social and environmental factors 
contribute to the desperate health problems of racial and 
ethnic minorities.
    Cardiovascular disease, the death rate in 1998 for African 
Americans attributable to heart disease was 136.3 per 100,000 
people compared to 95.1 per 100,000 for others. In cancer the 
Centers for Disease Control are currently allocated 174,000 for 
breast and cervical cancer screening. African American women 
have the highest death rate from cervical cancer. African 
American women have breast cancer rate similar to other women 
but die at greater numbers from preventable disease. Women 
should not be dying from breast cancer, but we need to have 
more research in those areas.
    You have heard probably a lot about AIDS. The Congressional 
Black Caucus has spent a lot of time on creating additional 
funding in this category of AIDS because of the alarming 
increases in HIV and AIDS in the African American community. I 
would ask this committee to pay special attention to that 
funding and the special category that we worked so hard for to 
help build capacity in minority communities, in poor 
communities that don't have the capability of dealing with 
outreach and prevention and all of that.
    Mr. Regula. We were at the CDC yesterday, Centers for 
Disease Control, and they made emphasis on that very point that 
you are making.
    Ms. Waters. Thank you so very much. It is extremely 
important. I won't go into the death rates. I will talk about 
diabetes that has been mentioned here a lot today. I want to 
tell you that I am watching too many people lose limbs and die 
from diabetes. They are cutting off arms and--well, feet and 
legs in particular, and people are going blind from diabetes. 
We need a lot of money in prevention and outreach so people can 
understand the symptoms of this disease and how to care for 
themselves. People are dying at a very early age.
    Mr. Regula. They made a good point yesterday that a lot of 
times people don't recognize it early enough and the impact on 
the body is already pretty progressive before it is recognized.
    Ms. Waters. That is right, Mr. Chairman. They refer to it 
as the silent killer because by the time many people get there, 
their bodies are already overcome by all that goes along with 
it and we need health care prevention for all of America, 
everywhere.
    Mr. Regula. I agree with that.
    Ms. Waters. So we don't learn until, you know, after we get 
50 and things start falling apart. Then we get very conscious 
about our health. But I sure would have liked to have known a 
lot of this when I was a lot younger.
    In education also I wanted to mention Head Start. I worked 
in Head Start when Head Start first was originated. I was the 
supervisor parent involved in voluntary services, and of course 
I learned a lot about how parents and communities can be in 
control of the children's educational destiny. There is not a 
lot that I need to say about Head Start. I think everybody 
recognizes that it is a wonderful program that needs full 
funding, and to the degree we do that we have prepared children 
for school and they are prepared to read, et cetera.
    In labor, I want to mention Job Corps. Job Corps is very 
important and they really have done a very good job. I am 
concerned that we still have Job Corps programs that don't have 
the residential component. That is extremely important when you 
take these kids into Job Corps. If, for example, in Los 
Angeles, where we have a big Job Corps program, some of them 
have to go back to their communities at night, we lose them, or 
the influence of the community is so great that in one program 
they change clothes. For example, they wear one set of clothes 
while they are in the Job Corps, but when they go back to their 
communities they have to wear another set of clothes to 
identify with the neighborhoods that they come from. We would 
like to see more residential facilities associated so that by 
the time they transition out, they are into jobs, they are 
going to live on their own so they don't have to go back to 
those communities.
    The veterans employment and training I can't say enough 
about that. I have a program in my district. This is very 
important because they take the homeless veterans off the 
street, and they have a program that is designed to get them 
back into the main stream and they live in this facility while 
they are being trained and they are doing jobs. And many of 
them go on from there again to have their own homes and to live 
a full life and off the street and using their talent.
    And so these are just some of the things that I wanted to 
quickly mention in the short period of time that we have here 
today, and I appreciate your attention to these matters.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Mr. Regula. I would like to visit with you on Head Start, 
but I will catch you on the floor.
    Ms. Waters. That is my favorite subject any time.
    Mr. Regula. I would like to talk with you about it and see 
how you suggest ways to making it even more effective. But I 
will find you there. We have one more witness.
    Ms. Waters. Thank you.
                              ----------                              

                                            Tuesday, April 3, 2001.

  FUNDING REQUESTS FOR FAR ROCKAWAY PENINSULA PROGRAMS IN QUEENS, NEW 
                                  YORK


                                WITNESS

HON. GREGORY W. MEEKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I ask unanimous consent 
for my statement to be in the record in its entirety.
    Mr. Regula. Without objection.
    Mr. Meeks. Mr. Chairman, Mr. Sherwood, I thank you for this 
opportunity to present testimony to you today. And I will be 
succinct. Let me first, I come to talk about a specific program 
within my district. And we are asking for a mere $2 million 
earmarked to the Joseph P. Addabbo Family Health Care Center.
    Mr. Regula. I knew Joe well, good man.
    Mr. Meeks. He was a great man who did a lot in the 
community that I now represent, and this particular health care 
center we named after him because he really started it while he 
was here in Congress. And it deals with the part of the 
district that is probably the most isolated part of New York 
City, of all of New York City. It is a peninsula that is about 
24 miles outside of downtown Manhattan. And many individuals 
who have to live on that peninsula, they are subject to just 
the services that are there. They don't have access to what we 
call the mainland, which is the other part of New York City, 
and that is just how difficult it is because of the 
transportation to the mainland if you happen to live on the 
peninsula.
    As you may know, the Joseph P. Addabbo Family Health Care 
Center is a private, nonprofit, federally funded community 
health center that was established in 1987 to provide 
comprehensive health services to the poor and medically 
indigent and or medically underserved residents of the Rockaway 
peninsula. The Rockaway peninsula ranked 14th among the 58 
neighborhoods in the city for severe health-related problems in 
1995 and 1996, the years for which the most recent data is 
available, with the rate of preventable hospital admissions 
more than 50 percent above the city average in 1996. This is an 
area home to the sickest and poorest segments of all of New 
York City, and this project that we are talking about is a 
joint project. It is a joint health and educational project 
that we are looking to develop on the peninsula.
    The Joseph P. Addabbo Family Health Care Center 
participated in a Robert Wood Johnson-funded needs assessment 
in the peninsula's low income communities. This project was 
designed to identify primary health care needs. As a result of 
this assessment, Far Rockaway has been designated a health 
crisis area by the Health Systems Agency of New York City.
    Another important aspect of the health profile of the 
Rockaway peninsula is a greater portion of its residents are 
children, with 38 percent of the population below 20 years of 
age. The large number of children and the high level of risk 
factors present in the community warrant particular attention 
to the needs of the children and young adolescents. Twenty-nine 
percent of the children live below the poverty level. Academic 
achievement levels in schools range near the bottom, with 54 
percent of the students reading below their grade level and 44 
scoring below their grade level in mathematics.
    There is also a high incidence of pregnancy among 
teenagers. In fact, it is 14.5 percent higher than all of the 
Borough of Queens, and New York City's average is only 8 
percent. And most of these are young adults between the ages of 
15 and 18 years old. The AIDS rate has been growing much faster 
than the growth rate increase of 82 percent from 1990 to 1991.
    Now this project is something that is a conglomerative. We 
have several different parts of the community that are engaged 
in helping this, and what we are trying to do is to get our 
Federal portion of it funded. For example, the New York City 
Housing Authority has invested $1.5 million into the project. 
The New York City Council has put in $1.1 million for it. The 
New York State Assembly has put in $500,000. The Borough 
President of Queens has put $2 million. York College, a local 
college within the district, is putting $500,000 into this. And 
the College of Aeronautics is putting another $500,000 in this. 
So this becomes for the peninsula a mass educational and health 
care facility that will cover some 104,000 people that 
currently live on the peninsula who are isolated from other 
parts of the city. So we just come asking to bring in our 
Federal share and ask for whatever consideration this committee 
could give us in getting an earmark of $2 million.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Mr. Regula. Mr. Addabbo was a senior member of 
Appropriations.
    Mr. Meeks. He was.
    Mr. Regula. And he and I went to Tokyo. I had forgotten. It 
was quite a while ago. He is not living anymore?
    Mr. Meeks. No, he is not. He passed away. His family is 
still very involved in this and through all of his good work we 
have named this for him.
    Mr. Regula. You have what was his district or portions of 
it?
    Mr. Meeks. Most of it is what he used to represent. He was 
my Congressman.
    Mr. Regula. Thank you for bringing this.
    The subcommittee is adjourned.
                                             Tuesday, May 22, 2001.

                               EDUCATION

                                WITNESS

LISA GRAHAM KEEGAN, CHIEF EXECUTIVE OFFICER, EDUCATION LEADERS COUNCIL
    Mr. Regula. Well, we'll get started. We have a number of 
witnesses this morning, and we need to keep moving, so that 
everyone has an opportunity to be heard and some time for 
questions. Our first witness, Bishop Conway, is not here yet, 
so I think we'll go to Lisa Keegan, the Chief Executive 
Officer, Education Leaders Council. Mr. Obey, would you like to 
make any comments here?
    Mr. Obey. Thank you, Mr. Chairman. I think we might as well 
get started. We're more interested in hearing what they have to 
say than what I have to say.
    Mr. Regula. Okay. Well, we're happy to welcome you. As you 
know, we have a five-minute rule, so if you'll summarize it 
will be helpful.
    Ms. Keegan. I'll do that. Thank you very much, Mr. 
Chairman. As you said, my name's Lisa Keegan. I am the Chief 
Executive Officer of the Education Leader's Council. We are a 
group of reform minded State school chiefs, State board 
members. We have governors who are members, and we have 
superintendents, teachers who are members.
    Our organization believes that reform is necessary in 
American education, and we have been engaged in that in our 
States. We believe that most of this will happen in the States. 
And we appreciate the opportunity to discuss with the Congress 
the direction that you're going to take in your budget and in 
the education bills before you.
    Our organization believes that in fact it is instruction 
that makes the difference for kids. It is not externals. What 
matters in a classroom is dependent on high expectation and 
instruction of a child. And we see going about that in a number 
of ways, many of which are very innovative in the States. But 
we do think it's our responsibility to educate the kids, and 
we're not looking for excuses or external situations to be 
solved.
    We don't believe class size is the answer, we don't believe 
that wealth issues are the answer, we don't believe color of 
children has anything to do with ability to learn. We feel very 
strongly that instruction is the answer and the classroom is 
where this has to happen.
    I want to talk a little bit about the proposals that have 
been made on the House budget. I realize many of them have 
reform components. Oftentimes those of us who talk about 
reform, it's happening here and we're listening to it, are 
characterized as not being interested in children or because we 
want to have a change, that's seen as very hostile.
    At the Council we try to remain very disciplined in our 
focus on a few things. One is that our appropriations from the 
Congress and in the States needs to be focused on the needs of 
kids and not on the bureaucracies that serve them. They need to 
as much as possible go directly to the classroom and to the 
needs of the instruction leader, who is the teacher, usually.
    Secondly, that oftentimes means that those resources will 
have to be changed in terms of formula. Where they are needed 
is in the classroom. Where they are often lobbied for is 
outside of the classroom, because organizations for education 
tend to be interested in organizations outside of the 
classroom. We believe that's problematic.
    Thirdly, we would like to see that the Congress, in pushing 
some majorly important ideas, will seek not to strangle so much 
with regulation but rather to support movement in the direction 
of strong instruction, strong assessments and product and 
result for students. We do believe it's absolutely essential to 
have assessments. You may find our opinion quite different than 
a lot of the education organizations. We make no apologies for 
assessments. We are about the business of assessing in our 
States. We think it's critically important.
    We think it's fabulous that the President has proposed $320 
million in his budget to assist States with their testing 
programs. However, we also hope that most States are already 
about this business already. It's critically important to know 
where our kids are.
    We do take issue with much that's been said about the cost 
of assessment. We listened to a number of statements from the 
National Association of State Boards of Education saying that 
the cost was $7 billion for testing. That assumes about $125 
per student, which we think is nonsense. In our States, where 
we are running testing programs, the State of Virginia has a 
very extensive budget that costs $4 per year. They are not 
testing annually. If they did that, that would double, but it 
would not be anywhere near this $125 that's being bandied 
about.
    In Massachusetts, which exceeds the President's proposal in 
terms of the frequency of testing and the depth of that 
testing, their costs are $14 per child. In Arizona, they are 
about $10 per child. So I would keep that in mind. The exercise 
ought to be strong but narrow focus on assessment and let the 
States go beyond if they want to. We feel it's very important 
to let them determine sort of the extent to which they're going 
to test, beyond reading and writing and mathematics that's 
being asked for, which we think is necessary, particularly to 
prove Title I.
    We are pleased with the increases to Title I. We think that 
money should follow students into programs that work for them. 
That has always been our bottom line. We recognize the desire 
to try to hold everybody harmless and make sure we're funding 
everybody last year the way we were, or this year the way we 
were last year because of political reasons. We would encourage 
you to let that money follow kids. Kids and parents will find 
successful programs and those programs should prosper because 
of it.
    We do support the money for teacher quality. We think it's 
very important to keep that flexible. There are a number of 
very, very innovative teacher quality programs going on, 
depending on the needs of States. Our States, our member 
States, have everything from Troops to Teachers to the teacher 
advancement programs, all sorts of innovative programs.
    We also hope you will continue support for choice. Our 
organization is a strong believer in school choice. We think 
all options that work for kids ought to be made available to 
them. And as State school chiefs, we support that. You find 
that might be unusual from time to time, coming from State 
school chiefs. We believe any school that's working well for a 
child is one worth investigation as to whether or not they'll 
be able to go there, and we're pleased that that discussion is 
ongoing in the Congress.
    Thank you very much, Mr. Chairman.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Did you have any input with the authorizing 
committee on the bill that's on the Floor this week? And if so, 
have you looked at it and do you agree with most of it?
    Ms. Keegan. Mr. Chairman, we have had input on that bill, 
which we appreciate. We like very much the President's original 
No Child Left Behind idea. We feel it's had to be compromised, 
we understand that. We support very much the emphasis on 
assessment. We would like to see that simplified a little bit, 
so that the States are looking at gain of all kids and that we 
don't make it so complicated that it fails in its 
implementation.
    We would like to see some of the amendments on flexibility 
and choice come on. It's very important for the members to 
recognize that any time there's a program, we have a 
requirement then to staff that program in our departments of 
education with X number of people, and it makes it very 
difficult to focus when you have to be maintaining dozens of 
different programs. We would like to be able to focus on our 
standards and assessment programs.
    Mr. Regula. Mr. Obey.
    Mr. Obey. As you know, the President has proposed under his 
plan that NAEP be used as a second check on the annual 
assessments. However, the bill before the House today allows 
States to use other tests that might not be as rigorous as 
NAEP. With which position do you agree, the President or the 
bill as it's before the House today?
    Ms. Keegan. Mr. Chairman and Representative Obey, we are 
fans of the NAEP test at the Education Leaders Council. We use 
it. We believe it is strong. We understand the concern that you 
could slide into a situation where you are sort of mandating a 
national tests that States have a discomfort with. Our concern 
is that we know the NAEP well, we understand it, we think the 
standards are rigorous. We would not look forward to having a 
requirement for a test that was not in line with our own 
standards.
    So any language that allows for an alternative, which we 
understand the need for, we hope will maintain the same kind of 
rigor that is present in the NAEP. We are big supporters of 
OERE, OERI and the research arm in the Department and of NAGBE, 
which sponsors the NAEP tests. It's something all of us have a 
great deal of confidence in right now.
    Mr. Obey. You prefer the NAEP, rather than some substitute 
as a second check?
    Ms. Keegan. Mr. Chairman, Mr. Obey, we prefer the NAEP in 
our organization. That does not mean that we don't understand 
there could be a need for something down the road. So all I'm 
saying is, to the extent there's going to be an alternative, we 
would like for that to be extremely tight in its language. I 
think we all have reason to be quite confident in the NAEP. 
Most of us are using its statistics right now when we talk 
about how the country is doing.
    So if we had to decide between one or the other, the NAEP 
or any series of tests that might not be of the same quality, 
we would go just with the NAEP.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. I have no questions, Mr. Chairman.
    Mr. Regula. One last question. We're going to have an 
amendment on the education bill on the President's suggestion 
on vouchers, or if the school is failing, the children have a 
choice. How does your group feel about that? The language was 
in the President's original bill.
    Ms. Keegan. Correct. Mr. Chairman, we support that. We 
don't believe any child should be in a school that's failing. 
There are options available for these children. We believe the 
first priority is to have a child in the classroom with a 
teacher that's going to move that child. We realize these are 
difficult decisions for lots of people, but for us, it's an 
easy decision. We want that child educated and in any way we 
can find to do that, we will be supportive of.
    Mr. Regula. Do you like the Troops to Teachers program?
    Ms. Keegan. Mr. Chairman, we do. Most of our States are 
using it. We've had a great deal of success with it. When I was 
the chief in Arizona, we had great success with that program 
and Teach for America, and any number of alternative entryways 
into teaching.
    Mr. Regula. I'm curious, you take this retiree from the 
military, did you require that they go back to school and go 
through the hoops to get certification that you normally have 
to do?
    Ms. Keegan. Mr. Chairman, no, and that's what's interesting 
about these alternative programs. They do go through 
preparation in instruction and classroom management. There are 
some tests to determine content knowledge. That's similar to 
Teach for America, another project that brings in very young 
graduates and puts them in inner city schools, which has been 
very successful.
    We believe there are several ways to prepare very strong 
teachers and make them qualified. There does have to be an 
instruction, but probably not the traditional route.
    Mr. Regula. Well, thank you very much.
    Mr. Jackson.
    Mr. Jackson. I think I do have a question, just one. At 
least as I understand the nature of our education system in the 
country, we have, based upon the way our country has evolved, 
50 separate and unequal States, 3,068 separate and unequal 
counties, and at least as many separate and unequal cities. 
Many States derive their revenue from agricultural economy, 
others derive them from a service based economy, others derive 
them from an industrial based economy, which only exacerbates 
the nature of that inequality.
    So for the 53 million children in public schools across the 
country who find themselves in the 85,000 separate and unequal 
schools in the 15,000 separate and unequal school districts, 
I'm wondering how your programs overcome those limitations, and 
how the vast majority of those children who find themselves in 
those unequal schools are reached?
    Ms. Keegan. Mr. Chairman, Representative Jackson, we think 
this is a huge concern. In fact, it's a concern that a lot of 
people don't like to address. That is the fact that public 
education in its traditional form segregates by wealth, because 
it relies on a property tax base and a boundary by which to 
serve children. So it doesn't so much keep children within a 
neighborhood as it keeps other children out.
    We believe that the solutions to this need to be generated 
by the State, but that they ought to be generated by coming up 
with funding formulas wherein money follows students, into 
school that work for them, that funding probably ought to be 
more generated by shared taxes rather than just local property 
taxes. And as you know, there is a wealth of political fallout 
when you start to talk about changing district basis for 
education.
    So it is a local-State issue, it is very difficult. I think 
there are 25 States right now, Representatives, thatare engaged 
in a sort of Supreme Court argument over this very issue. It's 
something that our organization has been involved in at the State level 
and will continue to be, because we think there's a moral imperative.
    Mr. Jackson. Does your organization believe that every 
child deserves the right to an equal, high quality education?
    Ms. Keegan. Mr. Chairman, Representative Jackson, yes, sir.
    Mr. Jackson. Is there any way for us to guarantee that 
every child gets such a right without the idea of education as 
a fundamental right being part of our constitution?
    Ms. Keegan. Mr. Chairman, Representative Jackson, I'm not 
quite sure that it isn't at least a moral imperative as part of 
what we do. Obviously that has not been part of the 
constitution overall. It has been part of implementation in 
every State. I don't see that changing. I think most people are 
dedicated to that ideal. We have tripped ourselves up in its 
implementation, we believe, and we just have to address that 
without pointing fingers at why that happened.
    Mr. Jackson. I thank you. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Mr. Chairman, I just can't help but observe, it's 
very interesting that the bill before the House today would 
withhold education funding from States if children are not 
tested annually. For instance, if Wisconsin decided to test on 
math in odd numbered grades, and decided to test on reading in 
even numbered grades, money would be withheld from the State 
for exercising that judgment.
    But money would not be withheld from States if they have 
outrageous differences in the dollars per child in say, Maple 
School District in my district versus Maple Bluff, where they 
spend almost twice as much money. I find that an interesting 
focus on the hole in the doughnut.
    Mr. Regula. I think our witness would agree with you, but 
we're going to have to move on.
                              ----------                              

                                             Tuesday, May 22, 2001.

                                 LIHEAP


                                WITNESS

THE MOST REVEREND EDWIN M. CONWAY, AUXILIARY BISHOP OF THE ARCHDIOCESE 
    OF CHICAGO
    Mr. Regula. We're pleased to call Bishop Conway, the Bishop 
of the Archdiocese of Chicago. Mr. Jackson, I understand you'll 
introduce our guest.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Obey. Where is Chicago? [Laughter.]
    Mr. Jackson. Somewhere sandwiched between Ohio and 
Wisconsin.
    Mr. Regula. It's the new home of the Boeing Company.
    Mr. Jackson. When our bill comes before the Committee, I 
want both of you to remember that.
    Mr. Regula. I said it's the new home of the Boeing Company.
    Mr. Jackson. Yes, sir, it certainly is.
    Mr. Chairman, I am honored today to introduce the Most 
Reverend Edwin M. Conway, who was ordained a priest on May 6th, 
1960, and ordained a bishop on March 20th, 1995. Currently, 
Bishop Conway serves as the Episcopal Vicar for Vicariate 
Number Two of the Archdiocese, which includes supervision of 63 
parishes on the north and northwest side of Cook County, 
Illinois.
    Bishop Conway serves as the liaison for the Health Affairs 
Office of the Archdiocese, which oversees 23 Catholic health 
care centers and long term health care facilities of the 
Archdiocese. He has served as an associate pastor and in 
various roles of service and management within the Catholic 
Charities system and the Archdiocese of Chicago.
    Bishop Conway was the administrator of Catholic Charities 
from 1980 through 1997, and served as the director for the 
Archdiocese of Chicago and was a member of the Cardinal's 
Cabinet from 1985 through 1997. Bishop Conway holds a masters 
degree in theology and a masters degree in social work from 
Loyola University in Chicago. Mr. Chairman, and members of the 
Subcommittee, I present to you Bishop Conway.
    Bishop Conway. Thank you.
    Mr. Regula. Thank you. We're happy to welcome you, and look 
forward to your comments. Your testimony will be made part of 
the record.
    Bishop Conway. Good morning, Chairman Regula and thank you, 
Mr. Jackson, for the invitation to come and also for your 
introduction this morning. And good morning also to the members 
of the Committee that are here before us.
    We have written testimony, I'd like to submit that and just 
spend briefly, some four or five minutes here discussing some 
of the high points of that testimony.
    Thank you for the invitation to speak to you this morning 
regarding the Low Income Home Energy Assistance Program, 
LIHEAP. I am an Auxiliary Bishop from the Archdiocese of 
Chicago. Cardinal George was asked, as the Archbishop of 
Chicago, to come and testify this morning. Fortunately 
orunfortunately, he has been called to Rome for a Consistory of the 
Cardinals along with Pope John Paul II and has asked me to speak on his 
behalf for the Archdiocese of Chicago.
    As you will see from my resume, I've spent more than 30 
years with the Catholic Charities of the Archdiocese of 
Chicago. Many of those years I spent as its administrator. 
Thus, I speak from my own experience as well as a bishop in 
Chicago which oversees some 67 parishes, serving multi-ethnic 
and multi-racial communities. The Archdiocese of Chicago has 
377 parishes, with approximately three-quarters of a million 
active parishioners.
    This morning I wish to speak to you specifically about the 
Low Income Home Energy Assistance Program. I fervently urge you 
to appropriate at least $2.3 billion in core funding for the 
LIHEAP program for the fiscal year 2002. The overall totals, 
you recall, last year were $2.3 billion and were made available 
to all the States in order to help low income families with 
home energy problems. Illinois received approximately $132 
million and it was supplemented by an additional $65 million in 
State grants. This money came from various sources within State 
supplemental low income assistance funds.
    The program in Chicago was administered through the 
Community Economic Development Association of Cook County, 
which serves the household of elderly disabled and others who 
are disconnected or meet the poverty guidelines. In Illinois, 
approximately 775,00 households are eligible for low income 
below this level. Currently, Peoples Gas in Chicago records 
approximately 25,000 elderly and disabled with heating bills 
that are significantly or substantially past due.
    I point this out as it comes time when gas prices have more 
than doubled. The energy bills will not return to the 2000 year 
level in the foreseeable future, which gives us an example of 
the Archdiocese itself, which purchases gas at approximately 60 
percent less value from NICOR and Peoples Gas in Chicago. Based 
upon that usage, however, of the present and past heating 
seasons, an additional $8 million will be required of the 
Archdiocese in payments in the year to come.
    This will severely decrease the amount of discretionary 
dollars that the parishes and pastors will have to distribute 
to poor clients who are experiencing eminent shut-off of the 
utilities. I point out that in the week prior to April 4th, the 
deadline for gas shut-off in Chicago, the Archdiocese of 
Chicago Catholic Charities received more than 300 requests for 
energy assistance over the past several months. They have 
received more than 500 requests regarding utility assistance.
    The average bill for heating in Illinois in the area of 
Chicago is $1,500. The State assistance LIHEAP program is $495. 
This amount is less than one-third of the energy bill going to 
assist elderly and the vulnerable poor.
    The Bishops of Illinois have talked about the right to 
housing for families and their children, and they have sought 
to estimate the number of households in which families will be 
experiencing no heat. I therefore strongly believe, and I have 
been informed by the Catholic Charities of the United States, 
that the situation nationally, especially in some of the colder 
States, is also parallel to Illinois.
    I stress the fact that unless the amount is restored to at 
least last year's level, more than 50,000 households in the 
Chicago area will be ineligible this coming year if the current 
grant remains the same. The facts in this instance are very 
clear, the dramatic increases in home energy costs, lack of 
corresponding increases in salaries and income, results 
certainly and assuredly that families will be unable to meet 
their bills.
    Therefore, we implore this Committee to fund LIHEAP for the 
year 2002 at at least equal to the amounts in the resources 
that were available to the States for the last winter, or $2.3 
billion. And since even this amount may not be adequate to meet 
the needs of low income families living on the edge of 
homelessness, we would strongly encourage an appropriate 
increase over this level in the overall funding.
    We hope at the very least that if this amount remains as 
introduced by the Administration, the $300 million be also 
allocated in an appropriate basis to each State. We know that 
our brothers and sisters in California have been publicly and 
visibly shown to have utility problems. We are seeking some 
sort of the same recognition in Illinois and among our Chicago 
citizens, who rely on this program to continue to survive.
    Thank you, Mr. Chairman. And thank you to the members of 
the Committee for receiving testimony this morning.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Bishop Conway, I don't know if you're aware of 
it, but Chairman Regula is a member of what is known as the 
College of Cardinals in the Congress.
    Bishop Conway. Which means?
    Mr. Obey. I thank you for reminding him that he doesn't 
belong to the only College of Cardinals.
    Mr. Regula. I didn't get summoned to Rome, though. 
[Laughter.]
    Mr. Obey. Let me simply ask one question. In your 
statement, you referred to the need for funding LIHEAP at last 
year's level of $2.3 billion. I believe what that refers to is 
that $1.7 billion was made available in the regular 2000 
appropriation, plus an additional $556 million was available in 
carry-over funds, for a total of $2.256 billion.
    I think it's important for the Committee to understand that 
if we adopt the President's fiscal year 2002 request, which is 
$1.7 billion, composed of $1.4 billion in core funds and 
$300,000 in contingency funds, that States would see a 25 
percent reduction in the actual amount of deliverable aid next 
winter.
    How many people did you say that would not be served in 
Illinois?
    Bishop Conway. In Illinois, we think there will be at least 
50,000 households in the Chicago-land area that will not be. 
And also we know that probably the $2.3 billion is inadequate. 
It certainly is what we would like you to achieve, but even 
more is needed if we're going to match the increasing energy 
bills.
    Mr. Obey. I certainly agree with that. Thank you, Mr. 
Chairman.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Mr. Chairman, I did have a question, but the 
Bishop spoke to it in his remarks. My district, the Second 
District of Illinois, receives $12 million of that $76 million 
in the LIHEAP program. The next closest district receives some 
$4 million.
    So I'm very well aware of the benefit that LIHEAP provides, 
and I think the Bishop's testimony and his extended remarks, 
when we begin to negotiate over our bill, I certainly hope that 
the Committee will take into account that there are a number of 
communities, particularly those who suffer in Chicago winters, 
who are in desperate need of this program, and any efforts to 
under-fund the program can only create the kind of misery 
amongst some Americans that none of us would want in a Chicago 
winter.
    So I'm certainly hoping, Mr. Chairman, that you'll be 
sensitive and the Committee will be sensitive to the Bishop's 
remarks. Thank you, Mr. Chairman.
    Mr. Regula. I might say, I think there will be a 
supplemental emergency appropriation. It will include money for 
LIHEAP. I know that's in the planning stage. I'm not sure how 
much yet. But there will be.
    Mrs. DeLauro.
    Mrs. DeLauro. I'm delighted to hear that the Chairman 
thinks there will be a supplemental appropriation. We weren't 
sure that that was going to be the case. Clearly, LIHEAP is a 
lifeline for people in our communities where we have tough 
winters, and those that have tough summers as well, as we've 
seen in the past. And we need to continue the past efforts with 
regard to LIHEAP, especially now given the kinds of crises that 
people are facing in their lives with energy.
    Thank you.
    Mr. Regula. As I understand it, you just deal with Chicago?
    Bishop Conway. That's correct.
    Mr. Regula. How about the outlying areas? Is that part of 
another----
    Bishop Conway. It's a different diocese.
    Mr. Regula. Configuration?
    Bishop Conway. Yes, different diocese. However, we are in 
communication and we have a statewide organization. The 
Illinois Catholic Conference, that deals with issues. It's 
fundamentally the same. In fact, some of the rural areas 
outside Chicago, which are more devastated economically, are 
really concerned about facing this.
    Mr. Regula. Does your diocese administer this program, or 
just work with individuals to apply for it?
    Bishop Conway. Yes, it works with the county to distribute 
the funds.
    Mr. Regula. What's the policy, pretty much, of the gas 
companies? Do they shut off if they don't get paid?
    Bishop Conway. Well, this has been a very sensitive point. 
We've gone through several public manifestations and 
demonstrations about this. And currently, it's in abeyance 
until it is handled in a much better way. There were two due 
dates set and at both times the gas companies gave a reprieve 
until some further discussion was done by the local 
municipalities, county government and hopefully the Federal 
Government.
    Mr. Regula. Do you think most people know that this is 
available and take advantage of it? Because otherwise they 
could be in a real crisis situation.
    Bishop Conway. I think most people become aware of it and 
maybe they're not aware of it at first glance, where they 
certainly begin to come to the point of having their gas turned 
off or collaterally through some other arrangement with the 
social service agency they become aware of this and apply for 
it.
    Mr. Regula. I assume the gas company would let them know.
    Bishop Conway. They do.
    Mr. Regula. They have an interest, too.
    Bishop Conway. Right.
    Mr. Regula. Well, thank you very much for coming and 
testifying this morning.
    Bishop Conway. Thank you.
                              ----------                              

                                             Tuesday, May 22, 2001.

                             WOMEN'S HEALTH


                                WITNESS

CAROLYN M. MAZURE, CHAIR, WOMEN'S HEALTH RESEARCH COALITION
    Mr. Regula. I think Mrs. DeLauro, we'll move then to 
Carolyn Mazure, the Chair of the Women's Health Research 
Coalition. You'll be introduced by Mrs. DeLauro.
    Mrs. DeLauro. Good morning. Mr. Chairman, let me just say 
thank you to you and to my colleagues. It's such a pleasure to 
welcome to the Committee a woman whose work I truly do admire 
greatly, and of whom I'm tremendously proud to count as one of 
my constituents. Dr. Carolyn Mazure is a professor of 
psychiatry at the Yale University School of Medicine, the 
principal investigator for the Donohue Women's Health 
Investigator Program at Yale. I might add that that is the 
largest university-wide women's health research program in the 
United States.
    Dr. Mazure is a national leader in the field of women's 
health, conducting research on women and tobacco dependence, 
post-traumatic stress disorder in determining predictors of 
depression and psychosis. She serves on the board of the 
Society of Women's Health Research and in addition to that, she 
really has been a leader in bringing the work of research on 
women's health into the community, to look at how we actually 
try to improve the health and the lives of women across their 
entire life span.
    So it's a great honor for me to welcome Dr. Mazure and to 
be able to say to the Committee, this is someone who really 
does have an unbelievable grasp of what is happening out there 
with regard to women's health and research and look forward to 
her comments on the budget for the next fiscal year, and say 
thank you to you for spending some time with us, Doctor.
    Mr. Regula. Thank you. Your entire statement will be put in 
the record, and we'll appreciate your summarizing.
    Ms. Mazure. Thank you. First, thank you, Congresswoman 
DeLauro, for your very kind words of introduction. It's very 
much appreciated. Mr. Chairman and other members of the 
Committee, I appreciate the opportunity to speak with you 
today.
    For the record, I am Dr. Carolyn Mazure, with the academic 
affiliations as noted by Congresswoman DeLauro. I'm testifying 
today in my capacity as the chair of the Women's Health 
Research Coalition, which was created by the Society for 
Women's Health Research two and a half years ago.
    The Coalition has nearly 200 members committed to advancing 
women's health research. Most of these members really include 
national leaders in scientific and medical investigations and 
in academic institutions throughout the country, and also does 
include people from voluntary health organizations as well as 
pharmaceutical and biotech companies, again, to the larger 
issue of trying to make transfer of information possible across 
these different constituencies.
    To begin, let me first emphasize that we strongly support 
the goal of improving the health and the health care of all 
individuals through newly discovered research based information 
that can be incorporated into medical practice and also 
incorporated into personal practice. But there are at least 
three reasons for a special focus on women's health and on 
understanding what are referred to as sex-specific factors in 
health and disease.
    First, women historically have been under-represented as 
subjects of scientific research for a variety of reasons. And 
when women have been included, even to this day, sex-specific 
analyses of health data have not traditionally been conducted. 
A recent GAO report coming out in 2000 also confirmed that 
finding.
    Second, age adjusted indicators of both health status and 
also of service utilization continue to show that women have 
more acute medical problems and higher hospitalization rates, 
even when you exclude hospitalizations due to childbirth.
    Finally, there are large gaps in our scientific knowledge 
about disorders and conditions that either affect women solely 
or predominantly or differently. For all these reasons, we ask 
the Congress to play a pivotal role in advancing research on 
the health of women, research that we believe will make a 
difference in women's lives and in so doing, will benefit every 
person in the country.
    That's what brings me to why I am testifying here today. 
The Coalition is seeking the Subcommittee's support on four 
major priorities. First, we join with others who have appeared 
before this Committee to advocate for a $3.4 billion or 6.5 
increase in the NIH budget for fiscal year 2002. However, 
importantly, as the NIH grows to meet the great need for 
medical research in many areas of health, we ask for your 
support in ensuring that there be at least comparable increase 
directed towards women's health research within that pot of 
money. There is too much work to be done, as detailed in the 
written statement that I'm providing, not to ensure such 
funding.
    Second, we ask that the various offices, advisors and 
coordinators throughout the Department of Health and Human 
Services, those individuals who enhance the Department's focus 
on women's health research, be funded at least to the 
Administration's recommended levels. In particular, we strongly 
support the $50 million request in the President's budget for 
the Office of Research on Women's Health, which is, as you 
know, based within the NIH, and the $27 million request for the 
Office of Women's Health in the Office of the Secretary.
    These are significant increases that need to be maintained, 
but I want to point out also that other women's health 
representatives in SAMHSA and CDC and FDA andelsewhere also 
need strong support to carry out their missions.
    Third, within the $50 million for the Office of Research on 
Women's Health, that is the office with NIH, we ask for your 
strong support in creating women's health research centers, as 
recommended in the Administration's proposed budget. We believe 
these should be well funded interdisciplinary, peer reviewed 
centers, which collectively cover a wide range of critical sex 
and gender based health research issues.
    Such centers would provide an effective mechanism for 
operationalizing a strategy in women's health that would pursue 
a research agenda that's been designed by the Office of 
Research on Women's Health. This strategy is used, that is the 
strategy of centers, is used in cancer research, it's used in 
asthma research. Surely we can do it in a field of research 
that will directly affect so many of our citizens. With this 
funding, the entire field of sex and gender based research can 
move into a new era.
    Finally, we ask for your support in maintaining and 
expanding the BIRCWH program, which is sponsored by the Office 
of Research on Women's Health, again as recommended in the 
President's budget. BIRCWH, which stands for Building 
Interdisciplinary Careers in Women's Health, is training the 
next generation of women's health researchers. It is strongly 
supported by the institutes within NIH and by the community. 
NIH plans to issue a request for applications to generate a new 
round of these centers, but the Office of Research on Women's 
Health must have the $50 million appropriation to create them.
    Just last month, the Institute of Medicine issued a 
landmark report called Exploring the Biological Contributions 
to Health Research: Does Sex Matter? The results were 
unequivocal with regard to the incredible scientific 
opportunity in studying sex differences with regard to health. 
This Subcommittee and the Department of Health and Human 
Services routinely does turn to the IOM for advice on major 
questions related to medical research and practice because the 
IOM provides objective, scientific analysis.
    The report makes it clear that sex is a critical variable 
in understanding biology at the cellular level, and remains so 
through early development, puberty, adulthood and old age. We 
hope that the Committee will support the priorities I've 
outlined above to begin the process of implementing the IOM's 
fundamental conclusion that sex matters.
    Mr. Chairman, Committee, the Women's Health Research 
Coalition stands ready to work with the Subcommittee to advance 
research on women's health and sex-specific factors in health 
and disease and thus build a better future for all Americans. 
Thank you for this opportunity to testify.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. No questions.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. No questions, Mr. Chairman.
    Mr. Regula. Mrs. DeLauro.
    Mrs. DeLauro. No questions. I think Dr. Mazure just laid 
out a mission for all of us, and the kind of first-rate work 
that is done that we have seen and see the results of, I think 
just continues to let us know that we need to focus in this 
area, because of what the results have been, and where we might 
go. Thank you for your great work.
    Mr. Regula. I'm curious, obviously, the life expectancy of 
women is substantially higher than men. Shouldn't the focus be 
perhaps on both men's and women's health issues? For some 
reason it's just been women's health out at NIH. It would seem 
to me that it ought to be a little broader. What would be your 
observation?
    Ms. Mazure. I think that's a very important point. The way 
in which we really see it is, I think several points are 
embedded in the answer. One is that historically, women have 
not been the subjects of research. So we have a bit of 
scientific catch-up to do. Secondarily, in the new science and 
the way in which we're approaching women's health, we're very 
interested in what's referred to as sex-specific differences. 
And by looking at differences between women and men in 
reference to all forms of illness and all forms of disease 
prevention, we really are discovering as much about men's 
health as women's health. So I think the broad field of women's 
health really advances health knowledge in all areas for 
everyone.
    I also do think that in reference to the issue that you 
raised where men tend to live on average a shorter length of 
life than women, living longer doesn't always necessarily mean 
living better. It often is associated with higher rates of 
chronic disease, cancer, dementias, cardiovascular illness. 
Nevertheless, I think we have to do better at communicating 
information about health to men so that men are in a position 
to take better care of their own health.
    Mr. Regula. Thank you. We appreciate your being here.
                              ----------                              

                                             Tuesday, May 22, 2001.

                              SMALL SCHOOLS


                                WITNESS

TOM VANDER ARK, EXECUTIVE DIRECTOR OF EDUCATION, BILL AND MELINDA GATES 
    FOUNDATION
    Mr. Regula. Our next witness today is Mr. Tom Vander Ark, 
who's the Executive Director of Education for the Bill and 
Melinda Gates Foundation, to talk about small schools. We're 
pleased to welcome you, Mr. Vander Ark.
    Mr. Vander Ark. Thank you, Mr. Chairman, members of the 
Committee. It's a pleasure to be with you today.
    I'm Tom Vander Ark, I'm the Executive Director for 
Education for the Bill and Melinda Gates Foundation in Seattle.
    There's been a great deal of attention paid to elementary 
schools in particular in education reform in the last decade, 
and very little paid to high schools, which is surprising, 
because American high schools work well for relatively few 
students. Unfortunately, that's most true for economically 
disadvantaged students and students of color.
    But today there are hundreds of schools that are bucking 
that trend. They're public schools, charter schools, private 
schools, urban, rural, they're suburban schools, but they all 
have one thing in common: they're small. After 40 years of 
consolidation, about two-thirds of American students now go to 
high schools larger than 1,000 students. As former Governor Jim 
Hunt said, we've made a terrible mistake in America. And we 
think it's time to reverse that mistake.
    There are decades of research, and especially a plethora of 
research in the last five years that small schools make a 
difference. It's interesting to note that there's very more 
conclusive research on small schools than there is on small 
class size. And yet small class size is a top of mind issue for 
teachers and parents.
    What we know from the research is that small schools 
improve attendance, achievement, motivation, graduation rates, 
it results in higher college attendance rates, school safety 
and school climate are improved, there's better parent and 
community involvement and better staff satisfaction.
    Mr. Regula. I'm sorry to interrupt you, would you define 
small school? You're talking about it as a term. If we had some 
definition it would be a little easier to relate to your 
testimony.
    Mr. Vander Ark. The research is inconclusive on that front. 
We generally say about 400 students, or less than 100 students 
per grade. So if it's a 6-12 school, it might be 600 students. 
But it's less than 100 students per grade.
    Mr. Regula. Would that be, would you define it as a small 
school in terms of a building, could it be one school district 
with a lot of small units?
    Mr. Vander Ark. Absolutely. I'll give you an example. The 
Julia Richman High School in the East Side of Manhattan, in the 
early 1990s, was one of three dozen large comprehensive high 
schools in New York City that had graduation rates of less than 
25 percent. Let's think about that for a minute. This is a 
school that serves economically disadvantaged students, 
primarily students of color. They had a graduation rate of less 
than 25 percent.
    Today that center, it's now called the Julia Richman 
Education Complex, that complex now has four small focused high 
schools, a K-8 school, a school for autistic children and a day 
care center. So there's about 1,600 students on that campus. 
All four of those high schools have graduation rates between 90 
and 95 percent and college attendance rates of the same. All of 
the students in that school share the amenities of a large 
school, gymnasiums, auditorium, performing arts center, and a 
library.
    All of these schools, and the hundreds of great small 
schools in New York, in Chicago, in the Bay Area, all operate 
on the same per pupil allocation as large schools. So the 
notion that they're less efficient is absolutely not true. For 
the same money, we can get the benefits that I described 
earlier.
    Why is this important to us? It's become a focus of our 
work because high schools are the largest, the least efficient 
and least effective and the most intractable schools in our 
system. We've developed a two-pronged approach of starting new 
small high schools and trying to help transform big bad schools 
into a multiplex of good small schools.
    But changing an American tradition is far from easy. The 
Gates Foundation and a number of other private philanthropies 
have contributed considerable resources to this daunting 
challenge. But it's going to take multi-sector collaboration to 
effect real change at scale.
    There's a growing consensus that our high schools aren't 
working, especially for most economically disadvantaged 
students. And there's fortunately a growing consensus about the 
attributes of schools that work for all students. We feel 
strongly that it's time to address this important injustice in 
our schools and to promote real design, so that all of our 
schools work for all of our kids.
    Thank you for the opportunity to testify.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Isn't it true that the research shows that student 
performance is superior in high schools that are smaller than 
800 students as opposed to larger?
    Mr. Vander Ark. No question.
    Mr. Obey. I find it interesting and frustrating that last 
year this Committee worked to increase the appropriation to 
assist school districts to explore the opportunity to create 
smaller schools, especially at the high school level. We 
increased funding for that program from $45 million to $125 
million. But, the bill which is on the floor today eliminates 
this specific authorization for small schools.
    I find that distressing because I think that small schools 
are absolutely critical at the high school level if we're going 
to improve not just academic behavior but social behavior as 
well. I congratulate the organization that you are running for 
its emphasis on the problem.
    Just one other point. It's my understanding, Mr. Chairman, 
that in Florida, Governor Bush and the legislature have passed 
legislation requiring that all new high schools that are built 
be of the smaller variety. I wish that nationally we would get 
the same message as we're getting from the kid brother in 
Florida. [Laughter.]
    I also would note that I've seen a number of comments which 
suggest that small high schools are more costly per student. My 
understanding is that while they may have a higher cost per 
student, that they are less costly per graduate, indicating 
that there is a higher level of performance that pays off 
economically as well as academically.
    Mr. Vander Ark. Mr. Chairman and Mr. Obey, our findings are 
that the hundreds of small schools that exist today generally 
operate on the same per pupil allocation. I would argue, as Ms. 
Keegan did earlier, that we do need to address the inequities 
in our funding system. This is true especially in our major 
cities. I would agree that we need funding that's needs based 
and that follows the students.
    That's a different but related issue to this one. I think 
the important point here is, there are hundreds of great 
schools doing a great job for the same per pupil allocation. 
Now, two related issues on capital costs. Some would argue that 
it costs more in terms of capital construction per pupil for a 
small school. That may be true if you want to adorn it with all 
the amenities that we traditionally think of on a secondary 
campus. But clearly, there's opportunity, as Julia Richman and 
many others illustrate, for a number of schools to share a 
campus facility with the traditional accoutrements of an 
American high school.
    The second issue is that there is a transaction cost, a 
transformation or a redesign cost to transform a big, 
comprehensive school into a multiplex of small schools. It's 
not capital cost, it is primarily time and resources for the 
staff to rethink the way their schools are designed, to be 
trained to teach in small teams, to serve as advisors for 
students. And that's what the bulk of our funds pay for, is 
that redesign effort.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey, you and I both went to the Aspen 
seminar. As I recall, Dr. Levy from the New York City system 
was pointing their system in that direction. Is my recollection 
similar to yours?
    Mr. Obey. He certainly indicated that he wanted to, in the 
remarks that he gave to the conference.
    Mr. Vander Ark. I can address that, Mr. Chairman and Mr. 
Obey. The Gates Foundation, Carnegie and the Open Society 
Institute have helped to support a major initiative with New 
York City and New Visions for Public Schools in an effort to 
both start new small schools and to attempt to transform 12 to 
15 of the worst large high schools in New York into small 
schools, small, a multiplex of small schools much as I've 
described.
    Mr. Regula. Do athletics get in the way?
    Mr. Vander Ark. Absolutely. This is dangerous and 
politically radioactive work, largely because high schools work 
today for elite athletes and for the top 10 percent of our 
students. Those are vocal and influential parents. So it is 
clearly an issue.
    I'll mention the Julia Richman story. The students from 
those four high schools play together on interscholastic teams. 
They compete, they mix teams and compete internally on 
intramural teams. So again, that's a great model of how you can 
have your elite sports, if that's what a community desires, but 
have very small focused coherent programs where every child 
gets the attention they deserve.
    Mr. Obey. Mr. Chairman, I guess I would observe that it 
would be interesting to compare headline size for a high school 
that wins a conference football championship versus a high 
school that produces an unusually large number of national 
merit scholars.
    Mr. Regula. I agree with you completely. I live on a farm. 
At the end of my driveway is an old red brick one room school 
that was closed about 50 years ago. I've said many times, I 
have three children, I would have been absolutely delighted had 
they gone there. Because they would have had eight grades eight 
times, provided there was a good teacher. That's always a 
caveat that goes all the way througheducation. We're into a 
consolidated school, and I see some real problems.
    I'm curious, how does your foundation practically, how do 
you try to encourage this trend, probably to discourage 
consolidations or big schools and at the same time encourage 
some deconsolidation, if you will?
    Mr. Vander Ark. Well, Mr. Chairman, I'll give you an 
example of the work that we just initiated in Colorado with 
Governor Owens' office. First of all, we're helping to create a 
statewide foundation to create a network of technology focused 
high schools in the most economically disadvantaged 
neighborhoods in Colorado.
    Secondly, we're working with the State accountability 
system, so that every high school that's labeled as under-
performing in their State becomes eligible for the program that 
we've designed, that will actually supplement the State aid to 
failing schools. So they get a small amount of money from the 
State and then if they can demonstrate to us some sense of 
leadership and initiative, we'll supplement that with 
additional money, with outside consulting help and some clear 
direction on what they ought to do.
    Mr. Regula. You've obviously worked with the New York 
system and from what I remember of Dr. Levy's comments it's 
working pretty well in terms of, as compared to what it had 
been before.
    Mr. Obey. I'm sorry, I didn't hear you.
    Mr. Regula. I said, I think Dr. Levy indicated in his 
testimony to us in that seminar that their decentralization was 
working fairly effectively for students.
    Mr. Obey. He thought it was. He also mentioned that there 
were a considerable number of critics after him, as you 
indicated. But I think he'll outlast them.
    Mr. Regula. Chicago's done--I'm sorry Mr. Jackson isn't 
here--Chicago's done some pretty innovative things. I met with 
their superintendent, and at least I was under the impression 
that they were doing what you're suggesting. Is that accurate?
    Mr. Vander Ark. Mr. Chairman, that's accurate. Pat Walsley, 
who is now the dean at the University of Washington, recently 
authored a study called Small Schools Great Strides, which 
chronicles the success of the roughly 150 small schools in 
Chicago. So they've certainly recognized that size matters, and 
that good teaching most frequently happens in small schools, 
where teachers can work together, where they can hold each 
other accountable, and where they can hold students 
accountable. You can create an authoritative environment in a 
small school that's virtually impossible to create in a large 
school.
    Mr. Regula. Did you get an opportunity to testify in the 
authorizing committee? They were doing a bill that we have on 
the Floor now.
    Mr. Vander Ark. Mr. Chairman, as a foundation we don't 
advocate for particular appropriations or bills. So no, I 
didn't.
    Mr. Regula. Well, from what you're saying, Mr. Obey, the 
ability of this Committee to support a small school program 
would be inhibited by the lack of authorization in the new 
bill.
    Mr. Obey. Well, what I'm saying is that the authorization 
bill repeals the specific authorization. We have, in the past, 
on this Committee found ways, by using general authorizations, 
to accomplish purposes that are constructive, and I hope that 
we can find that in this instance as well. I think it's a 
strange argument that some people make--that no effort is 
required on the part of the Federal Government because the 
Gates Foundation is involved. That seems to say, let cousin 
Johnny do it, rather than me, when we all ought to be working 
on it together.
    Mr. Regula. Well, thank you for coming. I'm in total 
agreement with what you're saying. I've been seven years in 
public education and on the State school board. I think this 
trend of bigness is better is just being demonstrated as not 
the right way to go. Have you developed any paper on this 
subject, to support what you've presented this morning? Of 
course we have your testimony. Is there anything additional to 
that?
    Mr. Vander Ark. Mr. Chairman, we have several articles on 
this subject. My testimony includes references to a number of 
the research studies that have been published in the last four 
or five years. I'd also call your attention to the Dropout 
Commission that made their report on January, Commission on the 
Senior Year, which made their report in February, the American 
Youth Policy Forum, which published their report earlier this 
year, the Education Trust, all of those organizations have come 
out very strongly in favor of small schools, and all of those 
reports cite many of the same pieces of research that are noted 
in my testimony.
    Mr. Regula. What you're saying is that in the thoughtful 
establishment, this is the direction that the research is 
taking?
    Mr. Vander Ark. There's very strong momentum among people 
that are looking at data. Unfortunately, that conversation has 
not reached most local school districts.
    Mr. Regula. I think we'll need to be creative.
    Mr. Obey. Well, I think that's allowed in the democratic 
system. [Laughter.]
    Mr. Regula. Thank you very much for coming. I commend you 
for your work, and I hope you have ever greater success.
    Mr. Vander Ark. Thank you.
    Mr. Regula. Because I think it's absolutely the right way 
to go.
                              ----------                              

                                             Tuesday, May 22, 2001.

                                  NIH


                                WITNESS

ERIC S. LANDER, CHAIR, JOINT STEERING COMMITTEE FOR PUBLIC POLICY
    Mr. Regula. I understand, Dr. Lander, you're on a tight 
schedule. So we'll give you an opportunity to be heard at this 
moment.
    Mr. Lander. Thank you very much, Mr. Chairman.
    Mr. Regula. Your testimony will be in the record and we'll 
welcome a summary.
    Mr. Lander. Great. Mr. Chairman, members of the 
Subcommittee, thank you for inviting me here this morning to 
testify. My name is Eric Lander, I'm a professor of biology at 
the Massachusetts Institute of Technology and the Director of 
the Whitehead Institute/MIT Center for Genome Research. I'm 
here today representing the Joint Steering Committee for Public 
Policy, which is a coalition of scientific research societies 
that jointly represents about 25,000 research scientists 
nationwide and globally.
    My own scientific research is related to the Human Genome 
Project. Our own center at the Whitehead Institute was the 
largest of the contributors to the recent sequencing of the 
human genome, and in addition, we work on trying to apply this 
knowledge to dissect the basis of human diseases, the causes of 
cancer and diabetes and heart disease.
    The scientific community is tremendously grateful for the 
support of this Committee and of the Congress in increasing the 
funding for the National Institutes of Health over the past 
several years. The additional funding is having a major impact 
on the pace of biomedical research, and it's been responsible 
for much of the remarkable scientific progress that we read 
about on a daily basis.
    I'm here today to ask you to continue increasing that 
support toward the goal of doubling the NIH budget. Given your 
own history of support for biomedical research, I take it for 
granted that you consider funding the NIH to be a tremendously 
important investment in our children's future. And I take it 
for granted that you know that millions of Americans suffer 
from Alzheimer's disease and arthritis and cancer and chronic 
lung diseases and diabetes and heart disease. And I take it for 
granted that you know that such diseases pose an incalculable 
burden of pain and hardship on its victims and their families, 
as well as a financial burden estimated approaching $1 trillion 
annually.
    But this alone would not be enough to justify substantial 
increases now. Substantial increases now can only be justified 
if two things hold. First, that there really are extraordinary 
and urgent new opportunities that justify additional 
investment. And two, that there's confidence that additional 
investment can be used well.
    And you have every right to demand answer to those 
questions, and I want to provide them. Number one, what are 
these new opportunities and what's so urgent them anyway? Mr. 
Chairman, there is an extraordinary revolution now underway. 
The revolution is most apparent in such landmarks as the Human 
Genome Project, which has given us the parts list for human 
medicine, the inventory of 30,000 or 40,000 human genes. This 
is having a dramatic effect on medicine. It's the equivalent of 
being able, for the first time, to have a look under the hood 
of the car to see what's wrong.
    One of the most uncomfortable facts about medicine in the 
20th century is that for most diseases, including heart 
disease, diabetes, hypertension, depression and schizophrenia, 
we have had no clue what the actual cause is, the molecular 
mechanism of the disease. So we've been shooting in the dark. 
We've mostly been treating symptoms. Sometimes we get it right, 
but often it's a matter of luck.
    In the past decade, we've begun to see real progress on 
discovering the mechanisms, the causes of disease. Let me give 
you an example of what happens when we know the mechanism. Ten 
days ago the FDA granted swift approval to a new cancer drug, 
Gleevec, directed against a kind of leukemia called Chronic 
Myelogenous Leukemia. It was a new kind of cancer drug: it is 
non-toxic and taken orally. Of 53 patients who had failed 
conventional therapy and were expected to die of their disease, 
53 had remissions. Moreover, the drug is now turning out to be 
effective against other cancers for which it wasn't even 
designed, including a kind of stomach cancer.
    Some people call this a miracle, and in many ways, it is. 
But it's no accident. It resulted from a dogged effort to 
understand the cause, the mechanism of leukemia. First, the 
recognition that two chromosomes were consistently rearranged 
in this cancer. Then the discovery that a novel gene caused by 
this chromosome rearrangement produced an errant protein locked 
in the on position.
    Then the proof that this protein, this errant protein, was 
absolutely essential for the cancer cells to grow. All this was 
the product of NIH funded research, through the foresight of 
this Congress. Once the mechanism was known, talented chemists 
in the pharmaceutical industry stepped in and created a drug to 
block this errant protein, and without side effects.
    Mr. Chairman, it's the difference between trying to fix a 
car when you have no idea what's wrong and between trying to 
fix a car when you can look under the hood. And this is not an 
isolated story. Ten years ago we had no idea what the mechanism 
was of Alzheimer's disease. Since then, we've been able to look 
under the hood and find key causative mechanisms. And it's led 
to an explosion in drug development.
    I believe that we will see drugs emerge that can prevent 
Alzheimer's disease before symptoms occur, that is, prevention 
of diseases, rather than dealing with the devastating 
consequences. This could only happen by knowingthe mechanism.
    Similar stories have emerged for Parkinson's disease and 
other diseases. We're standing on the threshold of what I think 
is the greatest revolution in the history of medicine. We're 
now set to work out the mechanisms underlying most common 
diseases that afflict people. And it's an audacious program to 
imagine that this could happen, but I believe it will happen in 
the next one to two decades.
    But it's going to take major and increased investment now. 
I think the investments were justified. We finally have the 
tools to lay bare the secrets of disease, and I think we'd be 
failing the American people in general and our children in 
particular if we didn't seize the opportunity. If we delay 
investment today, we delay understanding, we delay therapies 
and cures. I think this is a very special moment in history and 
we need to seize it.
    Number two, how can this Congress be sure that the 
increased investment is being used widely? That is, how can you 
monitor the progress?
    Some years ago, this Congress passed the Government 
Performance and Results Act, GPRA. What performance and results 
should you be monitoring?
    Well, the development of new drugs and therapies that 
stemmed from NIH is one such measure. But it's a long term 
measure, because it can take a decade or more for understanding 
to translate to therapy.
    Instead, I would urge you to focus on the discovery of 
mechanisms. Keep a scorecard of how we're doing at discovering 
the mechanisms. That's the key, because you can feel confident 
that if we reveal the molecular mechanisms, it will unlock the 
prodigious energies of industry and academia to fashion 
therapies and cures. In this way, you can be sure that the 
investments are reaping dividends.
    You can also look at new initiatives at NIH, such as the 
newly established NIH Center for Minority Health, which is a 
sign that we're working together to ensure that biomedical 
research benefits all Americans.
    Number three, finally, Mr. Chairman, I know it's not the 
purview of this Committee, but I would like to add that for all 
of this to succeed, we need increased investment in other areas 
of science as well. Increased investment in biomedical research 
will not reap its full potential unless we have corresponding 
investment in physics, chemistry, computational science, etc. 
These allied disciplines are absolutely essential. For example, 
for figuring out what protein shapes and functions are about, 
or for developing non-invasive imaging to speed clinical trials 
through the study of early markers of disease.
    The President's budget for biomedical research is very 
encouraging. But I'm deeply concerned that the budget for other 
sciences is neglecting key investments.
    In summary, this is no ordinary time. The science of the 
last century has now brought us to an extraordinary threshold 
of understanding the basis of disease, and it is time for 
extraordinary investment to reap those benefits.
    Thank you for your consideration, and I'd be glad to answer 
your questions.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Well, I want to thank you very much for your 
statement. It's not the first time that I've heard you, but I'm 
very happy that you focused on our obligations beyond NIH. I've 
said this before, but I'll say it again very frankly. There is 
a member of the Subcommittee that was prepared to vote for at 
least the President's budget on NIH. It's become the holy 
picture item in the health budget. We all pose for political 
holy pictures by stumbling toward the nearest microphone to say 
how much we're dedicated to NIH research.
    The problem is two-fold, as I see it. First of all, this 
big investment in NIH, according to the budget, will stop after 
2004. Because then the budget estimates don't contain the 15 
percent increases any more, the increases drop to low single 
digit levels, accurately reflecting what will be available in 
the budget as this tax cut that's being passed continues to 
drive everything else off the table.
    The other problem that we have, as you have indicated, is 
that if all we do is fund NIH and don't deal with NSF and some 
of the other seed corn agencies, we are going to cut the plant 
off at its roots. The flowers may look pretty for a few days, 
but they won't last that long, at least not in the health we'd 
like to see them.
    This isn't really a question. It's just a statement of 
philosophy. I think that we have a once in a generation 
opportunity, now that we have surpluses instead of deficits. We 
have a choice to make between tossing almost all of those 
surpluses at the private sector in the form of individualized 
realizations of happiness through tax cuts, or we can try to 
reserve a major part of those surpluses, I would hope by far 
the largest part, to finally enhance the quality of public 
services and the strength of public investments that must by 
nature be a collective enterprise rather than an individual 
enterprise.
    I think we're about to blow the biggest chance we've had in 
a generation to really make a difference, not just for medical 
research, but in a number of other areas as well. I thank you 
for focusing not just on NIH, but also on the other near 
orphans in the scientific community, given the squeeze that we 
have on those agencies.
    Mr. Lander. Thank you. We can't deliver on the promise 
without a full picture of the support it will take.
    Mr. Regula. Thank you for a thought provoking testimony.
    Mr. Lander. Thank you, Mr. Chairman.
                              ----------                              

                                             Tuesday, May 22, 2001.

                                TEACHERS


                                WITNESS

C. EMILY FEISTRITZER, PRESIDENT, NATIONAL CENTER FOR EDUCATION 
    INFORMATION
    Mr. Regula. Our next witness is Emily Feistritzer, 
President of the National Center for Education Information. 
Your testimony will be made part of the record, we welcome your 
comments.
    Ms. Feistritzer. Thank you, Mr. Chairman. I'm the President 
of the National Center for Education Information, which is a 
private, non-partisan research organization in Washington. I 
started the National Center for Education Information just to 
fill what I thought was a gap of a need for collecting, 
analyzing and reporting objective and unbiased information. So 
we really don't take a position on these matters, but we take 
great pride in the kind of data that we've been able to make 
available.
    I thought I was going to follow the gentleman from the 
Gates Foundation and I wanted so much to do that, because so 
many things he said fit right into this changing market for 
teaching and alternative routes for bringing people into 
teaching.
    But I wanted to share with you, before I get into my 
statement, in a book that we do called Alternative Teacher 
Certification: A State by State Analysis, which I will make 
available to the entire Committee, in the introduction we have 
a section on schools in the nature of how schools are organized 
in this country. One of the bulleted items states that at the 
high school level, only 3 percent of all secondary schools in 
this country enroll 1,500 or more students, and yet they 
account for 33 percent of all enrollment. It just reinforces 
what Mr. Vander Ark said. Forty-one percent of schools enroll 
fewer than 400 students, and yet account for only 18 percent of 
all students.
    So we're really talking about a relatively small number of 
schools throughout this country that enroll the proportion of 
all the students who are enrolled in schools. This is very much 
related to the whole issue of teacher supply and demand, which 
is the topic that I was asked to speak with you about. We've 
all heard that we're going to need to 2.2 million additional 
teachers in the next decade. You could have a whole hearing 
with probably 25 witnesses to just debate what that actually 
means.
    But the fact of the matter is, the demand for teachers is 
increasing, not decreasing. But it's actually not increasing 
everywhere. The demand for teachers is really isolated in 
certain regions of the country, namely large inner cities and 
in outlying rural areas of the country. And in certain subject 
matter areas, such as science, mathematics and special 
education.
    We find that actually, the Nation nationally is turning out 
enough people to teach. The colleges and universities that 
prepare teachers in this country are producing roughly 200,000 
brand new, never taught before teachers each year, and that's 
more than enough actually. The problem is most of the people 
who are coming through colleges of education fully qualified to 
teach don't want to teach where the demand for teachers is 
greatest. Undergraduate teacher education programs historically 
have turned out young white females who do not want to teach in 
large inner cities and who do not want to move actually very 
far away from home.
    Now, what we find also is that in the National Center for 
Education Statistics data from baccalaureate and beyond 
studies, that about 60 percent of baccalaureate degree 
recipients who are fully qualified to teach are not teaching 
the following year, and only about 53 percent of them are not 
teaching five years out. So we have a production of teachers in 
this country that is great enough to meet the demand. The 
problem is that the production of teachers is not satisfying 
the demand, because the demand is, as I said earlier, isolated 
and quite specific to geographic regions and to specific 
subject areas.
    That's why this new movement toward States developing 
alternative routes for recruiting, training and licensing 
teachers makes so much sense. Because not only have alternative 
routes evolved since the mid-1980s and grown rapidly since the 
mid-1990s, it is because not only are they meeting the demand 
for additional teachers in specific areas of the country, they 
are also meeting the demand created by the supply of people who 
are stepping forward to want to teach who do not fit the 
traditional definition of a teacher, which is a high school 
student going to go college and majoring in education.
    We find that there are huge numbers of what I call non-
traditional candidates for teaching, people who already have a 
bachelor's degree, usually in a field other than education, 
many of whom have life experience, some of whom have been in 
other careers and retired, who really do want to teach. And 
they really do want to teach in areas of the country where the 
demand for teachers is greatest. And alternate routes are being 
developed all over the country to specifically recruit these 
people to teach in these ares of the country where the demand 
is greatest.
    And the Federal Government, in its infinite wisdom, has 
been through the authorizing language and through this 
appropriation moving in the direction of providing some much 
needed support of the development of these types of programs.
    I see that my formal time is up, so I'll stop here.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I'm curious, is the multiplicity of 
requirements, and it varies from State to State for 
certification, is somewhat of a barrier to the people you 
characterize perhaps who have had other careers and would like 
to teach, but suddenly they're faced with going back and taking 
a couple of years of how-to courses, is that a problem?
    Ms. Feistritzer. I think it is a problem. You can't ask 
people who have finished their degrees, in some cases masters 
degrees and some cases professional and even more advanced 
degrees, to give up employment and go back to college and pay 
tuition to take courses required for certification and may or 
may not be able to find a job.
    So that is a problem. That's why the alternate routes that 
are designed specifically to attract this population of people 
and are developed to train that population of people to teach 
in the very schools that most traditionally trained teachers 
don't want to teach in make an awful lot of sense, and are 
being met with a tremendous amount of enthusiasm from mid-
career changers and military personnel and so on.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    As you know, last year we were able to provide $34 million 
in the budget for non-traditional teacher recruitment 
activities. And $31 million of that was based on the 
Transition-to-Teaching Initiative. What's your evaluation of 
that program?
    Ms. Feistritzer. I have testified before the authorizing 
subcommittee, and I'm very much in favor of that. I think that 
the States really do need financial support in developing these 
programs. Most of the programs that are springing up around the 
country are really on the backs of the participants in the 
program. They can be very costly to the individual who's trying 
to get a credential to teach. So I think the transitions to 
teach program, in the current budget, is an excellent program.
    My only caution, I was around during the block grant era of 
Chapter II in the early 1980s. I saw a lot of really good 
programs, like teacher centers and teacher corps really get 
lost in the block grants. And I think that, I have a problem 
with turning all of this money over to the States to do with as 
they will. I would hope that there would be some guidelines 
that these monies be used for such things as the design and 
implementation of alternative certification routes, for 
example. Because I'm not sure the States will wind up using it 
for that if they can get away with using it for something else.
    Mr. Obey. How about the Teach for America model?
    Ms. Feistritzer. Teach for America is really a recruitment 
effort for recent college graduates to make a two year 
commitment to teaching. I like Teach for America a lot. I like 
Troops to Teachers an awful lot. But those two programs are 
specifically recruitment efforts for specific populations of 
people.
    The alternative teacher certification arena is much broader 
and much bigger and encompasses a whole lot more people and has 
more potential, I think, for bringing in wider audiences of 
people in a way that fits with the current bureaucracy of 
American education, which is not likely to change in our 
lifetimes.
    Mr. Obey. I would just have to say that in light of your 
other comments about block grants, that I'm fascinated. One 
thing that fascinates me is that there are a number of people 
in Congress and out who will criticize the degree of 
educational attainment of students in the country. And they 
will say, we just aren't doing very well at all. So their 
answer is to turn even more authority over to the people who 
already have the lion's share over running schools, namely the 
local school boards.
    I don't think my district is much different than anybody 
else's, local school boards make 95 percent of the decisions 
about how kids get educated and where they get educated, who 
they get educated by and where resources go. It's always 
fascinated me that the Federal Government, which really is only 
nibbling around the edges in terms of the financial support it 
gives education, somehow gets the blame for the lack of 
performance in schools that are largely governed by local 
school districts.
    I think you have to conclude that that judgment is not 
based on evidence, but it's based more on ideology or 
philosophy.
    Thank you, Mr. Chairman.
    Mr. Regula. Has there been any movement on the part of 
States to remodel their requirements for certification to make 
it easier for these transition type of individuals?
    Ms. Feistritzer. We survey the State departments of teacher 
ed and certification every year. And the results of that are 
published here. There's been a lot of movement in that 
direction.
    I am more encouraged, I've been covering and around 
education all my life, I'm a third generation educator. And I'm 
actually more optimistic than I think I've been throughout my 
life about the future of the teaching profession for this 
single reason, that the population of people who are stepping 
up to the plate sincerely wanting to teach is radically 
changing, positively.
    And the States and even the institutions of higher 
education are being, I think, very positively responsive to 
using it as an opportunity to design some really good, 
sensible, not a whole lot of courses and riff-raff, but really 
sensible, field based mentor companion teacher preparation 
program for life experienced adults. Forty-one States now say 
they are doing such a thing, but they need a lot of support.
    Mr. Regula. Has the NEA and/or the AFT been a help or 
hindrance, or are they neutral on this whole effort?
    Ms. Feistritzer. The NEA and the AFT both, to their credit, 
have been back in the early 1980s, rather silent on the issue 
and increasingly open to the development of good new 
alternative teacher preparation programs. They've not gone as 
far as sitting here before you, calling for $1.2 billion for 
them.
    But they have been increasingly, I think, open to the 
development of collaborative alternative teacher preparation.
    Mr. Regula. That's a positive note.
    Thank you for coming.
    Ms. Feistritzer. Thank you.
                                             Tuesday, May 22, 2001.

                         STUDENT FINANCIAL AID


                                WITNESS

BRIAN FITZGERALD, STAFF DIRECTOR, ADVISORY COMMITTEE ON STUDENT 
    FINANCIAL ASSISTANCE
    Mr. Regula. Brian Fitzgerald, Director, Advisory Committee 
on Student Financial Assistance. Your statement will be made 
part of the record, you may summarize, please.
    Mr. Fitzgerald. Thank you, Mr. Chairman, Mr. Obey, for the 
opportunity to present an overview of the Advisory Committee's 
most recent report entitled Access Denied: Restoring the 
Nation's Commitment to Equal Educational Opportunity, a copy of 
which is in your materials today.
    For the record, my name is Brian Fitzgerald, I'm staff 
director of the Advisory Committee. I will deliver testimony on 
behalf of Dr. Juliet Garcia, who is President of the University 
of Texas-Brownsville and Chairperson of the Advisory Committee. 
She is ill today and apologizes for not being able to be here 
herself.
    Our committee was authorized by Congress in the Higher Ed 
amendments of 1986, to provide expert, independent, objective 
advice to Congress and the Secretary on Federal student 
financial aid policy issues. The committee's most important 
legislative charge is to make recommendations that maintain 
access to post-secondary education for low income students.
    Over two years ago, the committee began a comprehensive 
examination of the condition of access, that is the opportunity 
to attain a baccalaureate degree. At three public meetings 
devoted exclusively to access, the committee was informed by 
testimony of dozens of students, college administrators and 
scholars about the financial as well as the academic, social 
and cultural dimensions of access.
    Emanating from those activities and a parallel two year 
study, the Access Denied report marshals the most authoritative 
data to pinpoint the access problem and its causes. The report 
documents the wide gap between available aid, including loans, 
and college costs for low income students. This gap, known as 
unmet need, is $3,200 a year at two year public colleges and 
$3,800 a year at four year public colleges. Significant enough 
to lower the rate at which low income students enter college, 
attend four year institutions and attain a bachelor's degree.
    More than 30 years ago, the Federal Government entered into 
a partnership with States and higher education institutions to 
ensure that all Americans could have access to a college 
education without regard to their economic means. As a result, 
tens of millions of Americans who otherwise would not have had 
access to college have attended and earned associate's and 
bachelor's degrees. This highly successful effort increased the 
rate at which Americans enter college to record levels, which 
has fueled this Nation's economic growth.
    Unfortunately, the post-secondary participation of low 
income students continues to lag far behind that of their 
middle and upper income peers. Large differences in college 
entry rates persist, with gaps as wide as three decades ago.
    In addition, a recent U.S. Department of Education study 
indicated that low income students who graduate high school at 
least marginally qualified, enroll in four year institutions at 
half the rate of their comparably qualified high income peers. 
Equally troubling, only 6 percent of low SES students earn a 
bachelor's degree, as compared to 40 percent of high SES 
students. These facts have major implications not only for the 
lifetime earnings of low income students, but it also robs the 
Nation of hundreds of billions of dollars a year in gross 
domestic product.
    Yet the challenges that face low income students today in 
gaining access to college will worsen considerably as a result 
of impending demographic forces. Rivaling the size of the baby 
boom generation, the projected national growth of college age 
population by 2015 exceeds 16 percent or about 5 million, with 
at least 1.6 million additional students enrolling in college, 
many of whom will be low income. Thus, even if college costs 
continue to grow no more rapidly than family income, these 
demographic changes will greatly increase the gross amount of 
financial aid required to ensure access.
    Unfortunately, financial barriers are higher now in 
constant dollars than they were three decades ago. The unmet 
need gap facing low income students has reached unprecedented 
levels, once again, $3,200 and $3,800 respectively at two year 
and four year public institutions. This includes all work and 
loan.
    Given these levels of unmet need, the failure to close the 
participation and completion gaps is not surprising. Unmet need 
is forcing low income students to choose levels of enrollment 
and financing alternatives not conducive to academic success, 
persistence and ultimately degree completion.
    One often hears the argument that poor academic preparation 
is the primary reason for low income students' lack of access. 
That is simply not true. Inadequate financial aid, that is the 
unmet need gap, often prevents the most highly qualified low 
income youth from attending college at all. In fact, the lowest 
achieving high income students attend college with the same 
frequency as the highest achieving poor students.
    If my committee members could leave you with only one 
message today, it would be this. The inability of tens of 
thousands of academically prepared low income students to 
enroll in a four year institution, attend full time and earn a 
bachelor's degree is the result of unmet need just as it was 30 
years ago, and portends no narrowing of participation gaps, 
even in the long run. No matter how strong the Nation's 
commitment to academic preparation, no matter how quickly 
academic preparation advances, no progress can be made toward 
improving access without increases in need based grant 
assistance starting with the Pell Grant program.
    Thank you, Mr. Chairman and Mr. Obey. I would be happy to 
respond to any questions you have.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I have just one.
    On the Pell Grants, which would you think would be more 
effective, have a larger amount the first year with a 
decreasing amount the second, third and fourth year, or have a 
flat amount for four years as part of a Pell Grant program? And 
some of the colleges have indicated they have to end up picking 
up the difference where it drops off in the second, third and 
fourth year. Do you have an opinion on this, which would be the 
better way to do it?
    Mr. Fitzgerald. Mr. Chairman, we looked not only at the 
ability of students to enter college, but the most important 
thing is that students must be enabled to persist and obtain a 
degree of their choosing. We feel that giving higher grants in 
the first year or first two years may have a slight impact on 
the number of students enrolling, that is to say, it may 
increase. We are very concerned that it may actually harm 
persistence, and put colleges in a position, and many of them 
serving the lowest income students will not be able to do this, 
but put colleges in a position where they have to make up the 
difference.
    Mr. Regula. So you'd prefer a flat amount for four years?
    Mr. Fitzgerald. That is correct, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    I would simply note that, the reason why low-income 
students don't attend college in the numbers that we would like 
them to is very easy to understand, when you recognize that in 
1975 the Pell Grant maximum award, as a percentage of the cost 
of going to college, was 84 percent, and today it's 39 percent. 
I don't think it takes a rocket scientist in order to figure 
out that that's a major reason why much smaller numbers of low-
income people attend college than would be the case if we 
really, truly had equal access to education.
    This country is great at myths. We always talk about equal 
justice under the law, and liberty and justice for all in the 
pledge of allegiance. But when you take a look at performance, 
if our words were to match what we're actually doing, the 
pledge of allegiance would be amended so we say that we're 
providing liberty and justice for almost everybody, but not for 
all.
    That's all, Mr. Chairman.
    Mr. Regula. There have been some allegations that college 
tuition tracks with whatever we do with Pell Grants. Any 
validity to that? When you look at the numbers, it would appear 
that might be the case.
    Mr. Fitzgerald. Mr. Chairman, although our report does not 
specifically deal with college costs, I think there's been a 
good deal of emphasis on college costs recently. We've examined 
that very carefully. We find no relationship whatsoever to the 
level of Pell Grants and college costs.
    Congress created a commission on college costs to look at 
that. The fact of the matter is, the number of Pell Grant 
recipients is a relatively small number, it's a minority among 
students enrolled in college. So if Pell were driving college 
costs, you would be, for example, I believe you are on the 
board of trustees at Mount Union----
    Mr. Regula. Right.
    Mr. Fitzgerald. I was just look at the data, I don't know 
what the enrolment is, I'm sort of backing into it. But there 
are three times as many loans as grants, as Pell Grants, at the 
college. If Pell were driving tuition at your college, you 
would be in effect taxing non-Pell Grant recipients when they 
are no better off as a result of rising Pell Grants.
    In fact, the majority of students attend public 
institutions, about 80 percent of all students. Those tuitions 
are set by a public governance process unrelated to levels of 
Federal and often unfortunately, State aid. And in key States, 
California, Massachusetts, Virginia, tuitions have declined, 20 
percent in Virginia in 1999-2000.
    So frankly, I think the concern about college costs is 
actually, the jawboning, if you will, has led college leaders 
to look very carefully at that and frankly make a very 
concerted effort to even lower tuition. That is going to 
change, though, with the decline in State subsidies.
    Mr. Regula. Yes, we're having that in Ohio because of the 
budget constraints.
    Mr. Kennedy.
    Mr. Kennedy. All the talk about Pell makes me very proud to 
come from Rhode Island. And of course, Pell didn't pioneer the 
Pell Grant without understanding the importance of what it 
meant to my State and all the institutions of higher learning 
in my State.
    I know from hearing from them, having gone to a number of 
graduations this past weekend and talked to the boards of 
directors at the different public institutions, they're all 
very concerned about what's coming down the road in terms of 
funding for higher education and assistance from the Federal 
Government. So I welcome your concerns and advocacy on behalf 
of financial aid to students. We certainly need it now more 
than ever, because as we all know, higher education is the key 
to opportunities for the future.
    So thank you.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Mr. Fitzgerald, I'd just like you to repeat one 
sentence that you uttered earlier. You said the lowest 
achieving high-income students attend college at the same rate 
as the highest achieving low-income students?
    Mr. Fitzgerald. That's correct, Mr. Obey. It's 78 percent 
of the highest achieving low-income students go to college, and 
77 percent of the lowest-achieving high income students. The 
inescapable conclusion is that money matters.
    Mr. Obey. You bet. Thank you, Mr. Chairman.
    Mr. Regula. You made your point very effectively.
                              ----------                              

                                             Tuesday, May 22, 2001.

                               EDUCATION


                               WITNESSES

PETER HORTON, ACTOR, THE CREATIVE COALITION AND COMMITTEE FOR EDUCATION 
    FUNDING
CAROLYN HENRICH, PRESIDENT, COMMITTEE FOR EDUCATION FUNDING
    Mr. Regula. Mr. Peter Horton, from the Creative Coalition 
and Committee for Education Funding. You're accompanied by 
Carolyn Henrich, President of the Committee for Education 
Funding.
    We're happy to welcome you, your testimony will be made 
part of the record, and we'll welcome your comments.
    Mr. Horton. Thank you very much. Good morning, Mr. Chairman 
and Congressman Obey, members of the panel.
    On behalf of the Creative Commission and the Committee for 
Education Funding, I would like to thank you for letting us 
speak on such an important topic. I think all of us in this 
room would agree that education of our children is a foundation 
stone, if not the cornerstone, for building and maintaining a 
healthy and prosperous society.
    My name is Peter Horton, as you stated. I am an actor, 
director, writer in the film and television business, as you 
also stated. This is Carolyn Henrich, President of the 
Committee for Education Funding.
    Mr. Chairman, I think I'm going to take your advice and not 
read my full written statement into the record. I can feel the 
room slowly wilting as we go along here, and with the exception 
of a couple of points, facts, I would like to share, I will 
then take another tack.
    One of the facts in my written statement is that the 
Federal investment in education has actually declined as a 
share of the Federal budget from 2.5 percent in 1980 to 2.1 
percent today, which means that we are spending only two cents 
of every Federal dollar on education. Now, the groups that I am 
representing today are advocating a five cent expenditure, 
which certainly to me seems reasonable, at least.
    There's just a couple other quick facts. At the elementary 
and secondary level, enrollments are projected to set new 
records every year, reaching over 54 million by the year 2006. 
Over the next decade, college enrollments are expected to 
continue to grow another 11 percent, with one in five students 
coming from families below the poverty line. And then the last 
one, which truly shocked me, which is that 30 percent of our 
students live in poverty in this country, in this Nation.
    Mr. Regula. Thirty percent in the public schools live in 
poverty, is that correct?
    Mr. Horton. Yes, sir. It's shocking.
    Mr. Regula. It is.
    Mr. Horton. I think what I would like to do for the balance 
of my time, if you don't mind, is really speak to you from my 
heart. If I can, I would like to try and explain to you why I'm 
so passionate about this issue, why I think it's so important 
that you provide adequate funding for education in this 
country. I went to public school my whole adolescence and 
childhood. My sister Ann is a school teacher. One of my heroes 
growing up was a woman named Jo Egger Lundquist, who is an 
extraordinary educator up in the northwest, who believes that 
teaching is not a profession but a calling, which I believe and 
concur with completely.
    But most importantly, what's affected me the most on this 
issue is I recently became a father for the first time. As you 
know, becoming a father for the first time changes your whole 
outlook on things, your whole perspective on the world. I am 
facing a situation in Los Angeles where, for me to get adequate 
education for my daughter, I have to be willing and able to 
spend $15,000 a year for her grammar school education, and 
$10,000 for kindergarten.
    Now, there's a significant portion of this country that 
makes $10,000 to $15,000 a year in salary, and an even larger 
group that's making more than that but still can't afford that 
kind of expenditure for education. I don't know what we tell 
them. I don't know how we explain that to their children.
    My family and I spend a lot of time in a small community in 
California called Cambria. It has 5,000 students and the public 
school there is so overcrowded that a lot of the classroom work 
has to be done in the halls of that school. Now, recently a 
number of, or two education bond measures were up for a vote in 
that community, and both failed. Now, this is a community where 
neighbors know each other, they know the children that they're 
voting against. I don't know how to explain to those children 
why they still have to use the hallway as their classroom.
    Now, you are the only body in this country that has the 
ability to set a national standard of education for this 
country, a bar if you will, under which no student, not my 
daughter, not any student, will fall. We're spending two cents 
on a dollar. It used to be two and a half cents, it's now two 
cents. We need at least five cents.
    And that's not just my opinion. As I'm sure you know, polls 
indicate a vast majority of Americans feel like spending five 
cents on education is something they can support 
wholeheartedly, in fact are asking you to do something about 
that. I mean, we are the wealthiest country in this planet. And 
we're going through one of the most prosperous times in our 
history. We can afford five cents. We can afford the nickel.
    Thank you for your time.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you for your testimony. I think you're 
right. I would put it another way, I don't think we can afford 
not to provide that nickel.
    I would just note two things. My wife started out at the 
time she married me, as a speech therapist. She used to work 
with kids in a hall closet, because that's all that the school 
system provided, in one of the schools that she taught. I never 
dreamed that 30 years later, you'd still have the same 
conditions. I was silly enough to believe in the improvability 
of a society on a consistent basis and in so many ways I've 
been proven wrong.
    The other point I would simply make is that you indicated 
that we've actually seen investments in education going down as 
a percentage of our national budget. I would point out that 
we've seen our investments in everything go down as a 
percentage of our national income. If you take a look at all of 
the dollars that the Appropriations Committee can provide in 
the budget this year, and if you compare that to what we were 
spending in 1980, this country was spending 5.2 percent of our 
total national income in 1980 on all domestic initiatives of 
the Federal Government except for entitlements. That's not 
counting programs like Social Security.
    Today we are at 3.4 percent of our total national income. 
And within five years, under the budget that Congress has just 
adopted, we will be down to 2.8 percent of our total national 
income. We are shortchanging education. We are shortchanging 
science. We are shortchanging health care. We're shortchanging 
environmental cleanup. We're shortchanging all of those 
collective enterprises that represent the fundamental 
responsibilities of people to each other in this society.
    And that's what makes this budget this year so incredibly 
frustrating.
    Mr. Horton. I would say also, I think the way we treat our 
children as a Nation is sort of the canary in the cave. It's 
our best indicator of our integrity as a Nation. I would say, 
our best focus right now, our most necessary focus right now is 
to make that statement as a Nation, that our children are worth 
at least five cents on the dollar, and the rest up to you.
    Mr. Obey. Well, again, all I will say is that over the last 
five years we've had an average annual increase in federal 
education appropriations of about 13 percent.
    Mr. Horton. Yes.
    Mr. Obey. This year, the President's budget cuts that rate 
of increase in half when you compare apples to apples, program 
delivery versus program delivery by academic year. Some 
progress. Thank you.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you. It seems to me that the big 
challenge we have as a Nation is to get these facts that you've 
just mentioned out and in the public consciousness. But not 
only that, there has to be a will, because we know more today 
than we ever have in our history about brain development and 
the impact of violence on children long term in terms of their 
learning. We know all these things, and yet we are treating our 
kids worse than they've ever been treated in the history of the 
Nation.
    So even during times of the Depression, kids were, 
according to historians and child development specialists, were 
essentially treated better because of the nature of family and 
attentiveness to children than they are today. It says 
something about the fact that it isn't just simply knowing 
more. We as a society believe that if we just had more 
information that would do it. It's not enough. It's a culture 
of change that has to take place for us to embrace this 
increase.
    So all I can say is that it takes a fundamental political 
change of heart. I think those that have advocated a reduction 
in Government spending insofar as the collective enterprises 
that Mr. Obey was talking about have been doing so by 
denigrating government and tearing down our public institutions 
and saying that you can't be trusted, politicians can't be 
trusted, our whole democracy is failing you, the public. And if 
you say that enough, people will believe it. And what they have 
come to believe is that that's true. Unfortunately, when they 
believe that that's true, there isn't the confidence to support 
these programs, and the public will to support these programs.
    So we need to change the ethic in this country that looks 
upon government and political leaders as the lowest form of 
life, and start changing the civic ethic in this country in 
terms of public institutions. So I can just say, I 
wholeheartedly appreciate what you're saying, and I do agree 
that we're becoming two separate societies as a result.
    What comes to mind is John Kenneth Galbraith's book, 
Private Wealth, Public Squalor. We're going to have a lot of 
people that have the wealth, and then we're not going to have 
any infrastructure in this country that everyone can share. 
It's not going to be a pretty sight, we're going to become a 
banana republic of sorts, an oligarchy, which is essentially 
what we're becoming now.
    So I think the disparity in income and wealth has never 
been greater in our country's history. It's an absolute 
travesty that we don't have public policy that reflects a newer 
view of where investments need to be made in education, because 
that is clearly the correlation between a good education and a 
person's ability to get a good job. It'sjust so direct. So how 
we can not look at that as a civil right, and if you deny that person a 
good public education, essentially they should be able to sue under the 
Fourteenth Amendment for denial of their civil rights.
    So I'm in agreement with you and I hope that you're 
successful in helping us change the public culture in terms of 
this. And certainly I acknowledge the fact that Hollywood has a 
great deal of influence in shaping our culture to the degree 
that folks like yourself can take a leadership role. I think 
that's really constructive and I appreciate it, and I really 
applaud your efforts.
    Mr. Horton. Thank you. I think one last brief thing. From 
the beginning of civilization, there's been a balancing act 
between the need of the community, the good of the community, 
the good of the individual. A healthy society has a very even 
balance. I think you here in Washington set that tone.
    Mr. Regula. I appreciate your testimony. I have to say, I 
read a disturbing article over the weekend from the Los Angeles 
Times. The headline is, after spending $2 billion, Kansas City 
schools get worse. A judge in Kansas City, Missouri ordered the 
schools to spend a lot more money. And he ordered the State 
government to come up with the money. They did spend the $2 
billion, on top of everything else. And their scores are down 
now. Admittedly they didn't do well. It says, 900 top of the 
line computers, an Olympic size swimming pool, with six diving 
boards, I don't know exactly how that makes you a better 
scholar, padded wrestling room, etc., etc.
    I think we have to be careful, and I support more funding, 
but I think we also need to say what works. Because it's 
obvious that in Kansas City, $2 billion did not improve. In 
fact, they're going to take the system away, apparently, and 
turn it over to the State and/or the mayor. It says the new 
approach, back to the basics. I would hope this Committee has 
time after we've finished our regular hearings to have some 
oversight on what really works. How do we make sure the money 
we do spent causes an improvement in the system and the 
education of young people?
    I think that's part of the challenge.
    Mr. Horton. I agree with that. I clearly agree with that. I 
think, though, if you go back to Jo Egger Lundquist's statement 
that teaching is a calling, I think it's important.
    Mr. Regula. That's true.
    Mr. Horton. And I think we have to start treating teachers 
with that respect. I think yes, in any endeavor, there is going 
to be anecdotal evidence that says, this didn't work over here. 
And maybe that anecdotal evidence is a good reason to take a 
look at the system, try and make sure that we're functioning 
well in that system.
    Mr. Regula. Leadership, it says in Kansas City they've had 
20 superintendents in 30 years. That tells you a lot right 
there.
    Mr. Horton. There you go. There's the problem. But I don't 
think that means we should not fund it.
    Mr. Regula. Oh, no. No, I'm more interested in how we can 
make sure our funding gets results, and that's exactly what 
you're saying, that's what all of us here want.
    Just as an aside, you have many credits as an actor. I see 
you were in the Into Thin Air, Death on Everest.
    Mr. Horton. I was.
    Mr. Regula. Did they film that there or here?
    Mr. Horton. I wish we could say we braved the elements and 
went all the way to Tibet, but we did it in Austria, which is 
sort of like Tibet but not really. [Laughter.]
    Mr. Horton. I think the food in Tibet would probably be 
better, actually, than it was in Austria.
    Mr. Regula. Very interesting. This was a TV series?
    Mr. Horton. A TV film, yes.
    Mr. Regula. That was a takeoff on the book?
    Mr. Horton. Yes.
    Mr. Regula. I read the book.
    Mr. Horton. The book was terrific. Better than the TV show, 
I have to admit. [Laughter.]
    Mr. Regula. Thank you for coming and for your interest.
                                             Tuesday, May 22, 2001.

                       DEPARTMENT OF LABOR BUDGET


                                WITNESS

RICHARD TRUMKA, SECRETARY-TREASURER, AFL-CIO
    Mr. Regula. Our next witness will be Mr. Richard Trumka, 
the Secretary-Treasurer of the AFL-CIO, on labor issues. Thank 
you for coming. We'll put your testimony in the record, and you 
can summarize for us.
    Mr. Trumka. Thank you very much, Mr. Chairman. I'll do just 
that.
    Mr. Chairman, Congressman Obey, Congressman Kennedy, on 
behalf of the 13 and a half million working women of the AFL-
CIO, I appreciate the opportunity to address some of the 
concerns the President's fiscal year 2002 budget raises for 
working families. Of particular interest and importance are 
proposals for key worker protection, work development and 
international labor programs. Those are the three that I'll 
focus on.
    Many of these programs, in our opinion, are already 
inadequate to fully protect the rights of working people here 
at home. Program cuts and flat funding will dilute these 
protections even further, with the impact harshest for the very 
workers who need most of the protections.
    If current economic weakening persists or worsens, these 
effects will be magnified. For workers in the global economy, 
program cuts undermine our capacity to promote workers' rights 
and fight child labor and other abuses, efforts central to 
ensuring that trade improves the living standards for all, 
rather than undermines the protections for America's working 
families. We ask you to bear all these concerns in mind as you 
consider the President's proposal for 2002.
    And I'll briefly talk about three of those areas. Worker 
protection. For 2002, the President proposes flat funding for 
the Employment Services Administration, which enforces the 
Nation's wage and hour laws, and for OSHA. These translate out 
into a $6 million cut in ESA and an $11.5 million cut in OSHA. 
We think this is the wrong approach.
    Violations of basic wage and hour requirements remain 
pervasive, especially in low wage industries. In the poultry 
industry, for example, a DOL survey in 2000 found wage and hour 
violations in virtually every surveyed establishment. Similar 
problems exist in garment manufacturing, where one DOL survey 
found violations in two-thirds of establishments in Los 
Angeles, agriculture and industrial laundries and many other 
traditional low wage industries.
    They even exist among workers in the modern economy, such 
as Silicon Valley immigrant workers who assemble circuit boards 
at home on a piece rate basis. The President's ESA funding 
proposals threaten the Department of Labor's oversight of 
working conditions and enforcement of work protections for all 
of these workers.
    Proposed funding levels for OSHA also threaten that 
agency's capacity to ensure workplace safety and health by 
cutting 94 full time staff positions, two-thirds of which come 
from enforcement, and by reducing funding for standard setting 
and worker safety training. In sum, the funding proposals for 
key worker protection programs concern us greatly. At a time 
when a Nation can afford to do so much, we should be investing 
more, not less, in protecting workers' rights.
    In job training, Mr. Chairman, the fiscal year 2002 budget 
would cut over $500 million in training and employment 
services, including reductions in adult, youth and dislocated 
worker programs, the latter having been targeted for a 13 
percent reduction. Ironically, the President proposes to boost 
funding for the unemployment insurance system to handle an 
expected increase in claimants at the same time that he wants 
to cut back on retraining and reemployment programs that would 
help the unemployed return to work.
    We're also deeply troubled by the proposal to eliminate 
national funding for incumbent worker training. It's 
unrealistic to expect State and local programs to pick this up, 
this funding slack up, unless the needs of other workers, 
including the unemployed and the disadvantaged, are to be 
sacrificed. On the international labor program side, the 
President's proposals for DOL international labor programs in 
2002 is $71.6 million. That's less than half of the 2001 budget 
of $148 million.
    It's especially ironic that the President is calling for 
such steep cuts at the same time that he is trumpeting those 
programs as the preferable alternative to trade agreement 
provisos as the mechanism for ensuring international labor 
rights.
    The cuts proposed by the President would seriously, 
seriously reduce the Nation's capacity to combat child labor 
around the world, to provide child laborers with basic 
educational opportunities, to support workplace HIV and AIDS 
programs targeted at youth, to promote the ILO declarations of 
the fundamental principles and rights of work and promote 
workers' rights around the world.
    Mr. Chairman, we believe these cuts are misguided and will 
undermine the efforts of American workers to compete in the 
global economy. We ask this Subcommittee and the full Committee 
to keep the needs of working families in mind during your 
budget deliberations and to fund adequately the important 
worker protection, job training and international labor 
programs on which many families in this country so deeply 
depend.
    Thank you, Mr. Chairman.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Your testimony is timely, we have 
the Secretary of Labor this afternoon before this Committee.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Trumka, I would simply make one observation and ask one 
question. In this tax bill that's working its way through the 
Congress, the cost of providing tax cuts over the next 10 years 
to persons making more than $200,000 a year--the cost of 
refusing to limit the size of their tax cuts to about $7,500 
just from the rate cut alone--is about $280 billion over 10 
years. We're going to toss that kind of money at them. Yet, 
we're being told that we have to cut the Dislocated Workers' 
Program appropriation by 13 percent and international labor 
programs by 50 percent.
     Would you explain what these international labor programs 
do? Would you explain how they work and would you explain why 
they're needed? I find it interesting that an Administration 
that is about to ask Congress for additional authority in the 
trade area is making a 50 percent cut in the program that is 
meant to cushion the blow of globalization on American workers 
because of their increasing vulnerability to products that are 
produced with either slave labor or child labor. Would you 
explain why these programs are not trinkets and why they are 
crucial to the average working person?
    Mr. Trumka. In short, the answer to that question is, these 
programs allow us to identify the most outrageous actions that 
take place around the world, whether it's child labor, whether 
it's forced labor, and allow us to correct them in one form or 
another. To not correct them causes American employees and 
American employers to compete with products in the global 
market that are made and subsidized and actually reward this 
type of child, prison, convict labor or forced labor.
    The other things allow us to monitor work places, for 
instance, to find out abroad who is complying with their labor 
laws and who isn't. We have tried for a significant amount of 
time to get workers' rights as part of every trade agreement, 
because it's our belief that workers' rights should be elevated 
to the same level as intellectual property rights. We've been 
unsuccessful to date.
    Each and every time we're told that we should look to 
another forum. And the forum that is always pointed to is the 
UNDILO. This cut actually slashes in half the program and takes 
any resemblance of seriousness that that claim can make away. 
No one, if this budget is passed with this type of funding, no 
one can seriously say to an American worker, you should go 
elsewhere to protect your rights, you should go elsewhere to 
look for help for a Mexican worker or Chilean worker or 
Brazilian worker, you should go elsewhere. Because this flies 
in the face of that argument.
    Then when you look at things like AIDS and HIV, all of 
those affect us on a moral basis and on an economic basis. The 
spread of AIDS-HIV has been a horrible thing that all of us 
want to eliminate. And we tried that, particularly with you, 
and particularly in some of the African nations, it's a very 
serious problem. But it's growing elsewhere. This would hamper 
our ability to do that.
    The other thing this would do is, we were successful in 
getting a few people, 17 I believe, around the world to work in 
embassies to identify outrageous workers rights and to promote 
workers rights in those areas, so that they could increase 
their standard of living, so that laws were either enforced, or 
if they were inadequate, we as a person in the global economy 
could say they were inadequate, change the laws so those 
workers have a real chance to participate in the global 
economy.
    All of those programs directly impact people here, whether 
it's in the Trade Bill directly with TAA assistance, whether 
it's competing with child labor, whether it's competing with 
people at forced labor, whether it's competing with Colombians 
who have workers truly assassinated. In one of the coal mines 
of Colombia, the president and vice president of the local 
union were being bussed from the home to the work site. The bus 
was stopped, they were taken off the bus and both of them were 
assassinated, shot directly in the head as a message to 
everybody else that if workers stand up for their rights, this 
is the fate that befalls you. We're forced to compete against a 
society that uses that threat to lower their prices and to 
avoid any resemblance of honest, fair treatment and dignity in 
workers.
    Mr. Obey. I think that's an eloquent statement. I think it 
will be a cold day in hell before the average worker in this 
country will be willing to support further trade agreements, so 
long as he sees programs like this that are meant to provide 
them barely minimal protection being shredded by their own 
government.
    Mr. Trumka. We would very much like to be able to support 
those trade agreements. But we would like for those trade 
agreements to be fair to workers on both sides of the border. 
And when we're told to go to the ILO, and then first of all, we 
don't adopt here at home any of the ILO standards that protect 
workers and then the meager funding that there is is slashed in 
half, I think it speaks forcefully to the American worker 
about, is that truly an avenue, or is that just a convenient 
way to deflect us.
    This truly highlights and makes it irrefutable that that 
avenue is a means to deflect us, not to protect our rights.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Thank you for coming.
    Just off the record, you were in mining, did you work in 
the mines?
    Mr. Trumka. Yes, I did, seven and a half years.
    Mr. Regula. Open pit or what type?
    Mr. Trumka. Deep mines in southwestern Pennsylvania. And 
Mr. Chairman, it's been my experience, when there's a downturn 
in the economy that the first place that employers, 
particularly mining employers, attempt to cut is in the health 
and safety area.
    Mr. Regula. Yes.
    Mr. Trumka. If you look at the last time, we had a downturn 
in both of our States.
    Mr. Regula. Right.
    Mr. Trumka. You saw that the downturn was preceded by a 
rash of belt line fires, people being killed, people being 
crippled and lost production facilities. At a time when our 
country needs as much energy as we can get, I think that's the 
wrong thing for us to be advocating.
    Mr. Regula. I was curious, my dad was a farmer, but he was 
also involved in a drift mine. I used to go back in there, and 
the closest I ever got to a pony was that animal that pulled 
the cars out to dumping tipple. So that's kind of a dangerous 
business, when you get right down to it, the point that you 
make. And I see, in China they've trapped a large group of 
miners. There's always that threat.
    Mr. Trumka. It's horrible what's happening, the lack of 
mine safety in China, the lack of safety in the workplace in 
China.
    Mr. Regula. Do you get any opportunity to communicate to 
countries like the Chinese, some decent standards and ideas on 
safety?
    Mr. Trumka. It's difficult, because as you well know, the 
representatives that they send to all the international events 
that are supposed to be worker representatives are really not 
worker representatives. So we talk to them about health and 
safety. We have American companies that attempted to go over 
there one time and create mining, but they've never caught on 
to the notion that the value of a human life was more important 
than a pound of coal.
    Mr. Regula. Well, thank you very much for your testimony.
                              ----------                              

                                             Tuesday, May 22, 2001.

                        COMMUNITY HEALTH CENTERS


                                 WITNESS

 PATRICIA DIETCH, PRESIDENT AND CEO, DELAWARE VALLEY COMMUNITY HEALTH, 
    INC.
    Mr. Regula. Patricia Dietch, President and CEO, Delaware 
Valley Community Health. Thank you for coming. Your statement 
will be put in the record, we'll appreciate your observations.
    Ms. Dietch. Thank you, Mr. Chairman, Mr. Obey. I'm Patty 
Dietch, I'm as you said, President and CEO of Delaware Valley 
Community Health in Philadelphia, Pennsylvania. I'm happy to be 
here today to represent the National Association of Community 
Health Centers and the millions of patients who get their 
medical care in health centers across the country.
    I want to start by thanking Congress and this Committee for 
your past support and let you know how much it's appreciated, 
that the past increases that have been awarded to community 
health centers have not gone unnoticed by those of us who try 
to keep them going and those of us who work in them and by our 
community boards and the patients who get their care there.
    I'd like to take a moment to tell you about how some of 
those past increases are used, from our experience. In 1999, 
Congress awarded a $94 million increase for community health 
centers. My organization applied for and received an expansion 
grant. And we moved into a suburban, actually an affluent 
suburban county, a suburban county of Philadelphia that has, 
their county seat is an old industrial town that has a lot of 
poverty pockets, economically depressed, because most of the 
industry had left the town. We identified a group of mostly 
minority low income patients who had very poor health status 
indicators and little or no access to health care.
    So we received this grant, and we projected that we would 
approximately serve about 1,600 patients. In the first year 
alone, we had 2,200 patients, over 7,000 medical visits. These 
are people who are working poor, who work in service jobs, in 
restaurants and landscaping, temporary construction jobs, 7-11, 
people who work but work in low paying jobs where they don't 
have employer sponsored health care plans. As a matter of fact, 
83 percent of the people who come to the center do not have 
health insurance.
    These people, because they haven't received medical care in 
a long time, some of them 10 years, are very expensive to work 
up and treat. They require a lot of diagnostic tests, they have 
multiple problems that when you first get them, it takes a lot 
to get them managed, people who would have probably waited 
until they got catastrophic illnesses and went to the emergency 
room. So this center, by everyone's measure, has been a 
success. I think that you'll see opportunities for that all 
over the country.
    So far this year, there's 100 applications that have been 
received to expand health center sites, and almost 500 that 
have been submitted to add services to existing sites. Even the 
$150 million increase that we received last year, only half of 
these applications could be funded with that increase. And this 
year, we're starting in a new position for us, the President 
has made health centers a priority, and both President Bush and 
Health and Human Services Secretary Thompson have been very 
supportive of community health centers. The President has 
pledged to double the number of patients served by health 
centers over the next five years. And also, he has called to 
increase the number of new sites by 1,200 in 2006.
    Last year, health centers served over 11 million. Forty-two 
percent of them have no health insurance. Although already, 
health centers are the most efficient and effective providers 
in the country, serving each patient for just over $1 a day. 
When I learned that statistic, I did my own health center and 
we're actually below that. So I was pretty proud of that.
    In order to double the number of patients served over the 
next five years, NACHC has calculated that next year, health 
centers would have to serve an additional 1.65 million 
patients. If you add that up, that's a cost of $175 million 
increase. I understand that this is an ambitious goal that the 
President has set, and we're ready to meet it, how and ever we 
can.
    We continue to see an increasing number of 
uninsuredpatients in our health centers. In my organization in the last 
five years, the percentage of uninsured has grown from 11 percent to 43 
percent, just since 1996. And now with the spotlight placed on the 
program by the President, I expect we will see more uninsured patients 
finding health centers and increasing our patient loads.
    Mr. Chairman and Mr. Obey, I work at health centers because 
I'm really committed to serving those less fortunate and to 
ensure that all people have access to high quality primary 
health care, and they really receive it at health centers. I 
think it's unparalleled, the kind of care that they get. We're 
extremely pleased with the President's call to double the 
number of patients seen in health centers in the next five 
years, but it's going to be difficult to achieve if the 
funding, the dollars say that even this year we're going to 
need $175 million just to start to get there over the five 
years.
    So that's what we're here to say, is that we appreciate 
your support and it's been greatly appreciated by the millions 
of people and those of us who keep these centers open every 
day. Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think they are great programs.
    Mr. Obey.
    Mr. Obey. You say that the President has made funding of 
community health centers a high priority. I'd like to examine 
that statement a little bit.
    Last year, as you know, we provided an $150 million 
increase. Even with that, only half the applications were 
funded. Now the Administration is proposing an increase, not of 
$150 million as we had last year, but $124 million.
    I told the story in this Committee a week ago about a woman 
I met about two months ago who was not fortunate enough to live 
in an area where they had centers. I went to announce the 
creation of a dental clinic in this four-county low-income 
area. I met a young woman who was on Medicaid. Only about half 
the dentists in those four counties would even take Medicaid 
patients. And those who did take Medicaid patients would take 
no new ones.
    She had a child who needed to have the braces removed from 
his teeth. She looked for a long period to try to find a single 
dentist who would take those braces off. After calling 30 of 
them, she could find not a one. So she held the kid down while 
the father took the braces off with a pair of pliers.
    How many more health centers could be provided, and how 
many more people could be provided service, if the President's 
budget this year provided the same dollar increase that we had 
in the budget last year, namely $150 million rather than $124 
million that's in the President's budget?
    Ms. Dietch. Well, I'm not sure I can do this math in my 
head, but $175 million would be 1.6 million additional 
patients. So a little over a million more patients for $150 
million, 1.2.
    Mr. Obey. We have 40 million Americans without health 
insurance. At that rate, it will take about 40 years before we 
can get them covered by health centers, right?
    Ms. Dietch. That's true.
    Mr. Obey. Probably every member of this Committee and this 
Subcommittee will be pushing up daisies at that point, Mr. 
Chairman.
    Mr. Regula. Yes, probably.
    Mr. Obey. Thank you.
    Mr. Regula. Thank you for coming. I'm curious, is your pin 
of significance to community health centers? I sort of thought 
it might be, given the configuration?
    Ms. Dietch. No, I'd like to tell you that it is, but it was 
really just a gift from someone where I left a former job, and 
she bought it in a department store. It didn't come from 
Colombia, I probably should make up a better story. But it's 
really true.
    Mr. Regula. It indicates people helping people, and our 
reliance on each other.
    Ms. Dietch. Yes, and they're multicultural.
    Mr. Regula. That's very much what a community health center 
is.
    Ms. Dietch. Absolutely.
    Mr. Regula. A lot of volunteers, people helping people.
    Ms. Dietch. Actually, and a lot of usages of other Federal 
programs. My organization participates with the Senior 
Reemployment, the Older Americans Act, we have seniors who are 
trying to re-enter the work force come to us as volunteers, 
we've hired a couple of them, AmeriCorps, I mean, we utilize a 
lot of people.
    Mr. Regula. I think it's a great program. I hope we can do 
more.
    Ms. Dietch. Thank you.
                              ----------                              

                                             Tuesday, May 22, 2001.

                             PUBLIC HEALTH


                                WITNESS

ANTHONY ROBBINS, M.D., CHAIR, DEPARTMENT OF FAMILY MEDICINE AND 
    COMMUNITY HEALTH, TUFTS UNIVERSITY SCHOOL OF MEDICINE
    Mr. Regula. Dr. Anthony Robbins, you get the blue ribbon 
for patience this morning. I'm sorry we couldn't get to you 
sooner, but as you can tell, there was a lot of testimony.
    You're the Chairman of the Department of Family Medicine 
and Community Health--where, it doesn't tell me.
    Dr. Robbins. I'm sorry. It's at Tufts University in Boston, 
Massachusetts.
    Mr. Regula. Okay. And you want to talk about public health.
    Dr. Robbins. I'd like to talk about public health. I spent 
most of my career in public health, in government, State and 
Federal. Actually before I go to the core of my statement, 
perhaps I could just say to you how sad it is to be in front of 
this Committee without Silvio Conte here. He was a great 
advocate for public health and we miss him.
    The President's budget that you're considering today is 
problematic for efforts to improve the health of Americans. I 
want to make just two key points and then a lot of the 
illustrations are in my written testimony and we can go to 
those questions if you'd like.
    Expansion at NIH has great merit. But to expand NIH alone 
is shortsighted public policy. It's already clear that many 
Americans are not in a position to benefit from scientific 
advances in medicine and public health. The budget will 
increase the likelihood that under-served citizens, the 
elderly, the needy, and rural Americans will never benefit 
fully from NIH research.
    As we saw last week with the introduction of this new 
leukemia drug, when we rely on commercial firms to exploit 
research results borne of Government investment, lifesaving 
products may be beyond the financial reach of many Americans. 
Investment at NIH must be balanced with full drug coverage 
under Medicare and expansion of health programs to help the 
under-served.
    And that point really refers particular to the programs of 
HRSA and to the programs of the Substance Abuse and Mental 
Health Services Administration. That's point one.
    The second point refers to how public health works in our 
Federal system, where protecting the health of the public is 
principally in the domain of States. But we have wisely built 
federal programs that now provide the critical glue that holds 
State public health efforts together. Any weakening of the 
Federal public health programs will be far more damaging than 
the reduced Federal budget numbers might indicate. State and 
city programs will not be able to provide adequate protection 
for their people against tuberculosis, lead poisoning, or 
asthma, for example. We in New England, where we've been 
dealing with the West Nile virus problem will probably not have 
the resources we need.
    If you look at the history of this, since the Michael 
Debakey Commission on Heart Disease, Cancer and Stroke reported 
in 1965 that the benefits of biomedical research were not 
reaching all Americans, the gulf between investment and 
research and the application of the results has actually 
widened. Since that time, there is a wide body of evidence that 
early detection and intervention can reduce the burden of 
illness and disability on our aging population. As a 
consequence of our failure to assure the broad distribution of 
health advances produced by NIH research, many Americans, 
particularly the poor, those who live in rural areas, and the 
elderly, become sick and disabled and die unnecessarily.
    Two health agencies of the Department of Health and Human 
Services, HRSA and SAMHSA, define their mission in terms of 
improving health and services for under-served Americans. To 
the life saving programs of these two agencies the President's 
budget would inflict serious damage. Then in the written 
testimony I describe what happens in the community access 
program and the rural health program, the Bureau of Health 
Professions, Maternal and Child Health Block Grant and Ryan 
White, poison centers and the mental health grants to 
communities.
    I follow a witness who has spoken about the increase of 
10.6 percent for the community and migrant health centers. And 
the President is to be commended for that. But that represents 
only a small part of the overall HRSA budget which would 
decline overall, including the increase for health centers, by 
10.4 percent.
    At SAMHSA, the targeted capacity program to which a small 
amount of money has been added isn't growing nearly rapidly 
enough. The agency itself estimated that 2.9 million people are 
left out in terms of getting services from this program, from 
these targeted areas. Yet the budget would cover 17,000 new 
people or only .06 percent of what the agency says is needed.
    Now, let me go to the Centers for Disease Control and sort 
out the constitutional issue that States retain the prime 
responsibility for protecting and improving the health of their 
people. State health departments delegate some of their 
responsibility to city and local health departments. I used to, 
when I was a State health officer, first in Vermont and then in 
Colorado, I was always reminding the Feds, as we called them, 
that we in the States have the prime responsibility.
    But in truth, in modern society, threats to health have 
outgrown the capacity of State and local health departments to 
respond without Federal help. Pathogens and toxic chemicals 
cross borders. People cross borders. And public health 
responses must as well. The Federal Government has responded 
very well historically, with important assistance, help in 
gathering data and surveillance, laboratory supportto stay 
ahead of threats to health, and would help building capacity and 
purchasing power, and help developing new programs where the science 
has made it possible.
    The Centers for Disease Control and Prevention have grown 
to become the critical Federal public health assistance 
program. Yet CDC's overall programs are being cut back in a 
number of areas. The chronic disease and health promotion 
program would be cut back by $174 million in the proposed 
budget, cutting back on cervical and breast cancer screening, 
heart disease and stroke, the diabetes program and many others.
    There's new technology that is finally letting us look at 
environmental hazards by seeing how people are exposed. Yet the 
Center for Environmental Health would see a diminution in its 
budget.
    Vaccine purchases, which have become a very important part 
of Federal assistance to States, I guess it goes up a little 
bit, but the fact is that the cost of vaccines to vaccinate one 
child fully will almost double next year because of the 
addition of a wonderful new vaccine that comes out of NIH 
research. The pneumococcal vaccine, which is effective against 
one of the major causes of meningitis, and the blood borne 
pneumococcal infections in infants, costs a lot of money. And 
the new budget does not incorporate enough funding to continue 
to cover the same number of kids with these vaccine purchases.
    I mentioned asthma, where we have a national epidemic and 
where in fact we're finally getting a handle on it, and yet 
that program is cut back. And finally, the Prevention and 
Health Services block grant is reduced.
    I urge you, and maybe this is another one of those cases 
where creativity will be needed, but I urge an expansion in the 
health programs in the rest of the Department of Health and 
Human Services, especially CDC, HRSA and SAMHSA, comparable to 
that that has been proposed by the President for the National 
Institutes of Health.
    Let me conclude with a story. About 25 years ago, I was a 
brash young State health officer, State health commissioner in 
Vermont. I joked with the head of our appropriations committee 
in the State house of representatives, and I told him that the 
budget that he was proposing for me, that there wasn't a heck 
of a lot I was going to be able to do about a variety of 
avoidable problems, and that I might just have to sit back and 
name the outbreaks and epidemics after the members of the 
committee.
    Now, Em Hebard was really very supportive and used my joke, 
I guess, to help bring the budget up to a reasonable level. I 
guess I would conclude by hoping that you can do as well by my 
colleagues in the Public Health Service and for the people of 
the country. Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do we get to pick our disease?
    Dr. Robbins. Oh, I guess so. [Laughter.]
    Mr. Obey. Tony, good to see you. Just a couple of 
questions.
    First of all, would you expand on what this new PCV 
vaccine? Would you give us a little more information about what 
would happen in terms of numbers of kids who would actually be 
covered by all the vaccines they need if we stuck to the 
President's budget? How many kids are going to be left out?
    Dr. Robbins. Well, I can only, I can guess----
    Mr. Obey. Why is it important?
    Dr. Robbins. Let me go back to the vaccine, because this is 
a very good story. We have had in the last 20 years three major 
vaccine successes. All the other vaccines are older than that. 
But first there was the hepatitis B vaccine and now hepatitis A 
vaccines. These were developed out of research efforts and 
brought to market and included in the universal vaccine 
programs.
    The most magnificent success was the hemophilus influenza B 
vaccine, where essentially this disease, which was the most 
common form of meningitis in children, virtually disappeared in 
this country. Now we're succeeding similarly in the rest of the 
world.
    The most common remaining cause of meningitis in young 
children is streptococcal pneumoniei, the organism that causes 
pneumococcal meningitis. And interestingly enough, the old 
vaccine that was effective in adults has been around for a long 
time. It was developed many, many years ago and the technical 
advance was producing something that would make it immunogenic, 
would produce an immune response in children.
    When that was done, they then had to produce a vaccine that 
covered seven different strains of pneumococci. And in doing 
that, this became a very expensive vaccine, sufficiently 
expensive so that I'm told that next year's price, this vaccine 
will cost as much as all the other vaccines together have been 
costing under the CDC purchase program.
    That meant in effect, if you were just going to keep the 
same number of children protected you were going to have to 
double the allocation. I think, if I remember the numbers, it's 
up by $73 million or about a third of the increase that would 
be needed to keep pace with immunization.
    CDC provides by bulk purchases, by making contracts with 
the vaccine manufacturers, I believe it's 11 States, 6 in New 
England plus 5 others that buy all of their vaccines for all of 
their children, and then the other States which buy a smaller 
number for the under-served, for the uninsured. This has become 
critical to every immunization program in the country.
    These programs are essentially surveillance, so you know 
where you've got the disease and you know how good the coverage 
is, organization so that you make sure that everyone is coming 
into health centers and health plans to be immunized, and the 
support of certain personnel and the purchase of vaccines. 
They've been magnificently successful.
    Mr. Obey. Thank you. I noticed in public polling, Mr. 
Chairman, that there's a strange gap in the public 
understanding of the Public Health Service and the public 
health agencies. When you use the term public health, what 
many, many Americans think you're talking about is health care 
delivered to the poor--Government health care for poor people. 
They don't realize that what the public health service does is 
to try to protect the health of the entire American population 
from serious diseases.
    I think if we could just find a way to make that change in 
people's heads it would be a whale of a lot easier to get 
support for some of these programs.
    Dr. Robbins. I'm even reminded that when you go into 
building one of NIH that the plaque on the wall describing the 
mission of the institutes includes public health. It is not 
simply to produce products and advances for the medical care 
system. That's the problem for the under-served and the poor. 
As we get new advances, it makes it to us, they make it to us 
middle class people. But without the HRSA program, without the 
kind of emphasis on screening and advances for diabetes 
treatment that CDC is pushing so effectively now, this doesn't 
make it to the under-served portions of the population.
    Mr. Obey. Thank you.
    Mr. Regula. Thank you, and we appreciate your patience. 
Very worthwhile information.
    The subcommittee will be in recess until 2:00 o'clock.
    Dr. Robbins. I should thank the staff, because I've been 
where you are, and you stuck it out, too.
    [The following statements were submitted for the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                              ----------                              

                                         Wednesday, March 21, 2001.

   TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS 2002 BUDGET

                                WITNESS

DR. RENEE JENKINS, PROFESSOR AND CHAIRMAN, DEPARTMENT OF PEDIATRICS AND 
    CHILD HEALTH, HOWARD UNIVERSITY COLLEGE OF MEDICINE
    Mr. Regula. Let us get started. We have a lot of witnesses 
today, so we want to move right along. We are sorry we cannot 
give you more time, but that is the way it is. You won the 
lottery or you wouldn't even be here because our requests for 
testimony are about double what we are able to accommodate, but 
it is very helpful to even have a brief statement to give us an 
opportunity to understand--especially for me because I don't 
have time and I hate to tell you this but I am not going to be 
able to read all your statements completely. That is the 
staff's job and I am not even sure they will get through the 
whole thing but we will try as much as possible to evaluate all 
the testimony that is presented. These topics are very 
important on every subject, are of great interest and affect a 
lot of people. We understand that very well.
    We have the little boxes there that the green light will 
go, then there will be an amber light which means you have a 
minute and a half to wrap up and then the red light which means 
stop. Francine has a little buzzer that goes off, she is the 
enforcer. It is a challenge to get through these and we want to 
give everyone a chance.
    Sometimes we will have a few questions. I often have a lot 
of questions but we just don't have time to get into depth with 
all of them. All of these topics are very interesting and more 
importantly, they affect the lives of people. We want to do the 
best job we can in allocating the resources to achieve 
hopefully successes and meeting some of the challenges of the 
illnesses and diseases that confront us.
    First we have Education. Some of you will be here on 
education. I just saw a poll the other day that said among the 
American people, education is the number one issue and close 
behind it is health. These are subjects that are very important 
to people.
    With that, we will get started. Our first witness today is 
Dr. Renee Jenkins, Professor and Chairman, Department of 
Pediatrics and Child Health, Howard University. I would like to 
welcome you.
    Dr. Jenkins. Thank you.
    I am Renee Jenkins from Howard University. I have been 
practicing in the Washington community for 25 years. I am also 
the President of the D.C. Chapter of the American Academy of 
Pediatrics. On behalf of the American Academy of Pediatrics and 
our pediatric and adolescent endorsing organizations, I would 
like to thank the Subcommittee for the opportunity to present 
this statement.
    Today, children are generally healthier now than they were 
only half a generation ago. According to recent reports, the 
national infant mortality and child death rates and the 
percentage of children living in poverty have all declined and 
immunization coverage rates for infants and toddlers have 
increased. However, despite these significant improvements, 
there are still over ten million children and adolescents who 
remain uninsured. Moreover, racial and ethnic health 
disparities for many children and adolescents continue to 
exist. We, you and I, both have more to do.
    As a clinician, I must work hard with my colleagues to not 
only diagnose and treat our patients but also to promote strong 
interventive interventions, to improve the overall health and 
well being of all infants, children, adolescents and young 
adults. Likewise, as a policymakers, you, along with your 
colleagues, have an integral part to play to improve the health 
of the next generation through sustained and adequate funding 
of vital Federal programs that support these efforts. I am 
going to speak on three issues particularly--access, quality, 
and immunizations.
    Under access, as a child and adolescent health clinician, 
we believe that all children and adolescents deserve and should 
have full access to quality health care, from the ability to 
achieve primary care for the pediatrician trained in the unique 
needs of children to timely access to pediatric medical 
subspecialists and pediatric surgical specialists should the 
need arise. Today, federally supported initiatives such as the 
Maternal Child Health Block Grant, Title X Family Planning 
Services and the Health Professions Education Training Grants 
are for many communities their only access to health care. We 
urge you to ensure that these and other important child and 
adolescent health programs receive sustained and adequate 
funding in fiscal year 2002. Of equal importance to access to 
care is an equitable Federal investment in the training and 
education of the Nation's future pediatricians, clinical and 
scientists, particularly in independent teaching hospitals. A 
bipartisan Congress has recognized in the last two years, and 
you have personally supported, maintaining adequate funding to 
continue the education research programs and delivery of health 
care in these child and adolescent-centered settings is 
imperative.
    Under quality, access to health care is only the first step 
in protecting the health of all children and adolescents. We 
must make every effort to ensure that the care provided is of 
the highest quality. Robust Federal support for the wide array 
of quality improvement initiatives is needed if this goal is to 
be achieved. Leading the effort to develop and implement the 
highestquality of care through research and better application 
of science is the agency for Health Care Research and Quality and the 
NIH, National Institutes of Health. Together, these agencies provide 
not only scientific knowledge and basis to cure disease, improve the 
quality of care, but also support emerging critical issues in health 
care delivery. They also address the particular needs of priority 
populations like children and adolescents.
    Continued Federal sustainable funding for health research, 
including pediatric research in the face of new challenges and 
new technology is essential to continued improvements in the 
quality of America's health care.
    Over the years, NIH has made dramatic strides that directly 
impact on the quality of life for infants and children. I am a 
recipient of an NIH grant that has definitely shown in a 
controlled study that one can effectively postpone and reduce 
early sexual involvement in young girls which is important to 
the issue of adolescent pregnancy prevention. We are now using 
the results of this research to pilot a program to educate and 
support parents in their efforts to work with children. We join 
the medical research community to support the fourth 
installment in the doubling of the NIH budget for fiscal year 
2003.
    Under immunization, pediatricians working alongside public 
health professionals and other partners have brought the United 
States its highest immunization coverage levels in history. As 
a result, disease levels are at or near record low levels. 
However, the public health infrastructure that now supports our 
national immunization efforts must not be jeopardized with 
insufficient funding. One of the conclusions of the June 2000 
Institute of Medicine report ``Calling the Shots,'' was that 
unstable funding for State immunization programs threatens 
vaccine safety and coverage levels for specific populations. 
For example, adolescents continue to be adversely affected by 
vaccine preventable diseases such as chicken pox, Hepatitis B, 
measles and Rubella. Comprehensive adolescent immunization 
activities at the national, State and local level are needed to 
achieve national disease elimination goals.
    As a pediatrician who sees adolescents, immunizations were 
generally thought to be a less critical issue in this age 
group. However, the recent college outbreaks of meningococcal 
meningitis which is a life threatening infection of the brain 
and spinal cord have made us much more aware of the need to be 
vigilant about immunization protection even in this age group. 
While the ultimate goal of immunization is clearly the 
eradication of disease, the immediate goal must be the 
prevention of disease in individuals or groups. To this end we 
strongly believe that the continued investment in the efforts 
of the Centers for Disease Control and Prevention must be 
sustained and increased.
    In conclusion, I thank you for this opportunity to provide 
our recommendations for the coming fiscal year. We look forward 
to working with you as the new Chair of this important 
subcommittee, and I would like to personally invite you to the 
Department of Pediatrics at Howard University so that you can 
see child and adolescent health care at work. As this 
subcommittee is once again faced with difficult choices and 
multiple priorities, we know that as in the past years, you 
will not forget America's children.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    With a couple of small grandchildren who live down the road 
from me in Ohio, I have heard a lot about pediatricians.
    We are happy to have our colleague from California, Mr. 
Duke Cunningham. For those of you who don't know, Duke was the 
only Air Force ace in the Vietnam war, so he is not only a 
skilled legislator, he was a very skilled pilot, and is a very 
valued member of this committee.
    Duke is going to introduce our next witness, Carolyn Nunes 
from San Diego. That is your home city, isn't it, Duke. You 
have quite a family of educators, don't you?
    Mr. Cunningham. Dr. Nancy Cunningham. I have two built-in 
lobbyists right at home.
    Mr. Regula. Duke takes care of education.
    Mr. Cunningham. I was a Navy pilot, not an Air Force pilot.
    Mr. Regula. And I am a Navy man. I really missed up that 
one.
    Mr. Cunningham. Thank you, Mr. Chairman.
    I see my colleague, Frank Purcell in the audience. I think 
you are probably here with the nurse anesthetists, Frank.
    My wife has her doctorate degree in Education. The witness 
I am going to introduce is the sister of my wife, my sister-in-
law in charge of Special Education in San DiegoCity Schools. 
She works for Alan Bursin, who was a Clinton appointee in the border 
and now is the Superintendent. I want to tell you he has my full 
support.
    What Carolyn is going to talk about a little bit today is 
not just special education but education reform in five 
minutes, and talk about what we are trying to do.
    Alan Bursin is supportive of many of the Bush initiatives 
for the reform of education. I am very, very proud to support 
her boss, the Superintendent, Alan Bursin.
    Carolyn testified before the Oversight Committee a couple 
of weeks ago on special education. She is here today to do the 
same thing. I have seen her cry when she can't help students 
with special needs. Now she is an administrator but she spent 
23 years in the field of education and is trying to breach the 
gap between schools and the parents to make sure the parents' 
special needs are met with their individual children, but on 
the other hand, trying to breach that the school systems are 
not bankrupted by the local trial lawyers that are ripping off, 
in my opinion, the school systems and the parents.
    There are only two areas in which we should have caps. One 
is trial lawyers and the other I will leave to you to decide 
what it is.
    Carolyn has been a special education teacher and an 
administrator. This is the second year of implementation of the 
blueprint for student success that her boss, Alan Bursin, has 
presented. I want to tell you that on the D.C. Committee we 
capped lawyer fees. To give you an example, we saved $12 
million. Instead of going to lawyers, it went to the children 
with special needs. We have done that for two terms.
    We hired 23 special education specialists, speech 
pathologists, hearing specialists, sighted specialists, and I 
want you to listen very carefully because we need a change in 
special education. Carolyn is the expert in all of San Diego 
City schools to bring that to you.
    It is my honor to introduce my sister-in-law, Carolyn 
Nunes.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

CAROLYN NUNES, SPECIAL EDUCATION PROGRAM MANAGER, SAN DIEGO UNIFIED 
    SCHOOL DISTRICT
    Ms. Nunes. Thank you.
    Today, my testimony focuses on some needed reforms to 
special education law and services in San Diego Unified School 
District and the Nation's school districts. Large scale reform 
efforts are not unfamiliar to San Diego City Schools. 
Currently, the District is in its first year of implementation 
of the Blueprint for Student Success. The reform strategies 
included in the blueprint are designed to improve teaching and 
learning for all students, including special education students 
while ending the practice of social promotion. Initial test 
score data indicates student performance is improving but much 
work remains to be done to successfully implement this program 
districtwide.
    For local reform efforts like the blueprint to continue to 
succeed, the reauthorization of the Elementary and Secondary 
Education Act and IDEA must make changes consistent with local 
reforms and provide the necessary funding to support change. 
The San Diego Unified School District currently serves over 
142,000 students in over 184 schools. Of those, over 15,000 
students have active IEPs and receive special education 
services; 92 percent of the special education current budget 
provides direct instruction and support for students with 
special education services. The following addresses some of our 
current issues regarding special education, IDEA, and funding 
as well as our recommendations for possible solutions.
    Nationally, we have witnessed an alarming increase in the 
number of students with autism. Families are bombarded with the 
latest and new forms of treatment for autism. All who view and 
read this information in the media make assumptions that all 
such services are research based and conform to best practice. 
There are a variety of instructional strategies and 
methodologies that are available. As educators, we realize that 
using only one instructional strategy for all students is not 
appropriate. More emphasis must be placed in the area of 
research in the educational approaches which will promote 
student achievement based on the student's ability and 
independence. School districts are currently finding the need 
to retrain teachers in strategies and techniques used with 
students with autism. We would recommend the development of 
special grants for the purpose of ongoing professional 
development for the training of certificated and classified 
staff in the field.
    Today, multiple agencies are funded by Federal dollars for 
providing services to students with special needs. Each of 
these agencies are under different rules and differentsystems. 
Although these agencies have a common purpose to provide services for 
students, these systems become a barrier. At times, although with good 
intentions, Federal laws will frequently promote a system of 
disconnect. Although Congress placed limitations on the recovery of 
attorneys' fees in the 1997 IDEA reauthorization, little has been done 
to reduce the significant roles such fees continue to play in the 
decisions that school districts and even parents make regarding 
educational programs for children with disabilities.
    An early independent review without all the formal 
requirements of a due process proceeding may temper each side's 
expectations and lead to a quicker and fairer resolution. I 
suggest mandating school districts to participate in alternate 
dispute resolution and all due process proceedings and reduce 
reimbursement of attorneys fees proportionately for parents who 
refuse to participate. Today, significant amounts of program 
monies are spent on independent educational evaluations. These 
evaluations are conducted at the request of parents when they 
disagree with the result of the school district evaluation. 
Under IDEA and its regulations, the school district must 
initiate due process proceedings and its associated costs to 
avoid paying for an independent evaluation. School districts 
have little economic incentive to request due process in 
challenging independent educational evaluations when such an 
action would prove costlier than paying for the evaluation. In 
my experience, special education has resulted in a system 
driven more by the need to comply with numerous requirements of 
both Federal and State laws and regulations than by the genuine 
educational needs of children with disabilities.
    The California Department of Education has developed a 
process of sanctioning school districts who do not meet the 
zero tolerance level of compliance with timelines for review of 
annual IEPs or three year reevaluations. This system does not 
provide for reporting extenuating circumstances that prevent us 
from meeting timelines. While our district has made great 
strides in electronic capture of information regarding the 
status of students receiving special education, 100 percent 
compliance is difficult to achieve. Requests for data 
collection and reports by various agencies at the national, 
State and local levels impose a strain on the district's 
ability to provide information in a timely manner.
    Our recommendations are as follows. Data collection should 
be allowed to report the extenuating circumstances that prevent 
timelines from being met. Definitions regarding placement 
settings, disability categories, designated and related 
services should be consistent across agencies. Data 
repositories should be developed that can be access by any 
interested agency from a central location. Thresholds of 
compliance should reflect the percentage of students reported. 
Special education reform cannot be done in isolation. While 
increased IDEA funding may reduce encroachment from the 
district's general fund, it is necessary to support local 
reform through augmenting other programs in the education 
budget. It is essential to support successful districtwide 
reform efforts that narrow the achievement gap while focusing 
on enhancing the education for all students.
    On behalf of the San Diego Unified School District, we 
appreciate the opportunity to comment on these issues and would 
offer any assistance.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you think these regulations should be 
implemented by the Department of Education rather than a 
statutory requirement in the law?
    Ms. Nunes. Yes.
    Mr. Regula. Questions?
    Thank you very much. It is a very important program to a 
lot of parents and to their children. Hopefully, we can meet 
the challenge of funding.
    Mr. Cunningham. Thanks, sis.
    Mr. Regula. Next Ms. Northrup will introduce Dr. Stevan 
Kukic, a Member of the Board of Directors, National Center for 
Learning Disabilities. I might say Ms. Northrup is a valued 
member of this committee and very involved in education matters 
in the City of Louisville, Kentucky, and brings a broad range 
of experience as we deal with the difficult education issues.
    Ms. Northrup.
    Ms. Northrup. Thank you.
    It is my pleasure to introduce today Stevan Kukic of the 
National Center for Learning Disabilities. Dr. Kukic is 
currently the Vice President of Professional Services, Soppers 
West Education Services in Longmont, Colorado, a former 
Director of At Risk and Special Services for the Utah State 
Office of Education for 11 years. His office provided 
supervision for all special education services delivered 
tostudents with disabilities.
    Dr. Kukic has also provided leadership for services for 
students at risk, Title I, migrant education correction, youth 
in custody, homeless, drug and alcohol and vocational special 
needs. In addition, he has served on many national advisory and 
editorial boards and is Past President of the National 
Associations of State Directors of Special Education.
    Finally, he has been a member of the National Center for 
Learning Disabilities' Board of Directors since 1996 and on the 
NCLD's Professional Advisory Board since 1992.
    Dr. Kukic will talk about the subject that is especially 
important to me and to us all, how do we help young children 
develop the skills they need to have to be ready to read.
    Dr. Kukic.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

DR. STEVAN KUKIC, MEMBER, BOARD OF DIRECTORS NATIONAL CENTER FOR 
    LEARNING DISABILITIES
    Dr. Kukic. Thank you.
    It is my pleasure to be with you this morning. Thank you, 
Ms. Northrup, for that great introduction. All of us are keenly 
aware if we could get to problems early, we save money and we 
solve problems in more profound ways. The National Center for 
Learning Disabilities has dedicated itself through its mission 
to make certain that we do intervene as early as we possibly 
can with research based practice and that we do that so people 
with learning disabilities can achieve their fullest potential. 
That is our mission.
    With that in mind, we are pleased to introduce to you this 
possibility that you would endorse our Get Ready to Read 
Initiative that we have begun. This initiative is a national 
screening program to be used by parents of young children as 
well as early childhood professionals who want to promote early 
reading and school success. The initiative seeks to ensure that 
these people have research based, easy to use tools to be able 
to get a better handle on the kinds of problems young children 
have that could cause them later difficulties in reading in 
school. We believe at NCLD if we can accomplish the task of 
this initiative, we will give people the ability to be able to 
assess what children are experiencing in their young lives, to 
recognize those behaviors that will link to resources that will 
be able to help those children and the people who deal with 
them to be able to have those kids be successful.
    It is interesting that even with all the work we are doing 
in this era of standards based reform, still 30 to 40 percent 
of our Nation's fourth graders still do not know how to read. 
There is a wide variety of testing measures that are being used 
to try to deal with this. What is wonderful is that through the 
good work that has been done by the National Institutes of 
Health and especially the National Institute for Child Health 
and Human Development, we have begun to uncover what the 
precursors are to success in reading and school. That research 
has told us that there is a high correlation between the 
quality of early language and literacy interactions and the 
acquisition of linguistic skills necessary for reading. That is 
a very profound piece of research that should be affecting what 
everyone does in relationship to children, and is beginning to. 
It is an interesting note; parents who have children with 
special needs often they wait to get services. There was a 
recent study that suggests that 40 percent of parents wait a 
year or longer before they get some help. If you think of what 
you know about young children, waiting a year or longer is a 
real dilemma.
    Seventy-five percent of children who are not identified as 
having problems and having intervention by the age of nine will 
continue not to be able to read when they leave high school. So 
there is a need for research based screening and assessment and 
a number of complementary efforts have helped to produce the 
prelude to this initiative.
    Congress has supported a number of ongoing literacy 
programs to help improve the ability of children and adults in 
relationship to this issue. The national education goal of 
having all preschool kids ready to enter school and ready to 
learn has also been of value. It sets the stage for what we are 
trying to do in this Get Ready to Read Initiative. Early last 
year with leadership from Representative Ann Northrup and 
Senator Thad Cochran and NICHD, we recruited a team of experts 
to develop this screening tool. The tool was developed under 
the leadership of Grover Whitehurst and Christopher Lonigan who 
worked closely with NCLD staff and advisors and a 20 item 
screening tool was developed. It was developed using a great 
process of validation wherein a set of items were correlated 
with a well accepted goal standard assessment tool so that 
parents and early childhood professionals can have a screening 
tool they can trust. In addition, we have identified a set of 
resources and a set of materials these folks can use after they 
have done the screening so they can link not only to those 
resources andmaterials but to other professionals for 
appropriate diagnosis.
    The tool itself focuses on four building blocks of 
literacy: linguistic awareness, letter knowledge, book 
knowledge and emergent writing. These are all reliable 
predictors of early reading success. It is our goal to 
disseminate this tool through national partnerships. The target 
audience is parents, teachers, child care providers, early 
childhood providers and other professionals. It is our goal to 
saturate the field in one year and to embed the tool in the 
operations of early childhood service organizations. It is a 
tool to be used with four year olds. We have private sector 
partnerships, a major multimedia educational publisher that has 
agreed to disseminate this tool to hundreds of thousands of 
people. With your support, we will be able to get the 
initiative going and be able to do a statewide demonstration in 
nine States including Arizona, California, Kentucky, Maine, 
Maryland, Mississippi, New Jersey, New York and Washington.
    Mr. Regula. How do you get it to young parents that need to 
know.
    Dr. Kukic. This is going to be a paper tool as well as a 
web-based tool. We have a partnership with the multimedia 
international publisher that is helping us be able to get to 
several million people on the web is what they are able to get 
to, so we hope that will work out.
    I will close by saying if we work together in the private 
sector, in the nonprofit sector and with your support, we will 
be able to achieve this great goal to be sure no child is left 
behind.
    I thank you for this opportunity to speak with you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Questions?
    Ms. Northup.
    Ms. Northup. I would like to thank Dr. Kukic for being here 
and for the effort. There has been an amazing amount of effort 
to develop a tool.
    All the research has now told us that children can be 
identified as early as four or five years old as being at high 
risk for needing intervention to learn to read; that if they 
get effective intervention, we should have single digit 
percentages of children that don't read and read to their 
capacity at fourth grade. Is that correct? What you have done 
is actually developed the test that parents or schools could 
use.
    Dr. Kukic. That is exactly correct. This research is not 
equivocal, it is not a possible. I would go so far as to say it 
is fact, we know how to teach kids how to read, we know how to 
identify kids who are at risk of failure at an early age and it 
is a moral imperative that we do so.
    Ms. Northup. I would like to compare that with what is 
actually going on. In my district, an urban district that has a 
significant population of at risk based on poverty levels and 
so forth, at risk children that our public schools do not 
screen children, that a child has to be estimated by a teacher 
to be one year behind before they are even able to request a 
test. This is usually sometime in second grade.
    There is usually a full year's wait before your child is 
actually tested because of the waiting list and so it is often 
fourth grade before a child gets in to special education.
    NIH tells us that at that level, it takes an enormous 
amount of resources in order to catch up a child who has missed 
those years of learning to decode and slowly become more 
accurate and quick so they can get to the understanding age. 
Part of that is because of the enormous cost for every child 
discovered.
    With this tool, you could just screen every child and get 
to the remediation before they ever--they are not necessarily 
learning disabled, they just need intervention.
    Mr. Regula. Mr. Cunningham.
    Mr. Cunningham. Thank you.
    If you do that in California and San Diego, I will put it 
in my newsletter for you so we can put it out there to help 
disseminate it.
    I helped rewrite the IDEA bill, so I am very familiar with 
it, when I was on the Education Committee and authorization. 
One of the problems we had was parent expectations and the 
wrong person reaches out and a parent has a child with special 
needs. They want the absolute best for that child like I want 
for mine but many times, either a medical doctor not trained to 
give that diagnosis on how muchper hour or how much per week in 
training they receive, that parent's expectations are raised to a 
significant level that is unrealistic and what happens is the school is 
expected to poll that judgment. Then there is a conflict between the 
school and the parent.
    In your program, do you have anything that identifies say a 
student with dyslexia that may have a higher problem of reading 
than say a child without that ailment, so that parents don't 
get the wrong idea or at least expectations?
    Dr. Kukic. What I like about the screening tool that we 
have developed is that it is to be used with four year olds. It 
is a functional kind of tool rather than label-based, it is 
based on those prerequisite skills that all kids need if they 
are going to be effective readers. So the interventions that 
work that have been uncovered so far for those children are 
usually not very expensive at all. It demands a redirection of 
the kind of early intervention that is done for these kids as 
four to six year olds. If you do that well, then there is much 
less need for very expensive interventions later.
    There is a lot of a lack of knowledge among a lot of fine 
professionals about this issue and there is a public relations 
or public awareness that our chairman of the board really 
believes in very sincerely that people need to understand what 
this research is saying so we can intervene at an early age in 
an economical way to be able to become a nation of readers. 
That is the point.
    Mr. Cunningham. I would like to read more about the 
program.
    Mr. Regula. Thank you.
    Our next witness will be Dr. Judith Albino, President, 
California School of Professional Psychology. She will be 
introduced by our colleague, Mr. Cunningham.
    Mr. Cunningham. I would tell Dr. Albino that I have a lot 
tied to her programs. First of all, she has four campuses. One 
is Los Angeles, I was born there. Another is in San Diego, I am 
a member of Congress from there. Another is Fresno where I grew 
up at 3212 Pine Street and the other is Alameda where I sailed 
out on an aircraft carrier.
    She is going to be named the President of Alliant 
International University which is combining with USIU where my 
wife got her doctorate degree in education.
    It is my pleasure to introduce Dr. Albino, President, 
California School of Professional Psychology. The school has 
four different campuses, as I mentioned. She is going to be 
named President of a combined school system. USIU and Alliant 
have over 2,300 students supported by three campuses and a 
faculty of over 200 specialists. It supports many of the 
research and community service programs throughout California.
    I am pleased to introduce Dr. Judith Albino. I would say 
you will find another supporter of doubling medical research, 
especially with San Diego with its super computers, its biotech 
and its teaching universities.
    Thank you for coming.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

DR. JUDITH E. ALBINO, PRESIDENT, CALIFORNIA SCHOOL OF PROFESSIONAL 
    PSYCHOLOGY
    Dr. Albino. Thank you.
    I appreciate the opportunity to be here today. We are 
looking forward to expanding our programs in Congressman 
Cunningham's district and we are grateful for his leadership 
there. I should note that CSPP currently is headquartered in 
San Francisco in the district of your subcommittee colleague, 
Congresswoman Nancy Pelosi.
    I want to begin by thanking the subcommittee for its 
recent, very generous support of CSPP's Partners for Success 
Program which works with California school districts to provide 
teacher education with a special emphasis on the prevention of 
violence in the classroom. I appreciate the opportunity to 
testify today on the importance of providing our Nation's 
schools with elementary and secondary school counselors. I also 
am testifying in support of programs of the Health and Human 
Services Administration and the Substance Abuse and Mental 
Health Services Administration.
    Last year, the subcommittee provided $30 million to 
continue funding for the Elementary School Counseling 
Demonstration Program. Legislative constraints limited this 
generous funding to elementary schools. Moreover, the $30 
million provided can only begin to meet the needs for these 
services. At a time when our communities are shocked and 
griefstricken by incidents of violence in our schools, we have an 
obligation to do all that we can to provide resources to keep our 
schools and our students safe. School counselors are an integral part 
of this effort, yet America's schools are in desperate need of 
qualified school counselors. The current national student to counselor 
ratio averages 561 students to every school counselor. The maximum 
recommended ratio is 250 to 1. Yet, not one State in our Nation meets 
that recommendation.
    Although the increase is significant, I am recommending 
that $100 million be allocated to these efforts in fiscal year 
2002 and that the program be expanded to secondary schools. The 
Surgeon General's National Action Agenda on Children's Mental 
Health released this past January outlines goals for improving 
services for the 7.5 million children under the age of 18 who 
need mental health services; 1 in 10 children and adolescents 
suffer from mental illness severe enough to cause impairment. 
Yet, in any given year, it is estimated fewer than 1 in 5 of 
these children actually receives treatment. The long term 
consequences of untreated childhood disorders are costly in 
human as well as dollar terms.
    Many adult Americans also face challenges that could be 
prevented or mitigated with behavioral and mental health 
counseling. These include 18 million with depressive disorders, 
14 million who abuse alcohol and 13 million who use addictive 
drugs. In view of this need, I urge your favorable 
consideration of $3,150,000,000 in support of the programs of 
the Substance Abuse and Mental Health Services Administration 
and $6,472,000,000 in support of programs of the Health 
Resources and Services Administration.
    In closing, I want to mention that CSPP trains more than 
half of the clinical psychologists graduated in California each 
year and about 15 percent of those across our country. More 
than 25 percent of our students come from ethnic minority 
backgrounds. As Congressman Cunningham indicated, CSPP students 
and faculty provide many hours annually of mental health 
services at nominal or no cost. Most recently this amounted to 
nearly 2 million annually. In San Diego County where there are 
812,000 people with diagnosed mental health or addictive 
disorders, the planned construction and staffing of our new 
community mental health counseling center will significantly 
expand these services, leveraging public support with in-kind 
contributions in the form of the services of our faculty and 
doctoral students.
    Thank you for your time and I appreciate your support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Questions?
    Mr. Cunningham. One of the issues we have before this 
committee that affects directly is a hold harmless that follows 
Title I for underprivileged children. California is a payer of 
taxes but doesn't receive its fair share and many of the other 
States while they have lost population, the growth of 
California schools with minorities--you stated of these 
children having problems, 75 percent of them are minorities. We 
are seeking to have the hold harmless rule instated. I worked 
with Senator Feinstein last year to make sure that happened. 
That will help the schools to have the dollars possible.
    Secondly, my adopted son was in a substance abuse program. 
Dr. Samms in San Diego and they do a very good job with those 
children, so you have my support on the issue. When you look at 
Santana High School, Columbine, the drug problems we have in 
our schools, if we can get to these children early, it will 
save a lot of problems down the line. I want to thank you for 
your services.
    Dr. Albino. Thank you. I appreciate that statement. I think 
we all know how important it is to have the resources for these 
children if we are to avoid the kinds of problems we see in the 
schools you have mentioned and in so many others as well. They 
don't all make the headlines but these problems are much more 
prevalent than they should be.
    Mr. Regula. I think you are saying they are all 
interrelated.
    Dr. Albino. They are indeed.
    Mr. Regula. Thank you.
    Next, we have Mr. Pat Teberry from Ohio, a member of the 
Education Committee. You are doing mark up this morning, 
putting together the bill we are supposed to pay for. He is 
going to introduce Dr. Thomas Courtice, President, Ohio 
Wesleyan, where my daughter graduated.
    Mr. Teberry. Thank you.
    There is also another connection to Canton in your 
district. As you may know, Wesleyan has a strong presence in 
Canton. Of about 1,800 students, about 50 are from Canton and 
about 800 alumni in the Canton area.
    I welcome this opportunity to bring to your attention an 
issue of significance, not only to Ohio Wesleyan, but to the 
State of Ohio and the Nation. That is the underrepresentation 
of minority groups in the sciences at the undergraduate and 
professional levels.
    Dr. Tom Courtice serves as the President of Ohio Wesleyan 
University, an independent, undergraduate liberal arts 
institution, founded 159 years ago in Delaware, Ohio north of 
Columbus. Ohio Wesleyan is one of the top liberal arts colleges 
in the Nation. During his seven years as President of Ohio 
Wesleyan University, Dr. Courtice has served tostrengthen that 
institution.
    I am happy to share with you the fact that there are three 
Ohio Wesleyan alumni who are members of Congress--Congressman 
Hopson, Congressman Gilmore as well as Congresswoman Joanna 
Emerson from Missouri. The entire Ohio Wesleyan community is 
proud to call them their own and looking forward to working 
with Dr. Courtice and Ohio Wesleyan and thank you and the 
committee for allowing him to testify today.
    Mr. Regula. Dr. Courtice.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

DR. THOMAS B. COURTICE, PRESIDENT, OHIO WESLEYAN UNIVERSITY
    Dr. Courtice. Thank you.
    Thank you for this opportunity to provide testimony to you 
and the members of the subcommittee.
    Ohio Wesleyan's undergraduate students represent 40 States 
and 54 countries bringing what is a rich diversity to our 
campus and it is this commitment to diversity as well as to an 
enduring commitment to academic excellence that has enabled us 
to reach and maintain the ranking as one of the top liberal 
arts colleges in the United States. I want to address briefly a 
topic that relates to both the quality of education and 
diversity and that is the need for increased attention to 
science education for currently underrepresented or minority 
groups. Ohio Wesleyan has long been acclaimed for its 
particular attention to science education. We employ some of 
the Nation's best science teaching faculty and we have 
committed considerable resources to improving our science 
facilities. In fact, we will soon begin new construction to 
expand and renovate existing science buildings and to bring our 
labs and classrooms up to a 21st century standard.
    Our commitment to exposing our students to a strong science 
curriculum has resulted in a doubling of the enrollments in 
science and math over the last ten years and a similar increase 
in the number of students who graduate with a Bachelor of 
Science Degree. In fact, 25 percent of the class of 1999 
graduated with a science major and over 60 percent of that 
number entered directly graduate or professional schools 
relating to their majors. Student demand for the sciences 
obviously affects the resources that a particular university 
dedicates to its science and math departments, yet the 
increased commitment to the study of science and technology has 
also been mandated by the explosive growth of science research 
and its applications in our society.
    As this commitment to enhancing the quality of science 
studies grows, so too must the commitment to supply a well 
educated, large and diverse work force in these growing fields. 
Scientific, engineering and technological jobs are among the 
fastest growing in the workforce to the point that current 
demand for workers has outstripped supply.
    Demographic trends also inspire concern about the Nation's 
ability to meet its future technological work force needs. 
Historically, white males have made up a large fraction of U.S. 
scientists and engineers. However, this portion of the 
population has a percentage of the total work force is 
projected to decrease significantly in coming years as other 
population groups, African Americans and Hispanics are expected 
to make up to close to 50 percent of the U.S. work force quite 
soon. Unfortunately, due to a lack of financial resources, 
sufficient high school preparation and practicing mentors and 
role models, minorities are currently severely underrepresented 
in the science and technology fields.
    Ohio Wesleyan understands that a more diverse science work 
force means a broader science agenda bringing different 
perspectives to bear and producing a deeper analysis of 
alternatives. As we begin to enhance our own program to 
encourage greater minority participation in the sciences, I 
would ask that the Subcommittee consider funding and support 
for policies and programs which also constructively address 
similar issues. Such programs may incorporate strategies to 
provide students with more minority role models and mentors 
from both public and private sectors. According to the 
information gathered a few years ago by the National Center for 
Education, statistics on African Americans, Hispanics and 
Native Americans teaching in the sciences make up only 1.1 
percent of all full-time college faculty. Creative initiatives 
could help colleges like Ohio Wesleyan broaden the base of 
minority faculty members and mentors in the sciences. Such 
programs may also incorporate more science research and other 
intimate learning opportunities for minority students and they 
may provide engaging residential sciences programs to pre-
college populations.
    Our Nation's well being has long depended on our ability to 
adapt and advance with scientific and technical progress. The 
Federal Government should continue to spend considerable time 
and effort examining what actions will ensure the Nation has an 
adequately trained science work force in the future while using 
liberal arts colleges like Ohio Wesleyan as partners. We 
anticipate deepening our role in this effort. We look forward 
to sharing our experience with peer institutions across the 
country and with public policymakers as we discover what really 
works when it comes to systematically enhancing and expanding 
science education and career opportunities to an increasingly 
diverse population.
    Thank you for providing us the opportunity to testify 
before the subcommittee this morning.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you find the students you are getting have 
an adequate background coming out of high schools to meet your 
science curriculum and I am sure you have a placement office 
and do you find it easy to place these students in good jobs 
once they complete their studies?
    Dr. Courtice. I think we have found they have been well 
prepared, particularly if they declare science as a field of 
study. It is just that we can't get enough to come across that 
threshold and declare.
    Placement opportunities are simply overwhelming and with a 
solid science background, the options for young people today 
are quite wide and expansive, whether graduate professional 
study or entering the work force immediately.
    Mr. Regula. Thank you. There certainly is a lot of interest 
in science but a precursor to that is you have to be able to 
read. That puts literacy right at the front end of all this.
    Dr. Courtice. That is why we think those pre-college 
programs are very important.
    Mr. Regula. Do you offer remedial for students coming in?
    Dr. Courtice. We do have remedial work in both quantitative 
and writing skills. We have also tried to introduce some of 
that work prior to the time students actually enroll on campus 
so they are doing that in their junior and senior years in high 
school.
    Mr. Regula. Thank you.
    Our next witness will be Warrick Carter, President, 
Columbia College, Chicago, to be introduced by our colleague, 
Mr. Jackson.
    Mr. Jackson. Thank you.
    Since early last year, Dr. Warrick Carter has served as 
President of Columbia College in my hometown of Chicago. 
Columbia is a private, four-year, liberal arts college 
specializing in the visual arts, performing arts and 
communications. Columbia's philosophy of hands-on, minds-on 
education plus their location in one of the world's most 
vibrant cities adds to a depth and richness of experience for 
all who enter its doors.
    From 1996 to last year, Dr. Carter served as Director of 
Entertainment Arts at Walt Disney Entertainment in Lake Buena 
Vista, Florida and from 1984 to 1996, he served as Provost, 
Vice President of Academic Affairs and Dean of Faculty at 
Berkley College of Music, Boston, Massachusetts.
    Dr. Carter received his Bachelors Degree in Music Education 
at Tennessee State University, his Masters and Doctorate in 
Music Education at Michigan State University.
    I present Dr. Warrick Carter, President of Columbia 
College.
    Mr. Regula. A couple of questions. Do you get a lot of your 
students from college?
    Mr. Carter. Yes, about three-quarters of our students come 
from the State of Illinois.
    Mr. Regula. Yesterday, thanks to Mr. Jackson, we had the 
Superintendent or CEO of the Chicago School system, very 
impressive. My question to you is are you seeing this as a 
result of their efforts in the public school system and the 
level of achievement of the students you are getting?
    Mr. Carter. Yes, we are. In fact, we work hand and glove 
with Chicago Public Schools. We offer a variety of programs 
that serve to train teachers specifically in science. We have 
an innovative approach to teaching science through the arts and 
we are training teachers to do so. We have received some rather 
outstanding accolades because of it. It has changed the whole 
quality of science instruction in the public schools.
    Mr. Regula. Thanks to Mr. Jackson, I will be meeting with 
the CEO this evening. I was impressed with what is being done 
and certainly Mr. Jackson has related a lot of this to me. So 
you are telling me the system is working?
    Mr. Carter. The system is working, working much better than 
it worked before.
    Mr. Regula. Thank you.
                              ----------                              

                                          Wednesday, March 21, 2001

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

WARRICK CARTER, PRESIDENT, COLUMBIA COLLEGE
    Mr. Carter. Thank you for that introduction and your time. 
You have a lot of friends at Columbia College and we look 
forward to seeing you soon.
    I am Warrick L. Carter, President of Columbia College. 
Thank you for this opportunity to speak to you. As Congressman 
Jackson said, Columbia College is a private, nonprofit, 
undergraduate and graduate institution in Chicago's South Loop 
neighborhood that offers educational programs and arts in the 
communications disciplines within a context of liberal arts.
    With a fall enrollment of over 9,000 students, we are the 
fifth largest private institution in the State of Illinois. I 
am here to speak about the many needs of institutions of higher 
education, particularly those of urban colleges and 
universities like Columbia College and how Federal programs can 
help address some of these needs.
    Columbia College is one of the very few open arts 
administration institutions in the United States and has the 
largest minority enrollment of any institution of its kind in 
the country. We enroll students from across the country, across 
the world but it is primarily an Illinois and Chicago 
institution. More than three-quarters of Columbia College 
students are from the State of Illinois and the majority of 
these are from Chicago and the Chicago metropolitan area.
    A third of the college's students are African Americans, 
Latino or Asian Americans and a large number of all of our 
students are first in their family to attend college. 
Delivering excellent higher education with open admission in a 
very diverse urban setting is exhilarating but full of 
challenges. City kids, minority kids, first generation college 
kids are much more likely than their peers to drop out before 
they complete college. The loss of these kids, to their 
families, to Chicago and to the country is staggering. Helping 
students to stay in college and complete their degree at 
Columbia is our most important challenge.
    The U.S. Department of Education funds a number of programs 
that are of critical importance to retention at Columbia 
College, Chicago and to urban colleges and universities in 
general. The Pell Grant Program is first and foremost amongst 
these. At Columbia, nearly one-third of our undergraduate 
students receive Pell grants and are eligible to participate in 
the matching grant programs supplied by the State of Illinois. 
Although these grants do not cover the full cost of tuition and 
fees, without them, many of these students could not attend 
college at all.
    Title III and the Fund for the Improvement of Post 
Secondary Education are also vital to this effort. Currently at 
Columbia, Title III funds a multifaceted, academic and social 
support program for lower income, first generation and minority 
students. These funds support a comprehensive, all college 
effort to enhance and improve the first year experience of all 
new students. Research shows from around the country that the 
first year, even the first semester, and sometimes the first 
week of a student's experience in college will determine the 
likelihood that they will stay in college and ultimately 
graduate.
    In 1999, the college adopted a comprehensive retention 
program that focused on new freshmen which holistically 
addresses the interwoven factors that affect students' success. 
We received a $500,000 grant from the Department to support 
this initiative. In just one year, the percentage of freshmen 
returning to their sophomore year climbed by five percent. This 
past fall, 90 percent of all at risk students who participated 
in a summer program we refer to as our summer bridge program 
returned for a second semester.
    Columbia is now hoping to undertake an ambitious mentoring 
program for our minority students. Under the program, all new 
entering minority students will be paired with a faculty member 
or staff mentor to help students determine his or her own 
educational goals, negotiate the new and unfamiliar college 
experience, and to utilize student services, and hopefully 
develop this ongoing bond that is soimportant to be connected 
to an institution and to stay until completion. As mentoring has proven 
to be a very effective retention tool, this program will reinforce new 
students' decisions to attend college and quickly integrate these 
minority students into the academic, artistic and social fiber of the 
college.
    A sense of community is vital to retention and to providing 
a rich educational environment as well. Campuses such as 
Columbia are diffused and less contained than traditional 
college campuses. Fewer students live on campus and many 
commute daily throughout the metropolitan area. Although our 
dozen plus buildings are interspersed with residential, retail, 
commercial make us a major landowner within the area, we have 
only what can be defined as a loosely defined campus. The 
college hopes to counteract this with a new Student and Art 
Center that will create a focal point for our campus and for 
diverse community groups in the South Loop that we serve, 
private, nonprofit.
    We have the largest program of film studies in the country 
with 1,700 students, one of the largest programs in television 
and radio and recording technology. Our alums have gone on to 
rather well heights and others stay in the area. We have alums 
in California who are Academy Award winners, one for saving 
Private Ryan and Schindler's List, so we are proud of the 
quality of what we do in film and television.
    Mr. Regula. It is a growing industry.
    Mr. Carter. We found in Chicago a lot of independent films 
are moving away from Los Angeles because it is more cost 
effective to do films outside, so we see the industry growing 
in Chicago. There was over $150 million spent in Chicago last 
year in films and television shows.
    In Orlando, where I spent time recently, we did some $500 
million worth of films. Compare that with what is going on in 
California, slowly but surely people are looking to do films 
outside of California. We think our alums are partly leading 
that charge. We have two who have chosen to return to Chicago 
and do their films there. The very recent film, Men of Honor, 
was done there and prior to that Soul Food, also the television 
program. Each case, they chose to return to their hometown and 
therefore create employment for our alums as well as for others 
in the city.
    Mr. Regula. That is a great impact.
    Do you interact with the National Endowment for the Arts?
    Mr. Jackson. Yes, we do. We have been fortunate to receive 
both NEA and NEH funding.
    Mr. Regula. Do you think they do a good job?
    Mr. Jackson. Yes. If that funding were a bit larger, I 
think they would do a much better job.
    Mr. Regula. I knew that was coming. [Laughter.]
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

MARILYN HELD, DIRECTOR, LABORATORY SUPPORT SERVICES, ST. JOHN HEALTH 
    SYSTEM, DETROIT
    Next is Ms. Kilpatrick from the great State of Michigan 
where they have a better football team than Ohio State, but 
times will change, is going to introduce Marilyn held, Director 
of Laboratory Support Services, St. John Health System, 
Detroit.
    Ms. Kilpatrick. Thank you for allowing us to present our 
constituents and for you to take the time to consider them. We 
appreciate it.
    I would like to present to you Ms. Marilyn Held, Director 
of Laboratory Support Services at St. John Health Systems in 
Detroit; a prominent member of the American Society of Clinical 
Pathologists; and has served as a board member on that society, 
has served on the Finance and Planning Committee and has been 
awarded the Distinguished Service Award from the Society in 
1999.
    Ms. Held received her Bachelor's Degree at the University 
of South Dakota, performed her medical technology internship at 
the University of Iowa and completed her graduate education in 
Microbiology at the University of Arizona. I am happy to 
present Ms. Held.
    I have three 10 o'clock assignments this morning, 
Transportation being next door. I am happy to be with you this 
morning and Foreign Operations in a totally other building. 
Please excuse me if I am not able to stay with you.
    Mr. Regula. I have some interest in a few projects in 
Transportation so we will be very nice to you.
    Ms. Kilpatrick. Thank you.
    Ms. Hill.
    Ms. Held. Thank you for your support of the laboratory 
community and back home in Michigan. We appreciate it.
    Ms. Kilpatrick. Thank you.
    Ms. Held. Thank you for inviting me to represent the 
American Society of Clinical Pathologists. The ASCP has 75,000 
members and is the world's largest organization representing 
pathologists and laboratory personnel. I am here to inform you 
today that the United States is facing a very serious shortage 
of medical laboratory personnel. Vacancy rates for 7 of 10 key 
laboratory medicine positions is at an all time high. ASCP in 
conjunction with an independent polling firm conducts a 
biannual wage and vacancy survey of 2,500 medical laboratory 
managers. The data for 2000 was published this month and I 
would like to give you a glimpse of what we found.
    Vacancy rates for cytotechnologists, the professionals who 
perform pap smears, in the northeast, the vacancy rate was 45 
percent, 16.7 percent for the east north central and 33.3 
percent for the far west, rural areas average a 20 percent 
vacancy rate and large cities a rather surprising 28.3 vacancy 
rate. Histotechnologists, the individuals who prepare tissue 
specimens, have an average vacancy rate of over 20 percent, the 
west, south central region of the country has a 73.7 percent 
vacancy rate; the south central Atlantic States have an average 
vacancy rate of 16.7 percent. By comparison, the vacancy rate 
for medical technologists will not appear to be of concern but 
it is. Medical technology vacancy rates average 11.1 percent 
but rural areas are at 21.1 percent.
    Rather than continue to quote statistics, I would like to 
put a face on these numbers. It is estimated that 70 percent of 
diagnostic and treatment decisions for patients are based on 
laboratory tests. In my own institution, our laboratory will 
perform over 10 million diagnostic tests next year alone. Tests 
such as measuring cardiac enzymes for heart attacks, performing 
prostate biopsies, hemoglobin electrophoresis for the diagnosis 
of sickle disease and trait and measurements for high calcium 
levels in blood and urine to assess future risk for 
osteoporosis are only a few examples. In my hospital, we have 
as of yesterday, a 12.4 percent vacancy rate of those personnel 
that assess cardiac enzymes and osteoporosis related tests and 
a 19 percent vacancy rate for people who prepare prostate and 
breast tissue for biopsies.
    One of the logical solutions to this vacancy rate problem 
is to train more students. However, the number of programs are 
decreasing. In my home State, we have seen the number of 
programs plummet from 27 to 8 in less than two decades. 
Nationwide, the number of graduates in medical technology has 
decreased 30 percent in the five years. The continued demand 
for laboratory services is real and is expected to grow. Given 
the country's aging population, the number and complexity of 
biopsy specimens, tests and the use of molecular techniques 
will increase in the next decade. Laboratory professionals who 
entered the work force in the 1960s and the 1970s will be 
retiring soon. Also, the threat of bioterrorism and emerging 
infectious diseases calls for trained laboratory professionals 
to respond.
    There are solutions to these problems. There are allied 
health grants available to attract laboratory professionals to 
the field especially minorities and individuals in rural and 
under served communities. For example, the University of 
Nebraska Medical Center established medical technology 
education sites in rural Nebraska under an Allied Health 
Project Grant. As of 1999, of 69 graduates, 99 percent took 
their first job in a rural community and 74 percent took their 
first job in rural Nebraska.
    The grants are also designed to create successful minority 
recruiting and retention programs for medical technologists. As 
a direct result of this Federal support, the University of 
Maryland, Baltimore, as of the fall 2000, reached a 64 percent 
minority student enrollment at a majority institution, one of 
the highest in the country. Most Allied Health Grant projects 
continue after Federal funding ends, making them a long lasting 
worthwhile investment in the future of allied health. The 
Allied Health Project Grants Program is a relatively small step 
in assuring that funding is available to attract individuals to 
the allied health professions. It needs to be seriously 
considered.
    Thank you for your time. We are requesting $21 million.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Why do you think there aren't more young 
people, certainly the opportunities are enormous? Why don't 
young people elect this field?
    Ms. Held. We have looked at that a lot and the field 
requires a good background in math and science. We are finding 
that with the opportunities in computers, the .coms, the 
biotech corporations that there are many opportunities now that 
people just aren't going into health care as frequently.
    Mr. Regula. Do you get information out to high schools so 
that young people can think about this as a career?
    Ms. Held. Yes. The American Society of Clinical 
Pathologists has partnered with organizations like the National 
Biology Teachers Association and we do work with recruitment in 
those sort of forums. Independently, my organization like other 
hospitals, goes to high schools, middle schools, elementary 
schools whenever we are given the opportunity.
    Mr. Regula. Is St. John a free-standing organization that 
provides services to a number of hospitals?
    Ms. Held. Yes. St. John Health System is a seven hospital, 
integrated delivery network and three of our hospitals are in 
Detroit and four in the neighboring suburbs and out in the 
rural areas as well.
    Mr. Regula. So it is a consortium that all seven can use?
    Ms. Held. Right.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                 WITNESS

DEBORAH A. CHAMBERS, PRESIDENT-ELECT & MEMBER OF THE BOARD OF 
    DIRECTORS, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS
    Next is Deborah Chambers, President-elect and Member of the 
Board of Directors, American Association of Nurse Anesthetists. 
Welcome.
    Ms. Chambers. My name is Deborah Chambers. As President-
elect of the American Association of Nurse Anesthetists, I 
represent 29,000 certified registered nurse anesthetists across 
the country, also known as CRNAs. We deliver safe anesthesia 
care to patients in every State, every day. I will summarize 
four points: what do CRNAs do and where, the nursing shortage 
and the CRNA shortage, our appropriations request and one 
regulatory issue of interest to Congress.
    America's 29,000 CRNAs provide two-thirds of all the 
anesthetics in the United States. We are the sole anesthesia 
provider in over 70 percent of rural hospitals. We are the 
predominant anesthesia provider in rural and urban under served 
areas of communities and to the military. For over 100 years, 
nurse anesthetists have been providing anesthesia. The 
Institute of Medicine reports anesthesia is 50 times safer 
today than it was 20 years ago. We believe this is in part due 
to our advanced training and our continuing education and 
recertification requirements that are by far the most rigorous 
in the field of anesthesia care.
    Yet, as more Americans become eligible for Medicare, there 
are fewer nurses and CRNAs to care for them. It is in America's 
interest to work together so that nurses and CRNAs are 
available for patients who need care. The nursing shortage is 
here today. Student nurse anesthetists must have practiced as a 
nurse for at least two or more years so we are deeply concerned 
that the number of registered nurses under the age of 35 has 
fallen by more than 50 percent over the last 20 years to a 
level less than 20 percent of all registered nurses in the 
country. Our 82 accredited nursing anesthesia programs are full 
but they are graduating about 700 fewer nurse anesthetists per 
year than what HHS says is required to meet the demand. The 
demand is growing and creating a CRNA shortage in the 
marketplace.
    In 1999, the State of North Carolina reported 82 CRNA 
position vacancies and it is projected these vacancies will 
extend to beyond 133 by the year 2004. Today, the number of 
classified ads advertising and recruiting for nurse 
anesthetists published in our national journals is growing 
month by month. What should we do? We should work together to 
educate more CRNAs. With such shortage helping to support the 
education of nurse anesthetists is much more cost effective for 
taxpayers than subsidizing other types of anesthesia providers. 
The committee has shown real leadership and we are asking for 
that leadership to continue.
    We commend the committee for providing significant 
increases for nursing education programs in fiscal year 2001, 
especially for the advanced education nursing program within HHS's 
Bureau of Health Professions. For fiscal year 2002, we recommend an 
increase of $11 million for advanced education nursing to at least $70 
million. We note that the President's fiscal year 2002 blueprint 
identifies this type of program to help alleviate the nursing shortage.
    We recommend an increase of at least $10 million to the 
Nursing Education Loan Repayment Program. We urge an increase 
in the National Institute for Nursing Research budget up to 
$125 million. We also recommend that the committee consider 
funding specific initiatives to help expand existing CRNA 
schools, establish new schools and to recruit and retain 
faculty for the training of nurse anesthetists. While America's 
existing nursing anesthesia schools are full, expanding these 
schools or establishing new ones without Federal funding as a 
catalyst has proven to be very difficult. We look forward to 
working with the members of the committee on this project.
    We recommend the committee permit Medicare's new anesthesia 
care rule to take effect. Published on January 18, 2001, this 
important Medicare rule lets States decide the issue of 
physician supervision for nurse anesthetists. This rule gives 
States and hospitals the flexibility they need to provide 
superior health care to patients. It is supported by hospitals, 
nursing organizations and the National Rural Health 
Association, many members of the House and Senate and many 
members of this panel on both sides of the aisle.
    Secretary Thompson has signed an order to have the rule 
take effect on May 18, 2001. This should be a matter for the 
States which govern health professional scope of practice.
    This concludes my remarks. I welcome your questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Is this group licensed by medical boards in 
each of the States?
    Ms. Chambers. Your licensed as a registered nurse through 
the State and you are certified by the National Association.
    Mr. Regula. So you get your nursing license from the State 
and certification is national?
    Ms. Chambers. Yes, sir.
    Mr. Regula. Can you move from State to State?
    Ms. Chambers. As long as you have license as a registered 
nurse from that State. The certification is the national 
certification so you can move.
    Mr. Regula. Do some States require a doctor be present and 
others not? I have heard that is an issue.
    Ms. Chambers. The whole can of worms is that nurse 
anesthetists practice along with physicians. Obviously in the 
surgical arena, a nurse anesthetist is present to provide 
anesthesia for a patient undergoing a surgical procedure.
    The difference comes in that States rules and regs differ 
from State to State so there are actually 29 States that do not 
require supervision of a nurse anesthetist. What we are asking 
is to let the States decide.
    Mr. Regula. Thank you.
    Mr. Jackson.
    Mr. Jackson. No questions.
    Mr. Regula. Thank you for coming.
    Next, Mr. Jackson will introduce Miguelina Leon, Director, 
Government Relations and Public Policy, National Minority AIDS 
Council.
    Mr. Jackson. Since 1994, Miguelina Ileana Leon has served 
as the Director of Government Relations and Public Policy for 
the National Minority AIDS Council. She is a certified social 
worker with a Masters from Columbia University and she has 
worked in HIV AIDS services in advocacy since 1985.
    Established in 1987, NMAC is the leading national 
membership organization addressing the HIV AIDS epidemic among 
communities of color. With a membership of over 600 
organizations and 3,000 affiliates, NMAC provides training, 
technical assistance and policy analysis for community-based 
organizations on the front lines of the HIV AIDS epidemic.
    NMAC's most recent advocacy work focuses on the elimination 
of ethnic and racial health disparities with a special focus on 
the disproportionate HIV AIDS incidence and death rates among 
ethnic minorities.
    NMAC has worked with the Congressional Black Caucus to 
address the state of emergency of HIV AIDS in the African 
American community, helping to secure $156 million in Federal 
funding for highly impacted communities of color in 1998, $250 
million in 1999 and $350 million last year.
    Mr. Chairman and members of the subcommittee, I present Ms. 
Miguelina Ileana Leon.
                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

MIGUELINA LLEANA LEON, DIRECTOR, GOVERNMENT RELATIONS AND PUBLIC POLICY 
    NATIONAL MINORITY AIDS COUNCIL
    Ms. Leon. Thank you, Congressman Jackson, for that very 
comprehensive presentation.
    My name is Miguelina Ileana Leon. I am testifying today on 
behalf of the National Minority AIDS Council. I would like to 
thank the members of the subcommittee for your extraordinary 
leadership and commitment to HIV AIDS prevention and care 
programs, biomedical and behavioral research and other crucial 
health programs.
    NMAC commends the leadership and the foresight of the 
Congressional Black Caucus and the Congressional Hispanic 
Caucus in crafting and expanding the minority aids initiative 
to assure a targeted response to the growing HIV AIDS health 
disparities among communities of color. Our work as health 
advocates and HIV service providers has been strengthened by 
your combined efforts and generous support. Our Nation has made 
remarkable progress in combating HIV AIDS in the last decade, 
however, the dynamic nature and evolving epidemic represents 
complex challenges and requires intensified efforts to respond.
    The disproportionate impact of HIV on communities of color 
is not a new phenomena, yet the trends over the last decade 
clearly reflect a growing burden of morbidity and mortality 
among ethnic and racial minorities. Consider these facts, 
people of color make up 56 percent of the cumulative AIDS cases 
and 68 percent of the new AIDS cases report by the Centers for 
Disease Control through June 2000. Men of color accounted for 
63 percent of the new AIDS cases and women of color accounted 
for 82 percent of the new AIDS cases among females. Similarly, 
children of color represented 84 percent of the pediatric AIDS 
cases. Most recently, young men of color and women of color 
have become highly vulnerable. Just a few weeks ago, the 
Centers for Disease Control and Prevention released a survey of 
young men which looked at over 2,000 gay and bisexual young men 
in Los Angeles, Miami, New York and Seattle. This survey showed 
that the highest infection rates were among African Americans, 
30 percent, and Latinos, 15 percent.
    The CBC Minority AIDS Initiative was developed in 1999 to 
target funds to eliminate the persistent HIV AIDS related 
health disparities among ethnic and racial minorities. The CBC 
Initiative continues to be needed now more than ever. The 
initiative is intended to expand the infrastructure and 
capacity in minority community-based organizations to provide 
quality HIV prevention interventions and medical and supportive 
services. By building infrastructure and increasing the 
capacity of these organizations, the initiative enables the 
organizations to access needed funding to build their own 
programs in their own communities. The CBC Initiative is not 
intended to create a parallel system of programs or services. 
It does put in place HIV AIDS services in communities that have 
been historically underserved and also complements existing HIV 
prevention and health care services. These resources are 
intended to provide a bridge that will enable minority 
community-based organizations to ultimately broader Federal HIV 
AIDS funding.
    The CBC Minority Initiative cannot stand alone and we know 
it must work in conjunction with other HIV AIDS programs. 
However, we believe it is necessary to expand this initiative 
to a level of $540 million in fiscal year 2002 in order to 
support and expand the infrastructure of minority community-
based organizations and to ensure that we address the health 
disparities by enabling these organizations to provide 
culturally competent services within their own communities. We 
believe it is important to commit to this effort, to sustain 
these efforts and we strongly recommend the Subcommittee 
sustain, safeguard and expand the CBC Minority AIDS Initiative 
by providing the additional funding in fiscal year 2002.
    Thank you for your attention and consideration of these 
issues.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you work in the area of prevention as well 
as curative approaches?
    Ms. Leon. Yes. Actually, we are a national organization and 
we provide training and technical assistance and support to 
organizations on the front line of the epidemic. They actually 
are working in prevention and supportive services, and also 
providing health services.
    Mr. Regula. Is there some growing success in treatment?
    Ms. Leon. There definitely have been great advances in 
treatment over the last ten years. However, what we see in 
relationship to ethnic and racial minorities is that they don't 
experience the same benefits in terms of health outcomes for a 
variety of reasons, including they have less access to quality 
health services, greater numbers of uninsured people and there 
is a large proportion of ethnic and racial minorities that have 
been traditionally hard to reach populations such as the 
homeless, people who have chemical dependency problems and 
women.
    Mr. Regula. Other questions?
    I see we have a vote. I think we can take one more before 
we have to vote.
    We will have Mr. Phil Jacobs, President, BellSouth 
Corporation.
                              ----------                              

                                         Wednesday, March 21, 2001.

               TESTIMONY OF PUBLIC WITNESSES 2002 BUDGET


                                WITNESS

PHIL JACOBS, PRESIDENT, BELLSOUTH CORPORATION
    Mr. Jacobs. I am Phil Jacobs, President of Georgia 
Operations for BellSouth Corporation and also a graduate of 
Dennison University in Granville, Ohio.
    Thank you for the opportunity to be here.
    I am here today on behalf of a group called Friends of CDC 
to discuss infrastructure funding for the Centers of Disease 
Control and Prevention construction budget in the 2002 budget. 
Let me begin by offering my thanks to this subcommittee on 
behalf of the Friends of CDC for securing the appropriations in 
this year's budget of $175 million. This was an enormous step 
forward and a great step forward to begin the construction of 
new facilities at both of our campuses for the CDC in Atlanta. 
It is just that, a start.
    I am here today to respectfully ask this committee to 
continue to support averting what I believe is a pending crisis 
waiting to happen in health care. The current infrastructure of 
the Centers for Disease Control and Prevention in Atlanta has 
dilapidated buildings that are creating a hazardous situation 
for our world class scientists. This situation must be 
corrected. It is clear to me if we are going to continue to 
have the world's leading health organization to be able to 
address the myriad of health issues that are coming at us 
today, we need to have first class facilities and need to 
continue to recruit first class scientists into those 
facilities.
    Before I tell you more specifically about the facilities in 
Atlanta, let me take a minute and talk about the organization, 
Friends of CDC and how we began. The Friends of CDC is a group 
of corporate citizens who joined together about two years ago 
to highlight the need for infrastructure funding for the CDC in 
Atlanta. This group includes not only my company, BellSouth, 
but also UPS, Home Depot, Delta Airlines, Cox Communications, 
the Southern Company, Healtheon Web/MD, Merck, HCA, the Health 
Care Company, General Electric and Aetna Insurance Company. It 
is a voluntary, civic-minded group deeply concerned with the 
facilities situation at the Nation's premiere health 
institution and we are concerned that this institution's 
facilities have been allowed to deteriorate to the point they 
have today.
    I personally first visited the CDC in Atlanta in 1999 but I 
never imagined what I would see in terms of the horrific 
conditions in the buildings there. By the way, I would like to 
extend to any member of this subcommittee an invitation to join 
us in Atlanta for a tour of the facilities because I will tell 
you now that words can't do justice to the lack of and horrific 
conditions that we are asking our folks to work in.
    Mr. Regula. The $170 million that was put in last year, 
will that provide some help?
    Mr. Jacobs. Some relief, absolutely. As a matter of fact, 
we just had the opening of a new facility on the Emory 
University Campus which gave us an additional number of level 
four laboratories which is where the highest security and most 
dangerous agents are dealt with. However, there are a host of 
other facilities that are still housed in inadequate housing 
that need to be addressed. This $250 million we are asking for 
this year is part of an overall $1 billion program that will 
bring us basically to the 21st century.
    Mr. Regula. Your company is contributing?
    Mr. Jacobs. Financially contributing?
    Mr. Regula. Yes?
    Mr. Jacobs. To the Friends of CDC organization, we are all 
contributors to that organization.
    Mr. Regula. So there is local help and support in addition 
to the Federal money?
    Mr. Jacobs. The money we are contributing which is a small 
amount actually goes towards our efforts in creating public 
awareness around this. There is no contribution to actual 
construction of the buildings.
    As you know, the role of the CDC over the past few years 
has continued to expand, addressing a group of areas, including 
infectious diseases, HIV and AIDS, tuberculosis and since 1973, 
the CDC has discovered more than 35 new deadly viruses and 
bacteria that create human health hazards.
    In addition to infectious diseases, they also work on 
preventing chronic diseases such as cardiovascular, cancer and 
diabetes. Other activities include the maximization of 
immunization rates for children, preventing a wide range of 
environmental diseases by preventing exposure to toxic 
chemicals and protecting employees from workplace injuries and 
disease. I would not allow any of my employees to operate in 
that kind of an environment. Quite frankly, if the same Federal 
and State health and workplace requirements were applied to 
this facility, it would be shut down.
    Let me say that the Parasitic Disease Laboratory which is 
one of the laboratories that has not yet been updated under 
this plan, are in temporary wooden barracks that were built in 
the 1940s, with a lifespan expectancy of 15 years. We are now 
45 years beyond that life expectancy. We have regular 
occurrences where, for example, refrigeration units fall 
through the floor; where power is inadequate and shut down 
periodically. We even had a incidence recently where we lost 
samples in a refrigeration unit, because the power system could 
not adequately supply the building.
    Mr. Regula. Let me tell you, our committee is going down 
there in about a week or shortly thereafter and visit the 
facility.
    Mr. Jacobs. Right.
    Mr. Regula. So I am sure we will be given an opportunity to 
see some of the deficiencies.
    Mr. Jacobs. Thank you; we look forward to having you down 
here.
    Mr. Regula. Do you have much more, sir?
    Mr. Jacobs. No, I will just close by simply saying that 
last was an excellent start, with $175 million, and we 
respectfully request that the $250 million be put in this 
year's budget. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, we thank you and all the companies that 
expressed an interest in this. Hopefully, maybe they can make 
some financial contributions to help get the job done, and we 
appreciate that.
    Mr. Jacobs. Thank you.
    Mr. Regula. The committee will recess. We have a one minute 
vote, which is in process now, and then three five minute 
votes. So I would say roughly ten after or a quarter after, we 
will reconvene, as we can get the votes over with. So if you 
all will be patient, we will go and do our duty.
    [Recess.]
    Mr. Regula. We will reconvene the committee.
    Mr. Jackson, I think you want to introduce your guest here.
    Mr. Jackson. Mr. Chairman, Linda Anderson has served as 
President and Chief Operating Officer for the Sickle Cell 
Disease Association of America, Incorporated, since 1992.
    During her eight year tenure, the Pittsburgh native and 
Carnegie Mellon graduate has used her 24 years of corporate 
management experience to position SCDAA as a source of services 
and support for individuals and families affected by sickle 
cell disease.
    Ms. Anderson was instrumental in developing and 
implementing a five year strategic plan, designed to strengthen 
the infrastructure of the 64 member association, promote the 
association's national programs, and heighten public awareness.
    Ms. Anderson is also active on several national boards or 
committees, including Vice Chair, Executive Committee, 
Community Health Charities, and the President's Committee on 
the Employment of People with Disabilities.
    Mr. Chairman and members of the subcommittee, Ms. Anderson.
                              ----------                              

                                         Wednesday, March 21, 2001.

             THE SICKLE CELL DISEASE ASSOCIATION OF AMERICA


                                WITNESSES

LYNDA K. ANDERSON, PRESIDENT/COO, SCDAA, THE SICKLE CELL DISEASE 
    ASSOCIATION OF AMERICA
TAHIRA YVONNE GIVHAN
    Ms. Anderson. Thank you very, very much, Congressman 
Jackson. On behalf of the Sickle Cell Disease Association of 
America, I want to thank you, Chairman Regula and members of 
the subcommittee, for giving me this opportunity to testify.
    With me today, I have Tahira Yvonne Givhan, the 2000/2001 
national poster child, our junior ambassador, for the Sickle 
Cell Disease Association of America. She is our star. Tahira 
will be speaking with you today on the challenges that she 
faces in life, because of having sickle cell anemia, an 
inherited genetic disease. Before Tahira delivers her remarks, 
I would like to briefly summarize the SCDAA's fiscal year 2002 
appropriations request. First, we ask that $4 million be 
provided to support a two part community outreach 
demonstration.
    Specifically, $2 million is requested from the Maternal 
Child Health Block Grant. Special projects of regional and 
national significance account to support the strengthening and 
expansion of locally-based newborn screening follow-up 
activities; and $2 million is requested from the Office of 
Minority Health, or another account within the Health Resources 
Services Administration, to support the strengthening and 
expansion of locally-based related outreach and supportive 
service efforts.
    Second, we support the efforts underway at the National 
Heart, Lung, and Blood Institute, to strengthen data coordination 
efforts of the ten comprehensive sickle centers, and seek increased 
resources for the establishment of a clinical research network.
    We ask that increased funding and report language in 
support of this effort be included in the fiscal year 2001 
Labor HHS Education Appropriation Bill. A more detailed outline 
of these requests has been submitted for the record. However, 
now I would like for Tahira to tell you why, in her words, 
these resources are so desperately needed.
    Mr. Regula. Well, Tahira, we are happy to welcome you. I 
can see why you chose her. She is a very pretty young lady.
    Ms. Givhan. Thank you.
    Mr. Regula. So we will be pleased to hear your testimony, 
Tahira. What grade are you in?
    Ms. Givhan. Fourth.
    Mr. Regula. Fourth grade, and where do you go to school?
    Ms. Givhan. Oak Mountain Intermediate School.
    Mr. Regula. What city is that?
    Ms. Givhan. Shelby County.
    Mr. Regula. Well, we are pleased that you could come this 
morning, so we will look forward to hearing from you.
    Ms. Givhan. Thank you, Mr. Chairman and other committee 
members. My name is Tahira Yvonne Givhan. I come to you on 
behalf of the Sickle Cell Disease Association of America. I 
have sickle anemia. It is a disease of the red blood cells. I 
am inherited the gene from both my parents.
    First and foremost, thank you for providing the funding for 
new treatment therapies, supportive services, and newborn 
testing. In fact, the doctor tested me while I was still in the 
hospital, as a newborn baby. That is the law in most states, 
and it is a fantastic law, because babies with sickle cell 
anemia often require special care. As a result of your 
investment, sickle cell anemia no longer spells doom and gloom, 
the way it did years ago. The mortality rate for infants with 
sickle cell anemia has decreased dramatically. Again, I thank 
you.
    Yes, the advances made in biomedicine in recent years are 
appreciated greatly. However, more funding is badly needed to 
help find a cure, so that we will no longer have to manage the 
pain and suffering that comes with having this unpredictable 
disease. Because I have sickle cell anemia, my cells are 
sickled, making it hard for oxygen to stay in them. Sometimes, 
these sickle shaped cells become sticky and thick, and can clog 
small blood vessels in my body.
    When this happens, I hurt. This can cause a lot of pain 
anywhere in my body. When my head hurts, my parents and doctors 
have to monitor me closely, to make sure that I do not have a 
stroke, like many people with sickle cell anemia.
    It is true that I enjoy a number of activities like other 
young people my age: ballet, riding my bike, and playing on the 
swing set. But during most of the days of the week, I am very 
tired and in pain. At school, I do not think that my teachers 
understand how difficult it is for me to keep up with the other 
kids, particularly in P.E. So in addition to being in great 
pain, I have to suffer the embarrassment of being different.
    The challenges faced by families that have children with 
sickle cell anemia are pretty serious. Therefore, the services 
provided SCDAA's member organization, such as outreach, are 
very important; but they need more help so that they can help 
more kids like me. I believe and have faith that a cure will be 
found in my lifetime, so that as we move into this new 
millennium, we, too, can enjoy the American dream in its 
totality. When this happens, it will just be wonderful.
    Mr. Regula. Well, Tahira, you are a very persuasive 
witness. [Laughter.]
    Mr. Jackson.
    Mr. Jackson. Mr. Chairman, let me again thank Ms. Anderson 
and Tahira for their testimony. I do not have sickle cell 
anemia, but I, like my father, carry the trait, as well.
    I introduced elevating the Office of Research on Minority 
Health at NIH to a center status last year, which fortunately 
passed with the help of Mr. Bilirakis, John Lewis, Benny 
Thompson, Senator Frist and Senator Kennedy in the Senate.
    Sickle cell anemia just happens to be one of those diseases 
at the National Institute of Health that could use better 
coordination amongst all of the centers. But for the elevation 
of the office to center level, the office itself did not have 
the ability to even sit in the room with the other centers, to 
look across the entire institute, for the purposes of trying to 
arrive at a cure.
    If there ever was a disease, Mr. Chairman, that is 
reflective of the disparities that exist amongst those groups 
who have been left behind in America, it is certainly sickle 
cell anemia. Of all of the options and diseases that will be 
before the Center for Research on Minority Health at NIH, 
sickle cell anemia should be way on top of the list for Dr. 
Ruffin, Dr. Fouchey, and Ms. Kirschstein at NIH.
    I will be arguing on behalf of Tahira and other children, 
as well as Americans who are similarly situated, for the 
appropriate amounts at the National Institute of Health, to 
reflect her desire and our desire to bring an end to this 
devastating illness.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Tahira, do you have to miss much school?
    Ms. Givhan. No.
    Mr. Regula. You must not, because you certainly speak very 
well for a fourth grader.
    Ms. Givhan. Thank you.
    Mr. Regula. Thank you for coming.
    Ms. Anderson. Thank you for having us.
    Mr. Regula. Our next witness is Dr. John Sever, Member, 
International PolioPlus Committee, Rotary International.
                                         Wednesday, March 21, 2001.

        INTERNATIONAL POLIOPLUS COMMITTEE, ROTARY INTERNATIONAL


                                WITNESS

DR. JOHN L. SEVER, MEMBER, INTERNATIONAL POLIOPLUS COMMITTEE, ROTARY 
    INTERNATIONAL
    Mr. Sever. Thank you very much, Chairman Regula and 
Congressman Jackson. It is a pleasure and a privilege to be 
here to tell you about the International PolioPlus Program to 
eradicate polio worldwide. I am a professor of pediatrics at 
the Children's Hospital here in Washington and George 
Washington University. I am representing Rotary International, 
which I am a member of. There are 1.1 million members of Rotary 
International, of which there are about 380,000 members in the 
United States.
    Some years ago, the Rotary founded a coalition to eradicate 
polio worldwide. That includes the March of Dimes Birth Defects 
Foundation, the American Academy of Pediatrics Task Force for 
Child Survival and Development, and the U.S. Fund for UNICEF, 
along with Rotary International. We are working to help 
eradicate this disease worldwide. The goal is to complete that 
eradication by the year 2005, which is just a few years ahead. 
It will be only the second disease in the history of man that 
has been eradicated; small pox being the other disease. So the 
goal is not just to control the disease, not just to immunize 
children, but to eradicate the disease completely worldwide by 
the year 2005, at which point we will be able to stop 
immunizing for polio, because it will no longer exist in the 
world, just as we did stop for smallpox.
    There has been a great deal of progress made, and the 
support from this subcommittee, your support, has been very 
important through the U.S. Centers for Disease Control, over 
the years. That, along with Rotary International's support and 
other nation's support, has really made a big difference. You 
have in your material the fact that in 1988, there were over 
350,000 cases a year worldwide, and today, just last year, 
there were only 3,500 cases. So that is down to just one 
percent of what it was in 1988.
    Mr. Regula. The United States is fairly clean.
    Mr. Sever. The United States has had no polio for almost 18 
years now. There has been no polio. Eradication has been 
complete in this hemisphere since 1991. Eradication in the 
Western Pacific area was achieved two years ago, so this has 
been focusing down. The only places in the world that polio 
still exists is in Southeast Asia, India, Pakistan, Bangladesh, 
and in Africa. So that, right now in the next five years, is 
the focus to complete the eradication of this disease, so that 
it will no longer happen.
    The efforts can be measured in many ways. First, of course, 
one can estimate the number of children who have not been 
paralyzed, who would have been paralyzed, if this effort had 
not taken place, and it now exceeds three million. The effort 
can be measured in terms of cost savings. In the United States, 
for example, although as we mentioned, we do not have any cases 
of polio, we still must immunize all the children in the United 
States for polio, because it could be brought in from one of 
these other areas. That costs us, in this country, about $230 
million a year to immunize for a disease that we do not have. 
That would be, of course, saved, once the disease is 
eradicated.
    Worldwide immunization costs about $1.5 billion a year for 
polio. Again, on a worldwide level, that would be a tremendous 
savings. So both in terms of the reduction, the suffering, and 
the cost, just to mention two areas, there is a tremendous 
benefit for completing this job in the next few years. The U.S. 
Center for Disease Control has been a great assistance. This 
last year, the appropriation was for $91.4 million. When you go 
to Atlanta, and besides seeing the buildings, I hope that you 
will learn more about how they are providing epidemiologists 
worldwide to help participate in this eradication effort.
    There is a large new group in India and another group in 
Africa, which are vital to identifying where polio is 
continuing, and where it has to be immunized in carrying 
national immunization days; plus, providing vaccines. The 
Rotary is also doing this. Rotary, since 1988, has been 
providing money for vaccine immunizations, as well as 
volunteers. By the time this job is done, Rotary will have 
provided about $500 million towards this eradication program, 
from its own contributions and its own funds.
    We are asking this year that the appropriation be increased 
by $15 million, for a total of $106.4 million. The reason for 
that is, that the price of the vaccine has gone up from about 
seven cents a dose, to about 9.6 cents a dose, and because of 
the tremendous amount of effort that is required now in Africa 
specifically to get the job done.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you very much. I think it is great 
that a service organization such as Rotary does get behind what 
is obviously a very worthwhile project.
    Mr. Sever. Thank you.
    Mr. Jackson. Mr. Chairman, I just have one question.
    Mr. Regula. Yes, Mr. Jackson?
    Mr. Jackson. Let me also congratulate you, sir, for the 
work that you have undertaken. To what do we owe the 
substantial cost increase for the cost of the polio vaccine?
    Mr. Sever. Well, basically, the costs of materials have 
gone up in the last couple of years, and the large volumes that 
are now being used have caused the manufacturers to have to 
build additional facilities, as I understand, in order to 
produce this.
    For example, in India, we had an immunization date, which 
is the way you would eradicate this, as we are doing in Africa. 
There are 17 countries in Africa, simultaneously immunizing 
their entire population of children under five years of age.
    It takes enormous amounts of vaccine, and we have had to 
just tremendously increase the capacities to provide this 
vaccine, and to have it available. In India, for example, a few 
weeks ago, they just immunized 140 million children in one day. 
There is just an unbelievable effort to that, and it is an 
enormous quantity of vaccine.
    So unfortunately, the cost of producing the vaccine and the 
cost of augmenting the facilities has come back in terms of 
this increase in vaccine costs.
    Mr. Jackson. Is the cost that you have requested, in terms 
of the increase in the program, does it approximate the size of 
the problem, in terms of our ability to curtail the disease by 
administering polio vaccines, but at the same time, does it 
take into account the fact that the population in many of these 
areas is constantly growing and expanding?
    Mr. Sever. It takes into consideration both, sir. The 
population growth is important. The issues of administration 
under these massive programs has to be taken into 
consideration. The other countries are assisting, too. The 
United States, I think, is the leadership of countries, but 
Great Britain and most European countries are also helping to 
try to get this job done.
    The fact that we are focusing on it to get it done quickly 
in the next five years is important, too, because we can then 
complete the job, and it will not have to go on and on and on.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Our next witness is Lydia Lewis, who will be introduced by 
Mr. Jackson.
    Mr. Jackson. Mr. Chairman, Lydia Lewis became Executive 
Director of the National Depressive and Manic-Depressive 
Association in 1997.
    Headquartered in my hometown of Chicago, the National DMDA 
is the largest patient-directed, illness-specific organization 
in the country, with nearly 400 patient-run support groups 
throughout the country.
    Ms. Lewis' primary responsibility has been to position 
national DMDA as a leading source for information on mood 
disorders, and the treatments for patients, family members, 
health care professionals, the media, and others.
    She holds a bachelor's degree in psychology from the State 
University of New York at Buffalo. She was a charter member of 
the NIH Director's Counsel of Public Representatives.
    She also serves on the oversight committees of several 
large NINH clinical trials, including current trials studying 
the effectiveness of treatments for bi-polar disorder and the 
study of treatment of adolescents with depression. One of her 
proudest accomplishments has been her willingness to confront 
her own life-long battle with depression.
    Mr. Chairman and members of the committee, I present Ms. 
Lewis.
                              ----------                              

                                         Wednesday, March 21, 2001.

          NATIONAL DEPRESSIVE AND MANIC-DEPRESSIVE ASSOCIATION


                                WITNESS

LYDIA LEWIS, EXECUTIVE DIRECTOR, NATIONAL DEPRESSIVE AND MANIC-
    DEPRESSIVE ASSOCIATION
    Ms. Lewis. Thank you very much, Congressman Jackson; I 
truly appreciate the introduction. Mr. Chairman Regula and 
members of the subcommittee, as Congressman Jackson said, I am 
Lydia Lewis. I am the Executive Director of the National 
Depressive and Manic-Depressive Association. We appreciate the 
opportunity to testify in support of funding for neuro-science, 
behavioral science, and genetic research, through the National 
Institutes of Health and the National Institute of Mental 
Health. National DMDA applauds the doubling of the NIH budget, 
and encourages the subcommittee to continue providing strong 
leadership on this effort, which has had a significant impact 
on mental health research.
    While I am here today to testify on behalf of National 
DMDA, I know personally what it is like to battle depression 
every day, to fight the urge to end my life. It is a dreadful 
way to live. I, myself, suffer from the disease, and I am not 
alone. The recent global burden of disease study conducted by 
the World Health Organization, the World Bank, and Harvard 
University found that mental illness has long been 
misunderstood. In fact, it accounts for more than 15 percent of 
the burden of disease in established market economies. This is 
more than the disease burden caused by all cancers combined.
    More than 20 million American adults suffer from unipolar 
or major depression every year, and it is the leading cause of 
disability in the world today. An additional 2.3 million people 
suffer from bipolar disorder. Onset is nearly always before the 
age of 20, meaning more high school drop-outs, more illegal 
drug and alcohol use, higher teen pregnancy rates, more teen 
violence, and more adolescent suicides. An estimated 50 million 
Americans experience a mental disorder in any given year, yet 
only one-fourth of them actually receive mental health and 
other services. Women are more than twice as likely as men to 
experience depression. One out of every four American women 
will experience a major depressive episode in her lifetime.
    Coping with these devastating illnesses is a tragic, 
exhausting, and difficult way to live. Mood disorders and other 
mental illnesses kill people every day. Depression is the 
leading cause of suicide. One in every five bipolar sufferers 
takes his or her life; one in five. Suicide is the third 
leading cause of death among fifteen to twenty-four year old 
Americans. For every two homicides committed in the United 
States, there are three suicides.
    Despite these facts, stigmatizing mental illness is a 
common occurrence. Labeling people with mental illnesscontinues 
to send the message that de-valuing mental illness is acceptable.
    Equally devastating is the stigma associated with the 
research of mental illnesses. Research in behavioral science is 
as critical as that undertaken for any other illness. Our 
understanding of the brain is extremely limited, and will 
remain so for decades, unless much greater financial support is 
provided. Neuro-science research is also critically important 
to understand the mechanisms in the brain that lead to these 
illnesses. Every day, technology and science bring us further 
in understanding the brain. These kinds of successes build upon 
each other. Great strides are being made, but it is imperative 
that the progress be maintained.
    In 1999, the Surgeon General released the first-ever study 
from that office on mental illness. It concluded that these 
diseases are real, treatable, and affect the most vital organ 
in the body, the brain. We are particularly pleased that NIMH 
played a lead role in the Surgeon General's report on youth 
violence. With further research into the relationship between 
mental illness and violence, we are hopeful that tragedies like 
the recent school shootings in California and across the 
country can be prevented in the future. Research supported by 
NIMH has led to a much better understanding of these illnesses. 
We are learning more about their impact on other diseases, such 
as Parkinson's, cardio-vascular ailments, stroke, diabetes, and 
obesity. But more funding for NIMH and other research 
institutions is critical to ensure that any forward momentum is 
not lost.
    We commend the subcommittee's past support of the National 
Institutes of Health and the National Institute of Mental 
Health, and your renewed commitment to full funding of mental 
health research. Together, our efforts will mean real treatment 
options, and an end to the stigma associated with mental 
illness, lives saved, and a far more productive America.
    Again, I appreciate the opportunity to testify.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Mr. Jackson, do you have any questions?
    Mr. Jackson. I do not have any questions, Mr. Chairman.
    Mr. Regula. Thank you for coming.
    Ms. Lewis. Thank you.
    Mr. Regula. Our next witness will be Dr. George Hardy, 
Executive Director of the Association of State and Territorial 
Health Officials. Mr. Hardy, welcome.
                              ----------                              

                                         Wednesday, March 21, 2001.

         ASSOCIATION OF STATE AND TERRITORIAL HEALTH OFFICIALS


                                WITNESS

GEORGE E. HARDY, JR., MD, MPH, EXECUTIVE DIRECTOR, ASSOCIATION OF STATE 
    AND TERRITORIAL HEALTH OFFICIALS
    Mr. Hardy. Thank you, Mr. Chairman, Mr. Jackson, and 
members of the subcommittee. I appreciate the opportunity to 
appear here this morning. My name is George Hardy. I have the 
privilege of serving as the Executive Director of ASTHO, the 
Association of State and Territorial Health Officials.
    In the last century, our nation has made tremendous strides 
in improving the health of Americans. As Dr. Sever just 
reminded you, we have eradicated smallpox from the globe, polio 
from the Americas, and we have had substantial reduction in the 
incidents of disease and death from major infectious and 
chronic diseases. We also recognize that there is a lot more 
that we have to do.
    I would like to make the case that as a nation, we need to 
continue our investment and research, but just as importantly, 
we need to invest in the transfer of research findings to 
public health programs. If research findings are not made 
available to the public, they might just as well not have been 
made.
    If society is going to be the ultimate beneficiary of our 
commitment to research, we need to make the same kind of 
commitment to investment in programming.
    CDC and HRSA provide the states with the resources to carry 
out these public health programs. ASTHO urges the committee to 
assure that CDC receives a total appropriation in fiscal year 
2002 of $5 billion and HRSA, $6.7 billion
    This morning, I will discuss only a few of the important 
programs to states. You have heard about immunization, but you 
are going to hear about it again. Let me tell you how important 
this is.
    In the last 50 years, immunization programs have produced a 
95 percent decline in most childhood vaccine-preventable 
diseases. Despite this, an estimated one million American two-
year-olds have not received one or more doses of vaccine that 
they should have had, at that point in life.
    Not only must we assure that the children are adequately 
immunized, but we also need to assure that adolescents and 
adults receive needed immunization services, such as influenza, 
hepatitis, and pneumococcal vaccine.
    We thank the members of this subcommittee for ensuring that 
CDC received a down-payment last year on much-needed 
immunization funding. But as the Institute of Medicine has 
pointed out, additional funds are still necessary to meet the 
need.
    Just one example of such a need is the important challenge 
of raising immunization levels among children served by WIC 
programs. Specifically, we are requested $32.5 million 
additional dollars for CDC's immunization infrastructure 
program, and $93 million additional for domestic vaccine 
purchases.
    This latter figure, I know, sounds high; but it is 
necessary if we are going to provide the newly-approved 
pneumococcal vaccine for children. This vaccine will cost 
health departments nearly $200 per child to purchase.
    The preventive health and health services block grant is a 
component of every state's strategy to address their own unique 
health needs. ASTHO has just produced this new publication, 
``Making a Difference,'' which I know you have seen, Mr. 
Chairman, and it documents the impact of public health through 
this program.
    Every state does something different. In Ohio, for 
instance, to just pick a state at random, the Health Department 
has shown a marked reduction in the incidents of adverse 
reactions and preventable hospital admissions, as a result of 
medication errors in the elderly.
    As I have said, every state has addressed its own problems. 
I think that this document will convince you of the importance 
of the preventative block.
    Since its inception 20 years ago, funding for the 
preventive block grant has been stagnant. It has not kept pace 
with inflation.
    It has not been adjusted for the increasing population, or 
for the new public health needs that were not even known at the 
time it was created, such as AIDS and West Nile Virus. We are 
asking the subcommittee to provide an additional $75 million 
for that block grant.
    Last year, the Congress enacted the Public Health Threats 
and Emergencies Act, to address bioterrorism, antimicrobial 
resistance, and public health capacity. Each of these are 
critically important, and we would urge the subcommittee to 
fully fund the $534 million that is authorized for these 
services.
    Many other programs at CDC and HRSA deserve this 
committee's attention. The Maternal and Child Health Block 
Grant and the Ryan White Care Act, both programs at HRSA, are 
critical to the states, and we support the request of $850 
million for the MCH block grant.
    I want to close by expressing again our appreciation to 
this subcommittee for its past commitment to public health. 
Your work has made a tremendous difference in the lives of 
people, and we are going to need your help again this year, as 
we try to advance the health of our Nation.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you very much for your comments. I 
am sure there is a great need there.
    The next witness is Dr. Thomas Clemens, Professor of 
Medicine and Molecular and Cell Physiology, University of 
Cincinnati.
                              ----------                                


                                         Wednesday, March 21, 2001.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                                WITNESS

DR. THOMAS L. CLEMENS, PROFESSOR OF MEDICINE AND MOLECULAR AND CELL 
    PHYSIOLOGY, UNIVERSITY OF CINCINNATI COLLEGE OF MEDICINE, NATIONAL 
    COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES
    Dr. Clemens. Thanks, Mr. Chairman and Congressman Jackson.
    My name is Tom Clemens. I work at the University of 
Cincinnati. I do basic research in bone biology. With me is 
Charles Hall, a patient with fibrous dysplasia.
    The National Coalition for Osteoporosis and Related Bone 
Diseases appreciates this opportunity to present our position 
on the need for continued and expanded funding for osteoporosis 
and related bond disease research at the National Institutes of 
Health. We also appreciate the committee's past support for the 
goal of doubling the NIH budget, and last year's significant 
increase.
    The bone diseases represented by our coalition occur in all 
populations and at all ages. They are devastating diseases, 
with significant physical, psycho-social, and financial 
consequences, including pain, disability, and death.
    Consider, if you will, what we already know about how our 
bones function. Throughout life, our bone is constantly being 
remodeled through repeated cycles of bone breakdown and bone 
build-up. As we age, this balance shifts in favor of bone 
breakdown, rather than bone build-up. If unchecked, this 
delicate balancing act goes awry, and this results in bone 
disease.
    Our increasing understanding of this process has led to 
exciting new drug therapies, that balance out. Yet, bone 
disease still has no cure, and there are many important 
questions remaining unanswered.
    What are the major bone diseases? One is osteoporosis, the 
most prevalent bone disease in this country. It is 
characterized by low bone mass and structural deterioration of 
bone. Ten million Americans have osteoporosis, and 18 million 
more have low bone mass, placing them at risk of the disease.
    In 1995, osteoporosis was responsible for 2.5 million 
physician visits; 180,000 nursing home omissions, and over 
400,000 hospital admissions. The direct cost of fracture is 
$13.8 billion, which should triple by the year 2040.
    Paget's disease of bone is a chronic disorder that may 
result in enlarged or deformed bones in one or more regions of 
the skeleton. Complications may include arthritis, fractures, 
bowing of the limbs, and hearing loss. Paget's affects up to 
eight percent of our population over 60. That is two to three 
million Americans.
    Osteogenesis Imperfecta is a genetic disorder that is 
typically diagnosed in infancy. Osteogenesis imperfecta causes 
bones to break easily. For example, a cough or a sneeze can 
break a rib; simply rolling over in bed can break a leg.
    Osteogenesis Imperfecta affects an estimated 30,000 adults, 
children and infants in the United States, causing as many as 
several hundred broken bones in a lifetime.
    I understand from Mr. Grove, Chairman Regula, that you have 
actually had the opportunity to see a number of these patients 
at the Institute of Child Health.
    Fibrous dysplasia, which affects Mr. Hall, is a chronic 
disease of the skeleton, which causes expansion of one or more 
bones, due to the development of a fibrous scar within the 
bone. This weakens the bone, causing pain, deformity, 
disability, and fracture. At present, there are no approved 
therapies for this disease.
    Osteopetrosis is a disease present at birth, at which bones 
are overly dense. This is due, again, to an imbalance between 
bone formation and bone breakdown. Complications often begin 
before the age of five, and include fractures, frequent 
infections, and problems with sight and blood vessel disease. 
The National Institute of Arthritis and Muscular Skeletal and 
Skin Diseases, NIAMS, leads the Federal research effort on bone 
disease; however, the need for trans-NIH search is vital. Bone-
related disease cuts across many research institutes at the 
NIH. Given the breadth and depth of these diseases, we urge the 
committee to instruct NIH to make this one of its top trans-NIH 
priorities.
    With the steady greying of Americans, now is the time to 
find solutions to these dehabilitating diseases, in order to 
alleviate the stress that will be placed on the Medicare system 
in the future.
    Vast opportunities still exit to expand our current 
knowledge base. Initiatives that may serve as springboards to 
further research include: basic research, funded by the NIH; 
and clinical trials with power-thyroid hormone, or PTH, the 
newest front-line treatment for osteoporosis.
    One form of PTH has just been submitted to the FDA for 
approval. Researchers still do not really know how it functions 
at the cellular level.
    While osteoporosis was once thought to be a woman's 
disease, it is now an important issue among men. An estimated 
one-third of hip fractures, worldwide, occur in men, including 
the one recently sustained by President Ronald Reagan. A major 
study on how the disease affects men is currently underway and 
supported by the NIH. In the area of osteogenesis imperfecta, 
researchers are exploring the effectiveness of a drug that 
appears to increase bone marrow density and decrease bone loss.
    Finally, a new clinical center for patients with fibrous 
dysplasia was recently established at the NIH, and has proved 
to be a resource for physicians and patients around the 
country, while furthering research on this crippling disease.
    Mr. Chairman, the research community sincerely appreciates 
the committee's efforts over the years to ensure continued 
strength of the NIH research program. The high value that we 
continue to place on biomedical research will lead to the 
prevention of disease, reduce disability, and decrease the 
staggering health care costs associated with bone and other 
diseases.
    Just let me say one more thing before I finish, and that 
concerns the timing of our request. With the completion of the 
human genome project, researchers right now are poised to make 
new discoveries and identify new gene targets. This is going to 
be absolutely essential, so the timing of our request is 
critical.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you deal with brittle bones?
    Mr. Clemens. Yes, and the one disease that I did mention, 
osteopetrosis, is called marble bone disease. Osteogenesis 
imperfecta is also associated with brittle bones, and is called 
actually Brittle Bone Disease.
    Mr. Regula. That is a very difficult challenge.
    Are there any questions, Mr. Jackson?
    Mr. Jackson. Mr. Chairman, just by virtue of the fact that 
NIAMS is an institute at NIH, and they are already engaged in 
trans-NIH research on many of the diseases that you indicated, 
is there a specific funding request for any of the diseases 
that you mentioned, that should be covered, above and beyond 
what the committee and the President have already made a 
commitment to do? I am not so sure that I actually heard that 
in your testimony.
    Mr. Clemens. We would recommend a 16.5 percent increase for 
NIAMS; but I wanted to stress the trans-NIH funding; because 
there are institutes, for example, child health and the cancer 
institutes, where these bone diseases are also funded. So we 
would like to recommend the 6.5 increase, with the trans-NIH 
funding for that. That is not over and above 16.5 percent.
    Mr. Regula. Thank you very much.
    Our next witness is Lawrence Pizzi, Volunteer, North 
American Brain Tumor Coalition.
                              ----------                              

                                          Wednesday, March 21, 2001

                  NORTH AMERICAN BRAIN TUMOR COALITION


                                WITNESS

LAWRENCE PIZZI, VOLUNTEER, NORTH AMERICAN BRAIN TUMOR COALITION
    Mr. Pizzi. Good afternoon, Mr. Chairman. I am going to 
follow suit with many of my predecessors, and tell you that 
although I was born overseas, my first and earliest memories 
are Kent, Ohio. [Laughter.]
    Mr. Regula. You are getting close.
    Mr. Pizzi. I knew I had to come up with something.
    Mr. Regula. Well, Chicago and Ohio have done well today.
    Mr. Pizzi. My name is Larry Pizzi. It is my privilege to 
appear today as a representative of the North American Brain 
Tumor Coalition, a network of 12 charitable organizations that 
raise funds for brain tumor research, and provide information 
and support to individuals with brain tumors, their families, 
and their friends.
    We corroborate in advocacy to increase brain tumor 
research. We also work to guarantee that every brain tumor 
patient has access to the best possible health care.
    I am also the Executive Director of one of the coalition's 
founding member organizations, and the only member of the 
coalition not represented by one of the states on this 
committee. I am from Massachusetts.
    Most importantly, though, I am the father of Timothy 
Lawrence Pizzi, a child diagnosed with a brain tumor in 1989. 
He lived nearly seven years, before dying at the age of 12.
    Mr. Regula. This was your son?
    Mr. Pizzi. Yes, my son.
    Mr. Regula. He was born with the tumor?
    Mr. Pizzi. He was diagnosed at age six with a tumor that he 
probably had since birth. He died at age 12. He and thousands 
like him, children and adults, are the reason that my testimony 
today is a privilege, and I thank you.
    Brain tumors are a unique disease and present special 
challenges for all that they touch. Brain tumors are not a 
single disease. Instead, there are at least 126 types of 
central nervous system tumors. It is difficult to treat brain 
tumors, not only because of their diversity, but because of the 
unique biology of the brain.
    I am sure that you can understand how it is possible to 
remove a lung, a breast, or prostate that is affected by 
cancer; but we cannot remove the brain. Treatment strategies 
that are successful with other cancers cannot be used to treat 
brain tumors.
    Moreover, brain tumors affect the organ that make us who we 
are. They are a disease not only of the body, but also of the 
soul. They are a disease of the quality of life.
    A recent Government study accurately defined a brain 
tumor's impact as mental impairment, seizures, and paralysis 
that affect the very core of a person, and have a demoralizing 
effect on loved ones.
    Added to these burdens is the knowledge that for most brain 
tumors, adequate treatment is not available. In children, even 
if they do survive the devastating impact of the treatment, it 
often leaves them with permanent damage. However, these are 
exciting times, and there is hope for progress.
    I would simply echo those who have come before me, and ask 
that we continue to fund the National Institutes of Health in 
such a way that we essentially double the research budget by 
the year 2003. We join the other patient organizations in 
commending this committee for its role in that progress, and we 
would ask that you continue it.
    Brain tumor research suffers from a lack of trained 
clinical investigators. Good funding is going to be very 
important to continue attract them.
    Mr. Regula. Is there any one institution that is focusing 
on this, that you are aware of?
    Mr. Pizzi. That is my next point. We have been urging for a 
number of years corroboration between the two institutes at the 
National Institutes of Health, that have responsibility for 
brain tumors, the NINDS and NCI. That is the National Institute 
of Neurological Disorders and Stroke and the National Cancer 
Institute.
    I am very glad to say that over the last year, we have seen 
much progress in that area, resulting in this document by a 
progress review group, that was carried out jointly bythe NINDS 
and the NCI, and advocates in the extra-mural community.
    I am here today to ask you and your committee to ensure 
that this progress review group document, which represents a 
true corroboration between Government, the private sector, and 
the advocacy sector, not become a document on a shelf.
    These organizations, the NCI and the NINDS, have worked 
very well together to produce a national strategy for attacking 
this disease. We have a couple of specific requests.
    One is that we enhance brain tumor research through 
continuing the corroboration that this document represents. The 
two institutes should strengthen their mechanisms for 
coordination and corroboration among extra-mural researchers. 
The written version of my testimony contains the details of how 
we would like this accomplished.
    They should organize and fund a series of inter-
disciplinary meetings, of researchers that would focus on the 
subjects of brain tumor biology. They, along with the Center 
for Scientific Review, should make sure that study sections, or 
the people who look at the grant requests coming up from the 
field, saying yes, we should fund this or no, we should not, 
have the right expertise to evaluate brain tumor grants. 
Currently, they do not.
    Mr. Regula. You do not think they are capable of making 
judgments on the allocation of the resource money?
    Mr. Pizzi. Brain tumors are highly specialized. Our 
experience is that the specialists who make up the brain tumor 
community are not adequately represented on those.
    I will close with this point. In addition, there is the 
recently established NCI-NINDS Neuro-oncology Branch. They see 
this as great progress, because it represents the two 
institutions. We would like to see that branch continue, to not 
only work intermurally in Bethesda, but to be sort of the focal 
point for the corroboration.
    I would like to tell you that my son was very close to a 
very prominent brain tumor researcher. His name was Dr. Mark 
Israel. One day shortly before my son died, knowing that he 
would die, he called Mark on the telephone, and asked him the 
question that he would always love to ask him, ``Mark, are 
still looking for a cure?'' Mark, of course, told him that he 
was. Timothy said to him, ``Now would be a good time.''
    It did not work for Tim, or thousands of others, since he 
died five years ago. He became part of one statistic that I 
will leave you with. Brain tumors are the leading cause of 
cancer deaths in children under the age of 20, now surpassing 
acute lymphoblastic leukemia, and are the third leading cause 
of cancer deaths in young adults, ages 20 to 39.
    We applaud the dedication of this subcommittee to advancing 
biomedical research. We look forward to working with you to 
support brain tumor research at a time when advances, we 
believe, are truly going to be possible, and to make a time 
when the Timothys of this world will have a much brighter 
future.
    I thank you.
    [The information follows:] 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    What are the choices, since you cannot use chemicals or 
chemotherapy?
    Mr. Pizzi. Brain tumors are resistent, generally, to 
chemotherapy, because of the nature of the biology of the 
brain. Radiation is a very common treatment; but, of course, it 
does a lot of damage to normal, healthy brain tissue.
    So we have a case where the treatment can leave the patient 
cured or in remission, but with so many deficits. Nearly 80 
percent of adults who have brain tumors or are treated for them 
are unable to go back to work, even though they are still 
alive.
    Children who are treated for brain tumors live the rest of 
their lives with cognitive deficits. So it is just the nature 
of where it is, Mr. Chairman. It is truly a unique organ of the 
body. There are 126 kinds of them. There is no other cancer 
that has that many sub-sets of a disease.
    Mr. Regula. It puts pressure on the brain.
    Mr. Pizzi. Automatically, and that, of course, is a major 
problem.
    Mr. Regula. I had a friend that died that way.
    Thank you very much.
    Mr. Pizzi. Thank you very much for your time.
    Our next witness is Ken Moss, Friends of Cancer Research.
    Mr. Moss?
                              ----------                              

                                          Wednesday, March 21, 2001

                       FRIENDS OF CANCER RESEARCH


                                WITNESS

DR. KEN MOSS, FRIENDS OF CANCER RESEARCH
    Ms. Segal. Good afternoon, Mr. Chairman, I am Ellen Segal 
of Friends of Cancer Research. I am pleased to introduce to you 
Dr. Ken Moss. He is from your home state of Ohio, from 
Cleveland. He is an endothesiologist, and he also teaches at 
Case Western.
    Dr. Moss and his wife Anita are going to put a human face 
on this disease, and talk about their daughter Elisa. You will 
hear from Dr. Moss.
    Dr. Moss.
    Dr. Moss. Thank you.
    Chairman Regula and members of the subcommittee, thank you 
for the opportunity to testify today.
    I come before you not as a physician, but as a father of a 
beautiful and talented 17 year old, who passed away last 
October from cancer.
    I took this photo on Elisa's high school graduation, almost 
four months before she died. She looked exactly the same way on 
that fateful day in October. In fact, hours before she died, 
she stopped in front of the mirror on the way out the door to 
the doctor's office, telling her mother that she was going to 
put on makeup, so that no one would be able to tell that, ``I 
am a cancer patient.''
    Elisa was gifted and mature beyond her years. Almost 
everyone she met liked her. Over 900 people attended her 
funeral. Classmates flew home from college from as far away as 
California, because Elisa meant that much to them.
    It is impossible in five minutes to tell you of all the 
anguish, fear and frustration that we felt as we watched 
helplessly as cancer slowly took her.
    While returning from a New Year's cruise in January of 
1998, my daughter noticed pain in her thigh. I did not think 
anything of it; however, the pain persisted. Within a few 
weeks, my wife arranged for a MRI. A mass was found and quickly 
biopsied.
    ``I am sorry, but your daughter has cancer.'' No statement 
will strike more terror into a parent than that. Even worse, 
Elisa had a rare, highly malignant tumor. The prognosis was a 
20 percent five year survival.
    As a parent, I was devastated; but as a doctor, I simply 
could not accept it. We took her to Memorial Sloan Kettering 
for a second opinion. They recommended high dose chemotherapy, 
surgical excision, and a bone marrow transplant.
    Throughout the chemotherapy that caused extreme illness, 
loss of her hair, and most importantly, forced her to remain at 
home and stop going to school, Elisa fought back. She never 
gave up and she never complained.
    During each of the 12 surgical procedures that she had in 
the two years that followed her diagnosis, she always remained 
optimistic, and she was an inspiration to everyone who knew 
her.
    In August, 1998, Elisa underwent a stem cell transplant. 
Yet, six months later, she relapsed, with a tumor in her lung. 
After a biopsy confirmed the worst, a big debate ensured about 
what to do. Traditional medicine had failed her, so we examined 
experimental protocols at the National Cancer Institute.
    One study in particular had promise, and Elisa, who had 
always played an active role in her treatment, agreed. This 
began a period of four months of commuting to Bethesda with 
Elisa. But the home run that we had hoped run was not to be, 
and by August 1, 1999, it was clear to investigators that Elisa 
was not responding and, in fact, her tumors were doubling, both 
in size and in number, each month.
    I brought Elisa back home to the Cleveland Clinic, and her 
doctor sat me down and told me that she had less than three 
months to live, and that her only chance was more chemotherapy, 
to hopefully shrink the tumors and buy her more time. To me, 
this was insanity, doing the same thing again, and expecting a 
different result.
    I knew that her only hope was to target the cancer cells by 
other means, such as attacking the tumors' blood supply. My 
family and I had already read all the literature. We were 
knowledgeable about the tremendous advances that were being 
made with different agents.
    There were so many promising treatments on the horizon; if 
only we had the time to wait for the studies to be carried out; 
time for new drugs to come to market. But we did not, and Elisa 
had only three months to live.
    Elisa's doctors at the Cleveland Clinic accepted my 
suggestion that we try a radically different approach that was 
only vaguely described in one person and in animal studies. The 
treatment which we modified constantly over the next 13 months 
significantly slowed her tumor growth. Not only did Elisa not 
die, she went with us on a 10 day Christmas cruise, and had a 
ball.
    In March, Elisa returned to high school and completed her 
senior year. She went to prom and lived as normally as she 
could, despite the fact that twice a week, in our family room, 
I would hook her up to an IV, and administer the experimental 
treatment.
    She graduated with highest honors, and was accepted to Case 
Western Reserve University, where she intended to get a 
combined degree in nutrition and biochemistry.
    Sadly, her time ran out before the treatment protocol that 
we were using could be fine-tuned. Elisa was content to live 
with her cancer. She was hopeful that we could convert it to a 
chronic disease.
    Elisa's dream can become a reality if Congress and the 
White House live up to the five year commitment to double the 
NIH budget. If the Government falters on the commitment, at a 
time of great excitement and optimism amongst cancer 
researchers, the momentum will be lost. It is also essential to 
fund NCI's bypass budget request, which is a comprehensive 
national plan for cancer research.
    There is hope in the near future for effective treatment 
alternatives, and promising laboratory research awaits clinical 
studies, such as those underway at the NCI. No single treatment 
will effectively control cancer. Combinations of different 
treatments will be necessary. Costly clinical studies of 
treatment combinations must be started.
    Elisa did not die because she had incurable cancer. My 
daughter died because we did not know how to control it.
    A week before she died, she said her goodbyes. She made one 
request to each member of her family. She requested that my 
son, Jordan, name his first-born child after her. She requested 
that my wife, Anita, visit her grave every day, for the first 
year.
    To me, she asked that I ensure that her death would not be 
in vain; that something positive would result from it. It is 
for this reason that I come before you today. Please do not 
allow Elisa's legacy to die.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We will try. Thank you for coming.
    Our next witness will be Michaelle Wormley, Executive 
Director of Women Opting for More Affordable Housing Now, Inc.
                              ----------                                


                                         Wednesday, March 21, 2001.

           WOMEN OPTING FOR MORE AFFORDABLE HOUSING NOW, INC.


                               WITNESSES

MICHAELLE WORMLEY, EXECUTIVE DIRECTOR OF WOMEN OPTING FOR MORE 
    AFFORDABLE HOUSING NOW, INC.
JOANNE KANE, EXECUTIVE DIRECTOR OF THE MCAULEY INSTITUTE
    Ms. Wormley. Good afternoon, Mr. Chairman and members of 
the subcommittee. You have my written statement. I will just 
provide you with some of the highlights.
    I am Michaelle Wormley, the Executive Director of Women 
Opting for More Affordable Housing Now, WOMAN, Incorporated. We 
are a Southeast Texas non-profit organization, that creates 
affordable, livable transitional housing, and supportive 
services for women living in abusive relationships. We are 
asking for at least $25 million for fiscal year 2002, for a 
housing assistance program authorized under the Violence 
Against Women Act last year.
    WOMAN, Inc. grew out of a networking group of nine battered 
women's shelters and service providers in a 13 county area, 
including Houston, Dallas, and Beaumont, Texas. Our long-term 
goal, since we were founded in 1993, has been developing 
transitional housing facilities at each of the nine locations 
represented in the consortium.
    Each sponsor provides comprehensive social services and 
property management, while WOMAN, Inc. may finance, own, 
maintain, operate and sell the properties it develops in order 
to provide the most cost-effective project that is affordable 
to woman earning 50 percent or less of the medium income.
    I am accompanied today by JoAnne Kane, Executive Director 
of the McAuley Institute. McAuley was founded by the Sisters of 
Mercy in 1983, and is the only national faith-based housing 
organization that focuses its resources on low income women and 
families.
    McAuley has worked closely with WOMAN, Inc. since 1993, 
providing both technical assistance and financial services. 
Many of the women who participate in housing programs and 
related services provided by the community-based groups like 
WOMAN, Inc. are survivors of domestic violence.
    As housing providers, the dilemma that we saw was that 
families, having begun to stabilize their lives in a shelter 
program had only one choice when seeking affordable housing; 
that of returning to their batterers.
    Our vision was to provide survivors more viable options for 
restoring their lives. That vision was honored by the Fannie 
Mae Foundation with the maximum Awards of Excellence in May of 
1999, and recognition of our Destiny Village Project in 
Pasadena, Texas. Destiny Village is a 30 unit apartment 
complex, which provides supported housing to families leaving 
domestic violence.
    Over the past several years, McAuley, along with a 
coalition of 200 groups representing domestic violence and 
sexual assault survivors have strived to re-authorize the 
Violence Against Women Act with the Housing Assistance Program.
    With the October, 2000 Enactment of VAWA 2000, our goal was 
partially realized. VAWA housing assistance would provide a 
bridge, up to eighteen months, to help survivors secure a 
stable, secure environment for themselves and their children.
    The new law requires that the housing assistance must be 
needed to prevent homelessness, and may be used for rent, 
utilities, security deposits, or other costs of relocation. 
Support services to enable survivors to obtain permanent 
housing, and to aid their integration into a community, 
including transportation, counseling, child care services, case 
management, and employment counseling could be supported with 
grant funds.
    VAWA enjoyed strong bipartisan support, and the Congress 
clearly intended to create and fund a viable housing assistance 
program under VAWA.
    We fully expect the program to be extended this year as 
part of the Child Abuse Prevention and Treatment Act, for which 
the current authorization is five years, and expires this year.
    The need for this program is critical. According to the 
U.S. Conference of Mayors 1999 survey of 26 cities, domestic 
violence was listed as the fifth leading cause of homelessness.
    The Texas Department of Human Services figures indicate 
that for the fiscal ending 1998, 3,796 adults were denied 
shelter, due to lack of space. A conservative estimate from 
HUD's homeless office is that nine percent of all clients 
serviced came directly from a domestic violence situation.
    An informal poll of domestic service providers nationwide, 
conducted over the last two months about a national coalition 
against domestic violence, the number one funding need 
identified by shelter based programs was for transitional 
housing for battered women.
    The importance of housing assistance to families fleeing 
abusive situations cannot be overstated. Short-term housing aid 
and targeted supportive services can help survivors bridge the 
gap between financial and emotional dependency, and productive, 
healthy, and life-sustaining environments for themselves and 
their children. We ask that you provide $25 million for VAWA 
housing assistance for the coming year.
    JoAnne, did you want to speak?
    Ms. Kane. The experience of WOMAN, Inc. is duplicated 
across the country, both as a direct response to the woman 
fleeing violence, and an example of successful programs, 
created by local women leaders to deal with some of our 
nation's most intractable problems.
    These women leaders project a solely pathological 
assessment, which looks at violence alone as the problem. They 
craft multi-faceted programs that combine human development and 
community development, family health andcommunity building 
strategies.
    The care-givers are often finding themselves in the same 
situation as the women, knowing that housing is the one 
solution, and yet finding that the opportunities for women 
decline daily. There are 5.4 million worse case housing needs 
in this country, and 60 percent are women.
    So the appropriation is needed, a system and a practical 
system is ready to respond, and their are women for whom the 
opportunity is not just a home of their own, but an opportunity 
to leave family violence behind forever.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Do the habitat programs help?
    Ms. Wormley. They are a critical response to the need. 
However, again, in trying to assure stability for the mothers 
and the children, transitional housing is very critical.
    Mr. Regula. Thank you very much.
    Our next witness is Jerold Goldberg, Dean, Case Western 
Reserve, School of Dentistry. Welcome to the panel.
                              ----------                              

                                         Wednesday, March 21, 2001.

       HEALTH PROFESSIONS AND NURSING EDUCATION COALITION [HPNEC]


                                WITNESS

JEROLD GOLDBERG, D.M.D., DEAN, CASE WESTERN RESERVE UNIVERSITY SCHOOL 
    OF DENTISTRY, TESTIFYING ON BEHALF OF THE HEALTH PROFESSIONS AND 
    NURSING EDUCATION COALITION [HPNEC]
    Mr. Goldberg. Mr. Chairman, I am Jerry Goldberg, Dean of 
the Case Western Reserve University School of Dentistry. I am 
testifying today on behalf of the Health Professions and 
Nursing Education Coalition [HPNEC].
    This is an informal alliance of over 40 organizations, 
dedicated to ensure that Title 7 and 8 programs continue to 
help educate the Nation's health care personnel.
    These programs improve the accessibility, quality, and 
racial and ethnic diversity of the health care work force. In 
addition to providing unique and essential training and 
education opportunities, these programs help meet the health 
care delivery needs of under-served areas in this country. At 
times, they serve as the only source of health care in many 
rural and disadvantaged communities.
    Additionally, the graduates of Bureau of Health Profession-
funded programs are three to ten times more likely than average 
graduates to participate in medically under-served communities. 
These programs graduate two to five times more minority and 
disadvantaged students.
    As the Nation's health care delivery system rapidly changes 
and makes dramatic changes, the Bureau of Health Professions 
has identified the following five priorities, to ensure that 
all providers are prepared to meet the challenges of the health 
care in the 21st Century. They are: geriatrics, genetics, 
diversity, and informatics.
    HPNEC has determined that these programs require $550 
million to educate and train the health care work force that 
addresses these priorities.
    As part of the two year effort to reach this goal, HPNEC 
recommends at least $440 million dollars for Title 7 and 8 in 
fiscal year 2002. These figures do not include funding for the 
Childrens Hospital's Graduate Medical Education Program, and 
are now separate from Title 7 and 8 funding.
    The programs are organized in the following categories: 
minority and disadvantaged health professions; primary care 
medicine and dentistry; interdisciplinary, community-based 
linkages; health professions work force information and 
analysis; public health work force development; Nurse Education 
Act; and student financial assistance.
    A serious defect in our health care system is the lack of 
dental care for low income populations and those in under-
served areas. With funding from Title 7, institutions are able 
to provide oral health to these under-served populations.
    Dentists who have benefitted from advanced training in 
general dentistry and pediatric dentistry consistently refer 
fewer patients to specialists, which is especially important in 
rural and under-served urban areas, where logistics and 
financial barriers can make specialized care unobtainable.
    The Bureau of Health Professions in HRSA provides threeyear 
grants to start expanded programs and to expand programs, after which 
time, these programs must be self-sufficient. Eighty-seven percent of 
the dentists who go through these programs remain in primary care 
practice.
    Members of HPNEC are concerned that the Administration has 
severely cut or even eliminated portions of Title 7 and 8 
funding. It states in the health profession section of the 
budget blueprint that ``Today a physician shortage no longer 
exists. Moreover, the Federal role is questionable in this 
area, given that these professions are well paid, and that 
market forces are much more likely to influence and determine 
supply.''
    We contend that typical market forces do not eliminate work 
force shortages in under-served areas, and that their effect on 
skyrocketing costs of living has directly contributed to the 
kind of health care professionals in these regions. HPNEC has 
provided a letter to the President, outlining this position.
    We appreciate the subcommittee's support in the past. We 
look to you again to support these programs and their essential 
role in the health care system. Thank you for accepting this 
testimony.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for bringing this to our attention.
    Our next witness is Dr. Frankie Roman, Medical Director, 
Center for Sleep Disorders, at Doctors Hospital in Massillon, 
Ohio. We are happy to welcome you, my next door neighbor, 
almost.
    Dr. Roman. For a second, Mr. Chairman, I thought you were 
avoiding your neighbor. [Laughter.]
                              ----------                              

                                         Wednesday, March 21, 2001.

                       NATIONAL SLEEP FOUNDATION


                                WITNESS

FRANKIE ROMAN, M.D., MEDICAL DIRECTOR, CENTER FOR SLEEP DISORDERS, 
    NATIONAL SLEEP FOUNDATION
    Dr. Roman. Good afternoon, Mr. Chairman and Congressional 
staff members. Thank you for inviting me to present testimony 
this morning, or this afternoon, on behalf of the National 
Sleep Foundation.
    We have submitted written testimony to the official record, 
and I would like to use my time to address some of the major 
points regarding how sleep disorders, sleep deprivation, and 
fatigue impact the Nation's health and safety.
    As the Chairman mentioned, I am based in Massillon, Ohio. I 
drive through Navarro, Ohio, his home town every day. I just 
want to make my Ohio connection clear.
    The National Sleep Foundation is an independent non-profit 
organization that works with thousands of sleep experts, 
patients, and drowsy driving victims throughout the country, to 
prevent health and safety problems, related to fatigue and 
untreated sleep disorders.
    The Foundation's interest today in the subcommittee's work 
is based on the National Sleep Foundation's relationship with 
the Center for Disease Control and Prevention, and specifically 
with the National Center for Injury Prevention and Control.
    The NSF today is asking the subcommittee to consider 
providing an additional $1.5 million to the center's fiscal 
year 2002 funding, to address sleep deprivation and fatigue-
related injuries.
    Sleep represents a third of every person's life, and has a 
tremendous impact on how we function, perform, and think during 
the other two-thirds. Unfortunately, that is the first thing we 
sacrifice. We give up sleep to attend all these Congressional 
hearings and Congressional fund raisers later on in the 
evening.
    Too many of us forget that lack of adequate, restful 
slumber has serious consequences at home, in the work place, at 
school, and on the highway. Members of Congress are not immune 
to this. If you recall, Mr. Chairman, I did an informal survey 
a few years ago, with the help of your office. We found that 
seven percent of the Congressional members fall asleep during 
these Congressional hearings.
    Mr. Regula. Maybe it has got something to do with the 
witnesses.
    Dr. Roman. Well, hopefully it does not.
    The numbers were worse for the Congressional staff members, 
so I am not even going to mention that, just for them.
    It just shows that the ill effects of sleep deprivation are 
suffered by all, including members of Congress. This is 
something that touches each and every person in this country.
    Tragically, drowsy driving claims more than 1,500 lives, 
and accounts for at least 100,000 crashes in the UnitedStates, 
every year. The sad thing is that these incidents are preventable. Just 
this past week, Mr. Chairman, I saw a school bus driver from our 
community, who fell asleep at the wheel, and the kids are complaining 
about how the bus is wagging.
    I have seen many police officers, I have actually seen some 
of your Congressional members, I have seen elected officials 
from the school and the Government in our community; and so I 
do not put a face or a name today before you. However, I ask 
you, the next time you go to your community, look around and 
you will see that this is an issue that affects each and every 
one of us.
    Many of the groups before you, too, would benefit from my 
request today, or what the National Sleep Foundation is trying 
to accomplish through the CDC.
    Fatigue or sleep deprivation should be considered an 
impairment like alcohol and drugs. New research shows that a 
person who has been awake for 24 consecutive hours demonstrates 
the same impairment in judgment and reaction time, as an adult 
who is legally drunk. Today, it is unacceptable to drive or 
work under the influence of drugs and alcohol. Fatigue should 
fall under the same category.
    The National Sleep Foundation has worked with volunteers 
like myself for the next decade to raise awareness and minimize 
fatigue-related injuries. While public awareness is desperately 
needed, a strong Federal partner with the expertise and the 
ability to disseminate, test, and improve education, training 
and injury prevention programs to communities like ours in 
Stark County, Ohio, is crucial to attacking these problems.
    We feel that the CDC is our partner, and should help the 
NSF and public health officials address these problems.
    We have data telling us that lack of sleep affects the 
Nation on many different levels, from the airline pilot, and I 
have several pilots of that nature, to the child in the 
classroom, I receive many with a court order coming to see me; 
and from the Amish. Surprisingly, even though they have a 
simple life style, they are identifying sleep disorders as a 
problem in their day-to-day lives.
    This research is absolutely no good if we cannot translate 
it into education and injury prevention programs for the 
general public. Public education, physician and police 
training, school-based programs and work place prevention 
programs are all desperately needed.
    We believe that the CDC can and should play a vital role, 
working with the sleep community to address these problems by 
developing a sleep awareness plan that would set national 
priorities around sleep issues and public health and safety. 
This proposed sleep awareness program would allow the CDC and 
other Federal agencies to develop and distribute accurate 
medically sound information in programs to local communities.
    This information, coupled with training for those involved 
with public health and safety at the state level, will begin to 
turn the tide of injuries, health problems, and costs 
associated with sleepiness and sleep disorders, which I see on 
a daily basis.
    I thank you, Mr. Chairman, for your time. Again, we wish 
that the subcommittee would consider increasing the overall 
budget for the center by $1.5 million, to allow the center to 
act as a coordinating body for the development and 
implementation of this five year sleep awareness plan.
    Thank you for your consideration in this request. I would 
be glad to answer any questions that you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. It seems to me that you are talking about two 
different things, disorders and deprivation. Deprivation is 
lifestyle.
    Dr. Roman. Yes, but we consider it a disorder, also, 
because many of the sleep disorders cause sleep deprivation. 
Only through education and awareness will people realize that 
it is just not lifestyle, and that there are other things going 
on.
    Mr. Regula. Do you try to treat physical causes, or just 
try to treat the habits of people; that they just do not get 
enough sleep, they do not go to bed on time, and so on.
    Dr. Roman. We do both, Mr. Chairman.
    Mr. Regula. Are there certain physical causes that people 
do not sleep well, and is that something you treat?
    Dr. Roman. Yes, the most common one that we see is sleep 
apnea. That is people who snore and stop breathing in their 
sleep. Most of their manifestation is, I do not get enough 
sleep, or I feel tried when I wake up. These are people who 
fall asleep in different social situations, including driving 
or at work, or even on the toilet seat.
    Mr. Regula. Well, I suppose our societal lifestyle has 
something to do with it, the demands are so great.
    Dr. Roman. Unfortunately, the first thing that we all 
sacrifice is sleep, to get in all the activities, social, 
professional, and personal, that we would like. What we 
aretrying to educate the public is, this is a major mistake.
    Mr. Regula. Is there any magic number? I see different 
numbers. You should have six hours, seven hours, eight hours. 
Would that not depend a little bit on the physiology on the 
individual?
    Dr. Roman. Yes, the average is around eight hours. But 
there are some people who require less sleep, and some that 
require more. You cannot train yourself to sleep less. That is 
a myth; where you can say, I can get by with only four hours.
    What we do as a society, most Americans, we are chronically 
sleep deprived, and on the weekends, we make up, we sleep in; 
which, unfortunately, makes us start off the next week in a 
bind.
    For example, next week, which is National Sleep Awareness 
Week, and our clock shifts forward, there is a seven percent 
increase in accidents that Monday. It does not matter if you 
spring forward or fall back with our clock, but there is a 
seven percent increase. So I strongly recommend that no one 
drive next Monday.
    Mr. Regula. You should stay home from work; is that it? 
[Laughter.]
    Well, you apparently have got an ally in our President. He 
seems to have good habits about going to bed early, and that 
will be helpful.
    Dr. Roman. He also takes naps, which we strongly recommend. 
Unfortunately, it is very un-American to take naps.
    Mr. Regula. I thinking about one, myself, if I can get 
through this list. [Laughter.]
    Dr. Roman. I thank you for your time, Mr. Chairman. I am 
available in our community, as I am your neighbor. I will 
always be available to you. Thank you very much.
    Mr. Regula. Well, thank you for coming.
    Next is Deborah Neale, a member of the Ohio Chapter 
Executive Committee of the Ohio State Public Affairs Committee.
                              ----------                              

                                         Wednesday, March 21, 2001.

   OHIO CHAPTER EXECUTIVE COMMITTEE OF THE OHIO STATE PUBLIC AFFAIRS 
                               COMMITTEE


                                WITNESS

DEBORAH NEAL, MEMBER, OHIO CHAPTER EXECUTIVE COMMITTEE OF THE OHIO 
    STATE PUBLIC AFFAIRS COMMITTEE
    Ms. Neal. Thank you, Mr. Chairman.
    Good afternoon, I am Debbie Neal, a long time volunteer of 
the March of Dimes. I also bring you greetings from our former 
State Senator Grace Drake, who has just agreed to be on our 
committee in Cleveland, Ohio.
    As you know, the March of Dimes is a national voluntary 
health agency, founded in 1938 by President Roosevelt, to find 
a cure for polio. Today, the three million foundation 
volunteers and 1,600 staff members in every state, the District 
of Columbia, and Puerto Rico, work to improve the health of 
infants and children, by preventing birth defects and infant 
mortality.
    I am here today seeking the prioritization of funds to 
improve and health and well being of mothers, infants, and 
children, through research, prevention of birth defects, and 
developmental disabilities, and improved access to care. I am 
not here to lobby for funds for the March of Dimes, as less 
than one percent of the Foundation's funding comes from Federal 
sources.
    The Foundation supports continuing the five year effort to 
double the funding. We are especially interested in three 
issues within the National Institutes of Health.
    First, the National Institute for Child Health and Human 
Development should have the resources to expand research on 
birth defects and developmental biology, allowing for testing 
of new treatments for autism, and further research on Fragile 
X, which is the most common inherited cause of mental 
retardation.
    Secondly, we recommend increased funding for the National 
Human Genome Research Institute, to allow scientists to develop 
the next generation of research tools, and thereby accelerate 
an understanding of genomics.
    Third, other activities at NIH strongly supported by the 
Foundation include work being done by the National Center on 
Minority Health and Disparities; advancement of treatment 
options for sickle cell disease; and extra-mural research 
through the Pediatric Research Initiative.
    As you know, Mr. Chairman, last year, the Children's Health 
Act of 2000 created a new center on birth defects and 
developmental disabilities at CDC, bringing the number of 
centers that make up the CEC to seven. Support in Congress for 
this new center is indicative of the importance that members 
place on research and prevention activities related to birth 
defects.
    The new center begins operations in mid-April, April 15th, 
and we encourage the subcommittee to commit the resources 
needed to ensure a successful launch.
    Currently, three-quarters of the states monitor the 
incidents of birth defects. However, the systems vary 
considerably. CDC is working with states to standardize 
datacollection through 26 cooperative agreements, lasting three years 
each. However, funds are not adequate to support all the states seeking 
assistance, including our own state of Ohio.
    The March of Dimes recommends adding $2 million to CDC's 
state-based birth defects surveillance program. This CDC also 
supports eight regional birth defects research and prevention 
centers, where groundbreaking work on spina bifida, heart 
defects, Downs Syndrome, and other serious, life-threatening 
conditions present at birth are underway.
    Increased funding would allow additional data collection to 
study genetic and environmental causes of birth defects. The 
March of Dimes recommends adding $8 million to the budget for 
these eight centers.
    Developmental disabilities, monitoring and research are 
also important, and the Foundation supports CDC's plan to 
create five regional research centers to study developmental 
disabilities, such as autism, cerebral palsy, mental 
retardation, and hearing and vision deficits. The funding 
needed is $5 million.
    The new Center on Birth Defects and Developmental 
Disabilities will administer the folic acid education campaign 
and newborn screening program. The current folic acid education 
campaign has been inadequate, and should be funded at a greater 
level of $5 million for 2002, with an estimate by 2006. This 
life-saving intervention is needed to reduce the number of 
babies born with neural tube defects.
    Newborn screening for metabolic diseases and functional 
disorders such as PKU, sickle cell disease, and hearing 
impairment is a great advance in preventative medicine. To 
support newborn screening, the foundation recommends an 
increase, so that CDC can provide states the technical 
assistance needed to ensure that babies who test positive for 
these conditions receive appropriate care.
    Finally, we would like to focus your attention on two 
programs, administered by the Health Resources and Services 
Administration, that improve access to health care for mothers 
and children.
    The Maternal and Child Health Block Grant compliments 
Medicaid and the Children's Health Insurance Program. It is no 
wonder we call it CHIP. That is easier to say. This program 
targets service to under-served populations. The foundation 
recommends funding at the authorized level of $850 million.
    Secondly, community health centers are an essential source 
of obstetric and pediatric care, and the foundation supports 
$175 million in new funds, to increase both the number of 
centers, and improve the scope of services offered.
    Thank you for allowing me to testify today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Was it the March of Dimes started to eradicate 
polio?
    Ms. Neal. It was.
    Mr. Regula. So you heard the success story of that?
    Ms. Neal. It is. In fact, our friend, Pat Sweeney, has 
always said, it should change its name from the March of Dimes 
to the March of Quarters, because of inflation. [Laughter.]
    Mr. Regula. Right, but it was a tremendous success story.
    Ms. Neal. Well, it is fascinating to listen to the doctor 
talk about eradication worldwide. I mean, it is in our 
lifetimes that this has happened.
    Mr. Regula. I believe he said that they vaccinated 107,000, 
I believe.
    Ms. Neal. Yes, at one time.
    Mr. Regula. No, that was million, 170 million.
    That is great progress to make those achievements. We hope 
we can have the same success with birth defects.
    Ms. Neal. One of the reasons that I have chosen to be a 
volunteer with March of Dimes for so many years is because they 
do accomplish a lot of real concrete success stories.
    Mr. Regula. Well, thank you for coming.
    Ms. Neal. Thank you.
    Mr. Regula. Next is Dr. Amy Lee, Assistant Professor of 
Community Medicine, from Northern Ohio.
                              ----------                              

                                         Wednesday, March 21, 2001.

      FRIENDS OF THE HEALTH RESOURCES AND SERVICES ADMINISTRATION


                                WITNESS

AMY LEE, MD, MPH, MBA, FRIENDS OF THE HEALTH RESOURCES AND SERVICES 
    ADMINISTRATION
    Dr. Lee. Actually, besides your wonderful support to my 
academic institution, I have a brother who lives in Stark 
County, and my real estate agent works with your son, David, at 
Cutler GMA. That is my Ohio connection.
    Mr. Regula. My goodness.
    Dr. Lee. I am honored to be here today to testify on behalf 
of the Friends of the Health Resources and Services 
Administration or HRSA.
    The Friends of HRSA is an advocacy coalition of 125 
national organizations, and it represents millions of public 
health and health care professionals, academicians such as 
myself, and consumers.
    HRSA programs assure that all Americans have access to 
basic health care services. In Ohio, in fact, three fourths of 
our public health funding comes from Federal sources, and HRSA 
plays a major role in this support.
    HRSA is a health safety net for nearly 43 million 
Americans, who lack health insurance; 49 million Americans who 
live in areas that have little access to primary health care 
services; and also African American babies who are 2.4 times 
more likely than their white counterparts to die before their 
first birthday.
    The Agency's overriding goal is to provide 100 percent 
access to health care, with zero disparities. The Friends of 
HRSA feel the Agency requires a funding level of at least $6.7 
billion in order to achieve this goal.
    HRSA funding goes where the needs exists. Although programs 
are geared towards health care access, I would just like to 
highlight two programs, and mention several others.
    The first program is the new community access program. It 
allows communities to build partnerships among health care 
providers to deliver a broader range of health services to 
uninsured and under-served residents. Cincinnati actually 
received a CAP grant, and was one of the highest grant 
applications.
    This program coordinates some 50 organizations in this area 
through strategies to improve care, including the 
implementation of regional disease, management protocols for 
asthma, depression, diabetes and hypertension.
    The Friends are very concerned that the Administration's 
budget blueprint recommends eliminating this program of 
coordinated service delivery. This is an innovative program 
that is not duplicated anywhere else.
    The next program I would like to highlight is the health 
professions programs, which assure adequate national work 
force, despite projected nationwide shortages of nurses, 
pharmacists, and other professionals. Actually, Dr. Goldberg 
speak on behalf of this program, as well.
    Graduates of these programs are three to ten times more 
likely to practice in under-served areas. In addition, they are 
two to five times more likely to be minorities. The Friends are 
also concerned that cuts in these programs, which are proposed 
in the Administration's budget blueprint will impact this 
poorly.
    These programs provide up-front incentives for dozens of 
types of health professionals, not only physicians, but mental 
health, dentists, and also public health professionals, as 
well.
    Market forces will continue to drive shortages and mal-
distribution in many of these sectors, potentially leaving 
health centers under-staffed, without the support of health 
professions programs.
    Also, it is clear for the need for other HRSA programs, as 
well. The Maternal and Child Health Block Grant provided funds 
for the Cleveland Healthy Start Program, and they saw a 40 
percent in infant mortality, as a result.
    I really did not need to look any further than my local 
newspaper, the Akron Beacon Journal, to find other sources of 
need. On February 20th, the Akron Beacon Journal reported ``HIV 
stalks careless men.'' It reported that HIV is increasing in 
numbers in young people and heterosexuals.
    HRSA, next to Medicaid, provides the largest source of 
funding for AIDS programs, for low income and under-insured 
Americans.
    Over the weekend, actually, they ran a series of Ohioans 
spreading out, and blacks flee to suburbia. This told of folks 
who were going to suburban areas and rural areas to stay and to 
live there. Of course, there will be more need for programs 
such as the programs provided by HRSA to provide health care 
services.
    I would like to submit these three articles for the record, 
as well.
    Mr. Regula. Without objection.
    [The referenced articles follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Dr. Lee. As you can see, HRSA programs are all about access 
to health care for Americans. We are really, because if we have 
a toothache or if we get sick, we know where to go, and we will 
get taken care of. For millions of these Americans, it is not 
that easy.
    I would like to close with a story from a HRSA-funded 
vision specialty clinic; actually from your district in Wayne 
County in Wooster. On one occasion, a four year old boy was 
taken in by one of the Head Start Clinic staff, because they 
thought he might have problems seeing. They found, on exam, 
that he was functionally blind.
    Because of the actions of the crack staff, this boy had 
glasses in three days. After he put the glasses on, the doctors 
said, he passed the smile test, because when they put the 
glasses on, the boy had a huge grin. For the next few days, the 
days said that he just looked at things and people that he had 
never really seen before, because he had these glasses, and due 
to the services of this HRSA specialty care clinic.
    I do not think it is by accident that we have heard a 
number of public witnesses here that have spoken on behalf of 
HRSA programs, because HRSA offers that link between the 
services and the people that need it the most.
    Thank you for this opportunity for me to speak on behalf of 
the Friends of HRSA. I welcome any questions.
    Mr. Regula. Well, do you, in your role as Professor of 
Community Medicine, work with the physicians in training there?
    Dr. Lee. I work with a few. Actually, I am mostly an 
Administrator. I direct the master public health program, which 
is a partnership program of five public institutions there.
    I am also involved in public health activities through the 
Ohio Public Health Association. I am President this year, as 
well. I am a little involved in the medical student training.
    Mr. Regula. But the public health programs would be 
delivered by physicians and/or nurses, I assume?
    Dr. Lee. Actually, the master public health program, it 
could be physicians, but also nurses, health care 
administrators, for them to better provide health care services 
to communities, as opposed to individuals.
    Mr. Regula. I assume the community health centers would be 
something where you would have a direct involvement.
    Dr. Lee. Actually, I sat on the board for the one in Akron, 
and because of a lot of other responsibilities, I had to give 
that up. But I was very much involved in that community health 
center for awhile.
    Mr. Regula. Are you using the new center up there, that you 
bring in people for lectures?
    Dr. Lee. Oh, that center has not been built, yet.
    Mr. Regula. You have not got it built?
    Dr. Lee. No, no, the ground has not been broken, yet.
    Mr. Regula. Oh, my.
    Dr. Lee. They are still making the plans.
    Mr. Regula. Well, at least you have the money.
    Dr. Lee. Yes, yes, thanks to you. [Laughter.]
    Mr. Regula. Okay, thank you for coming.
    Thank you for coming. Our witness is doctor James Pearsol.
                              ----------                              

                                         Wednesday, March 21, 2001.

       CENTER FOR DISEASE CONTROL AND PREVENTION (CDC) COALITION


                                WITNESS

JAMES A. PEARSOL, BA, MED, CHIEF, OFFICE OF POLICY AND LEADERSHIP, OHIO 
    DEPARTMENT OF HEALTH
    Mr. Pearsol. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. You may be a Cleveland Indians fan. If you 
are, then maybe you know Jimmy Person, who has quite a baseball 
player and quite a character. I am not a baseball player, but I 
probably qualify as a character.
    I am honored to be here today to testify on behalf of the 
CDC Coalition. The CDC Coalition is a nonpartisan association 
with more than 100 hundred groups committed to strengthening 
the Nation's prevention programs. Coalition members groups 
represent millions of public health workers, researchers, 
educators, and citizens served by CDC Coalition programs.
    I would like to welcome the Chairman into his new position. 
In addition, overseeing the funding for Public Health Service 
and to thank you for the work that you will do in the 
forthcoming year on this difficult bill. The CDC Coalition is 
the Nation's prevention agency that is putting health research 
into practice.
    Public health prevention is about two things. The what of 
health prevention is preventing adverse health outcomes and the 
how are the tools of the trades including programs, 
surveillance, and best practices. Prevention translates into 
lives saved and pain and suffering avoided, health costs 
avoided, quality of life improved, use of best health 
practices, and use of credible health information.
    In the best professional judgement of the CDC Coalition, 
CDC will require funding of a least $5 billion to adequately 
fulfill its mission for fiscal year 2002.
    Mr. Regula. Do you work directly with CDC?
    Mr. Pearsol. Yes. We receive, again, probably $40 million 
of our budget, part of the three-fourths of Federal funding at 
the Ohio Department of Health, and pass that on in large 
measure to local health and community departments.
    Mr. Regula. The funding is channeled through CDC.
    Mr. Pearsol. Correct.
    Mr. Regula. The Federal portion.
    Mr. Pearsol. That is correct.
    Mr. Regula. You in turn work with local public health 
agencies in the communities around Ohio.
    Mr. Pearsol. That is correct.
    Mr. Regula. The State County Board of Health would be 
working directly with to you.
    Mr. Pearsol. I work directly for them, Bill Franks and his 
Board, the city, Bob Patteson, and Mayor Watkins.
    Mr. Regula. Go ahead.
    Mr. Pearsol. Thank you. Health prevention is like auto 
maintenance. It is not appreciated until it fails. It is not 
much fun when it fails. In any maintenance of prevention 
ignored is guaranteed to lead to failure. CDC makes Public 
Works in Ohio, and I will give you some examples. Chronic 
diseases are Ohio's quiet killer. Five diseases account for 70 
percent of Ohio's deaths. In fact, heart disease, 91 deaths 
each day, cancer, 68 deaths each day, stroke, 18 deaths each 
day, lung disease, 15 deaths each day, and diabetes, nine 
deaths each day.
    The CDC Center for Chronic Disease Prevention and Health 
Promotion supports programs that combat this chronic set of 
diseases. The impact on the elderly is profound and about 80 
percent of seniors have at least one chronic condition and 50 
percent have two or more. We know that breast and cervical 
cancer, prostate, lung, and colon rectal cancers can be avoided 
through early detection.
    The CDC supports programs like these and other chronic 
illness such as diabetes. Nearly 16 million Americans have 
diabetes and the largest increases are among adults 30 to 39 in 
age. CDC supports state and territorial diabetes control 
programs that attack this problem.
    Health disparities persist in all of these disease that I 
talk about in Ohio. This CDC's REACH program that is racial and 
ethnic approaches to community health address serious 
disparities and infant mortality, breast and cervical cancer, 
HIV and AIDS, etc. In Ohio, infant mortality rates for African 
American are twice those of whites.
    One of Ohio's Public Health Service success stories is 
childhood immunizations. In 1994, only about half of our two 
year old had been immunized by 2001 and 78 percent had been 
immunized, which is a 55 percent increase. This was possible 
through the availability of low cost vaccine from CDC. Injuries 
and their prevention is crucial.
    Each day an average of 9,000 U.S. workers sustained 
disabling injuries, 17 died from work related injuries, and 137 
died from work related illnesses. Finally, the preventive help 
block grant is the key to flexible funding at the local level 
were local program can match solutions to demand in the local 
community.
    The how of CDC is cease surveillance. This is a lot like an 
air traffic control system. It is the disease tracking control 
system. It is a basic monitoring system that detects early 
warning signs. The National Electronic Disease surveillance 
system created Ohio's early warning system for disease 
outbreaks. The Epidemic Intelligence Service Officer Corps has 
supported many outbreak investigations in Ohio and including TB 
outbreak in Columbus, Typhoid outbreak in Cincinnati, Listeria 
in northwest Ohio; part of a National outbreak, 
Cryptosporidiosis in a Delaware county swimming pool, and E. 
coli in Medina county fair grounds water system.
    In terms of capacities and skills, the CDC Coalition 
supports full funding for the provisions authorized in the 
Pubic Health threat emergency act sponsored by representative 
Burns Stewpack. This concluded my prepared remarks. I would be 
happy to answer any questions.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you work any with the schools as part of an 
education program for preventive medicine?
    Mr. Pearsol. Yes. We work directly school program with 
nursing staff and the Public Health teachers. In order to get 
the message to the community.
    Mr. Regula. There are a lot of gains that could be made in 
preventive medicine to achieve good health, that is to develop 
programs of preventive medicine to alert people.
    Mr. Pearsol. Yes, that is right. We believe this is the 
key. Ohioans smoke more are more obese, exercise less, and eat 
fewer fruits and vegetables. Those are behaviors that can 
change the kinds of chronic diseases that I am mentioned that 
kill Ohioans and others in Americans in this country.
    Mr. Regula. Is it an education process?
    Mr. Pearsol. Yes, education is part of the process. It is 
changing the behaviors and repeating the message.
    Mr. Regula. Thank you.
    Mr. Pearsol. Thank you, Mr. Chairman.
    Mr. Regula. Our next witness is Gerald Slavet.
    Ms. Hurley-Wales. It is Slavet.
    Mr. Regula. I am intrigued by ``From the Top.'' Is that 
Ringling Brothers?
    Mr. Hurley-Wales. No, it is a radio program.
    Mr. Regula. Oh, where is it?
    Mr. Hurley-Wales. Actually, in your area, it is on WCLV in 
Cleveland.
    Mr. Regula. What kind of a program is it?
    Mr. Hurley-Wales. Well, I am happy to answer that.
    Mr. Regula. I guess you are going to tell us.
    Mr. Hurley-Wales. Right, I will tell you all about it.
    Mr. Regula. Okay.
                              ----------                              

                                         Wednesday, March 21, 2001.

            GERALD SLAVET EDUCATION PERFORMANCES FOUNDATION


                                WITNESS

JENNIFER HURLEY-WALES, EXECUTIVE VICE PRESIDENT, GERALD SLAVET 
    EDUCATION PERFORMANCES FOUNDATION
    Ms. Hurley-Wales. My name is Jennifer Hurley-Wales. I am 
here to testify on behalf of Gerald Slavet of the Education 
Performances Foundation. Gerald is out of the country today. We 
were very appreciative to have this opportunity to appear 
before you and the Subcommittee.
    I am the Executive Vice President of our foundation and co-
founder of our flagship project ``From the Top.'' Since its 
launch in 1998, ``From the Top'' radio program has brought into 
the foreground the exceptional achievements of pre-collegiality 
classical musicians. It helped build the self esteem of the 
young participants, and provided role models for 100 to 1,000 
young people across the United States.
    The mission of ``From the Top'' is to celebrate and 
encourage the development of youth through music. The project 
is designed to demystify classical music making it more 
accessible to young audiences and adults. ``From the Top'' 
believes that young people that can play Mozart's Clarinet 
Concerto are just as cool as those who dunk basketballs.
    We know those who play that kind of music are usually 
strong students and that is why we celebrate young classical 
musicians in the same way that their athletic schoolmates are--
as heroes.
    Early involvement with classical music plays a key role in 
the development of children's intellects, which is important 
for the new economy that relies on math, science, and 
analytical skills.
    We believe that ``From the Top's'' is entertaining and 
accessible and national radio program will lead to a public 
conversation at the grass roots level. Perhaps this will help 
influence public opinion and policy about the value of arts 
education.
    ``From the Top's'' weekly radio series taped before a live 
audience, features America's most exceptional 9- to 18-year-old 
classical musicians and performance and interviews. Now 
broadcast on 215 station nationwide, the show has a projected 
listenership of 700,000 people each week.
    A passionate listenership I should say as demonstrated by 
the daily flood of positive e-mails we continue to receive.
    Mr. Regula. Do you go nationwide?
    Ms. Hurley-Wales. We are on 215 stations nationwide.
    Mr. Regula. Produced in Cleveland?
    Ms. Hurley-Wales. It was produced in Boston.
    Mr. Regula. OK.
    Ms. Hurley-Wales. ``From the Top'' is considered today the 
most listened to classical music program on public radio.
    Tapings take place before family audiences in Boston at New 
England Conservatory's Jordan Hall and in halls across the 
country including Carnegie Hall in New York and the Kennedy 
Center in Washington. In fact, we will be here next week.
    The extraordinary popularity and success of ``From the 
Top'' radio series has led to the creation of three additional 
components. ``From the Top'' television specials are in 
development for production for PBS. They will feature host 
Christopher O'Riley, performances and documentary style 
profiles of five exceptional young musicians and ensembles.
    ``From the Top.org'' is the only site on the Internet that 
provides a complete suite of services and community for young 
people who are passionate about music. The site is an 
interactive forum for kids, teachers, and parents to discuss, 
present, and research all matters that relate to music.
    ``From the Top's'' newest initiative, Sound Waves education 
project addresses the urgent need to bring cultural 
missionaries into our communities through curricular materials 
linked to the radio shows, teacher training workshops, and 
cultural leadership training for young musicians.
    This Sound Wave project builds on ``From the Top's'' 
greatest asset and the power of the young performer as a role 
model for other kids. Thanks to the interest and leadership of 
Congressman Joe Moakley, and the support of this Subcommittee, 
our foundation has received funding from the U.S. Department of 
Education in the past, including a $510,000 grant for this 
fiscal year.
    ``From the Top'' would not be in existence without the U.S. 
DOE funding. Please know that we are aware of the importance in 
improving our funding and we mounted a comprehensive 
development effort to that effect. We appreciate the support of 
this Subcommittee and we now respectfully request that you 
extend your commitment to young people and the arts by 
providing a $1.25 million grant to Education Performances 
Foundation to continue support for this innovative program.
    This grant would allow us to further develop and implement 
our cultural leadership training and expand the reach of 
educational efforts through school, community, and Internet-
based programs. Your continued support would allow the 
overwhelmingly positive impact of ``From the Top'' to continue 
and multiply for the greater mission of our project to be 
reached. Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I thought that I left the arts when 
I left Interior. The next witness is Joseph E. Pizzorno, 
President Emeritus of Bastyr University in Seattle, Washington.
                              ----------                              

                                         Wednesday, March 21, 2001.

                           BASTYR UNIVERSITY


                                WITNESS

JOSEPH E. PIZZORNO, JR., PRESIDENT EMERITUS, BASTYR UNIVERSITY IN 
    SEATTLE, WASHINGTON
    Mr. Regula. Do you know my friend Sled Gordon?
    Mr. Pizzorno. Actually, I have talked to him several times.
    Mr. Regula. We worked together on Interior matters.
    Mr. Pizzorno. Great. You said Washington like a true 
native. You must have spent some time with him.
    Mr. Regula. We spent quite a bit of time together. He was 
Chairman and I was Chairman of house, parks, and forests. We 
also took care of the flagship in your part of the world. You 
are in Seattle.
    Mr. Pizzorno. Yes.
    Mr. Regula. OK. We look forward from hearing from you.
    Mr. Pizzorno. Thank you, Mr. Chairman. My name is Joseph 
Pizzorno. I am a licensed naturopathic physician in the state 
of Washington. I am also the founding President of Bastyr 
University. The first fully credited institution of natural 
medicine in the United States.
    I am also a member of the Seattle County Board of Health. 
The Chair of special interest groups on Alternative Medicine 
for the American Public Health Association. I have also been 
appointed to the White House Commission on Complementary and 
Alternative Medicine Policy. This was created by Congress to 
advise Congress on how to integrate natural medicine into the 
health care system.
    While I am very active in several of these organizations, 
and have 25 years of leadership in natural medicine, education, 
research, and health policy innovation, I am not here 
representing any particular organization.
    I am here because I believe that the most pervasive and 
silently accepted crisis in America today is ill health of our 
people. We have a health care system that is oriented towards 
disease treatment and symptom relief, but does relative little 
to actually restoring and promoting people's health.
    Every decade, for the past 50 years, the incidence of 
chronic and degenerative disease has increased in virtually 
every age group in the past 50 years. The message that I am 
presenting to you today is somewhat different from the message 
you have heard earlier today.
    Our current health care system is excellent in many ways, 
such as acute conditions and emergency care, but it is not 
particularly effective in restoring and promoting health. 
Health promotion is the area in which natural medicine is most 
effective.
    My written testimony addresses several areas and defines: 
What is Complementary in Alternative Medicine? How popular is 
CAM? Why is it important in heath care? Who are the CAM 
professionals? What state of the research in CAM? What are the 
critical issues that determine if the full benefits of CAM will 
be experienced by the American people. Finally, I present 
specific recommendations to the Subcommittee.
    What is CAM? It is something that is know by many names. 
Natural medicine, alternative medicine, integrative medicine, 
and complementary medicine. It seems that our government is now 
calling it CAM. I will use CAM in my further address.
    When many people think about CAM, they think about it as 
simply substituting natural therapies for drugs and surgery. 
That is not what natural medicine is about. It is about 
philosophical approach to heath care fundamentally difference 
from that of the conventional medicine.
    It is about health promotion rather than disease treatment, 
about correcting the underlying causes of ill health rather 
than system relief. It is about improvement in function rather 
than waiting for end stage pathology that requires heroic 
intervention. It is about education, healthy lifestyles, self 
care, and natural health products rather than dependence on 
medical doctors.
    It is about supporting the body's own healing processes 
rather than turning to drugs to support or replace by systems. 
It is about a powerful belief in the inherent ability of the 
body to heal if just given a chance. These concepts of healing 
change the way in which we think about and provide health care.
    Why are these concepts important to health care? Americans 
are experiencing unpresitant burden of ill health and disease 
worsening disease trends, appallingly high incidence of 
treatment side effects and out of control health care costs. 
There are a lot of statistic in my written testimony.
    Of the 191 countries that maintain health statistics, the 
United States rant seventy second in health status according to 
the World Heath Organization. According to Christopher Muray, 
M.D., Director of WHO's Global Program on Evidence for Health 
Policy.
    Basically, you die earlier and spend more time disabled if 
you are an American rather than a member of most advanced 
countries. One of the key differences between health care in 
the United States and most of the rest of the world, especially 
those ranking higher in health statistics, is significantly 
higher healthier life styles and in several countries such as 
number two ranked Australia, and much greater use of CAM in 
natural health care products.
    In fact, in both European countries, ranking above the 
United States in health care statistics, the lead prescription 
drugs are herbal medicines and not synthetic chemicals. CAM is 
most effective precisely in those area weakest in conventional 
medicine.
    How popular is CAM? 42 percent of Americans now seek the 
services of natural medicine practitioners. There were 629 
million visits in natural medicine practitioners in 1997, which 
was more than primary medical doctors for primary care.
    What can I recommend to this committee? Currently, the 
primary mechanism for Federal funding in CAM research is 
through the NIH National Center for CAM research. It receives 
less than one percent of the NIH total budget and that is 
inadequate to meet the need of the mission.
    The state of CAM research is widely misunderstood. It is 
easily dismissed as having no evidence. In fact, there is 
tremendous amount of evidence supporting the natural medicine. 
The textbook of natural medicine 10,000 citations of peer 
review scientific literature documenting the authenticity of 
these kinds of interventions.
    I would like to leave you with one recommendation. We have 
experience tremendous benefits in our country form having 
invest a lot of resources in conventional medicine research. We 
have invested less than one half of one percent in research 
into natural medicine. I believe that we can experience the 
same kind of benefits if we engage in more natural medicine and 
reap the benefits of the centuries long traditions of healing. 
Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Peterson must be delayed 
arriving. I take one more and hopefully he will get here. Mr. 
Akhter. I have a meeting with the Secretary of Education. If 
you can cut it short, that would be helpful.
                              ----------                              

                                         Wednesday, March 21, 2001.

                   AMERICAN PUBLIC HEALTH ASSOCIATION


                                WITNESS

MOHAMMAD AKHTER, EXECUTIVE DIRECTOR, AMERICAN PUBLIC HEALTH ASSOCIATION
    Mr. Akhter. Thank you, Mr. Chairman. My name is Mohammad 
Akhter. I am the Executive Director of the American Public 
Health Association. We have 55,000 members and they are primary 
concerned with the health of the American people. I am not here 
to testify and support particular agency, particular program or 
special group of people, but just the American people.
    Mr. Regula. You have heard the testimony. Will your 
testimony be similar to what we have heard.
    Mr Akhter. No. It is very specific. Let me point out to you 
three or four areas we think the major emphasis should be 
really help the American people be healthy and happier for the 
future.
    First, there are health disparities among our Americans. We 
have made tremendous progress in life expectancy, immunization, 
and other arenas. I have been health commissioner in 
Washington, DC. I have been state health director for the state 
of Missouri. We have done wonderful work. However, some of 
minority do not enjoy the same health status.
    The number of minorities is increasing. By 2050, there will 
be 50 percent of all people of racial ethnic descent. We cannot 
have a strong Nation if some of our people our suffering this 
disproportionately from heart disease and cancer. For example, 
the infant mortality rate is twice as high for the African 
American than it is for the average American.
    Similarly, the death rate from the diabetes is twice as 
high for Hispanics as it is for rest of the country. Last year, 
Congress passed a bill and created a center in the NIH for 
minority health. Mr. Chairman, we respectfully request that the 
center be fully funded so it can get its work going. In 
addition, we are asking that you fund the agency for health 
care research and quality so that research can be taken to the 
people at large to be able to help people.
    Secondly, Mr. Chairman, these were the issues that are very 
near and dear to most Americans. The second most important 
problem among our communities is the substance abuse problem. 
Many of the social and public health problems have root cause 
is the substance abuse.
    President has put some additional money in the budget for 
substance abuse treatment. We hope that the Subcommittee will 
look at this carefully. We will push that forward.
    The third area is our seniors. 80 percent of them have one 
chronic condition and 50 percent have two or more. They become 
utterly disabled and have to go to nursing home or need more 
medical care. HCFA has started a new program were they have 
combined the company assessment with health promotion disease 
prevention and treatment. We can keep people healthier in their 
own homes. Not only improve theirquality of life, but also save 
some money.
    Finally, Mr. Chairman, last year, the Congress passes a 
bill to deal with the bad terrorism to repair our Nation. The 
responsibility for this was placed in the Center for Disease 
Control in Atlanta. It is a problem today, as it was last year. 
We need to fund that completely so that we can have our 
communities prepared and our people protected.
    Lastly, Mr. Chairman, like the economy, disease is also 
become global. Now the hoof mouth disease. A disease can come 
at any time. We have the best scientist in the world. We need 
to make them available to other countries so that they can 
contain the disease at a local level. The Office of 
International Health, CDC, NIH where they have these experts, 
that those programs be funded so that the programs can be 
available to other countries so we do need to fight the 
diseases once its inside of our borders.
    Mr. Chairman, I appreciate very much the opportunity to 
testify before you. I would be glad to answer any questions.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for your testimony. You are 
absolutely right. Announce prevention. It is worth a pound of 
cures, they always say. Thank you for being here.
    Our next witness is Marianne Comegys. I appreciate the 
patients of all of you. Somebody has to be last. Francine makes 
out the list so do not hold me responsible. [Laughter.]
                              ----------                              

                                         Wednesday, March 21, 2001.

  MEDICAL LIBRARY ASSOCIATION AND THE ASSOCIATION OF ACADEMIC HEALTH 
                           SCIENCES LIBRARIES


                                WITNESS

MARIANNE COMEGYS, CHAIR, MLA GOVERNMENT RELATIONS COMMITTEE, MEDICAL 
    LIBRARY ASSOCIATION AND THE ASSOCIATION OF ACADEMIC HEALTH SCIENCES 
    LIBRARIES
    Ms. Comegys. I am Marianne Comegys, Associate Professor at 
Louisiana State University Health Science Library in 
Shreveport, Louisiana.
    I am pleased to testify on behalf of the Medical Library 
Association and the Association of Academic Health Sciences 
Libraries regarding fiscal year 2002 budget for the National 
Library of Medicine.
    MLA is a professional organization representing 1200 
institutions and 4,000 individuals involved in the management 
and dissemination of biomedical information.
    AAHSI is compromised of the directors of libraries of 142 
accredited U.S. and Canadian medical schools. The NLM is the 
world's largest medical library with 5.8 million items through 
National network of regional libraries. MLM ensures that health 
professionals and the public have access to health prevention 
and treatment.
    Mr. Regula. OK. You have sold me. Where do you get your 
funding? What does it come through.
    Ms. Comegys. It comes through NIH. The NLM is one of the 
agencies within NIH.
    Mr. Regula. Your effort would be to get more funding for 
NIH.
    Ms. Comegys. Right, through the NLM.
    Mr. Regula. So that can give you more money.
    Ms. Comegys. Specifically, to the NLM as well.
    Mr. Regula. You would like that to be mentioned in the 
report.
    Ms. Comegys. Right.
    Mr. Regula. I got the message. You will have to wrap up in 
a minute or two.
    Ms. Comegys. Okay, I will.
    I will mention that recognizing the invaluable role that 
NLM plays in our health care delivery system, NLM also joins 
with ad hoc for medical research funding, and recommends a 16.5 
percent increase for NLM in the NIH in fiscal year 2002.
    Many of our programs today, that the other witnesses have 
testified to, and one of the important issues that I will just 
sort of mention and sort of just regard this today since you 
are in a hurry, is that we provide, as the medical library 
community, the information resources necessary for those.
    Mr. Regula. Who uses your services, doctors?
    Ms. Comegys. The public, the health care physicians, and 
right now, there is a big push for consumer health.
    Mr. Regula. Well, if I wanted to use your services as a 
layman, where would I go?
    Ms. Comegys. You can go now to the public libraries; you 
can go to the medical libraries.
    But what we are doing now and what the National Library of 
Medicine has done is emphasize the consumer, and what wehave 
provided for you, Mr. Chairman, is easy access to this information 
through user-friendly databases.
    Mr. Regula. Here comes my pinch hitters. Now you have go 
lots of time. [Laughter.]
    Mr. Peterson [assuming chair]. He said you had lots of 
time, so take it.
    Ms. Comegys. Well, okay, I will start over. Do I still have 
that five minutes?
    On behalf of the Medical Library Community, I thank the 
subcommittee for the leadership in securing a 15 percent 
increase for NLM in fiscal year 2001. With respect to the 
library's budget for next year, I will address four issues: 
NLM's basic services outreach and telemedicine activities, 
PUBMED Central and the clinical trials database, and a need for 
a new library building.
    It is a tribute to NLML that the demand for its services 
continues to steadily increase each year. There are more than 
250 million Internet searches annually on the Medicine 
database.
    Mr. Chairman, NLM is a national treasure. I can tell you 
that without NLM, our Nation's medical libraries would be 
unable to provide the type of information services that our 
Nation's health care providers, educators, researchers, and 
patients have come to expect.
    NLM's outreach programs are designed to educate medical 
librarians, health care professionals and the public about NLM 
services. The need for enhanced outreach activities has grown 
in recent years, following the library's decision to provide 
free access to its Medicine databases.
    Mr. Chairman, we applaud the success of NLM's outreach 
initiatives, and look forward to continuing our work with them 
on these important programs. Telemedicine also continues to 
hold great promise for dramatically increasing the delivery of 
health care to under-served communities. NLM has sponsored over 
50 telemedicine related projects in recent years.
    Introduced in 2000, PUBMED Central is an on-line collection 
of live science articles, which evolved from an electronic 
publishing concept, initially proposed by former NIH director, 
Dr. Harold Varmus. This new on-line resource will significantly 
increase access to biomedical information, and we encourage the 
subcommittee to continue to support its development.
    I also want to comment on a new NLM service. It is the 
clinical trials database. This service is free, and it logs 
more than two million hits a month. It is an invaluable 
resource, which lists 5,000 Federal and privately-funded trials 
for serious or life-threatening diseases.
    In order for NLM to continue its mission, a few facility is 
urgently needed. Over the past two decades, the library has 
assumed several new responsibilities, particularly in the areas 
of biotechnology, high performance computing, and consumer 
health. As a result, the library has had tremendous growth in 
its basic functions.
    An increase in the volume of biomedical information, as 
well as library personnel, has resulted in a serious shortage 
of library space. The medical library community is pleased that 
Congress last year appropriated the necessary architectural and 
engineering funds for facility expansion at NLM.
    We encourage the subcommittee to continue to provide the 
resources necessary to acquire a new facility, and to support 
the library's information programs.
    Thank you for the opportunity to present the view of the 
medical library community.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. Who all has access to the library.
    Ms. Comegys. To the databases of the libraries?
    Mr. Peterson. Yes.
    Ms. Comegys. Everyone, from the physician to the researcher 
to the consumer; and one of the pushes that the National 
Library of Medicine has had for the last few years, and it has 
actually come the demand of the consumer, is that they know 
more about themselves and their health, and where to find this 
type of information.
    So Medline, which is a database of references and articles, 
now is free, on the web. It is easily accessible amd the user-
friendly version is called Medline-Plus.
    Mr. Peterson. Medline-Plus.com?
    Ms. Comegys. Well, Medline-Plus is actually through NIH 
NLM, and then I think Medline-Plus is a database that lists 450 
different health topics.
    Within that database, there is also dictionaries. There are 
consumer health links to other information on specific 
diseases. There is drug information. There is information on 
physicians within each territory. There is also, as I 
mentioned, the clinical trials database, and that is also quite 
accessible for anyone.
    So you, as a patient, or you, as a family member of someone 
who has a serious or life threatening disease, could go in, 
look on the clinical trials database, which is on theweb, which 
is free, and see which clinical trials are available right now, which 
are those that will be available.
    Then you, as an informed patient now, or informed family 
member, can go to your physician and say, you know, this is 
something that I think I would be interested in and want to 
participate in. It gives you all of the criteria listed, as 
well.
    So one of the pushes for NLM is the consumer and the 
consumer health, along with the human genome project which, of 
course, is for the researcher, and it is that enormous DNA data 
sequencing information, of course, which all the researchers in 
the U.S. and worldwide are so excited about. So we are from the 
researcher, as well as to the consumer.
    Mr. Peterson. If I was to inform my constituents on how 
they could utilize this, what should I tell them?
    Ms. Comegys. You can actually tell them, in Pennsylvania, 
they can go to their public libraries and have access to it. 
You can actually tell them to look on the Internet, just to 
search at home under National Library of Medicine. Within that 
website, it gives you all of the databases that I have 
described, plus others that they can have access to, free of 
charge.
    I can get you the website information. That is something 
that more and more people utilize, the Med-line databases. As I 
mentioned in my report, I think it mentioned so many million 
hits. Thirty percent of that is actually from the public, and 
that is probably increasing every day.
    Mr. Peterson. The rest is doctors, hospitals.
    Ms. Comegys. Researchers, health care professionals, and 
medical students.
    Mr. Peterson. If you could give us a short paper on that.
    Ms. Comegys. I will do that.
    Mr. Peterson. We may bog down the system.
    Ms. Comegys. Well, that is great. Do you know, the National 
Library of Medicine has sort of looked at those statistics, and 
they have never been down. They have continued to keep the web 
site.
    That is good, because they were actually surprised at the 
increase that has come about from that database. That is why 
they have gone to more and more of the consumer-based database.
    We, in the medical library community, work with the 
National Library of Medicine, through regional medical 
libraries. We go out, through grants from NLM, and train the 
public librarians on how to search for this information. We 
train the health care professionals on how to search it. We 
have grants to train the public health professionals on how to 
search, and how to help the patient, so that it is not just the 
patient out there, trying to search it with not as much 
knowledge as maybe they needed. But actually, it is quite user 
friendly. You could get on there today, and find out all sorts 
of information.
    Mr. Peterson. I shall do that.
    Ms. Comegys. The other thing is that I want to mention 
that, it is an accurate up to date databases. One of the 
concerns is that I think is with all the medical literature out 
there on the web. How accurate, reliable or up to date is the 
information. When you come to our databases, that is what you 
are getting is good information.
    Mr. Peterson. I wonder if real physicians use that often.
    Ms. Comegys. Yes, that is one of the other projects within 
the outreach projects with the NLM. Many of the grants are 
given to the regional medical library groups. There are eight 
regional library groups and through those groups, the grants 
are distributed to the local areas. The push for the rural and 
the medically undeserved areas.
    Telemedicine also comes in now to also help within those 
areas. Those in those areas that are medically undeserved have 
no less health information than those in the large cities. This 
is real important to us as well.
    Mr. Peterson. How does your telemedicine project work?
    Ms. Comegys. They all work quite differently. You can have 
telemedicine where it is the consultation from a small town 
physician who is sending visual images. We can do this now 
because of the technology. The high bandwidth and the wheel 
time video imaging that is available to us now.
    Small town physician can actually send these visuals images 
to the specialist in the larger city. The specialist in the 
large city can work on diagnosis and treatment. The patient 
would not have to travel to that large facility and that city. 
On a personal level right now in Louisiana at the Louisiana 
State University, we have a telemedicine program that we are 
working with the prisoners at a correctional institution in 
Louisiana.
    Our physicians at LSU are looking at information at the 
prison for those physicians there and then we are diagnosing 
and sending treatment information back to them so that they do 
not have to transport those prisoners to Shreveport or any 
other major facility.
    It can be used whether is it consultations with the 
physician and a patient. There is a lot of home health 
telemedicine projects. You can use it for continuing education 
with the physician and the student, who many of our students 
are in rural areas in Louisiana. Louisiana has a lot of rural 
areas. The patient themselves sort through some telemedicine 
projects and having access to the electronic resources.
    Mr. Peterson. Thank you very much.
    Ms. Comegys. Thank you.
                                          Thursday, March 22, 2001.

                           MEMBER OF CONGRESS

                                WITNESS

HON. LOUIS STOKES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. We'll get started. I see we have many 
interested people again. I think it's great that you're here. A 
lot of you are going to a lot of trouble to be here to testify 
for your cause, and that's what this country's all about. I 
know that it's time and money that you have to do, but you're 
not only helping your cause, you're helping a lot of others who 
are going to follow along. Really, it's a very generous thing 
for each of you to come and bring to our attention the 
importance of something that's close to your heart.
    This Committee does have a lot of challenges, obviously. 
This is our sixth day of public witnesses. We have the former 
chairman of this Committee with us this morning, Mr. Lou Stokes 
from Cleveland. How many years did you chair this, Lou?
    Mr. Stokes. About as long as the committee, Mr. Chairman, 
24 years.
    Mr. Regula. Twenty-four years. I need you as a consultant. 
I've been on it for about 24 days.
    Mr. Stokes. You'll do fine, Mr. Chairman.
    Mr. Regula. Lou's out practicing law in Cleveland, Ohio. He 
did a lot of good things, not only here, but the other 
committees, and we're happy that you're here today.
    Just a few of the rules. We have the boxes here which are 
timekeepers. I hate to do it, but we have to. We have about 28 
today, and we've had 28 most every--this is the sixth day. I 
think it's indicative of the great interest that the public has 
in this Committee, is the fact that we've had so many, and then 
on top of that, we had to have a lottery to decide who would 
get to be even a public witness, because the requests are far 
more than we can accommodate. But it's great that you bring 
these things to our attention.
    The boxes will be green and then it goes to amber, which 
means you've got a minute to wrap up, and then the red light 
goes on and the buzzer. So we regret it has to be that way, but 
we'll do the best we can to get all the evidence in.
    I see Nancy has arrived. Would you like to introduce your 
former Chairman?
    Mrs. Pelosi. It would be an honor.
    Mr. Regula. Okay. I don't know whether to call you Chairman 
or former Congressman or lawyer. You have a selection of 
titles, Lou, but I like to call you best of all friend. That's 
the one I like.
    Mr. Stokes. And that's something that means a great deal to 
me, Mr. Chairman, the friendship that you and I share, and the 
friendship you shared also with my late brother, Carl, with 
whom you served in Ohio.
    Mr. Regula. That's right. Lou's brother Carl was the first 
African American mayor of a major city in the United States, he 
was mayor of Cleveland. I sat beside him in the State House of 
Representatives, and we became very good friends. In fact, he 
endorsed me. [Laughter.]
    And he's a Democrat in Canton District. So see, Steny, 
there's an opportunity for you. [Laughter.]
    Mr. Hoyer. You never can tell.
    Mr. Regula. I think, Nancy, you came close once. You were 
out there, weren't you, at that meeting?
    Mrs. Pelosi. Yes, Mr. Chairman, I remember it well. And so 
do you. [Laughter.]
    Mr. Regula. Okay, well, Mrs. Pelosi, will you introduce our 
first witness this morning?
    Mrs. Pelosi. Mr. Chairman, this is a very great honor, as I 
know that any one of my colleagues would attest to. As you 
indicated in your opening remarks, this is almost a family 
affair for all of us, for Steny, for Jesse, because when Lou 
comes to the Committee, he not only comes personally, but he 
brings a great tradition with him.
    You talked about Carl, and I have my connection, too, my 
brother, Thomas D'Alessandro was a very close friend of Carl. 
They were both mayors in that very difficult time in our 
country's history, both young mayors. And they had a very, very 
close personal bond.
    I always used to say to Lou when I came here, I one day 
would love to meet your mother, she has to be the greatest mom 
in the world to have produced two great sons. Now the 
courthouse is--is it this Saturday?
    Mr. Stokes. It was this past Sunday.
    Mrs. Pelosi. This past Sunday, it was dedicated in Ohio in 
honor of her in her name. So with all of that personal and 
political history, I'm pleased to welcome our former colleague, 
Lou Stokes, behind whom and under whose leadership it was a 
pleasure to serve here and in other committees in the Congress. 
Congressman served in the Congress for 30 years, my friends, 
for those younger people here who don't know, 30 years, 1969 to 
1999. He spent many of those years as a member of this 
Subcommittee.
    He's currently senior counsel of the law firm Squire, 
Saunders and Dempsey, and is a member of the faculty of Case 
Western Reserve University, senior visiting scholar at the 
Mandel School of Applied Social Sciences. Congressman Stokes is 
also a member of the board of advisors for the Trust for 
America's Health, which brings him here today. He will describe 
what it is, so I won't take any time to do that.
    But Congressman Stokes and the Trust for America's Health 
have shown great leadership in the effort to improve our 
Nation's response to environmental health hazards. As Iwelcome 
him, I want to say that in welcoming Lou Stokes to this Committee, I am 
welcoming the best that America has to offer.
    Our chairman, Mr. Stokes.
    Mr. Hoyer. Mr. Chairman?
    Mr. Regula. Mr. Hoyer.
    Mr. Hoyer. Thank you. I want to join Nancy's remarks. 
Before you got here, Nancy, I indicated to our audience that I 
had the great privilege and honor of sitting next to Lou for 
many years as he served on this Committee. He and his brother 
and family have been giants on behalf of so many different 
issues.
    But clearly, every young African American child in America 
can have an extraordinary role model in Lou Stokes. As I sat 
next to him, as you know, Mr. Chairman, you didn't serve on 
this Committee, so you didn't have the privilege of seeing him, 
but whether it's the historically black colleges dealing with 
higher education, or it was in TRIO, or it was in primary and 
secondary education programs, or whether it was dealing with 
employees at NIH who were aspiring to be treated on the basis 
of their character, their talent and their contribution rather 
than the color of their skin, Lou Stokes has been and continues 
to be a giant on behalf of all Americans.
    I want to join Nancy in welcoming him to this Committee. 
His leadership was a powerful, it was a quiet leadership, a 
leadership of conscience and of character, not of bluster and 
power, which made it even more powerful because of that. And 
Lou, all of us who know you are honored to be your friend and 
honored to have served with you. I join Nancy and Ralph and 
Jesse in welcoming you to the Committee.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman.
    Let me just say that we run the danger this morning with 
all of the accolades that we could bestow upon Mr. Stokes, of 
the kind things that all of us who have had the opportunity to 
work with him, who have witnessed him from afar, and those of 
us who for the very brief tenures that we've been in the 
institution have had the great opportunity and privilege of 
working with Mr. Stokes, we run the danger this morning of our 
accolades being much longer than your testimony. [Laughter.]
    When I first came to this Committee, I came really as the 
successor to Lou Stokes. Many of the programs that I champion 
and argue for on this Committee were programs that Lou Stokes 
one, authored as a member of this institution, shepherded the 
legislation through the process, and then, on this Committee, 
fought to make sure that those programs were fully funded.
    The outstanding work that his family has done, his brother 
as mayor of Cleveland, the Congressman himself here in the 
United States institution, there are very few people who have 
earned the respect of both sides of the aisle like Congressman 
Lou Stokes.
    I remember when he announced his retirement, and many of us 
went to the Floor essentially to say goodbye to Mr. Stokes, the 
outpouring from both sides of the aisle was nothing less than 
astounding. I've seen other members of Congress who served the 
same amount of time in the institution, and literally within 15 
or 20 minutes, whatever accolades were being bestowed upon 
them, essentially the special order was essentially over. We 
could have spent the entire day, maybe even the entire week, 
talking about the contributions that Lou Stokes has made to 
this Nation.
    I'm indeed honored that you're before our Committee, and 
I'm equally as honored to have the great privilege of trying my 
very best to follow in my footsteps on the Committee. I'm very 
grateful, Mr. Stokes.
    Mr. Stokes. Thank you.
    Mrs. Pelosi. This isn't about Mr. Stokes' contribution to 
this Committee, but it's important to note that he was the 
chair of the Ethics Committee, he was the chair of the 
Intelligence Committee, and all that that implies in terms of 
the changes. As the Ranking on Intelligence now, I can speak to 
all that he has done to, as far as diversity is concerned in 
that community as well. He has pioneered so many fronts, he's 
the all American boy. We could again take all day to talk about 
him.
    Mr. Jackson. I believe he was also lead investigator on the 
assassination of Martin Luther King, Jr., lead investigator on 
the assassination of John F. Kennedy, as well. So for those of 
you who are here, it's really a great privilege and a great 
honor for those are here and are very unfamiliar with our 
Committee to be in the presence of Mr. Stokes.
    Thank you, Mr. Chairman.
    Mr. Regula. Well, it's not only that, you go to Cleveland, 
every other street is a Stokes Boulevard. [Laughter.]
    And the Stokes VA clinic, and I don't know, is there 
anything left to name up there? Between you and Carl and your 
mother, I guess you skipped the Terminal Tower. But you've done 
well. Lou, we're happy to welcome you.
    Mr. Stokes. Mr. Chairman and Mr. Hoyer, Mrs. Pelosi and Mr. 
Jackson, I'm indeed overwhelmed.
    Mr. Regula. And we have a new member down here, Mr. 
Sherwood.
    Mr. Stokes. Mr. Sherwood.
    Mr. Regula. He's the newest member of our Subcommittee.
    Mr. Stokes. Greetings, Mr. Sherwood.
    Obviously I'm overwhelmed, your kindness and your kind 
remarks this morning have indeed overwhelmed me. It's difficult 
to even say to you what it meant to walk back into this room 
where I spent 24 of the 30 years that I served on the 
Appropriations Committee. It is a part of my life, and I 
suppose will always remain a part of my life, as will the 
personal friendships I had with each one of you.
    We've spoken, Mr. Chairman, of the great friendship you 
had, not only with me but with my brother, Carl, with whom you 
served. And Mr. Hoyer, I remember even you were out in Ohio 
when my daughter was running for judgeship out there, and you 
shared that experience with us. She's still on the bench, and 
enjoying it, thanks to you and others.
    Mrs. Pelosi, as you mentioned, your brother and my brother 
were mayors at the same time, and they were great friends. You 
enjoyed a special relationship also with my brother Carl.
    And Mr. Jackson, in your case, your father, Rev. Jesse 
Jackson, was highly instrumental when Dr. King came to 
Cleveland and walked the streets of Cleveland, to register 
voters in a way that they were able to elect Carl Stokes as 
mayor of Cleveland and set history. Your father was one of the 
young lieutenants that Dr. King brought with him. And your 
father over the years was a part of everything that Carl and I 
did in that city.
    It was a great honor for me to counsel with you about the 
fact that when I was leaving here, that this would be a great 
subcommittee for you to get on. I hear such wonderful things 
about what you're doing in terms of carrying on the work that I 
endeavored to do over the years.
    Mr. Chairman, I'm indeed honored to be here this morning.
    Mr. Chairman and members of the subcommittee, I'm currently 
serving on the board of a new public health organization called 
the Trust for America's Health. A former chairman of this 
Committee, John Porter, and Governor Lowell Weicker are also on 
this board.
    The Trust's mission is to put prevention back into the 
fight against chronic diseases. I serve on the Pew 
Environmental and Health Commission, located at Johns Hopkins 
Hospital. Based on the Commission's recommendation, the Trust's 
first initiative is to fight for the creation of a nationwide 
health tracking network to track chronic diseases. Today, 
chronic diseases such as cancer, asthma, leukemia, birth 
defects and Parkinsons kill four out of five Americans. More 
than a third of our population, 100 million women, children and 
men suffer from chronic diseases. These diseases annually cost 
our country $325 billion.
    Yet there is no national system to track these killer 
diseases. Our Federal and State agencies only coordinate 
tracking infectious diseases: polio, typhoid and yellow fever, 
diseases that a national tracking system helped to eradicate.
    Chairman Regula, let me give you some examples from our 
home State of Ohio. Even though asthma attacks are the number 
one cause of school absenteeism, and asthma has increased 75 
percent between 1980 and 1994, Ohio does not track this 
disease. Ohio does not track cerebral palsy, autism and mental 
retardation, even though the National Academy of Sciences 
estimates that 25 percent of these diseases in children are 
caused by environmental factors.
    Although birth defects are the leading cause of infant 
mortality, Ohio does not have a birth defects registry. Even 
though multiple sclerosis has increased by about 20 percent 
between 1986 and 1995, Ohio does not track this disease. And 
unfortunately, Ohio is not unusual, it is the norm.
    To fill this void, the Pew Commission proposed a nationwide 
health tracking network. The network involves three basic 
features. The first feature establishes and coordinates local, 
State, and Federal health agencies to collect vital data. This 
data becomes part of a national system to track and monitor 
priority chronic diseases and potentially related environmental 
factors.
    The second is an early warning system that would identify 
environmental health threats in their earliest stages and give 
public health officials valuable data about health risks, such 
as lead poisoning. This network would be similar to the 
existing system that informs communities about infectious 
disease outbreaks.
    The final piece consists of enhancing and coordinating 
local, State and Federal health officials into rapid response 
teams to quickly investigate clusters and outbreaks. The 
response system would include regional programs to investigate 
local health problems and centers at our universities to assist 
with research and data analysis. The network would provide our 
doctors and hospitals, public health officials and communities, 
with data on patterns and possible environmental factors to 
enable them to form preventive strategies.
    Currently, chronic diseases cost our country $325 billion 
annually and are expected to reach $1 trillion in 15 years. 
These medical costs could be reduced significantly if we had 
data to prevent the onset of these diseases. The network has 
estimated the cost at about $275 million, or less than $1 for 
every man, woman and child in America. This investment is 
necessary now to stem the crushing medical costs to our 
country.
    This subcommittee and the Administration have rightfully 
doubled the investment in NIH. But we need to fund a network to 
give our NIH scientists the data they need. As a Nation, we can 
track birds and people with West Nile virus and the ebola virus 
on another continent. But we still can't track asthma.
    In the fiscal year 2001 budget, this subcommittee asked the 
CDC to research developing a network and expects the CDC to 
present the findings during this year. Now I am asking this 
subcommittee to finish what you have already begun. Please make 
the investment in this basic public health tracking tool. Only 
with your help can we pull our health tracking system into the 
21st century and win the war against chronic diseases that 
cause so much human suffering.
    I thank you for the privilege of testifying.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Lou, where would you think we should 
put this kind of a record keeping, data collecting, in NIH or 
CDC or HHS?
    Mr. Stokes. I would think probably, Mr. Chairman, that CDC 
ought to be the appropriate agency here. And as I said, in the 
2001 budget, the subcommittee asked CDC to look into this 
matter and report back to the subcommittee. I would think that 
they would probably be the correct one, the Centers for Disease 
Control.
    Mr. Regula. Right. Questions? Mrs. Pelosi.
    Mrs. Pelosi. Just a comment, Mr. Chairman. I thank--it's 
music to our ears to hear the maestro sing this song. Because 
this is such an important issue and you've worked on it so many 
years, Mr. Stokes.
    I just want to call the Chairman's attention, this subject 
came up, whether it was yesterday or the day before, when we 
were talking about the Sugar Law Guild Center, where they 
talked about tracking, and especially in minority communities, 
which are disproportionately affected by some of this, and the 
tracking will give us the data to verify that.
    But again, this was the only hearing that we had in this 
Committee, was on this subject, environmental health, and the 
issue of tracking was very, very important in that, the asthma, 
and how it affects children especially, is really a 
responsibility we have to get to the bottom of.
    So there's a connection to all of this. The non-profit 
community is playing a very major role, and with the prestige 
of Mr. Stokes, I'm sure we're going to find an answer to this.
    Thank you, Mr. Chairman. Thank you, Mr. Stokes.
    Mr. Stokes. Thank you very much.
    Mr. Regula. I checked with the staff, of course, as you 
know, the bill didn't get finished until December, early 
December or late November. Anyway, we don't have a report back 
yet, but we anticipate that coming this year, the response to 
the Committee's action.
    Mr. Stokes. Good.
    Mr. Regula. Any other questions?
    If not, thank you, Lou. We're happy to welcome you back 
here.
    Mr. Stokes. Thank you so much.
    Mr. Regula. It's a great idea.
                              ----------                              

                                          Thursday, March 22, 2001.

                            SAFER FOUNDATION


                                WITNESS

DIANE WILLIAMS, PRESIDENT AND CEO, SAFER FOUNDATION
    Mr. Regula. We'll move on. Next, Mr. Jackson will introduce 
Diane Williams.
    Mr. Jackson. Mr. Chairman, as President of the Safer 
Foundation, a position she has held for four years, Diane 
Williams heads the Nation's leading non-profit provider of 
social services, education and job opportunities, exclusively 
targeting ex-offenders. Ms. Williams' association with Safer 
began in the 1970s as a volunteer, then serving on the agency's 
board of directors and as the vice president for development 
and strategic initiatives.
    Before she began her tenure at Safer, Ms. Williams was 
marketing director for the enhanced business unit at Ameritech, 
and she has held executive positions at AT&T and Rockwell 
International. Ms. Williams is an accomplished speaker in the 
areas of criminal justice policy, community corrections 
strategy, as well as prevention and basic education programming 
for adult and juvenile ex-offenders.
    She has been profiled in the Chicago Tribune, Chicago Sun 
Times, and her televised appearances include talk shows aired 
on CBS, NBC and WGN. In 1994, Diane was named the best and 
brightest among business executives by Dollars and Sense 
Magazine. Ms. Williams earned an MBA from Northwestern 
University and serves as an adjunct professor in marketing at 
Aurora College.
    Mr. Chairman and members of the Subcommittee, I present Ms. 
Diane Williams.
    Ms. Williams. Thank you, Congressman Jackson and Mr. 
Chairman, for allowing me to present the Safer Foundation to 
you today. You heard a long list of things that I've done, and 
this that I do today and throughout my time at the Safer 
Foundation is the most important work that I've done in my 
career. So you scare me to death when I come here and present 
this subject today.
    The Safer Foundation is a not-for-profit organization that 
works to reduce recidivism by supporting the efforts of former 
offenders to become productive, law-abiding members of their 
communities. We provide a full spectrum of services, including 
education, employment and case management.
    Established in 1972, with facilities in Chicago, Rock 
Island, Illinois and Davenport, Iowa, Safer has placed clients 
in over 40,000 jobs and is the largest community based provider 
of employment services for ex-offenders in this country. The 
Nation's prison population you know is on the rise. Over 
600,000 men, women and youth are released from institutions 
each year.
    When ex-offenders come out of the correction system, they 
often have a variety of needs, as does the community have a 
variety of needs around helping them to re-integrate into 
society. All too often, many ex-offenders do not secure 
permanent, unsubsidized employment, because they lack 
occupational skills, have little or no job hunting experience, 
or find that many employers refuse to hire those with criminal 
records. Without a strong support system in place, all too 
often ex-offenders fall back into the criminal subculture. They 
do what they know how to do best.
    The re-entry partnerships initiative begun in 1999 is a 
Federal demonstration that assists eight States in confronting 
the challenges presented by the return of offenders from prison 
to the community. Funded through the Department of Justice, the 
Department of Labor and the Department of Health and Human 
Services, re-entry partnerships include identification of the 
appropriate re-entry offender population, surveillance and 
monitoring, community based support resources, and coordination 
between the criminal justice system and the employment, social 
services and treatment systems.
    The Safer Foundation respectfully requests that the 
subcommittee continue to support and to expand this important 
initiative.
    Safer is also committed to bridging the gaps that preclude 
the ex-offender population from successfully living in the 
community. We do that by providing, as we said, employment 
services geared to make successful job placements. We have 
employment specialists who work with our clients to complete 
job applications, to train them on how to behave inthe 
interview process, but even more importantly, to train them on how to 
behave in the job once achieved, so that they might not only be placed 
in employment, but retain that employment for a long, successful period 
of time.
    We have focused lots of our efforts on what we call a 
lifeguard position, which supports that client around those 
issues that arise while working sometimes or often for the 
first time when you're working, how you interact with your 
supervisor, how to work with other people and how to keep up 
your commitment as a team member in that work environment.
    The one on one relationship provided by our job developers 
is critical as we transition or assist to transition people 
into the mainstream. In addition to offering job training and 
placement, Safer also offers education programs. Current 
research indicates that the more education an offender has, the 
less likely they are to return to prison. Our youth empowerment 
program is one of Safer's most effective education programs, 
both in terms of helping clients earn their GEDs and also in 
reducing recidivism.
    Sixteen to 21 year olds are referred by probation and 
parole officers, or word of mouth, and are placed in this 
program which is designed to help students continue their 
education and training after Safer. Rather than provide 
traditional classroom instruction, which we know has been a 
failure for the clients that we serve, we offer an approach 
that's considered peer tutoring, or in today's more appropriate 
terminology, cooperative education. We started it before there 
was such a term as cooperative education.
    In addition to learning basic skills to prepare for taking 
the GED, these youthful ex-offenders learn problem solving 
skills that are needed to succeed in the world of work and 
community, increase their level of confidence in their ability 
to learn and to make and sustain constructive life changes. Of 
the over 300 students that have participated in our youth 
empowerment program, 81 percent complete the program. And their 
academic progress increased 12.5 percent from pre to post GED 
readiness. This is the equivalent of three grade levels in an 
eight week period of time.
    Of the students who finish the program, 50 percent passed 
the GED exam the first time they took it, a pass rate well 
above the State average, and actually the norm that the country 
averages. Nearly 200 of the students who completed the training 
were placed in either higher education, vocational training or 
jobs, and 95 percent completed at least 30 days retention in 
their placements.
    Perhaps most significantly, our three year recidivism rate 
for the youth empowerment program is only 21.4 percent, less 
than half of the Illinois juvenile rate of 51 percent for the 
same period.
    We are in the process of building a program on the south 
side of Chicago because three out of the four students that 
apply for our program today are denied access to the program. 
We are asking your support in continuing that project that 
Congressman Jackson was very instrumental in helping us to 
start this year. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    How far out do you reach? Do you go beyond Illinois?
    Ms. Williams. We've gone into Illinois and Iowa, have not 
gone beyond those two States today. It is interesting that you 
ask that question, Mr. Chairman, because a number of other 
folks are asking us about coming to States where they serve.
    Mr. Regula. I think I heard you say that among juveniles, 
the recidivism rate is 51 percent?
    Ms. Williams. In the State of Illinois, for the 16 to 21 
year old age group, that's correct.
    Mr. Regula. I suspect it's even higher--I was on the Ohio 
Crime Commission, and at that time it was 75 percent in the 
adult population. That's tragic.
    Ms. Williams. It is tragic. On the adult side, we have in 
Illinois, it's almost 50 percent. Our recidivism rate for the 
adult population that we serve is 17 percent. So we do help 
people.
    Mr. Regula. The ones you serve are at 17 percent?
    Ms. Williams. That's correct.
    Mr. Regula. Those that are outside the system, it's 
probably much higher.
    Ms. Williams. That's correct.
    Mr. Regula. Any other questions? Yes, Mr. Kennedy.
    Mr. Kennedy. Yes, Mr. Chairman, I want to commend the good 
work that's being done, just say, we have a permanent prison 
class in this country right now, 2 million people in jail. 
These people are going to have to come out. And the thought 
that we as a Nation have not come to grips with what that's 
going to mean, I mean, these are people with a record. They're 
going to be living in our society, trying to get jobs, trying 
to get re-integrated. I mean, we're going to pay the price as a 
Nation if we don't come up with a better solution than we have 
now for helping them re-integrated into the community.
    And every one of those people that you're saving is also, I 
would venture to say, many families who might otherwise be 
victimized by this person that you're saving, a lot of 
heartache and grief. So I think you're doing more than our own 
criminal justice system is doing to help keep our communities 
safer. And I want to thank you for the good work you're doing.
    Ms. Williams. Thank you very much.
    Mr. Regula. Thank you.
                              ----------                              

                                          Thursday, March 22, 2001.

                 MARYLAND STATE DEPARTMENT OF EDUCATION


                                WITNESS

NANCY S. GRASMICK, MARYLAND STATE SUPERINTENDENT OF SCHOOLS, MARYLAND 
    STATE DEPARTMENT OF EDUCATION
    Mr. Regula. Our next witness, Mr. Hoyer will introduce Dr. 
Nancy Grasmick.
    Mr. Hoyer. Thank you very much, Mr. Chairman.
    While Dr. Grasmick is coming forward, I'll start to 
introduce her. Dr. Grasmick has been superintendent of schools 
in Maryland since 1991, for over a decade. Nancy, are you the 
longest serving superintendent in the United States now?
    Ms. Grasmick. There's one other that's longer.
    Mr. Hoyer. Dr. Grasmick is a graduate of Johns Hopkins 
University, Towson and of Gallaudet. So she has a very broad 
background and a lot of ways to communicate with people, and 
does so extraordinarily well on behalf of children and on 
behalf of families.
    I'm not objective when it comes to Dr. Grasmick, I must 
say, because Judy, my wife Judy and Nancy were at Towson 
together, and graduated together and worked together throughout 
their professional careers and frankly, until Judy died. Dr. 
Grasmick has received too many awards, Mr. Chairman, for me to 
articulate. But if you read her resume, she has been cited as 
one of Maryland's most outstanding leaders, one of the Nation's 
most outstanding educators, has been cited, as I say, both by 
National and State organizations for her work and leadership in 
education.
    She has been the superintendent, which is, by the way, 
selected by our board, under two governors. She is the only 
person that I know of that was the secretary of two departments 
at the same time in the State of Maryland. She was with 
Juvenile Family--what was the name of it, Nancy?
    Ms. Grasmick. The Office for Children, Youth and Families.
    Mr. Hoyer. The Office of Children, Youth and Families, 
which we have a similar one, as well as the superintendent of 
schools, an extraordinarily accomplishment. She has been 
recognized by her peers throughout the Nation as somebody who 
has brought a commitment to quality education and to 
accountability, which is being discussed, properly so, so 
widely.
    So I'm pleased on behalf of all the Committee to welcome 
Dr. Grasmick to our Committee, and look forward to her 
testimony.
    Ms. Grasmick. Thank you. Thank you, Mr. Hoyer. It's really 
an honor to be here and testify before you, Mr. Chairman, and 
members of the Committee.
    It is also an honor to perpetuate the vision of an 
extraordinary woman, Judy Hoyer, who was such a champion and 
pioneer for young children in the State of Maryland. In her 
honor, and because of her incredible work, we have created in 
the State of Maryland a concept known as the Judy Center.
    As you begin your work on the fiscal year 2002 budget, I'm 
asking that you give consideration to nationally replicating 
this incredible collaborative full service program for all of 
America's young children. What is a Judy Center? It is a 
comprehensive early childhood education program, which is 
coupled with family support services for children birth through 
six years of age and their families. It is either located in a 
public school or located in a facility in close proximity to an 
elementary school.
    Currently in the State of Maryland, our Judy Centers are 
serving over 4,400 of these young children. Over the years, 
Government has been dedicated to generating program after 
program, wonderful programs, for young children and their 
families. However, these programs have been generated in a 
piece-meal fashion where they are scattered across communities, 
where space is sometimes the primary consideration of where 
they will be located.
    Often citizens do not know of the existence of these 
services and they don't have the capability to access them. 
Imagine needing three or four different services for your 
child, but you don't have transportation to even get to one 
service. It can be a daunting task, and sometimes the 
conclusion is, it's easier not to participate than to try to 
figure out how to access these services.
    This is the wonderful part of the Judy Centers. We take the 
best part of Government, all of the helpful services being 
generated, and make them accessible to families. This is cost 
effective, it provides services to our citizens, but in 
addition to that, it provides for cost avoidance. In the State 
of Maryland, we are spending more than $328 million a year of 
State and Federal funding to help children catch up as they 
matriculate through their school career.
    We're all aware of the current brain research talking about 
the potential for learning that young children have. In 
Maryland, we've created a kindergarten work sampling system, 
and we have concluded that 40 percent of the children entering 
kindergarten in the State of Maryland are not ready to learn as 
we've defined it as a national goal. These Judy Centers offer 
full day, full year services, including kindergarten, pre-
kindergarten, therapeutic nurseries, special education 
services, infant and toddler programs, before and after school 
child care, Head Start, Family Support Centers, Healthy 
Families, parent involvement programs, community health 
programs. It builds a continuum of education and support 
services from birth through school entry.
    Thirteen of our 24 jurisdictions in the State of Maryland 
currently have Judy Centers. We anticipate the expansion very 
soon. Why do these centers work? In addition to the reasons 
I've already cited, they are results oriented, strong 
accountability for outcomes, program accreditation is a 
requirement for all of the programs contained in these centers. 
Family support services are required. Project coordination and 
case management services are essential.
    Finally, it brings together a whole community of 
professionals. And I would say that all of us in this room know 
that education is the bridge to opportunity. The Judy Centers 
help young children and their families take those first steps 
on that bridge.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. That's a wonderful legacy for Judy 
Hoyer.
    A couple of questions. Can you use Title I or do you use 
Head Start money to finance these? How do you handle that?
    Ms. Grasmick. We cobble together a lot of the dollars that 
we receive. Yes, we do use Head Start monies for a portion of 
this, and yes, we do use some of our Title I funding for a 
portion of this. Certainly we do that. But it's all of the 
collateral services that make these so special that often are 
not funded.
    Mr. Regula. Do you use volunteers at all, medical personnel 
or consultants?
    Ms. Grasmick. We have medical personnel, we have the 
presence of higher education in terms of doing professional 
development for the individuals who work in these centers. So 
there's a K-16 relationship, as well as social workers, health 
professionals, etc.
    Mr. Regula. Another aside. Do you do testing in the 
Maryland system?
    Ms. Grasmick. We certainly do, throughout the school career 
of children. I'm proud to say in quality counts, which is the 
national assessment of all 50 States, Maryland was rated number 
one with a score of 98 for its assessment accountability and 
standards.
    Mr. Regula. Questions?
    Mr. Hoyer. She's terrific, isn't she? [Laughter.]
    Obviously I'm not very subjective on this issue, Mr. 
Chairman, I admit to that. But I know those of my colleagues 
who have served on this Committee for some time, Nita Lowey and 
I particularly, talking about comprehensive schools, and in Dr. 
Grasmick's testimony, this is not necessarily a program that 
costs more money. What it seeks to do, we have at the Federal 
and State levels a lot of programs that all of us have 
sponsored or supported, that have a multiplicity of parents who 
are all very proud of those programs.
    The problem that Judy had and that others have at the local 
level is looking sort of at this array of programs that are 
designed to help Mary Jane or Johnny Brown. But the complexity 
of getting from HHS, Department of Education, Department of 
Transportation, Department of Agriculture, HUD and other 
agencies who have resources available to help children learn 
better and to help their families be more functional and 
therefore have the family unit and the child ready to learn and 
learning well, is a challenge.
    I will be introducing in the next couple of weeks the Full 
Service Community Schools Act of 2001. I put $500,000 in this 
bill about five years ago, for the purposes of having a study 
done by HHS and the Department of Education on how to better do 
this. They came out with a report, we didn't implement it as 
quickly as we could.
    The Governor and Judy, the present Governor, who was then 
county executive of Prince George's County, and Governor 
Schaffer, then our Governor, very close to Dr. Grasmick, and 
Judy put together a similar center in Prince George's County, 
Mr. Chairman, and that has served as the model for this program 
that Dr. Grasmick and Governor Glendenning put together. In 
fact, it was Governor Glendenning's suggestion to name these 
the Judy Centers, which he thought was much more family 
friendly than the actual title of the bill, which was the 
Judith B. Hoyer Early Child Care and Education Act.
    But Dr. Grasmick, I want to thank you so very much for the 
leadership and commitment that you have shown in making sure 
not just that this program works, but that we are effectively 
reaching out to every child, and that like President Bush says, 
we cannot afford to leave a child behind.
    Thank you for being here, and thank you for your 
leadership.
    Ms. Grasmick. Thank you, Congressman.
    Mr. Regula. Mrs. Pelosi.
    Mrs. Pelosi. Mr. Chairman, I know usually you don't want us 
to have too many comments, but very briefly, I want to join 
Congressman Hoyer in welcoming Dr. Grasmick. Her reputation in 
Maryland is well established for a long time. As Steny pointed 
out in his opening remarks, her qualifications are exquisite.
    But I just want to thank you for this model, which as 
anyone who knew and loved Judy would know how much this means 
to her. I want to thank you and Mr. Hoyer for your leadership 
on this. Your successful implementation of it serves as a model 
to the rest of the country. For that we're all grateful. Thank 
you.
    Ms. Grasmick. Thank you.
    Mr. Regula. Thank you for being here.
    We have a motion to adjourn on the Floor. If everybody 
could go over and get back quickly. I think Mr. Jackson--Mr. 
Peterson will do one other one until you get back and introduce 
your witness. I think, Mr. Hoyer, you have some, too.
    Mr. Hoyer. I'll go vote.
    Mr. Regula. So we will do one, then we'll go to yours, Mr. 
Jackson.
                              ----------                              

                                          Thursday, March 22, 2001.

                  MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

RONNY B. LANCASTER, MBA, J.D., PRESIDENT, ASSOCIATION OF MINORITY 
    HEALTH PROFESSIONS SCHOOLS
    Mr. Regula. Okay, we'll get started. Mr. Jackson, if you'd 
like to introduce your guest today, Mr. Ronny Lancaster.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for the opportunity to introduce 
Ronny Lancaster. Mr. Lancaster is the Senior Vice President for 
Management and Policy at the Morehouse School of Medicine, and 
the President of the Association of Minority Health Professions 
Schools. Mr. Chairman, the Association of Minority Health 
Professions Schools is comprised of the Nation's 12 
historically black medical, dental, pharmacy and veterinary 
schools. Combined, these institutions have graduated 50 percent 
of all African American physicians and dentists, 60 percent of 
all African American pharmacists, and 75 percent of all African 
American veterinarians.
    Mr. Chairman, working closely with the Association in the 
106th Congress, we were successful in passing legislation 
establishing the National Center for Minority Health and Health 
Disparities at the NIH. Following the passage of this 
legislation, this subcommittee included a line item 
appropriation of $130 million in fiscal year 2001. Mr. 
Chairman, members of the subcommittee, I want to thank Mr. 
Lancaster and the Association of Minority Health Professions 
Schools for their commitment to improving the health status of 
all Americans, and I look forward to working with Mr. 
Lancaster.
    Mr. Lancaster, welcome to the subcommittee.
    Mr. Lancaster. Thank you, Mr. Jackson.
    Thank you, Mr. Chairman, and good morning to you and 
members of the subcommittee and to Mr. Jackson.
    Mr. Chairman, it's an honor to appear before the 
subcommittee this morning, and thank you for the opportunity. 
It is an honor to be introduced by any member of Congress, and 
a privilege to be introduced by Congressman Jackson, a member 
not only of this subcommittee, but a member who has 
distinguished himself in that in just a second term he has 
successfully sponsored legislation which leads to the 
improvement of lives for millions of Americans in our 
association and the Nation. We owe Mr. Jackson and his 
colleagues a debt of gratitude for their hard work, their 
vision and their commitment in accomplishing this most 
important objective.
    Our association also welcomes you, Mr. Chairman, and we 
look forward to a long association during your tenure as Chair. 
We ask that the record reflect our deep appreciation to 
Chairman John Porter who led this subcommittee with 
distinction.
    Mr. Chairman, before beginning my formal testimony, I'd 
like the opportunity, very briefly, to introduce the gentleman 
to my left, your right. This is Dr. John E. Maupin, President 
of Meharry Medical College. It will be my privilege to hand 
over the gavel as president of this association to Dr. Maupin 
in about two weeks.
    Mr. Chairman, you may know, and interestingly, Mrs. Pelosi 
mentioned in introducing Mr. Stokes, she referred simply to 
difficult days in our Nation's history. We, I think, all 
recognize that our history has been punctuated by glorious 
moments, and yet simultaneously, unfortunately, there have been 
difficult times. Meharry Medical College stands alone with 
Howard University School of Medicine as only two universities 
in this Nation where for almost eight decades, these were the 
only medical schools in the country where African American and 
other students were allowed to go for medical education. So it 
is a privilege to introduce Dr. Maupin, and again a privilege 
to hand the gavel to him.
    Mr. Chairman, I'm here this morning to ask the support of 
the subcommittee for three areas. These include support for the 
continuation of the doubling effort for the National Institutes 
of Health, support for the Title III program which is 
administered by the U.S. Department of Education, and finally, 
support for a group of programs administered by the Health 
Resources and Services Administration, HRSA, collectively 
referred to as Health Professions Programs.
    To go through these, just a word about each of these 
quickly, Mr. Chairman. Support for the doubling of the 
appropriation to support the National Institutes of Health is 
nearly universal. We add our voice to that chorus. The National 
Institutes of Health has done a magnificent job in leading the 
world in scientific inquiry and discovery, leading in turn to 
the improved health status of many Americans.
    Regrettably, despite the success, NIH has not done as good 
a job focusing on the important subject of minority health and 
health disparities. Now, thanks to the leadership of Mr. 
Jackson and Congressman Charlie Norwood, and the strong support 
of Republican and Democratic leaders in both chambers, we now 
have at NIH a new national center for minority health and 
health disparities charged with examining these very important 
issues.
    So we support a 16 percent increase for NIH and request 
also a funding level of $200 million for this new center, to 
enable it to conduct the important work for which it has been 
charged.
    Secondly, Mr. Chairman, with respect to the Title III 
program, this program is authorized by Title III of the Higher 
Education Act, commonly referred to as Title III, and its 
purpose simply is to strengthen historically black graduate 
institutions by establishing and strengthening program 
development offices, helping to initiate endowment campaigns at 
those institutions, strengthening information technology 
programs and finally, strengthening their library capacity.
    And finally, Mr. Chairman, I will say also, we are very 
appreciative to this subcommittee for their very strong support 
of this program last year, and we request support again in this 
program at the level of $60 million.
    Finally, in the area of health professions, we ask your 
support for the group of programs collectively referred to as 
Health Professions, programs such as the Health Careers 
Opportunities Program, HCOP, which encourages minority and 
underprivileged youth to consider careers in health 
professions, another program, Scholarships for Disadvantaged 
Students, which makes it possible for these students, frankly, 
to receive an education. And finally, Centers of Excellence 
programs, which seeks to support a level of excellence at each 
of our institutions.
    These programs, Mr. Chairman, collectively, without 
exaggeration, are the difference at our institutions between 
the doors being open and closed.
    So in closing, Mr. Chairman, once again I'd like to thank 
Mr. Porter for his leadership in the past. I'd like to thank 
Mr. Jackson for the privilege of introducing me this morning. 
And finally, thank you, Mr. Chairman, for the privilege of 
appearing this morning. Welcome, and we look forward to working 
with you during your tenure.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    How many institutions do you represent?
    Mr. Lancaster. There are nine institutions, Mr. Chairman, 
with twelve graduate programs at these nine institutions. These 
institutions are located throughout the country.
    Mr. Regula. Are these exclusively African Americans, or do 
you have a mixture of student body?
    Mr. Lancaster. They all have a history in the African 
American tradition, that is to say, they are HBCUs. But, it's 
really important to emphasize that each of our institutions 
admit a wide range of students. My institution, for example, 
the Morehouse School of Medicine, 80 percent are African 
American students, approximately 10 percent are Hispanic and 10 
percent are white.
    Mr. Regula. Okay, thank you.
    Mr. Jackson, questions?
    Thank you for coming.
    Mr. Lancaster. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, March 22, 2001.

                 SOCIETY FOR INVESTIGATIVE DERMATOLOGY


                               WITNESSES

LUIS A. DIAZ, M.D., PRESIDENT, THE SOCIETY FOR INVESTIGATIVE 
    DERMATOLOGY; CHAIRMAN, DEPARTMENT OF DERMATOLOGY, UNIVERSITY OF 
    NORTH CAROLINA AT CHAPEL HILL
DANIELLE CURTIS
DAVID ZARET
    Mr. Regula. Next is Dr. Luis Diaz, The Society for 
Investigative Dermatology and Chairman of the Department of 
Dermatology, University of North Carolina, and accompanied by 
Danielle Curtis and David Zaret.
    Dr. Diaz. Thank you, Mr. Chairman, subcommittee members.
    On behalf of the Society for Investigative Dermatology, the 
thousands of patients with skin diseases and myself, I wish to 
thank you, Mr. Chairman, for this opportunity to testify before 
your Committee. I am Luis Diaz, President of the Society for 
Investigative Dermatology, a dermatologist dedicated to patient 
care, skin research and training of dermatologists and 
scientists. I work at the University of North Carolina.
    On my left is Danielle Curtis, a patient suffering with 
vertiligo, an autoimmune disease in which the immune system 
destroys the pigment of the cells. On my right is Mr. David 
Zaret, a patient suffering from a disease named anthivulgaris, 
an autoimmune disease in which the immune system destroys the 
skin on the lining of the oral cavity. These diseases were 
lethal until the decade of the 1950s.
    Complications of treatment of these diseases are serious. 
You can imagine the problems that Danielle and David are 
suffering every day of their lives.
    The mission of the Society for Investigative Dermatology is 
to support research in skin diseases, and to facilitate the 
training of physicians and scientists of the future. We believe 
that scientific research on skin diseases is the best approach 
to bring hope and assistance to millions of Americans of all 
ages, gender and ethnicity that are currently suffering from 
these ailments. Through research, we wish to enhance our 
knowledge in prevention, diagnosis and treatment of skin 
diseases.
    We have four suggestions which are also advocated by the 
American Academy of Dermatology, representing all U.S. 
dermatologists, and the Coalition of Patient Advocates for Skin 
Disease Research, which is composed of 24 organizations 
concerned with skin diseases. One, our Society is deeply 
grateful to the members of this Committee for our efforts to 
double the funding of NIH over five years. We support the 
proposal of the Ad Hoc Group for Medical Research Funding, 
which calls for a 16.5 percent increase in funding for NIH in 
fiscal year 2002 and specifically for the National Institute of 
Arthritis, Musculoskeletal and Skin Diseases, NIAMS.
    Last year, Congress passed and the President signed a bill 
which included a major section regarding clinical research and 
loan repayment provisions for young trainees interested in 
biomedical research. The pool of physician scientists is 
decreasing at an alarming rate in all fields of medicine, and 
in dermatology. We request that this Committee provide the 
appropriate level of funding for this new, important 
legislative initiative.
    You would be surprised, Mr. Chairman, the information 
regarding total cost to society of a skin disease is not 
updated since 1979. Information about incidence, prevalence, 
mortality and disability, along with the economic cost is 
unavailable. Also unavailable is information about loss of 
economic productivity and activities that are foregone as a 
result of disease.
    A number of Federal agencies collect information about 
these matters. We believe a workshop developed under the 
auspices of the NIAMS and including representatives of all 
various agencies to identify existing information sources on 
the causes and scope of skin diseases, and to recommend 
strategies to developing new information sources would be very 
valuable. Such a workshop would be useful to NIAMS for its own 
planning purposes, it would be useful to the field of 
dermatology for its use in planning for future research, 
manpower and service needs. And it would be very helpful to the 
volunteer organizations in informing their constituencies on 
patients, for raising funds from the public for research.
    If the committee is interested, we would be pleased to work 
with your staff regarding bill report language in that regard.
    Thank you very much for giving me the opportunity. I am 
pleased to answer any questions you may have, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Any questions?
    Thank you for coming. I see you're headquartered in 
Cleveland, is that right? Or the Society is.
    Dr. Diaz. In Cleveland, yes.
    Mr. Regula. How many members do you have nationwide?
    Dr. Diaz. Three thousand.
    Mr. Regula. Mostly physicians that treat?
    Dr. Diaz. Physicians and scientists working in research in 
dermatology.
    Mr. Regula. So you get help from NIH?
    Dr. Diaz. We get help from NIH, yes.
    Mr. Regula. Okay. Thank you for coming.
    Dr. Diaz. Thank you very much, Mr. Chairman.
                              ----------                              

                                          Thursday, March 22, 2001.

                       RETT SYNDROME ASSOCIATION


                               WITNESSES

KATHY HUNTER, FOUNDER AND PRESIDENT, INTERNATIONAL RETT SYNDROME 
    ASSOCIATION
CHERYL DUNIGAN
    Mr. Regula. Next, Mr. Hoyer will introduce Kathy Hunter.
    Mr. Hoyer. Thank you very much, Mr. Chairman. I also 
understand she's joined by Dr. Dunigan.
    Mr. Chairman, some years ago, Kathy, when did we do this, 
1985?
    Ms. Hunter. In 1986.
    Mr. Hoyer. In 1986, I spoke with Chairman Natcher, and we 
had some testimony about a disease, an affliction that I had no 
knowledge of. But I knew a wonderful, and still know, a 
wonderful young woman named Christy. And she and I went to 
church together.
    She at that point in time, I presume, was about seven or 
eight years of age. For the first 18 months of her life, she 
developed normally, 16, 20 months, developed normally. And then 
for some unknown reason, her neurological development not only 
stopped, but it went back. And to this day, she has not 
progressed much beyond the age of a 14 or 15 month old. Her 
body has developed, obviously. She is still a good friend, and 
I see her in church from time to time, not as often as she used 
to come.
    She's a wonderful young woman. She was afflicted with what 
we now know is Rett Syndrome. It is a syndrome that affects 
young women at that age. The tragedy of course is that it 
afflicts a normally growing child that parents have related to 
for the first few months of life, thinking that their child was 
going to develop fully and normally.
    We put $500,000, we didn't earmark it, but we put in, we 
asked NIH to look at this. And both Johns Hopkins and Baylor 
undertook to look at this syndrome and have now developed, 
identified and we are making progress.
    Kathy Hunter has a child as well with Rett Syndrome, and 
founded an organization to spur research and development, and 
parents getting together and talking to one another and making 
it easier to cope and to understand and work on behalf of these 
afflicted young children. She has done an extraordinary job, as 
so many citizens who take unto themselves the personal 
responsibility to make a difference. She and her husband have 
made an extraordinary difference, and I am pleased to be her 
friend and to welcome her to this Committee. She is one of 
those advocates on behalf of health of her own child, but on 
behalf of thousands and thousands of other children and 
parents, and of our society.
    John Kennedy once said, in talking about some children with 
disabilities that although these children were the victims of 
fate, they would not be the victims of our neglect. And 
certainly, Kathy Hunter has not neglected these children. Thank 
you, Kathy, for all you've done.
    Thank you, Mr. Chairman.
    Ms. Hunter. We're so appreciative for your leadership and 
your advocacy and support and that of the Committee over the 
years.
    Julia Roberts has just become our national spokesperson, 
and we made a film that's now showing on Discovery Health.
    Mr. Hoyer. Kathy, if you could tell her that I would 
certainly be open to working closely with her as well----
    [Laughter.]
    Mr. Hoyer. I love seeing you, I want you to know that, I 
don't want her as an alternative. But you could bring her to 
testify next time.
    Ms. Hunter. It would be very helpful to have a pretty 
woman, but we're also very happy to have your support.
    Mr. Hoyer. Thank you.
    Ms. Hunter. Thank you for this opportunity to convey the 
importance of increased funding to the National Institutes of 
Health to accelerate research on the cause, treatment and cure 
for neurological disorders. The International Rett Syndrome 
Association joins the biomedical community's efforts to double 
the NIH budget by fiscal year 2003 and stands by the request 
for a $3.4 billion increase for NIH in fiscal year 2002.
    The impact and burden of neurological diseases cannot be 
emphasized enough. As I have for the last 16 years, I come 
before this Committee to talk about the Rett Syndrome story. 
It's the tale of a unique and puzzling brain disorder which 
doesn't show its face until the child is about a year old, 
andhas achieved normal developmental milestones, and then a frightening 
mental and physical deterioration follows.
    Rett Syndrome robs its victims of the ability to walk, 
speak, and use their hands purposefully. It renders children 
incapable of performing the simplest acts of daily living 
without total assistance from others. Though rarely fatal, Rett 
Syndrome follows a tragic and irreversible course leaving its 
victims permanently impaired for life.
    Pearl Buck said, ``We learn as much from sorrow as from 
joy, as much from illness as from health, as much from handicap 
as from advantage and indeed, perhaps more.'' And this is true. 
Parents learn many good lessons in their journey with Rett 
Syndrome, but our children's suffering does not begin to 
balance the knowledge or insight gained from the terrible 
tragedy of Rett Syndrome.
    My daughter with Rett Syndrome is 27 years old. She's as 
tall as my heart.
    Think of what it would be like to realize that your child 
will never grow up like her brothers or sisters, and imagine 
what it's like to provide the kind of care and support required 
for an infant, but for a lifetime. But I'm not here to tell you 
just about the bad news about Rett Syndrome. I'm here to share 
some marvelous news, and that is that last year when I was 
here, I told you about the dedication and triumph that led to 
the miraculous discovery of the gene for Rett Syndrome. Located 
on the X chromosome, this gene produces part of a switch that 
shuts off the production of proteins. When these are not shut 
off when they should be, the protein over-production causes 
nervous system deterioration which you see in Rett Syndrome.
    This finding is the first incidence of a human disease 
caused by defects in a protein whose function it is to silence 
other genes. So in a way, Rett Syndrome is the little disease 
that could.
    The gene discovery will help us better understand the 
disease process in Rett Syndrome and will likely lead to 
treatments. Because brain development continues long after 
birth and symptoms of Rett Syndrome do not develop for several 
months, there's a window of opportunity during infancy in which 
we might be able to intervene to prevent further damage, 
something we never thought possible before. In fact, clinical 
trials based on the gene discovery are already underway.
    One of the most thrilling pieces of news is the recent 
development, just in the last two weeks, of two animal models 
which mimic Rett Syndrome. These mouse models will allow drug 
experimentation which may mitigate the damage or improve 
function, and will permit post-mortem studies at all stages of 
development. Even more exciting, researchers will be able to 
study the effects of the mutation in animals who have not yet 
developed clinical symptoms. These studies could answer many 
questions about the cascading effect of the mutation in the 
brain and throughout the body, both before and after birth. The 
understanding of these basic molecular changes greatly improves 
our understanding of finding prevention and treatment 
strategies.
    Studies of the mouse have already shown that the genetic 
defect is in effect not only during brain development before 
birth, but has a critical prolonged effect even after birth. 
Since it's easier to treat newborns than to correct defects in 
embryonic development, this gives us hope and promise for 
future treatments.
    Since the first time I came before this Committee, we have 
come such a long way. I told you, now I'm wearing reading 
glasses and I brought my grandchild with me. So back in 1986, 
when NIH funding began, it was a study of a rare and little 
understood disorder. It was a pretty risky venture. Work had to 
start at the beginning, because this was a disorder that had 
nothing more than a name.
    Before the gene discovery diagnosing Rett Syndrome before 
the age of four or five years was often difficult. Today, we 
have a new genetic test to improve the speed and accuracy of 
early diagnosis, and people don't have to wait like I did until 
my daughter was 10 years old, and also to screen prenatally in 
families who already have a child with Rett Syndrome.
    Another significant result is the discovery that Rett 
Syndrome is not limited to females, as previously thought. It's 
now known that while rare, males can have Rett Syndrome, they 
die before birth or shortly after birth. So the mutation could 
play a major role in non-specific mental retardation in both 
males and females. The finding of the MECP2 mutation appears 
also in people who do not have Rett Syndrome and this knowledge 
leads us to know that it's responsible for milder forms of 
mental retardation, and may account for a large number, about 
65 percent of people who have mental retardation and have no 
known diagnosis for it.
    So this rare, little-known disorder that came to your 
attention some 16 years ago may have a profound effect that 
lasts far beyond Rett Syndrome. The biggest news in this story 
is not about Rett Syndrome, it's about those thousands and 
thousands of people who fall into that category, the 65 percent 
of unknown causes for mental retardation.
    So we urge you to increase funding that will bring about a 
better tomorrow and a brighter future for people with 
neurological disorders. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Hoyer. I want to again thank you. The bad news is that 
this syndrome exists. The good news is, as Kathy indicated, 
that we've had recently some extraordinary progress.
    I would say to my friend, Don Sherwood, and Patrick 
Kennedy, who are both spending their first few days on this 
Committee, it is an extraordinary opportunity to assist both 
individuals but more importantly, millions of people in the 
United States and around the world. Dr. Rett is from 
Switzerland, right?
    Ms. Hunter. Austria.
    Mr. Hoyer. Austria, excuse me. From Austria. He was the 
first medical doctor to identify this, but NIH grants to 
Hopkins and Baylor have been really the spur that has led to 
the discoveries. So it is a good news story as well that we are 
on the brink, hopefully, of possibly prevention and perhaps 
even amelioration.
    Thank you, Kathy. Doctor, thank you.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Thank you for coming.
                              ----------                              

                                          Thursday, March 22, 2001.

                 AMERICAN ACADEMY OF FAMILY PHYSICIANS


                                WITNESS

JAMES C. MARTIN, M.D., BOARD MEMBER, AMERICAN ACADEMY OF FAMILY 
    PHYSICIANS
    Mr. Regula. Next we have our colleague from San Antonio, 
Texas, Mr. Charles Gonzalez, who's going to introduce Dr. James 
Martin. Welcome, Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, members of the Committee. It is 
a distinct pleasure, of course, to be introducing someone who 
will be testifying here this morning who is from San Antonio. 
It's Jim Martin, and as I said, he is from San Antonio, and 
he's here representing the American Academy of Family 
Physicians, AAFP.
    After 20 years of private practice, Dr. Martin now serves 
as program director for the Family Residency Program at Santa 
Rosa Health Care in San Antonio. He is also a clinical 
professor with the University of Texas Health Science Center in 
San Antonio. Dr. Martin has been a member of the AAFP since 
1976, and currently serves on the board of directors. The AAFP 
represents more than 88,000, I believe it may be closer to, or 
surpasses now, 90,000 family physicians, family practice 
residents and medical students nationwide.
    Health profession training programs are vital in the effort 
to train more family doctors, especially in medically under-
served communities, much like my district, San Antonio, Texas. 
What determines the effectiveness of a Congress is how well 
informed are its members. So to Dr. Martin and all other 
witnesses that will be testifying today, I commend them. And as 
a member of Congress, and even on behalf of this Committee, the 
important role that you play to inform us in making the 
decisions that better serve our constituents.
    And with that, it's a great pleasure to introduce Dr. Jim 
Martin of San Antonio.
    Dr. Martin. I would like to address three specific funding 
issues with you this morning. The first is family medicine 
training under Section 747 of the Public Health Safety Act. The 
second is the Agency for Health Care Research and Quality, and 
the third are the rural public health programs which you now 
sponsor.
    Before doing that, the Academy has asked me to thank this 
Subcommittee for its incredible support for these programs 
through the years. We especially appreciate your recognition 
last year of the need to enhance the program by additional 
funding in fiscal year 2001. The Academy now asks you to also 
provide appropriate support for Section 47 by $158 million, $96 
million of which will go to family medicine training.
    That becomes very important to us, especially at a time 
when the Administration budget blueprint suggests that cuts 
should occur in these programs. The rationale of the cuts is 
based on the presupposition that there already are enough 
primary care family physicians, and that the market should be 
able to regulate the supply itself. The realities of health 
care in American would suggest otherwise, which I would like to 
state to you.
    First of all, there is a shortage of primary care and 
family physicians in America. The Institute of Medicine, the 
Council on Graduate Medical Education, and other entities have 
long advocated that we have a balanced physician work force, 50 
percent primary care physicians, 50 percent subspecialists. By 
the most conservative number that I could find, America is 
short 20,000 family physicians.
    And the markets have not helped us here, in that the number 
of students interested in primary care specialties have 
decreased over the last four years, and we suspect in the 
national residence and matching program that will come out 
today that that trend will still continue, with a decreased 
interest on the part of medical students.
    There is good news. Your Title VII funds have been 
effective. The Graham Policy Center has shown very clearly that 
students who are in medical schools receiving Title VII funding 
are more likely to go into primary care, they're more likely to 
go into family medicine, they're more likely to practice in 
rural areas, and as Congressman Gonzalez said, they're more 
likely to practice in the primary care health profession 
shortage areas, or HPSAs, which I will shorten it to at this 
point.
    A very intriguing study by the Graham Policy Centerlooked 
at the HPSAs across the country. There are 3,000 counties in the United 
States, 800 of which now are primary care HPSAs. If we take the general 
internists, general pediatricians and the obstetrician gynecologists 
out of this mix, there become another 176 counties that are HPSA 
designated.
    If we remove the family physicians, that number goes to 
almost 1,500. The conclusion is that family physicians are 
responsible for the health care infrastructure of half of the 
counties in the United States, and we don't have enough of 
them.
    Very briefly, I would also ask you to continue to support 
the ARHQ programs. We have worked very carefully with them. We 
especially appreciate what ARHQ brings to the table in its 
research at the practice level. We also appreciate their 
commitment to addressing some of the quality and health safety 
issues that we now are all concerned about.
    For the second the Subcommittee recognized that the 
research that's being done here is taking the new discoveries 
of the NIH and other basic biomedical technology and 
translating that into how we take better care of our patients 
at the doctor patient level, and we think this is some 
important.
    And finally, I ask you also to continue to support the 
National Health Care Service, your State offices of rural 
health, for the work that they do.
    That concludes my remarks. I'd be happy to respond to any 
questions that you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I agree with you, there's a real shortage. But 
how do you overcome the fact that here comes a student with a 
huge debt for education, and obviously, the specialists have 
better earning power than the family practice. I don't know if 
we can address that simply by saying we want more members in 
family practice.
    Dr. Martin. Well, they are issues that need to be 
addressed. I think that there are individuals out there who 
want to be what family doctors and the primary care physicians 
do. I think it's important for the medical schools to go back 
and look at their admitting policies and try to identify those, 
what shall I say, more altruistic individuals who are willing 
to take on jobs where they are not paid as well, and where 
their work hours are much longer than some of their 
subspecialty colleagues.
    Mr. Regula. Do you think Medicare's reimbursement rates 
tilts this table a little bit?
    Dr. Martin. They're certainly not helpful, especially for 
those in the rural or the inner city areas, like Congressman 
Gonzalez has.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. On the Medicare reimbursement, though, for the 
residency it tilts it, clearly. The subsidies are enormous for 
specialties. We should like to get some specific 
recommendations from you in terms of what we can pass on to our 
colleagues, because the reimbursement for these residencies, 
we're all paying for that. The Medicare program is subsidizing 
these people getting a specialty.
    So that's all money that's taxpayer money that's going to 
help educate someone to get higher earning power, and if it's 
the need of this country to have primary care physicians, we 
ought to reverse that policy, especially given the fact there's 
a shortage of graduate medical education dollars. We ought to 
point it, if we do have a shortage, towards those primary care 
professions.
    Dr. Martin. May I respond to Mr. Kennedy? We agree very 
much that needs to be addressed. As I stated earlier, there 
needs to be a balance. Obviously, we need many subspecialists. 
But we also need an appropriate number of primary care, and 
specifically family physicians. I hope that the work force 
policies will really look at that graduate medical education 
funding, and make sure the funds go to where this country needs 
it.
    Mr. Hoyer. I just want to make an observation. You have an 
extraordinarily effective member of Congress who has presented 
you to this Committee. His dad was a giant, as you know, in 
this institution. I am struck by the fact that his personality 
is different from his father's, but his father was and he is 
extraordinarily effective and popular and respected in this 
institution. I'm sure you probably know that, but I wanted to 
reiterate. He does a great job.
    Mr. Gonzalez. Thank you, Steny.
    Mr. Regula. Thank you. Thank you for bringing the doctor.
    I think you make a good point, Mr. Kennedy, we slant the 
table.
    Mr. Kennedy. In terms of budget cutting, there's always a 
fight for those of us who represent prime graduate medical 
education programs. And we're fighting for the dollars. But if 
there are going to be cuts, let's make sure that the funding 
goes to support our priorities.
    Mr. Hoyer. If Mr. Kennedy will yield, I am very confident 
that because Mr. Regula is such an effective leader of this 
Committee, that our 302(b) allocation will be sufficient to 
fund all the priorities that this Nation ought to be investing 
in. [Laughter.]
    Mr. Regula. Take down his words. [Laughter.]
                              ----------                              

                                          Thursday, March 22, 2001.

                  OHIO STATE UNIVERSITY COLLEGE OF LAW


                                WITNESS

GREGORY H. WILLIAMS, DEAN OF THE OHIO STATE UNIVERSITY COLLEGE OF LAW
    Mr. Regula. Okay, Mr. Hoyer, you're going to introduce Greg 
Williams.
    Mr. Hoyer. Dr. Williams, the Dean of the----
    Mr. Regula. I'm trying to figure this one out. It's an Ohio 
State University Law School Dean, and we go to Maryland to get 
him introduced.
    Mr. Hoyer. Well, it's not so surprising, because of course, 
Dr. Britt Kerwin was the President of the University of 
Maryland College Park for many years, until stolen away in the 
dead of night by Ohio State.
    But I frankly think that we're sort of a twofer here. I 
don't think it was lost on the folks that put together their 
spokesperson that he was from Ohio State. Not that they would 
be that cynical, understand. [Laughter.]
    I understand that.
    Mr. Regula. Trained in Maryland, learned well.
    Mr. Hoyer. Dean, we welcome you to this Committee.
    Mr. Chairman, I suppose the reason that I'm doing this is 
that I had been a proponent last year of a program that was 
authorized in 1998. The Dean is going to talk about it. But the 
effort is to, we talk about diversity, we talk about reaching 
out to people, and to include the legal profession, the medical 
profession, other professions, so that we do have a diversity, 
not just so that we have diversity for diversity's sake, but 
diversity so that we will have expertise and experience in 
various different cohorts of our population. It's an 
extraordinarily important effort.
    And so I suppose it's for that reason that I am doing this. 
But Dean, we welcome you to discuss this Thurgood Marshall 
program, Thurgood Marshall, of course, a son of Maryland as 
well. That may be another reason, Mr. Chairman, that I'm 
involved in this. But in any event, Ohio State, as you know, 
one of the great institutions of this country. And I might say, 
Dr. Kerwin, I teased, you didn't steal him at all, he chose to 
go there.
    But in my opinion, one of the finest educational leaders in 
our country. We were very, very sorry to lose him. He is an 
extraordinary talent, as you know, Dean, and I know a delight 
to work with as well.
    Thank you, Mr. Chairman.
    Mr. Williams. Thank you, Mr. Hoyer, and thank you, Mr. 
Chairman, for being here. I appreciate the opportunity, and Mr. 
Hoyer, you're right, Dr. Kerwin is truly outstanding and we are 
very fortunate to have him at Ohio State.
    As indicated, I am Dean of the Ohio State University 
College of Law. It's a real pleasure to be here. I want to 
thank you, Mr. Hoyer, for your support of Thurgood Marshall 
Educational Opportunity Program. It's been very important, and 
we appreciate that support.
    Actually, it's certainly consistent with things you've done 
in the past and things you've supported. You may not remember, 
but our meeting goes back many years ago. Thirty years ago, you 
and I served on the national membership committee of the Young 
Democratic Clubs of America.
    Mr. Hoyer. How could I forget?
    Mr. Williams. Thank you. So it's a real pleasure to be here 
today. I'm speaking as past president of the Association of 
American Law Schools, as well as Dean of the Ohio State 
University College of Law, and for Martha Barnett, the 
President of the American Bar Association, who unfortunately is 
not able to be here.
    But more importantly, actually, I'm speaking as a legal 
educator with 25 years experience working with the CLEO 
program, which I'm sure you know administers the Thurgood 
Marshall program. For almost a quarter of a century, I 
personally have recruited law students to this program, 
minority, disadvantaged students, and have worked with them to 
develop their legal careers. In 1999, I served as the first 
African American male president of the Association of American 
Law Schools, and my theme as president of the association of 
American Law Schools was enhancing diversity in the legal 
profession. I spent a lot of time working with law schools 
around the country talking about the issues that the Committee 
is concerned about.
    As you know, Congress has authorized the Thurgood Marshal 
program in the Higher Education Act Amendments of 1998, and the 
program is designed to increase the number of low income, 
minority and disadvantaged persons in the legal profession. The 
Marshall program is administered through the Council on Legal 
Education Opportunity, which is a non-profit organization 
supported by the American Bar Association, as well as the 
Association of American Law Schools and a number of other 
groups.
    The CLEO program was established in 1968 to make it 
possible for economically and culturally disadvantaged students 
to enter and successfully complete law school. Since that time, 
over 6,000, over 6,000 students have gone through the CLEO 
program. I have personally seen many of these students, in 
fact, I've taught in the CLEO programs in Iowa and Ohio and 
Wisconsin and other places. And of all the students that I've 
seen go through the program in the last 25 years, I can't 
recall more than two that did not successfully complete the 
program.
    So it is a program that truly has made a difference. In 
fact, I think there are three members of Congress presently 
serving who went through the CLEO program. It's a program that 
has truly made a difference. The CLEO training program as 
funded by the Marshall program has been so successful that many 
States have tried to emulate it. Chairman Regula, as you may 
know, Chief Justice Moyer, of the Supreme Court of Ohio, has 
developed a program to develop a CLEO type program in the State 
of Ohio to complement the national efforts that are ongoing, 
and Chief Justice Moyer, of course, has provided greater 
leadership on this issue.
    By opening the doors of opportunity to more minority and 
disadvantaged students, the Marshall program will help to 
ensure that the legal profession reflects the diversity of the 
population that it serves. The social justice system that 
represents the population that it serves is a critical 
component to maintaining public trust and confidence in the 
justice system.
    A recent ABA report called Public Perceptions of the 
Justice System found that almost half of all Americans believe 
that the justice system treats minorities different than 
whites. A significant contributor to this perception is a 
society that's nearly 30 percent persons of color, yet minority 
representation in the legal profession is less than 10 percent. 
One key to remedy this crisis in confidence, in my view, in the 
justice system is to increase the number of minorities serving 
as lawyers, judges, prosecutors, public defenders and 
legislators.
    Over the past five years, minority law enrollment has 
increased only four-tenths of 1 percent, the smallest increase 
in the past 20 years. In 1999, the total number ofminority law 
graduates in the United States dropped for the first time since 1985. 
With the minority population growing in the United States and the law 
school enrollment increasing only at four-tenths of 1 percent, minority 
representation in the legal profession looks bleak.
    Currently, minority representation in other areas actually 
is much higher, including accounting and economics, engineering 
and medicine. All of those are higher in representation of 
minorities than the legal profession.
    Increasing diversity in the legal profession has multiple 
advantages even beyond the public trust and confidence. Within 
an educational setting, there's been a number of studies 
recently, for instance, one done at Harvard and the University 
of Michigan that found that it really made a difference when 
the classes were diverse in terms of the experience that the 
students were going to be able to get in law school. And of 
course, what we find is most of the, not most, but many of the 
graduates who go through the CLEO program and minority students 
are in fact going out to serve those communities that need 
service the most.
    It appears that my time is finished, but I would urge you 
to seriously consider funding the Thurgood Marshall program. It 
is a program that has truly made a difference in this country 
and deserves your continued support. And I thank you very much.
    [Editor's Note.--Prepared statement to be kept as part of 
committee files.]
    Mr. Regula. You make a very good point.
    Any other questions?
    Well, thank you for coming. We have a vote on the rule on 
tornado shelters and two suspensions and a possible motion to 
adjourn. I don't know why anyone would want to adjourn.
    [Recess.]
    Mr. Regula. We have a vote coming up very soon. Let us see 
if we can take one more witness before we have to vote.
                              ----------                              

                                          Thursday, March 22, 2001.

                  COALITION OF ACADEMIC HEALTH CENTERS


                                WITNESS

DONALD C. HARRISON, SENIOR VICE PRESIDENT AND PROVOST FOR HEALTH 
    AFFAIRS, UNIVERSITY OF CINCINNATI
    Dr. Harrison. Good morning, Mr. Chairman and members of the 
subcommittee. Mr. Chairman, your good friend, Bill Keating, who 
has visited me a number of times, sends his regards.
    My name is Dr. Donald Harrison. I am the Senior Vice 
President and Provost for Health Affairs at the University of 
Cincinnati.
    I am also a practicing cardiologist and I served as 
National President of the American Heart Association and Vice 
President of the American College of Cardiology. I was Chief of 
Cardiology for 20 years.
    I am here on behalf of a coalition of 20 academic health 
centers across the nation to highlight issues of concern to all 
academic health centers in the United States.
    We are the institutions that conduct a significant portion 
of extramural, biomedical and behavioral research funded 
through the National Institutes of Health.
    I would like to thank all of the members of this 
subcommittee for the outstanding support to NIH over the past 
several years. These additional funds have clearly had 
significant impact on the cause, prevention and the treatment 
of health problems, which afflict the citizens of our nation 
and the world.
    A few of these merit mention. First, the life expectancy of 
our citizens has increased by more than 20 years since the1930s 
to reach 76 years for males and 80 years for females for a child born 
today.
    Secondly, the adjusted death rate from heart disease and 
heart attacks has been reduced by 40 percent in the past 25 
years.
    Thirdly, our ever-increasing elderly citizens live much 
more active lives, thanks to artificial joint replacement, 
pacemakers and medications which prevent osteoporosis and the 
treatment of breast and prostate cancer and the control of 
diabetes.
    On the other hand, the advances in the future, which can be 
developed from the human genome project, will dwarf our past 
accomplishments.
    I am here today to seek your support for further enhancing 
this extraordinary partnership that has been established with 
great foresight over the years between the academic 
institutions and the Federal government.
    For the fiscal year 2002, we urge you to provide a 
$3,400,000,000 increase for the NIH, which is a little more 
than 16 percent. Such an increase will bring the Agency's 
budget to $23,700,000,000 and keep on track to double the NIH 
budget by fiscal year 2003.
    I will repeat a statistic that I am sure you all are very 
aware of. The NIH currently funds fewer than four of every ten 
approved research grants. For this reason, I urge you to 
continue your efforts to double the NIH budget by 2003.
    We are really just at the dawn of the biomedical 
revolution. This increased funding will keep our world 
preeminence in medical innovation. It will also fuel our 
country's economic growth and development.
    Universities and other research institutions bear the cost 
for conducting NIH research that are not supported by the 
Federal research dollars. In fact, all institutions, both 
public and private, provide part of the research expense for 
their institutions.
    Let me raise a major concern regarding the state of 
extramural research facilities and laboratories. For the past 
two years the NIH has included $75,000,000 in extramural 
research facilities and laboratories.
    For the past two years the NIH has included $75,000,000 in 
extramural construction funding through the National Center for 
Research Resources. It is vitally important that institutions 
have the facilities and equipment to exploit research 
opportunities and utilize the increased projected grant 
funding.
    Exciting developments in genomics, molecular biology and 
neuroscience, cancer and many other fields require these kinds 
of laboratories and instrumentation. Even the best minds cannot 
compensate for outdated equipment and facilities. New 
technology is expensive, but it is important for the 
advancement of science.
    That National Science Foundation, in a study in 1998 on the 
status of scientific and engineering research facilities in the 
United States colleges and universities found that there was 
$11,500,000,000 in deferred research construction and repairs 
needed.
    I urge the subcommittee to provide the funding level of 
$250,000,000 for extramural research construction in the year 
2002.
    A second significant concern of academic medical centers is 
the increased cost of research institutions for complying with 
research related Federal regulations. While extramural 
researchers have always been subject to Federal research 
regulations, the increasing number of research administration 
imposed on institutions has resulted in escalated costs.
    Let me stress that researchers are not opposed to providing 
these safeguards and do not question the necessity of the 
measures. But we believe that the Federal government and the 
Federal Research Institution should help us fund the cost of 
these regulations.
    Finally, I would ask the committee to consider $50,000,000 
to go to the Agency for Health Care Research and Quality to 
reduce medical errors. This is a major problem.
    Mr. Chairman, the polls reflect the fact that the American 
public strongly supports Federal investment in biomedical 
research. Each of these institutions mentioned will increase 
the productivity of this relationship.
    Best wishes to you and good health to all Members of the 
Committee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We accept that.
    Mr. Hoyer. Mr. Chairman, I know you are trying to go vote, 
but Dr. Harrison mentioned that the average life expectancy of 
a child born today was 76 for males and 80 for females.
    Mr. William Hazeltine, whom you may know, who was one of 
the leaders in the mapping of the human genome, spoke to our 
bipartisan retreat.
    He indicated--and he was speaking to the younger members, 
not me, because my grandchildren perhaps fall in this category. 
He said he believes that the average life expectancy of the 
children of the younger Members, Patrick's age, would be 100 
and that the life expectancy of our grandchildren would be 120, 
which obviously will be confronting us with extraordinary 
challenges as well. But it is amazing.
    Dr. Harrison. That is a wonderful goal.
    Mr. Kennedy. Mr. Chairman, that means when I get to be 
Chairman I get to be there for a while.
    Mr. Regula. That is right.
    Mr. Hoyer. He didn't say the rest of us were going to die 
real soon, however.
    Mr. Regula. The committee will be suspended for 
approximately 20 minutes.
    [Recess.]
    Mr. Regula. We will reconvene the committee. Our next 
witness is Dr. Charles Schuster, Professor of Psychiatry and 
Behavioral Neuroscience, Wayne State University College of 
Medicine. Welcome.
                              ----------                              

                                          Thursday, March 22, 2001.

              COLLEGE ON PROBLEMS OF DRUG DEPENDENCE, INC.


                                WITNESS

CHARLES R. SCHUSTER, PROFESSOR OF PSYCHIATRY AND BEHAVIORAL 
    NEUROSCIENCE, WAYNE STATE UNIVERSITY SCHOOL OF MEDICINE
    Dr. Schuster. Thank you very much. First of all, let me ask 
permission to change my written testimony from ``good morning'' 
to ``good afternoon.''
    Mr. Regula. Or ``good evening.''
    Dr. Schuster. I am here today representing not only myself 
as a drug abuse research scientist and treatment provider, but 
as well I serve as the President of the College on Problems of 
Drug Dependence.
    The college has been in existence since 1929 and is the 
oldest and largest scientific society devoted to the study of 
addictions. It has over 600 members and about 1,000 people come 
to our annual scientific meeting.
    The membership is comprised of a broad array of scientists, 
from molecular biologists through criminologists, policy 
analysts, and sociologists, et cetera, concerned with the range 
of problems that drug abuse is involved with.
    I would like to first of all today, on behalf of the 
college, thank this committee for their support of the NIH in 
general in terms of the doubling of its budget, and 
specifically for its support of the National Institute on Drug 
Abuse and appeal to you for continuing this support for it 
obviously is one of the nation's most important problems.
    On the way here today I came across a recent report from 
Constant Horgan of Brandeis, which states that substance abuse, 
is the nation's top health problem, causing more deaths, 
illness and disabilities than any other preventable health 
problem today.
    I am not going to burden you with statistics about that 
because we are all aware of the tragedies associated with it.
    What I would like to say is that the National Institute on 
Drug Abuse is a governmental organization that is very 
important, not only to the members of the College, but as well 
to our society in general, because it supports the overwhelming 
majority of scientific research on the complex problems 
associated with drug abuse and dependence.
    This research has already paid off in a number of ways in 
terms of the development of effective prevention and treatment 
interventions, which are already being utilized. However, a 
great deal more is in the pipeline.
    We are at a time when advances are occurring very, very 
rapidly. In my written testimony I said that we were studying 
the long-term effects of methamphetamine or speed on the brain 
and that definitive evidence would be soon forthcoming.
    Well, in the weeks between the time I wrote this and the 
time I am coming here a report has come out definitely 
corroborating the fact that methamphetamine causes the same 
kind of brain damage in humans that has been reported in 
laboratory animals for many, many years. So, this is a very 
rapidly emerging field.
    My own group is now studying MDMA or Ecstasy in terms of 
the effects of it on the brain. One of the things we are very 
interested in and is of the utmost importance to us to 
understand if we are going to be able to effectively treat the 
problem of drug abuse is what happens in the brain when people 
move from casual, experimental drug use to regular drug use and 
finally to compulsive drug use, which is what characterizes 
addiction. What is going on in the brain there?
    We now have the techniques to PET scanning, functional MRI 
and magnetic resin spectroscopy to study these kinds of things 
in living human beings and animals. Rapid advances are being 
made in this area today.
    In addition, NIDA's research has been responsible for a 
variety of behavioral interventions to help people cope with 
the behavioral changes that they have to make when they 
transition from being active drug users to a drug abstinent 
state.
    These are very effective procedures that are now being 
utilized across the United States and I think are making a real 
difference.
    One of the areas that I am personally involved in that I 
think is very exciting is the so-called National Drug Abuse 
Treatment Clinical Trials network. This is a new program at 
NIDA, which is designed to bridge the gap between 
academicresearchers, which is myself, and community treatment programs.
    It is true in all branches of medicine that there is a gap, 
but it is particularly large in the area of the treatment of 
drug abuse.
    NIDA has now established a network of 14 regional training 
and research centers. These are academic centers spread out 
across the United States, each one of which has gone out into 
their community and established a collaborative relationship 
with community treatment programs where research has never gone 
on.
    Now, what we are doing is taking new treatment 
interventions which have been shown under rigidly controlled 
clinical trials to be effective or efficacious, as we call it. 
We are then looking at them in community treatment programs to 
find out if they are useful in the real world. If they are 
useful, how can we better get other community treatment 
programs that are not part of the CTN to adopt their use.
    This is the goal of this project. Although there are 14 of 
these centers around the United States linked up with about 100 
treatment programs, I think the National Institute on Drug 
Abuse is very much interested in expanding this.
    Mr. Regula. Are all addictions centered in the brain?
    Dr. Schuster. Yes.
    Mr. Regula. What does the body do, send a message that they 
want to smoke or that they want a shot, to the brain?
    Dr. Schuster. The message begins in the brain. We have 
studies now in which we can take individuals who are chronic 
drug users, we put them into a machine called a Functional MRI 
and we provoke them to crave drugs by giving them cues that 
have in the past been associated with their drug use.
    We can delineate the regions of the brain that are 
activated when they see these cues and they report an 
overwhelming urge to get the drug.
    Mr. Regula. So, part of drug therapy would be to change 
patterns of the things that trigger?
    Dr. Schuster. Absolutely. This is can be done in a couple 
of ways. First of all, we are looking for medications that may 
decrease craving. We are also looking for behavioral and 
psychological interventions that may alter that. Great progress 
has really been made because we understand the mechanisms now.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Very interesting.
    Mr. Kennedy.
    Mr. Kennedy. I wanted to get into the whole idea of this 
being behavioral and biological. We, obviously, need to fund 
more research in the area of how the genome and how we can 
intervene earlier. Because to wait until people get to be 
addicts is just a waste of time.
    I think it is probably very useful for us to advance the 
concept that the brain is part of the body and mental health is 
overall health so that we don't have insurance companies 
treating people differently for mental health issues that are 
chronic like drug and substance abuse any different from asthma 
or diabetes or anything like that.
    We need to get this bill passed in this Congress, hopefully 
the Domenici Parity Bill and the Roukema bill on this side will 
pass, because that is the best thing we can do in my view right 
now, to get more treatment to people out there.
    Dr. Schuster. I would also like to comment on the fact that 
one of the problems that we have with the treatment of drug 
addiction is the fact that many of the people that we see also 
have concomitant mental health problems, other psychiatric 
disorders. It is very common.
    Yet, because of the separation in the funding streams, it 
is oftentimes very difficult for us to provide both services in 
the same site. As a consequence of this, when you take 
somebody, as somebody said earlier today, they don't have a 
car. They have to take three buses. You refer them to a 
psychiatrist or a mental health clinic on the other side of 
town and they don't get there.
    We really have to work on trying to mainstream these so 
that we can provide these kinds of services in the same venue, 
so to speak.
    Mr. Kennedy. That is my point, Mr. Chairman, about the 
schools for the kids because it is a non-threatening 
environment. It is not some substance abuse treatment center, 
some mental health place that has all kinds of stigmas laden 
with it. You can treat people collocated.
    As you said, a lot of this is behavioral and it is mental 
health. We need to identify these kids who are predisposed, 
either through sociological factors, their parents, they have 
trouble at home, their parents are addicts or what have you, 
and address it early on.
    Mr. Regula. Thank you for coming.
    Dr. Schuster. Could I have ten seconds? Research has shown 
that if we could ensure the children learn to read in the first 
grade, if they become positively engaged in school that is the 
most effective prevention intervention we could have.
    Mr. Regula. Good point. We have the whole gamut here.Thank 
you.
    Mr. Steve Wilhide, President of the Southern Ohio Health 
Service Network.
                                          Thursday, March 22, 2001.

         NATIONAL ASSOCIATION OF COMMUNITY HEALTH CENTERS, INC.


                                WITNESS

STEVE WILHIDE, PRESIDENT, SOUTHERN OHIO HEALTH SERVICE NETWORK
    Mr. Wilhide. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I want to thank you for the 
opportunity to be here today. I am President and CEO of the 
Southern Ohio Health Services Network, which is a rural 
community health center. I am speaking on behalf of the 
National Association of Community Health Centers regarding 
funding for the Consolidated Health Center Program within the 
Department of Health and Human Services. I would like to thank 
this committee for your increases that have enabled us to serve 
millions more people nationwide in our community health 
centers. We appreciate your commitment to this program and 
appreciate your consideration of expanding the program so we 
can serve millions more.
    Southern Ohio Health Services Network is a Federally 
supported community health center founded in 1976. I was 
brought there as the first Executive Director. Our first year's 
budget was $49,000. It was an Appalachian Regional Commission 
grant and $200,000 from the Department of Health and Human 
Services to provide direct care.
    Today, approaching our 25th anniversary, we have a budget 
of approximately $17,000,000 of which about 20 percent comes 
from a Federal grant and we serve approximately 50,000 people 
who had one or more visits for one or more services last year.
    We have over 50 physicians, dentists, nurse practitioners, 
social workers, and clinical psychologists.
    Mr. Regula. Do you have volunteers?
    Mr. Wilhide. We have volunteers. We have a volunteer 
physician who is retired that I met through my church who 
volunteers. We have a nurse who is retired and volunteers and 
we have a volunteer board that is very, very active. I will be 
getting back to my board meeting this afternoon.
    Nationwide, health centers serve 11 million people, 4.6 
million of whom have no health insurance.
    We applaud President Bush's call to double the number of 
patients served by health centers and to double the number of 
sites. We would urge Congress to appropriate $175,000,000 more 
in order to achieve that goal.
    I think it is important to understand that community health 
centers are locally controlled and operated entities. The 
boards of those health centers, the majority of whom are 
consumers of the care, determine what health care needs are 
prioritized and then hold me accountable for reporting back to 
them as to what progress we are making toward clinical outcome 
goals.
    So, the board, each year, sets forth a list of clinical 
priorities, whether they want to decrease the risk of diabetics 
who have foot problems or what have you. We report to the board 
on our progress.
    Back in 1977 and 1978 two of our counties had the highest 
infant mortality rates in the State of Ohio, higher than many 
Third World countries. The board felt this was unacceptable. We 
targeted that program. We were able to receive a Maternal and 
Child Health grant in addition to our Federal dollars and other 
dollars. We worked with the entire community, public health 
departments, and community action programs with outreach, the 
Grads Program which targets pregnant teenagers to keep them in 
school.
    Mr. Regula. Did that include nutrition help?
    Mr. Wilhide. Absolutely. We also have the WIC Program that 
we operate. We were able to integrate all these services into 
one comprehensive approach. Because as many people have 
indicated before, it is not a medical problem, it is not a 
psychological problem, it is total integration that makes up 
the human being.
    So, we actually were able to recruit, through the National 
Service Corps, and we would not have gotten these doctors had 
we not, pediatricians and obstetricians, gynecologists. The 
first pediatrician ever to serve in Brown County just retired a 
few months ago.
    I am please to report today that our infant mortality rates 
are below State average in those two counties and 82 percent of 
women are getting first trimester prenatal care compared to 
about 58 percent before we started the campaign. Again, it was 
a combination of education, nutrition, socialwork, and 
psychology, integrated together into one setting.
    In addition to being responsive to local health care needs, 
community health centers have proven to be effective and 
efficient over the years. They provide their comprehensive 
services at an average cost of about $350 per person per year. 
That is obviously less than $1 per person served.
    They are having many studies to show their cost 
effectiveness in reducing hospitalization, reducing unnecessary 
emergency room utilization, higher child immunizations. My own 
program has a 93 percent immunization rate of two-year-olds. 
That is considerably above the State average.
    So, again, I think we are not a medical model. We are a 
comprehensive model with a variety of services based upon the 
needs of our own individual communities.
    Last year the National Association of Community Health 
Centers surveyed 100 health centers and found that those health 
centers could serve 50 percent more people if funding was 
available.
    In order to do this we are going to have to establish new 
sites in new locations and expand existing services in present 
locations.
    By way of example, in Adams County, which you may not be 
familiar with, which fortunately now is only the second poorest 
county in the State, I think Perry County is first; we opened a 
23,500 square foot mall-type service facility and closed two 
aging facilities that were inadequate. We have in that facility 
the only psychiatrist in the county, a clinical pharmacy, 
internal medicine, the WIC Program, social work. There is a 
significant increase in the numbers of elderly served and 
dental. We have gone from three dental operatories to nine and 
the appointment books are full right now.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I am sure they are.
    Thank you for coming. I think those community health 
centers do great work.
    Mr. Donald Price, President of the Society for 
Neuroscience.
                              ----------                              

                                          Thursday, March 22, 2001.

                        SOCIETY FOR NEUROSCIENCE


                                WITNESS

DONALD L. PRICE, PRESIDENT
    Dr. Price. Good afternoon. My name is Don Price. I am a 
Professor of Neurology, Pathology and Neuroscience at Johns 
Hopkins and present President of the Society for Neuroscience.
    The Society for Neuroscience has about 28,000 members and 
its major commitment is to basic and clinical neuroscience. We 
are obviously very grateful for the support that we have gotten 
in the past and that biomedical research has gotten in the 
possibility.
    So, with that as a background, I want to depart from those 
remarks and give you an example of a human disease where really 
extraordinary progress has been made. That is Alzheimer's 
disease, which is the most common cause of dementia in late 
life.
    I think we are now on the threshold of coming up with 
therapeutic targets which could prevent this disease. What I 
would like to do, because you heard for example, an elegant 
discussion of the problem of rats. I would like to explain how 
that happens.
    The first thing that happened with Alzheimer's was to 
define it as a disease. The second thing was to look at the 
brain and find that there were very unusual deposits called 
ambyloid in the brain tissue. Then, the gene that encoded the 
protein that gave rise to ambyloid was identified. It turns out 
that it was like this pen. It is a protein thatlooks like this 
and the ambyloid component is imbedded in it.
    So, somehow abnormal scissors, enzymes, leave that peptide 
out and it becomes deposited in the brain of an Alzheimer's 
patient and causes the disease.
    Over the past few years we have identified mutations in 
that gene that are linked to the human disease. I brought two 
specimens, one from my grandson and the other from my 
administrative assistant. It is not hard to tell which is the 
Alzheimer mouse versus the other.
    But basically, what you can do is you can take the mutant 
human gene, put it in the mouse and the mouse will come up with 
the disease. It is now possible to use these mutant mice to 
test mechanisms and therapies. It represents the kind of 
advance that I think we are going to see over the next decade 
for Parkinson's disease, for Rett syndrome where the gene has 
now been identified, and so forth.
    It really represents an extraordinary step forward in terms 
of trying to treat disorders which, when I was neurology 
resident and a clinician, one really didn't want to diagnose 
because the news was so bad for the family.
    It is now possible to knock out the genes that make these 
scissor-like clips. It turns out when you knock those genes out 
in mice, the mice look perfectly well. What that tells you is 
that you could then give this mouse an inhibitor of that 
cleavage product, that enzyme, and this would not happen. The 
mouse would not get Alzheimer's disease. If it works in mice, 
it should work in humans.
    To emphasize the point that was made before about 
prevention, if one comes up with a small molecule that can get 
into the brain that can inhibit these enzyme activities that 
cleave this ambyloid protein, one could potentially completely 
prevent a disease like Alzheimer's.
    I think the same story is going to be translated to Lou 
Gehrig's disease and many of the other devastating neurological 
diseases. When genes are identified for psychiatric diseases, 
we are going to be able to do the same kinds of things.
    So, really, that is how the NIH monies are being invested. 
I think they are critical if we are going to improve the health 
of our population.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Are there questions?
    I have just one. Does Alzheimer's have a pattern of onset 
that you would start this treatment once you identified it? You 
would not do it in a healthy person, I assume.
    Dr. Price. No. I think it would depend. I mean Alzheimer's 
disease clearly starts much earlier than the first obvious 
clinical sign. If you had a very safe drug, you could start it 
early. The earliest case of Alzheimer's that I know of is a 
young person who had a gene lesion who got it at 16 years of 
age. So, it can occur from 16 to late 80s. But it usually has a 
very indolent course.
    So, to answer your question directly, if you had a safe 
therapy, then one might treat patients prospectively.
    Mr. Regula. I understand there is some genetic pattern, 
that it is inherited.
    Dr. Price. That is right. It is really the identification 
of those genes that has allowed this kind of research to go 
forward. That is what we are going to see, I think, in 
psychiatry in the next decade.
    Mr. Regula. Well, thank you for coming.
    Dr. Price. Thanks very much.
    Mr. Regula. Dr. Robert Felter, Chairman of Pediatrics and 
Medical Director, Tod Children's Hospital in Youngstown.
    I am happy to welcome you.
                              ----------                              

                                          Thursday, March 22, 2001.

              NATIONAL ASSOCIATION OF CHILDREN'S HOSPITALS


                                WITNESS

ROBERT A. FELTER, CHAIRMAN OF PEDIATRICS AND MEDICAL DIRECTOR, TOD 
    CHILDREN'S HOSPITAL, YOUNGSTOWN, OHIO
    Dr. Felter. Good afternoon. My name is Robert Felter. I am 
a pediatric emergency physician and currently Chairman of 
Pediatrics and Medical Director of Tod Children's Hospital in 
Youngstown, Ohio.
    Thank you for the opportunity to testify on behalf of the 
National Association of Children's Hospitals. Mr. Chairman, I 
especially want to thank you and the members of your committee 
and your colleagues very much for last year's appropriation off 
$235,000,000 for Graduate Medical Education or GME Programs for 
the nation's nearly 60 pediatric teaching hospitals.
    You enacted this funding at a time when it was critically 
needed by hospitals all across the country. Your 2001 
appropriation is a major step toward fulfilling the Congress's 
authorization of the $285,000,000 needed to provide equitable 
Federal support for our GME Programs.
    In today's increasingly price competitive health care 
marketplace, Medicare has become the only major reliable source 
of GME support. Teaching hospitals absolutely rely on it to 
remain competitive. But children's hospitals qualify for 
virtually no Federal GME support from Medicare because we care 
for children.
    On the average, one of our hospitals receives less than one 
half of one percent of the GME support which other teaching 
hospitals receive through Medicare. That creates a huge gap in 
Federal support for children's hospitals. According to the 
Lewin Group, it amounts to about $285,000,000 annually.
    It puts at risk not only our hospitals, but also the future 
of our entire pediatric workforce and health care for all 
children. Here is why: On the average our hospitals consist of 
less than one percent of all hospitals, but we train nearly 30 
percent of all pediatricians, nearly 50 percent of all 
pediatric specialists and almost all pediatric emergency 
specialists such as myself.
    We are also the major pipeline for future pediatric 
research. We also serve all children, regardless of economic 
need, from the furthest rural to the nearest inner city 
neighborhoods. We provide personal, compassionate care combined 
with state-of-the-art medical treatment.
    Mr. Chairman, as we discussed in your office last week, you 
know that this affects my own hospital very much. We provide 
more than 30 pediatric sub-specialists and highly specialized 
programs such as our pediatric in-patient cancer unit. We serve 
all children. More than 60 percent of our care at Tod 
Children's goes to children who are assisted by Medicaid or 
have no insurance.
    We also train 27 medical residents each year. The majority 
of them go into practice in the Youngstown area or in Ohio.
    Mr. Regula. You got some financial support for that program 
out of this committee this current year; right?
    Dr. Felter. Yes, we got $200,000 for Tod and we will get a 
little over $1,000,000 this year from the increased finances. 
Again, it costs us about $200,000,000.
    As you know, Youngstown is an economically depressed 
community, which makes it difficult for us to attract and 
retain strong clinical talent. The loss of our GME Program 
would seriously affect Youngstown's pediatric workforce. We 
face the potential for that loss right now. We spend more than 
$2,000,000, our hospital does, just on the direct cost of the 
program.
    We face increasing pressures to eliminate either that 
training program or other programs. Frankly, without strong 
Federal funding through Children's Hospital GME program, the 
future of our training program is in jeopardy. That in turn 
puts into jeopardy the long-term future of our children's 
hospital and the health of our community.
    With such a major impact on small institutions such as Tod 
Children's Hospital, you can image the impact of this funding 
on much larger institutions in their regions such as Children's 
Hospital in Boston or Los Angeles, which train hundreds of 
residents.
    Please take the next step to close the gap by appropriating 
full funding this year. It is vital for the future of our 
pediatric workforce and the healthcare of all children.
    Thank you again for your past support. We appreciate very 
much your consideration of our request today for fulfillment of 
equitable GME support for children's hospitals.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson [assuming chair]. I didn't really hear most of 
your testimony, but I didn't really need to. I am very familiar 
with Pennsylvania's Pittsburgh Children's Hospital and CHOP in 
Philadelphia. I call them miracle hospitals, because that is 
really what you do. We send our very sickest children to you 
and you do miracles.
    I totally support, personally, and I am just speaking for 
one person, of closing that gap. If there is any part of our 
teaching system that should not have been shortchanged, it is 
our kids.
    Dr. Felter. Thank you very much. I appreciate the support.
    Mr. Peterson. Are there any questions?
    Thank you very much.
    Next we will hear from Stephen Bartels, President of the 
American Association for Geriatric Psychiatry. We welcome you. 
Please proceed.
                              ----------                              

                                          Thursday, March 22, 2001.

             AMERICAN ASSOCIATION FOR GERIATRIC PSYCHIATRY


                                WITNESS

STEPHEN BARTELS, PRESIDENT
    Dr. Bartels. Mr. Chairman and members of the subcommittee I 
am Dr. Stephen Bartels, President of the American Association 
for Geriatric Psychiatry. AAGP is a professional membership 
organization dedicated to promoting the mental health and well 
being of older Americans and improving the care of those with 
late life mental disorders.
    Mr. Chairman, I join many of those other witnesses here 
today in thanking the subcommittee for its continued strong 
support for increased funding for the National Institutes of 
Health over the last several years.
    However, I am here today to convey the serious concern 
shared by researchers, clinicians and consumers that there 
exists a critical disparity between Federally funded research 
on mental health and aging and mental health needs of older 
Americans.
    Mr. Chairman, as we have already heard today, the U.S. 
Census projects that numbers of Americans over age 65 will 
increase dramatically over the coming decades.
    However, despite recent significant increases in 
appropriations for research in mental health, the proportion of 
new NIH funds for research on older persons has actually gone 
down and is woefully inadequate to deal with the impending 
crisis of mental health in older Americans.
    With the Baby Boom generation nearing retirement, the 
number of older Americans experiencing mental health problems 
is certain to increase in the future. By the year 2010, there 
will be approximately 40 million people in the United States 
over the age of 65. Over 20 percent of those people will 
experience mental disorders.
    Current and projected economic costs of mental disorders of 
aging alone are staggering. Depression is an example of a 
common problem among older persons. Approximately 30 percent of 
older persons in primary care settings have significant 
symptoms of depression. Depression is associated with greater 
health care costs, poor health care outcomes and increased 
morbidity and mortality.
    Older adults have the highest suicide rate of any age 
group. AAGP would like to call to the subcommittee's attention 
the fact that recent increases in the National Institute of 
Mental Health and the Center for Mental Health Services have 
not been reflected in new research funding on mental health in 
aging.
    For example, while total research grants awarded by NIMH 
increased 59 percent in 1995 to the year 2000, NIMH grants for 
aging research increased at half that rate over the same 
period. In fact, between 1999 into the year 2000, the actual 
amount of new funding for aging grants by NIMH declined.
    I brought this diagram here to show that the proportion of 
total NIMH newly funded research devoted to aging declined from 
an average of eight percent in 1995 down to six percent in the 
year 2000. It is juxtaposed against significant increases that 
this committee has approved for NIMH over the last several 
years.
    I have also taken the liberty to bring this other diagram 
that shows the increasing numbers of people who are elderly 
that are projected to come, the associated health care 
expenditures. This large increase is showing the number of 
people with mental disorders as opposed to younger people and 
this is the NIMH funded research at the current rate, which is 
quite low.
    Now, Mr. Chairman, the research that this committee has 
funded shows definitely that treatment works for many mental 
health problems in older persons. However, if current trends in 
funding for aging and mental health continue at NIMH and CMHS, 
we will dramatically fall short of the need for continued 
developments and our understanding of the causes of mental 
health problems in older people and the development of 
effective prevention and treatment.
    Improving the treatment of late life mental problems will 
benefit not only the elderly, but also the current Baby Boomer 
generation whose lives are often profoundly affected by those 
of their parents who comprise an unprecedented challenge to the 
future of mental health services in America.
    In short, Mr. Chairman, this is not simply a concern for 
our nation's elderly. Under-funding research on mental health 
in aging is a problem for those of us with parents afflicted 
with mental disorders and for the future of those of us who 
will reach retirement age in the next two decades.
    Based on our assessment of the current need and future 
challenges of late life mental disorders, we submit the 
following three recommendations for consideration:
    One, the current rate of funding for aging grants at NIMH 
and CMHS is inadequate. Funding of aging research grants by 
these agencies should be increased by approximately three times 
the current funding level, to be commensurate with the current 
need. Two, infrastructures within NIMH and CMHS are needed to 
support the development of initiatives in aging research, 
including the creating of positions with these agencies 
dedicated to promoting, maintaining and monitoring research on 
mental health in aging. Three, the establishment of grant 
review committees with specific expertise in reviewing research 
proposals on mental health in aging. In conclusion, we are 
dramatically under-investing in research on mental health in 
aging at a time when the NIMH and CMHS budgets have seen 
significant increases. The projected economic impact of the 
aging Baby Boom generation on Medicare and Social Security 
systems is well known.
    But there is another challenge that has not received 
attention. We can expect an unprecedented explosion in the 
number of people over age 65 with potentially disabling mental 
disorders.
    I would like to thank you for allowing me to submit this 
testimony today. We will be happy to answer any questions.
    Mr. Peterson. In your research, are you tracking some of 
the mental health drugs that our seniors have been on for 
decades?
    Dr. Bartels. Yes.
    Mr. Peterson. I would like to just raise one. I have a 
personal experience. My mother had depression problems all of 
her life. I don't remember when she would not go into the lows 
and the highs. She was never doctored until the last two or 
three decades. I do not think we doctored it much when I was a 
child.
    But she was on a drug called Vivactil for maybe 25 or 30 
years. I had a younger brother who over a period of time had to 
get the doctors that prescribed that to reconsider that drug. 
He had done some research. He was always unsuccessful. I guess 
I kind of hold myself responsible that I didn't give him more 
assistance, but I certainly didn't hamper him.
    Recently, she had a health problem where she broke her hip 
and was temporarily in a nursing home for rehab. The doctor 
there quickly agreed with my brother that she ought to be off 
that drug.
    My mother could not carry on a conversation with me for 
three years. My mother can carry unlimited conversation today 
after six months. I just find that a tragedy that she was 
deprived of the ability to communicate. She knew my name. She 
always knew me. She expressed love for her children, but she 
could not communicate.
    She is actually gaining. We were blaming it all on 
Alzheimer's. She is actually gaining the ability to have a 
conversation with her children.
    In discussing this with nurses, they feel there are a 
number of mental health drugs over long periods of time that 
have actually harmed people's ability to think and carry on a 
conversation.
    Do we monitor them long term?
    Dr. Bartels. Well, not well enough. I think part of that 
has to do with health services research in pharmacoepidemiology 
and look at precisely this: co-prescriptions, old medications 
that have bad side effects that do impair cognition.
    The good news is that there are new medications which have 
minimal side effects that enhance functioning. We know, for 
example, like your mother had a hip fracture, that untreated 
depression actually results in worse health care outcomes. 
Those people do not get better as fast and they are more likely 
to die.
    So, untreated depression, untreated disorders without the 
state-of-the-art medications is actually a tragedy.
    Mr. Peterson. Well, I guess in Pennsylvania where they had 
the PACE Program where they really know what everybody is on 
and she was in the PACE Program. I have been going to talk to 
them because I have worked with them for years at the State 
level.
    How many people are still on that drug? I personal think it 
is a bad drug.
    Dr. Bartels. I think there are newer and better drugs that 
are out there and that is part of the research that we are 
hoping to focus on, looks at those medications, treatment and 
services that will make a difference for people like your 
mother.
    Mr. Peterson. Of course, I am one who thinks we rely too 
much on drugs today. There are wonderful drugs. I am not 
against new drugs.
    Dr. Bartels. There are very effective non-pharmacologic 
interventions also that we are doing research on.
    Mr. Peterson. There are so many seniors. I tour home health 
agencies. Five, six, seven, eight, nine or ten drugs, I am just 
amazed how many drugs our seniors are on and the complications 
of them. Are we studying that, too?
    Dr. Bartels. We are. Our group at Dartmouth is doing just 
those sorts of studies right now.
    Mr. Peterson. Do you have any questions?
    The gentleman from Rhode Island.
    Mr. Kennedy. I agree, Mr. Chairman. The fact of the matter 
is seniors are over-utilizing the health care system for many 
reasons, because they are depressed or they are not getting 
connections. So, they use the Medicare system as a way to get, 
you know, some attention and whatever that makes up for lack of 
proper love and so forth from their family or the losses that 
they have suffered.
    If you would establish a kind of program that was a 
practicum of how to identify depression among seniors, I mean 
if you had limited resources and I am not talking about the 
research angle and increasing science, which I agree with you 
on, but just out there right now, what would be your kind of 
vision of what a program would look like?
    Dr. Bartels. I think there are several things. First of 
all, you are exactly right that we know from health services 
research that there is increased health services utilization, 
emergency room visits, hospitalizations, et cetera, with 
untreated depression.
    I think the place to go is where seniors are, which is to 
say that because of the stigma of mental illness, they are less 
likely to go to specialty care providers. So that primary care 
physician offices, educating primary care physicians to better 
identify and use state-of-the-art treatments is a place to go, 
senior citizens centers as well as senior housing.
    Some of the innovative programs that we have actually 
looked at and a number of us have researched, I think, are the 
places to look at.
    Mr. Kennedy. I would love to have you share what some of 
your findings have been in those areas because I would like to 
get those things back in my community because I know there are 
too many seniors who are suffering needlessly. People think, 
oh, that is just part of being old.
    Dr. Bartels. I would be delighted to talk with you in 
details about some of these programs.
    Mr. Kennedy. That would be great. Thanks very much.
    Mr. Peterson. Thank you.
    We are trying to accommodate people who have plane 
reservation problems. We are next going to hear from Dr. Felix 
Okojie, Vice President, Research and Strategic Initiatives, 
Jackson State University.
    If you have a similar problem, let us know. We will try to 
accommodate you.
    Please proceed.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 22, 2001.

                        JACKSON STATE UNIVERSITY


                                WITNESS

FELIX OKOJIE, VICE PRESIDENT, RESEARCH AND STRATEGIC INITIATIVES
    Dr. Okojie. Mr. Chairman, distinguished members of the 
subcommittee, I am Felix Okojie, Vice President for Research 
and Strategic Initiatives at Jackson State University. I want 
to thank you members of the committee for giving me the 
opportunity to appear before you today as you consider the 
fiscal year 2002 funding year priorities for this subcommittee.
    First of all, I would like to be on record with this 
committee for the extraordinary and strategic efforts for 
putting significant amounts of dollars in agencies like NIH and 
the education in that has helped historically Black colleges 
and universities across this country to contribute 
significantly to the health and other problems of the citizens 
of this country.
    As a result of the efforts of this committee, I would like 
to speak very briefly to how Jackson State University in 
Jackson, Mississippi has benefitted and continues to benefit 
from the efforts of this committee.
    There are two initiatives that the university is very much 
interested in that we think, because of the resources that have 
already been invested at the university by Federal agencies as 
a result of the appropriations from this committee, can even 
further enhance the critical goal that we have.
    There is a study going on right now in Jackson called The 
Jackson House Study, which is an epidemiological, 
cardiovascular disease study by the largest CVD study for 
African-Americans in this country. Within that we also have a 
major cancer study going on at the medical school.
    Jackson State University recently developed an 
epidemiological institute where CVD and things like prostate 
cancer will be the major focus.
    Jackson State University is at the forefront in trying to 
help to meet some of the disparity, particularly in the area of 
cities in Mississippi and this country.
    One of the initiatives we would like to highlight is the 
establishment of a minority Rural and Urban Health and Wellness 
Center. The impetus for this center is as a result of the 
critical mass of the human resource and intellectual capital 
that has been harnessed over the years to do a lot of disparity 
studies in collaboration with institutes like NIH and CDC.
    Information out of these studies can be disseminated both 
in the rural and urban areas of the State as well as across 
different parts of this country. So, the Health and Wellness 
Center would take advantage of this synergy and the 
intellectual capital to capitalize and to disseminate 
significant information on both disparities as it relates to 
those common issues that afflict minority populations in 
Mississippi and in other parts of this country.
    I ask this committee that sufficient funding be provided in 
the health facilities account of the HHS section of the 
Education Appropriations bill to support projects such as this 
that Jackson State is proposing.
    The other major project is a project called the Mississippi 
e-Center at Jackson State University. This is a center that we 
would like the committee to be aware of. Again, this center is 
designed to create some more outreach efforts through the use 
of technology to reach urban and rural areas in Mississippi, as 
well as providing some new and innovative ideas that can help 
service some of the needs across this country by using 
research, e-technology programming and e-service opportunities 
to meet the needs of minorities in this country as well as 
major aspects of people in this country.
    Mr. Chairman, thank you for this opportunity. I will take 
any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. Thank you very much. I guess we have no 
questions.
    Next, we will call on Dorothy Hill, President of the 
American Psychiatric Nurses Association. Please proceed.
                              ----------                              

                                          Thursday, March 22, 2001.

                AMERICAN PSYCHIATRIC NURSES ASSOCIATION


                                WITNESS

DOROTHY HILL, PRESIDENT
    Ms. Hill. Mr. Chairman, my name is Dottie Hill and I am 
Vice President of Patient Care at Arcadia Hospital in Bangor, 
Maine. I am here today as President of the American Psychiatric 
Nurses Association, or APNA. Thank you for providing me with 
the opportunity to outline APNA's funding priorities for fiscal 
year 2002.
    Founded in 1987, APNA is comprised of approximately 4,000 
psychiatric nurses representing every State in the nation. Our 
mission is to advance psychiatric and mental health nursing 
practice, improve mental health care for culturally diverse 
individuals, families, groups and communities and to help shape 
mental health care policy.
    Before moving on, I would like to quickly review some 
startling statistics to demonstrate the impact mental illness 
has on our country. One out of every five children has a mental 
health disorder. Two-thirds of our nation's seniors living in 
nursing homes have a mental health disorder.
    Although 80 percent of those with depression can be 
effectively treated, only one out of three receives appropriate 
treatment.
    The economic burden related to mental illness is staggering 
with the total estimated cost for mental health disorders in 
1994 at approximately $204,000,000,000. I would like to 
reiterate that mental illnesses are biological, medical 
illnesses.
    First APNA is seeking increased Federal support for 
psychiatric nursing research. Psychiatric nurses have been and 
will continue to be an integral part of our nation's research 
community.
    With this in mind, APNA would like to commend this 
subcommittee and in particular, Congresswoman DeLauro for the 
fiscal year 2001 appropriations measure that led to a joint 
NINR and NIH mentorship program for psychiatric nurse 
researchers. The program will support the development of expert 
psychiatric mental health nurse researchers in the area of 
measuring outcomes in the care of psychiatric patients.
    APNA is extremely excited about this program and wishes to 
acknowledge the tremendous work done by Dr. Patricia Grady, 
Director of NINR, and Dr. Steven Hyman, Director of NIMH, and 
the staff at both institutions.
    In addition to supporting the nurse researcher mentorship 
program, strong Federal support is needed in order to build our 
nation's research capacity by ensuring an adequate supply of 
nurse researchers.
    As a result, we would ask the committee to include nurse 
researchers in any research-related loan repayment program so 
that we can attract the most promising students into 
psychiatric nursing research.
    We would also like to take a moment to note our concern 
that current NIH and NINR funding does not fully reflect the 
broad range of psychiatric nursing research. With the grant 
funding focused on issues such as violence and substance abuse, 
while these issues are very important, we would like to extend 
this research portfolio.
    In all, APNA is seeking $144,000,000 for NINR and at least 
a 16.5 percent increase for NIMH.
    APNA's second priority relates to the nursing shortage our 
country now faces. I am sure you folks have heard a lot about 
that. In order to address this serious problem, APNA and other 
members of the health professions and nursing education 
coalition recommend at least $440,000,000 in fiscal year 2002 
overall funding for Title VII and Title VIII of the Public 
Health Service Act.
    These figures do not include funding for the children's 
hospitals Graduate Medical Education Program, an amount 
separate from Title VII and Title VIII funding.
    Within the health professions programs, APNA is joined by 
other members of the nursing community in seeking a minimum 
increase of $25,000,000 within Title VIII.
    Further, we are seeking an additional $10,000,000 for 2002 
for the Nursing Education Loan Repayment Program. Equally 
important, APNA is advocating for an improved data collection 
to learn even more about our nursing workforce.
    Finally, APNA would like to ask for the committee's helpto 
ensure that recent reforms related to the use of seclusion and 
restraint include the expertise of our nation's psychiatric nurses. We 
are concerned that new policies could overlook our nation's psychiatric 
nurses in a way that could negatively impact patient and staff safety.
    Safety in nursing work environments is crucial with the 
impending nursing shortage.
    Thank you very much for providing me with the opportunity 
to present our funding priorities. I would be happy to answer 
any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. The last county medical society that I met 
with shared with me that 40 to 50 percent of their patients 
needed mental health treatment. That has not been historic; has 
it?
    Ms. Hill. It actually has been historic, but I don't think 
we have discovered or admitted or understood that until more 
recently with some of the advances that we are finding, that 
people have described before this community in terms of being 
able to look in people's brains and understanding that many of 
what we heretofore thought were maybe disorders of aging or 
just adulthood or disorders related to stress actually had a 
biological and medical basis.
    The more we understand that, the more we are beginning to 
diagnose and hopefully treat those illnesses.
    Mr. Peterson. But you don't think that is an uncommon 
figure?
    Ms. Hill. No, I do not.
    Mr. Peterson. Do psych nurses basically work in psych 
units? I have a lot of small rural hospitals. They don't all 
have psych units. But if they don't have a psych unit, would 
they hire a psychiatric nurse?
    Ms. Hill. Eighty percent of our psychiatric nurses are 
functioning in hospitals, but not in small rural hospitals. If 
there is not a psychiatric unit in a hospital, it would be very 
hard to find a psychiatric nurse.
    Mr. Peterson. They are basically in where the units are?
    Ms. Hill. Right.
    Mr. Peterson. You kept using the term ``mental health 
nursing research.'' I don't quite understand that term.
    Ms. Hill. Well, in the past most of the nursing research 
that has been done has not been funded. Psychiatric nursing, 
mental health nursing research has not been funded or it has 
been under-funded.
    We have had some great success in the last year getting 
some dollars put towards nursing research for psychiatric 
nursing. That is what we are asking about. Much of the funding 
has gone to much broader nursing research that does not relate 
to psychiatry.
    Mr. Peterson. Is that separated from psychiatric research 
in general? I guess that is the question maybe I should have 
asked. Why is it separate who the provider is, whether it is a 
nurse or a doctor?
    Ms. Hill. Again, nursing research has a specific body of 
knowledge all its own which relates to how patient care 
influences how patient care influences people to get better. It 
is a different science.
    Mr. Peterson. Do you think we need to get a little bit 
drastic, maybe, in our future budgets about dealing with the 
nursing shortage in general, beyond psychiatric, I mean just in 
general. Are we approaching, in your view, a huge crisis?
    Ms. Hill. A drastic crisis.
    Mr. Peterson. I have young nurses in my district, who, now 
that we are basically Bachelor's degree nurses, who found that 
they can go to school one more year and be anything they want. 
That is a foundation for other careers. So, what we thought was 
maybe the right direction now allows them to just move on. 
Several are going to be accountants, CPAs. That is not exactly 
what you would think a nurse would go to.
    But because of what they found on the floor in their first 
two or three years in practice, they are just moving on. They 
are going to night school and they are going to move on and 
leave the nursing profession.
    If it is like that across the country, we are really in 
trouble.
    Ms. Hill. That is right.
    Mr. Peterson. We are always looking for projects or pilots 
that we can do across this country. I think we really need to 
put our thinking caps on to discover how we can get people into 
nursing quickly.
    Ms. Hill. I agree.
    Mr. Peterson. I look forward to your advice.
    Ms. Hill. Thank you.
    Mr. Peterson. Dr. Robert Schwartz, Professor and Chairman, 
Department of Family Medicine and Community Health, University 
of Miami, School of Medicine.
    Good afternoon and welcome.
                              ----------                              

                                          Thursday, March 22, 2001.

               ORGANIZATIONS OF ACADEMIC FAMILY MEDICINE


                                WITNESS

ROBERT SCHWARTZ, PROFESSOR AND CHAIR, DEPARTMENT OF FAMILY MEDICINE AND 
    COMMUNITY HEALTH, UNIVERSITY OF MIAMI SCHOOL OF MEDICINE
    Dr. Schwartz. Thank you. It is an honor and a privilege to 
be here. As you mentioned, I am Professor and Chair of the 
Department of Family Medicine and Community Health at the 
University of Miami School of Medicine. I am also a member of 
the board and legislative chair of the Society of Teachers of 
Family Medicine.
    I have been a practicing physician and teacher for more 
than 20 years. I thank you for the opportunity to be able to 
talk on behalf of the organizations of academic family medicine 
today.
    I am here to discuss two programs under the purview of this 
committee: The Family Practice Training Programs under Title 
VII of the Health Services Act; and the Agency for Health Care 
Research and Quality, also known as AHRQ.
    Both of these programs address real and important needs in 
our society. These programs are not sexy. They do not have a 
natural and sympathetic constituency. What they do have is a 
proven ability to make positive changes in our nation's health 
care and in our patient's lives.
    These are programs this committee supported well in the 
last funding cycle. We are asking for that support again this 
year.
    We ask in addition that the funding for the Primary Care 
Medicine and Dentistry Cluster of Title VII be increased 
$158,000,000. This would allow for $96,000,000 for family 
practice training programs.
    Currently, the Federally funded educational system 
reinforces the sub-specialization of the physician workforce. 
The President's budget blueprint says that the nation has too 
many doctors. We respectfully disagree.
    What we are experiencing is a surplus of specialists. We do 
have a shortage of doctors, primary care physicians and doctors 
who care for families.
    Title VII programs are designed to counter this market bias 
and support development of the primary care physician 
workforce. These are the only Federal programs that explicitly 
fund the infrastructure to produce physicians who will address 
Congressional stipulated goals. They will help deliver health 
care to under-served populations. They will bring health care 
professionals to rural areas and will improve geographic mal-
distribution of the physician workforce.
    We are excited because now we have new data. Federal 
funding through Title VII of Family Medicine Department's pre-
doctoral programs and faculty development has made a 
difference. A current study shows that these three types of 
grants really do make a difference in producing more family 
physicians and more primary care doctors.
    Pre-doctoral and department development grants made a 
difference in producing more primary care doctors serving in 
rural areas and more doctors serving in primary care health 
professional areas, also known as HPSAs.
    Sustained funding during the years of medical school 
training had more positive impact than intermittent funding. 
Another recent study data show that without family physicians 
over 1,000 additional counties would qualify for this 
designation as a HPSA.
    This compares to an additional 176 counties that would meet 
the criteria if all internists, pediatricians and obstetricians 
in aggregate were withdrawn. These funds must be maintained and 
increased to help our nation's service needs.
    I would like to share one of the main success stories 
created by Title VII funding. Dr. Joyce Lawrence is a young 
African-American woman who grew up in Liberty City, one of the 
poorest communities in South Florida and even in the country.
    She was able to gain entrance to the University of Arizona 
School of Medicine and early in her training was exposed to a 
Title VII-funded pre-doctoral family medicine. This had an 
enormous impact on her future.
    Dr. Lawrence graduated, returned to Miami, determined that 
she was going to do something for the community in which she 
grew up. She gained a position in our residency program, 
supported through the years again by Title VII dollars and 
successfully completed her three-year post-graduate training.
    Dr. Lawrence was recently hired as the medical director for 
a privately-funded school health initiative to put health care 
back into the Miami-Dade County school system, one of the 
largest public school systems in the country, one with limited 
health care access for its predominately minority and under-
served community.
    This is a real success story, but only one of many made 
possible by sustained Title VII funding for academic family 
medicine in the country.
    Mr. Chairman, the other program I am testifying on today is 
funding for AHRQ. We also appreciate the increased funding 
provided this past year. However, we support a budget 
allocation of $400,000,000 for fiscal year 2002. This includes 
funding for patient safety, translating research into practice, 
outcomes research and 350 new investigator-initiated grants.
    Why? Just like Title VII programs, the research conducted 
through AHRQ is critical to responding to national health care 
needs. While our country has dramatically increased investment 
in basic medical science research through NIH programs, there 
has been little support to answer questions of major concern to 
many America's and their family physicians.
    Nor has there been adequate effort to develop the clinical 
applications in primary care from this new basic science 
knowledge. We applaud the investment in NIH, but we feel 
strongly that an increase in funding for AHRQ will dramatically 
enhance the ability of the recent resources to maximize 
research in primary care.
    As a practicing family doctor, I need to know how the rapid 
advances in new pharmacological products, information, 
technology, gene therapy, and diagnostic techniques are 
applicable to the care of my patients.
    In addition, we need to know the risks of these new 
treatments and techniques. AHRQ is the only Federal agency to 
support this.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. Thank you, Dr. Schwartz.
    Let me ask the first question. What do you consider primary 
care?
    Dr. Schwartz. Well, that is a good question and obviously, 
it is a controversial one.
    Mr. Peterson. It shouldn't be.
    Dr. Schwartz. It shouldn't be. A family doctor is a 
physician who has been trained to take care of the entire 
family. They do pediatrics. They do adult medicine. Many of 
them still do obstetrics and gynecology. They specialize in 
geriatrics. Behavioral medicine is a very important component 
of the family medicine programs.
    It is really the broadest physician that exists in the 
United States and it is the perfect physician for rural areas 
and urban centers. The interesting thing is that the majority 
of the care to poor and minority populations, the under-served, 
takes place in academic or residency training programs 
throughout the country.
    Mr. Peterson. I always considered family physicians 
internists. OB-GYN, I know that is one lot, too. But I don't 
understand it because OB-GYNs are many women's primary doctor. 
And you mentioned pediatrician. Who should I have included in 
that? Anybody else?
    Dr. Schwartz. Primary care is usually all of those that you 
mentioned. But family physicians consider themselves the real 
primary care physician because we really do the broad range of 
services where many families go to one physician and then, if 
they have a problem, they are referred to somebody else and a 
third and a fourth.
    One of the things that we hold up most importantly is 
continuity of care, seeing the same physician year after year, 
understanding patient's problems and understanding them within 
the context of family. Those are some of the things that 
unfortunately modern medicine has pushed aside.
    We have really created so many sub-specialties, I hear all 
the time of people being grateful for having a family physician 
who really knows the entire family.
    Mr. Peterson. In the rural setting, if I did not look at 
their license, I would not know an internist from a family 
physician because they practice almost the same. Most people 
don't know the difference.
    Dr. Schwartz. No. That is true.
    Mr. Peterson. Where are we at today in the percentage 
coming through the primary care specialty? Do you know what the 
numbers are nationally? I don't.
    Dr. Schwartz. Well, you are going to hear in the news very 
soon that today was the match results and unfortunately family 
medicine training programs did not do as well as they have done 
in the past. That is a significant problem. It has improved 
dramatically in the last decade, but as has been mentioned 
today, there are many pressures that push students into sub-
specialty medicine. Salaries are much higher in diagnostic 
radiology.
    Loan repayment is an enormous issue. Students are coming 
out with $90,000 or $100,000 indebtedness. Those are clearly 
forces that push people away from doing family medicine.
    Mr. Peterson. A decade or more ago in State government I 
chaired health and welfare. I got the attention of our nine 
medical schools by proposing legislation that would have made 
those who go into primary care residencies less costly than 
those who chose the other.
    The medical schools were all in my office within a week 
discussing this issue. Now, what I was able to do was-we 
changed the numbers in Pennsylvania. I have not watched them 
since I left five years ago. But we changed the numbers and 
primary care residencies grew in Pennsylvania because of that 
action and that fear that we were going to do something to 
penalize them.
    Of course, some of the bigger schools went back into 
primary care because they needed the doctors themselves, just 
to fill their own slots.
    Now, I guess I would be for loading some incentives. We 
have to somehow change this. Everett Koop was the one who 
brought me to the issue years ago. We don't have that kind of a 
voice any more. He talked about this issue a lot.
    I don't think people realize where we are headed.
    Dr. Schwartz. I think you are right. I think it is an 
extraordinary problem in terms of people understanding that 
primary care physicians are essential in health care.
    Many of the problems that were discussed today in terms of 
the research, et cetera, can only really be handled on the 
front line. There is less hospitalization than ever before 
because of the cost of hospitalization. Well, where is that 
care going to take place but in the community?
    You also mentioned the issue of medications. I feel very 
strongly that our communities and patients are over-medicated. 
One of the reasons we need money in AHRQ is because outcomes 
research needs to occur in the community. A lot of the things 
that we empirically know as physicians need resources to be 
funded.
    Mr. Peterson. Come to me privately with you are ideas about 
what we talked about. We are running short of time here today. 
I would love to talk to you for an hour. Sometime contact me, I 
will be glad to work with you.
    Dr. Schwartz. Thank you very much, sir.
    Mr. Peterson. Next, we are going to hear out of order 
Patricia Underwood, the First Vice President of the American 
Nurses Association.
    If you have a flight problem, let us know.
    Welcome. Please proceed.
                              ----------                              

                                          Thursday, March 22, 2001.

                      AMERICAN NURSES ASSOCIATION


                                WITNESS

PATRICIA W. UNDERWOOD, FIRST VICE-PRESIDENT
    Ms. Underwood. Good afternoon. Mr. Chairman and members of 
the subcommittee, I am Patricia Underwood, the First Vice 
President of the American Nurses Association, the only full 
service professional organization representing the nation's 2.7 
million registered nurses.
    This afternoon I will address funding for nursing education 
and research. The American Nurses Association believes that our 
shared goal of ensuring the nation of an adequate supply of 
well-educated nurses will reaffirm the need for increasing 
funding for these programs.
    Mr. Chairman, as you know, there is a shortage of nurses, 
particularly due to a mal-distribution of nurses and their 
unwillingness to work in dissatisfying and unsafe environments. 
An even more critical shortage of nurses is coming due to a 
lack of young people entering the nursing profession.
    Due to an aging workforce, the average age of the working 
nurse is 43.3 years, and also due to nurses leaving the 
profession because of increasingly stressful, non-supportive 
working environments.
    This shortage will mean that patients in hospitals and 
long-term care may not get the frequent checks that they need 
to ensure quality of care, prevent complications and thereby 
increase hospital stays and increase mortality.
    This shortage will also mean that there will be not enough 
nurses to care for our vulnerable population such as children, 
the elderly or those with mental health problems. It will mean 
that there will not be enough nurses to promote health in our 
inner city environments and in the rural areas of our nation.
    There are several things that can be done right now to 
begin to increase the supply of nurses and to create the 
environments that will attract and retain nurses.
    ANA is encouraged by President Bush's budget blueprint that 
recommends focusing on resources, on grants that address 
current health care workforce challenges such as the nursing 
shortage.
    Now, the first thing that we can do is to support the 
expansion of programs under the Nurse Education Act 
reauthorized under Title VIII of the Health Professional Act of 
1998. It provides for competitive grants to schools of nursing 
to strengthen nurse education. Unfortunately, lack of funding 
within the current NEA has kept the Health Services 
Administration from funding programs such as scholarships for 
disadvantaged students.
    The HRSA Division of Nursing reports that it will not even 
hold a competitive grant cycle for nurse stipend and pre-entry 
programs for this year due to lack of funds.
    The American Nurses Association supports a $25,000,000 
increase to a total of $103,700,000 for NEA.
    Secondly, we need to find ways to increase the number of 
nursing faculty because the average age of the nursing faculty 
is 55 years. If we are going to be able to increase the number 
of nurses, we have to have the faculty to education them.
    Preparation at the Masters level could be increased through 
NEA by expanding the current loan repayment program. Fifty 
percent of all applications made for loan repayment, however, 
are denied due to a lack of funds.
    ANA supports increasing the funding for this repayment 
program to $10,000,000 for fiscal year 2002.
    Preparation of faculty at the doctoral level could also be 
increased to some degree through pre- and post-doctoral 
training grants provided by the National Institute for Nursing 
Research.
    Currently, we need to look at funding to ameliorate the 
shortage. We need to look at issues that address the nurses 
working environment.
    Research shows that health facilities catering to nursing 
needs are like magnets and can draw nurses to them. It is 
interesting, ANA has data that clearly indicates that when you 
have appropriate nurse staffing in acute care settings, there 
is a decrease in hospital-acquired infections, a decrease in 
patient falls, a decrease in pressure sores, a decrease in 
lengths of stay and an increase in patient satisfaction, all of 
which increase recovery and decrease the cost of health care.
    Appropriate staffing also increases nurse satisfaction with 
the care that they provide. Further, research has shown very 
clearly that the ability of nurses to have decision-making 
authority at the bedside and throughout the organization is one 
factor that enables hospitals to attract and retain nurses.
    Increased funding for the National Institute for Nursing 
Research so that research to find models to retain nurses and 
identify interventions that are able to achieve the desired 
health outcomes with the lowest cost is essential.
    Nursing research helps attract talented people into the 
profession and provides nurses with an opportunity to conduct 
research that makes a difference in the lives of patients.
    Mr. Chairman, we thank you for your support of nursing 
education and research. You have the opportunity to act in a 
way that will truly influence the health of our nation.
    Thank you. I would be happy to answer questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Peterson. I would just like to run an issue by you. 
Last year when a group of nursing school people were visiting 
me, I urged them to come back and give us some ideas on how to 
deal with the nursing shortage.
    Two weeks ago they came to my office and gave me a 
proposal, asking for a little money. It was the following: This 
major nursing school from a major university in Pennsylvania is 
going to couple with a group of hospitals and also with a group 
of LPN programs and it will be a two-year nursing degree 
utilizing LPNs with a certain amount of floor experience.
    I would be interested in your reaction to that. That is 
sort of a difference in the trend. We have been phasing out of 
the two- and three-year programs that have provided a lot of 
our nurses to all four-year Bachelor degrees.
    Are we in a position where we may have to reverse that?
    Ms. Underwood. I do not personally agree with reversing 
that. The problem is, when you think about the shortage, many 
times people think, okay, let's get more bodies in there to 
give care.
    The reason this shortage that we are heading for, and it is 
going to peak around 2010, is that we have an increasing 
demand, because of the increasing acuity in the health care 
system throughout the country, we have a demand for an increase 
in nurses with more knowledge and experience.
    It is those very nurses that have more knowledge and 
experience would are going to be retiring and moving out of the 
system. So, just increasing the number of new people coming in 
is not going to help that. One of the things that I think is a 
much more attractive model that a number of State have been 
using, is to really encourage nurses who have their associate 
degree, their two-year programs, to make the articulation 
between the two-year and the four-year and the articulation 
actually between the LPN and the two-year and four-year much 
more smooth and to really get those people in and facilitate 
their moving up in terms of the nursing education.
    But just having more people educated is not enough if we 
don't change the working environments to keep people.
    You mentioned to another speaker about the people who are 
preparing for nursing and then going into other fields. While 
nursing is great, we need to keep them in nursing.
    Mr. Peterson. But I think something has happened that I 
didn't anticipate. I didn't realize a Bachelor degree nurse 
could go to school for one more year and go to almost any 
career that she wants. That is something I think we have to 
look at.
    I guess a lot of my hospital administrators and nursing 
home administrators would argue with your theory. I personally 
think we need to do what you want to do and do what this 
university wants to do.
    We can discuss that another day, but I think the problem is 
large enough that if we did all of the above, we are still 
going to be in trouble.
    Ms. Underwood. One important point that I think you did 
make and it came through: This is not a situation that nurses 
can solve by themselves, even if we are totally united as a 
profession.
    We really need to work with all of you and with the public 
and with the physicians and with the hospitals to address the 
issue.
    Mr. Peterson. Thank you.
    Mr. Regula [resuming chair]. Our next witness is Dr. 
William Harmon, Transplant Physician and Director of Pediatric 
Nephrology, Children's Hospital, Boston.
    We are happy to welcome you.
                              ----------                              

                                          Thursday, March 22, 2001.

                  AMERICAN SOCIETY OF TRANSPLANTATION


                                WITNESS

WILLIAM E. HARMON, TRANSPLANT PHYSICIAN AND DIRECTOR OF PEDIATRIC 
    NEPHROLOGY, CHILDRENS HOSPITAL, BOSTON, MASSACHUSETTS
    Dr. Harmon. Mr. Chairman, thank you for the opportunity to 
present testimony on behalf of the American Society of 
Transplantation. I am William Harmon, a transplant physician 
and Director of Pediatric Nephrology at Children's Hospital in 
Boston and Secretary-Treasurer and Chairman of the Public 
Policy Committee of the American Society of Transplantation.
    The AST, which is a professional organization that has no 
governmental support, was established in 1982. Our membership 
which now numbers more than 1,600 is comprised of physicians, 
surgeons and scientists engaged in the research and practice of 
transplantation medicine, surgery and immunobiology.
    The AST is the largest professional transplant organization 
in the United States and represents the majority of 
professionals in the field of transplantation.
    Today, there are more than 75,000 Americans whose names are 
on the organ transplant waiting list. During the next hour, 
four new names will be added to that list. By the time I get 
home to Boston this evening, at least 15 individuals will have 
died because the wait for a transplant was just too long.
    These patients awaiting transplantation represent a cross-
section of our society. They are mothers and fathers who 
provide for their families. They are community and business 
leaders. And they are children who should havetheir entire 
lives ahead of them.
    We have made great strides in the past four decades of 
transplantation and we have developed extraordinary medical and 
surgical procedures to provide transplants to people with 
catastrophic organ failure. But the very success of these 
procedures has expanded the pool of candidates much faster than 
the supply of available donors.
    We simply don't have enough organs to transplant. The organ 
transplant waiting list has increased in size by approximately 
380 percent in the last ten years while the number of available 
donors has changed very little.
    Each year the AST identifies the shortage of available 
donors as the number one problem in the field of 
transplantation. The Society is particularly pleased to see 
that Secretary Thompson was very quick to emphasize the need 
for enhancing organ donation in the United States.
    Support for organ donation is only half the battle. The 
other critical issue is ensuring the long-term survival and 
function of the transplanted organ. Over the last 40 years, 
transplantation of solid organs has moved from an experimental 
to an accepted therapy with approximately 22,000 transplants 
performed in the United States annually.
    The short-term success of this procedure has improved 
greatly over the last few years with recipients now enjoying 
more than 90 percent survival at one year. Most of this success 
can be attributed to research in immunosuppression that is 
being funded by Federal appropriations.
    Our better understanding of immunity and the body's 
response to foreign proteins has led to countless breakthroughs 
in many areas of medical science.
    The AST believes that now at the dawn of a new millennium 
we are on the threshold of many important scientific 
breakthroughs in the area of transplantation research. These 
include new insights into the immune mechanisms of rejection, 
the induction of total tolerance transplant organs, the 
immunologic response to animal organs and tissues, so-called 
Xenographs, and even bold new experiments in tissue engineering 
and organ development.
    As one example, two years ago NIAID, NIDDK and the Juvenile 
Diabetes Foundation collaborated in the formation of the Immune 
Tolerance Network, which is dedicated to the rapid development 
and deployment of novel clinical trials in the broad areas of 
organ transplantation and autoimmune diseases.
    Already new trials have begun and important scientific data 
are being collected by the ITN.
    AST strongly urges the subcommittee to continue its 
leadership in the area of biomedical research and to provide at 
least a 16 percent increase in funding for the NIH in fiscal 
year 2002.
    The AST supports the level of increase for NIAID and HLBI 
and NIDDK.
    To truly translate the promises of scientific discovery 
into better health for all Americans, the President, Congress, 
and the American people must continue the commitment to 
significant, sustained growth in funding for the NIH.
    Clinical and basic transplantation funding at the NIH must 
be increased. In particular, we recommend to Congress that the 
NIH give consideration to high priority initiatives of NIAID 
and HLBI and NIDDK, which I have provided to you in written 
testimony.
    The fruits of current research have produced many important 
successes in the field of transplantation. Ever more precise 
and powerful transplant immunosuppressive drugs have greatly 
increased both patient and graft survival. However, despite 
today's success, virtually all the transplanted organs will 
eventually be lost.
    Many challenges lie ahead of us, including the 
understanding of preexisting and concomitant illnesses such as 
cardiovascular disease, hypertension, infection, hepatitis, 
bone disease, diabetes and malignancies.
    In addition, the therapeutic strategies to induce donor-
specific tolerance hold promise. The strategies to overcome 
Xenogenetic barriers have begun. Expansion of these programs, 
as well as others I have provided, will ultimately enable 
transplant physicians, surgeons and scientists to provide 
patients with a successful transplant for a failed organ for 
their entire natural lifetime.
    Therefore, I end my remarks here today by repeating AST's 
request that this subcommittee and Congress stay on track to 
double NIH's research budget by the year 2003 and permit these 
high priorities and initiatives to move forward.
    Thank you very much.
    Mr. Regula. Thank you. As I understand it, there is a 
nationwide compilation of the people who have need of a 
transplant so that you have to take your turn.
    Dr. Harmon. Yes. Every patient who is on the transplant 
list is known by what is known as the Organ Procurement and 
Transplant Network, which is funded through the NOTA 
legislation which was enacted in 1987.
    We track every patient and every donor so we know who is 
coming up. There are 75,000 of them waiting right now.
    Mr. Regula. I know. My secretary in the committee I 
previously chaired is waiting on lungs. I think she is number 
two or three at Johns Hopkins.
    I explored Pittsburgh and they said, well, the order of 
succession is the same no matter where you go because it is a 
nationwide program.
    Dr. Harmon. It is a national program.
    Mr. Regula. You are doing a lot of great work, though. I 
know my colleague, Floyd Spence, is a wonderful example of the 
success. He had a lung replacement maybe ten years ago.
    Well, thank you for coming.
    Dr. Harmon. Thank you very much.
    Mr. Regula. The next witness is Dorothy Mann, Board Member 
AIDS Alliance for Children, Youth and Families.
                              ----------                              

                                          Thursday, March 22, 2001.

             AIDS ALLIANCE FOR CHILDREN, YOUTH AND FAMILIES


                                WITNESS

DOROTHY MANN, BOARD MEMBER
    Ms. Mann. Good afternoon, Mr. Chairman. My name is Dorothy 
Mann. I am a Board member of the AIDS Alliance for Children, 
Youth and Families, a national organization addressing the 
needs of children, youth and families who are living with, 
affected by or at risk for HIV and AIDS. It is my honor also to 
serve on the CDC's HIV STD Prevention Advisory Committee.
    I am also the Executive Director of the Family Planning 
Council in Philadelphia, serving over 120,000 Title X funded 
family planning clients. We also provide a range of community-
based HIV and STD prevention, screening and treatment services.
    Mr. Chairman, I am here today because our nation is 
becoming complacent about AIDS. How many new HIV infections do 
you think we have in this country every year? In 2001, 40,000 
people will become newly infected with HIV. Half of these 
infections will occur in people under 25.
    That means 100 people in this country will become infected 
with HIV today and again tomorrow. Can we prevent HIV from 
infecting 40,000 people in America? Yes. But it will take 
bolder leadership, increased funding and smarter allocation of 
resources.
    The Ryan White Care Act, which was reauthorized by Congress 
in the year 2000, is the most critical Federal program 
dedicated to people living with HIV and AIDS.
    Today I will focus on Title IV of the Care Act, which 
provides funding for medical care, social services and access 
to research for children, youth, women and families. Simply 
put, Title IV is a success story. It has enabled communities to 
respond quickly and efficiently to the HIV epidemic.
    Since the science became clear about the role of AZT in 
reducing mother-to-child HIV transmission, Title IV grantees, 
including my own, have played a major role in the remarkable 
steady decline in the number of infants born with HIV in this 
country.
    CDC estimates that fewer than 200 infants were born with 
HIV last year. But even one baby born with this disease is too 
many. As the number of HIV-infected women of childbearing age 
rises, reducing perionatal transmission becomes more 
challenging and expensive.
    Despite the successes of Title IV, currently funded at 
$65,000,000, much more needs to be done.
    The President's budget calls for a four percent increase in 
discretionary spending. But with 40,000 new infections each 
year, we need to increase spending on Federal AIDS programs 
much more than four percent or people will die.
    If funding for the Federal AIDS program does not keep pace, 
individuals, families and entire communities across the country 
will continue to be decimated by this terrible disease.
    The AIDS Alliance recommends a total funding of $83,000,000 
for Title IV for fiscal year 2002. This is a 28 percent 
increase over 2001, which is the same rate we received this 
year.
    As you know, the Congressional Black Caucus Minority AIDS 
initiative has provided critical increase in Federal AIDS 
programs reflecting the disproportionate impact of HIV and AIDS 
on communities of color. Eighty-four percent of the clients 
served by Title IV are people of color.
    AIDS Alliance would be happy to provide additional 
information to this committee as you consider the Congressional 
Black Caucus funding for 2002.
    It goes without saying that HIV is spread from an infected 
person to an uninfected person. Thus far we have focused HIV 
prevention efforts almost exclusively on uninfected people. We 
have largely ignored those who are already infected.
    Mounting evidence suggests that as people with HIV are 
living longer and more active lives, they are more likely to 
engage in unprotected sex. Let me be clear. I am not advocating 
laws or policies that criminalize or stigmatize HIV-positive 
people or their behavior.
    I am talking about interventions that help HIV-positive 
people reduce their risk behavior and protect their uninfected 
partners.
    What can be done? We must work to break down the walls 
between HIV prevention and care programs. As you appropriate 
funding to agencies such as HRSA, CDC, and SMSA, you must 
encourage coordination to the greatest extent possible to 
reduce barriers between these agencies and between prevention 
and care.
    It is estimated that CDC needs an additional $300 million 
each year to implement their new strategic plan to reduce HIV 
new infections to 20,000. Scientific evidence should be the 
basis for HIV infection policies.
    We know, for example, that needle exchange programs work 
and do not increase drug use. Yet, we still have Federal 
restrictions on their funding. We need to take politics out of 
science.
    Let me leave you with a final thought: Reversing the 
nation's growing complacency about AIDS is a daunting task, but 
we must do more, much more, than simply prevent an escalation 
in the rate of new infections.
    It is intolerable. If we had 40,000 American casualties in 
a war, would we find that acceptable? I hardly think so. We 
have to do more because if we don't, it will only get worse.
    Thank you.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Our next witness is Emily Sheketoff, Executive 
Director, American Library Association.
                              ----------                              

                                          Thursday, March 22, 2001.

                      AMERICAN LIBRARY ASSOCIATION


                                WITNESS

EMILY SHEKETOFF, EXECUTIVE DIRECTOR
    Ms. Sheketoff. Thank you, Chairman Regula.
    We wish to thank you for your support for our libraries in 
the past. We look forward to working with you on behalf of 
America's libraries in your first year as Chairman of this 
subcommittee.
    I know that you are familiar with libraries, as a result of 
your experiences as a teacher, and as the father of a librarian 
at Western Reserve in Hudson, Ohio.
    I would like to talk to you about the crucial benefits that 
Federal support brings to the libraries.
    Mr. Regula. You did not know that my wife started the 
National First Ladies Library.
    Ms. Sheketoff. Yes, sir, and I have a terrific magazine 
article with a good picture of that for you. [Laughter.]
    So I tried hard. On Federal support for libraries, we would 
like to talk about two key National goals: outreach to those 
for whom libraries service requires extra effort or special 
materials, such as individuals with disabilities; and 
mechanisms to identify, preserve, and share library and 
information resources across institutional or governmental 
boundaries through technology.
    The library community is capable of astonishing creativity 
and expertise in support of National goals such as revitalizing 
the economy, having children start school ready to learn, and 
developing literate, informed adults.
    Oftentimes, one of the few sources of funding for 
innovation available to libraries is Federal funding. It is 
estimated that library programs generate from three to four 
dollars for every Federal dollar invested.
    Mr. Chairman, our new President has said on many occasions, 
``We must leave no child behind.'' I can tell you that 
America's libraries believe that we must lead no reader behind. 
That is why we feel so strongly that library programs need 
additional Federal funding.
    We need to ensure equitable access and participation of our 
Nation's readers to library activities and opportunities in 
their communities. We need to support our libraries continuing 
efforts to keep pace with the rapidly changing information 
technology environment.
    We need to recognize the important contributions that 
libraries make to the social, civic, and educational health of 
their communities. Like many schools, libraries often service 
as the hubs of their communities, and provide important 
services, training in technology, and opportunities for life 
long learning, particularly in traditionally under-served 
areas.
    Recently, the library community corroborated on developing 
a draft for the reauthorization of the Library Services and 
Technology Act, which will expire in fiscal year 2002. We are 
seeking to increase the authorization level to $500 million. As 
you know, this represents a significant expansion in the 
Federal Government's commitment to the support of our Nation's 
libraries.
    Today, we request your support for fiscal year 2002 of a 
down-payment of $350 million for library programs authorized 
under LSTA. With this increase, more libraries could expand 
their services to include technology training and literacy 
programs that enable students to achieve the success and 
education, and programs for families, who may not have not used 
libraries before.
    Library programs for young children encourage pre-reading 
skills and develop a love for reading.
    Mr. Regula. We will have to wrap it up. I am going to have 
to go vote here. You are preaching to the choir.
    Ms. Sheketoff. Great, well, I just wanted to give you an 
example in Ohio. In this year, Ohio received $5.5 million. If 
the state distribution was increased to $350 million, Ohio 
would get about $11 million. This would enable Ohio to complete 
the school library connections to the statewide Ohio network.
    In 1999, the libraries of Ohio requested $7.5 million in 
LSTA funding, but received only $2.9 million. So you see, the 
need is great and the funds available can stretch only so far.
    We are also asking that this subcommittee support education 
Title 6, the Block Grant that goes to libraries, at least at 
the $400 million level.
    As you know, school library materials are only one option 
of this block grant. Unfortunately, less and less of the funds 
are used for school library materials. As a result, many school 
libraries have old, outdated, and inaccurate material on their 
shelves.
    Research shows that a good library media program in the 
school is an excellent predictor of student achievement. In 
summary, an increase in LSTA funding to $350 million would 
allow more of the 16,000 libraries to begin to provide Internet 
training and information access services to families, adult 
learners, the small business sector, and the communities who 
need them.
    Thank you very much, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you, and they are very important. I 
understand that. We, of course, have constraints on what we 
have available.
    Ms. Sheketoff. With a real dedication to education, the 
library component is really critical.
    Mr. Regula. Well, we hope that we get enough adequate 
funding from OMB.
    Thank you for coming today. I regret that I have to get 
over to there and vote or we will run out of time.
    Ms. Sheketoff. Thank you, Mr. Chairman.
    Mr. Regula. The committee will be in recess for about 10 
minutes.
    [Recess.]
    Mr. Regula. We will reconvene.
    Our next witness is Mr. Richard Kase.
                              ----------                              

                                          Thursday, March 22, 2001.

              ARTHRITIS FOUNDATION NORTHEAST OHIO CHAPTER


                                WITNESS

RICHARD D. KASE, CHAIRMAN, CANTON OHIO ADVISORY BOARD, ARTHRITIS 
    FOUNDATION NORTHEAST OHIO CHAPTER
    Mr. Kase. Good afternoon, Mr. Chairman and members of the 
subcommittee, which are few and far between at this stage of 
the game.
    Mr. Regula. Yes, that is true.
    Mr. Kase. It is truly an honor to speak to you, one of 
Canton's favorite sons.
    I want to thank you for the opportunity to speak today 
about how Congress can continue to play an important role in 
helping improve the quality of life for the 43 million 
Americans living with arthritis, including the 300,000 children 
living with the disease.
    Specifically, I would like to thank the subcommittee for 
its leadership in supporting funding increases to support 
arthritis research at the National Institute of Arthritis, and 
musculoskeletal skeletal and skin diseases and the Centers for 
Disease Control and Prevention's Arthritis Program.
    As I said, my name is Richard Kase. I am from Canton, Ohio. 
I am a business man and a volunteer. I am here today in my role 
with Arthritis Foundation of Northeast Ohio as the Volunteer 
Chair of the Canton Area Advisory Board.
    I am also one of the 43 million Americans living with this 
painful and oftentimes debilitating disease. I was first 
diagnosed with osteoarthritis in 1992, at the age of 40.
    Due to osteoarthritis, I have had five knee operations and 
one back surgery. While osteoarthritis limits my daily 
activities, simply climbing stairs is extremely painful.
    I consider myself fortunate. For today, there is new hope 
for the millions of Americans with arthritis. We have new, more 
effective therapies to prevent pain and disability, thanks to 
the Federal investment in research.
    With the CDC's arthritis program, we are reaching out and 
empowering millions of Americans to help them take steps to 
improve their quality of life.
    Mr. Chairman, 95,000 persons living in Ohio's 16th 
Congressional District have arthritis. One of those individuals 
is Tiffany Kenyan.
    Tiffany was diagnosed with juvenile rheumatoid arthritis at 
the age of four. Every day is a challenge, as she faces the 
pain, physical disabilities, and psychological trauma brought 
on by the disease.
    Now a teenager, Tiffany has been unable to do many of the 
activities that most of her friends take for granted. However, 
thanks to new therapies, early diagnosis in the treatment and 
the support of family, she plans golf, dances, and swims when 
possible. She may have arthritis, but it does not have her.
    Like me, Tiffany has been a beneficiary of the research 
investments in the National Institutes of Health by this 
subcommittee. Our lives have been made better, thanks to a new 
generation of treatments and therapies, for the many serious 
forms of the disease.
    Ongoing growth in the NIH budget will provide the National 
Institute for Arthritis and Musculoskeletal and Skin Diseases 
the resources to support critical research ranging from 
osteoarthritis to lupus to juvenile rheumatoid arthritis.
    To meet this pressing national need, the Foundation urges 
the members of the subcommittee to continue the doubling of the 
NIH budget, within five years, and provide $462 million, as 
part of the NIH's fiscal year 2002 appropriations for NIAMs.
    With this in mind, the Arthritis Foundation strongly 
believes this investment must be matched with a similar 
investment in public health programs, designed to ensure that 
all Americans benefit from our new understandings about the 
disease, effective self-management strategies, and improved 
treatment options.
    As a person with arthritis, I am proud that Congress has 
recognized the importance of this national effort by 
establishing and funding the National Arthritis Action Plan, 
which is a public health strategy.
    This innovative public health strategy is being implemented 
by the CDC, in partnership with state health departments across 
America. The Arthritis Foundation, and its 55 state-based 
chapters.
    Among our goals are improving the scientific information 
base on arthritis; researching how we can better prevent 
arthritis; and encouraging more individuals with arthritis to 
seek early diagnosis and treatment, to reduce pain and 
disability.
    Due to this subcommittee's support and leadership, the CDC 
was provided with $12 million as part of the fiscal year 2001 
budget, to move forward with this vision. To date, 37 states 
have been awarded funds to begin executing the plan.
    Based on the enthusiasm of our state partners, the 
Foundation's commitment to invest its resources, and the 
pressing need to address the growing public health problems 
associated with arthritis, we strongly encourage the members of 
the subcommittee to provide the CDC with $24.5 million, as part 
of the fiscal year 2002 budget, to help establish state-based 
arthritis programs in all states in territories.
    This modest investment will help us meet the challenge of 
arthritis, and lead to a day when arthritis is no longer the 
leading cause of disability in the U.S., for individuals 18 
years of age and older.
    It will help lead to a day when arthritis no longer costs 
our economy $82.5 billion a year in medical care and related 
expenses, including lost productivity.
    Congressman Regula, for generations, we have labored under 
the many myths surrounding arthritis. Arthritis was an 
inevitable part of the aging process. There were no effective 
treatment options, apart from taking a few aspirin.
    Exercise was harmful for individuals with arthritis. 
Children do not get arthritis was another myth. It cannot be 
prevented.
    Today, we stand ready with the necessary tools, expertise 
and energy, to shatter these myths, and capitalize on the 
fruits of our research to help improve the lives of Americans 
living with arthritis.
    On behalf of the 43 million Americans living with 
arthritis, I appreciate the opportunity to speak to you today, 
and urge the members of the subcommittee to help us win the war 
against arthritis by supporting funding for these critical 
Federal Programs.
    It has been a pleasure and honor to testify to you today on 
behalf of all of the arthritis victims. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. You are saying that there have been some very 
substantial progress, though?
    Mr. Kase. There has been tremendous progress, relative to 
new drugs that have reached the market; great progress relative 
to public awareness and prevention.
    Mr. Regula. Do the drugs just relieve the pain, or do they 
actually affect some degree of cure or change?
    Mr. Kase. It is really a supplement to other non-steroidal 
drugs, just to relieve the pain. I, for one, have been on 
Vioxx, which is a new medication. You take one a day, as 
opposed to the 12 Advil that I was taking every day.
    Mr. Regula. I see Vioxx advertised. Does it work pretty 
effectively?
    Mr. Kase. For me, it has worked very well. For some people, 
it does not work quite as well, and it has some side effects 
for other individuals. But for me, it was a very good drug, and 
is a very good drug.
    Mr. Regula. Thank you for coming. I know it is a 
substantial trip here from Canton, Ohio.
    Mr. Kase. But to come to see you, Congressman, it was well 
worth it. [Laughter.]
    Mr. Regula. You had better reserve judgment until we get 
the bill out and see.
    Mr. Kase. Well, we will talk about that back in 
Canton.Thank you. [Laughter.]
    Mr. Regula. Well, we are going to do what we can for all of 
these things. It depends what we have available in the 
allocation of funds, which is beyond our control.
    Our next witness is Dr. Paul Mintz, Professor of Pathology 
and Internal Medicine, University of Virginia Health System.
                              ----------                              

                                          Thursday, March 22, 2001.

                  AMERICAN ASSOCIATION OF BLOOD BANKS


                                WITNESS

PAUL MINTZ, M.D., PROFESSOR OF PATHOLOGY AND INTERNAL MEDICINE, 
    UNIVERSITY OF VIRGINIA HEALTH SYSTEM; AMERICAN ASSOCIATION OF BLOOD 
    BANKS
    Dr. Mintz. Good afternoon, Mr. Chairman. I appreciate the 
opportunity very much to come here today.
    I am Professor of Pathology and Internal Medicine at the 
University of Virginia. Today, I am speaking to you on behalf 
of the American Association of Blood Banks, the professional 
society for approximately 8,000 individuals involved in blood 
banking and transfusion medicine; and about 2,000 institutional 
members, including community blood centers, the American Red 
Cross, and hospital-based services.
    Mr. Regula. I understand they are having trouble getting 
people to donate. Is that true?
    Dr. Mintz. That is true, sir. There really has been 
intermittent blood shortages. Of course, fewer and fewer people 
are eligible to donate, as restrictions are put into place.
    Mr. Regula. Yes, well, mad cow disease has put a six month 
waiting period on anyone in England, as I understand it.
    Dr. Mintz. It is anyone who actually has lived in England, 
between 1980 and 1996, for six months, cannot be a blood donor, 
indefinitely, in the United States.
    Mr. Regula. Indefinitely?
    Dr. Mintz. That is correct. That actually is also going to 
apply now in France, for people who have been in France for 10 
years or Portugal for 10 years, based on a new recommendation. 
So there are fewer and fewer eligible blood donors in this 
country; that is correct.
    AABB has long recognized the critical role of the National 
Institutes of Health, and especially the National Heart, Lung, 
and Blood Institute, and other public health agencies that they 
have played in ensuring that patients have access to the best 
possible transfusion therapies.
    In fact, today, the Nation's blood supply is safer than it 
has ever been. Each year, over 26 million units of blood are 
transfused into millions of individuals. With enhanced Federal 
support for research, transfusion medicine promises new 
lifesaving therapies, as well as an even safer blood supply.
    We strongly encourage to support the following research 
initiatives. First, ongoing Federal support for blood supply 
data is needed. Blood safety and availability are inseparable 
requirements for ensuring optimal patient care.
    The safest possible blood component cannot benefit the 
patient if it is not readily available. The number and duration 
of seasonal blood shortages are increasing. An aging population 
and more complex medical procedures have resulted in an 
increasing demand for blood.
    In order to predict and prepare for possible shortages, we 
need reliable data regarding both collection and utilization of 
all types of blood components.
    In 1996, recognizing the significant need for blood supply 
data, the AABB founded the National Blood Data Resource Center, 
the NBDRC. In prior years, NHLBI had funded this data 
collection. However, when this Federal funding ceased, there 
was a clear vacuum in public and private support for national 
blood data collection.
    The AABB is very proud of the fine work that the NBDRC has 
produced, including its important biennial nationwide blood 
collection and utilization survey. In fiscal year 2000, the 
NHLBI agreed to fund the collection of certain monthly supply 
statistics. Unfortunately, ongoing support from the NHLBI for 
blood supply data is not continuing in fiscal year 2001.
    The AABB is very concerned that so long as no specific 
Federal agency is responsible for supporting critical data 
collection regarding the blood supply, we will not be able to 
generate necessary long-term information.
    Policymakers, including Congress, cannot make sound 
decisions affecting patients lives, absent reliable data. 
Therefore, the AABB strongly urges Congress to designate an 
appropriate office within the Public Health Service, to be 
responsible for Federal support of blood supply data 
collection. In addition, Congress should appropriate sufficient 
dollars to support long-term efforts, like those of the 
National Blood Data Resource Center, to collect,analyze, and 
distribute data about the Nation's blood supply.
    In short, we need to know who is donating the blood, what 
kind of components are being collected, and where it is going. 
Then we can plan responsibly regarding donor selection 
criteria, and patient initiatives.
    Mr. Regula. I assume you work with the American Red Cross, 
since they seem to take the lead.
    Dr. Mintz. Yes, that is correct. The American Red Cross is 
responsible for about half the blood collection in this 
country, and then other community blood centers are responsible 
for the other half. We, in the AABB, actually work with all of 
these centers.
    A second initiative that I would like to suggest is 
research regarding non-infectious risks of transfusion. The 
AABB urges the subcommittee to support additional Federal 
efforts to enhance the safety of blood transfusion.
    In recent decades, the United States invested significantly 
in reducing transfusion risks associated with infectious 
diseases, as you well know. This investment has paid off 
dramatically.
    When I first taught medical students in 1979, I told them 
there was one percent risk of acquiring what is not hepatitis C 
from a blood transfusion. That risk is now about one in a 
million. The same kind of statistics apply to HIV. The risk of 
acquiring such an infection from a blood transfusion has 
actually been reduced about 10,000 fold in the last 20 years.
    Mr. Regula. So you have better control.
    Dr. Mintz. We have better testing, better donor screening, 
and also viral inactivation of many blood components.
    Mr. Regula. How do we help?
    Dr. Mintz. Actually, I think that right now, Federal 
funding should be directed toward non-infectious risks. There 
is actually about a 100 fold increase in risk of patient who is 
receiving a blood transfusion right now, getting the wrong 
unit, than there is of getting an infection.
    There has not been an investment in the processes to assure 
appropriate safeguards in getting the right unit to the right 
patient.
    Mr. Regula. Where would that investment be; CDC, NIH?
    Dr. Mintz. I think it would be in developing a clinical 
trials network, that would emphasize research in the non-
infectious risks of transfusion, including providing processes 
to get the right unit to the right patient, and other non-
infectious risks, such as immuno-modulation.
    Mr. Regula. Well, thank you, and we will put your testimony 
in the record.
    Dr. Mintz. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We have two young ladies here, and one of them 
from my district. They are in the Presidential classroom, and 
this is the real world, young ladies.
    What we are doing in here will touch your lives, because we 
do all the research on medical, and something that is 
discovered over the next many months and years may save your 
life.
    Likewise, we do education. Of course, I am sure that is 
important to both of you. So we are happy to welcome you. As 
soon as we get finished up here, we will go back and get a 
picture with you in the office.
    Okay, next we have Kathryn Peppe, President of the 
Association of Maternal and Child Health Programs.
                              ----------                              

                                          Thursday, March 22, 2001.

           ASSOCIATION OF MATERNAL AND CHILD HEALTH PROGRAMS


                                WITNESS

KATHRYN PEPPE, PRESIDENT, ASSOCIATION OF MATERNAL AND CHILD HEALTH 
    PROGRAMS
    Ms. Peppe. Thank you, Mr. Chairman. I am Kathy Peppe, 
President of Association of Maternal and Child and Health 
Programs. I am also the Chief of the Division of Family and 
Community Health Services at the Ohio Department of Health. 
That is Ohio's maternal and health program.
    Thank you for the opportunity to testify today. We at the 
Association of Maternal Child and Health Programs really 
appreciate the subcommittee's interest and support of Maternal 
and Child Health Services Block Grant, and all of the programs 
that are supported with that funding source in our states.
    For over 65 years, programs authorized under Title 5 of the 
Social Security Act, the Maternal and Child Health Programs 
Block Grant, have helped fulfill our Nation's strong commitment 
to improving the health of all mothers and children. Title 5 is 
the foundation of our Nation's public health system.
    It continues today to watch over and promote the health of 
mothers, children, and youth, while serving as a safety net 
program for all of our country's high risk and most vulnerable 
residents.
    State maternal and child health programs funded by the 
Block Grant have demonstrated their ability to adapt through 
decades of change.
    We have had to respond to the emergence of new diseases, 
the discovery of new vaccines and treatment methods, and the 
changing health care financing and delivery systems across the 
country. Yet Congress has remained committed to this public 
health program, because we have been accountable for what we 
have been doing.
    We have provided proven preventive health programs with 
demonstrated and measurable results. Grants to the State Health 
Departments are used to help locally-determined needs that are 
consistent with the national healthy people goals for fiscal 
year 2010 or 2000, so on.
    This includes reducing maternal and infant mortality, 
helping children with disabilities function to their full 
potential, and educating children and adolescents about how to 
reduce risky behaviors and learn healthy lifestyles.
    The Maternal and Child Health Block Grant encompasses lots 
more than just moms and babies. Children with special health 
care needs and teenagers are a major focus for our programs.
    Maternal and Child Health Programs ultimately address the 
health needs of families. The flexibility of the Block Grant 
gives us the chance to develop innovative programs and services 
that go beyond health care needs to address individual specific 
needs and help people access needed health care services.
    Last year, Congress raised the authorization level for the 
Title 5 Program to $850 million. While funding for other public 
health programs has been expanded over the past five years, 
Title 5's funding has remained relatively flat in the past 
decade. So the increased authorization was desperately needed 
and comes at an ideal time for us in states.
    The MCH programs have just completed a five year needs 
assessment. As a result, all of the states and territories are 
poised to move forward to address their unmet health needs, as 
soon as additional funding is appropriated.
    Each state knows precisely how it would allocate its 
resources to meet the priority needs for maternal and child 
health populations. In Ohio, we could use additional funds to 
expand our child and family health services clinic programs. 
These are clinics that provide primary health care for pregnant 
women, child and infants, who otherwise would go without health 
care.
    We could implement a statewide system of child fatality 
review. We could offer additional children with special health 
care needs access to the services of specialists around the 
state. We could put preventive dental sealants on the teeth of 
more children to reduce cavities.
    I want to share with you a couple of stories about real 
people, who we have touched in Ohio. Anna is someone who is 
from Stark County, your home. She is a pregnant 31 year old 
woman with a history of premature delivery, closely spaced 
pregnancies, and late entry into prenatal care; plus asthma, 
tobacco use, drug use, homelessness, and three of her four 
children are in permanent placement.
    Fortunately, Ohio's Title 5 Program had what Anna needed. 
The Ohio Infant Mortality Reduction Initiative paired a trained 
outreach worker from the local neighborhood, where these high 
risk, low income pregnant women, who are either uninsured or 
under-insured.
    The outreach worker helped this mom, and subsequently her 
baby, get into care and stay in care, as well as meet other 
basic needs. Thanks to the outreach program, Anna has her own 
apartment today. She has completed parenting classes and 
attends substance abuse treatment programs.
    The best news is that she delivered a healthy beautiful and 
drug free baby girl, she regained custody of one of her other 
children.
    This is a victory for Ohio. In its recent needs assessment, 
Ohio Title 5 Program identified the reduction of infant 
mortality, particularly for those with disabilities, as one of 
our top 10 health issues.
    It is an excellent example of how assessment of local needs 
can translate into effective programs. Let me just close by 
saying that we are urging you to remember the faces of people 
who are actually touched by block grants in the states and 
their stories like Anna's.
    There are hundreds of thousands of other stories that we 
could share with you similar to these. Please fully fund the 
Title 5 Program at $850 million.
    Mr. Regula. It sounds like you are having a lot of success 
and that is what we like to hear on these programs.
    Ms. Peppe. Yes, thank you. I would be happy to answer any 
questions.
    Mr. Regula. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Our next witness is Carl Suter, Director of 
Vocational Rehabilitation Programs, Council of State 
Administrators; welcome.
                              ----------                              

                                          Thursday, March 22, 2001.

      COUNCIL OF STATE ADMINISTRATORS OF VOCATIONAL REHABILITATION


                                WITNESS

CARL SUTER, DIRECTOR, COUNCIL OF STATE ADMINISTRATORS OF VOCATIONAL 
    REHABILITATION
    Mr. Suter. Good afternoon, Mr. Chairman, I am Carl Suter. I 
am the Director of the Illinois Rehabilitation Agency of 
Vocation Rehabilitation Services.
    I also am a member of the Council of State Administrators 
of Vocational Rehabilitation. We are a Federal and State 
partnership, and have been a partnership for over 80 years in 
helping individuals with disabilities become employed.
    The Rehabilitation Act and the Vocational Rehabilitation 
Program is the cornerstone of our Nation's commitment to 
serving individuals with disabilities and helping them to 
become employed.
    Our program, every year, get thousands of folks into jobs. 
One of the things that I am here to tell you today, is that 
even though I know Congress had intended in the past to give 
our program cost of living increases every year, states like 
Ohio and Illinois are not receiving those cost of living 
increases.
    For example, in Illinois, we received less than one-half of 
one percent of an increase for cost of living.
    Mr. Regula. Do you think that other states are getting it, 
and you are not; or is it across the board?
    Mr. Suter. Well, because of the way the formula works, in 
Illinois and Ohio, the formula has had an adverse impact on us 
being able to get what the COLA, the overall COLA that you had 
for the program. In Illinois, we got less than one-half of one 
percent. I think that Ohio got less than two percent of an 
increase.
    This comes at a time in which, when you would look at Louis 
Harris pole and other National surveys, we know that 70 percent 
of people of disabilities are not employed. Yet, two thirds of 
those wish to work. Individuals between the ages of 18 and 60 
are not working, and yet they want to work.
    Our program has many pressures on it. The special education 
program, is a great program, a sister program, that helps many 
youths with disabilities get great services. Now as those youth 
begin to come to adulthood, and they come to vocational 
rehabilitation, that adds additional pressures to our program 
to serve them.
    I would like to tell you about one youth in Illinois to 
kind of illustrate this point. Rick is a young man with Down's 
Syndrome in the Chicago area. We started working with him when 
he was a junior in high school. We helped him get a job after 
school and on weekends.
    When Rick graduated last summer, he told us that he did not 
want to sit at home, like some of his friends were going to be 
doing. He wanted to work. He wanted a real job.
    He did not want to have to get $550 each month from SSI. He 
wanted to work. We got Rick a job working in a hospital. He is 
earning over $9 an hour. He is getting full benefits.
    There are thousands of Ricks in this country. They want to 
work, and they turn to vocational rehabilitation services for 
the kinds of training technology that they need.
    There are many pressures on our program. The Olmstead 
decision is another one, where folks are coming out of 
institutions and now into the community. Not only do they want 
to live independently; they want to work.
    With TANF, we have had great success in this country in 
getting folks off of TANF. But what is left now is the hard 
core of that population. Many of those, in fact, have 
disabilities and they are coming to us for vocational 
rehabilitation services.
    We have enough funds to only serve one in twenty eligible 
individuals with disabilities; one in twenty. Yet, the data 
shows that there are thousands and thousands, hundreds of 
thousands of folks who need our services.
    The Rehabilitation Services Administration tells us that in 
fiscal year 1999, we spent $2.2 billion on services for this 
population. We serve nationally over 1.2 million people and got 
230,000 of those folks into competitive jobs.
    Sir, let me leave you with one recommendation. Our Council 
of State Administrators of Vocational Rehabilitation would like 
for us to be able to have an increase that will allow us to 
serve these hundreds of thousands of folks who come to us.
    We are asking for a 10 percent increase in funding, about 
6.5 percent over the regular CPI that we would normally 
bereceiving. That equates to about $240 million.
    Mr. Regula. Well, you really have two problems. You need to 
change the formula, because I think it penalizes Illinois and 
Ohio; and secondly, of course, to get more money into the 
program.
    Mr. Suter. Right.
    Mr. Regula. Thank you for coming.
    Mr. Suter. Thank you very much.
    Mr. Regula. I know that it is a good program. I am familiar 
with it back home.
    Mr. Suter. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Our next witness is Steve Korn, President of 
National Council of Social Security Management Associations.
                              ----------                              

                                          Thursday, March 22, 2001.

   NATIONAL COUNCIL OF SOCIAL SECURITY MANAGEMENT ASSOCIATIONS, INC.


                                WITNESS

STEVE KORN, PRESIDENT, NATIONAL COUNCIL OF SOCIAL SECURITY MANAGEMENT 
    ASSOCIATIONS, INC.
    Mr. Korn. Chairman Regula, my name is Steve Korn and I am 
here as President of the National Council of Social Security 
Management Associations, an organization of over 3,000 managers 
and supervisors who work in SSA's field offices and telephone 
centers.
    Thank you for giving me the opportunity to come before you 
today to talk about the budget needs of the Social Security 
Administration, from the perspective of the front-line managers 
and supervisors who are directly responsible for delivering 
service to the American public.
    Over the past two decades, SSA has witnessed a dramatic 
reduction in staff. For example, the local Canton, Ohio field 
office lost seven positions just in the past six years.
    In addition, over the past five years, supervisory staff in 
SSA's local field offices and telephone centers have been 
reduced by more than 1,000 positions. Accommodations of 
dramatic reductions in both overall and supervisory staff, has 
resulted in a critical situation whereby the level and quality 
of service provided to the public is in severe jeopardy.
    A little over a year ago, the Bipartisan Social Security 
Advisory Board warned of the need to bolster resources in the 
Social Security field offices. The board found that staff 
resources in offices all over the country have declined to the 
point where their ability to provide quality service to the 
community is threatened. The board reaffirmed these findings in 
an updated report issued earlier this month.
    To better quantify the findings of the Social Security 
Advisory Board, our organization conducted a survey of field 
office management throughout the country. The responses which 
were received from managers in over 50 percent of all field 
offices confirm that services were below acceptable levels in 
three critical areas: telephone service, the quality of work 
products, and in employee training.
    They also found that customer waiting times are increasing. 
A copy of these findings has been sent to this committee, as 
well as to each Congressional office.
    While the statistics of the results are revealing, I 
thought it was interesting to share a couple of the more than 
64 pages of comments that we received from these front-line 
managers.
    For example, regarding telephone service, a manager in the 
Chicago region, which includes the State of Ohio writes the 
following: ``We need more incoming lines. However, we do not 
have the staff to cover the additional lines.''
    Another manager offered this chilling story. A physician 
contacted us in response to a representative pay issue. He 
wrote the manager saying he was on hold for over an hour.
    Fortunately, he had a speaker phone, which enabled him to 
take care of his patients while waiting for us to answer. 
Hedisconnected the call before we ever spoke to him. In his letter he 
stated, ``You call me from now on, because I will never contact Social 
Security again.'' I wish I could tell you that this was simply an 
isolated incident, but unfortunately, it really is not.
    Another Chicago region manager wrote, ``As we take the SSA 
measures to the community, we have generated more work for the 
staff. We say we are ambassadors of the agency, and cultivate 
good relationships with neighborhood. We then make our public 
wait longer to be served, and have insufficient staff to 
validate what we went out preached.''
    Another manager writes, ``Quality has suffered here to a 
great extent as the result of the loss of front-line 
supervisors. These were the people with the hands-on 
experience. They reviewed the work. They addressed individual 
employee shortcomings. They saw to the technical needs of the 
employees. Now they are gone.''
    If these current service delivery and quality problems were 
not bad enough, Social Security will face additional challenges 
over the coming decade, as the large baby boom generation 
begins to file for disability and retirement benefits, at the 
same time that the agency faces its own wave of retirements.
    For example, Quinzella Hobbs, who is the manager of the 
Canton Field Office, reports that right now, 29 percent of her 
staff has both the age and required years of services to retire 
today. It generally takes replacement hires three years to 
become fully productive.
    In the face of these current and future challenges, NCSSA 
recommends the following. First, SSA's budget should reflect 
the immediate need to increase front-line staffing in SSA's 
field offices by 5,000 full-time equivalents, a 17.5 percent 
increase.
    Second, SSA's field offices and telephone centers should be 
allowed to fill front-line supervisory positions, based on the 
need to maintain adequate levels of quality training and 
customer service.
    Third, SSA's administrative budget should be removed from 
the discretionary spending caps, along with SSA's program 
budget, allowing Congress to allocate sufficient funds to SSA, 
based on demonstrated service needs.
    As an independent agency, in accordance with Section 104(b) 
of the Social Security Act, Social Security submitted its own 
fiscal year 2000 budget to this committee. Social Security 
requested $8.11 billion, which is $438 million more than was 
requested by the new Administration.
    The additional funds will allow SSA to begin to address 
many of the problems identified. For example, new employees can 
be hired now, so they can be trained and up to speed before we 
lose our experienced employees. Certainly, we would urge you to 
support this higher level of funding.
    Mr. Chairman, I thank you again for inviting my testimony. 
I am certainly happy to answer any questions that you might 
have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you, and I am aware of some of the 
problems because, of course, we look to our local Social 
Security Office to help with constituent problems. I have hired 
a couple of your people away. That is probably one of the 
reasons that you have a shortage. [Laughter.]
    They are good people, and they are well trained. It works 
out well for us. But we are aware of the problem, and we, of 
course, have the report that was submitted. Thank you for 
coming. Where are you located?
    Mr. Korn. I am located in Vallejo, California, Northern 
California. Again, the problems we face are very similar to 
what is faced in your state.
    Mr. Regula. Is automation helping you?
    Mr. Korn. Automation is essential. Quite honestly, without 
automation, we would be much worse. The problem is, there is 
not enough automation out there to address the problems.
    Mr. Regula. Somebody has to put the material in to 
automate.
    Mr. Korn. And there has to be people to use what is out 
there. So it is a combination. It is not one answer.
    Mr. Regula. Well, thanks for coming; you have made a long 
trip here.
    Mr. Korn. Yes, I have.
    Mr. Regula. We appreciate it.
    Mr. Korn. I am happy to do it.
    Mr. Regula. Do not be too distressed that we do not have 
other committee members here. You have got the most important 
people here, and that is the staff.
    Mr. Korn. That is absolute true, and we have the Chairman. 
Thank you very much.
    Mr. Regula. You are welcome.
    Our next witness is Mr. John Black, General Counsel, 
National High School Federation.
                              ----------                           

                                          Thursday, March 22, 2001.

                    NATIONAL HIGH SCHOOL FEDERATION


                                WITNESS

JOHN BLACK, GENERAL COUNSEL, NATIONAL HIGH SCHOOL FEDERATION
    Mr. Black. Thank you. Good afternoon, and I appreciate the 
opportunity to give the keynote address here today.
    Actually, Dr. Martin and I are both from Indiana. Given the 
success, or lack thereof, of the Indiana University basketball 
team, I guess we are just having one of those weeks.
    Mr. Regula. Well, your former coach was from my district.
    Mr. Black. Oh, really?
    Mr. Regula. Yes, we keep chairs away up there. [Laughter.]
    Please continue.
    Mr. Black. Well, I am here on behalf of the National High 
School Federation, which is an organization comprised of all 50 
state associations and the District of Columbia, and one of the 
members is Clara Mascara in Ohio High School Athletic 
Association.
    We have approximately seven million young people who play 
under the rules that we write each year in 17 sports. One of 
them is right here, and maybe both of them. We have got a 
couple of high school athletes there.
    We have a concern that is coming up. It factors into the 
idea that a lot of teachers who used to be coaches are going on 
to other things; either they are getting tired of coaching or 
they run for Congress.
    So we wind up with a situation where instead of having 
experienced educators providing coaching to young people, we 
wind up, particularly at the lower level, the JV and freshmen 
and sophomore teams and in middle schools, with a lot parents 
and a lot of volunteers from the community, who may know 
something about ``Xs and Os,'' but are not necessarily 
experienced in the teaching skills that help them instill what 
we like to think of are some of the advantages of participation 
in inter-scholastic activities.
    The CDC has pointed lately very much at childhood obesity, 
and Health and Human Services has talked a lot about the 
benefits of extra-curricular participation, in terms of staying 
in school, better grades, lower team pregnancies, lower 
incidents of drug use.
    So we think we are doing a good thing. It costs about three 
percent of the total budget for education to take care of 
athletics and extra-curricular activities. However, we are 
winding up with all these coaches who really need to have a 
little bit of extra help, in terms of how to take advantage of 
what we call the teachable moments that come in the course of 
teaching.
    We have a program that has worked for about 10 years. It is 
the Coaches Education Program. It is very inexpensive. It costs 
about $40 per person. It is focused on people who are not 
trained educators.
    Our concern is that although we are giving it to about 
25,000 people a year, that is only a drop in the bucket. We 
have got an awful lot more coaches out there, and there is a 
very high turnover.
    So we are thinking that it might make some sense to try a 
model program, where we make it available, and particularly 
available to inner city in situations, where the $40 to come as 
a volunteer coach may seem as a real impediment.
    We would like to try that on an experimental basis in a 
couple of states, to just see if it works and see if it helps.
    Mr. Regula. Have you put your suggestion in your statement?
    Mr. Black. We have.
    Mr. Regula. We will get a chance to look at it.
    Mr. Black. Okay.
    Mr. Regula. And we appreciate your being here.
    Mr. Black. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. All right, our last witness today is Dr. 
William Martin, President and CEO of Indiana University Health 
Care, and President of the American Thoracic Society, and Board 
Member of the American Lung Association. Tell us your story.
                              ----------                           

                                          Thursday, March 22, 2001.

    THE AMERICAN LUNG ASSOCIATION AND THE AMERICAN THORACIC SOCIETY


                                WITNESS

WILLIAM J. MARTIN, II, MD, THE AMERICAN LUNG ASSOCIATION AND THE 
    AMERICAN THORACIC SOCIETY
    Dr. Martin. Well, I realize that I am the last witness of 
the last day. I would first like to thank you and your members. 
This is our only chance to put forth the story for our patients 
and the scientific community, and we thank you very much for 
this opportunity.
    I am a pulmonary and critical care physician at Indian 
University and, as you noted, President of the American 
Thoracic Society and a Board Member of the American Lung 
Association.
    In my brief time before you today, I would like to raise 
three issues. The first is the rapidly disappearing physician 
scientist. That is not simply physician scientists in lung 
disease, but in all of health related science.
    Physician scientists are essential to the research 
enterprise, because they link bench research to the patient's 
bedside. However, fewer and fewer physicians are devoting their 
time and talents to research.
    There are several mechanisms at NIH that they could use to 
address these problems, but perhaps most importantly, Congress 
needs to address why physicians choose not to pursue science.
    Invariably, this is because of the overwhelming debt from 
medical school, which you have earlier today, that can average 
anywhere from $75,000 to $150,000.
    Physicians with large debts often leave their research 
careers behind, and pursue private practice, where debts can be 
more easily paid off. The next generation of physician 
scientists should not be selected on the basis of whether or 
not they have debts from medical school.
    Last year, Congress passed legislation that provided debt 
relief for physicians who do clinical research. We would 
request that Congress support expansion of this program to 
include all areas of biomedical science.
    If enacted, Congress would ensure that the quality of the 
scientist, and not his or her financial background, would 
determine the next generation of physician scientists.
    Mr. Regula. Was this debt relief on student loans, Federal 
supported loans?
    Dr. Martin. Yes, it is for medical school. It was part of 
an omnibus package last year. This was specifically the 
Clinical Research Enhancement Act.
    The second issue that I wish to bring to your attention is 
that of chronic obstructed pulmonary disease, or COPD. COPD is 
a collection of airway disorders, including emphysema, that are 
progressive and fatal.
    An estimated 16 million Americans have COPD, and another 16 
million Americans are undiagnosed. COPD affects twice as many 
Americans as diabetes, and is the Nation's fourth leading cause 
of death.
    In the April issue of ``Scientific American,'' which I was 
just reading on my way here, it is noted that the mortality 
rate for heart disease and stroke for the past 20 years has 
declined by more than 50 percent. In contrast, in this same 
article, the mortality for COPD has increased by 34 percent.
    Surprisingly, little is known about how COPD develops. 
Genetics may provide important clues. We know that of all long-
term smokers, only 15 percent develop COPD. This is something 
that shows that some people are disposed to the disease.
    We also do not fully understand the role of genetics in 
other types of airway diseases, such as asthma. More research 
into COPD will likely help us understand why certain people 
with asthma also develop progressive and irreversible disease.
    In approximately two weeks, April 4th, an important 
document will be released by NHLBI and the World Health 
Organization called GOLD, that provides for the world community 
what can be done for COPD.
    We need break-through research to understand why people 
develop COPD and to effectively reduce the morbidity and 
mortality associated with airway diseases.
    The third issue is tuberculosis. Tuberculosis is an 
airborne infection that primarily affects the lungs, but can 
also affect other body parts, such as the brain, kidneys, and 
spine.
    TB is spread by coughing and sneezing. There are over 
18,000 active cases of tuberculosis in the United States. The 
Institute of Medicine recently published a report that 
documents the cycles of attention and progress toward 
tuberculosis elimination, followed by periods of insufficient 
funding, and the re-emergence of TB.
    The IOM report provides the U.S. with a road map of 
recommendations on how to eliminate TB in the U.S. The American 
Lung Association and the American Thoracic Society endorse the 
IOM report and its recommendations.
    Representatives Brown, Morella, and Waxman will soon 
introduce legislation to give NIH and CDC the authority and 
resources to implement the IOM report.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you. This shows a connection 
between the lungs and the heart. I am not sure how this is 
different from just an ordinary heart problem.
    Dr. Martin. I am sorry, in reference to COPD?
    Mr. Regula. Yes.
    Dr. Martin. Well, with COPD, although people with advanced 
COPD develop heart failure, and it is a complication, the vast 
majority of people with COPD die a slow respiratory death.
    Mr. Regula. Then it obviously would be connected with 
smoking?
    Dr. Martin. It is, and I think it does not always engender 
public support, when you consider a disease like COPD as being 
self-inflicted.
    Mr. Regula. Yes.
    Dr. Martin. But I would argue that every patient that I 
have ever taken care of with COPD acquired the addition to 
cigarettes when they were an adolescent, and typically under 
the age of 15.
    Mr. Regula. So that is the time to try to deal with the 
problem.
    Dr. Martin. Absolutely.
    Mr. Regula. I think you are right. It grieves me, when I 
drive past a high school, and I see these kids out there.
    Dr. Martin. Yes.
    Mr. Regula. You girls see that in your schools, do you not, 
and you wonder, why would you want to start? I do not know. 
Well, good luck to you.
    Dr. Martin. Thank you very much.
    Mr. Regula. Thank you, and we are sure glad to see you 
today.
    Dr. Martin. I bet. [Laughter.]
    Mr. Regula. The hearing is adjourned.
                                           Tuesday, March 27, 2001.

                    TESTIMONY OF MEMBERS OF CONGRESS

                     VARIOUS PROGRAMS AND PROJECTS

                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Our first witness this morning is Mr. Joseph 
Crowley from the State of New York, who has some interest in 
various programs and projects. We try to limit you to five 
minutes. Good morning.
    Mr. Hoyer. Good morning, Mr. Chairman. I want to welcome 
the distinguished representative from the State of New York, 
Mr. Crowley. He's one of our outstanding members.
    Mr. Crowley. I thank Chairman Regula and my good friend, 
Mr. Hoyer, but also the Ranking Member, Mr. Obey, for granting 
me this opportunity to testify before the Subcommittee on 
Labor, Health and Human Services and Education Appropriations, 
to discuss some of my key priorities.
    To best communicate the needs of my district, I would like 
to present my remarks in three specific parts. They are 
educational priorities, strengthening of public health 
infrastructure and improving the quality of life for the people 
of Queens and the Bronx in New York.
    Regarding education, I believe it is imperative that our 
society continue to invest in our children and in our public 
schools. I recently conducted a study of the schools in my 
Congressional district that documented how almost every child 
in the public school system is being taught in classrooms that 
are nearly 100 percent over capacity. Unfortunately, this 
situation is all too common in school districts throughout New 
York City, and unfortunately more so throughout our Nation.
    In these types of environments, the teacher's ability to 
teach becomes seriously altered. For these reasons, old 
teaching methods and techniques do not always prepare young 
teachers for real life situations that occur in inner city 
school classrooms every day. As a response, the City University 
of New York has launched a teacher empowerment zone, which is a 
major effort to improve teacher training programs.
    The program would create virtual classrooms with teachers 
teaching students to observe during the course of their study, 
in addition to other traditional learning tools. A student 
enrolled in the teaching program would have the opportunity to 
monitor a real classroom with the use of digital technology and 
at the end of the class period, engage in a dialogue with the 
teacher of the class to discuss the events that have occurred.
    One of the sites of the program would be at LaGuardia 
Community College, part of the City University of New York 
system. This school is centrally located at a transit hub that 
links Queens, the most ethnically diverse borough in the City 
of New York, with the world's center of finance, commerce and 
of arts. The College provides access to higher education and 
serves New Yorkers of all backgrounds, ages and means. For its 
part in the teacher empowerment zone, LaGuardia Community 
College has launched a major campus-wide initiative to expand 
the educational use of digital technology and is prepared to 
focus particular attention on the interlocking issues of 
technology in instruction and assessment.
    For this project, I am requesting $2.8 million. This money 
would be used to improve the infrastructure and provide the 
faculty development needed to advance this initiative.
    Additionally, funding would be used to improve and expand 
classroom connectivity, create links to local secondary 
schools, upgrade available software and enhance professional 
development programs. This is a worthwhile and creative program 
that deserves Federal assistance.
    To continue to build on our children's potential, I am also 
seeking assistance for the Queensborough Public Library to 
expand its Jackson Heights Queens branch. The Queensborough 
Public Library has the highest circulation of any library 
system in the United States, and spends more money per capita 
on books than any other major urban library system in our 
country.
    The funding I seek will not only expand the Jackson Heights 
branch, but will also provide greater access of materials to 
patrons, provide resources for new children's programs, and 
allow for more computers, offering free access to the 
electronic information.
    Furthermore, there is one more additional educational 
program I would like to touch on that I did not include in my 
prepared remarks. The Taft Institute at Queens College, which 
is also my alma mater, the Taft Institute was founded in 1961 
to honor Ohio Senator Robert Taft's exemplary record of public 
service and political courage. The Taft Institute is a non-
partisan enterprise dedicated to promoting informed citizen 
participation in the United States and around the world.
    In 1996, the Taft Institute chose Queens College of the 
City University of New York as the site of its national 
headquarters. This institute strives to reverse the mounting 
trend of citizen apathy and cynicism. Its programs reflect the 
conviction that true democracy requires that each new 
generation of citizens be committed to civic involvement. At a 
time when the high water mark of political involvement, the 
simple act of casting a ballot, scarcely reaches 50 percent, 
the need for such a program should be self-evident. Yet the 
unexamined, often unspoken premise persists that active 
citizenship will somehow emerge spontaneously in adulthood 
without prior learning or experience.
    The Taft Institute takes the opposite view. Responsible 
citizenship must be fostered from the earliest age. To thisend, 
the Institute has created a program of professional development to 
inspire and empower the teachers who will help to shape America's 
political future.
    Funding for Taft Institute programs comes from both public 
and private sources. While private sector funding has 
significantly increased in recent years, the Institute seeks 
new sources of support to continue and expand the innovative 
civic education programs essential to our country. Among its 
distinguished fellows would be our Speaker, Dennis Hastert, 
just to name one.
    I hope that we can work together for this important 
program, and I am therefore reaching out to this Congress and 
this Committee for $300,000 for this important institute.
    With regard to the health concerns of New Yorkers and all 
Americans, I want to inform the Committee that last Thursday, I 
sent a letter to President Bush requesting at least $25 million 
for the Centers for Disease Control. These funds would be used 
to monitor, detect and combat West Nile encephalitis, a disease 
that originated in my Congressional district, but has since 
spread throughout the eastern seaboard.
    I was pleased to be joined by 43 other Northeastern members 
of Congress in this effort to ensure that adequate attention 
and resources are provided to combating this mosquito-borne 
virus.
    Additionally, I will be asking the Committee to provide the 
needed resources to combat sexually transmitted diseases 
including HIV and AIDS. Here I urge a two-pronged attack, one 
globally based and one locally based. On the prevention side, I 
would appreciate if the Committee would highlight the need for 
funding of microbicide testing. Microbicides would fill a gap 
in the range of prevention tools because they are woman 
controlled and could protect against various STDs, not just 
HIV. These user controlled products that kill or inactivate the 
bacteria in viruses that cause STDs and HIV-AIDS are the only 
hope to prevent the transmission for many women overseas and 
even some here in our own country.
    Locally, I seek funding for an innovative program in my 
district to combat sexually transmitted disease, including HIV-
AIDS in the often overlooked minority community. While the rate 
of HIV-AIDS infections is decreasing in the white population, 
it has drastically increased in the African American and Latino 
populations.
    Finally, as the representative of the middle and working 
class districts in northwestern Queens and the southeastern 
Bronx, I would like to discuss some specific needs of my 
constituents. Among these needs are for the young adults of 
Queens and the Bronx. Therefore, I am working to secure vital 
dollars for additional computers for a job training center at 
the Queens Bridge Homes, America's largest public housing unit. 
In these uncertain economic times, these dollars are needed now 
more than ever to assure the support and strength of this job 
training and skill providing site.
    Oftentimes, public housing is seen as a trap of despair, 
but Queens Bridge is different. It has been successful in 
utilizing the full potential of residents to keep it safe and 
full of promise. I hope to build on the existing job training 
and educational center at Queens Bridge, so as to harness all 
the abilities of the people of this community.
    For my older constituents, I am working for two senior 
centers in my district that are in need of assistance. First, 
the Sunnyside Community Services Senior Center in Sunnyside, 
Queens, which seeks capital project funding to make their 
center both disability accessible and more senior friendly. 
While my office is working with them and the city and the State 
of New York for funding, a shortfall is expected, and I hope 
this Congress will be able to provide some funding for this 
important senior center.
    Additionally, I will be championing the cause of the 
seniors of North Flushing Senior Center, a center as familiar 
to Representative Lowey as it is to myself. Last year, a 
funding shortfall almost caused havoc at this important 
community organization. I hope that working together, we can 
ensure that meals are always provided and the good works of 
that institution will continue well into the future.
    There are a great many other needs in my community and 
throughout our global community for assistance. I thank you, 
Chairman Regula, for your time, and my good friend, Steny 
Hoyer, for being here and taking the time to listen to some of 
my priorities.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Quick question. The superintendent 
of New York, I heard him speak at a seminar, sounds like an 
impressive regime that he's installed. What do you think?
    Mr. Crowley. In terms of?
    Mr. Regula. The New York City school system. Is it Mr. 
Levy?
    Mr. Crowley. The chancellor. Yes, I think he's an 
impressive individual, and someone who has been able to work 
with not only both sides of the aisle, so to speak, but really 
work within all the different communities of New York. The one 
thing that he's been grappling with and we've all been 
grappling with has been class size, and the problem with school 
modernization and overcrowding, the lack thereof in schools.
    In my district particularly, we're faced with the fact that 
the average school age is 50 years of age, and one out of every 
two schools is 75 years or older.
    Mr. Regula. He mentioned it.
    Mr. Crowley. These are real problems. In Queens County, we 
expect to be between 30,000 and 50,000 seats shy by the year 
2007. So forget about a school building, there's not actually a 
seat for these young people to sit in. That's a real crisis 
that we're facing in the New York city public school system. 
But Chancellor Levy is doing all he can.
    Mr. Regula. Sounds like an interesting approach. Mr. Hoyer?
    Mr. Hoyer. I have no questions, I'd like to thank 
Congressman Crowley for obviously a very thoughtful 
presentation, dealing with a number of different areas of 
critical concern to his district, and frankly, to the country.
    Mr. Crowley. Thank you. Thank you both.
    Mr. Regula. We'll give you the forms, if you don't have 
them, to make a formal request.
    Mr. Crowley. Thank you very much.
                              ----------                              

                                           Tuesday, March 27, 2001.

                  EDUCATIONAL AND HEALTHCARE PROGRAMS


                                WITNESS

HON. BILL PASCRELL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula. Our next will be Mr. Pascrell of New Jersey, 
Education and Health. Summarize as much as you can. We have a 
long list today.
    Mr. Pascrell. Mr. Chairman, thanks for extending the 
courtesy to us, and members of this great Committee. Just a 
week ago, I was here with Thelma Thiel, if you remember, the 
President of the Hepatitis Foundation, and you were so kind to 
her, and I thank you for that.
    Today I want to talk about two subjects, education and 
health care, if I may. As a former teacher, I know the impact 
that large classroom sizes have on student performance. The 
quality of our children's education is largely dependent upon a 
strong teaching work force.
    According to the United States Department of Education, the 
Nation will need 1 million new teachers by the year 2010. 
Similar to what's happening to teachers is happening to nurses 
in America, as you well know. The looming shortage is already 
creating problems for school districts across the country.
    Even in advance of the peak of the shortage, school 
administrators are already reporting tremendous difficulties in 
recruiting qualified teachers. We can't get science and math 
teachers, they're moving into other areas that are obviously, 
will put more money in their pocket, to be very honest with 
you.
    While this is certainly a national problem, New Jersey, Mr. 
Chairman, particularly is plagued by the mass exodus of 
qualified teachers who are retiring. We rank among the top five 
States in the Nation for projected growth, however, in the 
student population.
    The number of high school graduates in the State is 
expected to increase by 25 percent in the year 2008. That's not 
a long way off. Mr. Chairman, the numbers do not tell the whole 
story here. Unless the new members of the teaching force are 
well educated, well prepared and unless current teachers' 
knowledge and skills are updated and honed, our Nation's need 
for quality educators will not be met.
    A compelling and growing body of research shows that the 
single greatest determinant of student achievement is teacher 
quality. New and experienced teachers alike are educating an 
increasingly diverse population with many different languages 
and cultural backgrounds.
    Mr. Regula. If I could interrupt you there. If you had a 
priority choice between more pay, upgrading skills versus 
reducing classroom size, assuming you can't do both, which 
would you opt for?
    Mr. Pascrell. Qualified teachers.
    Mr. Regula. That's my inclination, too, that that's number 
one, is to have qualified teachers.
    Mr. Pascrell. I can recommend a book, and I don't want to 
take more time, Mr. Chairman, you've been more than fair with 
me, but the book, Thomas Jefferson's Children, excellent book 
on education, provides reforms that are succinct and we can all 
understand. I recommend it.
    Mr. Regula. Thank you.
    Mr. Pascrell. Schools of education must meet the needs of 
this diverse student population and the needs of our 
technologically advancing world. That's why we wired our 
schools. The university in my district has been working on this 
problem. Montclair State University, 90 years in business, has 
built a nationally recognized teacher education program. 
Currently, Montclair graduates approximately 300 teacher 
candidates a year. It also turns away hundreds of qualified 
students each year, because of an acute shortage of space at 
the university.
    To alleviate this problem and to help the State and the 
entire Nation create more teachers, Montclair State is building 
a $45 million center for teacher preparation and technology. 
State of the art, authentic, not money thrown to the wind. The 
new center will allow the university to increase the number of 
teacher candidates it graduates each year by 60 percent. It 
will also allow the university to increase the number of 
masters degrees it awards to teachers already in the field, a 
critical component of teacher retention.
    While increasing in number of teachers, the center for 
teacher preparation and technology will make certain these 
teachers are competent in incorporating instructional 
technology into their teaching. This center will include 
interactive distance education equipment, wireless technology, 
full internet access and applications and hardware to keep 
track of student progress more effectively. This is supported 
bipartisanly, Mr. Chairman.
    Montclair State will receive $5 million from the State of 
New Jersey. It is asking Congress for $5 million to complete 
this critical project. And the rest of the money will be raised 
by the University itself.
    There are numerous pieces of legislation that call for an 
increase of teachers in the coming years. I believe, Mr. 
Chairman, this is a good project. I ask the Committee to take a 
look at it. Ask me any questions if you will. I think it's 
worthy, because it goes to the very heart of what we're talking 
about in education.
    The second project is a 21st Century institute for medical 
rehabilitation research. During the last cycle, my colleagues, 
Frelinghuysen, Payne, Rothman and Andrews and I asked this 
Committee for $3.9 million. Congress provided $775,000 of that 
amount. I'm here today to ask for the remaining funds, Mr. 
Chairman.
    This Committee has long recognized the extraordinary value 
and promise of medical research. You have demonstrated that 
time and time again with your support for increases in funding 
to NIH. All Americans should be grateful for this action as you 
are bringing all of us new hope for key breakthroughs in 
medicine and treatment.
    Up until now, this area has not seen the kinds of increases 
that many others have enjoyed and the need remains substantial 
in the area of rehabilitation medicine and research. One of the 
premier institutions in the country in the rehabilitation 
research field is in my district, the Kessler Medical 
Rehabilitation Research and Education Corporation, and the 
Kessler Rehab Hospital are widely regarded as leaders 
nationally in rehab medicine, treatment and research. Much more 
can and must be done to accelerate and build on the work which 
is already underway.
    So several years ago, the Kessler organization decided to 
create a new and unique effort in the United States. This was 
it, this was pro forma for the rest of what has happened since. 
Last year, your Subcommittee recommended funding for this 
effort. I'm deeply grateful, Kessler is deeply grateful.
    One area of rehab that I am particularly involved in, and 
interested in, we've done work in other areas, is the traumatic 
brain injury. We now have a registration list which is very 
critical. Kessler is dealing with this problem, Mr. Chairman. 
Two million Americans experience a traumatic brain injury every 
year. Two million. About half of these cases result in at least 
short term disability.
    Eighty thousand people sustain severe brain injuries, 
leading to long term disability. Most people with a brain 
injury must experience some type of rehab in order to function 
in their daily lives. So Mr. Chairman, to make a long story 
short, I ask for these two projects, and I think they're worthy 
projects, and I've come to the right Committee.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, we'll probably get a better estimate of 
that later in the year. [Laughter.]
    Thank you. Is Kessler tied with NIH in any way?
    Mr. Pascrell. Yes, much of the dollars comes from NIH. It's 
probably the premier institution in the country.
    Mr. Regula. So it works with them?
    Mr. Pascrell. A lot of breakthroughs, Mr. Chairman.
    Mr. Regula. Your education institution that you mentioned, 
is that a State university?
    Mr. Pascrell. Yes. Montclair State University is a State 
university.
    Mr. Regula. Mr. Hoyer.
    Mr. Hoyer. No questions. Thank you.
    Mr. Regula. Thank you for coming.
    Mr. Pascrell. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, March 27, 2001.

           NATIONAL CENTER FOR INJURY PREVENTION AND CONTROL


                                WITNESS

HON. MICHAEL HONDA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Honda, we're ready for you. Glad you came.
    Mr. Hoyer. Mr. Chairman, as you know, Mr. Honda is one of 
our newer members, but a very experienced member, a 
distinguished member of the general assembly in California, and 
does an outstanding job.
    Mr. Honda. Does that mean I get a raise?
    Mr. Regula. Do you take any responsibility for the rolling 
blackouts?
    Mr. Honda. No, not yet. I take the responsibility of 
helping, though.
    Mr. Regula. It's a tough issue out there.
    Mr. Honda. Yes, it is. Not to be funny, though, there may 
be light at the end of the tunnel.
    Mr. Chairman, thank you very much for allowing me to 
testify here. I want to thank Mr. Hoyer for acknowledging my 
presence also.
    Distinguished members of the Subcommittee, thank you for 
this opportunity to testify today. I'm here to respectfully 
request your assistance on a very important initiative that 
affects millions of Americans. Specifically, I'm asking you to 
consider an additional $1.5 million for the National Center for 
Injury Prevention and Control at the Centers for Disease 
Control and Prevention, to address a very important topic, 
sleep deprivation and fatigue related injury.
    I think many people smile when they hear the term sleep and 
fatigue, because they probably just pooh-pooh it and say that 
it's something that doesn't seem to be very important.
    Mr. Regula. We had a public witness, an M.D., that spoke at 
length about that, runs a couple of clinics back in Ohio.
    Mr. Honda. Right.
    Mr. Regula. So it is, and I think the NIH has done some 
work, is doing work on the impact.
    Mr. Honda. Right. We just need to do more work in the 
public domain to sort of raise the issue. I appreciate this 
opportunity.
    Sleep represents a third of every person's life. It has a 
tremendous impact on how we live, function, perform, and think 
during the other two-thirds of our lives. Lack of adequate, 
restful sleep has serious consequences at home, in the 
workplace, at school and on the highway. Untreated sleep 
disorders, of which there are more than 80, and sleep 
deprivation contributes to injuries, impaired work 
productivity, academic performance, reduced quality of life, 
poor health and even death.
    As a teacher, a school principal and school board member, I 
have seen sleep deprivation as a growing problem for high 
school students, the largest at-risk group for fall-asleep car 
crashes, as well as being a factor in causing car accidents for 
parents, transportation workers, police officers and medical 
residents.
    According to the National Sleep Foundation, the direct or 
indirect cost to the United States economy due to sleep 
disorders and sleep deprivation are estimated to exceed $100 
billion each year. As someone with a sleep disorder myself, I 
know these problems all too well. I am one of the approximately 
40 million Americans who suffers from chronic sleep disorder. I 
was diagnosed with obstructive sleep apnea, which is a very 
common sleep and breathing disorder that affects at least 12 
million Americans.
    Each time a person with sleep apnea stops breathing, 
sometimes up to 400 times a night in severe cases, and I was 
one of them, the brain awakens the person just enough to get 
them breathing again. What I learned is that when you stop 
breathing, the chemistry of your blood changes, and it clicks 
off in your brain to say, wake up, dummy, wake up.
    That's when you hear folks just gasping for breath in the 
middle of the night, and then they continue to sleep. This 
allows them to go into deep sleep, what they call REM, where 
they get that rest, but they continue to appear to be sleeping, 
to get their rest, but they don't get that deep rest.
    This not only affects the quality of a person's sleep and 
daytime functioning, but it leads to very serious health 
problems. Untreated sleep apnea has been linked to 
hypertension, cardiovascular disease, diabetes, depression, 
memory problems, obesity and other serious problems.
    I am very lucky, because unlike most undiagnosed Americans 
with sleep disorders, I have a nationally recognized physician, 
Dr. William DeMent, who was able to treat my sleep disorders. 
And the diagnosis and proper sleep treatment definitely has 
improved the quality of my life immeasurably. I say, Mr. 
Chairman, that it's a malady that can be cured overnight.
    While public awareness is desperately needed, a strong 
Federal partner with expertise and ability to disseminate 
tested and proven education training and injury prevention 
programs to communities throughout the Nation is needed even 
more. The CDC can help us address the comprehensive and complex 
health and safety problems related to sleep issues by 
developing a sleep awareness action plan that would set 
national priorities around sleep issues in public health and 
safety.
    This five year sleep awareness action plan would develop 
the evaluative research including daily collection through the 
National Center for Injury Prevention and Control and others at 
the CDC. The research would include an attempt to validate or 
improve existing surveys and survey methodologies regarding how 
sleep deprivation problems are related to the on the job 
injuries, highway crashes and other medical conditions, such as 
diabetes, heart disease, cancer and obesity.
    The data from this research will allow the CDC to devote 
accurate educational material and model prevention and health 
promotion programs to provide to States as they address these 
important issues. This information will begin to turn the tide 
of injuries, health programs and costs associated with 
sleepiness and sleep disorders.
    So as I sit here today, I'm happy to report that I am 
feeling fine. But I want all of you to know that it has taken 
hard work with my doctor, reprioritizing with my family and my 
life. I hope that you all take the time you need to get the 
quality sleep you need every night. As a new member of 
Congress, I am quickly learning that our schedules are so 
packed and our days are so long that you are probably not 
getting all the sleep that you need, but getting sufficient 
sleep should not be optional.
    I just want to close by thanking you for the opportunity to 
testify today, and I look forward to working with the group and 
providing myself as a personal testimony to the issue of sleep 
disorders and fatigue, as it relates not only to adults and 
sleep disorders, but also fatigue as it relates to young people 
who are coming to a point where, especially seniors that are 
coming to graduation. We see too many youngsters who fall 
asleep at the wheel because of fatigue. It doesn't have to be 
disorders, it's just our attitude toward sleep and sleep 
deprivation.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think you're suggesting that CDC needs to do 
a major public information campaign to make people aware that 
this is a problem that's curable.
    Mr. Honda. That's correct. Succinctly put, Mr. Chairman. 
We're looking for support of $1.5 million.
    Mr. Regula. We're going to be visiting there next week, so 
it will be a good question for us to raise.
    Mr. Hoyer, questions?
    Mr. Hoyer. No, I have no questions. Thank you, Mr. Honda.
    Mr. Regula. Thank you for coming.
    Mr. Honda. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. ROBERT FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Filner.
    Mr. Hoyer. I pledge to Mr. Filner that I will read every 
sentence of your statement.
    Mr. Filner. I just want you to give me the money. 
[Laughter.]
    Mr. Regula. Welcome, Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. And we all appreciate 
your--and the staff and as many members as possible--sitting 
through and listening to all these requests. We do appreciate 
it and thank you so much.
    I bring forward to you two proposals that are important to 
my district, my constituency, but I think also serve as models 
for broader application to similar situations in other parts of 
our Nation. First is a $3.9 million appropriation for Paradise 
Valley Hospital to create what is called a complementary 
medical center, and therefore address health needs of a 
minority population that is often overlooked. Your Committee 
provided about $700,000 for this center in the last 
appropriation. This would allow them to actually set up and 
begin services in this complementary medical center.
    It would be a unique showcase of how public and private 
health care enterprise can cooperate, because it would provide 
needed specialty care to an under-served community which then 
could be replicated throughout the country. What we have in 
Paradise Hospital is the only community hospital in our county. 
It serves not only the whole county, but it is located in the 
fourth poorest city in California, National City, one of the 
cities I represent. In fact, the thirteenth poorest city in the 
Nation.
    And it is truly a safety net provider, but has not been 
able to provide the kind of complementary health care that 
wealthier medical centers can.
    Mr. Regula. Is this a non-profit or a city facility, or 
State?
    Mr. Filner. It's a non-profit hospital, but it's a private 
hospital. It's in the Adventist medical chain of facilities.
    As I said, the complementary nature or the complementary 
medical techniques have been available to wealthier 
communities, but have never really been given in a holistic way 
or in a very comprehensive way to disadvantaged populations. 
What we have in mind here is to showcase that when these 
services are provided to even poorer communities, they will 
have a very much enhanced medical care and in fact save us, of 
course, as a Nation, money in the long run.
    So again, you have provided some startup money for this in 
the last appropriation cycle. The money that I would ask for 
now would allow them to actually set up the center.
    In my second request, I am joined by my colleague, 
Congresswoman Susan Davis from San Diego. We are asking that 
the senior community center of San Diego be funded for a 
demonstration program, $250,000 for Title IV of the Older 
Americans Act, to establish a demonstration project entitled 
Health Promotion/Harm Reduction.
    What this is for is seniors, a growing number of seniors, 
who have emotional or mental health problems, to help them 
before they get more seriously ill or in fact, thrown out on 
the street into homelessness. The only organization in San 
Diego to provide at-risk seniors is the senior community 
centers. They have shown in an 18 month test that if they 
provide intensive case management services in conjunction with 
nutrition services, the self-reliance of this population is 
greatly increased.
    So with just $250,000, they think they can in fact decrease 
emergency medical interventions, reduce medical costs to our 
community, get early treatment of illness and thus allow 
seniors to have an independent and healthy lifestyle.
    These are two areas, again, for San Diego, mainly in poor 
communities for a population that is under-served, as you well 
know.
    Mr. Regula. Is the senior unit a private, non-profit?
    Mr. Filner. It's a non-profit also.
    Mr. Regula. It's not operated by your senior groups?
    Mr. Filner. It's not operated by the city government. It's 
a private non-profit.
    Again, these services, we believe of course not only will 
help our specific population, but serve as good models for 
other places in the country.
    So that's what I have before you, Mr. Chairman. I thank you 
for the time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for bringing this to our attention.
                              ----------                              

                                           Tuesday, March 27, 2001.

                IMPACT AID AND CROHN'S AND LYME DISEASE


                                WITNESS

HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. The next witness is Representative 
Congresswoman Sue Kelly from New York. Sue, on Impact Aid, 
Crohn's and Lyme Disease.
    Ms. Kelly. That's a polyglot, isn't it?
    Mr. Regula. You have quite a list.
    Ms. Kelly. I brought this map, because I want to show you 
this map. This map shows you the area, actually, of West Point. 
And this little tiny strip, this little tiny strip outlined in 
red right there, this all belongs in one township. This little 
tiny strip of land, which represents about not quite 7 percent 
of all of the land in this----
    Mr. Regula. It's the Hudson River, I assume.
    Ms. Kelly. This is the Hudson River. Right there, bounded 
by the Hudson River, that's all the land that this township has 
that they can use for any kind of tax purposes at all to 
support the school system. This is the most highly impacted 
school system in the Nation, here at West Point.
    Mr. Regula. Is that all West Point?
    Ms. Kelly. This is all West Point.
    Mr. Regula. How many acres would be in that?
    Ms. Kelly. West Point? I don't know. I should know. I'm the 
Vice Chairman of the West Point Board, I should know, but I 
don't. [Laughter.]
    But the thing I'm trying to point out here is that these 
people can't grow. This is mountain in here. So they have 
mountainous areas in here, they have the river over here.
    Mr. Regula. Is that a school district?
    Ms. Kelly. There is a school district here, and the 
students who are taught in grade school on the Point come out 
into this school district for their high school.
    Mr. Regula. So the Point doesn't operate a high school?
    Ms. Kelly. It doesn't operate a high school, a junior high, 
high school. They come out into this district for their high 
school.
    Mr. Regula. That would be all the personnel that operate 
it.
    Ms. Kelly. All the civilian and military personnel. And 
remember, this is an active base as well. All those people send 
their kids out here into this little area to this high school.
    Years ago, this high school was properly funded. And I'm 
talking about Section 8002. This is the most highly impacted 
district in the Nation. We've got to have our Impact Aid. 
Because years ago, we can get a copy of that for you if you 
want. Years ago, this was fully funded and we had enough 
funding coming in there to help the school district. When I was 
elected, that school district was teaching social studies out 
of a book that stopped at the Vietnam War. That was six years 
ago.
    These kids had very old books, they had teachers that were 
leaving, their teachers hadn't had any advanced training, the 
school buildings themselves were in terrible shape. And this 
school district was a threatened school district. There it is, 
sandwiched between the Point, the river and mountains. They 
can't grow, they've got nothing to tax. They need our help.
    We've got to have that money that we had, at least what we 
had last year if not more. We really do need an increase. But 
since we've been working----
    Mr. Regula. Does that go out by formula?
    Ms. Kelly. Yes, it goes out by formula. I'm just trying to 
locate it and see.
    Mr. Regula. Does it depend on the per capital wealth of the 
district as to how much they get?
    Ms. Kelly. You can imagine, if it's a military base, you 
know the state of what the military gets paid.
    Mr. Regula. On the portion that they tax. Do you use real 
estate taxes in New York for schools?
    Ms. Kelly. We use real estate taxes for schools, but 
there's no place to tax. This is very, there's only so much of 
that land you can use, because people live there, too. There's 
housing.
    Mr. Regula. What I'm getting at is, the Impact Aid is 
predicated on the amount of available tax revenues within a 
district. So Impact Aid would vary from place to place 
depending on the wealth of the district that's involved. What 
you're saying is you need more, either change the formula or 
more money to this district.
    Ms. Kelly. I need more money in this district. We need a 
better formula for taking--now, there's 8002, which is land 
based, and I'm talking about land based right now, because----
    Mr. Regula. Staff tells me you went from 32 million to 40 
million last year. So apparently we do control in the Committee 
the macro amount that goes to each of the districts.
    Ms. Kelly. You do, yes, absolutely.
    Mr. Regula. That's what I was trying to determine, is it 
formula, and the answer is no. It's just a judgment call.
    Ms. Kelly. Well, correct me if I'm wrong, sir, but I think 
perhaps there is a formula for one part of this. It's the per 
capita student part that has a formula. Then the part I'm 
talking about does not.
    Mr. Regula. Kind of an enrichment.
    Ms. Kelly. It is something to make up for the fact that the 
land was taken by the Federal Government. The Point didn't used 
to be that large. But for one reason or another, during the 
various wars, they've added land in because they need it for 
training. And as they've added land in, endingit for training, 
they've eaten into the township.
    Mr. Regula. Does the Point train any other than cadets? Do 
they have other training facilities there? You mentioned that 
it was more than just a military academy.
    Ms. Kelly. It's an active Army base as well.
    Mr. Regula. That's what I'm saying, do they train troops 
there?
    Ms. Kelly. I don't know if we train--we train specified 
things. They run mountaineering courses, they do some other 
things. Plus they have some, if I remember correctly, I know we 
have a mint there, there's a number of Federal activities that 
are going on at the Point and a lot of people working there and 
living there on the Point.
    The thing is, what we got last year wasn't even 50 percent 
of what basically we are entitled to under what we were 
promised when the Point's land was taken, when the Point took 
our land. So from an Impact Aid standpoint, we really, I really 
need to help these people. Because what's happened, because we 
got that increase, we now have teachers who are coming back 
into the district. We are training the teachers, we have bought 
new books, there's a social worker to help the kids, which 
we've never had before, and we really need not only that, but 
the school has a new roof over part of it, so that now they can 
use that part of the school. It was really raining in.
    So it's not money gone to waste. It's good money, we need 
to do it. And we really need to have a full funding. I'll take 
50 percent, that's $62 million, but it's the second step of a 
promise that we have made in the past to this school district. 
And Impact Aid all across the Nation needs our help. But this 
is the most highly impacted district in the Nation.
    I want to go quickly to a couple of other things that I 
have on the ticket here. Because we can talk further if you'd 
like about the Impact Aid. I want to talk about Crohn's 
disease. Crohn's disease is an inflammatory bowel disease.
    Mr. Regula. We had some public witnesses on that. Not here 
today, but in the past couple of weeks.
    Ms. Kelly. It encompasses a whole group of diseases. 
There's about a million people in the United States who have 
this disease. It is economically and physically debilitating 
for people. I know about that, because my daughter has Crohn's 
disease.
    Mr. Regula. You're asking for more money on research on 
this?
    Ms. Kelly. I want you to designate more money to research. 
I know you can't tag it that way, but I'd like report language 
that really strongly recommends NIH do something to put more 
money into research for Crohn's. It's on the increase, and it 
is very debilitating. People who have Crohn's disease have the 
option of losing a part of their intestine or sometimes all of 
their intestine. The disease can come from your mouth to your 
anus.
    It blocks off your ability to allow food to get through 
your gut, and then what happens is you go, what happens to a 
lot of people with Crohn's disease is they get sick, they have 
an operation and they lose a piece of something. They are fine 
for a while, they get sick, they have an operation, they lose 
another piece of something. Pretty soon, there's not much left 
between their mouth and their anus, and they live with a 
feeding tube if they live at all.
    It's a very serious disease, it's on the increase, and we 
are paying very little attention to the people who have Crohn's 
disease. We need to give them some hope and we need to do some 
research. I hope that you will think about putting some strong 
report language in about that.
    Mr. Regula. We will have NIH before us, and your concern is 
that we just get more money into research to try to find cures.
    Ms. Kelly. There are some interesting ideas about cures. 
Dr. Crohn actually lived in my district before he died. And he 
is the person who identified this disease that was killing 
people and no one knew what it was. But from his 
identification, from that point onward, there's been very 
little attention paid to it. It's one of these diseases that 
people just simply don't pay a lot of attention to.
    Just like Lyme disease, which is the other thing that 
brought me here today. I could talk about a couple of other 
things, like juvenile diabetes and so forth. But Lyme disease, 
the epicenter of Lyme is in my district. So I'm here for three 
causes: Impact Aid, which I care ardently about; Crohn's 
disease, which is in my family; and Lyme disease, which I have 
had. We are in the epicenter of it, we need to have----
    Mr. Regula. Is this the deer----
    Ms. Kelly. Deer ticks, yes. And we have some ideas about 
what we can do to stop the transmission of Lyme. We need money 
for research. We have come up with a vaccine that works, but it 
doesn't work on people over 60 or under 10, as far as I know, 
from what their research has shown. So we can't vaccinate our 
very young. And it's a debilitating disease. Many people are 
left permanently disabled because of Lyme disease.
    So from a long range standpoint, it's a very expensive 
disease.
    Mr. Regula. It's tick-borne, and the deer is the host?
    Ms. Kelly. The deer are a host for the tick. The tick is 
actually the host of the spirochete that causes the disease. 
There is now three identified diseases, but it's only the deer 
tick I'm talking about. There's also the reketsial diseases 
that are borne by dog ticks. That's the Rocky Mountain spotted 
fever and so on. We have cases of Rocky Mountain spotted fever 
that have been on Long Island last year. It used to be only in 
the Rocky Mountains. Now that is spreading.
    We need research on tick-borne diseases, both reketsial 
diseases and the spirochete diseases, because we don't 
understand completely how to stop them. And they are walking 
right straight through our Nation.
    I'm chairman of the Lyme Disease Caucus. We have a number 
of people, I've had several of our colleagues come up to me on 
the Floor saying, let me get on your caucus, my wife just got 
Lyme disease, because it is very prevalent in the midwest, it's 
prevalent on the coast and in the mountainous areas and the 
Rocky Mountains and out in California and Oregon and 
Washington. But it's most prevalent, and the epicenter is in 
the northeast. We need your help.
    Mr. Regula. I remember you telling me about it. It doesn't 
seem to have impacted in Ohio yet, but it will probably get 
there.
    Ms. Kelly. That's perhaps because the doctors don't know 
how to identify it. One of the biggest problems we have is that 
doctors don't understand what they're looking at. They know 
they have a disease and they can treat it with a broadspectrum, 
heavy duty antibiotic, and sometimes if it's a mild case, it will knock 
it out. And they think, well, didn't quite identify it, but I got it. 
So the patient is better.
    Part of what we need to do is use this money for educating 
the doctors and the other part for doing the research needed to 
stop the disease itself. We can do it.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Mr. Sherwood.
    Mr. Sherwood. What's the name of the school district?
    Ms. Kelly. The name of the school district is Highland 
Falls School District.
    Mr. Sherwood. What's the annual budget?
    Ms. Kelly. I don't know if I have it. I'll have to get back 
to you, because I don't remember.
    Mr. Sherwood. Do you have the cost per student per year?
    Ms. Kelly. I can give you a cost per student per year. I 
can also give you a per student, how much the Impact Aid means. 
We're talking about over a million dollars to this school 
district. And if we don't get it, that school district will 
fold.
    Mr. Sherwood. You mentioned $62 million.
    Ms. Kelly. Because this is what we've been asking for. This 
is the second step in what we had asked for originally and got 
started on. And a ten year program to bring the section 8002 
funding into its full funding level. And that's only 50 percent 
that I'm asking for.
    Mr. Sherwood. But did you use the term $62 million?
    Ms. Kelly. I did, yes. We need to have the funding next 
year. We need to have the funding next year at $62 million, 
because this is what the school district has got to have.
    Mr. Sherwood. You mean that's their total budget or what 
you're asking for under Impact Aid?
    Ms. Kelly. No, this is for the total Impact Aid. Our school 
district gets a piece of that. But what we haven't had is 50 
percent funding. We need to get it fully funded. Any one of us 
who represents an impacted district knows full well that 
without that funding, we're going to go down the tubes with 
these school districts. Since we have a President who's 
dedicated to education, we want to fund these schools. We need 
to.
    Mr. Sherwood. But doesn't the State of New York fund their 
participation in your school district on the wealth effect? In 
other words, the smaller your tax base, the higher percent you 
get from the State? That's the way it works in Pennsylvania.
    Ms. Kelly. We get some aid that way, but we have not gotten 
the school building aid that we needed. There's just not enough 
money to--we have New York City, as you know, that eats up the 
majority of our funding for our education budget. So we have 
not had that much. The people in this town, if you look at 
their income, this is not a wealthy town. It's a very, very--I 
hesitate to say low income, but it's lower middle income folks 
who live there. These people are people who are living on 
Government salaries because they work for West Point, they're 
the people who are the teachers at West Point or they're 
working on the base, and these are guys and women who are, you 
know, they're taking Government salaries. They don't have a lot 
of resources. And they don't have the money to put into the 
school itself, and there are not a lot of wealthy people who 
live in the surrounding area to put taxes in.
    Mr. Sherwood. Is there a local elected school board that 
makes the financial decisions?
    Ms. Kelly. We do have a local elected school board that 
makes those decisions, yes.
    Mr. Sherwood. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Cunningham, any questions?
    Mr. Cunningham. Mr. Chairman, thank you. I'd just make a 
comment. I've worked with Ms. Kelly even when I was chairman of 
the Education Subcommittee on Authorization. I went to that 
area. Matter of fact, if you haven't made a trip to, West Point 
itself is underfunded, the military academy, compared to the 
other academies. If you look at the area around, she's not 
exaggerating. Impact Aid is critical to her particular 
district, more so than I think a lot of districts. Maybe not so 
much as mine----
    [Laughter.]
    Mr. Cunningham [continuing]. But it is important. Having 
visited the area, it is, Impact Aid is very important to that 
area.
    Ms. Kelly. I thank you. Mr. Cunningham has worked very 
carefully with me, because he has been there, he's driven 
through the trailer parks that these people live in, and he 
knows full well that it's very important for us to get----
    Mr. Regula. The trailer parks are on the West Point campus?
    Ms. Kelly. Not on the campus, sir, but they're outside in 
Highland Falls. That's where these folks can afford to live.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                           Tuesday, March 27, 2001.

                               IMPACT AID


                                WITNESS

HON. MARK STEVEN KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. Mr. Kirk from the State of Illinois, Impact 
Aid. We've heard that subject discussed here.
    Mr. Kirk. Thank you, Mr. Chairman. I'm here to basically 
underscore the point. I sit here as the successor to John 
Porter, so I with some trepidation testify before this 
Committee.
    Mr. Regula. You have Great Lakes, then, don't you?
    Mr. Kirk. I do. And I used to be sitting on the seats in 
the back row there very recently. So to be here is a real 
honor.
    For me, in our Congressional district, as far as the United 
States military in the midwest, we're about it. But boy, are we 
it. If you join the United States Navy, you're coming to the 
Tenth----
    Mr. Regula. I spent some time in Great Lakes. Very familiar 
with it.
    Mr. Kirk. And now that all naval training is being 
concentrated there--well, we didn't steal it, we bought if fair 
and square. For us, now, at Great Lakes, we expect the recruit 
population will go from 50,000 to 70,000 in the coming four 
years. So as a member of the military family, it is only 
growing in our district.
    Mr. Regula. Is that the only one giving boot camp now?
    Mr. Kirk. That's it.
    Mr. Regula. For the whole USA?
    Mr. Kirk. For the surface fleet, right.
    With me is the actual superintendent of the district, 187 
school district, Dr. Patricia Pickles. Mr. Chairman, with your 
permission, if I could have Dr. Pickles join me up here.
    Mr. Regula. Okay.
    Mr. Kirk. I actually stand in awe of Dr. Pickles and what 
she went through. As the Impact Aid situation worsened about 
four years ago, this Subcommittee rescued the program, and 
specifically district 187. We were looking at scenarios in 
which we would have to close down schools in north Chicago and 
send, bus the students to schools in surrounding school 
districts, which would have made no sense, because we had a 
perfectly functioning good school infrastructure there.
    But the structure of education funding did not allow us to 
meet the needs of the students. In our 187 school district, 
several others were approaching over 30 percent of the students 
coming from military housing. So this program is essential for 
our very survival, and will become increasingly essential. As 
Great Lakes expands its impact on all of the surrounding school 
districts will grow.
    I have a detailed statement, which with your permission----
    Mr. Regula. All the statements will be part of the record.
    Mr. Kirk. I would just like to underscore a couple of key 
points. The military family that we know, I just left the fleet 
last year, so for me, I'm coming straight out of that 
environment. My last tour was in Operation Northern Watch. For 
us, we have seen, Charlie Muscow is a great academician at 
Northwestern University, who studies the cultural divide 
emerging between the active duty military and the civilian 
world, it's really expanding. And we see that in the kids.
    For us, we are expecting that about 50 percent of the 
recruits coming into today's military are from military 
families. So the children of the men and women who protect us 
today will be the people who protect our children tomorrow. 
With all of this concern about military pay, health care, 
housing and benefits, I would suggest we add one key component. 
And that is Impact Aid for military education.
    I made this point very forcefully with Secretary Rumsfeld, 
who is actually also the Congressman from our district. He 
represented our district in the 1960s. And with Secretary 
Paige, who made a very forceful statement in favor of Impact 
Aid before the House Budget Committee. That's the key point 
that I want to make, that these young leaders in these impacted 
schools will most likely be the military personnel of the 
future. That point needs to be made to support this program.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Does Great Lakes impact on a number of school 
districts?
    Mr. Kirk. It does. For us it's North Chicago, Waukegan, 
Highland Park, Glen View, Lake Forest.
    Mr. Regula. And they all get a piece of the Impact Aid, 
then?
    Mr. Kirk. They do, but let me hand it over to Patricia. She 
has one of the, probably the most heavily impacted districts in 
the country.
    Ms. Pickles. Most of the students do attend North Chicago 
Public Schools, district 187, 35 percent of our student 
population----
    Mr. Regula. Thirty-five percent of your student population 
is military?
    Ms. Pickles. Thirty-five percent.
    Mr. Regula. So Impact Aid is an important part of your 
budget?
    Ms. Pickles. Very important part. Over 72 percent of our 
student population qualifies for free and reduced meals. With 
that 35 percent, more than 200 of those students are identified 
as needing special needs, so they need special education, which 
is an additional burden in terms of cost. And as the 
Congressman stated, almost 10 years ago, our district almost 
dissolved because we didn't have the funds to support them due 
to the Federal presence.
    So we dearly need Impact Aid.
    Mr. Regula. All right, thank you. I know it's a tough 
situation, you heard Ms. Kelly.
    Mr. Kirk. As you all know, Chairman Porter spent a lot of 
time on this. It was no accident. And for us, I would expect 
that the size of the military under this Administration will 
grow. It's already growing in my district, so it's under those 
concerns that we look forward to supporting your legislation 
and supporting the program.
    Mr. Regula. Thank you.
    Mr. Kirk. Thank you.
    Mr. Cunningham. Mr. Chairman, could I ask one real quick 
question on it? San Diego does have a lot of military, as well 
as important in Impact Aid. You alluded to, as far as the 
special education, we have a hospital called Balboa there. Many 
times, military families seek orders that are close to those 
hospitals, because of their children and special education. Is 
that one of the reasons that military families are drawn there, 
because of the medical facility?
    Mr. Kirk. Yes, we are not only home to the Great Lakes 
Naval Hospital, we're also home to the North Chicago VA Medical 
Center, which, if you look at the morbidity and mortality 
statistics among DOD and military related health care 
facilities, is one of the best in the country. The taxpayers 
spent about $110 million there to bring that facility up to the 
state of the art. And that is an enormous attractive factor.
    What we've seen now, and it's just like, I just got off 
Dakani so I know the attractiveness of San Diego. But 
similarly, in northern Illinois, people like to, when they 
leave the service, remain with us. And it's because of those 
services.
    Mr. Cunningham. I know my sister-in-law just testified 
before the committees in charge of special education in San 
Diego City. I think it would be good to do a study on the 
relationship of military families, special education and Impact 
Aid, how it really affects the entire community.
    Mr. Kirk. Right.
    Mr. Cunningham. Because the original intent is to make sure 
that it didn't, with Native Americans or the military, and it 
does. So it's an area in which I think all of us, Republicans 
and Democrats, support. I don't see why we can't help. I don't 
know if we can help as much with budget, but I think we could 
do that.
    I was sworn in at Glen View Naval Air Station and I coached 
football at Insdale. So I'm very familiar with the area.
    Mr. Kirk. Gosh. Well, Mr. Chairman, as you know, since the 
military most likely will be growing, this program is one of 
the pieces of glue that allowed the community to welcome the 
military family and expansion in our districts. If expansion of 
Great Lakes means bankrupting the local school districts, we've 
got a problem on our hands.
    So thank you.
    Mr. Regula. Thank you. Mr. Sherwood, any questions?
    Mr. Sherwood. No, thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            HEALTH PROJECTS


                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Next is Mrs. Woolsey from California. Any park 
issues today?
    Mrs. Woolsey. No park issues today, no, but there will be 
in the future, I can assure you.
    Mr. Regula. I'm quite sure.
    Mrs. Woolsey. Speaking of Impact Aid, that affects Park 
Service personnel also.
    Mr. Regula. True.
    Mrs. Woolsey. Thank you, Mr. Regula, for hearing me again, 
and thank you, members of the Committee, for giving me the 
opportunity to talk about five excellent education and health 
projects in my Congressional district.
    Some of you, well, you, Mr. Regula, Mr. Chairman, you heard 
my constituent, Dr. Sushma Taylor testify last week about 
Center Point, a non-profit comprehensive drug and alcohol 
treatment center. Center Point is one of a very few full 
service drug and alcohol treatment centers that provides 
comprehensive social, educational, vocational, medical, 
psychological, housing and rehab service.
    Mr. Regula. Do they take patients from all over the country 
or just in California?
    Mrs. Woolsey. Mainly in California, but I'm sure that they 
do tradeoffs with other areas in the country.
    Mr. Regula. But is it a private non-profit?
    Mrs. Woolsey. Private non-profit.
    Mr. Regula. Thank you.
    Mrs. Woolsey. But there's local funding, Federal funding, 
State funding involved. That's why again, I'm supporting their 
request for $1.8 million to purchase and equip an additional 
rehab center, and $1.5 million for their successful adolescent 
residential treatment program.
    Next, I'm very proud that I represent the only public four 
year university, Sonoma State University, serving the large six 
county region north of the San Francisco Bay. On behalf of 
Sonoma State University, I'm asking for $1 million for lab 
equipment for their masters program in computer and engineering 
sciences. I'm also requesting for them $1 million for their 
lifelong learning institute, which offers programs specifically 
tailored to the interests and needs of the North Bay senior 
population.
    The third request I have is an exciting new program in my 
district for Dominican University, a private university that 
serves minorities, women in great proportions and has one of 
the best diversities of any private institution that I know of 
in at least the North Bay, but probably in many parts of the 
country.
    What they have is, they're trying to develop a training and 
lifelong learning center to address the current shortage of 
math and science teachers, and to meet the need for health 
professionals in the Bay region and around the Nation. We don't 
have a number for their request at this moment, they came in with a 
huge number that would have wiped out all the rest of my requests, so 
we're asking them to come back with something else, and I'll provide 
that when I write my requests to you.
    Mr. Regula. If you have multiple requests, it would be 
helpful if you sort of prioritize them, because obviously we're 
not going to have enough funding to do everything everybody 
would like.
    Mrs. Woolsey. And Mr. Chairman----
    Mr. Regula. So if we had your priorities, it would be 
helpful.
    Mrs. Woolsey. I appreciate that, and I am willing to do 
that. I also know that what we ask for we don't always get all 
of, but I sort of feel that if we get our nose under the tent 
and you see how well these programs work, then the next year we 
can build on that.
    One of the programs that we've had experience with in that 
regard is Yosemite National Institute, an institute that 
conducts institutionally rigorous hands-on environmental 
science programs in my district and elsewhere. One of 
Yosemite's highest priorities is to make these programs 
available to low income minority communities, those who 
traditionally have little access to quality, science-based 
education programs.
    That's why I support their request, Mr. Chairman, for $1 
million to develop more outreach programs for this population.
    I'm also requesting, and behind me I have a whole group of 
people who came and met with me this morning, and I was already 
prepared to come here and they asked could they come with me, 
so they're back there. I'm requesting $2 million for the Sonoma 
County Health Care Information Network. It's a network that 
integrates local health information in order to improve the 
quality of local health care.
    Mr. Chairman, the Sixth District of California is a leader 
in meeting the health and education needs of the 21st century, 
and that's because I've been able to work with them and to get 
the support from our Federal Government and from your Committee 
to give them the help they need to be successful. So I thank 
you very much, and I thank the Subcommittee.
    I look forward to working with you. I will prioritize these 
requests.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I know that you did get some help 
last year.
    Mrs. Woolsey. I did. You've been good. And I appreciate 
your work.
    Mr. Regula. We'll see. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

          NATIONAL CENTER FOR SOCIAL WORK RESEARCH WITHIN NIH


                                WITNESS

HON. ASA HUTCHINSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS
    Mr. Regula. Okay, Mr. Hutchinson from the great State of 
Arkansas. You're interested in the National Center for Social 
Work Research with NIH.
    Mr. Hutchinson. That's correct, Mr. Chairman, and thank you 
for this opportunity to present the case for this. This is 
legislation I'm sponsoring with Congressman Rodriquez. It would 
create the national center for social work research within----
    Mr. Regula. So it's a new regulation you would hope to get?
    Mr. Hutchinson. That's correct, it's new authorization. 
Even though the authorization has not yet passed, I wanted to 
alert you to the fact that we have introduced this legislation, 
we'll be asking for support for funding it. And this is within 
the National Institutes of Health, but they do some social work 
research, but it's not organized toward a national center. 
Presently, there is limited funding available through NIH, but 
this would emphasize the importance and urgency of research on 
social problems from child abuse to juvenile violence. It would 
give researchers more guidance, it would change the hard data 
into effective policy recommendations.
    Funding appropriated to a national center for social work 
research would be used for grants to universities and other 
non-profit organizations to support ongoing research, national 
coordination and dissemination efforts and to cooperate with 
legislators of Government, every level.
    I think a national center is needed to address some very 
important issues. As a father of four and new grandfather, I am 
concerned about the next generation. And some questions that 
could be asked, why does our system not work better to prevent 
violence in our schools? Why has there been a increase in child 
abuse today over 50 years ago? Is there a reason for the 
occurrences of child abuse being on the rise? Are there 
societal pressures on parents that didn't exist even 10 years 
ago?
    What can we do to help these families? I don't have the 
answers to those questions. And I think that that is the reason 
this is needed, and I daresay with great respect for this panel 
that you might not have the answers to all of those questions.
    So social workers are the professionals who can give us 
insight into those areas. I was struck by a recent Rand health 
study on youth violence, which stated that ``to devise better 
programs, researchers need more information.'' Our Nation's 
young people are increasingly affected by violence, both as to 
its perpetrators and its victims. Many violence prevention 
programs aim to reverse this trend but few of them have been 
properly evaluated and even fewer have been shown to work.
    We need to learn what causes young people to become 
violent. Such information could provide the tools for 
legislators to make better policy decisions and aid parents, 
teachers and counselors in providing better care for these 
young people.
    Just this month, there's been two school shootings that 
we're all aware of in California, which has reminded us of the 
many dangers of ignoring children's needs. The alarming 
sequence of school shootings from Jonesboro, Arkansas, to 
Paducah, Kentucky, to Littleton, Colorado and scores of others 
cry out for a response. We find ourselves searching for answers 
that do not come easily, and we have to research the solutions, 
analyze them for our families, our community schools and 
interaction between the peers.
    To do that most effectively, they've got to have an 
understanding of the factors that lead to these tragedies, 
information social workers are compiling right now. But today's 
resources are limited. Policy makers lack the information that 
is needed, information that the social workers have. And the 
national center will provide this critical link.
    I can think of no one better qualified or in a better 
situation to evaluate this great need than the social workers 
who work with these children on a daily basis. It makes sense 
to put them to work on these public policy decisions. Social 
workers are problem solvers. They work to solve problems 
dealing with people's counseling needs, health care needs, 
treatment of mental and emotional disorders. So they are 
uniquely qualified to do research into this particular area.
    As the Subcommittee considers the fiscal year 2002 Labor 
and Education Appropriations Act, I respectfully request and 
encourage you to consider funding for a national center for 
social work research, ideally to be funded at our authorization 
level that's requested, but whatever that you believe fits 
within your budget, the highest level possible, I think it 
would be well deserving.
    Let me conclude with this. I'm a conservative, and 
sometimes conservatives don't jump into the social work arena. 
But whenever you look at the President's initiative on using 
faith based organizations, when you look at the arena of child 
abuse, when you look at juvenile violent crime, whenever you 
look at our investment in cancer research and things that are 
causing people to die, is it not incumbent upon us as 
conservatives to say, we ought to invest in research in the 
very societal problems that lead us this direction, and that 
give us this heartache in society.
    So I don't think we should neglect this area of community, 
of family, of what we can do as policy makers. And this would 
coordinate it, rather than just being out there all over the 
globe, we need to put it in a focused fashion in the National 
Institutes of Health, tell them to elevate this to a higher 
priority, because we need some help in solving these problems.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. And your bill does that, I assume?
    Mr. Hutchinson. That's exactly what the bill does.
    Mr. Regula. Questions? Mr. Cunningham.
    Mr. Cunningham. Asa, my wife drug me to an event this 
weekend. Remember Peter Yarrow? Peter Yarrow is a good friend 
of David Obey as well, Peter, Paul and Mary. Maybe you remember 
that name.
    Mr. Hutchinson. That I remember. [Laughter.]
    Mr. Cunningham. He was, I thought, well, this guy is a left 
wing anti-military guy and I didn't want to go. But I'll tell 
you what, he's got a program called Don't Laugh at Me for 
children, and it is fantastic. I think he's a fantastic 
individual. I've got the tape and the things, I'll let you look 
to it. It may be something that we can get a copy for you. But 
it talks about the very things you're doing. I was 100 percent 
sold, once I saw the program.
    Mr. Hutchinson. Good. And you're a wise man to go where 
your wife leads you. [Laughter.]
    Mr. Regula. Thank you. As I assume, you want to pull 
information that's being developed in many disparate sources 
into once center, so there's a focus of it, which then would be 
able to communicate this out to the public?
    Mr. Hutchinson. Absolutely. To coordinate what is going on 
out there, to beef it up, to analyze it a little bit more,to 
get the information to the people who are making the decisions, 
to give us more hard data as the Rand study indicated.
    Again, cancer research would be a good example of that, 
women's health issues, you know, once you coordinate it, it 
gets more focused and directed. We need to do this in the 
social work arena.
    Mr. Regula. Have you presented your bill to the authorizers 
yet?
    Mr. Hutchinson. Oh, absolutely. And Congressman Fred Upton 
is, I believe, going to put a package together or children's 
health bill, or a public health bill.
    Mr. Regula. This is the Education and Work Force Committee, 
then?
    Mr. Hutchinson. Correct. So this would be a component, I 
believe, of what they will do----
    Mr. Regula. Oh, part of the Commerce Committee, Energy and 
Commerce.
    Mr. Hutchinson. Yes. But we have worked with them and I'm 
very hopeful that this will move forward.
    Mr. Regula. Okay, well, thanks for coming this morning.
    Mr. Hutchinson. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                     VARIOUS PROGRAMS AND PROJECTS


                                WITNESS

HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Baca, various programs and projects, from 
California. Welcome.
    Mr. Baca. Thank you very much, Mr. Chairman, for granting 
me an opportunity to discuss the importance of education and 
social issues and needs of the 42nd Congressional district.
    As you are aware, and my colleagues, I am deeply honored to 
testify before you. I believe that this Subcommittee handles 
some of the most important issues facing our Nation, and 
especially my district. I have submitted a more detailed 
written statement of my actual requests.
    Mr. Regula. It will be made a part of the record, 
obviously.
    Mr. Baca. Thank you.
    Education is a top priority for my district, for myself, 
and has been since I served in the legislature in California 
and continues to be here. I share with you in my belief that 
every student should have an opportunity that he or she should 
be whatever they want to be. As the President indicated, that 
no child should be left behind, that means having good quality 
education, encouraging students to stay in school, to go to 
college, to graduate from school. Many of the appropriations 
requests I am submitting for reading instruction, mentoring, 
teaching training, are designed to address these goals, 
including student retention, crucial issues in my district.
    Health issues is one important priority in my district. 
I've submitted to the Subcommittee venues in Congress seeking 
for funding for drug and alcohol treatment for youth age 12 to 
17. Sometimes we forget that a lot of our youth in that area 
are not receiving the funding especially as it pertains to 
drugs and alcohol. It's important we put our top priority into 
supporting individuals. I've supported this legislation in the 
State legislature. I hope that we can support that kind of 
legislation to really address teenage drinking and alcohol, 
especially as it pertains to a lot of us and the effects it has 
in our schools, especially what's going on, too, as we look at 
what's going on.
    Expanding the Healthy Family programs in California to 
include indigent adults, supporting health care for seniors and 
children, fighting against breast cancer, license plate funding 
program, supporting prostate cancer, diabetes research and 
treatments are also important priorities, which require Federal 
funds which I am requesting this year. Specifically, I am also 
requesting funding for San Bernardino Community College 
district, in my district, we're multi-campus, providing KVCR 
television station owned by the district for $21 million for 
digital conversion and expansion of operations, studio space, 
for $35 million to $42 million for moving the KVCR facility to 
a more desirable location.
    Last year you granted me $1.7 million to obtain for distant 
learning. This is very important, especially as we see 
community colleges right now. Most of our students are going to 
community colleges, they can't into four year institutions. And 
KVCR, through its digital program, is doing a lot more of the 
outreach and providing educational services. We need to make 
sure they continue to provide an opportunity, especially as we 
look at students right now that are trying to get into our four 
year institutions and can't get in to our State colleges and 
universities. This is an avenue that can be done through KVCR 
telecommunications in providing not only classes that they can 
take and outreach, but also assuring that we provide the 
facilities. I think this is very important for our area as 
well.
    I'm also requesting $500,000 for Fontana Unified School 
District for subsequently retrofitting an ADA improvement to 
the civic auditorium, a facility that is utilized by hundreds 
and thousands of students in the City of Fontana, purchased a 
building in 1985, this is high priority funding and 
retrofitting which I think is very important for us. While also 
the capacity to the city, it has capacity only of 1,000 but we 
need to continue to improve and provide subsequent retrofitting 
for that area.
    I'm also requesting $3 million for the City of Ranch 
Cucamonga, which I share along with Dreier and Miller that were 
surrounded in that area to design and construct a new senior 
citizen center that provides 25 to 30 square feet. The city is 
providing matching funds of $2 million for land and ongoing 
maintenance and operation cost.
    For the City of San Bernardino, I'm requesting $1.5 million 
for the city to support job training for the city on one stop 
career center. This request is strongly supported by the civic 
and business groups in my district, along with Congressman 
Lewis.
    Mr. Chair, I have many other projects that I've outlined 
specifically, the California University at San Bernardino, San 
Bernardino County Superintendent of Instruction Schools, San 
Bernardino County Unified School District, the University of 
California at Riverside, with an incubator that's important to 
our area, as we look at providing jobs and getting 
universities. It's the only university in that area that is 
supported not only by myself, Ken Calvert, Mary Bono, Miller 
and also Congressman Lewis support the project for funding in 
that area, even though it's not in my district, but it's the 
only university within that area, and I think it's our 
responsibility to provide assistance to them.
    These are but a few of the many projects that I have 
submitted requests for you. You have specific details on the 
others, Mr. Chairman. I thank you for giving me the opportunity 
to come before you. I know it is a long list and a wish list of 
many areas. But I believe it's important that I represent my 
district, submit those requests and whatever possible can be 
funded, I would appreciate very much if the Committee would be 
able to look at some of the important projects to improve the 
quality of life, education and health in our area.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Questions?
    Thank you for coming. You do have a substantial list.
    Mr. Baca. Thank you, Mr. Chair. I look forward to your 
continued support, and I'm not shy. [Laughter.]
                              ----------                              

                                           Tuesday, March 27, 2001.

                    CLOSE UP FOUNDATION AND PROJECTS


                                WITNESS

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Regula. Mr. Payne, New Jersey.
    I'm sorry, Don, I got you out of order here.
    Mr. Payne. Well, I may not get an extra program, then. 
[Laughter.]
    Mr. Regula. Pretty high price you're asking.
    Mr. Payne. Thank you. It's certainly a pleasure to be here, 
Chairman Regula. Let me just start by saying that our city of 
Newark, New Jersey is really on the rebound, it's coming back. 
We had a civil disorder in 1967 that really is the dividing 
point as we look at history in Newark. And because of support 
that we've gotten from your Committee, we've been going in the 
right direction over the last decade.
    Mr. Regula. Are you getting a new airport there, or a lot 
of pretty major----
    Mr. Payne. Yes, pretty major, the road construction funding 
has just made it, actually, it's the third largest airport now, 
it's overtaken Kennedy and JFK, I mean, JFK and the other New 
York air, LaGuardia.
    Mr. Regula. Is it a hub at this point for any of the 
airlines?
    Mr. Payne. Yes, Continental, which has gained a lot of 
strength and health now, and is doing an excellent job to 
overseas, South America.
    Mr. Regula. We left out of there for the----
    Mr. Payne. That's right, it's a great place. So anyone 
who's traveling, at least come through Newark. We have a little 
city tax on it, you know.
    But it's great to be here. I'll be brief. We have some 
health projects, the Emergency Medical Services demonstration 
project, the Children's Health Care Services and Outreach 
Center, and Babyland Family Services. What the coordinated 
Emergency Medical Services demonstration project is, it's a 
project to bring together transportation and emergency services 
in older cities. This is a very vital need. So we have, we're 
asking for $5 million to help with this demonstration project. 
Of course, the details are in the packets.
    The second one is the Newark Children's Health Care Service 
and Outreach Center. It's to positively impact on the health of 
Newark's children through the development of a coordinated 
health care system that will allow the city to bring health 
care services to the community. Through the centralization of 
services, we believe that we can increase access to an array of 
health and social service needs to Newark's citizens. We ask 
for $2.5 million for that.
    And thirdly, the Babyland Family Services is a major non-
profit child and family service organization, providing 
comprehensive child care and family development services to 
1,500 at-risk children and their families annually. Babyland is 
seeking additional funding to establish the technological 
linkages to nurture the educational development of almost 700 
children, provide computer training for 2000 parents, teachers 
and entry level professionals. We're asking $2 million there.
    Just quickly, at the UMDMJ, we have a series of programs 
that we're asking. One is elimination of health disparity, and 
they have a very well focused program. We're asking for $5 
million over a five year period. There is also a cancer 
institute center, the Dean and Betty Gallow Prostate Cancer 
Center. Dean Gallow is a former member of this Subcommittee, 
unfortunately passed away from prostate cancer. His widow, 
Betty Gallow, has been carrying the work on that Dean started. 
So we're asking for $10 million to assist in that project, 
which has become extremely successful.
    I'll conclude there, but there is one national program that 
I am making a request for, Mr. Chairman, it's the Close Up 
Foundation, civic education fellowship program. As you know, 
the Close Up Foundation is a civic educational program that 
brings students from around the country to our Nation's capital 
to study about government. It's been around for quite a while.
    As you know, we need all the help we can get in civic 
education and responsibility. We see what's happening at our 
high schools and elementary schools in our country. As a former 
teacher and coach, I didn't coach in the Army, but I coached in 
high school, we really see the need for these kinds of 
programs, bringing youngsters to our Nation's capital, 
stressing civic education, which I think is missing in a lot of 
our school systems.
    So with that, we'll submit our full text and I appreciate, 
like I said before, the previous support and look for continued 
support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Questions?
    Mr. Cunningham. Don, the Close Up Program, that's not the 
one that recently had controversy with Reverend Jackson, is it?
    Mr. Payne. No, not to my knowledge, no. It's really a 
program that has a lot of support from business, but we do need 
to have our Federal support. But to my knowledge, this is not 
that program.
    Mr. Cunningham. Okay, thank you, Don.
    Mr. Payne. Thank you very much.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. ROBERT SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF VIRGINIA
    Mr. Regula. Mr. Scott, from the great State of Virginia.
    Mr. Scott. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to speak with you 
today.
    To save time, Mr. Chairman, you have the testimony and I 
want to just speak very briefly on two projects, the Massey 
Cancer Center at the Medical College of Virginia, and the 
Achievable Dream Program in Newport News, Virginia.
    The Massey Cancer Center, Mr. Chairman, is a building, a 
$26 million project. We're requesting $2.8 million from 
appropriations. The board of directors will be raising $10 
million to $15 million.
    Mr. Regula. Is this a private non-profit?
    Mr. Scott. I'm sorry?
    Mr. Regula. Is it a private, non-profit school?
    Mr. Scott. The Medical College of Virginia is a State 
college. It's part of the Virginia Commonwealth University.
    Mr. Regula. Right.
    Mr. Scott. It's a $26 million program. The board of 
directors will be raising $10 million to $15 million, and we 
have received previous requests of $1.2 million, and we hope to 
receive the remaining $2.8 million to complete the project. The 
center is one of 59 national cancer institute programs, and 
it's an excellent program, Mr. Chairman, and I would hope that 
staff will read the details on it, and it's one that we're very 
much interested in. They have an outreach program going into 
the rural areas where they've had a significant impact on 
incidence of cancer and success in treating cancer from the 
Medical College of Virginia, going out into rural areas.
    The Achievable Dream Program is an education program 
consisting of teaching at-risk students at an elementary and 
middle school. Basically they have as kind of a hook, you come 
in and play tennis in the afternoon during the summer, 
education in the morning, then they go into the full year-round 
session. It's basically an inner city school. They have extra 
curricular and character building activities.
    They have shown that the program works. Their test scores 
are at or above the city average, and we have some areas where 
there are very high income students, very low income students. 
These low income students are at or above, in some cases way 
above, the city average. They receive significant support from 
the community, an average of about $1,800 per student. We're 
asking for $1.5 million from funds for the improvement of 
education so that we can start an early childhood center for 
three to four year olds. The earlier you start, the much better 
you can do.
    This is a very successful program, and we hope we can have 
your continued support.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Questions? Mr. Cunningham.
    Mr. Cunningham. Bobby, we have a teaching hospital in San 
Diego for medicine, and it's just about to fold. With the HMOs, 
California is a leader in HMOs, yes, we do need HMO reform. But 
are you having those similar problems with the teaching 
hospitals and the training of doctors? A, the number that are 
requesting medical school has gone down, secondly, that they're 
having trouble funding it.
    Mr. Scott. A significant portion of the patient load is 
Medicaid, Medicare. So the reduced reimbursements are squeezing 
all of the hospitals, particularly the teaching hospitals, 
because they're open to everybody. So anybody that comes in, 
they're going to deal with. It's a major strain.
    Mr. Cunningham. I think across the Nation we're having 
trouble, and we're going to have trouble having good doctors, I 
think, in the future, unless we attend to it.
    Thank you.
    Mr. Scott. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                  CLEVELAND BOTANICAL GARDEN (PROJECT)


                                WITNESS

HON. STEPHANIE TUBBS-JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mr. Regula. Next, from the great, great State of Ohio, 
Stephanie Tubbs-Jones. Stephanie, you're going to speak on 
behalf of the Cleveland Botanical Garden.
    Ms. Tubbs-Jones. That's correct. If you'll allow me to 
stray for just a moment, I want to bring you greetings from my 
predecessor, the Honorable Congressman Louis Stokes.
    Mr. Regula. He was here in person last week.
    Ms. Tubbs-Jones. Oh, really? Did he tell you about us 
naming a post office after his mom, and how great it was? Well, 
doggone it, I'll have to tell him he preempted me.
    Mr. Regula. About everything I see in Cleveland has been 
named after him. We're running out of streets.
    Ms. Tubbs-Jones. I think so. [Laughter.]
    I'm just trying to hold my name out there. I can't get the 
streets and the buildings, but I'm doing okay.
    Mr. Chairman, thank you very, very much for the opportunity 
to present this morning. I'm here on behalf of the Cleveland 
Botanical Gardens. This is our fiscal year 2002 request, to 
secure $1 million in Federal funds to enable the Cleveland 
Botanical Garden to develop interactive ecological exhibits and 
educational materials for students from kindergarten through 
12th grade and their families.
    You have all this information in your packet. I thinklast 
year when I presented, you had the opportunity to taste right from 
downtown salsa, which is a salsa that is produced by the students who 
grow tomatoes at this facility and surrounding facilities. What the 
botanical gardens has attempted to do is let young people in 
Cleveland's school districts and surrounding school districts have an 
understanding of ecology, an understanding of preserving the 
environment.
    So in this next step, we've already begun the funding of a 
glass house, but what the next step will allow us to build, two 
ecological systems, one like that exists in Costa Rica, where 
you have high ground properties, where people will be able to 
come through and interact with the activities, similar to 
probably some of the rainforest and other areas. But the other 
areas have focused on the lowlands, and we're going to focus in 
on the highlands.
    I could be very detailed in my presentation, but I know you 
don't want me to be, so I will not. But I come here to say that 
this is a project that's very important to my Congressional 
district, but also important to the region and the area and the 
State of Ohio. I appreciate all the support that you gave me 
last year, and in my second term as now a sophomore member of 
Congress, no longer a freshwoman, I'm here to say I need your 
help again, and any additional information that I can supply 
you, I'll be glad to do so, and I thank you for the opportunity 
to be heard.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think I got a note that they're doing long 
distance learning from there.
    Ms. Tubbs-Jones. That's correct. In fact, the director of 
the program would be here, but he's in Costa Rica, because 
we're doing exchange programs with children from Ohio and 
children from Costa Rica. It's a pretty exciting opportunity 
and a collaboration between Case Western Reserve University, 
the Botanical Gardens and the University of Costa Rica.
    Mr. Regula. Questions?
    You got some support for this last year, I believe.
    Ms. Tubbs-Jones. Yes, sir, and if I didn't say it, I 
thought I did, thank you for last year's support, and I'm back 
again. Anything else you can give me, I'd appreciate it.
    Mr. Regula. I'm not surprised. [Laughter.]
                              ----------                              

                                           Tuesday, March 27, 2001.

               LUPUS RESEARCH AND CAREGIVERS AND PROJECTS


                                WITNESS

HON. CARRIE P. MEEK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Regula. Our next guest is Carrie Meek from Florida. 
Carrie, we're glad to have you, an also a member of our Full 
Committee.
    Mrs. Meek. Thank you, Chairman Regula, and all my friends 
on this Committee. I'm pleased to be here today.
    It's regarding a program in which I'm very, very interested 
and very concerned. I want to testify this morning on my 
highest funding priorities for fiscal year 2002. I understand 
you have a very awesome responsibility and you don't have the 
resources that you really need to meet some of these 
responsibilities. But we'll have to do the best we can.
    There are some issues that I'm interested in, and I know 
the time is limited, so I want to submit the rest of my 
testimony for the record.
    Mr. Regula. Without objection.
    Mrs. Meek. My number one priority, Mr. Chairman, is 
increased funding for lupus. Each of you is aware of this 
disease, we've been before your subcommittee for many years. 
And thank God, it was authorized last year, through Chairman 
Bilirakis' committee. It was a very long fight. It is something 
that I come before this Subcommittee to ask you, now that it's 
authorized, will you please fund it to the point that we can 
stop the killing and the maiming of this disease of young 
women?
    I'd like to request $30 million for the Centers for Disease 
Control to fund a grant program authorized under Title V, 
Subtitle B of Public Law 106-505. It's the Public Health 
Improvement Act of 2000, for treatment and support services for 
lupus patients and their families. This is a little bit 
different from the rest of the things you've been doing for us. 
Through the years, you have each year provided some funding for 
lupus. Now we're asking you to provide funding to support the 
lupus patients, in that they have a very, very hard time with 
their physical bodies being naturally undermined by this 
disease.
    I also request $25 million in additional research funding 
over and above the enacted 2001 level on the Title V, to enable 
the National Institutes of Arthritis, Musculoskeletal, and Skin 
Diseases, you call it NIAMS, to conduct expanded research to 
understand the causes and to find a cure for lupus. First of 
all, there is no cure for lupus. The treatment for lupus many 
times is just as harmful to the patient as is the lupus itself.
    The third thing is, if you continue the research, sooner or 
later you will get to the cause and a cure for this disease.
    Now, it's very important to me that we find a cure for 
lupus, and find a cure for the suffering that people go 
through. My sister died of lupus, a lot of young women die of 
lupus in their child bearing years. I've been urging the Congress to 
direct NIAMS and NIH to mount an all-out campaign against lupus.
    Now, rest assured that this is not to say that they have 
not been working hard on this. Except that they need more 
resources to do the support service, they need more 
researchers, more resources to do the research as well.
    Now, this is a killer. It's an autoimmune disease and it 
kills more people than HIV-AIDS and most of the other 
autoimmune diseases. It's really significant for women to focus 
on this disease, because about 1.4 million Americans have some 
form of lupus, and most of them are women. Many of these 
victims, if you've ever seen anyone or talked to anyone with 
lupus, the pain is very debilitating. The women aren't even 
able to hold their own children.
    Suffice it to say, Mr. Chairman and members of the 
Committee, I'm asking for $30 million for the Centers for 
Disease Control to fund a grant program which will support 
lupus patients. I'm requesting $25 million in additional 
research funding. That's going to NIAMS, which is a part of the 
National Institutes of Health. These groups have done an 
outstanding job, and if anyone can beat this diseases, it's 
those two.
    The most discouraging thing is that the family members 
suffer so from this particular disease.
    My second priority, Mr. Chairman, is a demonstration 
project to develop and test HIV-AIDS prevention, a media 
campaign. We brought it before the Committee last year, they 
thought it was a good idea, but they didn't fund it. What we'd 
like to do is a demonstration project to develop and test on 
HIV-AIDS. We know that the media program has worked with 
cigarettes. It has worked with HIV. But I'm requesting this 
now, and you know the drug program has worked. Every time you 
see one of those very well thought out drug programs regarding 
children, you will see that it's very, very effective.
    I'm requesting $10 million for the Centers for Disease 
Control and Prevention to develop and implement a grass roots 
minority HIV-AIDS prevention media campaign. That would be 
modeled after the $185 million the Congress spent on anti-drug 
media programs for the National Office of Drug Control. Funding 
for it would be used to develop and test the effectiveness of 
the HIV-AIDS prevention media campaign in 20 United States 
counties with the greatest number of minority HIV infections.
    I won't prolong that. Each of you is aware of the 
propensity of HIV-AIDS to kill and to maim the population.
    Third, Mr. Chairman and members, $15 million to fund the 
Higher Education Demonstration Projects, which will ensure 
equal opportunities for individuals with learning disabilities. 
Now, you all have heard of learning disabilities in youngsters 
from K-12. And a lot is done for them. Very little is done for 
youngsters who get out of high school and go to college and 
have learning disabilities.
    And to say that means that they need support as well as the 
younger persons do. It's one that shows you that you'd be 
surprised that a number of youngsters who go to college with 
learning disabilities, they don't read very well, most of them 
are very bright students. But they have these learning 
disabilities, and the teachers are not really capable of being 
able to understand how to teach these young people, nor do they 
understand what these learning disabilities are.
    So I'm urging the Committee to include $15 million to fund 
the grant program currently authorized. We were able to get 
this program authorized about two years ago here in the 
Congress through the Labor HHS Committee, and we were able to 
get it funded at $5 million for the entire country. But think 
of all the students who are enrolled in institutions of higher 
education who need these services and cannot get them.
    So as I understand it, each year a million dollars has been 
placed in that program to take care of some of the needs. I'm 
sure you realize that $1 million more each year certainly would 
not put that program where it should be.
    What this does, it identifies college students with 
learning disabilities and develops effective techniques for 
teaching these students. I think it's very fair that we think 
of the fact that we are really developing our students, and 
just because they have a learning disability doesn't mean that 
they're not bright. I think if you note, Einstein was learning 
disabled. That just gives you one example of the kind of 
student you're dealing with with learning disabilities. They're 
very bright students.
    University professors have found the research that has 
developed as a result of this program has been very helpful, 
helping them to teach students in higher education.
    My next one, Mr. Chairman, I listed them all for the 
Committee to look at, increased funding for community health 
centers. I support an increase in funding for the consolidated 
health centers program by at least $175 million for fiscal year 
2002 in order to provide an inexpensive way to get high 
quality, affordable primary health care to under-served 
communities.
    Now, just take my State of Florida. There are 2.5 million 
people who have no regular source of primary care. Most of 
these people are in urban inner city areas like my home 
community in Miami, and in isolated rural areas. They do need 
better health care. And of course, the community health care 
centers is one that can provide that kind of help to people.
    The last one has to do with please increase funding for 
graduate medical education for pediatric hospitals to $285 
million, the fully authorized level. You say, well, Carrie, 
that's really asking for a lot. You made a good start in your 
funding for pediatric graduate medical education the last time. 
But this is one of the areas of health care which has been 
overlooked for a very long time. We should take the next step 
by moving as quickly as possible toward funding at the fully 
authorized level.
    And I want to thank the Chairman and the members of the 
Committee for your patience in listening to the list of things 
I've brought before you. I'm sure that you will look at them in 
such a way as will meet the needs of the people of this 
country. I think of all the things we deal with here in the 
Congress, health is one of our most important ones, and I thank 
the Committee for having me appear before you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Questions? Thank you, Carrie. Did you get that building 
down there that we had a couple of years ago and name it after 
the President, the college?
    Mrs. Meek. No, you wanted to name it after me, that's why 
they didn't build it, I think.
    Mr. Regula. Did they build it?
    Mrs. Meek. Yes, they did.
    Mr. Regula. They didn't name it after you, though?
    Mrs. Meek. No, they did not.
    Mr. Regula. Well, we'll have to----
    Mrs. Meek. We'll have to take the money back, Mr. Regula. 
[Laughter.]
    Mr. Regula. Has it been named yet?
    Mrs. Meek. No, not yet.
    Mr. Regula. Maybe we can address that problem.
    Mrs. Meek. All right, thank you so much.
                              ----------                              

                                           Tuesday, March 27, 2001.

           MEDICARE AND HEALTH CARE FINANCING ADMINISTRATION


                                WITNESS

HON. PETE STARK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Stark from California.
    Mr. Stark. Thank you, Mr. Chairman. Do you have any 
leftover buildings in the 13th Congressional District in 
Northern California? Maybe Duke and I could work something out.
    Mr. Regula. No money.
    Mr. Stark. No money, okay. [Laughter.]
    Well, if I were just to build the sign that goes over the 
door, could I contribute that?
    Thank you for giving me the opportunity to address you this 
morning, Mr. Chairman, members. I hope you'll take my complete 
statement for the record, and just let me summarize it for you.
    As the Chair recalls, for 10 years, I guess, I chaired the 
health subcommittee of the Ways and Means Committee. It has 
since been chaired both by Mr. Chairman Thomas and now Mrs. 
Johnson. I believe we are all in accord on this, and we have 
all had our disagreements with HCFA. Under the 10 years that I 
chaired the Committee HCFA was under Republican, under a 
Republican Administration, it's been under a Democratic 
Administration when Mr. Thomas was there. The reports have been 
late, we've had complaints from doctors and hospitals, you've 
all had complaints in your Congressional districts.
    But the truth is, in all of that time, we have been able to 
say, as we speak to people across the country, that they're 
operating the Medicare operation a couple of hundred billion 
dollars a year with a 2 percent overhead. There's not an 
insurance company in the world, Blue Cross and Kaiser maybe 
come to 12 percent, that could operate on 2 percent. And some 
of the more expensive insurance companies that are doing the 
same thing, 14, 18 percent. And it's these same insurance 
companies, Blue Cross, that do a preponderance of the work 
under the supervision of HCFA for distributing these payments.
    Think about this. Today, Medicare beneficiaries will make a 
million physician visits. This is not just hospitals. This is 
going to the doctor. A million visits. And Medicare will 
process more than 3 million claims today and spend a billion 
bucks. That's what we're doing every day. And we're doing this 
on their share of the budget, about $2.2 billion for program 
management.
    The graph will show, Mr. Chairman, that this is in real 
dollars, the dotted line down here, and it's only in the past 
year that we've gotten up to 1993 expenditures.
    Now, what's wrong? Their computer system doesn't work. They 
haven't gotten up to the full time employee level that they 
were 10 years ago. We have been starving them. And since 1996, 
we gave 700 new legislative provisions for them to administer. 
Now, you can say we're cockeyed for doing that. My point is 
that we all do that. This is a Congressional mandate, and it's 
been under both parties and under both Administrations.
    The money, although you get scored for it, comes out of the 
trust fund. So those of us who want to protect the trust fund 
realize, but let me just tell you this. That it was in 1996 
that we came out with this, or we didn't come out, we got this 
14 percent of what we were spending. Again, let's say it's $2 
billion a year. Twenty-eight billion of that was spent 
incorrectly. Now, some of the incorrect payments were fraud and 
abuse, and some were just mistakes, just filled out the form 
wrong, paid the check wrong, whatever we did. We were throwing 
away, if you will, in the 20s of billions of year.
    They have cut that, because of legislative provisions we 
mandated, to 6.8 percent. They have cut that in half. So they 
have saved $12 billion in six years by addressing the fraud 
provisions which we forced on them.
    Now, what I'm telling you, they're doing this, and they're 
still only spending $2 billion a year for administration, and 
the results of what they're doing have saved us $12 billion. So 
I'm just here saying, could we double their budget over a 
period of years and get them up to say, 4 percent of benefit 
spending. I don't know how much a new computer system is going 
to cost. It's in the dark ages. But you and I know that the 
phone company can find everybody, and our credit card people, 
Visa and Master Charge are more efficient than HCFA, and 
they're spending more to collect money from us.
    So that's my plea. I'll be glad to try and answer any 
questions. This is one of our better managed bureaucracies.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Has mechanization helped, the computers and 
record keeping?
    Mr. Stark. Of course. And they're behind the curve. There's 
no question that mistakes were made, I'm trying to think of how 
many years ago it was, Mr. Chairman, they decided to do eight 
different computer programs around the country, because they 
felt they had to give eight different people a chance to bid on 
the work. How do you have eight different systems?
    Mr. Regula. Do they still have more than one system?
    Mr. Stark. They have more than one. Because historically, 
when Medicare came into being, it was, the billing part of it 
was turned over mostly to Blue Cross people around the country. 
So every are has a different billing system. Because they have 
a different person, we actually contract out the majority of 
the work to people called intermediaries. We've got to change 
that. This is the 21st century.
    Mr. Regula. Are you saying change the contracting out, or 
changing the coordination?
    Mr. Stark. Changing the coordination, changing the method. 
There's a whole lot of modernization. But they've got to have 
the equipment and the personnel to do it.
    And I have great faith in Governor Thompson, a good 
administrator in my natal State of Wisconsin. But we've had 
good administrators right along. It's one of the biggest 
bureaucracies, as you know.
    Mr. Regula. It's a Herculean task.
    Mr. Stark. It is. And we can't starve them at the same time 
we're forcing more work down on them. As I say, I don't think 
we can find either a budgetary fight or a partisan fight on 
this issue. I know we don't get scored for the savings out of 
the fraud and abuse as opposed to directly. But it's there, and 
as I say, these are----
    Mr. Regula. Do the intermediaries pick up fraud?
    Mr. Stark. They will trigger investigations, because 
they're the ones who can understand patterns. But each 
intermediary, the problem is, has a different way of judging. 
In other words, certain screening tests, that would call for 
surgery or certain screening tests that would call for more 
clinical tests could differ. One area of the country might pay 
for bone marrow and another might not. Don't ask me why. This 
is just the historical way they have done this.
    So there's a lot we can accomplish. But for us to begin to 
proceed more rapidly, which we should do, is going to take 
people and--the sheer volume, the complexity of all the 
different medical procedures. And one of these days, we're 
probably going to get into pharmaceuticals, and that's just 
going to add another whole bunch of words and numbers and 
procedures that you and I wouldn't be able to spell or 
understand, but we would end up paying for.
    Mr. Regula. That's an enormous challenge.
    Mr. Stark. Yes. If you could find, as you push these 
numbers around, some there, I think that you will find the 
Republican Administration, the Democratic minority will move to 
help in any way we can.
    Mr. Regula. Pretty much a bipartisan issue.
    Mr. Stark. I believe so, Mr. Chairman. I certainly don't--
all I can tell you is that in the past years, the current chair 
and the now chair of the full Committee have supported efforts 
to see that HCFA gets better funding.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. I talked with Governor Thompson about this 
problem the other night. It's very real and we have to address 
it. We find that all over the Government, that our computer 
systems are not anywhere near up to date with the work we're 
trying to accomplish. And it costs us money in unusual ways, 
because of that.
    Mr. Stark. If the gentleman would yield, and this is the 
poster child of the type of operation that can save from 
computerization, because of the huge volume of small claims and 
forms that have to be filled out. As I say, we're all excited 
that Governor Thompson can do a good job over there, but I 
think we've got to give him the resources.
    Mr. Sherwood. I agree.
    Mr. Stark. I thank the gentleman for his concern.
    Mr. Regula. Thank you.
    Mr. Stark. I thank you for the opportunity to present the 
case here today, and I hope you can find a few dollars to help 
out this group.
    Thank you very much, Mr. Chairman.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

              CONGREGATE AND HOME-DELIVERED-MEALS PROGRAM


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Regula. Mr. Boehner.
    Mr. Boehner. I'll yield to my colleague who's in the middle 
of a hearing.
    Mr. Regula. Oh, all right, Mr. Shays, congregate and home 
delivered meals program.
    Mr. Shays. Thank you. He yielded on the agreement I'd be 30 
seconds. I thank him very much.
    Mr. Chairman, just to make you aware of the fact that our 
congregate meal and our home delivered meals has been somewhat 
static, and there hasn't been a sense of--
    Mr. Regula. Static in reimbursement, static in numbers?
    Mr. Shays. Funding, except in terms of adding a little bit 
to the congregate last year. But the bottom line is, I'm asking 
if you would restore $43 million to put $43 million into the 
congregate meal program to bring it to a total of $421 million, 
which would bring it to the funding level of 1995.
    The only point I want to make to you is that there have 
been unused funds in the congregate meal that have been unused 
by agencies, and they have built up a level of spending now so 
those unused funds from past years have been used up, and 
you're going to start to see around the country some 
significant deficits. Just an alert to you that you may need to 
take a look at it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Don't we get a lot of volunteers involved in 
this operation?
    Mr. Shays. Yes, it's great. You get a lot of volunteers, 
but this pays for the meals. You get a lot of volunteers who 
come to the congregate sites, a lot of volunteers who do the 
home delivered meals. It's a cost effective program.
    Mr. Regula. Do they get reimbursed mileage, because they 
drive their automobiles?
    Mr. Shays. I'm not even sure of that, sir. We just had a 
challenge in our district because what we found is they had 
built up to levels using past funds. They built up their 
spending level above the annual appropriations that exist. So 
the States made up the difference in Connecticut. But I suspect 
you may be having a problem around the country that will start 
to surface as people use past funds for present operations.
    Mr. Regula. Well, and of course, more seniors, too.
    Mr. Sherwood?
    Mr. Sherwood. No questions.
    Mr. Regula. Well, thanks.
    Mr. Shays. Thank you, and I thank my colleague for 
yielding.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. JOHN A. BOEHNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Regula. Mr. Boehner.
    Mr. Boehner. Hello, Mr. Chairman. I'm glad to be here this 
morning.
    Mr. Regula. What will you be doing to our budget over there 
in your committee?
    Mr. Boehner. We'll be working very closely with you. Good 
morning and thanks for the opportunity to be here. Let me say 
hello to my friend and the newest member of your Committee, Mr. 
Sherwood. It's nice to see that you're here.
    And I appreciate the job that you all have in terms of 
trying to decide how to allocate the biggest chunk of the 
Appropriations Committee. It is a difficult choice. I'm here 
today as chairman of the Education and Work Force Committee to 
really outline our priorities. I think the President has done a 
good job in his proposal on education, which is embodied in a 
bill that we introduced last week, H.R. 1. And the effort there 
is to close the achievement gap that exists between 
disadvantaged students and their peers, and to work with States 
to improve the schools to be the best in the world.
    I could talk about the President's education proposal, but 
you all understand it fairly clearly. More flexibility in terms 
of consolidating programs, in allowing schools to have more 
flexibility over how to use those resources in their schools.
    Secondly, actually doing a better job of targeting the 
money to the schools who need it the most. And thirdly, putting 
into place a new reading program that is absolutely essential. 
Because if children can't read, they're not going to learn.
    We know that the early childhood reading program, and the 
President's proposal, will do a lot to improve reading scores, 
and we think, learning.
    Now, money is not the only issue here. We've spent $130 
billion since 1965 on well intentioned, well meaning education 
programs. The fact is, we've gotten almost no results for the 
money we've invested. And what we need is a system of 
accountability and rededication of the Federal Government's 
commitment to helping those students who would otherwise fall 
through the cracks.
    Let me point out three issues that I think are most 
important on the education side. They're outlined in the 
authorization levels in our bill, H.R. 1, which is in effect 
the President's proposal. A $461 million increase in Title I, 
$320 million for the President's State assessment initiative 
for grades 3 through 8 in reading and math and thirdly, $975 
million for the President's reading first and early reading 
program.
    When you look at what we're attempting to do over there in 
terms of providing for more accountability and more 
flexibility, we believe that, and targeting, targeting the 
money to these children who most need it, these three programs 
that we've outlined here are the core of making this work.
    I'd also ask that you find the resources to increase 
funding for IDEA. This Committee has done a marvelous job the 
last five years in increasing IDEA funding. The President's 
calling for increased funds, and I know that every member of 
Congress listens to what I listen to when I go home from every 
one of my school districts. And that's that IDEA needs more 
money.
    You should be aware that part of the President's request 
for his reading program and the early childhood reading program 
will in effect help with IDEA issues in local districts. That's 
because there are an awful lot of students that end up in IDEA 
because they can't read. To the extent we can solve this 
reading problem or address this reading problem, both the early 
childhood reading and the K-3 reading program, I think we'll 
take a big step in helping these school districts with their 
IDEA money issues.
    Secondly, in this area, the President has also asked for a 
billion dollar increase in Pell Grants. We all understand the 
need to continue the effort to increase the Pell Grants, to 
help those children, again, at the bottom of the economic 
ladder, who without that effort would never be able to attend 
post secondary education programs. And I think that again, 
you're getting a lot of requests, but I think we all understand 
the importance of the Pell Grant program.
    Let me switch gears and talk about the other side of my 
committee, and that would be the labor side. I support the 
President's plan to level fund the Department of Labor, 
especially in our enforcement areas. In the past, the DOL has 
had the habit of administering the Nation's labor and 
employment laws beyond what I believe the scope of what 
Congress intended. And I think taxpayers savings will arise 
from effectively protecting workers by properly enforcing 
important labor and employment laws.
    I would ask that you support the efforts of the Department 
of Labor's inspector general to better protect workers benefit 
funds and reduce waste, fraud and abuse that continues to exist 
there.
    So I thank you for the opportunity to be here and look 
forward to answering any questions that you might have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. One of the components of the President's 
program is testing.
    Mr. Boehner. Correct.
    Mr. Regula. Do you anticipate that the Federal Government 
will fund these tests, even though the States develop them?
    Mr. Boehner. What the President proposed is that we, the 
Federal Government, assist the States in developing their 
tests. Under his proposal and under H.R. 1, the States will 
determine what tests to use in their States.
    Mr. Regula. I understand that.
    Mr. Boehner. But the actual implementation of it is left to 
the States. Now, this bill is going through committee here in 
the next month or month and a half. Whether we get into funds 
for the actual implementation of the test is yet to unclear. 
But Mr. Chairman, I think you understand that in virtually 
every school district in America, there's testing that goes on 
every year.
    Mr. Regula. Oh, yes.
    Mr. Boehner. And under the President's proposal, some 
States are already testing in every grade, reading and math. 
Others may be doing other tests. But frankly, I'm not so sure 
that when it's all said and done there's any additional testing 
that's going to result from the President's proposal. I believe 
that the requirement that we'll have in our bill, that we have 
annual assessments in reading and math in grades three through 
eight may in fact replace some other testing that's already 
being done.
    Mr. Regula. Staff just advised me, apparently the budget 
resolution withholds a $1.25 billion from this Committee, 
unless we appropriate a commensurate increase for special ed. 
Well, obviously that's going to squeeze what we have to do some 
of these other things that are embodied in your bill.
    Mr. Boehner. Sounds like a big issue between the 
Appropriations Committee and the Budget Committee.
    Mr. Regula. I've noticed that there's some discussion of 
that. You're going to be involved, too, because you're going to 
bring to us through authorization programs that cost money.
    Mr. Boehner. I'm confident that when the budget resolution 
gets through the House and the Senate and we come to 
conference, that all of these issues will be ironed out to our 
satisfaction, as they always are.
    Mr. Regula. That there will be adequate funding.
    Mr. Boehner. I'm convinced that there will be adequate 
funding. Even though the President has called for an overall 
increase in discretionary funding of about 4 percent, it is 
going to put pressure on all of you to make serious decisions 
about what needs to be funded.
    Mr. Regula. True. Very true.
    Mr. Boehner. But I think it's obvious from all the national 
polling that we see that education is the number one issue in 
the country. The President called for it during his campaign. 
He has devoted serious time to this over the last several 
months.
    And as we get the bill through our Committee and the Floor, 
and the Senate does theirs, I do expect that we will have a 
bill signed into law prior to your bill, your appropriations 
bill, being on the Floor. I would expect that Mr. Miller and I, 
the Ranking Democrat on the Committee, we expect to work 
closely with you as we move through this process.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Mr. Chairman, I have great faith in your 
ability to work those things out.
    Mr. Boehner. So do I.
    Mr. Sherwood. But the assessment issue I think is so 
important. Because parents and students deserve to know where 
they stand in relation to other schools. I think our education 
establishment has tried to push that on the back burner, 
because they don't want the comparison and they worry about 
teaching towards the test and those sorts of things.
    Well, I think our college board tests and so forth have 
told us that if the test is well designed, there are tests that 
work. I like the President's proposal to bring assessment 
forward, testing forward.
    Mr. Boehner. Well, Mr. Sherwood, as a former school board 
member, you understand better than most, well, the Chairman's a 
former member of the education establishment, I might add, but 
the annual assessments really are important, because there's a 
big secret out there. The big secret is that about half of our 
kids just are not learning.
    Now, we've lost a generation of students in our country. We 
can keep looking the other way, and act like it doesn't exist. 
We can continue to allow the disease of low expectations to 
continue. But the people that get hurt the most are the people 
at the low end of the economic ladder in our country, the most 
disadvantaged of our children are the ones who are trapped and 
who will never succeed without an education.
    And although we've done all types of well intentioned 
programs out of here, the fact is that we need to start asking 
for results. And one of the issues that, and Mr. Miller and I 
are in much more agreement than most of you would ever guess 
about the direction of this bill, because the money needs to 
get to those students who most need it.
    Those schools in inner city neighborhoods and rural 
communities, they've got bigger problems. They need the extra 
funds in order to ensure that those kids get a decent 
education. But without the testing, without the bright light of 
truth being shone on what's happening in some of our buildings, 
I don't think we'll ever get there. Because there's a certain 
amount that we can do in terms of the Federal Government.
    But when you put the bright light on what's happening in 
these schools, it will energize communities, businesses, 
parents to get out of their easy chairs, get away from their TV 
and find out what in the world is happening in our schools. 
That is just as important as the change in direction that we're 
going to be proposing the next couple of months.
    Mr. Sherwood. Expectations are the key.
    Mr. Regula. Accountability.
    Mr. Boehner. That's it. We'll have plenty of time to talk 
about it as the year goes on.
    Mr. Regula. I think we'll hear from you in the future.
    Mr. Boehner. Thank you.
                              ----------                              

                                           Tuesday, March 27, 2001.

                        HEALTH RESEARCH PROGRAMS


                                WITNESS

HON. CHRIS SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula. Mr. Smith, Chris, health research programs.
    Mr. Smith. Thank you very much.
    Mr. Chairman and members of the Committee, thank you for 
this opportunity to appear before the Committee. I would ask 
that my full statement be made a part of the record, Mr. 
Chairman.
    Thank you. Let me just say on last Congress, I formed, 
along with Congressman Ed Markey a caucus that now comprises 
131 members and continues to grow in the area of Alzheimer's 
research. As all of us know, and many of us have had family 
members who have suffered the devastating impact of that 
disease, as we all know, it's not terminal, but it devastates 
not only the patient but also the family and especially the 
primary caregiver, who often, it turns out to be, is the 
spouse, raising serious questions about respite care.
    But the bottom line is that right now, there are about 4 
million people who have Alzheimer's and many more thousands, 
tens of thousands, who are in the process of developing this 
devastating disease. It's estimated by the year 2050, 14 
million people, today's baby boomers, will have Alzheimer's 
disease in those who are moving into that age category. So it's 
a ballooning epidemic, that if we don't marry up the necessary 
resources in research and trying to get to the cause and 
hopefully to solve it, to reverse it in those who have it and 
prevent it in those who do not have it, we're talking about a 
major----
    Mr. Regula. Chris, I'm curious. Is this prevalent in other 
countries in somewhat the same degree that we have it?
    Mr. Smith. It's a very good question. Increasingly, it's 
recognized that Alzheimer's is a disease of aging. So where you 
have an aging population, and many of our developing countries, 
people simply don't make it into their 60s or 70s. It's 
estimated that anyone who's 85 or older, one out of every two, 
are in some part, one degree or another into Alzheimer's 
disease. So it is a function, to some extent, of our aging.
    Mr. Regula. It has parameters of degrees of severity, I 
assume, from what you are saying.
    Mr. Smith. Yes, there are. It's a progressive disease that 
gets progressively worse as the dementia and the plaques and 
everything else in the brain form.
    Mr. Regula. Then in turn have impact on the physical well 
being of the individual, is that correct?
    Mr. Smith. That's correct. It may not lead to, like we see 
with some diseases, a breakdown where the kidneys don't 
function. It doesn't do that. But it leads to an overall 
deterioration of the patient. They're not as viable. They 
certainly are not interacting.
    But primarily, if they exist and get worse and worse and 
worse, they very often just sit in a chair and do very little. 
They don't recognize family members. And the impact on the 
family members, because I've known so many of them, sometimes 
it's much harder for them, for a husband or wife to go spend 
time with their family member and they don't even recognize 
them.
    So we're asking on behalf of our coalition, of our caucus, 
for a $200 million increase to really declare war on this. 
There have been a number of very promising studies that have 
been done. They're all in one stage or another, and it seems to 
me that this is something we can lick if we again have enough 
resources.
    The second, if I could, because I know we--it's not a vote. 
The second is in the area of autism. I've been involved in the 
autism issue since elected to Congress 21 years ago. On and 
off, I always thought CDC-NIH were doing what they could do, 
inquiries that I would make over the years, particularly in the 
1980s, suggested that yes, we're doing what we can.
    Three years ago, in one of my major cities, Brick Township, 
we discovered that there may be a cluster of autistic children. 
There seemed to be an elevated number, perhaps as much as 
double what the national average was expected to be, which is 
one out of every 500 children.
    We asked CDC to come in, we asked other people from ATSDR 
to come in and do a study. They did. They found out that indeed 
there was a four per thousand, a doubling of instances of 
autistic children in that area. From my contacts since and 
during that process, I have been astonished as to what we don't 
know about autism and how we have almost been frozen in time 
over the last 20 years doing very little to mitigate this 
disease.
    We don't know what causes it, we don't even know what the 
prevalence of this terrible disease is, the reporting that goes 
on in State after State is passive. Most States don't have a 
clue.
    To remedy that, last year I introduced legislation that 
became Title I in Mike Bilirakis' bill of the Centers of 
Excellence to get at the prevalence issue, but also to begin 
looking at what can we do, what triggers autism. We all know 
families who have had autistic children who are into their 
second and going into their third year, all of a sudden, bingo, 
their child can't communicate. And this developmental disorder, 
for whatever the trigger is, becomes very compulsive and again, 
they start down a course of expenses and tragedy, even though 
they love their children desperately, it is a heartbreak like 
few heartbreaks one can experience.
    We're asking for a very modest $5 million to try to, in 
addition to what's already been allocated, to try to, it would 
be for the Center for Birth Defects and Development 
Disabilities at CDC. We've scoped it out, we think it's a good 
idea. We ask you to take a look at it. More needs to be done 
without a doubt. New Jersey has taken the lead. We don't know 
why there seems to be an elevated number in New Jersey. If 
there is one. There may be no cluster. There may be a problem 
that is going on everywhere else, it's just been below the 
radar screen.
    And I would hope that you could take a look at this as 
well.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. No questions, Mr. Chairman.
    Mr. Regula. Well, I'm sure, Chris, both of these require 
attention. I think NIH is working on them, and as you know, 
there's been a commitment to double their budget over a five 
year period. And I assume the groups contact them, because they 
do allocate resources at NIH. We don't try to dictate just 
where they should do their work.
    Mr. Smith. I do understand that, and I think they have 
realized maybe belatedly, because they have such a full plate, 
just that this has been underfunded in the past and this is a 
problem overseas as well. In Poland, for example, I've been 
working with a group that's, they don't know how to deal with 
it. Some of our people, Johnson and Johnson has been active in 
this. There seems to be a gross under-reporting of these cases 
as well over there. I'm sure as we get into the surveillance 
and the prevalence issue, we're going to find that there's so 
much more that we don't know. The numbers are higher, and I say 
that as a tragedy.
    Just one final point. We have formed a caucus, Mike Doyle 
and I formed it this year, we have 101 members, and that's 
growing as well, to deal with the issue of autism. I know 
you'll be very sympathetic, and I look forward to working with 
you.
    Mr. Regula. Thank you for coming.
    Mr. Smith. Thank you, Mr. Chairman, Mr. Sherwood.
    Mr. Regula. We'll recess until 2:00 o'clock this afternoon.
    [Recess.]
                              ----------                              


                           Afternoon Session

    Mr. Regula. Well, Wes, you are number one.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                 WITNESS

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Watkins. First, let me say congratulations, Mr. 
Chairman to you, after many years of serving in the Interior. 
Well, you are still in the Interior, but you are just not the 
Chair over there. I appreciate the opportunity, and I 
appreciate all your work over all the years on the various 
committees, and especially Interior, and now as Chair of the 
Subcommittee on Labor and HHS.
    Mr. Chairman, you know, you have probably heard me over the 
years talk about our needs in the rural and economically 
depressed areas of the southeast Oklahoma quadrant. I have 21 
counties in my district, and all of them are rural, and also 
the Tulsa area, which is doing well economically, and the big 
Oklahoma City metropolitan area. I have got a nick that goes in 
between, and then all of the southeast part.
    Mr. Regula. They do not have any oil, do they?
    Mr. Watkins. They have very little on the far west side. 
That touches very little of my overall district.
    But one thing that has not touched us is the fact that we 
have been left behind economically speaking, with all the 
manufacturing. I do not have a Fortune 500 company in my 
district. I have got some timber in one area that is 
warehoused, but I do not have big, huge manufacturing.
    I am a product of out-migration. When I was growing up, my 
family had to leave three times to go to California and search 
for jobs. That is what made the burning imprint on my life 
about going into public life, in order to try to build the 
economy and build jobs. As I have told people before, I am not 
in politics as an end, but politics as a vehicle.
    We are trying to change that. We have done some good, and 
we have still got a long way to go. The per capita income in my 
district is about 60 percent of the national average; not the 
top, but it is about 60 percent of the out-migration.
    Like I said, we have been doing some good. We have had to 
do a lot of things on our economic infrastructure. One of the 
things also that has happened to us is we have been passed by 
the high technology, the information technology, in that rural 
area of the state of Oklahoma. The big cities, again, are doing 
well.
    What I am trying to do, I am working with Career Tech. 
Career Tech is the state vocational technical education system 
all across the state of Oklahoma. I am working with them trying 
to work through the hub and provide the high tech potential in 
that area. We call it REVTECH.
    Last year, the committee provided $921,000. I am asking 
this year, Mr. Chairman, and I hope you will be able to help 
us, for about $1.25 million to help work with the State 
Department of Career Tech. That would allow us, in a lot of 
those different areas, to be able to provide the necessary 
wiring, the technology, et cetera, to be able to attract more 
people.
    For instance, I work with an industry that is up around 
Tulsa, but not in my district. They said they could hire 500 
more people if they could find trained people. Well, I have got 
500 people, but they are scattered throughout my area, if I can 
get them all together.
    So that is the one request that we have up at the top of 
the list. The other is the fact that for many years, I have 
worked on international trade. The reason for my commitment and 
dedication to international trade is the fact for every $1 
billion of increase in trade, you actually produce about 20,000 
jobs. So it makes a lot of sense.
    Mr. Chairman, I know your background is in rural areas, and 
some of it is in agriculture. I think, if I recall, you were 
out on the farm there.
    We are not going to save rural America just with 
agriculture alone. I say that with two degrees in agriculture. 
I love agriculture. But we have got to have off-farm jobs some 
way to be able to survive or to be able to re-build our small 
communities.
    We are working also on the international trade aspect of it 
at Oklahoma State University, our land grant university there. 
This committee helped last year with $320,000. I am asking, if 
you could, give us $750,000, or as close to that as you 
possibly can.
    The other thing that you worked with me on last year on the 
committee was Fragile X, and I am just asking for language as 
to the help on working with that. That is one of the things 
that has come along, that has dealt with the retarded. They 
have made some very scientific breakthroughs, and I have got 
some language in there for that.
    The other request, and I have had several others, but this 
other one is the one new one. It is the Seminole Junior 
College, or Seminole College. They have got dormitories, but 
there is some renovation that needs to take place there, if 
they are going to be able to continue to use them. I am trying 
to figure out how we can get that done.
    I have said to community there that I would do my best to 
try to help them with some renovation some way, if we possibly 
could. So that would be a big help to that community.
    Mr. Regula. Is that BIA operated?
    Mr. Watkins. No, it is not, but there are a large number of 
Native Americans there. In fact, Mr. Chairman, and you probably 
know this from your work with the Interior, Oklahoma has got 
the highest percentage of Native Americans of any state in the 
nation. In fact, close to 22 percent are in Oklahoma.
    Mr. Regula. Okay, we will look at them.
    Mr. Watkins. If you could help me, sir, I would appreciate 
it very, very much. This is a committee that I felt like there 
are some things there that maybe you could help us. I really 
would appreciate it.
    Mr. Regula. It will depend a lot on what we have available 
to work with.
    Mr. Watkins. Being on the Budget Committee, I am trying to 
do my best to let you have as much as we possibly can.
    Mr. Regula. We look forward to that, Wes.
    Mr. Watkins. We will keep pushing for it.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Ms. Mink, I see you have various programs, too.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. PATSY T. MINK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII
    Mrs. Mink. I brought a very modest list. [Laughter.]
    Thank you, Mr. Chairman. I do not know how long my voice is 
going to last, so may I just ask unanimous consent that my 
testimony be inserted in the record.
    Mr. Regula. Yes, all the testimony will be included in the 
record.
    Mrs. Mink. I also brought with me a letter which 85 members 
have signed with respect to the ovarian cancer research. I 
believe you are familiar with my annual trek to this committee, 
urging that more funds be committed to this research.
    Mr. Regula. That would be through the NIH.
    Mrs. Mink. Yes, that is correct. I remember when I started 
this campaign for funding for research in this area, that the 
NIH was only spending $7 million. Today, it is up around $70 
million, but we need a lot more.
    It is a very tragic situation where the situation of our 
research has not come to a point where an early detection test 
has been found. I believe they are close to it, but until we 
can find a satisfactory detection for ovarian cancer, we are 
going to continue to lose many, many thousands of young women. 
A lot of the women who come down with this are in their mid-to-
late 30s. It is very, very tragic.
    About 23,000 women are diagnosed each year. Most of them 
are in their late stages, where they cannot be saved. So the 
mortality every year is about 14,000, which is the highest in 
the reproductive illnesses.
    So I think it really takes a determined effort on the part 
of this committee to recognize the enormous situation that 
women are in today.
    There are no symptoms for ovarian cancer, usually, that the 
doctors can detect by physical examination or by pain or other 
kinds of things. So unless we have a test, it is not going to 
be possible to save these lives. So the research is really 
very, very critical.
    My bill that I have circulated in the House with about 115 
co-sponsors asks for a $150 million commitment. I hope that 
this committee will find the necessary funds to make that 
possible.
    The other institute which I feel needs to have real 
attention is the National Eye Institute. We are not aware of 
how many people in America suffer from eye diseases. We need to 
spend more money on research, money to determine why these 
illnesses occur, and what can be done to alleviate this 
condition.
    Some of it has to do with diabetes and other kinds of 
related illnesses. But the NEI, which is a separate institute, 
the National Eye Institute, is currently funded at $510 
million. This year, I am hoping that you will be ableto go up 
to $604 million for this institute.
    Last year, we had put in a bill asking for the funding to 
be doubled in at least five years, and we are marching steadily 
ahead. So I hope that the progress that we have gained in the 
last several years will not be stayed in any way, and that we 
will continue.
    The last item is one that relates to education funding. We 
are really absolutely transfixed on the fact that our young 
people are killing each other in our schools for almost no 
understandable reason. A lot of them are from middle class 
neighborhoods, coming from well stationed families, without any 
clear evidences of problems in their homes.
    The Speaker, Mr. Hastert, established a task force last 
year on school violence. I was fortunate enough to serve on 
that. Most of us had various approaches to it. But the one 
thing that we agreed on was the necessity for having additional 
staff put into our schools, particularly in the intermediate 
years.
    We do not want to call them counsellors, because they 
already have categories for those people. We do not want to 
call them social workers or whatever. So we came up with the 
title, school-based resource staff.
    The schools could then pick whatever kind of personnel they 
felt suited for their particular school situation. But what we 
want to do is to get a ratio of one of these resource staff 
people per every 250 students.
    That is still a high ratio, but we think that is a starting 
point. In order to get there, Mr. Chairman, we have a target of 
100,000 additional school-based personnel. I hope you will come 
up with the funding necessary to support it.
    Mr. Regula. Would you contemplate 100 percent of that being 
Federally financed?
    Mrs. Mink. Yes, 100 percent; it is like 100,000 teachers, 
to phase them in. But the target is 250 to one ratio, 
ultimately.
    Some schools already have that. So they would not be 
getting into this particular fund. But for those school 
districts that do not have these extra personnel to take care 
of handling the students, this is not the chore of the 
curriculum-type person or the vice principal, who has to do 
administrative work, or worry about discipline and those kinds 
of things.
    This is a school personnel individual that is there solely 
and exclusively to deal with the students, so they can go to 
someone with their problems; or if they hear something about 
someone making some outrageous statements or threats, they can 
go to this individual, without the fear of peer pressure and so 
forth. They can go to this individual and tell us staff person 
what they heard, and let the staff person decide to what level 
that should be taken.
    We think that this is a position that the Federal 
Government can take very, very easily. Our task force that the 
Speaker appointed unanimously agreed that this is a step that 
must be taken.
    So I thank you very much for your consideration.
    Mr. Regula. Thank you for coming, Patsy.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Next is Billy Tauzin from the great state of 
Louisiana. Boy, you are just getting warmed up down there on 
your celebrating, are you not?
    Mr. Tauzin. Lent time is a time for rest.
    Mr. Regula. So you are resting now, is that it? [Laughter.]
    Mr. Tauzin. We are paying for our sins.
    Mr. Regula. Well, you need more than 40 days.
    Mr. Tauzin. Actually, 40 is a good start.
                              ----------                              

                                           Tuesday, March 27, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. BILLY TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Tauzin. Mr. Chairman, thanks for having me. I bring to 
you today a young friend of mine who has been before the 
committee for three years now. His name is Keith Andrus. He is 
a ninth grade student, and he happens to be the son of my 
office manager, Rachel Andrus. She and her husband, Ron, are 
here with me. He is also afflicted with Friedreich's Ataxia. 
Now Friedreich's Ataxia and Usher Syndrome are very rare 
disorders which occur in rural medically under-served Cajun 
populations at a rate of 2.5 times the national average. It is 
genetically, apparently, connected and, as a result, the Cajun 
population in my state have severe incidents of this particular 
disorder.
    It is rare. It is degenerative. It severely diminishes the 
physical abilities, and ends up confining patients to 
wheelchairs by their late teens.
    The quality of life is heavily comprised and, sadly, 
because of heart problems, life expectancy is shortened to 37 
years. Currently, Mr. Chairman, there is no treatment and no 
cure. Keith stands as an example of courage, in the face of 
that kind of a statement: no treatment, no cures.
    By the way, there are many people across America who face 
this disorder. There is a young family in Ohio, in Struthers, 
Ohio. They are a very closely knit family with a mom and dad 
and three kids. One of the twin boys has Friedreich's Ataxia. 
That is in your own home state, just asan example.
    But across America, families like them watch their children 
grow up knowing that so far, there is no treatment and no cure.
    We are trying to do something about that. I am pleased to 
tell you that your subcommittee established at home in 
Louisiana the Center for Acadiana Genetics and Hereditary 
Health Care. It was established through a health care outreach 
grant. It is administered through the Health Resources and 
Services Administration.
    For three years, you have helped fund this center. By the 
way, it is heavily supported at home. Over 50 percent of its 
support comes from state and voluntary contributions. We are 
asking your support for the $1.5 million of Federal funding to 
keep the center open.
    Mr. Regula. It was $921,000 last year?
    Mr. Tauzin. Right, and the center, Mr. Chairman, links the 
School of Medicine, the Biomedical Center, the hospitals, the 
rural clinics, and a strong telecommunications network to 
provide urgently needed health services, information, and 
education regarding these kinds of genetic diseases.
    By the way, this is, of course, not the only disease that 
is genetically connected. Through the work of the center, in 
connection with other genetic research done around the country, 
we are learning and discovering much more about Usher Syndrome 
and diseases like diabetes, cancer, heart disease, Alzheimer's, 
Parkinson's and other psychiatric disorders.
    But here is this kid and his hope, literally, lies with 
you. Will we find a cure; will we find a treatment in time?
    Mr. Regula. Well, we have done a lot with genetics.
    Mr. Tauzin. We are doing an awful lot.
    The work that your committee has done is supported at NIH. 
We, at Energy Commerce, have jurisdiction over at NIH. I want 
to thank you from the bottom of my heart for the commitment 
that you have made to NIH.
    Mr. Regula. You did the authorizing in your committee.
    Mr. Tauzin. So we are connected here, Mr. Chairman. We will 
continue to be connected in this vital effort.
    But the bottom line is that we can not stop this kind of an 
effort. This kind of an effort may lead to a day when I can 
bring Keith here and say, guess what, we have found a cure; we 
have found a treatment in time for him and in time for others 
like him, and families like him.
    Mr. Regula. It seems to me that the potential lies in the 
genetic research that they are doing today.
    Mr. Tauzin. In fact, at one of the hearings, Mr. Chairman, 
we heard that work being done in a completely different area 
yielded some very exciting information that may, in fact, touch 
upon Friedreich's Ataxia one day.
    The neat thing about the work being done in all these 
different areas is that with the human genome completed, we are 
going to be able to tie some of that work together and discover 
how one has application on the other.
    My plea to you today is not for a large sum. I am not 
asking for half a billion dollars or hundreds of millions of 
dollars, just $1.5 million to keep literally hope alive for 
this young man and others like him.
    I lay it again at your feet and ask you humbly to take it 
seriously, and to keep this thing alive for him.
    Mr. Regula. Well, we have a lot of challenges on this 
committee, as you can fully understand. A lot of what we can do 
is dependent on funding. We are doing some wonderful things in 
research, and we hope that this will be one of them.
    Mr. Tauzin. Oh, I have no doubt that it is. Keith will tell 
you that he has no doubt. With the advances we are finding, he 
has no doubt that we are going to find it in time. His family 
has no doubt. I just want to commend him for his personal 
courage, and for his family's courage.
    Mr. Regula. Does he go to school here in Washington?
    Mr. Tauzin. He is here in school.
    Go ahead and say hello, Keith. What school do you go to?
    Mr. Andrus. Woodson High School
    Mr. Regula. Is it in D.C.?
    Mr. Andrus. In Virginia.
    Mr. Regula. In Virginia; that is Fairfax County, probably.
    Mr. Tauzin. Keith is already having great difficulty 
walking. As a result, he can not carry hot liquids or liquids, 
because of health reasons. Every year that Keith has come, the 
committee has been able to see how the disease is wrecking his 
frame and hurting his chances for a good healthy, long life.
    Mr. Regula. Keith, we will make every effort to help the 
NIH find a cure. Thanks for coming.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Thank you all.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Yes, Mr. Stupak, you are just in time.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman, Nancy; thanks for 
giving me the call and saying, come on over in a hurry. I was 
just down the hall, and I made it. [Laughter.]
    We have a number of requests for the committee's 
consideration, today, Mr. Chairman. First, let me start with 
Operation Uplink. This involves technological assistance to the 
Upper Peninsula of Michigan. What we are looking for is $2.5 
million to fund an initiative to comprehensively design and 
advance an information-based infrastructure in the Upper 
Peninsula.
    What we are really saying is this. Northern Michigan 
University, Michigan Technological University, Bay de Noc 
Community College, Marquette General Regional Hospital, our 
regional libraries, economic development, and local government 
would like to get linked up. In doing that, we want to look at 
certain factors which are unique to the Upper Peninsula.
    If we could get a well-designed telecommunications 
infrastructure, we would have the opportunity to level the 
playing field between rural areas, like my district, and the 
urban areas.
    Mr. Regula. Would this require fiberoptics, or what type of 
link are you contemplating?
    Mr. Stupak. With the technology clusters that we are 
talking about, and this last mile of connections that theyare 
talking about, it would be better than the fiberoptics. We have some 
fiberoptics around Marquette and the rest of the Upper Peninsula. We 
are talking about high speed Internet, broad band access, things like 
this.
    In my district, even with this great economy that had been 
going for the last few years, the Upper Peninsula still had 5.8 
percent unemployment. In Michigan Tech, where part of this is, 
it is around 10 to 12 unemployment.
    What we are saying is, in order to compete and to really 
get our future going, we really would like to have this UP 
uplink program going.
    If you take a look at it, Mr. Chairman, it is not much 
different than what we did. I have introduced legislation in 
the past to bring electricity, to bring telephones, to bring 
those services to rural America.
    This is one region of the country that is geographically 
unique. We have always had a problem with high unemployment, at 
5.8 percent, while the rest of Michigan was 3.6 percent. I said 
some parts, in the winter months, like on the eastern end of 
the Upper Peninsula, unemployment is 30 percent.
    Now when the ice leaves the lakes, as you know, come 
summertime, they would have virtually no unemployment; but for 
four or five months out of the year, we are at 30 percent 
unemployment. What do you do on those cold winter nights? If we 
had the technology, I think there are a lot of things that we 
could do and can do.
    That is where we would like to go with that opportunity. It 
is $2.5 million. I would hope that you would take a look at 
that request.
    The next one is for our gerontological studies, basically 
for senior citizens. Again, this is at Northern Michigan 
University, the Upper Peninsula. Our population is about 12 
percent senior citizens. On the western end, again, we just did 
a study in Kohebic, in Ougan Counties, and it is 25 to 30 
percent of older population that is 65 and older.
    While we would like to use the center for research, 
education, community service in rural Michigan, that is related 
to older individuals and the aging process. It would be the 
knowledge of the aging process and the aging network, and its 
service provisions apply information as a mechanism to enhance 
the lives of people who reside in rural communities like 
Michigan's upper peninsula.
    This would be worked out in Northern Michigan. Again, these 
two programs almost go hand in hand.
    Thirdly, Mr. Chairman, Northwestern Michigan College, you 
helped them out last year. This is in Traverse City. Again, 
they want to operate a life-long learning center on the West 
Bay Campus.
    The senior citizen center is there. It is a waterfront 
area. The lifelong learning center would be the hub for 
participatory learning for faculty, staff, and students at 
Northwestern Michigan Community College in Grand Traverse 
County.
    As you know, Mr. Chairman, this is probably one of the 
fastest growing areas of Michigan. Retirees leave the auto 
plants in southern Michigan and they come up to my district to 
retire.
    Traverse City and Northwestern Michigan have been a leader 
in trying to provide senior programs. Again, this would go with 
Northwestern Michigan College in Traverse City.
    Last, but not least, the Olympic Scholarship is a program 
that we have been here a couple of times, advocating for in the 
last two years. You have funded it, which has helped out many 
athletes. Athletes train at our four Olympic Centers in 
Marquette, Michigan; Lake Placid, New York; Colorado Spring, 
Colorado; and outside San Diego, California.
    These athletes, most of them are young people. They are in 
sports such as speed skating, boxing, Greco-Roman wrestling, 
many of the Nordic sports.
    There are no scholarships for them. But they are willing to 
train. They take money out of their own pockets. They go all 
over the nation, doing training, competing. They go to Europe, 
where they get some help.
    At the same time, many of these people would also like a 
degree. Even if you won the gold medal in Greco-Roman 
wrestling, I do not know how you could make that into some kind 
of an economic benefit for the rest of your life, or speed 
skating.
    Even though we may win the gold medal, like some of the 
athletes that came out of Marquette, a couple of Olympics ago, 
and we may win the speed skating, there is no career in that. 
There is nothing.
    So where they are putting in all the hours, we think we 
should have an Olympic education training center, as Northern 
Michigan and these others are, and let them go to school, give 
them a scholarship, let them train.
    The boxers start at 5:00 in the morning. I have been up 
there talking to them many times. Many of them come from inner 
cities. Many of them come from poor backgrounds. They are 
there, and if it was not for the Olympic scholarships, not only 
could they not probably participate and train and work for the 
Olympics, but at the same time, they are getting a quality 
education.
    So the Olympic scholarships have been a great advantage to 
the four sites throughout this country. I hope you would fund 
it again.
    That is a quick overview. Like I said, I literally ran down 
here, and I think I ran through my report, too. But it is all 
here, and it is 15 pages. I am not going to read it. But if you 
have any questions on any of these three programs, that I have 
outlined, I would be happy to answer any questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Okay, thank you; are there any questions?
    [No response.]
    Mr. Regula. Thank you.
    The Olympic Center is named after your son, I believe.
    Mr. Stupak. Yes, that is true, and I thank the committee 
for that courtesy that they have shown us. Thank you.
    Mr. Regula. Thank you.
    Next is Representative Danny Davis.
                              ----------                              

                                           Tuesday, March 27, 2001.

                      CONSOLIDATED HEALTH CENTERS


                                WITNESS

HON. DANNY DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Davis. Thank you very much, Mr. Chairman and members of 
the subcommittee. I am pleased to provide the subcommittee with 
testimony in support of the urgent need to increase funding by 
$250 million for the Consolidated Health Centers Program; that 
is community, migrant, homeless, and public housing health 
centers, to at least $1.419 billion for fiscal year 2002. I 
realize that this committee has been very supportive of the 
community health center program in the past. In fact, members 
on both sides of the aisle of this committee have united to 
advance this program. It is a true testament of the integral 
role health centers play in the delivery of health care for 
this nation.
    I appreciate the committee's support last year of our 
request for a $150 million increase. Unfortunately, the $150 
million increase has only enabled health centers to serve 10 
percent of the Nation's 43 million uninsured people. With the 
uninsured population continuing to grow at a rate of over 
100,000 individuals per month, it is estimated that the 
uninsured population will reach over 53 million by 2007.
    There is no question that much more needs to be done to 
expand health center services to reach more uninsured people, 
and to continue to provide quality care to existing health 
center patients.
    I applause President Bush's recent call to double the 
number of patients served by community health centers, enabling 
millions more to have access to the most basic health care.
    In fact, the President's budget has recommended a modest 
increase of $124 million for the health center program. I 
believe that is a good start, but because of the demand for 
health care and the rise in the number of uninsured, I believe 
we will need to raise that number to $250 million.
    With an additional $250 million, health centers will be 
able to serve and expand facilities in rural and urban 
communities, and see an additional 700 patients.
    Our nation is still divided when it comes to health care; 
that is, those who have and those who have not. I have had the 
good fortune to work directly with and in community health 
centers, prior to running for public office.
    It has been my testament and my goodwill to see that there 
is no other group of centers or programs in the nation that has 
been able to provide the kind of access to health care that 
these centers have given.
    So, Mr. Chairman, I would urge that we seriously look at 
increasing by $250 million, so that all of the uninsured people 
in this country, who would then benefit, would come out of the 
uninsured, to the serviced area.
    I thank you, Mr. Chairman. It has been a pleasure to be 
here.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. They use a lot of volunteers, am I correct, in 
the community health centers?
    Mr. Davis. Well, they used to. Volunteerism in this country 
is not quite what it used to be. They use volunteers. But these 
centers basically started out of the old OEO programs. They 
were put in urban and rural communities where nothing hardly 
was there.
    Many of them have become the centerpieces for economic 
development in those communities, as well, and they are the 
biggest thing there. They provide not only health care, but 
they have provided employment opportunities, business and 
economic development opportunities, and they are pretty much 
considered to be community-owned. People feel really good about 
them.
    Mr. Regula. I am sure that is true. We have one in our 
area.
    Are there any questions?
    [No response.]
    Mr. Davis. Thank you very much, Mr. Chairman and members of 
the committee.
    Mr. Regula. Thank you.
    Next is my colleague from Ohio, Mr. Kucinich.
                              ----------                              

                                           Tuesday, March 27, 2001.

                 UNITED STATES HOUSE OF REPRESENTATIVES


                                WITNESS

HON. DENNIS KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Kucinich. Good afternoon, Mr. Chairman.
    Mr. Regula. Dennis, we are happy to welcome you.
    Mr. Kucinich. It is my pleasure to be in front of your 
subcommittee. I appreciate it very much. Good afternoon to my 
colleagues; I appreciate the chance to be in front in your 
committee. With the permission of the Chair, I will begin 
whenever it is appropriate.
    Mr. Regula. Go ahead.
    Mr. Kucinich. Thank you very much for the opportunity to 
appear before the committee. I am urging the committee to 
prevent the use of Federal funds for prolonging the public 
comment period of the final Medical Privacy Standards.
    Last month, a new 30-day comment period was opened on the 
standards mandated by the Health Insurance Portability and 
Accountability Act, and several industries are lobbying to 
extend the period even further.
    These regulations are long overdue. When Congress passed 
HIPAA in 1996 with strong bipartisan support, it required HHS 
to promulgate rules by August 23rd, 1999, if Congress did not 
legislate. During HHS' work on the regulations, Congress and 
other interested parties articulated their views.
    In September, 1997, the Secretary of HHS submitted a health 
privacy report to Congress and testified before the Senate 
Committee on Labor and Human Resources. Several bills were 
introduced.
    The proposed rule was published in November, 1999. Industry 
and consumer groups asked for the comment period to be 
extended, and HHS pushed the deadline back by 45 days.
    The rule generated extraordinary feedback; 52,000 comments. 
Clearly, the health care and insurance industries have had 
ample opportunity to make their voices heard, and have done so.
    Now the industry groups seeks to weaken the medical privacy 
law by delaying the rule's implementation. The rule already 
allows health plans two years to comply, and gives small plans 
an additional year beyond that deadline. These groups do not 
have a leg to stand on in lobbying for continued delay.
    They have had plenty of input into the regulations, have 
known for five years that the regulation was forthcoming, and 
now have another two to three years to meet the deadline.
    By not implementing the rule, not only are the medical 
privacy of patients put at risk, but so is the privacy of their 
Social Security numbers, the privacy of their financial 
information, their ability to maintain health coverage, and 
even keep a job. That is really the core of this.
    Here are some examples of abuses that have occurred because 
of the lack of medical privacy laws. Last December, Terry 
Sergeant, a North Carolina resident, was fired from her job, 
after being diagnosed with an expensive genetic disorder.
    Three weeks before being fired, she was given a positive 
review at work and a raise. She suspects her self-insured 
employer found out about her condition and fired her to avoid 
the medical expense.
    A truck driver in Atlanta was fired from his job after his 
employer learned that he had previously sought treatment for a 
drinking problem.
    A California woman requested that her pharmacy not disclose 
her prescription information to her husband, from whom she had 
separated. When he contacted the pharmacy, he received a copy 
of all of her prescription records, and then gave them to the 
rest of the family, her friends, the Department of Motor 
Vehicles and others, claiming she was a drug addict and a 
danger to her children.
    A banker who served on his county's health board cross-
referenced his customer accounts with patient information, and 
then called the mortgages of anyone with cancer.
    The University of Michigan Medical Center inadvertently put 
several thousand patient records on public Internet sites for 
two months in 1999. Only when a student searching for 
information about a doctor found links to private patient 
records with numbers, job status, medical treatments and other 
information was the problem discovered. It goes on and on and 
on, Mr. Chairman. I will submit, with the Chair's permission, 
all of this testimony.
    But what it comes down to is that the implementation of the 
Medical Privacy Rules on April 14th ought to be strongly 
considered. Americans long ago asked Congress to respond to the 
threat of vulnerable privacy records, and many have already 
suffered from abuse of private information made public.
    This committee can ensure that these protections go into 
effect if you prohibit the use of funds in this bill to delay 
the implementation of the medical privacy regulations any 
longer.
    I am here presenting this in my capacity as the Chair of 
the Progressive Caucus. I thank the Chair for his indulgence 
and I thank the members. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are there any questions?
    [No response.]
    Mr. Regula. Thank you.
    Mr. Kucinich. Thank you and good afternoon.
    Mr. Regula. Do we have any other members here? Don Young is 
the next one on the list.
    Mr. Kucinich. Mr. Chairman, in concluding, I am just going 
to submit all of this record, if the Chair would accept it.
    Mr. Regula. Oh, yes, all statements are part of the record.
    Ms. Pelosi. Would the Chair yield?
    Mr. Regula. Yes, certainly.
    Ms. Pelosi. Mr. Chairman, I do not know whether you saw it 
last night, but on TV on PBS, they had a special presentation. 
What it consisted of, largely, is something of interest to the 
committee. It was about environmental health.
    What it was, it was the release of documents from the 
chemical industry, as to what they knew and when they knew it, 
about danger to workers in the work place, and communities 
surrounding these factories.
    Last year, as I have mentioned a couple of times in our 
hearings, under Chairman Porter's leadership, we had a hearing 
on environmental health. Scientists came and talked about the 
need for bio-monitoring to monitor what people are breathing 
and drinking in the water, from chemicals in the environment.
    It was a very important hearing. In fact, I have been on 
the committee, and others who have been on it longer, do not 
recall us ever having a hearing on a single subject. Usually, 
we have hearings of this kind.
    So that hearing, plus the funding and the generosity of 
this committee to fund the CDC over the last four years to 
increase the funding of the environmental health project, have 
taken us a long way down the road to having an understanding of 
the connection between health or disease and chemicals in the 
atmosphere or in the water.
    I would commend Moyer's show to the Chairman's attention, 
and to all of our colleague's attention. Certainly, we want to 
have a balanced approach as to how we go forward. We do not 
want to do anything that is not science-based. But certainly, 
on behalf of our children's health, we really do not know what 
risk we are putting children at.
    Of course, because they are younger and developing, they 
are impacted more directly and more negatively than older 
people.
    Mr. Regula. Well, it seems to me, we have had an EPA for 
many years, and we have all these agencies. Would they not have 
a vast body of knowledge about these types of hazards?
    Ms. Pelosi. You would think so. In the testing that is 
done, you know, they will test the air, they will test the 
water, and they will test this or that. But this is the work 
that we are doing now to see what to monitor in human beings.
    Because of the generosity of this committee over the past 
few years, the CDC is in a much better position to do some of 
the monitoring, which I think you have heard in one of the 
points that Mr. Stokes made, when he was here, on the 
environmental health issue that he is working and that 
monitoring.
    Then we see that children have higher incidences of asthma, 
because of the atmosphere in which they live and that the 
connection between the environment and health is a direct one. 
The committee has taken the lead on this. I think it would be 
interesting to see some more evidence on that.
    Mr. Regula. What conclusions did Moyer reach, or what 
recommendations, if any?
    Ms. Pelosi. Well, the whole point was that we have to have 
data. We have to have a ground truth on the basis of which we 
go forward. Even the chemical industry admitted in their own 
statements that we really do not know what some of the risks 
are to these. Even though they have set out to make some tests, 
they have not done them, yet.
    Again, this is information that would be useful to the 
committee. The committee has to have a scientific basis and 
data on which to make judgments. This is another piece of 
information that I think would be useful to the committee, as 
it balances its decisions.
    Mr. Regula. Where did you see this?
    Ms. Pelosi. It was on PBS, and it was called ``Trade 
Secrets.'' Basically, what it was, a lot of the chemical 
industries, over the past 40 years, have known the danger that 
their chemicals have posed to the public, but have kept that 
information from the public.
    Indeed, in their own documentation, they show how, when 
they were going to go to NOISH, which is the science part. OSHA 
is the work place safety and NOISH is the scientific research 
part of it.
    They said, well we cannot deny if they ask us, but we will 
not volunteer the information, even though NOISH had put out a 
call for all information regarding some of these chemicals in 
the atmosphere. So it is interesting.
    Mr. Peterson [assuming chair]. I think the situation with 
liability that we have, I know ladder companies, and this is on 
the whole safety side, were hesitant to improve the ladder, 
because they admit then that the ladder was not as strong and 
safe as it could have been with the new improvements, and they 
were instantly liable, if anybody got hurt on the old ladder, 
so they never put the new structure out or changed it.
    I have a feeling that companies, as they improve their 
processes, realize that they have come up with a new process 
that is better than how they were doing it, but instantly are 
liable to the trial lawyers for cases, because they have now 
improved the process. They have found out how to reduce it. I 
mean, I really think this thing cuts both ways.
    Ms. Pelosi. I say we have to balance that. You bring up an 
interesting point. When I say this was a trade secret, all of 
this was largely a presentation of their own documents, of the 
documents of the chemical industry that are now public.
    One of the things that does not relate to workman's comp or 
anything like that is, for example, hair spray, and what is 
involved in aerosol hair spray. If you have it in the work 
place, you have some protection in liability, because of 
workman's comp and this or that.
    But once that is proven to be a danger to the general 
public, then it is a different dynamic, if you were to be sued 
or something like that. So they have, in this case, even more 
reason to keep the information secret, not because of what it 
meant in terms of work place, but what it meant in terms of the 
general public.
    I see that one of our colleagues has arrived. Again, this 
would be a good committee, because we have the CDC. We have the 
NIH. We have the science at NOISH. We have the scientific 
institutions, as part of our dynamics.
    We do not want to proceed on a notion or emotion. We want 
to proceed on the basis of science. This is a very valuable 
contribution, in terms of avoiding the science.
    We have a different responsibility, I think. But we do have 
responsibility for balance, and I look forward to working with 
you on that.
    Thank you, Mr. Chairman.
    Mr. Regula [resuming chair]. Thank you, Nancy.
    We have a health care task force group. The first speaker 
in that group will be our friend from Ohio, again, Mr. 
Kucinich, and I believe Ms. Christenson is here, also.
    Ms. Pelosi. Mr. Chairman, I am sorry, I did realize Mr. 
Kucinich was coming forward again, or I would not have 
continued.
    Mr. Regula. No, that is all right. I think it is a real 
problem.
    Ms. Pelosi. For everything that I have said, it is more so 
in minority communities and disadvantaged communities, because 
that is where a lot of these chemicals are.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Representative Kucinich.
                              ----------                              

                                           Tuesday, March 27, 2001.

    HEALTH CARE INSURANCE PORTABILITY AND ACCOUNTABILITY ACT (HIPAA)


                                WITNESS

 HON. DENNIS KUCINICH, CHAIR, CONGRESSIONAL PROGRESSIVE CAUCUS HEALTH 
    CARE TASK FORCE
    Mr. Kucinich. Mr. Chairman, it is a pleasure to be a part 
of your committee once again. I thank you very much for the 
chance to appear, and to Ms. Pelosi. I saw that two hour 
program. We will have a chance to chat about it soon; thank 
you. I am here on behalf of the Congressional Progressive 
Caucus, of which I am the Chair, and to address some issues 
that I know this committee is very concerned about.
    America is home to the most advanced medical research 
facilities and scientists in the world. In part, that is 
because this committee has provided funding and guidance to 
achieve it.
    I am pleased that so many of my colleagues have supported 
doubling the budget at the National Institute of Health. I 
think we all appreciate the priority of finding therapies and 
cures for diseases and other ailments to improve public health; 
but America is home to irony, as well.
    For example, the United States ranks 25th among other 
nations in infant mortality rates, which is twice the rate of 
Singapore, which has the lowest rate. These statistics reflect 
the gross failure of our health system to provide access to 
adequate prenatal care.
    Every day, 410 babies are born to mothers who receive late 
or no prenatal care, according to the National Center for 
Health Statistics. African American infants are more than twice 
as likely as white infants to die before their first birthday.
    Among others, the United States ranks 20th in maternal 
mortality levels. According to the World Health Organization, 
half of these could be prevented through early diagnosis and 
appropriate medical care of pregnancy complications.
    For a country with advanced medical technology, it is 
unfortunate that mothers and infants do not have access to 
basic preventive health care. This example illustrates the 
broader point that this committee must also fund programs to 
get cures that we pay for to the people who need them, prevent 
disease, and ensure a minimum level of health care to every 
American.
    The AIDS crisis in our country requires a comprehensive 
strategy, meaning prevention therapy and research for a cure. 
Up to 900,000 Americans are now infected with HIV, and half of 
this population is under the age of 25.
    This committee, I hope, will be able to fund the following 
programs at the Centers for Disease Control to prevent 
infection and provide care for those who are infected: 
prevention activities that depend on CDC funds given to local 
health departments; HIV Prevention Community Planning Groups, 
and the Substance Abuse Prevention and Treatment Block Grant.
    The minority HIV/AIDS Initiative works on both prevention 
and providing care resources in communities of color, where the 
major of new AIDS cases occur.
    In order to provide care for those infected with HIV, the 
Ryan White CARE Act and the Housing Opportunities for People 
with AIDS Program support a range of services. This coordinated 
group of programs is crucial to dealing with the HIV virus, and 
all should be fully funded.
    The Progressive Caucus is also asking that the committee 
raise its funding level of support to programs under the Health 
Resources and Services Division that are critical to maintain a 
skilled health work force.
    They have a number of other recommendations here, which I 
would ask the Chair and the committee to please give their 
thoughtful consideration to. As any of the health programs we 
are talking about, the solution needs to be comprehensive.
    Besides research and development of therapies, we must 
train doctors and nurses in new therapies, for us to have 
medical professionals serve in shortage areas of the country.
    This strategy must also include educating people about how 
to take care of their own health, and exercise preventive 
strategies. Prevention is the best medicine.
    Mr. Chairman, the committee has been a leader in providing 
for health advances in our country. I ask it to continue to be 
a leader by funding initiatives to make health advances 
accessible to all Americans.
    I thank the Chair, and thanks to all the members for your 
time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    Representative Christensen.
                              ----------                              

                                           Tuesday, March 27, 2001.

           CONGRESSIONAL BLACK CAUCUS HEALTH CARE TASK FORCE


                                WITNESS

HON. DONNA M. CHRISTIAN-CHRISTENSEN, A DELEGATE FROM THE U.S. VIRGIN 
    ISLANDS, CHAIR, CONGRESSIONAL BLACK HEALTH CARE TASK FORCE
    Ms. Christensen. Thank you. Good afternoon, Mr. Chairman 
and members of the subcommittee. It is a pleasure to be here.
    Mr. Chairman, I want to begin by congratulating you on your 
assumption of the Chair of this new subcommittee. As Chair of 
the Interior Subcommittees for several years, my constituents 
have been the beneficiary of your leadership.
    Of course, the territories are a part of the health dilemma 
that we are going to discuss this afternoon. It is one which is 
defined by grave disparities in health care status.
    The subcommittee has my full testimony. I am going to 
summarize and also clarify a few points in it, if I might.
    First, the funding, including my request in the CBC and HIV 
and AIDS minority initiative, is not intended just for African 
Americans, but for all communities of color. It also extends to 
people living in our rural areas.
    Second, the request is additional to and not intended to 
supplant or take away from any other Department of Health and 
Human Services funding. Indeed, we are requesting that the 
department's budget be fully funded, at least at the 2001 
level.
    Third, the request, which includes our HIV and AIDS 
initiative, is for $1 billion for fiscal year 2002, and 
hopefully for subsequent years through 2006.
    Fourth, while they do not come under the jurisdiction of 
this subcommittee, we have included in our overall agenda, 
universal coverage in the full lifting in the cap on Medicaid 
for the territories. We hope for your support, as well as the 
support of other subcommittee members on this initiative.
    My testimony here today, however, is on the state of 
African American health in this country, and what I think it 
will take to adequately address it.
    In any discussion on the health of people of African 
descent in the United States, it is important that it be framed 
in the context of what is called the Slave Health Deficit; 400 
years of health care, deferred or denied, a deficit that has 
never been made up.
    Even at the dawn of this new century and millennium, 
African Americans have the lowest life expectancy of any other 
population group in this country, and the gap has widened, 
actually, since 1985.
    Today, hundreds of African Americans will die from 
preventable diseases. This number is increased over the last 20 
years. Deaths from heart disease are 38 percent higher in black 
males and 68 percent higher in black females.
    In recent years, our death rate due to stroke was about 75 
percent higher than in our white counterparts. The prevalence 
of diabetes in African Americans is almost 70 percent higher 
than in whites; and with less access to care, African Americans 
suffer more amputations, blindness and kidney failure.
    The infant mortality gap has widened since 1985, and ours 
is twice that of our white counterparts. Over 50 percent of all 
new HIV infections annually are in African Americans, and we 
make up 45 percent of all AIDS cases, and we are only about 13 
percent of the total population.
    An African American male is almost eight times as likely to 
have AIDS as his white counterpart, and for women, that is 
about twenty times more likely.
    Mr. Chairman, our health agenda in the request to the 
subcommittee makes an attempt to address the causes of 
disparities. The facts that I have just recited just barely 
scratch the surface.
    Twenty-three percent of African Americans are uninsured. 
Many have Medicaid; but recent studies have called into 
question the quality of care, and in particular, for HIV/AIDS, 
that Medicaid recipients have received.
    Much current research has demonstrated that even with 
insurance, and when other factors are equal, African Americans 
and particularly women experience clear discrimination in their 
receipt of health care services.
    On the other hands, when language, ethnicity, and culture 
are the same or similar, research shows better rapport and, 
therefore, better compliance and outcomes.
    Mental health services are severely lacking for American 
Americans at all ages. Put simply, according to our Surgeon 
General, Dr. David Satcher, the U.S. mental health system is 
not well equipped to meet the needs of racial and ethnic 
minority populations.
    All of these and other factors conspire to create the 
disparities that exist for African Americans, as well as other 
people of color. They form the basis for our request.
    As discussed briefly in the full testimony, they are: 
allotting full funding for the new Center for Minority and 
Disparity Health Research at NIH, as well as having the other 
offices of minority health in the agencies funded.
    The $1 billion request would provide the following: 
increase health providers of color; provide adequate staff for 
our medically under-served areas; enhance the ability of our 
providers to practice their art and to provide for ethnics and 
diversity training in our health profession schools, and 
collect important health data.
    These are provisions of the Minority and Disparity 
Education Act of 2000. It would increase and provide culturally 
and linguistically sensitive mental health services in 
communities of color; adequately fund the community health 
centers, which are the nexus of health care for our 
communities; provide adequate health services for inmates in 
correctional facilities; provide adequate outreach and funding 
for immunization programs; continue and expandthe CDC minority 
AIDS initiative.
    Mr. Chairman, in 1998, the Congressional Black Caucus, 
joined by community organizations and health advocates from 
around the country, called on Secretary Donna Shalala to 
declare a state of emergency for HIV and AIDS in the African 
American community and other communities of color.
    What we achieved was a declaration of a severe and ongoing 
crisis; and to have, first $156 million in 1999; $249 million 
in 2000; and this year, $350 million targeted to communities of 
color.
    This initiative, which needs to be expanded, has been 
effective, and it has been affected across all communities of 
color. However, we made one mistake; we should have called for 
a state of emergency in the overall health of African Americans 
and other people of color.
    It is this emergency, that for the health of African 
Americans and for people of color, across all of the diseases, 
which is the emergency that truly exists.
    With the full funding of the request before you today, 
which this country today has the resources to do, we can begin 
to respond appropriately to the crisis that exists in health 
care for our communities today. Under your leadership, this 
country can make the moral and political commitment to 
guarantee access to medical care as a fundamental right to all 
of its people.
    I thank you, Mr. Chairman and subcommittee members, for the 
opportunity to testify. I will be happy to answer any 
questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Pelosi. I just have a brief question.
    Mr. Regula. Yes, go ahead.
    Ms. Pelosi. I was so impressed by the very important 
testimony that our colleague has presented. It stands on its 
own, and her credentials are well known to us.
    But I would like her to put on the record her credentials 
as a health professional, and all that she brings to this 
testimony today, Mr. Chairman. We are so proud of her.
    Ms. Christensen. I should have said that I chair the Health 
Braintrust of the Congressional Black Caucus. I am a family 
physician, and have been in practice for 21 years in the Virgin 
Islands, also. I was a public health official in the Virgin 
Islands for many of those years.
    Mr. Regula. Well, that is a vanishing group, the family 
physicians.
    Ms. Christensen. Yes, and that is the pearl of American 
health.
    Mr. Regula. I agree with you. I felt strongly that we 
should encourage more family physicians. You cannot just take 
one area of a human being, and not be sensitive to the whole 
person.
    Ms. Christensen. I suspect that it will come back.
    Mr. Regula. Probably economics are driving it, as much as 
anything. With the high costs that students have, they feel 
like the specialties pay better.
    Ms. Christensen. Well, they do. That is another area that 
has to be addressed, in terms of the reimbursement. I know that 
HCFA is going to be under much scrutiny this year. Hopefully, 
some of those issues will be addressed.
    Mr. Regula. Well, it is great what you did. Were you in a 
smaller community?
    Ms. Christensen. I practiced in the Virgin Islands. I was 
always able to make house calls, for most of practice. The 
island that I practice on has between 50,000 and 60,000 people.
    Mr. Regula. There are others besides you there, I hope?
    Ms. Christensen. Yes. [Laughter.]
    Mr. Regula. That would keep you busy.
    Well, thank you for bringing this to our attention.
    Ms. Christensen. You are welcome. Thank you, again, for the 
opportunity to testify.
    Mr. Regula. Next, we have our friend from Alaska.
                              ----------                              

                                           Tuesday, March 27, 2001.

                          CLOSE UP FOUNDATION


                                WITNESS

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA
    Mr. Young. I have a very short statement that I will read 
in its entirety, primarily because the staffer wrote it, and 
this is the first time she ever wrote anything for me.
    Mr. Regula. I thought you were going to say that it was the 
first time you ever asked for any.
    Mr. Young. No, not really. [Laughter.]
    I will say, Mr. Chairman and members of the committee, I 
would suggest, as we have new members on this committee that 
have not been involved in the Close Up Program, and that is 
what I am here today to talk about.
    The Ellender Fellowship Program is a critical component in 
Close Up's educational program to educate our Nation's young 
people about how our Federal system of Government works, and 
their rights and responsibilities as citizens.
    Congress created the Allen J. Ellender Program in 1972, out 
of a belief that our Nation was at a critical juncture in 
ensuring that the next generation of Americans would share in 
the values and beliefs of the preceding generations, who forged 
our democratic form of government.
    By the way, Mr. Chairman and members of the committee, 1972 
was the first year that I ran for this job.
    I believe that we must ensure the present generation of 
young Americans is committed to the ideals of active 
citizenship, service to the community, and loyalty to country, 
that are the foundation of our democratic system of government.
    We must be dedicated to educating young people about civic 
virtue and teaching them about their place in our democracy.
    Our national heritage includes an unwavering belief in the 
importance of each and every citizen to the success and health 
of our democracy. The Close Up Foundation has embraced this 
belief and made it an integral part of its mission to educate 
young people.
    Close Up is dedicated to the principle that the poorest 
among our Nation's young people should have an opportunity to 
come to Washington to gain first-hand experience in how our 
Government works.
    The Close Up Foundation utilizes the Ellender Fellowship 
Program to reach out to student populations that are among the 
most economically needy and under-served. The Ellender 
Fellowship recipients include students from our Native 
American, immigrant, rural and inner city communities.
    As the State of Alaska's sole representative in the House, 
I have had the privilege to meet with numerous students from 
Alaska, visiting Washington as part of the Close Up's civic 
education program.
    Mr. Chairman and members of the committee, we have had 
11,000, since the beginning of this program, from Alaska, that 
have come to participate in this good program.
    For students in rural Alaska, Washington, D.C. is far 
removed from their everyday lives, and is a place that operates 
in a way that they may not fully understand. Many of these 
students do not have access to C-Span, so they have never seen 
Congress in action.
    Close Up recognizes that their geographic isolation does 
not mean they play less of a role in the future of our country.
    I believe that we should be highly supportive of programs 
that successfully aid young people in becoming well-rounded, 
informed, and active citizens.
    The Allen J. Ellender Fellowship Program provides teachers 
and economically disadvantaged students with a unique 
opportunity to travel to Washington, and learn first-hand about 
Government.
    A health democracy depends upon the participation of its 
citizens. This critical education program deserves our full 
attention and our full support.
    In closing, I would ask the subcommittee to recognize the 
critically needed work of the Close Up Foundation through 
continued and increased funding of the Allen J. Ellender 
Fellowship Program.
    I want to thank you, Mr. Chairman and members of the 
subcommittee. As I said, this is a short statement. I wouldbe 
willing to answer any questions. Again, I want to stress, there are 
11,000 Alaskan students who have participated in this program.
    Thank you, Mr. Chairman.
    [The information follows:] 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are there any questions?
    The Ellender Fellowship or Foundation provides money for 
students to participate, who otherwise would not be able to?
    Mr. Young. That is the primary purpose of this program, to 
have those people in from the rural areas and impoverished 
area; and believe me, we still have them in Alaska, to come to 
Washington, D.C.
    We do have other schools that do participate in this in 
here, from a more influential group of people. However, we are 
a long ways away, and it has been very good for the State of 
Alaska.
    Mr. Regula. Is Ellender just confined to Alaska?
    Mr. Young. No, it is nationwide; it is huge. Alaska has 
participated in it. I have helped raise money in the private 
sector for this program.
    Mr. Regula. Well, you have had 11,000 over what period of 
time?
    Mr. Young. Since 1972.
    Mr. Regula. Given your population base, that is still a 
lot.
    Mr. Young. Yes, that is a lot of them; and if we had the 
same population, same ratio, it would be over 250,000 in 
California. We really do participate in this program.
    Mr. Regula. Yes, they do.
    Well, thank you for coming today.
    Mr. Young. I am pleased to see that my two new members did 
not ask me any questions. I was not sure that I could answer 
them.
    But thank you, Mr. Chairman, and congratulations to you. 
Mr. Porter sat in that chair for many years, and I know you 
will do a wonderful job.
    Mr. Regula. He did a great job when he was here.
    Mr. Young. And you will do equally as well.
    Thank you very much.
    Next is Mr. Fattah from Pennsylvania.
                              ----------                              

                                           Tuesday, March 27, 2001.

           CONGRESSIONAL BLACK CAUCUS EDUCATIONAL BRAIN TRUST


                               WITNESSES

HON. CHAKA FATTAH, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF PENNSYLVANIA, ON BEHALF OF REP. MAJOR OWEN, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF NEW YORK, CHAIR, CONGRESSIONAL BLACK 
    CAUCUS EDUCATIONAL BRAIN TRUST
HON. RUBEN E. HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS, CONGRESSIONAL HISPANIC CAUCUS
    Mr. Fattah. Thank you, Mr. Chairman. If you do not mind, I 
have asked my good friend, Congressman Hinojosa, to join me, 
because we share a similar interest, and we could expedite the 
committee's work.
    Mr. Regula. That is fine.
    Mr. Fattah. Let me thank you for allowing me to pitch hit 
for Congressman Major Owens, who was scheduled to provide this 
testimony, and is unable to do so. I am going to let my written 
testimony stand for the record.
    I would like to thank the Chairman, because of his 
tremendous interest in a variety of matters, relative to 
education. I am not going to belabor any of the points that 
need to be made.
    I would also like to welcome my two colleagues from 
Pennsylvania, Congressman Peterson and Sherwood, who have 
served with me before in the State Senate, and worked on 
education-related matters. We have a lot of mutual interests.
    Let me say on behalf of the Congressional Black Caucus, the 
Caucus has laid out a number of positions, which are 
articulated in the written testimony about the need for this 
committee's continued support.
    This committee really has been in the vanguard of pushing 
for a set of programs and initiatives that have helped hundreds 
of thousands of young people live up to their potential, pursue 
an adequate education, and to go on to higher education.
    There is an emphasis, obviously, on the Pell Grant and the 
Trio Programs and, most particularly, the Gear Up Program, 
which is close to my heart.
    I want to thank the committee for its support over the last 
three cycles for its support for Gear Up, which I authored and 
moved through the House, with a lot of help from a lot of 
different people. It is now helping over one million young 
people in our country.
    Mr. Regula. You introduced me to it, when we were down at 
St. Petersburg.
    Mr. Fattah. That is right, and it is a tremendous program. 
It is doing very, very well.
    But I know that this subcommittee will have an allocation, 
and you have some very difficult decisions to make. I respect 
whatever deliberations and outcomes there will be from the 
result of that. There are a lot of choices from Head Start on 
through in the education pipeline, to help move young people 
and their families.
    However, in terms of the Congressional Black Caucus and the 
Hispanic Caucus, we represent constituencies that these 
programs impact most acutely, and they are very important, too. 
So we just want to urge you to do all that you can do.
    I would also say that I am very concerned, and I will 
betestifying before the House Education Committee tomorrow, about the 
whole question of how to encourage states to do more themselves to give 
disadvantaged and poor communities, both in urban and rural areas, an 
equal educational opportunity.
    Part of the problem is that the Federal Government is 
trying to help make up the deficit that is the result of a lack 
of full support from our state governments in the poor 
communities in those states. We need to work more as a Congress 
to try to encourage states to treat both our rural school 
districts and urban school districts in a way in which young 
people will get a fair and an equal opportunity.
    I know that we cannot legislate outcomes, but I think that 
we could do more to encourage states not to have poor children, 
who are already disadvantaged, made more disadvantaged by the 
way that they create their funding cycles and dispense 
curriculums around the state.
    Nancy Pelosi, in the great State of California, knows that 
there is a major litigation going on there in which young 
people in Compton High have little or no opportunity to take AP 
courses; and young people at Berkeley High have more than 25 AP 
courses to choose from.
    It just creates a circumstance in which not every young 
person can pursue, within their own potential, what God-given 
talents they have.
    So I just think, Mr. Chairman, that your committee will 
make a lot of tough decisions about allocations and 
programmatic thrusts.
    We can also do more by encouraging these states to take 
their children, and to give not just the wealthy, middle class 
suburban youngsters every opportunity, but to also make sure 
that those who are impoverished, who live in rural and urban 
communities in their states, to have the same opportunity to 
have quality teachers in the classroom, good facilities, and an 
adequate curriculum to prepare them.
    So thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think it is a universal thing. Ohio is going 
through the same type of lawsuit, involving Appalachia.
    Mr. Fattah. Yes.
    Mr. Regula. Mr. Hinojosa.
    Mr. Hinojosa. Thank you very much, Mr. Chairman.
    On behalf of the Congressional Hispanic Caucus, CHC, I want 
to thank you and the members of the Appropriations Committee 
for allowing Chaka and me to come before you and discuss the 
educational needs of the African American children, Hispanic 
children, and all minority children in the United States.
    I want to preface my remarks by saying that I have only 
served four years in Congress. As I start my fifth year, I want 
to say that it has been a real pleasure for me to collaborate 
with Chaka Fattah.
    Both of us serve on the Education Committee, and we are 
well informed and certainly committed to work on trying to help 
children graduate from high school and go on to higher 
education.
    It is no doubt that two caucuses, the Black Caucus and 
Hispanic Caucus, working together, are beginning to really make 
a difference in bringing to the forefront the importance of 
educating children early: Early Start, Head Start, Gear Up, K-
12 programs that are exemplary in helping students graduate 
from high school, and then of course bringing a great deal of 
attention to the work that is being done by HSIs and HBCUs.
    All of this is to say that some of the senior members of 
committees that I serve on in Education have commented that 
never before have they seen the collaborative work being done 
by the Black Caucus and the Hispanic Caucuses.
    So I thank you for this opportunity. As you know, the 
Census Bureau projects that by the year 2030, Hispanic children 
will represent 25 percent of the total student population. 
Census figures already indicate that Hispanics have become the 
Nation's largest minority.
    In my area, the largest county that I represent, Hidalgo 
County, has grown to 88 percent in population.
    Mr. Regula. Where is that located in Texas?
    Mr. Hinojosa. It is south of San Antonio, 250 miles. 
Hidalgo County is on the Texas border region, between 
Brownsville and Laredo, an area that is the third fastest MSA 
in the country. It is an area that in my own district, it has 
grown by 50 percent over the last 10 years.
    Mr. Regula. That would be southwest then; am I correct?
    Mr. Hinojosa. We are considered the Southwest. Texas is so 
spread out that I am 850 miles from west Texas and El Paso. I 
am 650 miles from Dallas. It is an area that is just growing by 
leaps and bounds.
    Mr. Regula. Where do you fly to go home?
    Mr. Hinojosa. I fly Houston, and then Houston to McAllen. 
It takes me seven hours.
    Mr. Regula. But you are not on the Gulf of Mexico, though?
    Mr. Hinojosa. No, I am approximately an hour. Solomon Ortiz 
represents the coastal area from Brownsville to Corpus 
Christie; and I run parallel with him, from McAllen to San 
Antonio; Rodriguez is parallel with mine, from Rio Grande City 
to San Antonio. Then the fourth one would be Henry Bonilla from 
Laredo to San Antonio.
    All that area has grown so much that we are going to get 
two new Congressional Districts in that area.
    Mr. Fattah. They are taking those from Pennsylvania, right? 
[Laughter.]
    Mr. Regula. They are both going to be Republican; is that 
right?
    Mr. Fattah. We will see. [Laughter.]
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are there any questions from the members?
    [No response.]
    Mr. Hinojosa. I want to say that the amounts that are in my 
prepared material have some very specific numbers that we are 
asking, as the Congressional Hispanic Caucus, on the 
Appropriation funding that we are asking.
    For example, on Title 1, we are asking for a level of 
funding of $24 billion. If you ask why it is that much, the 
reason is that we are not serving all of the eligible children. 
So what we did is, we took the number that are eligible and 
multiplied it, because it is a formula-funded program, and it 
would take $24 billion to serve all those that are qualified 
and eligible.
    The Caucus also is suggesting a funding level of $508 
million for Title 7 of the ESEA. Another figure that is very 
important to us is the request for $500 million for adult 
continuation programs.
    Mr. Regula. That is a pretty hefty increase that you are 
proposing.
    Mr. Hinojosa. We are, simply because this is the time that 
President Bush is saying that education is the foremost 
important issue. If we are going to do what he says, and not 
leave any child behind, then it is going to take getting up to 
the funding level that will reach all the children, and not 
just a few.
    If you look at some of the programs, such as Gear Up, and 
you will see that we are asking for an amount that will take us 
into the next funding level, so that they would be getting, 
what is that number, Chaka?
    Mr. Fattah. $495 million.
    Mr. Hinojosa. Yes, $495 million.
    Mr. Fattah. Right.
    Mr. Hinojosa. Again, I am not trying to exaggerate when I 
say that when you are only serving 38 percent of the children 
who are eligible in head start; when we are serving only a 
small number who qualify for Gear Up; when you take a look at 
the under-funding that has occurred in the last 10 years for 
HSIs, Hispanic Serving Institutions, where we were getting only 
$10 million in help, and we took that number from $10 million 
to $28 million, just think about this.
    There are 203 Hispanic Serving Institutions, and over three 
million Hispanic college students. So this is just to say that 
we have neglected many of these exemplary programs. All we are 
asking is that you take a good look at these programs, because 
they are the ones who are going to help our students graduate 
from high school, go on to colleges, and become professions. In 
fact, some of them may become Congressmen.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Regula. I think Henry Bonilla went through the Trio 
Program.
    Mr. Fattah. Yes.
    Mr. Regula. Is the state pulling its share?
    Mr. Hinojosa. We are challenging them, I guarantee you. We 
are challenging the State of Texas to do their share.
    Mr. Regula. Are there any questions?
    Mr. Sherwood.
    Mr. Sherwood. I would just like to suggest to the gentleman 
from Texas that he take good care of those two Congressional 
seats, because we might want them back some day. [Laughter.]
    Ms. Pelosi. Mr. Chairman, I would like to commend these two 
gentlemen. They have worked so hard on the education issues on 
their committee and with Mr. Fattah here on the Appropriations 
Committee. Mr. Hinjosa will do a lot for the economic 
development of his area on the Banking Committee, which has 
some important jurisdiction, down there for economic 
development.
    But when they talk about Gear Up, the work on the 
authorizing side is so important to us here, both for the 
Hispanic servicing institutions and the Historical Black 
colleges and universities, that have been such a tremendous 
resource to us.
    So for all of the K-12 preschool and the rest and higher 
education, thank you for making it, I do not want to say 
easier, but for helping our community give this such a high 
priority. I am pleased to work with you in these areas.
    Mr. Fattah. Thank you, Mr. Chairman, for giving us the 
time, and we look forward to working with you. I am sorry that 
I am off the House Education Committee. However, I am happy to 
be on the Appropriations Committee.
    Mr. Regula. I believe you made a worthwhile change.
    Next is Mr. Underwood from Guam. I used to see you in the 
Interior.
                              ----------                              

                                           Tuesday, March 27, 2001.

   CONGRESSIONAL ASIAN PACIFIC AMERICAN CAUCUS HEALTH CARE TASK FORCE


                                WITNESS

HON. BOB UNDERWOOD, A UNITED STATES DELEGATE FROM GUAM AND CHAIR, 
    CONGRESSIONAL ASIAN PACIFIC AMERICAN CAUCUS HEALTH CARE TASK FORCE
    Mr. Underwood. Mr. Chairman, it is always a pleasure to 
appear in front of you, begging for more money in various 
capacities.
    Mr. Regula. And you are pretty good at it. [Laughter.]
    Mr. Underwood. Well, thank you, Mr. Chairman and members of 
the committee, for the opportunity to present the concerns of 
the Asian and Pacific Island Caucus on some major health issues 
concerns.
    You may already know, Mr. Chairman, that the Asian and 
Pacific Island is the most diverse ethical and racial group in 
the country, comprised of both immigrant populations and 
indigenous populations of Pacific Islanders.
    It also is the most heterogenous community. What you may 
not know is that Asian and Pacific Islander communities are 
severely hampered by a lack of accurate demographic data to 
monitor and enforce civil rights, laws, and ensure equal access 
to Federal programs, and in particular, health care. This lack 
of meaningful data makes it difficult to track health treads, 
identify problems areas and solutions, and enforce civil 
rights.
    This problem has been attempted to be resolved by the 
Office of Management and Budget back in 1997, when it made a 
significant change to the standards for maintaining, collecting 
and presenting Federal data on race and ethnicity.
    This chain separated Asians from Native Hawaiians and other 
Pacific Islanders, and allowed respondents to designate more 
than one racial ethnic category. We hope that this effort will 
provide more accurate data.
    In addition, to this particular issue, the 1990 Census also 
reported that about 35 percent of Asian and Pacific Islanders 
live in linguistically-isolated household, in which none of the 
individuals ages 14 or over spoke any English very well.
    In 1997, the Census reported the rate of persons with 
limited English proficiency grew to 40 percent for Asian and 
Pacific Islanders Americans, and over 60 percent for Southeast 
Asian Americans.
    The absence or severe lack of culturally and 
linguistically-assessable services leads to the gross under-
utilization of health care services, misdiagnosis and treatment 
of disease, chronic illness and needless suffering.
    It also contributes to Asian and Pacific Islanders seeking 
treatment at a much later more progressed state of illness, 
which is not only costlier to treat, but is often preventable 
with earlier detection.
    Asian and Pacific Islanders are often mislabeled as the 
model minority with few health is social problems. This label 
is a myth and a gross myth representation of the community, 
which is very diverse.
    Within this population alone, there exits divergent social 
economic achievement rates, among euthenics and racial diverse 
cultures.
    Recent data from various institutions and Government 
agencies, including the Department of Heath and Human Services 
and the Census, revealed for example the following disparities.
    Compared to the total U.S. population, disproportionate 
numbers of minority Americans lack health insurance; about 24 
percent of Asian and Pacific Islanders Americans. Asian and 
Pacific Islander Americans continue to experience the highest 
rate of tuberculosis and hepatitis B in this country.
    Approximately one half of all woman who give birth to 
Hepatitis B carrier infants in the U.S. were foreign-born Asian 
woman. Liver cancer, which is usually caused by exposure to 
Hepatitis B virus, disproportionately effects the Asian 
Americans. Filipinos have the second poorest five year survival 
rates for colon and rectal cancers of all U.S. ethnic groups.
    Cancer is reported as the leading cause of death in nearly 
all Pacific Island jurisdiction. In Guam, lung cancer accounts 
for one-third of all recorded deaths. Native Hawaiians have the 
second highest mortality rate in the National due to lung 
cancer.
    Cervical cancer is a significant problem in Korean and 
American women, and it affects Vietnamese American women at a 
rate five times higher than white women. Breast cancer 
incidents in Japanese American women is approaching that of 
white women.
    Moreover, some studies indicate that approximately 79 
percent of Asian-born Asian American women have a greater 
proportion of tumors larger than one centimeter at diagnosis. 
Breast and cervical cancer rates for Marshallese Islander are 
five times and 75 times higher respectably for rates for all 
U.S. women.
    Native Hawaiian woman have the highest incidents of 
mortality rates of endometrial cancers of all U.S. woman. 
Diabetes affects tomorrow's indigenous people of Guam and 
Commonwealth of the northern Marianas Islands at five times the 
National average. Infant mortality rates in the U.S. insular 
areas of American Samoa, Guam and Siena more than double the 
National average.
    Finally, in my home island of Guam, there has been a recent 
and significant incidence of suicide, and particularly teen 
suicides, fostered by contacts through suicide packs over the 
Internet.
    Last week, the Guam Department of Mental Health and 
Substance reported that about 95 percent of the admissions into 
the children's unit of the Guam Memorial Hospital are related 
to suicide intentions.
    In response to all of this, we have listed five listed 
budgetary priorities, including a funding increase of $12 
million additional for the Office of Minority Health and the 
Department of Health and Human Services for the REACH 
initiative in the Center for Disease Control.
    This is currently funded at $35 million. In fiscal year 
2000, the CDC was able to fund only 32 grants, which works in 
collaboration with OMH and other appropriate Federal agencies, 
to intensify efforts to eliminate health disparities. However, 
a funding increase is requested to allow communities to apply 
for REACH initiative grants.
    For the National Center for Minority Health and Health 
Disparities in the NIH, we are asking again for additional 
funding for the minority ADIS initiative, which was funded in 
2001 at $350 million, which is an increase of $100 million over 
fiscal year 2000. However, the 2001 funding fell short of the 
original funding request of approximately $540 million.
    Finally, in fiscal year 2001, SAMSA's minority fellowship 
program received nearly $2 million over the fiscal year level, 
for a total of $3 million.
    A $2 million increase is again requested for fiscal year 
2002, to help address the critical needs to enhance the quality 
and effectiveness of the provision of health and mental health 
services to community of colors by increasing numbers of well-
trained professionals.
    It is very critically important to understand that the 
context of the provision of health care services in minority 
communities is affected by cultural linguistic factors and the 
lack of, in many instances, trained personnel.
    I believe that it should be our strong commitment as a 
Nation to help bridge this gap for the provision of health 
services, so that we can reduce the disparities, some of which 
I have outlined here today.
    Again, I want to thank you, Mr. Chairman, as always. I do 
not know what other subcommittee you are going to go to next, 
but I always enjoy appearing in front of you. Thank you very 
much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I am sure you will have a request, whatever 
subcommittee it is. [Laughter.]
    Mr. Rodriguez.
                              ----------                              

                                           Tuesday, March 27, 2001.

          CONGRESSIONAL HISPANIC CAUCUS HEALTH CARE TASK FORCE


                                WITNESS

HON. CIRO RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS AND CHAIR, CONGRESSIONAL HISPANIC CAUCUS HEALTH CARE TASK 
    FORCE
    Mr. Rodriguez. Mr. Chairman, let me first of all apologize 
for being a little bit late. As the Chairman of the Hispanic 
Caucus and member of the VA committee, we had an opportunity to 
provide some testimony on health, and you will have an 
opportunity to vote on those bills this afternoon on the VA, 
which is also very critical for a lot of Hispanic veterans that 
are out there.
    But I want to thank you for allowing us the opportunity, as 
Chairman of the Task Force on Health with the Hispanic Caucus, 
that has 18 members of the 21 Hispanic members of the Congress, 
to be here before you.
    Hispanics continue to experiences barriers in the areas of 
health care insurance. I want to briefly just mention to you 
that out of 44 million uninsured Americans in this country, 
one-quarter of those, or 11 million, are Hispanics.
    These are individuals that are working. In fact, out of 
those 11 million that are Hispanics that are uninsured, 9 
million are working individuals, that despite the fact that in 
this country, if you are working for a small company, if you 
are not working for a major corporation, if you are not working 
for Government, you do not have access to insurance.
    Yet, you are not poor enough to qualify for Medicaid; you 
are not old enough to qualify for Medicare; and you find 
yourself without any access to insurance. So the importance of 
the CHIPS Program is critical, and so we want to be supportive 
of those efforts and encourage the importance of continuing to 
fund those efforts in that area.
    The importance of access to health care is one of the 
things that is lacking in the Hispanic community, and one of 
the areas that impacts us the most.
    To address the growing problems, and one which is a 
negative impact on local health disparities in our local 
communities, it is important that we continue to move forward 
in those efforts.
    Our community health centers that provide a vital safety 
net for Hispanics and other minorities throughout this country 
need to continue to be funded. Seventy percent of those served 
by the community health centers are minority. Sixty-six percent 
of them live in poverty.
    The request from our efforts, from the Hispanic Caucus, is 
that we fund them at $250 million above the current funding 
levels for the community health centers.
    President Bush has promised to provide $3.6 billion, over 
five years, to build additional 1,200 community health centers. 
We request a $250 million increase. It would put us on the 
right track to meet the President's needs in this specific 
area. So we ask for your serious consideration.
    Hispanics also account for 20 percent of the new AIDS 
cases. As we look at the issue of AIDS, we see the new data 
that is there and it looks like we are making some inroads but 
despite, it is hitting disproporionately a lot of the low 
income areas.
    Despite the fact that Hispanics represent 12.5 percent of 
the population, we represent 20 percent of HIV cases. So we ask 
for your help and your support in that specific area and 
request full funding at the level of $539.4 million for year 
2002 for the Minority AIDS Initiative to promote capacity 
building for minority-based organizations.
    The U.S. Census 2000 shows that Hispanics make up 12.5 
percent as I indicated. One of the basic ways of dealing with 
AIDS is to make sure we have those community-based programs. 
With the Hispanic community, we have not been able to organize 
those. We have been lagging behind in resources to fight the 
issue of AIDS and we need those resources to make sure we 
establish those community-based organizations to reach out to 
those pockets that are out there.
    In the area of diabetes, it strikes Hispanics--especially 
Mexican Americans and Puerto Ricans--at a disproportionate 
rate. In addition, growing evidence shows that Type II diabetes 
and adult onset diabetes increasingly strikes Hispanic 
children. We are learning more about the relationships. The 
beauty of this is we have a lot of new research where we can 
identify those specific areas with young people, with children. 
We have been able to identify a large number, but now we have 
to do something about that. We need to move forward.
    We ask for increased support of $100 million for Hispanic 
focus on diabetes prevention and treatment. These activities 
include targeting geographic areas throughout this country that 
need to be targeted.
    It doesn't do any good to identify those kids--we are doing 
it--and not do anything about it. Part of that is the education 
that goes along with that. So we ask for your help, assistance 
and your efforts.
    In the area of mental health and substance abuse, one of 
the areas that we have neglected as a country and where people 
have fallen through the cracks, as indicated earlier by my 
friend, is we are finding a lot of young people. When they 
first came to tell me we were having a large number of suicides 
among young ladies of Mexican-American descent, I told them I 
don't believe it, show me the research. Sure enough, they came 
to me and it is startling to see the rates of suicides among 
young Hispanics as well as alcohol and drug abuse. So it 
becomes important that we look at that area of mental health 
and substance abuse, and that we provide some resources.
    President Bush's budget includes an initiative to double 
NIH funds for 2003. While the Hispanic caucus supports 
increasing research funding levels, it is important to find 
ways to encourage Hispanic focused research. The key is toalso 
look at specific research that targets Hispanic populations with a 
clear understanding that with what we face, we can then deliver 
culturally competence.
    There is example after example and one example that comes 
to me, which I have been sharing, when we talk about competency 
and culturally relevant, when this person was told she was 
positive. When you tell them in positive, then you think 
everything is okay and sure enough this person later on had a 
child and contracted AIDS. So there is a need and we should not 
take things for granted. We need to reach out and make sure 
people understand, especially when we deal with issues of 
mental health and the competency and cultural relevancy of 
reaching out to those individuals.
    We had another case of mental health with a person in a 
State hospital in San Antonio who would go out and walk and 
walk, walk and stop, walk and stop and walk and stop and people 
would try to stop her. She would get angry and throw a fit. She 
was actually doing her rosary. She would walk so many steps and 
would stop and keep on. People didn't understand that.
    It is important to recognize the importance of cultural 
competency, language proficiency and what it means. We are 
going to ask for some funding in that specific area of $3 
million. If you want specifics on the funding, I would look 
forward to meeting with you to provide some of those 
statistics.
    The budget also proposes reduced funding to the health 
professionals which provide training grants to institutions to 
increase the number of under represented health professions. 
This is a serious mistake. Right now, every agency in the 
Federal Government is expecting to retire one-third of our 
people. We were just told in the GAO report on the military 
that of 50 percent, 65,000 employees, we are going to retire 
32,000 of them, almost half.
    There is a need for us to invest in apprenticeships. It is 
important for us to invest in those individuals and make sure 
that we have good quality professionals.
    In the area of access to health care, there is a nursing 
shortage in this country and this is not the time to cut back 
on these programs. The budget estimates of $125 million for 
community access programs provides grants to communities, 
hospital and community health centers that serve uninsured 
youngsters and is key. Please look at that funding, especially 
in terms of the apprenticeship programs and providing the 
health professions the assistance that is needed.
    We need to go beyond that. We need to make sure we have 
those qualified professionals out there, those individuals that 
can be culturally competent and have access to the training 
that is important and needed.
    According to the Department of Health and Human Services, 
there are 3,000 medically under served communities. So we need 
these grants.
    Thank you for the time and the opportunity to address the 
subcommittee on the Congressional Hispanic Caucus priorities 
and we look forward to working with you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. The community health centers have served a very 
worthwhile role and I hope we can increase those because I 
think it catches a lot of people who are uninsured and probably 
not able to get medical care.
    Mr. Rodriguez. Yes, sir. In fact, 67 percent are uninsured 
in that category and 70 percent are minority.
    Mr. Regula. Questions?
    Ms. Pelosi. I want to thank the two gentlemen for their 
excellent testimony and Mr. Underwood for his leadership in the 
Asian Pacific Islander Caucus and Mr. Rodriguez who has been 
working on this for such a long time. Last year, he was able to 
get $1.7 million for minority health research and outreach. We 
are hoping that money will be coming very soon to help in 
getting a handle on what these needs are.
    I wanted to bring Congresswoman Christensen in on this as 
well. As you testified earlier, we are blessed that the former 
Chair of the Interior Committee is now in the Health seat 
because he understands the needs of the territories better than 
anyone.
    Mr. Regula. I have had a lot of assistance from Mr. 
Underwood.
    Thank you both for your interest.
    Our next witness is Ms. Ros-Lehtinen from Florida.
                              ----------                              

                                           Tuesday, March 27, 2001.

                          CLOSE UP FOUNDATION


                                WITNESS

HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF FLORIDA
    Ms. Ros-Lehtinen. We are so thankful to have such a strong 
organization nationally and in all of our districts.
    Thank you, Mr. Chairman and members of the subcommittee. We 
are pleased to submit my testimony in support of the Close Up 
Foundation's Allen J. Ellender Fellowship Program.
    During my time in Congress, I have been a strong supporter 
of Close Up and its civic education programs. As a former 
educator, I believe the Close Up Foundation Civic Education 
Program is a valuable weapon in our arsenal to combat 
disaffection with government among our young people.
    The Allen J. Ellender Fellowships are vital in reaching out 
to a diverse group of young people, specifically those in need 
of financial assistance so that we can enable them to 
participate in Close Up's unique civic education program. 
Without the Ellender Fellowship Program, the Close Up 
Foundation would be unable to reach students who are perhaps 
more in need of having their importance to our democracy 
validated.
    The only criterion for a student to receive an Ellender 
Fellowship is an income eligibility requirement and student 
recipients of these fellowships are among the neediest students 
in our educational system. Impressively, the overwhelming 
majority of Ellender Fellowship recipients participate in local 
fundraising activities throughout the year to cover the full 
cost of the program.
    The foundation also has special programs to reach students 
who are recent immigrants to the United States. As a member 
from Florida, one of the most culturally diverse States in our 
Nation, I can personally attest to the growing positive 
influence that these immigrants have had upon the cultural 
fabric of our Nation and the great contributions that they make 
every day to our country. They too need to be educated about 
their adopted homeland and specifically about how our 
government and our democratic form of government works. Close 
Up also outreaches to students in our rural towns and urban 
communities who are beneficiaries of Ellender Fellowship 
assistance.
    I understand the subcommittee faces an extremely difficult 
task in trying to prioritize what programs to fund and at what 
levels, but I ask you to consider the grave need for civil 
education programs, and particularly for programs that reach 
our disadvantaged youth.
    The Close Up Foundation uses the relatively small 
appropriations that it receives for the Ellender Fellowship 
Program as seed money around which educators and students 
expand their local Close Up programs. I ask that the 
subcommittee demonstrate its support for Close Up's civic 
education program by not only maintaining the current $1.5 
million funding level for the Allen J. Ellender Fellowship 
Program but by increasing the funding level. This would send an 
important signal that we in Congress believe that citizenship 
education is as important to being a well-rounded individual as 
knowing math, science and literature. It would be a great 
investment in the strength and well being of our democracy.
    I thank the Chairman and I thank the members and the staff.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. Do you think these young people go back home 
and take the message of things they learn here in the Close Up 
Program back to their colleagues?
    Ms. Ros-Lehtinen. I think so. At least that has been the 
case in our district office. We encourage them to participate, 
they come to our district office, put in their time there as 
well, and go back to their areas, whether they are working in 
Washington or in the district office and really make it work. 
They demonstrate that this is a great country where we are 
given all kinds of opportunities.
    I thank you for funding it and we hope to be there with 
even a little more this year.
    Mr. Regula. Next we have a panel of Mr. Hayworth and Mr. 
Edward on Impact Aid. We heard from some of our colleagues 
earlier making a pretty powerful case. I will let Mr. Sherwood 
take this one.
    Mr. Sherwood [assuming chair]. Gentlemen.
                              ----------                              

                                           Tuesday, March 27, 2001.

                               IMPACT AID


                                WITNESS

HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. Hayworth. Let me thank the gentleman from Pennsylvania. 
It is good to see him in the Chair but my joy at seeing him 
there is eclipsed by the temporary departure of the full 
Chairman of the Subcommittee who is all too aware of the 
challenges we confront.
    I would note for the record that a number of my 
constituents join me in this chamber here today for this 
testimony who could offer very eloquent testimony as to just 
how important this program is. On behalf of all the members of 
the Impact Aid Coalition, I want to thank you and members of 
the subcommittee for affording us this opportunity to address 
what we consider to be a very, very important issue, an issue 
of critical importance, impact aid.
    Impact aid is a Federal education program that provides 
funding to more than 1,500 school districts connected in some 
way to the Federal Government, whether by an Indian 
reservation, a military installation, or the designation of 
Federal land. Traditionally, property sales and personal income 
taxes account for a large portion of the average school 
district's annual budget but impact aid schools educate 
students whose parents may live on nontaxable Federal property, 
shop at stores that do not generate taxes, work on nontaxable 
Federal land, or do not pay taxes in their States of residence. 
School districts could also receive impact aid if some or all 
of their property was taken off the tax rolls by the Federal 
Government.
    As one of the Co-Chairs of the Impact Aid Coalition, I am 
honored to be here to fight for this important program and I am 
so pleased the gentleman from Texas, Mr. Edwards, joins me in 
this endeavor. The Coalition will be sending you a letter 
requesting your support for its goals of securing $1.19 billion 
in funding for the Impact Aid Program for fiscal year 2002. 
While this is an increase of approximately 19 percent over last 
year's funding level, Mr. Chairman, it is important to note 
that the amount the Federal Government actually owes impact aid 
schools for basic support and Federal property payments is more 
than $2 billion.
    Increasing impact aid funding to $1.19 billion will be an 
important step toward fully funding this program which 
currently receives less than half of its authorized funding.
    As you may know, the Sixth District of Arizona, which I am 
honored to represent, is the most federally impacted 
congressional district in the country. My district alone 
receives nearly $100 million in impact aid funds. Without these 
funds, thousands of my young constituents would simply not be 
educated, constituents who join me today in this hearing room.
    My district is unique because it has the largest Native 
American population in the 48 contiguous States, nearly 1 out 
of every 4 of my constituents is a Native 
American.Approximately 50 percent of the land mass in my district is 
tribal land. Many Native American reservations face staggering 
unemployment rates and other devastating economic conditions. For many 
children on these reservations, education is their only hope to escape 
a life of poverty.
    I am sure you are aware of the Federal Government's treaty 
obligations to our sovereign Indian tribes and nations. Part of 
these obligations includes educating these children. It was 
part of the treaty trust obligation. Without impact aid, the 
Federal Government cannot live up to those aforementioned 
treaty obligations. Therefore, I wholeheartedly support the 
Coalition's goal of securing $1.19 billion for this important 
program.
    You know that I am ever critical of wasteful and 
unnecessary government bureaucracy. Therefore, I am 
particularly pleased to support impact aid as funds in this 
program are provided directly to the local school districts for 
general operating expenses. The use of impact aid funds is 
determined by locally elected school boards. As you know, the 
money appropriated by Congress is sent by electronic financial 
transaction directly to the financial institution of the 
eligible school district. There is no administrative cost 
associated with the program.
    I am also a strong critic of wasteful spending and the 
inappropriate use of Federal tax dollars that is seen from time 
to time here in our Nation's Capitol. I am completely committed 
to maintaining a balanced budget. However, because impact aid 
services military families and Indian tribes, my colleagues 
understand this full well. It is an unequivocal Federal 
responsibility.
    Through a robust impact aid program, we can demonstrate our 
commitment to those children who would otherwise be shut out 
from most educational opportunities. By funding impact aid, at 
$1.19 billion for fiscal year 2001, we can fulfill our 
responsibility of providing these educational opportunities to 
each of our Nation's students.
    Again, thank you, Mr. Chairman, and members of the 
subcommittee for inviting members of the Impact Aid Coalition 
here today to voice our opinions, to be joined by our 
constituents. I would be happy to remain here to answer any 
questions you might have.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you very much.
    Now we will hear from the gentleman from Texas.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                WITNESS

HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS, ON BEHALF OF THE IMPACT AID PANEL
    Mr. Edwards. It is an honor for me to join my colleague, 
J.D., to speak on behalf of the bipartisan 127 House member 
Impact Aid Coalition.
    To most Americans, the term impact aid may not mean 
anything but to 13 million American children, it means the 
difference between receiving a quality education and a mediocre 
or poor education.
    With the Chairman's approval, I would like to submit my 
written testimony and would like to do something a bit 
different if I could, and then give back some of my five 
minutes of time.
    I would like to put a human face on the statistics behind 
those 13 million Americans impacted directly by this education 
program.
    This comes from a Washington Post article of March 14, a 
story of one military family. Let me read several excerpts. The 
first is a letter from an Army Soldier, Randy Roddy who was in 
Saudi Arabia at the time his son was about to have his second 
birthday. This is what he wrote to that son. ``As your second 
birthday rolls around and it is apparent that we will not be 
able to spend it together, I find it important to write you and 
tell you some things you need to know. Someday perhaps you will 
be able to pull out this letter and comprehend.''
    He then goes on to say, ``I must start by telling you how 
proud I am to have you as my son. You never cease to amaze me 
when I see you on a video cassette. Because of events in this 
world of ours that are bigger than either you or me, I have not 
been able to share these last five months with you.''
    The article goes on to talk about Mr. Roddy's spouse. It 
said, meanwhile at Ft. Bliss in the Texas desert, Lisa had her 
own struggles raising their child, working a receptionist job 
to supplement their pay, soothing the fragile emotions of 
several dozen wives whose husbands served in Randy's command. 
``They look to me,'' she said, ``as a troop commander's wife. I 
helped deliver two babies, I helped when someone's car was 
repossessed. One wife tried to kill herself and her three 
children and called me.'' The articles goes on and says, ``You 
don't just join the Army, the whole family does.''
    It talks about Mr. Roddy's four-year-old child, a little 
girl, who lost all of her hair because of being distraught when 
her father was deployed to Korea on a company tour for a year.
    The reason I mention the story of the Roddy family is it is 
clear we underpay our military soldiers and their families, all 
of our troops from all services. It is clear to our Military 
Construction Subcommittee that 60 percent of our military 
families live in housing that does not meet basic DOD 
standards.
    The reason I mention that is it seems to me if we can't pay 
our military soldiers and their families what they deserve, if 
we ask them to live in substandard housing, if we ask their 
families to spend month upon month away from loved ones serving 
our country, risking their lives for you, me and our families, 
the very least we should do as a country for these families is 
to say to them while you are serving your country and risking 
your life, we are going to ensure that your children will 
receive a quality education.
    I think the story of the Roddy family tells the story of 
the importance of impact aid. Whether it is Native American 
children or children of military families, amidst the many 
important competing priorities that you must set, I hope this 
subcommittee would once again remember the importance of 
funding adequately the Impact Aid Program. I would like to look 
at Mrs. Roddy who will be before our Military Construction 
Subcommittee in a few weeks and say, despite all of the 
difficulties and perhaps some of the things we ask you to 
sacrifice, we will see that your children receive a quality 
education.
    That has happened in the past, Mr. Chairman, because of the 
members of this subcommittee and we respectfully ask, on behalf 
of the Coalition and these 13 million children for whom we 
speak, that you please continue that leadership effort and 
support fully funding for impact aid.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you both very much for your exceptional 
and compelling testimony.
    Two years ago at a readiness hearing in Italy with our 
distinguished late chairman of the Readiness Committee, Mr. 
Bateman, I was talking with some military personnel there and 
made almost the same statement you did. When our brave young 
men and women are defending us around the world, the least we 
can do is see there is a good education for their children.
    In all these areas where the Federal Government, by treaty 
or law, has denied these school districts of revenue that would 
normally be there, we have to step up to the plate, so we will 
take a strong look at it.
    Mr. Hayworth. One note. We should point out that though my 
friend from Texas concentrated on military dependents and I 
talked about some of the challenges facing tribes, these 
concerns are not mutually exclusive. If you take a look at 
those who answer the call to military service, tribal members, 
Native Americans, more than any other group, answer the call to 
military service. So there is a connected interrelationship 
here. I would appreciate the committee taking that into 
account.
    I commend my friend from Texas for very eloquent testimony 
about what is faced by military dependents. You can see on the 
faces of my constituents here and they could offer very 
profound testimony from their real life experience.
    I appreciate your hearing us and the Chair's indulgence for 
this time this afternoon.
    Mr. Sherwood. The gentleman from New York, Mr. Fossella.
                              ----------                              

                                           Tuesday, March 27, 2001.

                       JUVENILE DIABETES RESEARCH


                                WITNESS

HON. VITO J. FOSSELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Fossella. Thank you for providing me the opportunity to 
testify today.
    I would like to thank you and this committee for continuing 
the effort to double the budget of the National Institute of 
Health by the year 2003. Since being elected to Congress, I 
have been a strong supporter of meaningful funding for the 
National Institute of Health, and I applaud the President's 
recent announcement that he will seek increased funding for 
life-saving medical research at the NIH.
    I would pause to thank publicly all those dedicated 
professionals employed by the NIH and all health care 
professionals publicly and privately who dedicate their lives 
to try to improve the human condition.
    Politics is a lot of things to a lot of people but one 
thing we can agree upon is that we can all work together to 
improve the human condition. We have seen it time and time 
again where illnesses we thought could never be solved have led 
individuals to lead better lives. As far as I am concerned, our 
best days are ahead.
    Of special concern to me is meaningful funding for the 
National Institute of Diabetes and Digestive and Kidney 
Diseases for fiscal year 2002. Finding a cure for Type I 
diabetes is absolutely doable and with congressional support, 
it will happen. No one in my parents' generation ever imagined 
a human being would travel in space, let alone land on the moon 
but on May 25, 1961, President Kennedy stood before a joint 
session of Congress to declare it ``time for a great new 
American enterprise.'' Then in 1969, what seemed impossible 
became reality.
    I believe we are now in a time of a great American 
enterprise, a time when we are closer than ever before to not 
only helping the millions who currently suffer from the 
insidious condition of diabetes but laying the foundation for 
future generations to live their lives free of this disease.
    It is not just a health issue, it happens to be an economic 
one as well. Diabetes happens to be a very costly disease to 
our Nation and accounts for approximately $105 billion in 
direct and indirect health care costs. One out of ten health 
care dollars overall are spent on individuals with this 
disease.
    I understand the World Health Organization estimates there 
are 125 million people worldwide with diabetes. This number has 
increased 15 percent in the last 10 years and is actually 
expected to double by the year 2005. In the U.S., the CDC 
refers to diabetes as ``a major public health threat of 
epidemic proportions.''
    Ten million people in our Nation have already been 
diagnosed with diabetes while an estimated 6 million have 
diabetes but are undiagnosed. To put that in prospective, 
onaverage, there is an estimated 23,000 people diagnosed and another 
14,000 undiagnosed in every congressional district across the country.
    More important than the costs are the lives this disease 
takes. Each year, 193,000 people die from complications from 
this disease. That is one every three minutes. Clearly a cure 
must be found and I believe it will be.
    Great and promising strides have recently been made in 
funding a cure for Type I diabetes. The contributions must 
continue and with your assistance, I am confident a cure will 
be discovered during our lifetime.
    Researchers are collaborating on many new treatments and 
others on the identification of the genetic components of 
diabetes. One of these promising treatments is known as the 
Edmonton Protocol for Eyelet Cell Transplantation. This is a 
process where insulin-producing cells called eyelet cells are 
removed from the pancreas and transplanted to a diabetic 
patient. The success rate has been extremely encouraging.
    The researchers in Edmonton, Canada have announced they 
were successful in transplanting the insulin producing eyelet 
cells into a number of men and women with Type I diabetes 
resulting in the discontinued use of insulin injections which 
is the scourge of millions who suffer from it. To date, more 
than 16 men and women have received this transplant and 100 
percent remain off insulin entirely.
    Researchers are further studying this transplantation 
without the need of the dreaded immunosuppressant drugs. The 
Edmonton Protocol has given the diabetic community great hope 
for a cure. Clinical trials of this extraordinary 
transplantation will be taking place and are taking place here 
in the United States. The procedure may not be helpful to 
children because it requires the use of the immunosuppressant 
drugs I mentioned before. Children's fragile bodies simply 
cannot withstand these very strong drugs.
    It is my hope that continued research with your support and 
members of this committee and indeed all of Congress, will soon 
enable more adults and even children to utilize eyelet 
transplantation. Our support is crucial to capitalize on the 
success of eyelet cell transplantation and to shorten the 
timeline to cure that we know is within our grasp.
    Mr. Chairman, you have been a leading advocate in this in 
playing an important role in encouraging increased research of 
diabetes and particularly Type I diabetes. Last year, Congress 
and the White House approved a 60 percent increase, the largest 
ever in juvenile diabetes research funding at the NIH. This 
increased funding will allow researchers to explore new 
opportunities to cure diabetes.
    It is my hope that Congress remains committed to helping to 
find a cure for diabetes. The time is now, the cure is within 
our grasp. It is not just the individuals, it is the families 
that are affected adversely, the 18-month-olds, the two-year-
olds that have to live and forever live until a cure is found 
with the six to eight times a day of pin pricks and two, three 
and four injections. All we would like to do is help them live 
a normal and healthy life.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula [resuming chair]. I understand. I have had some 
families from my district visit with me and I know the 
difficulty it creates for everyone involved. We do hope we can 
get a cure. It would be a wonderful thing to get a breakthrough 
on that.
    I know NIH is pursuing research very aggressively, 
especially using cell process as you described. That would be a 
wonderful thing if we could. We will do all we can.
    Mr. Fossella. Thank you, sir.
    Mr. Regula. Mr. Wu, you get the honor of being the last one 
today.
                              ----------                              

                                           Tuesday, March 27, 2001.

                                PROJECTS


                                WITNESS

HON. DAVID WU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
    Mr. Wu. Thank you.
    I thank you for the opportunity to testify before the 
subcommittee today. As you prepare the fiscal year 2002 
appropriations bills, I would like to bring to your attention 
several projects from my congressional district that I think 
are worthy of national attention.
    I am seeking $2.5 million from the Fund for the improvement 
of post-secondary education to support the Mark O. Hatfield 
School of Government at Portland State University. It is named 
in honor of Oregon's most prominent and distinguished national 
leaders and has been a solid academic center for the 
advancement of education and research about public service.
    The money will be used to fund faculty and staff and 
support students at the school and the various research 
institutions such as the Institute for Tribal Government which 
the larger committee helped fund last year.
    Among the activities that will be funded is advanced 
education for elected and appointed officials at all levels of 
government, including those at non-profit organizations and 
other public institutions.
    In addition, funds will be used to increase the awareness 
of the importance of public service and to foster among young 
Americans greater recognition of the role of public service in 
the development of United States and to promote public service 
as a career choice.
    There is an extensive history of Federal funding for the 
Hatfield School of Government. Congress approved funding for 
the school in fiscal year 1999 and 2000 and last year as I 
noted funding was approved for the Institute of Tribal 
Government, an institution unique in the 50 States to study and 
support tribal governments.
    The second project I would like to mention briefly is a 
million dollar request from the Fund for the Improvement of 
Education for the Portland Metropolitan Partnership. We talk a 
lot about improving primary and secondary teaching but without 
strong leadership from the top, I don't believe that progress 
is possible. This program at Portland State University is aimed 
at providing that kind of leadership within schools.
    Third, I am seeking $2 million from the Administration on 
Aging for Oregon Health Sciences University for the second 
phase of the Center for Healthy Aging. The subcommittee 
supported the first phase of this project with a $1 million 
appropriation in fiscal year 2000. This demonstration project 
promotes health and prolonged independence by coaching 
participants and connecting them with resources to bring about 
positive changes in health behaviors and status.
    Here I would like to go off the written track a bit by 
mentioning that Oregon is among that handful of States thathas 
really innovated in helping older Americans achieve and maintain 
independence for longer periods of time. This not only gives older 
Americans their choice of lifestyles because I think many would prefer 
to stay as independent as long as possible, but in addition, it helps 
save the Federal Government money because if we don't have to 
institutionalize people, it is a significant savings. The Center on 
Health Aging's purpose is disseminate a clinical model which works both 
for older Americans and for our public purse. It is a worthwhile 
project this committee has seen fit to fund in the past.
    About two weeks ago, this subcommittee heard from Dr. 
Grover Bagby, the Director of the Oregon Cancer Center at OHSU. 
Dr. Bagby addressed the growing shortage of nurses faced by 
academic as well as rural health centers. The baby boom 
generation has provided its share of nurses and as a result, we 
will be facing large scale retirements soon. OHSU is expecting 
that 45 percent of the nursing faculty will retire within four 
years and because of this, we are attempting to alleviate the 
nursing shortage through the Laboratory for Teaching Technology 
application and innovation in nursing at OHSU. I am requesting 
$1.9 million from the Health Resources and Services 
Administration, Rural Health Outreach Grant Account.
    Without the teaching nurses at OHSU, we do not expect to be 
able to get nurses into the rural parts of the State nearly as 
effectively as we otherwise could.
    Finally, I hope you will be able to support a small portion 
of the Columbia River Estuary Research Program through the Fund 
for the Improvement of Post Secondary Education. We are seeking 
funding to train scientists, students and faculty for this 
program. Last year, the subcommittee supported the program 
through an appropriation to establish certificate and graduate 
degree programs in environmental information technology. We are 
seeking to continue that programmatic development and training.
    I might add I became familiar with this program several 
years ago as a private citizen. It is an amazing public/private 
partnership where this research institution has basically gone 
to the mouth of the Columbia River, one of the major estuaries 
of the U.S. west or anywhere in America, and by studying the 
currents, studying temperature, salinity, water density and 
flows, by being able to predict where things wind up, these 
folks are better able to help ships navigate the Columbia 
River, help salmon smelts navigate downstream to get out to the 
ocean, help predict where pollutants will wind up.
    There is an obvious hardware component of this program but 
there is a very important human and training component to this 
program. That is where we are seeking help from this 
subcommittee. It is a well leveraged and well worthwhile 
program.
    I thank the committee for its attention to these programs 
of importance to Oregon and am ready to answer any questions 
you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Sounds like you have some 
interesting projects.
    Is the School of Government at Portland something like what 
they have at Harvard with the Kennedy School?
    Mr. Wu. In essence, it is our northwest version of the 
Kennedy School, yes, or the midwest version of the Hubert 
Humphrey School or the LBJ School.
    Mr. Regula. The aging project sounds interesting. You are 
trying to help older people stay independent for a longer 
period of time?
    Mr. Wu. That is an important goal. Perhaps that is a 
primary goal along with helping them to stay healthier longer.
    Mr. Regula. That goes along with it. You can't be 
independent if you are not healthy.
    Mr. Wu. That is right. And at a fixed health status, if you 
will. We want to help people stay healthier but at one fixed 
health status, if you are able to coach the individual and also 
bring together community resources to focus on the individual, 
if the individual can reach out to the resources and bring 
community resources to bear, at the same health status that 
person might be tempted to go into an institution whereas if 
you bring the services together in the right way and empower 
the individual.
    Mr. Regula. You make the community more friendly to 
independence?
    Mr. Wu. Yes.
    Mr. Regula. Do you involve the family? A lot of times this 
would take education of families for support members. Does the 
program involve family members too?
    Mr. Wu. Absolutely. In this program there is a very strong 
educational component for the family and I should say outside 
of this program in the general model, there is the availability 
for some State funding of family members so that family members 
can take more time away from other things and be more 
appropriate and more effective caregivers to fellow family 
members.
    Mr. Regula. Sounds like a very worthwhile program.
    Mr. Wu. It is something that had a bit of room to run in a 
few other States and no where has it gone as far as it has 
especially in the Klamath Valley part of the State of Oregon. 
If we can make this model effective and try to replicate it 
elsewhere, I have heard academicians from around the country 
discuss how this would make people happier by keeping them 
independent but be a major cost savings to the Federal 
Government.
    Mr. Regula. I think that is absolutely right on both 
counts.
    Do you have Klamath Valley?
    Mr. Wu. No, I do not. It is Mr. Walden's good fortune to 
have the Klamath Basin.
    Mr. Regula. It would be further east.
    Mr. Wu. A bit to the east and to the south.
    Mr. Regula. Do you have the city?
    Mr. Wu. Most of my congressional district is rural but I 
also have the urban core of Portland, the financial district, 
the most urban parts of Portland through the high tech suburbs 
but two-thirds or three-quarters of my congressional district 
is actually forestland or agricultural land.
    Mr. Regula. What corps or cattle?
    Mr. Wu. Not much in the way of cattle but we have a lot of 
orchards, a lot of nursery stock as it became too costly to run 
nurseries in southern California, a lot of the nursery folks 
came up to my neck of the woods, and hazelnuts or filberts as 
we prefer to call them in the northwest and I think some of the 
best wines in America.
    Mr. Regula. You must have a somewhat temperature climate 
there?
    Mr. Wu. Yes. It is a temperate climate more like the 
Mendocino coast or the burgundy kind of climates in Europe. We 
are so far north that our vinters have the challenge of highly 
variable growing seasons. That creates both the best of times 
and the worst of times as agriculture tends to do.
    Mr. Regula. Thank you for coming.
    The committee is adjourned until 10:00 a.m. tomorrow.
                                            Tuesday, April 3, 2001.

           McKINNEY EDUCATION FOR HOMELESS CHILDREN AND YOUTH

                                WITNESS

HON. JUDY BIGGERT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. I call the committee to order.
    We have four panelists. You are not the ones that were 
scheduled for Panel 1, but we have four of you, so I am just 
going to go ahead and then as the others come in, we will use 
them on Panel 2 or Panel 3. I would be interested to hear what 
you have to say, and I know these are tough issues.
    We will start out with you Mrs. Biggert. Try to stick to 5 
minutes, if possible.
    Mrs. Biggert. Thank you, Mr. Chairman and distinguished 
members of the subcommittee, who aren't here, but I will say 
hello to them anyway.
    Mr. Regula. This is not unusual. That is why I get the 
extra pay.
    Mrs. Biggert. I am sure they will join you as time goes on.
    As the Republican cochair for the Congressional Women's 
Caucus, I am pleased to have the opportunity for our members to 
testify today. Every year this forum has provided the caucus an 
opportunity to come together as a bipartisan group to discuss 
issues affecting women throughout the United States. And I 
would like to thank you again for extending us the opportunity 
for this year.
    Today I would like to express any support for the McKinney 
Education for Homeless Children and Youth, the EHCY program, 
and I respectfully request the subcommittee to appropriate 
$70,000,000 for this program in fiscal year 2002. Children 
represent one of the fastest growing segments of the homeless 
population. In fact, an estimated 1,000,000 children and youth 
will experience homelessness this year, a situation that will 
have devastating impact on their educational advancement.
    Because of their unstable situation, these children face 
significant hurdles in obtaining an education. Studies show 
that homeless children have four times the rate of delayed 
development, are twice as likely to repeat a grade, and are 
more susceptible to homelessness as adults. EHCY removes these 
obstacles to education for homeless children and has made a 
real difference in the lives of many children and families. 
Yet, appropriations for the McKinney Education Program, the 
only Federal education program targeted to these children, have 
not kept up with demand for services or inflation.
    Despite the increase in homelessness, Congress did not 
increase the funding for this program at all from 1995 until 
2000. When Congress did finally increase the funding in 2001, 
it appropriated $35,000,000 for the program an increase of just 
$6,200,000. The lack of adequate funding for this program has 
been a major barrier to educating homeless children and youth. 
According to a recent national survey, in 1997 States were only 
able to serve 37 percent of school-aged children identified to 
be in this difficult situation.
    Compounding the problem is the poor collection of data on 
homeless children. States often do not have the resources to 
conduct the necessary assessments, and the lack of a uniform 
method of data collection has resulted in unreliable national 
data and the possible underreporting of homeless children.
    Earlier this month the subcommittee heard testimony from 
Lois Ferguson on behalf of the National Coalition for the 
Homeless. She gave emotional testimony about her experiences 
with homelessness and how the EHCY program had benefited her 
family. EHCY can make a real difference in many more lives, but 
only if the funding is there.
    I understand and appreciate the enormous budget constraints 
under which this subcommittee is working. However, I believe 
there is no better time than now to renew and strengthen 
Congress' financial commitment to helping provide homeless 
children with access to a quality education. I ask that you 
match the $70,000,000 that the Senate Health, Education, Labor, 
and Pensions Committee has recommended for the program in 
fiscal year 2002. By doing so, you will be reaching out to 
homeless children, helping to ensure that they don't lose out 
on what is guaranteed for all our children, a free public 
education. You also will be meeting President Bush's call to 
leave no child behind.
    Thank you very much for allowing me to testify today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you think the faith-based, if that program 
does develop, would be one group that might offer some services 
for these children?
    Mrs. Biggert. I think that is one way to address it. But 
what really concerns me is getting them back into a school 
system immediately and no red tape. And I think that the amount 
of money to do that, to have help financially for the 
ombudsman, and then the awareness that they know they can go to 
a school right away. And spreading $70,000,000 even over 50 
States doesn't go very far.
    Mr. Regula. I notice you are close to Chicago. They have 
had some enlightened programs in their school system. Has the 
Chicago system done anything innovative in providing these 
services?
    Mrs. Biggert. What we did in Illinois--and, in fact, I have 
introduced the homeless education bill, which is in the 
reauthorization of the K-through-12 program, and that is the 
model that we use for that program. So Illinois has a very 
great model for all the States in the education of children, 
and it is working very well there. And even, in fact, just a 
couple of weeks ago one of my schools, you would not think 
would have homeless children in it, it really worked out a 
program for a couple of kids that were homeless and didn't know 
where to go were enrolled in school; and they had the ombudsman 
that was provided in this program.
    So it really is working there. It was brought to my 
attention from other States, saying why can't we have the same 
kind of program.
    Mr. Regula. I guess it takes local initiative, because we 
had $35,000,000 last year, which obviously is not enough.
    Mrs. Biggert. Well, you know, for the homeless centers just 
to be able to provide not only for education, but to be able to 
provide for all the homeless and particularly the children.
    Mr. Regula. I am sure it is a severe problem.
                              ----------                              

                                            Tuesday, April 3, 2001.

                         THE WELLNESS OF WOMEN


                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Mr. Regula. Mrs. McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and good 
morning to you.
    Mr. Chairman, as the co-chair of the Women's Caucus, I am 
proud to come this morning. And we thank you for the 
opportunity to come before you this morning to again lay out 
our agenda for women and women's health. I am proud to have the 
women who have come this morning as a strong showing of 
advocacy for women across this country, especially the women 
who know of the myriad of health issues and problems that we 
see.
    I have testified in the past, Mr. Chairman, before you and 
others, on the need for us to look at the National Bone Marrow 
Program, telemedicine, breast, cervical, and lung cancers, 
fibroid tumors and other critical health issues. I was very 
pleased and very happy to have sat in the audience when the 
President mentioned his increase in funding in his budget for 
NIH.
    I respectfully request then that the 16.5 percent that the 
NIH is requesting for the various outlines of health issues 
that I will talk to this morning really be put in the budget, 
that is, $3,400,000,000 for NIH so that we can see some 
improvement in women's health. We have chosen for our theme 
this 107th Congress ``The Wellness of Women,'' and we certainly 
want, in our efforts and others' efforts, to promote and 
preserve women's health.
    As you know, heart disease is the number one killer for 
American women. Studies suggest that women are more likely than 
men to die from a heart attack, and women who recover from a 
heart attack are more likely than men to have a stroke or 
another heart attack. In fact, 44 percent of women die within a 
year following a heart attack compared to 27 percent of men. 
CDC is asking for $50 million to expand community education 
programs in 35 States for cardiovascular health programs.
    Another illness, Mr. Chairman, is that of cancer. It is the 
second leading killer of American women claiming 43,900 women 
in 1997. So early detection coupled with improved treatments 
has led to a decline in breast cancer rates, as well as 
cervical cancer, if women do get Pap smear tests. However, lung 
cancer has become the number one killer for women in terms of 
cancer in the cancer category, so we are asking, as well as the 
CDC, for the National Breast, Cervical, and Lung Cancer the 
Early Detection Program in the amount of $210,000,000 so that 
we can try to grapple with this whole notion of women and lung 
cancer, as well as cervical and breast cancers.
    Another disease that is really crippling women is that of 
lupus. Lupus affects one out of every 185 Americans. Although 
lupus can occur at any age and in either sex, 90percent of the 
victims with lupus are women. During the child-bearing years, lupus 
strikes women 10 to 15 times more frequently than men. And so we are 
asking for again, the NIH appropriation for lupus at $55,200,000.
    We are also--and the final thing that I would like to 
address is diabetes, the fourth leading cause of death in 
African American, Native Americans and Hispanic women, the 
sixth leading cause in Asian women and the seventh leading 
cause in white women. An estimated 16,000,000 Americans have 
diabetes, but only 10,600,000 cases are diagnosed, of which 
4,200,000 are women. Left untreated, diabetes can lead to 
severe vision loss, heart disease, stroke, kidney disease, and 
amputation of the lower limbs.
    The current NIH appropriation earmarked for diabetes is 
only 65 percent of the funding necessary. Therefore, I am 
asking for 1,500,000,000, which is 100 percent of the funding 
needed to address this single most costly disease in America.
    Mr. Chairman I was really thrown aback when I went to one 
of the clinics in my district to find that young African 
American women, ages 25 to 35, are really being crippled with 
visual impairments due to diabetes because they do not have 
health insurance. And so we are asking for this increased 
funding for education programs, for research, and for treatment 
of women.
    We know that women now are making up 52 percent of the 
heads of households; there must be a wellness among women for 
them to continue to be sometimes the only breadwinner for our 
children.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you. I might mention to you, we did go to 
the Centers for Disease Control yesterday, nine of the 
committee members and the staff. It was a very interesting day, 
and they mentioned some of the things that you just brought 
out.
    Ms. Millender-McDonald. Thank you.
    Mr. Regula. I think one of the problems in diabetes is that 
people don't know they have it until their vision and some of 
the things you just mentioned becomes evident of it.
    Ms. Millender-McDonald. I will be following them. And thank 
you so much; the CDC and NIH I will be working with them, so I 
do thank you.
    Mr. Regula. They do a nice job. We will be hard-pressed to 
do all the things that we need to do----
    Ms. Millender-McDonald. I know that is right.
    Mr. Regula [continuing]. With what is allocated to us, but 
we are going to give it a try.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                       WOMEN IN SMALL BUSINESSES


                                WITNESS

HON. SHELLEY MOORE CAPITO, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF WEST VIRGINIA
    Mr. Regula. Mrs. Capito.
    Ms. Capito. Thank you, Mr. Chairman, for allowing me to 
come here today and give you some brief and very general 
testimony.
    Wellness of women--I am the Vice Chair of the Women's 
Caucus--I am talking more wellness of women in terms of their 
economic wellness. In recent years women have made great 
strides in the workplace, especially as entrepreneurs. Between 
the years of 1987 and 1997 the number of women-owned businesses 
has increased 89 percent, and today there are more than 
8,500,000 small business owners in the United States that are 
women, and many in West Virginia, my home State.
    The small business has been and always will be the key to 
the American dream, especially for women and other minorities. 
But erecting and ignoring government barriers that hinder their 
success will slow their creation of and stifle their growth. In 
February of this year, six of my constituents received Small 
Business Administration loans; three of those business owners 
were women. Although they were very happy to receive the 
financial support, they probably would have been happier if the 
government would remove some of the unnecessary regulations 
that prevent them from doing such things as offering expanded 
health insurance policies to their employees or creating new 
jobs, all things that could be done with the costs that they 
expend jumping through the hoops of government bureaucracy.
    Women need to have better access for financing, for they 
are small businesses. As leaders entrusted with this 
responsibility, we need to be vigilant and recognize these 
needless barriers that burden our small businesses. So we have 
to be aware that we need to not tolerate the unnecessary 
obstacles that prevent women and minorities from the American 
dream. I can't help but wonder how many more women or minority 
entrepreneurs we could have if we made starting and running a 
small business a little bit easier.
    So today I would like to ask that we work together to 
preserve and extend the ideas of the American dream, and let's 
send this message that the true entrepreneurial spirit is 
available to them.
    Thank you for letting me make this general statement. I 
appreciate you listening.
    Mr. Regula. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Regula. I read a comment the other day that--I think it 
was Germany's czar for production said, if his country had used 
women as effectively as the United States, it could have had a 
pretty substantial impact on their ability to fight World War 
II. He recognized--fortunately, belatedly--that women are 
very--and I think that was a unique phenomenon in the United 
States, the impact of the women on the war effort. Rosie the 
Riveter truly was a very great part of it.
    And the point you make is well taken that the role has 
expanded. When I came here there were 18 in the House, now we 
have how many?
    Mrs. Biggert. Sixty-one.
    Mr. Regula. There was one in the Senate. Now there are 
nine.
    Ms. Capito. Watch out.
    Mr. Regula. None on the Court and now we have two, of 
course.
    I was startled to sit with a lady the other day who had 
three or four stars, which is kind of unique too. Times have 
changed, fortunately for the better.
    Stephanie, you are on the third panel, but I will just take 
Louise and then we will come to you.
                              ----------                              

                                            Tuesday, April 3, 2001.

                NIH OFFICE OF RESEARCH ON WOMEN'S HEALTH


                                WITNESS

HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK
    Mr. Regula. Mrs. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman. Good morning to you 
and Ms. DeLauro.
    I guess, in view of this conversation, it is probably good 
to point out this is Equal Pay Day, and women in the United 
States are still only paid 78 cents to the male dollar. So we 
are making some progress, but it is going pretty slow there. 
And we have contributed a great deal; we do want to be 
recognized.
    I do appreciate the opportunity to testify before the 
subcommittee on issues that are important to the Women's 
Caucus. As a Vice Chair of the caucus, I speak on behalf of all 
my colleagues when I say that we look forward to continuing our 
excellent working relationship with this subcommittee under 
your leadership.
    I would like to highlight briefly two issues that are 
extremely important to the health of American women. The first 
is women's health research at the National Institutes of Health 
and particularly the efforts of the NIH's Office of Research on 
Women's Health.
    This is a tiny office with a monumental mission. It has a 
threefold mandate to, one, strengthen, develop, and increase 
research into diseases, disorders, and conditions that affect 
women, determine gaps in knowledge about such conditions and 
diseases, and establish a research agenda for NIH for the 
future directions in women's health research;
    Second, to ensure that women are included as participants 
in NIH-supported research; and
    Third, to develop opportunities and support for 
recruitment, retention, reentry and advancement of women in 
biomedical careers.
    Under the leadership of Dr. Vivian Pinn, this office has 
made major inroads on all of these issues. Its progress is 
hampered, however, by a lack of resources. Over the past 4 
years they have received paltry budget increases, especially 
given the fact that Congress is working to double the NIH 
budget. For fiscal year 2000, NIH received a budget increase of 
14 percent, but the ORWH budget was increased less than 4 
percent. It is currently carrying out its mission with a 
$22,000,000 budget and, by contrast, the new Center for 
Minority Health and Health Disparities is funded at 
$132,000,000 for fiscal year 2001 and the Office of AIDS 
Research at $48,200,000.
    Last year I organized a letter from 22 women Members to 
Acting Director Ruth Kirschstein asking her to increase the 
budget. It is my understanding that she has requested a 
respectable budget increase for the Office of Research on 
Women's Health for fiscal year 2002. I hope the subcommittee 
will not only fund this request fully, but include language in 
the accompanying report encouraging the future permanent 
director to maintain this commitment. And that is a very 
important step.
    I would like to turn now to the other issue on my agenda, 
which is environmental health. The interplay between an 
individual's genetic predisposition to disease and the 
environment is not well understood. The evidence is clear and 
accumulating daily, however, that the by-products of our 
technology are linked to illness and that women are especially 
susceptible to these environmental health-related problems.
    There are many reasons for that, the makeup of a woman's 
body containing more fatty tissue, more exposure to household 
chemicals, and the like. You may have seen or heard Bill 
Moyers' recent report, titled ``Trade Secrets.'' Mr. Moyers 
detailed the fact that the chemical industry has kept 
confidential documents over the past 50 years about adverse 
health effects of workplace chemical exposures on their 
employees.
    In addition, a recent CDC report showed that all Americans 
have traces of pesticides, metals, and plasticizers in our 
blood and urine. What does this mean for our health? We don't 
know. However, the chemical industry has also provided great 
benefits to society through industrial and technical 
advancement. It is a question of benefit versus risk, but we 
need to at least understand the risk to make an assessment.
    I urge the subcommittee to provide increased funding for 
the National Institute of Environmental Health Sciences to 
enhance the research on environmental causes of disease so that 
we may improve the public health of America. This investment 
will save the lives and health of people who today suffer 
needlessly because we lack the scientific data to understand 
the effect of environment of exposures on human health.
    Mr. Chairman, I would like to note that I am proud to have 
recently introduced H.R. 183, the Women's Health Environmental 
Research Centers Act, a bill that will enhance scientific 
research in women's health and the environment and will fill a 
gap in the NIEHS research agenda by targeting resources to 
women's environmental health. NIEHS fully supports the 
initiative, and I would very much like to work with you, Mr. 
Chairman, on empowering the agency to create these research 
centers.
    Again, thank you very much for the opportunity to address 
you on these important issues.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    I might mention that at CDC they have one section on 
environmental health generally. An interesting footnote, they 
said they could take a sample of your blood and tell you all 
the various components how much arsenic is in it, how much all 
the various metals. Ms. DeLauro was there.
    You want to go ahead and ask some questions or comments.
    Ms. Slaughter. They can tell you almost everything from a 
drop of blood, including all the diseases that you have had as 
a child. It is a remarkable fluid that we have here. As former 
microbiologist, I am very fond of it.
    Mr. Regula. I like a good supply myself.
    Ms. DeLauro.  I will just briefly comment to Mrs. Slaughter 
it was a really fascinating what the CDC is doing--I was there 
with the group yesterday--particularly in this area and what we 
could do by way of tracking illnesses and so forth and dealing 
with genetic predispositions. So your words are well taken.
    Ms. Slaughter. Three to 4 percent of breast cancer in women 
is genetically linked; the rest of it must be environmental. So 
we need to study this very closely.
    Mr. Regula. Staff advises me that we are probably getting a 
larger allocation on the women's health issues.
    Ms. Slaughter. Thank you. I am so happy to hear that. Thank 
you very much.
    Mr. Regula. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. I personally want to 
thank you and thank the entire Women's Caucus. This is always 
the highlight of the presentations for us.
    And I want to particularly associate myself with your 
comments on environmental health. To date, they really haven't 
done enough work in that area. And I feel there so strongly the 
mapping we have done in New York, the coincidences between high 
rates in particular areas--not only New York, San Francisco, 
around the country. I think this is something that we have to 
continue looking at. I have always been interested in the work 
of Stephanie Coburn and the connections of her research with 
cancer. So I want to thank you and the entire Caucus for your 
presentations.
    Ms. DeLauro. I can explain it to my colleagues; I have to 
leave at 10:30.
    Pay Equity Day it is, and there is a press conference about 
the Paycheck Fairness Act, which, as my colleagues know, is a 
piece of legislation most of them are on for pay equity for 
women; and we are going to do that over on the Senate side this 
morning.
    But I just wanted to say, this is an unbelievable 
committee. When I first came, it was a 15-member committee. In 
terms of the representation for women, there are three 
Democratic members, there were two Republican members. I can go 
back and think about when it was Mrs. Pelosi, Mrs. Lowey, and 
myself, and Helen Bentley on the other side--a feisty, 
wonderful woman.
    But I think, Mr. Chairman, in terms of focus of this 
committee and where it goes and what it does not only on just 
women's health and those issues, but broadly, with the 
portfolio that exists in the committee, that I think women have 
made a difference; and the women members who come before this 
committee every single year talk about issues that face this 
Nation broadly and, I think, make a remarkable contribution to 
what is being done.
    Just one additional thing: When I first came here, it was 
only 10 years ago, I worked with women here who were courageous 
in charting the waters for the NIH, doing clinical trials for 
women and for minorities, and for there to be an Office of 
Women's Health at HHS; and because of the tenacity of the women 
who served in this body longer than 10 years ago--I look at 
people like Louise, Nita was here, it is people like Pat 
Schroeder and Barbara Kennelly and Nancy Johnson who charted 
the way--Connie Morella.
    Thank you, Mr. Chairman. I apologize to my colleagues for 
interrupting your testimony.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    I understand from my colleagues, Nita Lowey and 
RosaDeLauro, that they both have meetings at 10:30. This makes my 
arrival just right, so I can carry on for them when they leave. So I 
just want to thank you guys and say again, like Rosa said, this is a 
great committee and I really look forward to working on it.
    On the pay equity, we had a wonderful press conference and 
committee hearing up in Rhode Island about 2 weeks ago. The 
response was overwhelming. My local newspaper carried it front 
page, the whole story. My colleagues in the State legislature 
are pressing for it; they say they are not going to go for a 
budget that doesn't include it within State payroll. So it is 
not just equal pay, but pay equity, that there is a point 
system for jobs so that, you know, given experience and the 
duties of the job, that is going to be the criterion by which 
people are paid, not a set, you know, number of jobs that are 
set up.
    So anyway, thank you, Mr. Chairman. Thank you, my 
colleagues.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman. I am looking forward 
to listening to my esteemed colleagues and helping them work on 
this very important program. Thank you.
    Mr. Regula. Well, thank all of you on the first panel. And 
I just want to tell you, if my wife and daughter were here, 
they would be cheering you on.
    Ms. Slaughter. I am sure you will, as well.
                              ----------                              

                                            Tuesday, April 3, 2001.

               NORTHEAST OHIO NEIGHBORHOOD HEALTH CENTERS


                                WITNESS

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Mr. Regula. Our next panel. We have the three--oh, here is 
Connie. Don't wait. We will go ahead. Is Connie on panel 4? 
That is all right. Okay. It is very informal here.
    Okay, we will take them in the order I have them here. But 
you were here early, so we will start with you, Stephanie.
    Mrs. Jones. I appreciate you giving me the opportunity to 
plead.
    Mr. Chairman, the Congressional Black Caucus is holding 
election reform hearings somewhere in this building. I am 
trying to get over there to all my colleagues.
    Good morning. Just for the record I would like to add to 
the names of some people who have been working in the past on 
the issue of women's health: Mary Rose Oakar, as well as my 
predecessor, Louis Stokes. I got that in.
    I appreciate your extending time for me to relate some of 
the very urgent concerns of the 11th Congressional District 
regarding the provision of health care at federally qualified 
community health centers.
    Northeast Ohio Neighborhood Health Centers is located in 
the heart of Cleveland and serves some of the most impoverished 
neighborhoods in the city. As in most large cities, large 
hospital health care providers have been migrating out of the 
inner city. The end result of this migration is many more 
uninsured for our health care centers to serve. The majority of 
constituents served by these centers live under 100 percent of 
the Federal poverty line. Many of these people are now working 
but remain uninsured because their jobs do not provide health 
benefits.
    The rollout of Ohio's SCHIP has helped. SCHIP covers 
children who live at up to 200 percent of Federal poverty 
level. Moreover, the State of Ohio has expanded coverage to 
adults living at 100 percent of the Federal poverty level.
    The Northeast Ohio Neighborhood Centers have experienced an 
increase of almost 10 percent in the uninsured patient base in 
the last year, partially due to hospital closings. NEON is not 
the only provider that has suffered immensely from managed care 
in our city.
    Approximately one-half of NEON's 35,000 patients are 
children. Approximately 28,000 of those 35,000 patients live 
under 100 percent of the poverty level. Many of them have 
mental health or drug and alcohol problems as well as diabetes, 
hypertension, cancer or high-risk pregnancies, as well as other 
health issues that often parallel living in poverty.
    Twenty-three physicians and six dentists logged more than 
115,000 encounters in the year 2000. NEON provides 
transportation, translation and counseling to encourage and 
empower patients.
    Despite the hospital closings, managed care and numerous 
other earth tremors in the health care system, NEON's 
community-based system of five health care center sites is 
still open and providing care.
    I will skip over only to say that the neighborhood health 
centers need additional support for them to continue to be able 
to provide care.
    In my district we lost two large hospitals in this control 
of the health care delivery system; and only on Sunday, in the 
Plain Dealer newspaper, it was reported that many of the 
hospitals are diverting patients. They close down their EMS 
center, their emergency room; and, therefore, the EMS trucks 
have to go to the next hospital, the next hospital. That has a 
significant impact on the delivery of health care.
    Very quickly, we would like to have $600,000 to do MIS 
upgrades or information management upgrades, as well as we seek 
$3,800,000 in addition to the MIS for many of the facilities 
that NEON operates. The facilities are old, and they are in 
need of renovation to be able to continue to provide care.
    I thank my colleagues and the Women's Caucus for giving me 
the opportunity to be heard today. I would ask this committee 
to keep in mind the desperate need of community health centers 
in our Nation and the need for them to provide care. I submit 
my testimony for the record.
    Also, let me not forget, there--I should say that, 
incidently, Mr. Chairman, you may also know that there is a 
center comparable in your community in Massillon.
    Mr. Regula. I am very aware of it. They reminded me several 
times.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                            VARIOUS PROGRAMS


                                WITNESS

HON. CONNIE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Regula. I think what we will do is do the panel and 
then questions, because we have a pretty full schedule here to 
get through today. So, Connie, you are next.
    Mrs. Morella. Thank you, Mr. Chairman.
    I want to begin by congratulating you on the chairmanship 
of what I consider one of the most important subcommittees of 
the Appropriations Committee and thank you for extending to us 
this opportunity to testify before you. And, Ms. DeLauro, I am 
wearing my red for Equal Pay Day.
    Mr. Regula. Isn't there equal pay in the Congress?
    Mrs. Morella. Well, it is--actually, I would say it is one 
of the few places where we are pretty close to equal pay, but 
in so many other areas that is not the case.
    Among my top priorities is the continuation of our 
commitment to double the budget for the National Institutes of 
Health, and we are on the right track. We are in year number 4 
of the 5-year plan. The President has called for 
$23,100,000,000, which is a 13.8 percent increase. To keep on 
track, we could use $23,700,000,000.
    Let me jump around to a couple of other issues that are 
important to all of us and indeed to me.
    Since 1990, I have been the sponsor of legislation to 
address women and AIDS issues. Women are the fastest-growing 
group of people with HIV, with low-income women and women of 
color being hit the hardest by the epidemic. AIDS is the 
leading cause of death in young African American women.
    We particularly urge your support for the development of a 
microbicide to prevent the transmission of HIV and sexually 
transmitted diseases at a level of $75,000,000. Currently, less 
than 1 percent of the budget for HIV and AIDS-related research 
at the National Institutes of Health is being spent on 
microbicide research. Actually, I would like to see the 
important work of the Office of AIDS Research quickly converted 
into a proactive, strategic plan for microbicide research and 
development that has the active involvement and support of NIH 
and institute leadership. Much progress has been made, but more 
needs to be done.
    You know, microbicides, I remember many years ago when I 
first introduced legislation I couldn't pronounce microbicide, 
but it is so critically important to making sure that we don't 
have HIV and AIDS and sexually transmitted diseases. It is like 
a vaginal solution that has nothing to do with a spermicide, so 
it is not a birth control method; and, boy, what a difference 
this would make in the world.
    I would like to jump to breast cancer. Mr. Chairman, as you 
know, women continue to face a one in eight chance of 
developing breast cancer during their lifetime. More than 
2,600,000 women are currently living with breast cancer. This 
year alone more than 183,000 women will be diagnosed with 
breast cancer, and 41,000 women will die of the disease.
    This subcommittee has clearly demonstrated its commitment 
to breast cancer research. We urge you to continue this 
momentum in this fiscal year 2002. On behalf of all the women 
who live in fear of the disease, we urge the subcommittee to 
continue its strong commitment.
    And, Mr. Chairman, although it is not a widely known fact, 
tuberculosis is the biggest infectious killer of young women in 
the world. In fact, TB kills more women worldwide than all 
other causes of maternal mortality combined. Currently, an 
estimated one-third of the world's population, including 15 
million people in the United States, are infected with the TB 
bacteria; and due to its infectious nature TB can't be stopped 
at national borders. So it is important to control TB in the 
United States, and it is impossible to control it until we 
control it worldwide. I urge support for an annual investment 
of $528,000,000 for the Centers for Disease Control in its 
efforts to eliminate TB. Of course, there is that multiple-
drug-resistent strain of TB that is so dangerous.
    The Violence Against Women Act is a very important 
priority. We reauthorized it, added some new programs. Now I 
respectfully request that the funding become a priority for 
this subcommittee; and I am requesting that the shelters under 
the FVPSA, which is the Family Violence Prevention Act, be 
funded at their authorized level of $175,000,000 for fiscal 
year 2002.
    Also, transitional housing that Asa Hutchinson and Bill 
McCollum helped to put into that bill, the transitional housing 
program to be funded at its original and one-time authorization 
level of $25,000,000.
    Rape prevention and education to be funded at its full 
authorization level of $80,000,000 for fiscal year 2002.
    Several other programs I have mentioned in the testimony 
that I am submitting but are, very briefly, the Women in 
Apprenticeships and Nontraditional Employment Act, I introduced 
that many years ago, it has been working well on $1,000,000, to 
continue it. The Campus-Based Child Care Program, which is 
working to allow low-income women to have some assistance with 
child care on college campuses. What a great way to get them 
off of welfare and into the work world.
    That being said, you are very kind and gracious, you and 
the members of this subcommittee, Mr. Sherwood, and I see Ms. 
Pelosi is here. We had Ms. Lowey, Ms. DeLauro and Mr. Kennedy 
listening to us and hope that you will be able to accommodate 
these.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                    PREVENTION OF DOMESTIC VIOLENCE


                                WITNESS

HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEVADA
    Mr. Regula. Could you all stay when you finish the panel? 
Then we will take the questions. Because we are on a pretty 
tight schedule to get through all the other witnesses.
    Ms. Berkley.
    Ms. Berkley. I am delighted to have an opportunity to 
testify before this subcommittee which enjoys a wonderful 
reputation for tackling issues of major importance to women and 
children and families in our Nation and has been instrumental 
in improving the quality of life for millions of American 
families that, prior to your interest and actions, had little 
hope for their futures or the futures of their children.
    I want to thank you for allowing me to speak today in 
support of increased funding for programs to prevent domestic 
violence. Crimes of domestic violence have devastating 
consequences for women personally, as well as for their 
families and for society as a whole. In my district of southern 
Nevada, I have visited shelters for battered women and talked 
with law enforcement officers, counselors and community 
leaders. I had an opportunity to do a drive-along with the 
police when they were doing their domestic violence shift, and 
I have seen firsthand the horrible effects domestic violence 
can have on a community. That is why today I ask you to 
continue efforts to prevent domestic violence by fully funding 
domestic violence grant programs within the Department of 
Health and Human Services.
    These programs, which include grants for rape prevention 
and education, community intervention and prevention 
organizations, as well as the National Domestic Violence 
Hotline, are vital to the fight against domestic violence.
    Of particular importance, however, is funding that supports 
shelters for battered women. These shelters are often the only 
source of protection and relief for women who are fleeing from 
a violent situation.
    Women across the country need the services that domestic 
violence programs provide; and, again, I urge you to fully fund 
these programs.
    I have had an opportunity to tour all of the domestic 
crisis shelters in southern Nevada in my district, from the 
ones where people are going just for a very temporary 24-hour 
situation to get them out of their house, get their children 
out of the house, to the more complex situations where, when I 
went to visit the shelters, they blindfolded me and drove me 
there because these are places that are so secret that the 
perpetrator of the violence cannot find his family and continue 
to perpetuate the crime against his family.
    Most of these women, when I sit down and speak to them, 
they tell me how desperate they are to have a place to go not 
only for themselves but particularly for their children. Many 
women are stuck in a violent situation because theydon't have 
anyplace to go, and they endure incredible violence in their homes 
because they are afraid to be without an income, without a roof over 
their heads, without shelter for their children.
    If we can provide this tool for them to get out of those 
situations, they can break this dependency and codependency 
that they have on the perpetrator of the violence and begin to 
get the counseling they need and break out of the situation and 
be able to take care of not only themselves but their children 
as well. Many times, it is just a shelter to house them until 
they can get on their feet. But if we don't provide this they 
will end up back in the abusive situation.
    When I was practicing law I spent a good deal of my pro 
bono time trying to help these women get out of the situation, 
provide them with low-cost divorces. But it wasn't--it was the 
dependency, it was the emotional damage, it was the 
psychological fear that they had of breaking that tie and 
getting out of their home and feeling that without that home 
they would be destitute and on the streets. And for many of 
these women they endure incredible pain and incredible violence 
just so their children aren't out in the streets.
    Again, I want to thank you very much, but unless we fully 
fund these domestic crisis shelters we are going to have this 
problem in perpetuity; and the cost to society is far more 
extensive if we don't spend the money to fully fund these 
shelters and these programs than if we don't.
    Mr. Regula. Thank you.
    Are you familiar with Parents Anonymous? It is--at least in 
Ohio they are pretty active where they--it is like single 
mothers can go and talk to each other and get help. It is a 
support group and somewhat goes to what you are discussing 
here.
    Ms. Berkley. There are many programs available, but in the 
final analysis, if the women has to go back to that violent 
environment, she is never going to break the cycle.
    Mr. Regula. Very true.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Kennedy. Mr. Chairman, these grants also help us 
identify those children, because the National Institutes of 
Mental Health have developed an absolute correlation between 
children from families with domestic violence and drug abuse, 
cognitive delay in learning and further violence within the 
family among these children. This is absolutely a determinative 
in terms of the cycle of violence. So these grants have another 
effect of allowing us to try to address the needs of these 
children along with their mothers in many cases.
    So I look forward to working with you on making sure that 
we get some training for these kids, too, when they face these 
situations. A couple of States have done very well by these 
grants to get the whole families involved.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Well, the testimony is very compelling; and 
we have all in our private lives seen examples. If there is 
anything that we can do, such as these grants, to put that 
behind us, we are certainly on the right track. Thank you.
    Mr. Regula. Ms. Pelosi.
    Ms. Pelosi. Mr. Chairman, while I was listening to the very 
excellent testimony of Representative Berkley, especially 
toward the end when she was talking about her own experience 
doing pro bono work, I was reminded of our work together when 
we were on Commerce, Justice, State together. We were able to--
I had worked with Senator Cohen, others in the Senate and 
this--not Senator Cohen, others in the Senate on the Republican 
side where we tried to make--for women to have legal 
assistance. They were testing the income of the spouse.
    So we had an amendment in our Commerce, Justice bill for 
legal assistance that would say that the income of the spouse 
would not be counted against the woman when she tried to get 
some legal assistance, some legal aid. Which made a very--as 
you well know, you graciously did pro bono work, but everyone 
is not able to avail themselves of that. So that made it a 
difference, too.
    But this has been a fight for a while in the Congress to 
get as much as possible for these grants. It is one of the 
proudest moments that we have, when the Women's Caucus comes 
before us with this array of issues that are so important; and 
we have been able to make a substantial difference in many 
areas of health, Mr. Chairman. Everybody understands that this 
is a tricky issue, because everyone is uncomfortable with it 
and all the more reason we have the maximum resources to do it. 
So I am glad the Women's Caucus has made this a priority.
    Mr. Regula. As you pointed out, you and I have been 
champions of legal services in Commerce, State because that is 
one way that women can get help that otherwise just wouldn't be 
available.
                                            Tuesday, April 3, 2001.

                        COMMUNITY HEALTH CENTERS


                                WITNESS

HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mrs. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and congratulations 
on your chairmanship. Thank you to the entire subcommittee for 
allowing us to come before you to testify today.
    I would lend my voice to many of the issues that--probably 
all of the issues that these women are going to talk to today, 
but in particular I want to take a couple of minutes to talk 
about increasing the funding for community health centers. We 
would like to see an increase in the amount of $250,000,000.
    I will tell you, it is some of best money that we can 
spend, because this directly affects areas that are usually low 
income, as parts of my district are. It is about putting health 
care readily accessible to people there, because they either 
don't have transportation or they do not have an ability to get 
off work or they have children they have got to take care of or 
they have to bring the children with them.
    What happens when you don't have community health clinics 
is that people don't go and see a doctor. When they do go and 
see the doctor, it is with a very chronic problem already when 
they walk through the front door. Where is it that they go? 
They don't go to a clinic. They go to an emergency hospital 
where they know it is the highest cost of delivery in the 
entire health care system.
    So when we are able to put these community clinics in areas 
where people can come, they can come with their kids, they can 
walk, they are readily available, they are open on Saturdays 
and Sundays, and they can get preventative medicine. They can 
work on issues of nutrition for diabetes, for example, where 
the Latino community has about five times the amount of 
diabetes in our community than anybody else in the United 
States, and that is simply because of nutrition. There are 
problems that we have that become very expensive if we don't 
get access to health in a meaningful way to people in lower 
income areas.
    One of the things that has happened in my district and why 
I feel so strongly about this is that we are now seeing what we 
call back room clinics in pharmacies. So if you go to an 
independent pharmacy or you go to a drugstore that doesn't even 
have a pharmacy there in my area and you need something, you 
need medication for your kid, your kid is sick, what is 
happening is that these people are taking them into the back 
room, somebody who is not even a doctor is analyzing what is 
wrong with this kid and giving them drugs that are either 
coming in, brought across the border from Mexico--and we have 
had, just in the last 6 months, an 18-month-old baby girl and a 
15-year-old boy die because of illegal drugs, prescription 
drugs coming from someplace else being given to these kids. And 
these parents are--this is the kind of health care that they 
think they can afford.
    So the more that we can do to put in neighborhood clinics 
the better it will be for all of us in the long run. We don't 
need to lose these kids simply because parents are doing the 
best that they think they can do in a system that is pretty 
much ignoring them.
    And I am talking about working people. I am talking about 
people who have taxes taken out of their paychecks. I am 
talking about people who pay taxes when they go and they buy 
everything at the store. These are people who are low income 
and need the access to health care.
    So I would hope that you would really consider increasing 
the amount towards the community health care centers.
    Mr. Regula. Thank you.
    Any questions?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

                          TRANSITIONAL HOUSING


                                WITNESS

HON. JANICE D. SCHAKOWSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF ILLINOIS
    Mr. Regula. Our next witness is Mrs. Schakowsky, the 
successor to my great friend, Sid Yates.
    Ms. Schakowsky. As I was going to say, Mr. Chairman, though 
you and I don't know each other very well, I feel very warmly 
toward you because of the great relationship that you had and 
the things Sid Yates said about you, so thank you very much.
    Mr. Regula. I still miss him. He used to call me after I 
was gone to tell me how to run the committee.
    Ms. Schakowsky. Well, I wanted to also talk about violence 
against women and the needs for transitional housing, and I am 
so glad that Connie Morella spoke to you about it. Shelly 
Berkeley talked about the need for shelters.
    I wanted to particularly emphasize the $25,000,000 for 
transitional housing that was authorized in the Victims of 
Trafficking and Violence Protection Act of 2000. So I am hoping 
that that money now can be appropriated.
    The Department of Justice has identified 960,000 women 
annually who report having been abused by their husbands and 
boyfriends, but we know that number is really just the tip of 
the iceberg. The first comprehensive national health survey of 
American women conducted by the Commonwealth Foundation says 
that 3.9 million American women actually experience abuse by an 
intimate partner each year, 3.9 million.
    Hundreds of these women, hopefully thousands, are able to 
get out of those situations, but they have few financial 
resources and often have no place to go. Lack of affordable 
housing and long waiting lists for assisted housing mean that 
many women and their children are forced to choose between 
abuse at home or on the streets.
    While we absolutely need more money for shelters because 
they are filled to capacity right now, we know that, in fact, 
50 percent of homeless women and children--that is, 50 percent 
of the families, the women and children who are homeless right 
now are fleeing abuse. So the connection between housing and 
abuse is overwhelming.
    Housing can prevent domestic violence and mitigate its 
effects. Shelters provide immediate safety to battered women 
and their children and help women gain control over their lives 
and get on their feet. A stable, sustainable home base is 
crucial for women who have left a situation of domestic 
violence. While dealing with the trauma of abuse, they are also 
learning new job skills, participating in educational programs, 
working full-time jobs or searching for adequate child care in 
order to gain receive sufficiency. Transitional housing 
resources and services provide a continuum between those first 
emergency shelters and independent living and so those 
transitional housing dollars are very important.
    According to estimates by the McAuley Institute, 
$25,000,000 in funding for transitional housing would provide 
assistance to at least 2,700 families. We must be supportive of 
individuals who are escaping violence and seeking to better 
their lives.
    In closing, let me reiterate my appreciation to the 
subcommittee and restate my strong support for providing safe 
transitional housing assistance to women and children fleeing 
domestic violence. Thank you.
    Let me just, on a personal note, mention that my last visit 
to this committee last year I was sitting next to Loretta 
Sanchez. Actually, it was sort of depressing because she was 
talking about being in the first Head Start class and how 
important it was, and I was there to talk about being the 
first--teaching the first Head Start class. I thought, oh, my 
word, the difference here. But I am so happy that so many of us 
are here today talking about domestic violence and the 
importance of providing the support for women seeking to flee 
that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We hope that in Head Start we can maybe improve 
on it and make it a little more of an educational experience, 
rather than just warehousing of kids. That tends to be the 
characteristic of it, and I think you will miss a great 
opportunity in Head Start to not do more on the education side 
of it. I have never figured out quite why it was in the welfare 
department and not in the education department.
    Ms. Schakowsky. Head Start has been a wonderfully 
successful program.
    Mr. Kennedy. Mr. Chairman, on the Head Start, the thing 
that the teachers say is most important is the social and 
emotional development of the child. That is what gives them the 
cognitive advantage over those kids that haven't gone through 
Head Start. So it is not so much that they are learning their 
ABCs, but they are in an environment that starts to make it 
conducive to learning down the road. So it is kind of an 
interesting thing. But it is not the cognitive development so 
much at Head Start, which is what we think it is, but it is the 
social and emotional development, which I might add is lacking 
in our other primary education, which we need to work on.
    Ms. Schakowsky. I agree. I didn't want to step on my own 
message, though. I wanted to be sure that I am focusing here on 
the $25,000,000 for the transitional housing.
    Mr. Regula. This committee has a broad jurisdiction.
    Any other questions? Thank you very much.
                              ----------                              

                                            Tuesday, April 3, 2001.

                 ENFORCEMENT OF WORK PLACE PROTECTIONS


                                WITNESS

HON. HILDA SOLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mrs. Solis.
    Ms. Solis. Thank you, Mr. Chairman and members. It is a 
pleasure to be here for the first time to speak before your 
subcommittee; and I want to add my comments also, along with 
those that have been made by previous members, regarding health 
care research and the whole issue of domestic violence.
    Just as kind of a footnote there, in my own district I was 
successful in getting one shelter established in Los Angeles 
County in the area that I represented. It is a really sad 
situation when you think about all the animal shelters that 
exist in my district.
    When you put a price at where you value human life and what 
have you, we only were able to get funding for one shelter. So 
much more is sorely needed.
    I would hope that this committee would strongly take a good 
look at how we can enhance partnerships, both public and 
private, with law enforcement, so we can have both permanent 
shelters for those and transitional.
    Our problem in our district is that we have many women who 
are faced with this issue of domestic violence, and with that 
bring their children. In cases for Latinos, for example, you 
are talking about 4 or 5 siblings, children that come along 
with that one woman, who is looking for a place to go and 
possibly a warm meal, a roof over her head, but also the 
opportunity to find employment. So I would hope that this will 
be a priority for this coming session.
    But my remarks, I would like to focus in on the issue of 
enforcement of Federal wage and overtime laws by the Department 
of Labor. As you go through in crafting the Labor-HHS funding 
budget for fiscal year 2002, I would like to urge the committee 
to allocate sufficient funds for the enforcement of workplace 
protections.
    This issue is very critically important to women, not just 
in my district, but in many corners of our country, 
particularly in those areas where you find an enormous number 
of low skilled workers, women in particular, who are working, 
as an example, in the garment industry.
    My district has a very high proportion of individuals who 
work in the garment industry. Unfortunately, a few years ago it 
was discovered there was a sweatshop in the City of El Monte, 
which I happen to represent. There were 72 women, Thai women, 
that were held hostage there, many for 7 years. They did not 
mention though, however, in those news articles, there were 
many Latino women also working there day in and day out and 
were forced to work under very harsh conditions and were not 
given minimum wage, were not given overtime, were actually 
placed in a warehouse setting where they were pretty much 
locked in and could not leave the compound as it was later 
viewed by the public.
    I would hope that we could do as much as we can to help to 
provide information to the workforce, but particularly women 
that tend to be attracted to this particular type of industry, 
because it is a problem, not only in California, but along the 
border and other parts of the country, where I believe we need 
to do more to provide those protections for women and their 
children, because we also know there are many children working 
in it these factories as well.
    Because of a lack of resources in the past few years and 
also on the part of our local municipalities that may not have 
enough funding to follow through on code enforcement to really 
go through and find out if, for example, a true small business 
is actually working legitimately and that they are paying for 
their licenses and what have you. We are finding there has been 
a cutback in these areas, and obviously that leads to more 
abuse.
    So I would hope that this committee would take a strong 
look at protecting the rights of women in the workplace as we 
work towards pay equity. We also have to work towards a place, 
an environment, where they can work and be treated with 
dignity, and that they are fully aware of their rights when 
they are at the workplace, and that the employer also plays a 
meaningful role in providing that kind of information as well.
    This year we are going to be working on trying to elevate 
the minimum wage. In the State of California, we happen to have 
a higher minimum wage than here at the Federal level, and I 
hope we can work in partnership to bring some equity. That 
isn't to say where I would like to see it. I would like to see 
it much more higher, but at least it is a start. I would hope 
we can venture into those discussions.
    I would like to thank you for the opportunity to speak to 
you today.
    Mr. Regula. Thank you. We will bring this issue up with 
Mrs. Chao when she testifies, because it would be her 
department responsibility.
    Questions.
    Ms. Pelosi. No questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

               SCHOOL-BASED LATINO MENTAL HEALTH SERVICES


                                WITNESS

HON. GRACE F. NAPOLITANO, A MEMBER OF CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Thank you very much. Our next witness is Mrs. 
Napolitano. Am I saying it right?
    Ms. Napolitano. You are very right on, sir.
    Good morning, and thank you so much for the opportunity you 
have given the Women's Caucus to come before you and bring the 
issues that all of us feel are important. I associate myself 
with the remarks at every turn.
    One of the reasons, Mr. Chairman and members, that I am 
here, is because there is an issue that has been identified in 
the last 2 years dealing with youth mental health crisis in 
this country. Recent incidents in school shootings only add 
more urgency to that particular matter, and that is the reason 
why I am here, again, to respectfully request you continue 
support for the school-based Latino mental health services 
program in my an area. It is a pilot we begun.
    Let me provide some disturbing facts that illustrate, and I 
am sure you heard them before, but I just need to get them to 
you again, the depth of the crisis for young Latinos in the 
country.
    Today, nearly one in three Latino adolescents has seriously 
considered suicide. This is the highest rate for any racial or 
ethnic group in the whole country. Additionally, they also lead 
their peers in the rates of alcohol and drug abuse, teen 
pregnancy, and self-reported gun handling.
    These statistics are all more alarming when one considers 
that fewer prevention and treatment services reach young 
Latinos than any other racial or ethnic group. This is a report 
that came to us in 1999 with the state of Hispanic girls 
through the National Alliance for Hispanic Health, a 
conglomerate of groups that provide mental health services for 
Latino groups. This is in spite of the fact that Hispanic girls 
now represent the largest minority of girls in the country, and 
are expected to remain so for the next 50 years.
    Last year this subcommittee gratefully took a major and 
laudable step when it directed SAMHSA to provide $680,000 
through the programs of national and regional significance 
activity, center for the mental health services, to begin 
addressing the mental health need of Latino adolescents through 
innovative school-based mental health services in our area.
    What we have done is we have taken the nonprofit mental 
health care provider and all other mental health advisers and 
have gone to the schools, setting the program actually in three 
middle schools and a high school, to give the direct services. 
The funding does not go to the State, does not go to the 
county, but goes directly to the providers and the schools 
where the most need is.
    Now I am asking, I am urging and I am begging the 
subcommittee to give this fledgling pilot program an 
opportunity to make a difference in the lives of these young 
women and many others. School administrators, teachers, 
community mental health providers, and parents, and, most 
importantly, young Latinos believe this program is urgently 
needed.
    This subcommittee and Congress has begun to provide 
national leadership in dealing with this crisis and in finding 
appropriate solutions. Our aim as a society should be to help 
these young girls reach their true potential and allow them to 
make positive contributions to their communities, to their 
State and to their Nation. Failure to do so may condemn a 
generation of young girls to lives that are significantly less 
hopeful and productive than they deserve.
    Again, I respectfully request the subcommittee to continue 
providing this program at the same level of funding as last 
year, and hopefully this program will provide a way for 
duplication throughout other areas where it may be so 
desperately needed at this point.
    Thank you again for the consideration, and look forward to 
answering any questions you may have.
    Mr. Regula. Thank you. Questions.
    Mr. Kennedy. Yes, Mr. Chairman.
    I applaud you for your work on this. I have been working 
with the chairman to address this issue. Would you kind of 
explain further how the schools end up being a non-stigma 
environment so the kids can get the help in the schools, rather 
than in some mental health counseling outside, which would 
certainly be so loaded with stigma, and of course explain the 
culture, the Latino culture, so that it really oppresses people 
with this mental health issue. We think we have got a stigma. 
Imagine what it is for the Latino culture.
    Ms. Napolitano. It is a tremendously important area to be 
able to provide the service in the school itself. Understanding 
that my Latino friends and relatives and my peers and everybody 
else, they consider it an area that you don't go. You don't 
talk about it, you don't bring it up. Especially in the male 
Latino, you just don't admit that you have a mental problem.
    The stigma is they don't know the difference between a 
mental health issue and a mental disease issue. Part of what 
has happened in our society, and the Latino society 
specifically, is this has carried on to the family, you are not 
allowed to admit you have a mental problem or a mental health 
issue that can be dealt with, that you can talk out.
    So the idea is to have it in the schools where the peer 
pressure is. These teachers can be a part of it. The parents 
will be a part of it. This is not just a school thatis going to 
be involved. It is a whole community effort by bringing all the players 
in at the school to deal with the issue.
    The classrooms are going to be set up so that they can go 
to specific rooms to deal with it, and there will be classes 
given to others that do not have the same problem of dealing 
with mental health issues, but rather to understand that it is 
not a stigma, but rather an idea for them to identify, in their 
own mind, how they can deal with pressures and those kind of 
issues.
    Mr. Kennedy. Thank you very much.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Ms. Napolitano. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 3, 2001.

         ON BEHALF OF CHILDREN WITH MENTAL ILLNESS AND HIV/AIDS


                                WITNESS:

HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Regula. Okay. Ms. Jackson-Lee.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. It is 
nice to see you, and thank all the members for being here on a 
Tuesday morning. Might I associate myself with all of my fellow 
colleagues from the Women's Caucus and their different issues. 
Might I particularly associate myself with my colleague sitting 
next to me on the issue of mental health.
    I have offered, over the last two sessions, the Omnibus 
Give a Kid a Chance Mental Health Bill, that deals with 
providing more resources for children that are dealing with 
mental health concerns. I would like to give you what you may 
already know very quickly, and then focus in particular on the 
concerns that I have.
    Mr. Chairman, I think you may be aware that 13.7 million 
children in this country have diagnosable mental health 
disorder, yet less than 20 percent of them receive treatment. 
The White House and U.S. Surgeon General have recognized mental 
health needs to be a national priority in this Nation's debate 
about comprehensive health care.
    I have found that at least 1 in 5 children, adolescents, 
have a diagnosable mental, emotional or behavorial problem that 
may lead to school failure, substance abuse, violence or 
suicide. However, 75 to 80 percent of these children do not 
receive the services.
    According to a 1999 report of the U.S. Surgeon General for 
young people 15 to 24 years old, suicide is the third leading 
cause of death behind intentional injury and homicide. In 
particular, in the African American community, the U.S. Surgeon 
General has found that the rate of suicides among African 
American youth has increased 100 percent in the last decade. 
Black male youth, ages 10 to 14, have shown the largest 
increase in suicide rates since 1980 compared to other youth 
groups by sex and ethnicity, increasing 276 percent. Almost 12 
young people between the ages of 15 and 24 die every day by 
suicide.
    When we speak about another selective group in the study of 
gay male and lesbian youth suicide, the U.S. Department of 
Health and Human Services found lesbian and gay youth are two 
to six times more likely to attempt suicide than other youth 
and account for up to 30 percent of all completed teen 
suicides.
    I interact with such a group, family group, in Houston, 
working with these young people in particular, trying to make 
adults available to be engaged in their lives. You see it 
firsthand because, as my colleague said, they are intimidated, 
they don't know where to turn for information. They are 
different, whether they are Latino, whether they are African 
American, whether they are different by way of a lifestyle, 
whether they are different by way of their particular religious 
background.
    Mr. Regula. Do you think they recognize that they have a 
need?
    Ms. Jackson-Lee. No, Mr. Chairman. I think, as my colleague 
has said, sometimes it is culturally different, sometimes there 
is a cultural difference. If I take my community, the African 
American community, very heavily based in religious beliefs, it 
is well-known that you are directed toward your Savior, and, if 
you are not grounded in that, then you are not directed 
anywhere. It is a stigma in the community, and I would argue, 
not having firsthand experience to the gay and lesbian 
teenager, but as I have been told by groups that advocate for 
them, they particularly are isolated because they are 
different. So I think what it is is that I don't know what I 
have, I am confused, but no one will understand me.
    So I think that this whole concept of having services, 
whether it is in the schools, which I support, whether it is in 
community-based health clinics, which I support, because I want 
parents to be able to feel free who are not able to access the 
private sector for psychiatric or counseling service, to have 
the access to do this.
    This is not a conversation about guns, Mr. Chairman. I know 
it is well known, my position, but I think over the last 48 
hours, we have saw some studies that were shocking aboutteenage 
boys being able to have access to guns or bring guns to school. So we 
know that our children suffer from gun violence. Handgun Control 
reports that in 1996, more than 1,300 children, aged 10 to 19, 
committed suicide with firearms.
    What I would like to get at is the intervening act factor, 
to be able to help these young people before they get to that 
point.
    With the high number of uninsured young people, Texas has 
the second highest rate of uninsured children in the Nation 
with over 25 percent, there are programs that you support that 
I would like to ask for increased support.
    The National Mental Health Association has a children's 
mental health services program that provides grants to public 
entities for comprehensive community-based mental health 
services for children with serious emotional disturbances. 
These grants go to direct services that include diagnostic, 
evaluation services, outpatient services at schools, at home, 
and in the clinic, and day treatment. I would like to see that 
funded and provided additional funding.
    In addition, I would like to see parity for alcohol and 
drug addiction treatment for young people and their families. I 
emphasize their families, Mr. Chairman. I think that is an 
excellent combination, because many times the adults in the 
home, whoever is the supervising adult, a grandmother maybe, 
are as much in need of service as might be the child.
    I met with these individuals through the National Mental 
Health Association, and I had grandmothers raising 15-year-olds 
who already had a child and already tried to attempt to commit 
suicide 2 or 3 times, a little girl 15 years old. And to see 
the grandmother who was not that old to have to confront the 
needs of this 15-year-old, they both needed to be in 
counseling.
    The Children Mental Services Health Program only serves now 
34,000 children, so I ask the committee to authorize $93 
million for that. The Safe Schools Health Student Initiative is 
another program of the Children's Mental Health Services 
Program, and I would ask for $78 million involved in that 
program.
    Quickly, Mr. Chairman, I want to move from mental health 
and focus briefly only on children as victims of HIV-AIDS. I 
know this may have been previously discussed.
    I support a particular community organization called the 
Donald R. Watkins Memorial Fund, which has seen its dollars cut 
drastically. It is estimated that 800,000 to 900,000 Americans 
are living with HIV and every year another 40,000 become 
infected.
    I happen to come from a community in Houston that at the 
time of the issuance or the establishment of the Ryan White 
treatment dollars, we were 13th in the Nation of HIV infected. 
That was about 1991-92. My particular community has not 
decreased as much as we would like, and we find a large number 
of our young people infected with HIV-AIDS. In fact, we find a 
large number of African American's infected, and particularly 
children.
    So I would ask to receive a total additional amount, I 
believe this is $4 million during FY 2000, and even more during 
FY 2001. Let me get this amount into the record. I am asking 
for an increase for $89 million for Title I, $45 million for 
Title II, $46 for Title III, $19 million for Title IV, so 
Houston will receive additional funds, as well as the Nation, 
and I am particularly asking for direct grants for Donald R. 
White Memorial Foundation for $500,000 for their special 
services dealing with children and young people.
    I will conclude, because my statistics may be a little 
long, to simply say that Andy Williams in California, 
Columbine, we can all talk about guns, we can talk about taking 
guns away from children, but these children are disturbed. And 
as I followed this, I had a hearing in my district with Senator 
Wellstone. It is amazing. First of all, what we do is we put 
most of them in a juvenile justice system, because we don't 
have any place to put them.
    The parents don't know what to do. The parents don't 
intervene soon enough. If we had just known, or Andy Williams 
had somewhere to go to talk about this bullying or maybe talk 
to the children about character issues. And I think mental 
health, if we can destigmatize it and ensure that children feel 
free--it is just like coming to a counselor or going to Burger 
King or McDonald's, to be able to express your feelings, we 
might not have all of these painful situations that are 
happening in our community.
    I am with these children, I talk to the gay and lesbian 
youth, it is really an emotional situation when you speak to 
them. No one cares about them.
    I just think we can do better. I know how we are fighting, 
when I say fighting, I know the difficulty of appropriators. I 
appreciate all of you very much. But this has gotten to be a 
crisis in our Nation, not taking care of our children who are 
disturbed and resulting in adults who are dysfunctional.
    So I would appreciate very much your indulgence. I conclude 
by simply saying I had an amendment on underserved populations 
in the last Congress, and this is what this is all about, many 
underserved populations, because they are not getting some of 
the services that they need.
    Mr. Regula. I think you are suggesting that there ought to 
be counselors available somewhere for this disturbed youth to 
go.
    Ms. Jackson-Lee. Somewhere, and it can be either theschool-
based efforts, that I support enthusiastically, and then there are 
these community-based mental health clinics that, because they are in 
the community, they can be called any manner of names. Whether they 
have to be called mental health clinics, they become familiar.
    The National Mental Health Association has interfaced with 
this structure, where they put them in the community and the 
parent, the guardian, whoever it is, can go with the child, and 
it may be down the block, or it may be just a few blocks away, 
or maybe connected to the school, or it may be connected to 
some community-based group. But what it does is it allows the 
families to come without stigma and also not go very far away. 
When you hear the word ``psychiatrist'' or do you have to go to 
a doctor's office, these are community-based entities that may 
be helpful. I think they are in only 34 States right now.
    Mr. Regula. Could they be part of the community health 
centers? We have had testimony here about the importance of 
those.
    Ms. Jackson-Lee. That is part of the effort of the National 
Mental Health Association. We would like to see more funding so 
they could be in more states.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. This is not social 
science; this is not soft science. We have the Surgeon General 
just come out with his report on children's mental health. This 
is part of the health. The brain is like any other organ. It is 
like diabetes, asthma, it is a chronic illness, it needs to be 
treated regularly.
    We have one in five children, according to the Surgeon 
General's report and as Ms. Jackson-Lee pointed out, who have 
severe emotional mental illness, and the schools are one of the 
primary places to capture them, because that is obviously a 
non-stigma environment.
    In addition to that, as Ms. Jackson-Lee pointed out, the 
community health centers are good places. But what we also need 
to do is train the primary care physicians to identify 
depression and mental illness. You would be surprised how many 
regular primary care general physicians do not know how to 
identify this, and therefore it goes undetected.
    You also, being a member of Commerce-Justice-State, the 
Office of Juvenile Justice and Deliquency Prevention, the 
juvenile crime rate is going up. What is the surprise?
    We know through sociological studies that parents are 
spending one-third less time with children today than they did 
just a couple of decades ago. If you don't think that comes 
with a price, when you have two parents working or it is a 
single-parent family, where that child doesn't see the parent 
until the end of the night and the child has to be put to bed, 
this is a significant cost to our society. We need to bring the 
families together somehow, and hopefully these kinds of 
programs will help do it. I just wanted to pass that along.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Mr. Regula. Mrs. Pelosi.
    Ms. Pelosi. Mr. Chairman, I just want to associate myself 
with Mr. Kennedy's remarks. We have to have parity in terms of 
mental health and what other people call other health issues. I 
particularly want to commend both of our witnesses for their 
focus on the School-Based Mental Health Initiative, and also 
Congresswoman's Jackson-Lee's testimony about HIV-AIDS, and I 
want to say that thanks to both of our witnesses and many women 
here this morning, we were able to send a letter to President 
Bush on March 29 signed by 153 members in a bipartisan fashion 
to talk about the AIDS epidemic.
    I think that at some point we will have the opportunity to 
meet with the President on this subject, and the subject of 
young people and HIV-AIDS, which is certainly an important 
component of it. We are optimistic we can meet with the 
President.
    Good work on these issues. Mr. Chairman, the testimony that 
people bring in for a few minutes is important to us. This is 
like the tippy-tippy-tip of the iceberg of the work that they 
do in that regard. Thanks to both of you.
    Mr. Regula. I would be curious, since the Secretary of 
Education is from your town, did you have anything in the 
school system there, any counseling, that would be accessible 
to students in a disturbed state?
    Ms. Jackson-Lee. We were beginning to make some progress on 
school-based health clinics. In those health clinics we had 
individuals who could stand in for counselors. When I say that, 
nurses who were trained, et cetera, they could go right in the 
school.
    They are slowly but surely--in fact, we argued in the 
present legislative session in Texas for more funding for 
school-based clinics. But we, too, I would say the Secretary of 
Education is very open to this, but we too need more growth in 
those areas.
    I will also I guess acknowledge that we have been--I will 
knock on some wood here-- fairly fortunate in Houston, but 
again, I don't take any special pride, because violence breaks 
out anywhere and everywhere. So it is just that it is something 
that we need to make great strides on.
    Might I just say on the hearing that I had in Houston, the 
juvenile justice officials came forward and noted 
whatCongressman Pelosi noted and Congressman Kennedy noted, is that we 
don't know what to do with these children. They said you are sending 
them to us because we are the only physical plant they can be housed.
    You would think they would say bring them on or we are 
prepared to do it, but they were the ones pleading with us, 
find us more mental health services because you are sending us 
children who we can't treat, we can only house them.
    Mr. Kennedy. Mr. Chairman, if I could, these kids who end 
up in our juvenile justice system, you have 95 percent or 
higher that come from abusive homes. This is, like, the 
correlation is too great. We know which kids are high risk. We 
ought to intervene earlier. These kids, by the time they end up 
in the juvenile justice system, the parents know, the teachers 
know, the schools know, for us to let them slip through its 
cracks itself is criminal.
    On the Elementary and Secondary Education Act with the 
Education Secretary, this might be a good issue for us to try 
to include somewhere in the Elementary and Secondary Education 
Act, because it is so fundamental to the child's education.
    Mr. Regula. We will have an opportunity when the Secretary 
of Education is before us to talk about that, and probably one 
of the things that teacher education should include is some 
course or so that would, because the teacher would be a very 
good person to identify disturbed children early.
    Ms. Napolitano. They are with them a major portion of the 
time, and they can tell when the student is beginning to act up 
or the grades are beginning to fall.
    Mr. Chairman, I have a mental health hospital in my area 
and have been involved for many years at the adult level. We 
have also different clinics from the Mental Health Association 
that I have been involved with through the years.
    They deal with really mostly the disease more than the 
illness. I think it is time we began to add substance to the 
local provision of services by giving some assistance to the 
families, as my colleague was saying, for mental health 
services.
    What we are attempting to do is begin to show that the 
partnership between the county and the State, adding additional 
services, maybe not even in funding, but services, whether it 
is personnel or whether it is a locale, so that we can expand 
on the delivery of the service at the local level.
    You are right. The correlation of the children, the 
neglected one, the at-risk kids, all has a bearing, and we all 
know those areas. So if we can target the areas and begin to 
work with the community to be able to deal with the child, we 
will be successful. That is what I am attempting to do, along 
with my colleague.
    Mr. Regula. Thank you both for coming. It is a significant 
problem you have identified. We will do what we can.
    Ms. Jackson-Lee. Mr. Chairman, may I ask a procedural 
question on the time that members have to have requests in?
    Mr. Regula. The 27th of April.
    Ms. Jackson-Lee. It has not passed. Someone had given me a 
date that caused migraine indigestion.
    Mr. Regula. My experience in Interior is some requests may 
not be timely, but they still get to the chairman.
    Ms. Jackson-Lee. I am trying to meet your rules and 
regulations. So you are saying April 27th?
    Mr. Regula. That is correct.
    Ms. Jackson-Lee. Thank you, Mr. Chairman.
                              ----------                              

                                            Tuesday, April 3, 2001.

                              RE: PROJECTS


                               WITNESSES

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Sherman.
    Mr. Sherman. Mr. Chairman, it is interesting to appear 
before you in a new capacity. I want to thank the members of 
the subcommittee for being here. I have had a number of 
projects in my district that I think will interest the 
subcommittee.
    The first--I guess it works better when you turn the 
microphone on.
    The first is a request for $500,000 to help build the new 
Guadalupe Community Center in the poorest part of my district. 
It is a program run by Catholic Charities of Los Angeles. The 
building program will cost $1.5 million. Private charities will 
come through with one-third of that amount, the City of Los 
Angeles roughly a third, and I am asking the Federal Government 
to provide the final third.
    The center serves 900,000 individuals from low income 
families, 84 percent of its clients are Hispanic. It provides 
emergency food, clothing, case management, senior nutrition, 
welfare to work services, a youth mentoring program. Due to 
immigration, there is a substantial additional need. The center 
needs to expand so it can provide English as a second language 
and computer and math skills. That is the first project on my 
list, is a request for half a million dollars for the Guadalupe 
center.
    The next two projects are so important that I am 
bringingthem to the subcommittee's attention, even though 80 percent of 
the project is outside my district. The projects will take place 
primarily in Elton Gallegly's district. He and I share Ventura County. 
He can't be here today. He is counting on my eloquence to explain the 
programs.
    The first is a preventive health care program for the 
people of Ventura County. This is an outreach program to 
provide preventative health so we don't have people showing up 
at emergency rooms. The county has had a drop of roughly 20,000 
people in the number who are in Medicaid, but then there has 
been a 20,000 increase in the number who were on Medicaid and 
now have no insurance at all.
    This is an innovative program to provide cost-effective 
preventive medical services. Some $9 million is being provided 
by the county, and we need $5 million of Federal funds, 
slightly more than a third, Federal funds for this program.
    The next of the two Ventura County projects that are 
primarily outside my district is a Center for Mental Health 
Services grant request dealing with mental health services for 
those in prison, in transition to being released and rejoining 
society. This program has already received $900,000 in Federal 
support for start-up, and the State has granted $1.6 million.
    It is an innovative program to provide a full range of 
mental health services to those in prison. There has been a 
significant reduction in recidivism from those who get this 
kind of treatment, and this is, I think, an ideal pilot study 
to show the importance of this treatment to other county prison 
facilities.
    The next project I am seeking $2.75 million for a child 
care center in Newbury Park. This will go an along with some 
local funds. The total budget is $3 million. We are also 
seeking in roughly the same area funds for a senior adult 
center expansion.
    Finally, for a YMCA that will be focusing much of its 
attention on the low income people of the region, providing 
social services. Roughly half the money there is being provided 
by local government and local charities, and we are seeking the 
other half from the Federal Government.
    Mr. Regula. Thank you. Things haven't changed too much 
since Interior.
    Mr. Sherman. I do have many things on the list, but I did 
put them in what I think is a reasonable order. As I say, the 
first one is a $500,000 project.
    Mr. Regula. Questions.
    Mr. Honda.
                              ----------                              

                                            Tuesday, April 3, 2001.

                        RE: EDUCATIONAL PROGRAMS


                                WITNESS

HON. MIKE HONDA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Honda. Good morning, Mr. Chairman. I think the last 
time I was before you we were talking about sleep or fatigue; 
is that correct?
    Mr. Regula. Right.
    Mr. Honda. I just want to thank the Chair and the 
distinguished members for the opportunity to present my 
testimony today.
    I have submitted a full written testimony for the record, 
but today I would like to focus on increasing school 
construction, recruiting 100,000 new teachers over the next 7 
years, increasing Pell grants, as well as fully funding special 
education.
    If we are going to judge teachers, Mr. Chairman, and 
students by test scores, then Congress must fund programs that 
encourage improvement, growth within education, and we must 
demonstrate a commitment and respect and confidence in students 
by providing safe, permanent classrooms that are not crumbling.
    Nearly 80 percent of Americans support providing Federal 
funding for school repair and modernization, yet the 
President's budget eliminates $1.2 billion the Congress 
approved last year for school renovation and cuts another $433 
million in unspecified programs.
    It would take nearly $112 billion to bring public and 
elementary and secondary schools to adequate condition. 
Thisfunding would help renovate up to 14,000 needy public schools and 
serve around 14 million students. I urge the committee to spend the 
$24.8 billion over the next 2 years in new tax credit bonds to renovate 
up to 6,000 schools.
    If we want students to learn more at a faster rate, then we 
need to reduce class size to enable teachers to teach 
efficiently. We also need to provide the teachers with the best 
training in order for them to provide the best instruction, and 
in order to attract and train teachers for both high need 
schools and underserved teaching topics, such as math and 
science, Congress should increase compensation for qualified 
teachers.
    According to the National Center for Education statistics, 
elementary and secondary school enrollment will grow from 52.2 
million in 1997 to 54 million in 2006, requiring new schools 
and new teachers. Research has also shown that students in 
smaller classes and grades K-3 learn fundamental schools better 
and continue to perform well even after returning to larger 
classes after third grade.
    I urge the committee to continue to recruit 300,000 new 
teachers over the next 7 years in order to reduce class size 
averages in the early grades. I also encourage the $1 in new 
funding in 2002 and $18.4 billion over the next 10 years to 
provide up to $5,000 in supplemental pay to fully qualified 
teachers in high poverty schools or those in need of 
improvement under Title I.
    I request an increase of $600 in the maximum Pell grant, 
for a total of $4,350. I also ask that Congress fully fund 
special education in order to free up general fund money to 
allow schools to spend their money where it is most needed.
    By failing to meet these needs, Mr. Chairman, in the 
education system, we are failing to meet the needs of every 
single American. If we truly expect our schools to meet the 
challenges of greater accountability and higher achievement, 
then we as Congress need to ensure that we continue to fund the 
initiatives that we have put forward. Congress, as well as 
schools, need to be held accountable for their actions, and 
accountability is a two-way street.
    I just want to close by talking about accountability, and I 
guess student achievement.
    We know that we have made mandates, such as PL 94-142, 
which is requiring the pursuit of special education 
identification of youngsters. Since we are at 13 to 15 percent 
funding level, where we said we would be funding them at 40 
percent, this ties up, as you well know, a lot of the local 
funds that school districts are trying to use, as they try to 
meet the mandates. So we have created a mandate without the 
full funding.
    As a school principal of two schools, identifying 
youngsters, I know this is a big struggle between parents who 
want youngsters to be identified and seek the special help and 
school districts in their inability to fully fund it all. If we 
really want to help our local schools, then we should fully 
fund special education so they can free up their local money to 
do the things that they could do more efficiently at the local 
level.
    Mr. Regula. Thank you. Questions?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Pelosi. Mr. Chairman, since many of our witnesses today 
are senior Members of Congress, and Mr. Honda is a freshman, he 
alluded to his experience as a school principal, but, for the 
record, I wanted him to tell you how he knows of what he speaks 
as a very distinguished record as an administrator and a 
teacher in the San Jose area.
    Mr. Honda. Thank you, Ms. Pelosi.
    Mr. Chairman, I have spent over 15 years as an 
administrator in a K-8 school in South Central San Jose, and I 
know that we tell our parents what their rights are, and a lot 
of times, in the community I worked with, we had to be their 
advocates in order to be able to identify these youngsters.
    Many times school districts are so strapped that they are 
hesitant to go all the way, because they have to look at their 
bottom line. We put them in this situation that is untenable 
for both the districts and we frustrate our parents because 
they want the best for their youngsters, as do the schools.
    In other sections of our valley, parents do know their 
rights and they bring lawyers with them to the school 
districts. That creates, again, another situation where it is 
untenable for both sides. So if we solve this problem, we will 
solve the problem not only for the poor neighborhoods, who 
where administrators need to be the advocates of the 
youngsters, and also the well-to-do neighborhoods, where 
parents have the wherewithal to bring attorneys with them, and 
we can solve that problem by fully funding a mandate that we 
have put forward a few years ago.
    Ms. Pelosi. Mr. Chairman, our witness also brings 
impressive academic credentials from graduate studies at 
Stanford University in education.
    Mr. Honda. I get it.
    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Mr. Honda, as a 20-year school board member, 
I have great respect for your credentials as a principal and 
know how important that is. IDEA is something that we have to 
step up to, because we have created the mandate, but not put 
the funding with it. So I certainly agree with you on that, and 
the Pell grants, and a lot of your presentation.
    But when you talk about the Federal Government providing 
100,000 new teachers or reducing the student-teacher ratio, 
doesn't that go against what you said earlier, that if we 
provide the IDEA funds, then the districts have the right to 
run, the ability to run their own deal?
    I am very pro-education then and I agree with you, but I 
think there are things we can do from Washington and things we 
shouldn't try to do from Washington.
    Mr. Honda. I agree with you, Mr. Sherwood. I was aschool 
board member for over 9 years in San Jose unified. I understand how 
budgets are dealt with. You are caught in the middle really as a school 
board, isn't that correct? At the Federal Government level, you know, 
the 100,000 teachers was an effort by the Federal Government to help 
reduce class sizes in many classrooms across the country. I think that 
is a good role for the Federal Government to do, to encourage the 
reduction of class size, and also to find funds to be able to 
compensate teachers who are teaching in high need areas and who are 
teaching in subject matters that are subject matters that we need, like 
math and science.
    Now, today we are talking about accountability, and if we 
are talking about accountability, then we have to also be 
accountable by fulfilling our obligation and fully funding that 
mandate. We are also talking about student achievement.
    Now, student achievement is obtained by having time on 
task, and the way we attain time on task in our role can be to 
help reduction of class size and encourage that, and we can 
fully help the local school districts if we fund fully special 
education. That frees up an incredible amount of monies that 
can be reinvested in reduction of class sizes and hiring new 
teachers. But when we do that, Mr. Sherwood, you know when we 
reduce class sizes, we create a need for more teachers. So we 
need to help support that effort and do just our part so until 
they get on their feet.
    The other thing is when we create more teachers, we need 
the classrooms when we reduce class size. If we don't do those 
two things, in addition to in our effort to reduce class size 
and to increase student achievement, if we don't help in the 
construction of new classrooms, providing new teachers, then we 
are only going one-third of the way.
    The other way we can help the local school districts is to 
free up the local money so they can reinvest that in those 
areas also. So we need to help school districts be able to 
provide new construction or modernize by putting up the $25 
billion for the tax credit, because at the local level, when we 
create a bond indebtedness, we are in there for 30 years, 
right? If we come up with a tax credit against the interest on 
the principal, that reduces the local effort by 10, sometimes 
15 or 20 years, and that is a big impact that is not really 
well seen by the general public. But we do know that, because 
we have been involved in that kind of dynamics of budgeting.
    So the Federal Government has a very unique role, but a 
very important role, to help attain accountability, student 
achievement, by helping the local classroom achieve that time 
on task by creating, hiring more teachers in those needed areas 
and providing the funds to create more classrooms or modernize 
classrooms.
    Mr. Sherwood. We agree and we disagree.
    Mr. Regula. Thank you, Mr. Honda.
    Mr. Honda. I am trying to give a macro-picture along with 
the details.
    Mr. Regula. Thank you.
    Mr. Honda. Thank you very much. Let me close, Mr. Chairman, 
by reiterating what some of the other folks said. I do think we 
need to start looking at more brain research. That is one area 
we haven't paid a lot of attention to. Youngsters do come with 
developing minds and brains. If we look at minds as one set, we 
have to look at the brain and its development in the process of 
education.
    The last comment is we are getting close to senior prom, 
graduation, and you know as well as I do that we see tragedy in 
our newspapers about youngsters dying behind the wheels, not 
because of drugs, not because of alcohol, but because of 
fatigue. I would just like to reiterate if there is some way we 
can admonish our schools to talk to our youngsters about taking 
care of themselves and not get overly tired so that they avoid 
those tragedies.
    Thank you, Mr. Chairman.
    Mr. Regula. Good point. Mr. Bereuter.
                              ----------                              

                                            Tuesday, April 3, 2001.

 APPROPRIATION FOR THE UNIVERSITY OF NEBRASKA--LINCOLN AND FUNDING FOR 
                        THE CLOSE UP FOUNDATION


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Bereuter. Mr. Chairman, Ms. Pelosi, Mr. Sherwood, 
members, thank you for letting me testify today. May I observe 
the Chairman loose, unusually rested and tan, and I am not 
quite sure how he did it, but I know how he got his tan, 
because I was with him.
    I am here to testify, Mr. Chairman, and members of the 
subcommittee, on two items, an appropriation for the University 
of Nebraska--Lincoln, and funding of the Close Up Foundation.
    The first item is the Great Plains Software Technology 
Initiative. A substantial amount of detail is given about this 
program. It is, in some ways, a unique program, but I think it 
is replicable across the whole country. It takes a look at the 
importance of information technology, attempts oh to help our 
students cope with it; to use it well as a building block for 
their future.
    The program at the University is the result of an $18 
million grant from one of our alumni, a challenge grant, and 
this would provide an opportunity for some internship programs 
as these students in their educational experience in this 
honors program implement the curriculum with industry applying 
what they are learning in the process as they approach the 
junior and senior year. This will provide an opportunity for 
additional students, but, most importantly, it helps develop 
further the curriculum which is replicablearound the country.
    It is an important initiative. I took a look at the whole 
range of proposals from the University of Nebraska systems, 
including this campus, which is in my district, and decided 
this was the one that I thought had the greatest opportunity 
for replicability around the country for its application.
    Secondly, I want to speak about the Close Up Foundation, as 
I usually do. They have a request for $1.5 million, which is 
almost below the area where you observe it. But I think it is 
an important testimony to the corporate world that provides 
most of the funds for the fellowships for low income students 
that the Federal Government and the Congress, specifically, 
thinks this is an important program.
    When I first came here, Nebraska was one of only seven 
States that did not participate, although I was speaking to 
teachers and student groups, and today Steve Janger, the 
president and founder, tells me that we have the highest 
participation rate on a per-capita basis in the country. I just 
spent about 45 minutes this morning speaking to students from 
my district.
    It is, in my judgment, the most outstanding citizen 
education program that brings people to Washington of any age 
group, and this happens to be a course focused than our high 
school juniors and seniors. I, along with Mr. Roemer, I 
believe, who also takes a lead on helping the Close Up 
Foundation, interested in making sure that this program which 
focuses on the Federal Government, a national program, is not 
block granted, that it maintains its separate identity through 
the authorization process, where Mrs. Landrieu is working in 
the Senate and where various House Members are taking a lead to 
make sure the Close Up Foundation's programs continue.
    Mr. Chairman, thank you very much for listening to my 
request. I would be happy to answer any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Thank you.
    Mr. Regula. Thank you.
    Mr. Dreier. This is a switch. I am usually on the other 
side of the table with you.
                              ----------                              

                                            Tuesday, April 3, 2001.

                         RE: DIABETES RESEARCH


                                WITNESS

HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Dreier. It is very nice to be here.
    Mr. Chairman, let me begin by extending very hearty 
congratulations to Mr. Sherwood on his recent appointment to 
this very important committee, and obviously the great 
intelligence that all of you had in placing him on your 
subcommittee.
    I want to congratulate you also, because I have spent the 
last 30 minutes or so listening to the testimony, and you have 
very important work with which you deal, and this is the first 
time I have been before this subcommittee, and I appreciate it.
    It is interesting, if 10 days ago someone had said to me 
that I was going to be testifying on diabetes funding before 
Ralph and his subcommittee, I would have said, well, that is 
interesting, but I was--really would be a little skeptical 
about it.
    A week ago Sunday night, many people watched something that 
took place in the area that I am privileged to represent, the 
Academy Awards, and I happened to see an old friend of mine, a 
guy called Doug Wick, accept the Oscar for the best motion 
picture. He produced Gladiator.
    Doug and I had been friends for 25 years, but, quite 
frankly, we had lost contact, and I have been very good friends 
with his parents, whom I mentioned to you the other day, 
Charles Wick, who is director of the U.S. Information Agency in 
the Reagan Administration, and Doug's mother, who was the 
chairman of the Reagan inaugurals in the 1980s, and I 
maintained contact with them, but frankly had not been in touch 
with Doug.
    But when Doug won this academy award, I decided to call him 
and congratulate him, and we had a nice chat, and he informed 
me that his daughter, Tessa, had 3 years ago--she is now 10--3 
years ago had been diagnosed with juvenile diabetes, and he 
asked that I come before you to strongly support the funding 
that has been provided, and I am very happy that the President 
has doubled the budget for NIH, and we have also had a 
significant increase I know for diabetes funding, due in large 
part to your efforts, and I want to encourage that.
    What I would like to do is I would like to just read 
highlights of a letter that Lucy and Doug Wick's daughter, 
Tessa, wrote recently to a number of people, encouraging 
support for diabetes funding. I have a longer version which I 
would like to put in the record.
    Mr. Regula. Without objection.
    Mr. Dreier. As I said, she has politics in her veins with 
her grandparents, so she has a much longer version, but I am 
going to take the somewhat briefer version. I was rather moved 
by this.
    I haven't even met Tessa. I look forward to meeting her.But 
Doug encouraged me to be here, so let me just share this with you.
    ``January 15th, 1998, was a day I will never forget. It was 
the worst day of my life. I was at school in second grade when 
right before lunch my parents rushed through the door and told 
my teacher I would have to leave. I could tell by the look on 
their faces that they were not taking me to Disneyland. 
Instead, they drove me to the UCLA hospital.
    ``When I got to the hospital, the doctors told me I had 
diabetes. They said that I would have to get 2 or 3 shots every 
single day. I was used to maybe 1 shot every year. And there 
was more bad news. I was going to have to prick my finger 4 or 
5 times a day and put a drop of blood into a little computer. I 
was going to have to do this before every meal, before bed, and 
maybe even in the middle of the night. So far, according to my 
sister's calculations, I have had to prick myself or inject 
myself with insulin over 4,500 times, and I have had diabetes 
for a year and a half.
    ``And then there was this creepy information about what I 
could eat. For instance, everyone likes to trade food at lunch, 
but unless I want to have an extra shot, which is usually 
never, I have to stay away from cheesecake, slurpies and 
cookies. I don't know if you are a big lunch trader, but I am, 
and take it from me, what is the use of trading food if you 
can't win any of the good stuff?
    ``Sometimes I try and remember what it was like to just eat 
whatever I wanted without taking a shot of insulin. I try and 
remember all the nights that I could just go to sleep without 
worrying about having a seizure in the middle of the night and 
making my mom wake up at 2 in the morning to check my blood 
sugar just in case.
    ``The last 2 summers I have gone to diabetes camp. The 
first day the camp director stood up and said, will anybody 
here with diabetes please raise your hands? And every single 
kid and all the staff members raised their hands. I couldn't 
believe it. Then the director said, I guess anybody here with 
diabetes will be the normal ones, and everyone clapped.
    ``I like feeling normal at camp. But where I really wanted 
to feel normal is at home, at school, and with my friends, and 
that is only going to happen one way, and that way is to find a 
cure. So please support diabetes funding and help us find a 
cure.
    ``Thank you very much, Tessa Wick.''
    Obviously no one could say it any more eloquently than 
Tessa did in this letter, Mr. Chairman. But I just want to 
congratulate you and encourage you to proceed with funding for 
this very important effort to find a cure for diabetes.
    Mr. Regula. Thank you. I have a young lady in my district 
whose parents brought her to visit with me in the office, an 
identical situation. You really reach out to these young 
people. We hope to find something. We are going to commit as 
much in the way of resources as we can to this.
    Mr. Dreier. Thank you very much. I will convey that word to 
the Wicks for you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Give my best to Charles. He did a terrific job 
at USIA. I worked with him. Of course, Mrs. Wick was active 
with the Ford Theater.
    Mr. Dreier. Right. She still is.
    Mr. Regula. She still is. That is a great program there.
    Mr. Sherwood.
    Mr. Sherwood. It is bad enough with adult onset diabetes, 
but to think a child is looking forward to their whole life 
with this insidious disease, tell your young lady that her 
testimony was very compelling and we will pay attention.
    Mr. Dreier. Thank you very much, Don. I will try to be as 
nice to you all when you come before the Rules Committee as you 
have been to me today.
    Mr. Regula. We will keep that promise in hand.
    Mr. Dreier. I said I will try.
    Mr. Regula. Okay, Mr. Roemer.
    Mr. Roemer. Thank you, Mr. Chairman. Congratulations again 
on your ascension to the most important, in my estimation, of 
many of the important subcommittee chairmanships. As a member 
of the education committee, we look to you to fund many of our 
suggestions, but also to work in a bipartisan way with you on 
cooperative projects.
    Mr. Regula. We await your bill with interest.
    Mr. Roemer. We are working in a bipartisan way to try to 
report an ESEA bill to you. Congratulations to Mr. Sherwood on 
his elevation to this important committee.
    I ask unanimous consent to have my entire statement entered 
into the record.
    Mr. Regula. Without objection.
                              ----------                              

                                            Tuesday, April 3, 2001.

                       RE: TRANSITION TO TEACHING


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Roemer. My good friend, Mr. Dreier, talked about the 
Academy Awards. One of the parts that you may have seen, if you 
watched, Mr. Chairman, was that they wanted to keep the 
testimony as short as possible. I am sure you are looking for 
some of that in your time here. They were going to award a high 
definition television to those people that kept their testimony 
short. While I don't pretend to be any Julia Roberts, I might 
have more success between the two gentleman here in the room if 
I was for the three or four actual projects that I am going to 
ask your cooperation for.
    I will try to keep my testimony short, although I don't 
certainly have the----
    Mr. Regula. You won't get a television, but you will get 
our appreciation.
    Mr. Roemer. Okay. I will try to get the appreciation and 
the support for my projects.
    Certainly the Preventing Child Neglect and Delinquency 
Program with the University of Notre Dame is important. The Ivy 
Tech College Machine Tool Training Apprenticeship Program, 
where we are trying to train more people in manufacturing jobs 
is very important in my district as we go through some rough 
layoffs.
    As Mr. Bereuter testified about the importance of the Close 
Up Program, that is a program that I have been involved in for 
my 10 years here in Congress. Steve Janger does a great job 
running that program, and they bring a host of minority 
students into Washington, D.C. for civic education. I hope you 
will continue to show your strong support for that.
    I am testifying here for a program that we started last 
year for the first time, Transition to Teaching. We provided in 
the appropriation billion dollars 31 million for this 
appropriation, and I would encourage your subcommittee to fund 
it once again.
    Imagine, Mr. Chairman, if you have a 17-year-old son or 
daughter, sending them to school, and you are going to try to 
encourage your son or daughter to maybe take an honors class in 
physics and go to Ohio State University. And that physics 
teacher is not certified in physics, but certified in physical 
education.
    Imagine if you have a second grader going to school and 
they are having difficulty reading, and we are having a teacher 
who is not certified in teaching reading in their first year 
who is not comfortable with the format, the subject matter or 
the inclusion of technology into the curriculum. Many of our 
first year teachers are in that position.
    We are going to have to hire 2 million new teachers in the 
next 10 years, many of which will fall into the situations that 
I have just outlined for you, in the second grade or as juniors 
in high school.
    We have this transition to teaching program that follows up 
on the very, very successful troops to teachers program that 
was instigated in 1994. We brought people from the military 
into the teaching profession. Many of them were trained in 
science and technology and math. Eighty three percent of them 
are still teaching in high need areas, in high need schools, 
and now we have followed on with the transition to teaching 
program where we are rewarding universities and not-for-
positive profits to train the next generation of teachers in 
math, science, technology areas, to come into our schools in 
mid-career, at 45 or 50 years old, and teach in these subject 
matters in high need areas. This is a program that is going to 
work very well, that is hopefully going to address some of our 
need for the 2 million new teachers, although it is not the 
silver bullet by itself, and I hope you will continue to fund 
this program.
    Thank you for the testimony today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I assume that there will be 
hopefully a lot of military retirees that will participate.
    Mr. Roemer. There will be some, Mr. Chairman. That has 
actually slowed down since 1994, with some of the attrition and 
some of the military people leaving now. We are doing 
everything we can to try to keep some of those people and 
retain them, and we are looking outside the military to follow 
up on the troops to teachers with this transition to teaching 
program.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you.
    Mr. Roemer. Thank you. Thank you, Mr. Chairman.
                              ----------                              

                                             Tuesday, April 3, 2001

        FUNDING REQUESTS FOR EDUCATION, LABOR, AND HHS PROGRAMS


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Ms. Waters.
    Ms. Waters. Good morning. Thank you very much, Mr. Chairman 
and members, for sitting in those seats for the hours that you 
have to sit to hear all of the testimony that comes before this 
committee and a particular thanks for the time that you are 
giving to all of the Members today. I am delighted to be here. 
I will go into a few of my requests. Mine are not as program 
specific as they are general in nature, and I have broken them 
down into the three areas that you have oversight 
responsibility for: Education, health and human services, and 
the labor issues.
    Mr. Regula. We will put your entire statement in the 
record.
    Ms. Waters. Thank you very much. On education I am hopeful 
that this Congress will be known as the Education Congress. We 
have all talked a lot about education, and there is some 
confusion about how much increase we are going to have in this 
education budget. I certainly hope that it is in the 
neighborhood of 11 percent or more rather than the 4 or 5 
percent I keep hearing alluded to.
    Under education, educational technology is very important. 
This includes programs such as the Technology Literacy 
Challenge Fund. There is a digital divide, and if we are to 
prepare young people for the future, particularly in some of 
the poor communities, we must make sure that they have access 
to computers and new technology. So I think that we should not 
have any cuts in that area.
    Teacher training is extremely important. I was at a teacher 
training program this past weekend that was done by my local 
school district where they have the teachers, the 
administrators and the parents all together, and teacher 
training, mastering English for many of the immigrant students 
and students who are coming from other places, and I thought it 
was very, very effective. We have got to put money into teacher 
training programs.
    School modernization. Without a doubt we have schools that 
are falling apart. The air conditioning does not work, the 
heating systems are broken, graffiti on walls, the toilets not 
working. And so I think again if we are to be the Education 
Congress, we have got to make sure that we modernize our 
schools and buy some new schools because we have expanding 
populations that cannot accommodate the growth in many of these 
areas.
    After school programs such as the 21st Century Learning 
Centers, very important. Many of our schools could help out 
with the problems of the entire community if they had after 
school programs, programs that gave additional support to what 
is going on in the classrooms during the day, and I think we 
have talked about that a lot and we have these facilities that 
are sitting there and we should put them to good use.
    Let me move on to Health and Human Services. Numerous 
studies have demonstrated that minorities are 
disproportionately impacted by a variety of health problems. 
The National Institutes of Health is collaborating on 12 5-year 
projects to research how social and environmental factors 
contribute to the desperate health problems of racial and 
ethnic minorities.
    Cardiovascular disease, the death rate in 1998 for African 
Americans attributable to heart disease was 136.3 per 100,000 
people compared to 95.1 per 100,000 for others. In cancer the 
Centers for Disease Control are currently allocated 174,000 for 
breast and cervical cancer screening. African American women 
have the highest death rate from cervical cancer. African 
American women have breast cancer rate similar to other women 
but die at greater numbers from preventable disease. Women 
should not be dying from breast cancer, but we need to have 
more research in those areas.
    You have heard probably a lot about AIDS. The Congressional 
Black Caucus has spent a lot of time on creating additional 
funding in this category of AIDS because of the alarming 
increases in HIV and AIDS in the African American community. I 
would ask this committee to pay special attention to that 
funding and the special category that we worked so hard for to 
help build capacity in minority communities, in poor 
communities that don't have the capability of dealing with 
outreach and prevention and all of that.
    Mr. Regula. We were at the CDC yesterday, Centers for 
Disease Control, and they made emphasis on that very point that 
you are making.
    Ms. Waters. Thank you so very much. It is extremely 
important. I won't go into the death rates. I will talk about 
diabetes that has been mentioned here a lot today. I want to 
tell you that I am watching too many people lose limbs and die 
from diabetes. They are cutting off arms and--well, feet and 
legs in particular, and people are going blind from diabetes. 
We need a lot of money in prevention and outreach so people can 
understand the symptoms of this disease and how to care for 
themselves. People are dying at a very early age.
    Mr. Regula. They made a good point yesterday that a lot of 
times people don't recognize it early enough and the impact on 
the body is already pretty progressive before it is recognized.
    Ms. Waters. That is right, Mr. Chairman. They refer to it 
as the silent killer because by the time many people get there, 
their bodies are already overcome by all that goes along with 
it and we need health care prevention for all of America, 
everywhere.
    Mr. Regula. I agree with that.
    Ms. Waters. So we don't learn until, you know, after we get 
50 and things start falling apart. Then we get very conscious 
about our health. But I sure would have liked to have known a 
lot of this when I was a lot younger.
    In education also I wanted to mention Head Start. I worked 
in Head Start when Head Start first was originated. I was the 
supervisor parent involved in voluntary services, and of course 
I learned a lot about how parents and communities can be in 
control of the children's educational destiny. There is not a 
lot that I need to say about Head Start. I think everybody 
recognizes that it is a wonderful program that needs full 
funding, and to the degree we do that we have prepared children 
for school and they are prepared to read, et cetera.
    In labor, I want to mention Job Corps. Job Corps is very 
important and they really have done a very good job. I am 
concerned that we still have Job Corps programs that don't have 
the residential component. That is extremely important when you 
take these kids into Job Corps. If, for example, in Los 
Angeles, where we have a big Job Corps program, some of them 
have to go back to their communities at night, we lose them, or 
the influence of the community is so great that in one program 
they change clothes. For example, they wear one set of clothes 
while they are in the Job Corps, but when they go back to their 
communities they have to wear another set of clothes to 
identify with the neighborhoods that they come from. We would 
like to see more residential facilities associated so that by 
the time they transition out, they are into jobs, they are 
going to live on their own so they don't have to go back to 
those communities.
    The veterans employment and training I can't say enough 
about that. I have a program in my district. This is very 
important because they take the homeless veterans off the 
street, and they have a program that is designed to get them 
back into the main stream and they live in this facility while 
they are being trained and they are doing jobs. And many of 
them go on from there again to have their own homes and to live 
a full life and off the street and using their talent.
    And so these are just some of the things that I wanted to 
quickly mention in the short period of time that we have here 
today, and I appreciate your attention to these matters.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Mr. Regula. I would like to visit with you on Head Start, 
but I will catch you on the floor.
    Ms. Waters. That is my favorite subject any time.
    Mr. Regula. I would like to talk with you about it and see 
how you suggest ways to making it even more effective. But I 
will find you there. We have one more witness.
    Ms. Waters. Thank you.
                              ----------                              

                                            Tuesday, April 3, 2001.

  FUNDING REQUESTS FOR FAR ROCKAWAY PENINSULA PROGRAMS IN QUEENS, NEW 
                                  YORK


                                WITNESS

HON. GREGORY W. MEEKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I ask unanimous consent 
for my statement to be in the record in its entirety.
    Mr. Regula. Without objection.
    Mr. Meeks. Mr. Chairman, Mr. Sherwood, I thank you for this 
opportunity to present testimony to you today. And I will be 
succinct. Let me first, I come to talk about a specific program 
within my district. And we are asking for a mere $2 million 
earmarked to the Joseph P. Addabbo Family Health Care Center.
    Mr. Regula. I knew Joe well, good man.
    Mr. Meeks. He was a great man who did a lot in the 
community that I now represent, and this particular health care 
center we named after him because he really started it while he 
was here in Congress. And it deals with the part of the 
district that is probably the most isolated part of New York 
City, of all of New York City. It is a peninsula that is about 
24 miles outside of downtown Manhattan. And many individuals 
who have to live on that peninsula, they are subject to just 
the services that are there. They don't have access to what we 
call the mainland, which is the other part of New York City, 
and that is just how difficult it is because of the 
transportation to the mainland if you happen to live on the 
peninsula.
    As you may know, the Joseph P. Addabbo Family Health Care 
Center is a private, nonprofit, federally funded community 
health center that was established in 1987 to provide 
comprehensive health services to the poor and medically 
indigent and or medically underserved residents of the Rockaway 
peninsula. The Rockaway peninsula ranked 14th among the 58 
neighborhoods in the city for severe health-related problems in 
1995 and 1996, the years for which the most recent data is 
available, with the rate of preventable hospital admissions 
more than 50 percent above the city average in 1996. This is an 
area home to the sickest and poorest segments of all of New 
York City, and this project that we are talking about is a 
joint project. It is a joint health and educational project 
that we are looking to develop on the peninsula.
    The Joseph P. Addabbo Family Health Care Center 
participated in a Robert Wood Johnson-funded needs assessment 
in the peninsula's low income communities. This project was 
designed to identify primary health care needs. As a result of 
this assessment, Far Rockaway has been designated a health 
crisis area by the Health Systems Agency of New York City.
    Another important aspect of the health profile of the 
Rockaway peninsula is a greater portion of its residents are 
children, with 38 percent of the population below 20 years of 
age. The large number of children and the high level of risk 
factors present in the community warrant particular attention 
to the needs of the children and young adolescents. Twenty-nine 
percent of the children live below the poverty level. Academic 
achievement levels in schools range near the bottom, with 54 
percent of the students reading below their grade level and 44 
scoring below their grade level in mathematics.
    There is also a high incidence of pregnancy among 
teenagers. In fact, it is 14.5 percent higher than all of the 
Borough of Queens, and New York City's average is only 8 
percent. And most of these are young adults between the ages of 
15 and 18 years old. The AIDS rate has been growing much faster 
than the growth rate increase of 82 percent from 1990 to 1991.
    Now this project is something that is a conglomerative. We 
have several different parts of the community that are engaged 
in helping this, and what we are trying to do is to get our 
Federal portion of it funded. For example, the New York City 
Housing Authority has invested $1.5 million into the project. 
The New York City Council has put in $1.1 million for it. The 
New York State Assembly has put in $500,000. The Borough 
President of Queens has put $2 million. York College, a local 
college within the district, is putting $500,000 into this. And 
the College of Aeronautics is putting another $500,000 in this. 
So this becomes for the peninsula a mass educational and health 
care facility that will cover some 104,000 people that 
currently live on the peninsula who are isolated from other 
parts of the city. So we just come asking to bring in our 
Federal share and ask for whatever consideration this committee 
could give us in getting an earmark of $2 million.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Sherwood.
    Mr. Sherwood. Thank you very much.
    Mr. Regula. Mr. Addabbo was a senior member of 
Appropriations.
    Mr. Meeks. He was.
    Mr. Regula. And he and I went to Tokyo. I had forgotten. It 
was quite a while ago. He is not living anymore?
    Mr. Meeks. No, he is not. He passed away. His family is 
still very involved in this and through all of his good work we 
have named this for him.
    Mr. Regula. You have what was his district or portions of 
it?
    Mr. Meeks. Most of it is what he used to represent. He was 
my Congressman.
    Mr. Regula. Thank you for bringing this.
    The subcommittee is adjourned.
                                             Tuesday, May 22, 2001.

                               EDUCATION

                                WITNESS

LISA GRAHAM KEEGAN, CHIEF EXECUTIVE OFFICER, EDUCATION LEADERS COUNCIL
    Mr. Regula. Well, we'll get started. We have a number of 
witnesses this morning, and we need to keep moving, so that 
everyone has an opportunity to be heard and some time for 
questions. Our first witness, Bishop Conway, is not here yet, 
so I think we'll go to Lisa Keegan, the Chief Executive 
Officer, Education Leaders Council. Mr. Obey, would you like to 
make any comments here?
    Mr. Obey. Thank you, Mr. Chairman. I think we might as well 
get started. We're more interested in hearing what they have to 
say than what I have to say.
    Mr. Regula. Okay. Well, we're happy to welcome you. As you 
know, we have a five-minute rule, so if you'll summarize it 
will be helpful.
    Ms. Keegan. I'll do that. Thank you very much, Mr. 
Chairman. As you said, my name's Lisa Keegan. I am the Chief 
Executive Officer of the Education Leader's Council. We are a 
group of reform minded State school chiefs, State board 
members. We have governors who are members, and we have 
superintendents, teachers who are members.
    Our organization believes that reform is necessary in 
American education, and we have been engaged in that in our 
States. We believe that most of this will happen in the States. 
And we appreciate the opportunity to discuss with the Congress 
the direction that you're going to take in your budget and in 
the education bills before you.
    Our organization believes that in fact it is instruction 
that makes the difference for kids. It is not externals. What 
matters in a classroom is dependent on high expectation and 
instruction of a child. And we see going about that in a number 
of ways, many of which are very innovative in the States. But 
we do think it's our responsibility to educate the kids, and 
we're not looking for excuses or external situations to be 
solved.
    We don't believe class size is the answer, we don't believe 
that wealth issues are the answer, we don't believe color of 
children has anything to do with ability to learn. We feel very 
strongly that instruction is the answer and the classroom is 
where this has to happen.
    I want to talk a little bit about the proposals that have 
been made on the House budget. I realize many of them have 
reform components. Oftentimes those of us who talk about 
reform, it's happening here and we're listening to it, are 
characterized as not being interested in children or because we 
want to have a change, that's seen as very hostile.
    At the Council we try to remain very disciplined in our 
focus on a few things. One is that our appropriations from the 
Congress and in the States needs to be focused on the needs of 
kids and not on the bureaucracies that serve them. They need to 
as much as possible go directly to the classroom and to the 
needs of the instruction leader, who is the teacher, usually.
    Secondly, that oftentimes means that those resources will 
have to be changed in terms of formula. Where they are needed 
is in the classroom. Where they are often lobbied for is 
outside of the classroom, because organizations for education 
tend to be interested in organizations outside of the 
classroom. We believe that's problematic.
    Thirdly, we would like to see that the Congress, in pushing 
some majorly important ideas, will seek not to strangle so much 
with regulation but rather to support movement in the direction 
of strong instruction, strong assessments and product and 
result for students. We do believe it's absolutely essential to 
have assessments. You may find our opinion quite different than 
a lot of the education organizations. We make no apologies for 
assessments. We are about the business of assessing in our 
States. We think it's critically important.
    We think it's fabulous that the President has proposed $320 
million in his budget to assist States with their testing 
programs. However, we also hope that most States are already 
about this business already. It's critically important to know 
where our kids are.
    We do take issue with much that's been said about the cost 
of assessment. We listened to a number of statements from the 
National Association of State Boards of Education saying that 
the cost was $7 billion for testing. That assumes about $125 
per student, which we think is nonsense. In our States, where 
we are running testing programs, the State of Virginia has a 
very extensive budget that costs $4 per year. They are not 
testing annually. If they did that, that would double, but it 
would not be anywhere near this $125 that's being bandied 
about.
    In Massachusetts, which exceeds the President's proposal in 
terms of the frequency of testing and the depth of that 
testing, their costs are $14 per child. In Arizona, they are 
about $10 per child. So I would keep that in mind. The exercise 
ought to be strong but narrow focus on assessment and let the 
States go beyond if they want to. We feel it's very important 
to let them determine sort of the extent to which they're going 
to test, beyond reading and writing and mathematics that's 
being asked for, which we think is necessary, particularly to 
prove Title I.
    We are pleased with the increases to Title I. We think that 
money should follow students into programs that work for them. 
That has always been our bottom line. We recognize the desire 
to try to hold everybody harmless and make sure we're funding 
everybody last year the way we were, or this year the way we 
were last year because of political reasons. We would encourage 
you to let that money follow kids. Kids and parents will find 
successful programs and those programs should prosper because 
of it.
    We do support the money for teacher quality. We think it's 
very important to keep that flexible. There are a number of 
very, very innovative teacher quality programs going on, 
depending on the needs of States. Our States, our member 
States, have everything from Troops to Teachers to the teacher 
advancement programs, all sorts of innovative programs.
    We also hope you will continue support for choice. Our 
organization is a strong believer in school choice. We think 
all options that work for kids ought to be made available to 
them. And as State school chiefs, we support that. You find 
that might be unusual from time to time, coming from State 
school chiefs. We believe any school that's working well for a 
child is one worth investigation as to whether or not they'll 
be able to go there, and we're pleased that that discussion is 
ongoing in the Congress.
    Thank you very much, Mr. Chairman.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Did you have any input with the authorizing 
committee on the bill that's on the Floor this week? And if so, 
have you looked at it and do you agree with most of it?
    Ms. Keegan. Mr. Chairman, we have had input on that bill, 
which we appreciate. We like very much the President's original 
No Child Left Behind idea. We feel it's had to be compromised, 
we understand that. We support very much the emphasis on 
assessment. We would like to see that simplified a little bit, 
so that the States are looking at gain of all kids and that we 
don't make it so complicated that it fails in its 
implementation.
    We would like to see some of the amendments on flexibility 
and choice come on. It's very important for the members to 
recognize that any time there's a program, we have a 
requirement then to staff that program in our departments of 
education with X number of people, and it makes it very 
difficult to focus when you have to be maintaining dozens of 
different programs. We would like to be able to focus on our 
standards and assessment programs.
    Mr. Regula. Mr. Obey.
    Mr. Obey. As you know, the President has proposed under his 
plan that NAEP be used as a second check on the annual 
assessments. However, the bill before the House today allows 
States to use other tests that might not be as rigorous as 
NAEP. With which position do you agree, the President or the 
bill as it's before the House today?
    Ms. Keegan. Mr. Chairman and Representative Obey, we are 
fans of the NAEP test at the Education Leaders Council. We use 
it. We believe it is strong. We understand the concern that you 
could slide into a situation where you are sort of mandating a 
national tests that States have a discomfort with. Our concern 
is that we know the NAEP well, we understand it, we think the 
standards are rigorous. We would not look forward to having a 
requirement for a test that was not in line with our own 
standards.
    So any language that allows for an alternative, which we 
understand the need for, we hope will maintain the same kind of 
rigor that is present in the NAEP. We are big supporters of 
OERE, OERI and the research arm in the Department and of NAGBE, 
which sponsors the NAEP tests. It's something all of us have a 
great deal of confidence in right now.
    Mr. Obey. You prefer the NAEP, rather than some substitute 
as a second check?
    Ms. Keegan. Mr. Chairman, Mr. Obey, we prefer the NAEP in 
our organization. That does not mean that we don't understand 
there could be a need for something down the road. So all I'm 
saying is, to the extent there's going to be an alternative, we 
would like for that to be extremely tight in its language. I 
think we all have reason to be quite confident in the NAEP. 
Most of us are using its statistics right now when we talk 
about how the country is doing.
    So if we had to decide between one or the other, the NAEP 
or any series of tests that might not be of the same quality, 
we would go just with the NAEP.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. I have no questions, Mr. Chairman.
    Mr. Regula. One last question. We're going to have an 
amendment on the education bill on the President's suggestion 
on vouchers, or if the school is failing, the children have a 
choice. How does your group feel about that? The language was 
in the President's original bill.
    Ms. Keegan. Correct. Mr. Chairman, we support that. We 
don't believe any child should be in a school that's failing. 
There are options available for these children. We believe the 
first priority is to have a child in the classroom with a 
teacher that's going to move that child. We realize these are 
difficult decisions for lots of people, but for us, it's an 
easy decision. We want that child educated and in any way we 
can find to do that, we will be supportive of.
    Mr. Regula. Do you like the Troops to Teachers program?
    Ms. Keegan. Mr. Chairman, we do. Most of our States are 
using it. We've had a great deal of success with it. When I was 
the chief in Arizona, we had great success with that program 
and Teach for America, and any number of alternative entryways 
into teaching.
    Mr. Regula. I'm curious, you take this retiree from the 
military, did you require that they go back to school and go 
through the hoops to get certification that you normally have 
to do?
    Ms. Keegan. Mr. Chairman, no, and that's what's interesting 
about these alternative programs. They do go through 
preparation in instruction and classroom management. There are 
some tests to determine content knowledge. That's similar to 
Teach for America, another project that brings in very young 
graduates and puts them in inner city schools, which has been 
very successful.
    We believe there are several ways to prepare very strong 
teachers and make them qualified. There does have to be an 
instruction, but probably not the traditional route.
    Mr. Regula. Well, thank you very much.
    Mr. Jackson.
    Mr. Jackson. I think I do have a question, just one. At 
least as I understand the nature of our education system in the 
country, we have, based upon the way our country has evolved, 
50 separate and unequal States, 3,068 separate and unequal 
counties, and at least as many separate and unequal cities. 
Many States derive their revenue from agricultural economy, 
others derive them from a service based economy, others derive 
them from an industrial based economy, which only exacerbates 
the nature of that inequality.
    So for the 53 million children in public schools across the 
country who find themselves in the 85,000 separate and unequal 
schools in the 15,000 separate and unequal school districts, 
I'm wondering how your programs overcome those limitations, and 
how the vast majority of those children who find themselves in 
those unequal schools are reached?
    Ms. Keegan. Mr. Chairman, Representative Jackson, we think 
this is a huge concern. In fact, it's a concern that a lot of 
people don't like to address. That is the fact that public 
education in its traditional form segregates by wealth, because 
it relies on a property tax base and a boundary by which to 
serve children. So it doesn't so much keep children within a 
neighborhood as it keeps other children out.
    We believe that the solutions to this need to be generated 
by the State, but that they ought to be generated by coming up 
with funding formulas wherein money follows students, into 
school that work for them, that funding probably ought to be 
more generated by shared taxes rather than just local property 
taxes. And as you know, there is a wealth of political fallout 
when you start to talk about changing district basis for 
education.
    So it is a local-State issue, it is very difficult. I think 
there are 25 States right now, Representatives, thatare engaged 
in a sort of Supreme Court argument over this very issue. It's 
something that our organization has been involved in at the State level 
and will continue to be, because we think there's a moral imperative.
    Mr. Jackson. Does your organization believe that every 
child deserves the right to an equal, high quality education?
    Ms. Keegan. Mr. Chairman, Representative Jackson, yes, sir.
    Mr. Jackson. Is there any way for us to guarantee that 
every child gets such a right without the idea of education as 
a fundamental right being part of our constitution?
    Ms. Keegan. Mr. Chairman, Representative Jackson, I'm not 
quite sure that it isn't at least a moral imperative as part of 
what we do. Obviously that has not been part of the 
constitution overall. It has been part of implementation in 
every State. I don't see that changing. I think most people are 
dedicated to that ideal. We have tripped ourselves up in its 
implementation, we believe, and we just have to address that 
without pointing fingers at why that happened.
    Mr. Jackson. I thank you. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Mr. Chairman, I just can't help but observe, it's 
very interesting that the bill before the House today would 
withhold education funding from States if children are not 
tested annually. For instance, if Wisconsin decided to test on 
math in odd numbered grades, and decided to test on reading in 
even numbered grades, money would be withheld from the State 
for exercising that judgment.
    But money would not be withheld from States if they have 
outrageous differences in the dollars per child in say, Maple 
School District in my district versus Maple Bluff, where they 
spend almost twice as much money. I find that an interesting 
focus on the hole in the doughnut.
    Mr. Regula. I think our witness would agree with you, but 
we're going to have to move on.
                              ----------                              

                                             Tuesday, May 22, 2001.

                                 LIHEAP


                                WITNESS

THE MOST REVEREND EDWIN M. CONWAY, AUXILIARY BISHOP OF THE ARCHDIOCESE 
    OF CHICAGO
    Mr. Regula. We're pleased to call Bishop Conway, the Bishop 
of the Archdiocese of Chicago. Mr. Jackson, I understand you'll 
introduce our guest.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Obey. Where is Chicago? [Laughter.]
    Mr. Jackson. Somewhere sandwiched between Ohio and 
Wisconsin.
    Mr. Regula. It's the new home of the Boeing Company.
    Mr. Jackson. When our bill comes before the Committee, I 
want both of you to remember that.
    Mr. Regula. I said it's the new home of the Boeing Company.
    Mr. Jackson. Yes, sir, it certainly is.
    Mr. Chairman, I am honored today to introduce the Most 
Reverend Edwin M. Conway, who was ordained a priest on May 6th, 
1960, and ordained a bishop on March 20th, 1995. Currently, 
Bishop Conway serves as the Episcopal Vicar for Vicariate 
Number Two of the Archdiocese, which includes supervision of 63 
parishes on the north and northwest side of Cook County, 
Illinois.
    Bishop Conway serves as the liaison for the Health Affairs 
Office of the Archdiocese, which oversees 23 Catholic health 
care centers and long term health care facilities of the 
Archdiocese. He has served as an associate pastor and in 
various roles of service and management within the Catholic 
Charities system and the Archdiocese of Chicago.
    Bishop Conway was the administrator of Catholic Charities 
from 1980 through 1997, and served as the director for the 
Archdiocese of Chicago and was a member of the Cardinal's 
Cabinet from 1985 through 1997. Bishop Conway holds a masters 
degree in theology and a masters degree in social work from 
Loyola University in Chicago. Mr. Chairman, and members of the 
Subcommittee, I present to you Bishop Conway.
    Bishop Conway. Thank you.
    Mr. Regula. Thank you. We're happy to welcome you, and look 
forward to your comments. Your testimony will be made part of 
the record.
    Bishop Conway. Good morning, Chairman Regula and thank you, 
Mr. Jackson, for the invitation to come and also for your 
introduction this morning. And good morning also to the members 
of the Committee that are here before us.
    We have written testimony, I'd like to submit that and just 
spend briefly, some four or five minutes here discussing some 
of the high points of that testimony.
    Thank you for the invitation to speak to you this morning 
regarding the Low Income Home Energy Assistance Program, 
LIHEAP. I am an Auxiliary Bishop from the Archdiocese of 
Chicago. Cardinal George was asked, as the Archbishop of 
Chicago, to come and testify this morning. Fortunately 
orunfortunately, he has been called to Rome for a Consistory of the 
Cardinals along with Pope John Paul II and has asked me to speak on his 
behalf for the Archdiocese of Chicago.
    As you will see from my resume, I've spent more than 30 
years with the Catholic Charities of the Archdiocese of 
Chicago. Many of those years I spent as its administrator. 
Thus, I speak from my own experience as well as a bishop in 
Chicago which oversees some 67 parishes, serving multi-ethnic 
and multi-racial communities. The Archdiocese of Chicago has 
377 parishes, with approximately three-quarters of a million 
active parishioners.
    This morning I wish to speak to you specifically about the 
Low Income Home Energy Assistance Program. I fervently urge you 
to appropriate at least $2.3 billion in core funding for the 
LIHEAP program for the fiscal year 2002. The overall totals, 
you recall, last year were $2.3 billion and were made available 
to all the States in order to help low income families with 
home energy problems. Illinois received approximately $132 
million and it was supplemented by an additional $65 million in 
State grants. This money came from various sources within State 
supplemental low income assistance funds.
    The program in Chicago was administered through the 
Community Economic Development Association of Cook County, 
which serves the household of elderly disabled and others who 
are disconnected or meet the poverty guidelines. In Illinois, 
approximately 775,00 households are eligible for low income 
below this level. Currently, Peoples Gas in Chicago records 
approximately 25,000 elderly and disabled with heating bills 
that are significantly or substantially past due.
    I point this out as it comes time when gas prices have more 
than doubled. The energy bills will not return to the 2000 year 
level in the foreseeable future, which gives us an example of 
the Archdiocese itself, which purchases gas at approximately 60 
percent less value from NICOR and Peoples Gas in Chicago. Based 
upon that usage, however, of the present and past heating 
seasons, an additional $8 million will be required of the 
Archdiocese in payments in the year to come.
    This will severely decrease the amount of discretionary 
dollars that the parishes and pastors will have to distribute 
to poor clients who are experiencing eminent shut-off of the 
utilities. I point out that in the week prior to April 4th, the 
deadline for gas shut-off in Chicago, the Archdiocese of 
Chicago Catholic Charities received more than 300 requests for 
energy assistance over the past several months. They have 
received more than 500 requests regarding utility assistance.
    The average bill for heating in Illinois in the area of 
Chicago is $1,500. The State assistance LIHEAP program is $495. 
This amount is less than one-third of the energy bill going to 
assist elderly and the vulnerable poor.
    The Bishops of Illinois have talked about the right to 
housing for families and their children, and they have sought 
to estimate the number of households in which families will be 
experiencing no heat. I therefore strongly believe, and I have 
been informed by the Catholic Charities of the United States, 
that the situation nationally, especially in some of the colder 
States, is also parallel to Illinois.
    I stress the fact that unless the amount is restored to at 
least last year's level, more than 50,000 households in the 
Chicago area will be ineligible this coming year if the current 
grant remains the same. The facts in this instance are very 
clear, the dramatic increases in home energy costs, lack of 
corresponding increases in salaries and income, results 
certainly and assuredly that families will be unable to meet 
their bills.
    Therefore, we implore this Committee to fund LIHEAP for the 
year 2002 at at least equal to the amounts in the resources 
that were available to the States for the last winter, or $2.3 
billion. And since even this amount may not be adequate to meet 
the needs of low income families living on the edge of 
homelessness, we would strongly encourage an appropriate 
increase over this level in the overall funding.
    We hope at the very least that if this amount remains as 
introduced by the Administration, the $300 million be also 
allocated in an appropriate basis to each State. We know that 
our brothers and sisters in California have been publicly and 
visibly shown to have utility problems. We are seeking some 
sort of the same recognition in Illinois and among our Chicago 
citizens, who rely on this program to continue to survive.
    Thank you, Mr. Chairman. And thank you to the members of 
the Committee for receiving testimony this morning.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Bishop Conway, I don't know if you're aware of 
it, but Chairman Regula is a member of what is known as the 
College of Cardinals in the Congress.
    Bishop Conway. Which means?
    Mr. Obey. I thank you for reminding him that he doesn't 
belong to the only College of Cardinals.
    Mr. Regula. I didn't get summoned to Rome, though. 
[Laughter.]
    Mr. Obey. Let me simply ask one question. In your 
statement, you referred to the need for funding LIHEAP at last 
year's level of $2.3 billion. I believe what that refers to is 
that $1.7 billion was made available in the regular 2000 
appropriation, plus an additional $556 million was available in 
carry-over funds, for a total of $2.256 billion.
    I think it's important for the Committee to understand that 
if we adopt the President's fiscal year 2002 request, which is 
$1.7 billion, composed of $1.4 billion in core funds and 
$300,000 in contingency funds, that States would see a 25 
percent reduction in the actual amount of deliverable aid next 
winter.
    How many people did you say that would not be served in 
Illinois?
    Bishop Conway. In Illinois, we think there will be at least 
50,000 households in the Chicago-land area that will not be. 
And also we know that probably the $2.3 billion is inadequate. 
It certainly is what we would like you to achieve, but even 
more is needed if we're going to match the increasing energy 
bills.
    Mr. Obey. I certainly agree with that. Thank you, Mr. 
Chairman.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Mr. Chairman, I did have a question, but the 
Bishop spoke to it in his remarks. My district, the Second 
District of Illinois, receives $12 million of that $76 million 
in the LIHEAP program. The next closest district receives some 
$4 million.
    So I'm very well aware of the benefit that LIHEAP provides, 
and I think the Bishop's testimony and his extended remarks, 
when we begin to negotiate over our bill, I certainly hope that 
the Committee will take into account that there are a number of 
communities, particularly those who suffer in Chicago winters, 
who are in desperate need of this program, and any efforts to 
under-fund the program can only create the kind of misery 
amongst some Americans that none of us would want in a Chicago 
winter.
    So I'm certainly hoping, Mr. Chairman, that you'll be 
sensitive and the Committee will be sensitive to the Bishop's 
remarks. Thank you, Mr. Chairman.
    Mr. Regula. I might say, I think there will be a 
supplemental emergency appropriation. It will include money for 
LIHEAP. I know that's in the planning stage. I'm not sure how 
much yet. But there will be.
    Mrs. DeLauro.
    Mrs. DeLauro. I'm delighted to hear that the Chairman 
thinks there will be a supplemental appropriation. We weren't 
sure that that was going to be the case. Clearly, LIHEAP is a 
lifeline for people in our communities where we have tough 
winters, and those that have tough summers as well, as we've 
seen in the past. And we need to continue the past efforts with 
regard to LIHEAP, especially now given the kinds of crises that 
people are facing in their lives with energy.
    Thank you.
    Mr. Regula. As I understand it, you just deal with Chicago?
    Bishop Conway. That's correct.
    Mr. Regula. How about the outlying areas? Is that part of 
another----
    Bishop Conway. It's a different diocese.
    Mr. Regula. Configuration?
    Bishop Conway. Yes, different diocese. However, we are in 
communication and we have a statewide organization. The 
Illinois Catholic Conference, that deals with issues. It's 
fundamentally the same. In fact, some of the rural areas 
outside Chicago, which are more devastated economically, are 
really concerned about facing this.
    Mr. Regula. Does your diocese administer this program, or 
just work with individuals to apply for it?
    Bishop Conway. Yes, it works with the county to distribute 
the funds.
    Mr. Regula. What's the policy, pretty much, of the gas 
companies? Do they shut off if they don't get paid?
    Bishop Conway. Well, this has been a very sensitive point. 
We've gone through several public manifestations and 
demonstrations about this. And currently, it's in abeyance 
until it is handled in a much better way. There were two due 
dates set and at both times the gas companies gave a reprieve 
until some further discussion was done by the local 
municipalities, county government and hopefully the Federal 
Government.
    Mr. Regula. Do you think most people know that this is 
available and take advantage of it? Because otherwise they 
could be in a real crisis situation.
    Bishop Conway. I think most people become aware of it and 
maybe they're not aware of it at first glance, where they 
certainly begin to come to the point of having their gas turned 
off or collaterally through some other arrangement with the 
social service agency they become aware of this and apply for 
it.
    Mr. Regula. I assume the gas company would let them know.
    Bishop Conway. They do.
    Mr. Regula. They have an interest, too.
    Bishop Conway. Right.
    Mr. Regula. Well, thank you very much for coming and 
testifying this morning.
    Bishop Conway. Thank you.
                              ----------                              

                                             Tuesday, May 22, 2001.

                             WOMEN'S HEALTH


                                WITNESS

CAROLYN M. MAZURE, CHAIR, WOMEN'S HEALTH RESEARCH COALITION
    Mr. Regula. I think Mrs. DeLauro, we'll move then to 
Carolyn Mazure, the Chair of the Women's Health Research 
Coalition. You'll be introduced by Mrs. DeLauro.
    Mrs. DeLauro. Good morning. Mr. Chairman, let me just say 
thank you to you and to my colleagues. It's such a pleasure to 
welcome to the Committee a woman whose work I truly do admire 
greatly, and of whom I'm tremendously proud to count as one of 
my constituents. Dr. Carolyn Mazure is a professor of 
psychiatry at the Yale University School of Medicine, the 
principal investigator for the Donohue Women's Health 
Investigator Program at Yale. I might add that that is the 
largest university-wide women's health research program in the 
United States.
    Dr. Mazure is a national leader in the field of women's 
health, conducting research on women and tobacco dependence, 
post-traumatic stress disorder in determining predictors of 
depression and psychosis. She serves on the board of the 
Society of Women's Health Research and in addition to that, she 
really has been a leader in bringing the work of research on 
women's health into the community, to look at how we actually 
try to improve the health and the lives of women across their 
entire life span.
    So it's a great honor for me to welcome Dr. Mazure and to 
be able to say to the Committee, this is someone who really 
does have an unbelievable grasp of what is happening out there 
with regard to women's health and research and look forward to 
her comments on the budget for the next fiscal year, and say 
thank you to you for spending some time with us, Doctor.
    Mr. Regula. Thank you. Your entire statement will be put in 
the record, and we'll appreciate your summarizing.
    Ms. Mazure. Thank you. First, thank you, Congresswoman 
DeLauro, for your very kind words of introduction. It's very 
much appreciated. Mr. Chairman and other members of the 
Committee, I appreciate the opportunity to speak with you 
today.
    For the record, I am Dr. Carolyn Mazure, with the academic 
affiliations as noted by Congresswoman DeLauro. I'm testifying 
today in my capacity as the chair of the Women's Health 
Research Coalition, which was created by the Society for 
Women's Health Research two and a half years ago.
    The Coalition has nearly 200 members committed to advancing 
women's health research. Most of these members really include 
national leaders in scientific and medical investigations and 
in academic institutions throughout the country, and also does 
include people from voluntary health organizations as well as 
pharmaceutical and biotech companies, again, to the larger 
issue of trying to make transfer of information possible across 
these different constituencies.
    To begin, let me first emphasize that we strongly support 
the goal of improving the health and the health care of all 
individuals through newly discovered research based information 
that can be incorporated into medical practice and also 
incorporated into personal practice. But there are at least 
three reasons for a special focus on women's health and on 
understanding what are referred to as sex-specific factors in 
health and disease.
    First, women historically have been under-represented as 
subjects of scientific research for a variety of reasons. And 
when women have been included, even to this day, sex-specific 
analyses of health data have not traditionally been conducted. 
A recent GAO report coming out in 2000 also confirmed that 
finding.
    Second, age adjusted indicators of both health status and 
also of service utilization continue to show that women have 
more acute medical problems and higher hospitalization rates, 
even when you exclude hospitalizations due to childbirth.
    Finally, there are large gaps in our scientific knowledge 
about disorders and conditions that either affect women solely 
or predominantly or differently. For all these reasons, we ask 
the Congress to play a pivotal role in advancing research on 
the health of women, research that we believe will make a 
difference in women's lives and in so doing, will benefit every 
person in the country.
    That's what brings me to why I am testifying here today. 
The Coalition is seeking the Subcommittee's support on four 
major priorities. First, we join with others who have appeared 
before this Committee to advocate for a $3.4 billion or 6.5 
increase in the NIH budget for fiscal year 2002. However, 
importantly, as the NIH grows to meet the great need for 
medical research in many areas of health, we ask for your 
support in ensuring that there be at least comparable increase 
directed towards women's health research within that pot of 
money. There is too much work to be done, as detailed in the 
written statement that I'm providing, not to ensure such 
funding.
    Second, we ask that the various offices, advisors and 
coordinators throughout the Department of Health and Human 
Services, those individuals who enhance the Department's focus 
on women's health research, be funded at least to the 
Administration's recommended levels. In particular, we strongly 
support the $50 million request in the President's budget for 
the Office of Research on Women's Health, which is, as you 
know, based within the NIH, and the $27 million request for the 
Office of Women's Health in the Office of the Secretary.
    These are significant increases that need to be maintained, 
but I want to point out also that other women's health 
representatives in SAMHSA and CDC and FDA andelsewhere also 
need strong support to carry out their missions.
    Third, within the $50 million for the Office of Research on 
Women's Health, that is the office with NIH, we ask for your 
strong support in creating women's health research centers, as 
recommended in the Administration's proposed budget. We believe 
these should be well funded interdisciplinary, peer reviewed 
centers, which collectively cover a wide range of critical sex 
and gender based health research issues.
    Such centers would provide an effective mechanism for 
operationalizing a strategy in women's health that would pursue 
a research agenda that's been designed by the Office of 
Research on Women's Health. This strategy is used, that is the 
strategy of centers, is used in cancer research, it's used in 
asthma research. Surely we can do it in a field of research 
that will directly affect so many of our citizens. With this 
funding, the entire field of sex and gender based research can 
move into a new era.
    Finally, we ask for your support in maintaining and 
expanding the BIRCWH program, which is sponsored by the Office 
of Research on Women's Health, again as recommended in the 
President's budget. BIRCWH, which stands for Building 
Interdisciplinary Careers in Women's Health, is training the 
next generation of women's health researchers. It is strongly 
supported by the institutes within NIH and by the community. 
NIH plans to issue a request for applications to generate a new 
round of these centers, but the Office of Research on Women's 
Health must have the $50 million appropriation to create them.
    Just last month, the Institute of Medicine issued a 
landmark report called Exploring the Biological Contributions 
to Health Research: Does Sex Matter? The results were 
unequivocal with regard to the incredible scientific 
opportunity in studying sex differences with regard to health. 
This Subcommittee and the Department of Health and Human 
Services routinely does turn to the IOM for advice on major 
questions related to medical research and practice because the 
IOM provides objective, scientific analysis.
    The report makes it clear that sex is a critical variable 
in understanding biology at the cellular level, and remains so 
through early development, puberty, adulthood and old age. We 
hope that the Committee will support the priorities I've 
outlined above to begin the process of implementing the IOM's 
fundamental conclusion that sex matters.
    Mr. Chairman, Committee, the Women's Health Research 
Coalition stands ready to work with the Subcommittee to advance 
research on women's health and sex-specific factors in health 
and disease and thus build a better future for all Americans. 
Thank you for this opportunity to testify.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. No questions.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. No questions, Mr. Chairman.
    Mr. Regula. Mrs. DeLauro.
    Mrs. DeLauro. No questions. I think Dr. Mazure just laid 
out a mission for all of us, and the kind of first-rate work 
that is done that we have seen and see the results of, I think 
just continues to let us know that we need to focus in this 
area, because of what the results have been, and where we might 
go. Thank you for your great work.
    Mr. Regula. I'm curious, obviously, the life expectancy of 
women is substantially higher than men. Shouldn't the focus be 
perhaps on both men's and women's health issues? For some 
reason it's just been women's health out at NIH. It would seem 
to me that it ought to be a little broader. What would be your 
observation?
    Ms. Mazure. I think that's a very important point. The way 
in which we really see it is, I think several points are 
embedded in the answer. One is that historically, women have 
not been the subjects of research. So we have a bit of 
scientific catch-up to do. Secondarily, in the new science and 
the way in which we're approaching women's health, we're very 
interested in what's referred to as sex-specific differences. 
And by looking at differences between women and men in 
reference to all forms of illness and all forms of disease 
prevention, we really are discovering as much about men's 
health as women's health. So I think the broad field of women's 
health really advances health knowledge in all areas for 
everyone.
    I also do think that in reference to the issue that you 
raised where men tend to live on average a shorter length of 
life than women, living longer doesn't always necessarily mean 
living better. It often is associated with higher rates of 
chronic disease, cancer, dementias, cardiovascular illness. 
Nevertheless, I think we have to do better at communicating 
information about health to men so that men are in a position 
to take better care of their own health.
    Mr. Regula. Thank you. We appreciate your being here.
                              ----------                              

                                             Tuesday, May 22, 2001.

                              SMALL SCHOOLS


                                WITNESS

TOM VANDER ARK, EXECUTIVE DIRECTOR OF EDUCATION, BILL AND MELINDA GATES 
    FOUNDATION
    Mr. Regula. Our next witness today is Mr. Tom Vander Ark, 
who's the Executive Director of Education for the Bill and 
Melinda Gates Foundation, to talk about small schools. We're 
pleased to welcome you, Mr. Vander Ark.
    Mr. Vander Ark. Thank you, Mr. Chairman, members of the 
Committee. It's a pleasure to be with you today.
    I'm Tom Vander Ark, I'm the Executive Director for 
Education for the Bill and Melinda Gates Foundation in Seattle.
    There's been a great deal of attention paid to elementary 
schools in particular in education reform in the last decade, 
and very little paid to high schools, which is surprising, 
because American high schools work well for relatively few 
students. Unfortunately, that's most true for economically 
disadvantaged students and students of color.
    But today there are hundreds of schools that are bucking 
that trend. They're public schools, charter schools, private 
schools, urban, rural, they're suburban schools, but they all 
have one thing in common: they're small. After 40 years of 
consolidation, about two-thirds of American students now go to 
high schools larger than 1,000 students. As former Governor Jim 
Hunt said, we've made a terrible mistake in America. And we 
think it's time to reverse that mistake.
    There are decades of research, and especially a plethora of 
research in the last five years that small schools make a 
difference. It's interesting to note that there's very more 
conclusive research on small schools than there is on small 
class size. And yet small class size is a top of mind issue for 
teachers and parents.
    What we know from the research is that small schools 
improve attendance, achievement, motivation, graduation rates, 
it results in higher college attendance rates, school safety 
and school climate are improved, there's better parent and 
community involvement and better staff satisfaction.
    Mr. Regula. I'm sorry to interrupt you, would you define 
small school? You're talking about it as a term. If we had some 
definition it would be a little easier to relate to your 
testimony.
    Mr. Vander Ark. The research is inconclusive on that front. 
We generally say about 400 students, or less than 100 students 
per grade. So if it's a 6-12 school, it might be 600 students. 
But it's less than 100 students per grade.
    Mr. Regula. Would that be, would you define it as a small 
school in terms of a building, could it be one school district 
with a lot of small units?
    Mr. Vander Ark. Absolutely. I'll give you an example. The 
Julia Richman High School in the East Side of Manhattan, in the 
early 1990s, was one of three dozen large comprehensive high 
schools in New York City that had graduation rates of less than 
25 percent. Let's think about that for a minute. This is a 
school that serves economically disadvantaged students, 
primarily students of color. They had a graduation rate of less 
than 25 percent.
    Today that center, it's now called the Julia Richman 
Education Complex, that complex now has four small focused high 
schools, a K-8 school, a school for autistic children and a day 
care center. So there's about 1,600 students on that campus. 
All four of those high schools have graduation rates between 90 
and 95 percent and college attendance rates of the same. All of 
the students in that school share the amenities of a large 
school, gymnasiums, auditorium, performing arts center, and a 
library.
    All of these schools, and the hundreds of great small 
schools in New York, in Chicago, in the Bay Area, all operate 
on the same per pupil allocation as large schools. So the 
notion that they're less efficient is absolutely not true. For 
the same money, we can get the benefits that I described 
earlier.
    Why is this important to us? It's become a focus of our 
work because high schools are the largest, the least efficient 
and least effective and the most intractable schools in our 
system. We've developed a two-pronged approach of starting new 
small high schools and trying to help transform big bad schools 
into a multiplex of good small schools.
    But changing an American tradition is far from easy. The 
Gates Foundation and a number of other private philanthropies 
have contributed considerable resources to this daunting 
challenge. But it's going to take multi-sector collaboration to 
effect real change at scale.
    There's a growing consensus that our high schools aren't 
working, especially for most economically disadvantaged 
students. And there's fortunately a growing consensus about the 
attributes of schools that work for all students. We feel 
strongly that it's time to address this important injustice in 
our schools and to promote real design, so that all of our 
schools work for all of our kids.
    Thank you for the opportunity to testify.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Isn't it true that the research shows that student 
performance is superior in high schools that are smaller than 
800 students as opposed to larger?
    Mr. Vander Ark. No question.
    Mr. Obey. I find it interesting and frustrating that last 
year this Committee worked to increase the appropriation to 
assist school districts to explore the opportunity to create 
smaller schools, especially at the high school level. We 
increased funding for that program from $45 million to $125 
million. But, the bill which is on the floor today eliminates 
this specific authorization for small schools.
    I find that distressing because I think that small schools 
are absolutely critical at the high school level if we're going 
to improve not just academic behavior but social behavior as 
well. I congratulate the organization that you are running for 
its emphasis on the problem.
    Just one other point. It's my understanding, Mr. Chairman, 
that in Florida, Governor Bush and the legislature have passed 
legislation requiring that all new high schools that are built 
be of the smaller variety. I wish that nationally we would get 
the same message as we're getting from the kid brother in 
Florida. [Laughter.]
    I also would note that I've seen a number of comments which 
suggest that small high schools are more costly per student. My 
understanding is that while they may have a higher cost per 
student, that they are less costly per graduate, indicating 
that there is a higher level of performance that pays off 
economically as well as academically.
    Mr. Vander Ark. Mr. Chairman and Mr. Obey, our findings are 
that the hundreds of small schools that exist today generally 
operate on the same per pupil allocation. I would argue, as Ms. 
Keegan did earlier, that we do need to address the inequities 
in our funding system. This is true especially in our major 
cities. I would agree that we need funding that's needs based 
and that follows the students.
    That's a different but related issue to this one. I think 
the important point here is, there are hundreds of great 
schools doing a great job for the same per pupil allocation. 
Now, two related issues on capital costs. Some would argue that 
it costs more in terms of capital construction per pupil for a 
small school. That may be true if you want to adorn it with all 
the amenities that we traditionally think of on a secondary 
campus. But clearly, there's opportunity, as Julia Richman and 
many others illustrate, for a number of schools to share a 
campus facility with the traditional accoutrements of an 
American high school.
    The second issue is that there is a transaction cost, a 
transformation or a redesign cost to transform a big, 
comprehensive school into a multiplex of small schools. It's 
not capital cost, it is primarily time and resources for the 
staff to rethink the way their schools are designed, to be 
trained to teach in small teams, to serve as advisors for 
students. And that's what the bulk of our funds pay for, is 
that redesign effort.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey, you and I both went to the Aspen 
seminar. As I recall, Dr. Levy from the New York City system 
was pointing their system in that direction. Is my recollection 
similar to yours?
    Mr. Obey. He certainly indicated that he wanted to, in the 
remarks that he gave to the conference.
    Mr. Vander Ark. I can address that, Mr. Chairman and Mr. 
Obey. The Gates Foundation, Carnegie and the Open Society 
Institute have helped to support a major initiative with New 
York City and New Visions for Public Schools in an effort to 
both start new small schools and to attempt to transform 12 to 
15 of the worst large high schools in New York into small 
schools, small, a multiplex of small schools much as I've 
described.
    Mr. Regula. Do athletics get in the way?
    Mr. Vander Ark. Absolutely. This is dangerous and 
politically radioactive work, largely because high schools work 
today for elite athletes and for the top 10 percent of our 
students. Those are vocal and influential parents. So it is 
clearly an issue.
    I'll mention the Julia Richman story. The students from 
those four high schools play together on interscholastic teams. 
They compete, they mix teams and compete internally on 
intramural teams. So again, that's a great model of how you can 
have your elite sports, if that's what a community desires, but 
have very small focused coherent programs where every child 
gets the attention they deserve.
    Mr. Obey. Mr. Chairman, I guess I would observe that it 
would be interesting to compare headline size for a high school 
that wins a conference football championship versus a high 
school that produces an unusually large number of national 
merit scholars.
    Mr. Regula. I agree with you completely. I live on a farm. 
At the end of my driveway is an old red brick one room school 
that was closed about 50 years ago. I've said many times, I 
have three children, I would have been absolutely delighted had 
they gone there. Because they would have had eight grades eight 
times, provided there was a good teacher. That's always a 
caveat that goes all the way througheducation. We're into a 
consolidated school, and I see some real problems.
    I'm curious, how does your foundation practically, how do 
you try to encourage this trend, probably to discourage 
consolidations or big schools and at the same time encourage 
some deconsolidation, if you will?
    Mr. Vander Ark. Well, Mr. Chairman, I'll give you an 
example of the work that we just initiated in Colorado with 
Governor Owens' office. First of all, we're helping to create a 
statewide foundation to create a network of technology focused 
high schools in the most economically disadvantaged 
neighborhoods in Colorado.
    Secondly, we're working with the State accountability 
system, so that every high school that's labeled as under-
performing in their State becomes eligible for the program that 
we've designed, that will actually supplement the State aid to 
failing schools. So they get a small amount of money from the 
State and then if they can demonstrate to us some sense of 
leadership and initiative, we'll supplement that with 
additional money, with outside consulting help and some clear 
direction on what they ought to do.
    Mr. Regula. You've obviously worked with the New York 
system and from what I remember of Dr. Levy's comments it's 
working pretty well in terms of, as compared to what it had 
been before.
    Mr. Obey. I'm sorry, I didn't hear you.
    Mr. Regula. I said, I think Dr. Levy indicated in his 
testimony to us in that seminar that their decentralization was 
working fairly effectively for students.
    Mr. Obey. He thought it was. He also mentioned that there 
were a considerable number of critics after him, as you 
indicated. But I think he'll outlast them.
    Mr. Regula. Chicago's done--I'm sorry Mr. Jackson isn't 
here--Chicago's done some pretty innovative things. I met with 
their superintendent, and at least I was under the impression 
that they were doing what you're suggesting. Is that accurate?
    Mr. Vander Ark. Mr. Chairman, that's accurate. Pat Walsley, 
who is now the dean at the University of Washington, recently 
authored a study called Small Schools Great Strides, which 
chronicles the success of the roughly 150 small schools in 
Chicago. So they've certainly recognized that size matters, and 
that good teaching most frequently happens in small schools, 
where teachers can work together, where they can hold each 
other accountable, and where they can hold students 
accountable. You can create an authoritative environment in a 
small school that's virtually impossible to create in a large 
school.
    Mr. Regula. Did you get an opportunity to testify in the 
authorizing committee? They were doing a bill that we have on 
the Floor now.
    Mr. Vander Ark. Mr. Chairman, as a foundation we don't 
advocate for particular appropriations or bills. So no, I 
didn't.
    Mr. Regula. Well, from what you're saying, Mr. Obey, the 
ability of this Committee to support a small school program 
would be inhibited by the lack of authorization in the new 
bill.
    Mr. Obey. Well, what I'm saying is that the authorization 
bill repeals the specific authorization. We have, in the past, 
on this Committee found ways, by using general authorizations, 
to accomplish purposes that are constructive, and I hope that 
we can find that in this instance as well. I think it's a 
strange argument that some people make--that no effort is 
required on the part of the Federal Government because the 
Gates Foundation is involved. That seems to say, let cousin 
Johnny do it, rather than me, when we all ought to be working 
on it together.
    Mr. Regula. Well, thank you for coming. I'm in total 
agreement with what you're saying. I've been seven years in 
public education and on the State school board. I think this 
trend of bigness is better is just being demonstrated as not 
the right way to go. Have you developed any paper on this 
subject, to support what you've presented this morning? Of 
course we have your testimony. Is there anything additional to 
that?
    Mr. Vander Ark. Mr. Chairman, we have several articles on 
this subject. My testimony includes references to a number of 
the research studies that have been published in the last four 
or five years. I'd also call your attention to the Dropout 
Commission that made their report on January, Commission on the 
Senior Year, which made their report in February, the American 
Youth Policy Forum, which published their report earlier this 
year, the Education Trust, all of those organizations have come 
out very strongly in favor of small schools, and all of those 
reports cite many of the same pieces of research that are noted 
in my testimony.
    Mr. Regula. What you're saying is that in the thoughtful 
establishment, this is the direction that the research is 
taking?
    Mr. Vander Ark. There's very strong momentum among people 
that are looking at data. Unfortunately, that conversation has 
not reached most local school districts.
    Mr. Regula. I think we'll need to be creative.
    Mr. Obey. Well, I think that's allowed in the democratic 
system. [Laughter.]
    Mr. Regula. Thank you very much for coming. I commend you 
for your work, and I hope you have ever greater success.
    Mr. Vander Ark. Thank you.
    Mr. Regula. Because I think it's absolutely the right way 
to go.
                              ----------                              

                                             Tuesday, May 22, 2001.

                                  NIH


                                WITNESS

ERIC S. LANDER, CHAIR, JOINT STEERING COMMITTEE FOR PUBLIC POLICY
    Mr. Regula. I understand, Dr. Lander, you're on a tight 
schedule. So we'll give you an opportunity to be heard at this 
moment.
    Mr. Lander. Thank you very much, Mr. Chairman.
    Mr. Regula. Your testimony will be in the record and we'll 
welcome a summary.
    Mr. Lander. Great. Mr. Chairman, members of the 
Subcommittee, thank you for inviting me here this morning to 
testify. My name is Eric Lander, I'm a professor of biology at 
the Massachusetts Institute of Technology and the Director of 
the Whitehead Institute/MIT Center for Genome Research. I'm 
here today representing the Joint Steering Committee for Public 
Policy, which is a coalition of scientific research societies 
that jointly represents about 25,000 research scientists 
nationwide and globally.
    My own scientific research is related to the Human Genome 
Project. Our own center at the Whitehead Institute was the 
largest of the contributors to the recent sequencing of the 
human genome, and in addition, we work on trying to apply this 
knowledge to dissect the basis of human diseases, the causes of 
cancer and diabetes and heart disease.
    The scientific community is tremendously grateful for the 
support of this Committee and of the Congress in increasing the 
funding for the National Institutes of Health over the past 
several years. The additional funding is having a major impact 
on the pace of biomedical research, and it's been responsible 
for much of the remarkable scientific progress that we read 
about on a daily basis.
    I'm here today to ask you to continue increasing that 
support toward the goal of doubling the NIH budget. Given your 
own history of support for biomedical research, I take it for 
granted that you consider funding the NIH to be a tremendously 
important investment in our children's future. And I take it 
for granted that you know that millions of Americans suffer 
from Alzheimer's disease and arthritis and cancer and chronic 
lung diseases and diabetes and heart disease. And I take it for 
granted that you know that such diseases pose an incalculable 
burden of pain and hardship on its victims and their families, 
as well as a financial burden estimated approaching $1 trillion 
annually.
    But this alone would not be enough to justify substantial 
increases now. Substantial increases now can only be justified 
if two things hold. First, that there really are extraordinary 
and urgent new opportunities that justify additional 
investment. And two, that there's confidence that additional 
investment can be used well.
    And you have every right to demand answer to those 
questions, and I want to provide them. Number one, what are 
these new opportunities and what's so urgent them anyway? Mr. 
Chairman, there is an extraordinary revolution now underway. 
The revolution is most apparent in such landmarks as the Human 
Genome Project, which has given us the parts list for human 
medicine, the inventory of 30,000 or 40,000 human genes. This 
is having a dramatic effect on medicine. It's the equivalent of 
being able, for the first time, to have a look under the hood 
of the car to see what's wrong.
    One of the most uncomfortable facts about medicine in the 
20th century is that for most diseases, including heart 
disease, diabetes, hypertension, depression and schizophrenia, 
we have had no clue what the actual cause is, the molecular 
mechanism of the disease. So we've been shooting in the dark. 
We've mostly been treating symptoms. Sometimes we get it right, 
but often it's a matter of luck.
    In the past decade, we've begun to see real progress on 
discovering the mechanisms, the causes of disease. Let me give 
you an example of what happens when we know the mechanism. Ten 
days ago the FDA granted swift approval to a new cancer drug, 
Gleevec, directed against a kind of leukemia called Chronic 
Myelogenous Leukemia. It was a new kind of cancer drug: it is 
non-toxic and taken orally. Of 53 patients who had failed 
conventional therapy and were expected to die of their disease, 
53 had remissions. Moreover, the drug is now turning out to be 
effective against other cancers for which it wasn't even 
designed, including a kind of stomach cancer.
    Some people call this a miracle, and in many ways, it is. 
But it's no accident. It resulted from a dogged effort to 
understand the cause, the mechanism of leukemia. First, the 
recognition that two chromosomes were consistently rearranged 
in this cancer. Then the discovery that a novel gene caused by 
this chromosome rearrangement produced an errant protein locked 
in the on position.
    Then the proof that this protein, this errant protein, was 
absolutely essential for the cancer cells to grow. All this was 
the product of NIH funded research, through the foresight of 
this Congress. Once the mechanism was known, talented chemists 
in the pharmaceutical industry stepped in and created a drug to 
block this errant protein, and without side effects.
    Mr. Chairman, it's the difference between trying to fix a 
car when you have no idea what's wrong and between trying to 
fix a car when you can look under the hood. And this is not an 
isolated story. Ten years ago we had no idea what the mechanism 
was of Alzheimer's disease. Since then, we've been able to look 
under the hood and find key causative mechanisms. And it's led 
to an explosion in drug development.
    I believe that we will see drugs emerge that can prevent 
Alzheimer's disease before symptoms occur, that is, prevention 
of diseases, rather than dealing with the devastating 
consequences. This could only happen by knowingthe mechanism.
    Similar stories have emerged for Parkinson's disease and 
other diseases. We're standing on the threshold of what I think 
is the greatest revolution in the history of medicine. We're 
now set to work out the mechanisms underlying most common 
diseases that afflict people. And it's an audacious program to 
imagine that this could happen, but I believe it will happen in 
the next one to two decades.
    But it's going to take major and increased investment now. 
I think the investments were justified. We finally have the 
tools to lay bare the secrets of disease, and I think we'd be 
failing the American people in general and our children in 
particular if we didn't seize the opportunity. If we delay 
investment today, we delay understanding, we delay therapies 
and cures. I think this is a very special moment in history and 
we need to seize it.
    Number two, how can this Congress be sure that the 
increased investment is being used widely? That is, how can you 
monitor the progress?
    Some years ago, this Congress passed the Government 
Performance and Results Act, GPRA. What performance and results 
should you be monitoring?
    Well, the development of new drugs and therapies that 
stemmed from NIH is one such measure. But it's a long term 
measure, because it can take a decade or more for understanding 
to translate to therapy.
    Instead, I would urge you to focus on the discovery of 
mechanisms. Keep a scorecard of how we're doing at discovering 
the mechanisms. That's the key, because you can feel confident 
that if we reveal the molecular mechanisms, it will unlock the 
prodigious energies of industry and academia to fashion 
therapies and cures. In this way, you can be sure that the 
investments are reaping dividends.
    You can also look at new initiatives at NIH, such as the 
newly established NIH Center for Minority Health, which is a 
sign that we're working together to ensure that biomedical 
research benefits all Americans.
    Number three, finally, Mr. Chairman, I know it's not the 
purview of this Committee, but I would like to add that for all 
of this to succeed, we need increased investment in other areas 
of science as well. Increased investment in biomedical research 
will not reap its full potential unless we have corresponding 
investment in physics, chemistry, computational science, etc. 
These allied disciplines are absolutely essential. For example, 
for figuring out what protein shapes and functions are about, 
or for developing non-invasive imaging to speed clinical trials 
through the study of early markers of disease.
    The President's budget for biomedical research is very 
encouraging. But I'm deeply concerned that the budget for other 
sciences is neglecting key investments.
    In summary, this is no ordinary time. The science of the 
last century has now brought us to an extraordinary threshold 
of understanding the basis of disease, and it is time for 
extraordinary investment to reap those benefits.
    Thank you for your consideration, and I'd be glad to answer 
your questions.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Well, I want to thank you very much for your 
statement. It's not the first time that I've heard you, but I'm 
very happy that you focused on our obligations beyond NIH. I've 
said this before, but I'll say it again very frankly. There is 
a member of the Subcommittee that was prepared to vote for at 
least the President's budget on NIH. It's become the holy 
picture item in the health budget. We all pose for political 
holy pictures by stumbling toward the nearest microphone to say 
how much we're dedicated to NIH research.
    The problem is two-fold, as I see it. First of all, this 
big investment in NIH, according to the budget, will stop after 
2004. Because then the budget estimates don't contain the 15 
percent increases any more, the increases drop to low single 
digit levels, accurately reflecting what will be available in 
the budget as this tax cut that's being passed continues to 
drive everything else off the table.
    The other problem that we have, as you have indicated, is 
that if all we do is fund NIH and don't deal with NSF and some 
of the other seed corn agencies, we are going to cut the plant 
off at its roots. The flowers may look pretty for a few days, 
but they won't last that long, at least not in the health we'd 
like to see them.
    This isn't really a question. It's just a statement of 
philosophy. I think that we have a once in a generation 
opportunity, now that we have surpluses instead of deficits. We 
have a choice to make between tossing almost all of those 
surpluses at the private sector in the form of individualized 
realizations of happiness through tax cuts, or we can try to 
reserve a major part of those surpluses, I would hope by far 
the largest part, to finally enhance the quality of public 
services and the strength of public investments that must by 
nature be a collective enterprise rather than an individual 
enterprise.
    I think we're about to blow the biggest chance we've had in 
a generation to really make a difference, not just for medical 
research, but in a number of other areas as well. I thank you 
for focusing not just on NIH, but also on the other near 
orphans in the scientific community, given the squeeze that we 
have on those agencies.
    Mr. Lander. Thank you. We can't deliver on the promise 
without a full picture of the support it will take.
    Mr. Regula. Thank you for a thought provoking testimony.
    Mr. Lander. Thank you, Mr. Chairman.
                              ----------                              

                                             Tuesday, May 22, 2001.

                                TEACHERS


                                WITNESS

C. EMILY FEISTRITZER, PRESIDENT, NATIONAL CENTER FOR EDUCATION 
    INFORMATION
    Mr. Regula. Our next witness is Emily Feistritzer, 
President of the National Center for Education Information. 
Your testimony will be made part of the record, we welcome your 
comments.
    Ms. Feistritzer. Thank you, Mr. Chairman. I'm the President 
of the National Center for Education Information, which is a 
private, non-partisan research organization in Washington. I 
started the National Center for Education Information just to 
fill what I thought was a gap of a need for collecting, 
analyzing and reporting objective and unbiased information. So 
we really don't take a position on these matters, but we take 
great pride in the kind of data that we've been able to make 
available.
    I thought I was going to follow the gentleman from the 
Gates Foundation and I wanted so much to do that, because so 
many things he said fit right into this changing market for 
teaching and alternative routes for bringing people into 
teaching.
    But I wanted to share with you, before I get into my 
statement, in a book that we do called Alternative Teacher 
Certification: A State by State Analysis, which I will make 
available to the entire Committee, in the introduction we have 
a section on schools in the nature of how schools are organized 
in this country. One of the bulleted items states that at the 
high school level, only 3 percent of all secondary schools in 
this country enroll 1,500 or more students, and yet they 
account for 33 percent of all enrollment. It just reinforces 
what Mr. Vander Ark said. Forty-one percent of schools enroll 
fewer than 400 students, and yet account for only 18 percent of 
all students.
    So we're really talking about a relatively small number of 
schools throughout this country that enroll the proportion of 
all the students who are enrolled in schools. This is very much 
related to the whole issue of teacher supply and demand, which 
is the topic that I was asked to speak with you about. We've 
all heard that we're going to need to 2.2 million additional 
teachers in the next decade. You could have a whole hearing 
with probably 25 witnesses to just debate what that actually 
means.
    But the fact of the matter is, the demand for teachers is 
increasing, not decreasing. But it's actually not increasing 
everywhere. The demand for teachers is really isolated in 
certain regions of the country, namely large inner cities and 
in outlying rural areas of the country. And in certain subject 
matter areas, such as science, mathematics and special 
education.
    We find that actually, the Nation nationally is turning out 
enough people to teach. The colleges and universities that 
prepare teachers in this country are producing roughly 200,000 
brand new, never taught before teachers each year, and that's 
more than enough actually. The problem is most of the people 
who are coming through colleges of education fully qualified to 
teach don't want to teach where the demand for teachers is 
greatest. Undergraduate teacher education programs historically 
have turned out young white females who do not want to teach in 
large inner cities and who do not want to move actually very 
far away from home.
    Now, what we find also is that in the National Center for 
Education Statistics data from baccalaureate and beyond 
studies, that about 60 percent of baccalaureate degree 
recipients who are fully qualified to teach are not teaching 
the following year, and only about 53 percent of them are not 
teaching five years out. So we have a production of teachers in 
this country that is great enough to meet the demand. The 
problem is that the production of teachers is not satisfying 
the demand, because the demand is, as I said earlier, isolated 
and quite specific to geographic regions and to specific 
subject areas.
    That's why this new movement toward States developing 
alternative routes for recruiting, training and licensing 
teachers makes so much sense. Because not only have alternative 
routes evolved since the mid-1980s and grown rapidly since the 
mid-1990s, it is because not only are they meeting the demand 
for additional teachers in specific areas of the country, they 
are also meeting the demand created by the supply of people who 
are stepping forward to want to teach who do not fit the 
traditional definition of a teacher, which is a high school 
student going to go college and majoring in education.
    We find that there are huge numbers of what I call non-
traditional candidates for teaching, people who already have a 
bachelor's degree, usually in a field other than education, 
many of whom have life experience, some of whom have been in 
other careers and retired, who really do want to teach. And 
they really do want to teach in areas of the country where the 
demand for teachers is greatest. And alternate routes are being 
developed all over the country to specifically recruit these 
people to teach in these ares of the country where the demand 
is greatest.
    And the Federal Government, in its infinite wisdom, has 
been through the authorizing language and through this 
appropriation moving in the direction of providing some much 
needed support of the development of these types of programs.
    I see that my formal time is up, so I'll stop here.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I'm curious, is the multiplicity of 
requirements, and it varies from State to State for 
certification, is somewhat of a barrier to the people you 
characterize perhaps who have had other careers and would like 
to teach, but suddenly they're faced with going back and taking 
a couple of years of how-to courses, is that a problem?
    Ms. Feistritzer. I think it is a problem. You can't ask 
people who have finished their degrees, in some cases masters 
degrees and some cases professional and even more advanced 
degrees, to give up employment and go back to college and pay 
tuition to take courses required for certification and may or 
may not be able to find a job.
    So that is a problem. That's why the alternate routes that 
are designed specifically to attract this population of people 
and are developed to train that population of people to teach 
in the very schools that most traditionally trained teachers 
don't want to teach in make an awful lot of sense, and are 
being met with a tremendous amount of enthusiasm from mid-
career changers and military personnel and so on.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    As you know, last year we were able to provide $34 million 
in the budget for non-traditional teacher recruitment 
activities. And $31 million of that was based on the 
Transition-to-Teaching Initiative. What's your evaluation of 
that program?
    Ms. Feistritzer. I have testified before the authorizing 
subcommittee, and I'm very much in favor of that. I think that 
the States really do need financial support in developing these 
programs. Most of the programs that are springing up around the 
country are really on the backs of the participants in the 
program. They can be very costly to the individual who's trying 
to get a credential to teach. So I think the transitions to 
teach program, in the current budget, is an excellent program.
    My only caution, I was around during the block grant era of 
Chapter II in the early 1980s. I saw a lot of really good 
programs, like teacher centers and teacher corps really get 
lost in the block grants. And I think that, I have a problem 
with turning all of this money over to the States to do with as 
they will. I would hope that there would be some guidelines 
that these monies be used for such things as the design and 
implementation of alternative certification routes, for 
example. Because I'm not sure the States will wind up using it 
for that if they can get away with using it for something else.
    Mr. Obey. How about the Teach for America model?
    Ms. Feistritzer. Teach for America is really a recruitment 
effort for recent college graduates to make a two year 
commitment to teaching. I like Teach for America a lot. I like 
Troops to Teachers an awful lot. But those two programs are 
specifically recruitment efforts for specific populations of 
people.
    The alternative teacher certification arena is much broader 
and much bigger and encompasses a whole lot more people and has 
more potential, I think, for bringing in wider audiences of 
people in a way that fits with the current bureaucracy of 
American education, which is not likely to change in our 
lifetimes.
    Mr. Obey. I would just have to say that in light of your 
other comments about block grants, that I'm fascinated. One 
thing that fascinates me is that there are a number of people 
in Congress and out who will criticize the degree of 
educational attainment of students in the country. And they 
will say, we just aren't doing very well at all. So their 
answer is to turn even more authority over to the people who 
already have the lion's share over running schools, namely the 
local school boards.
    I don't think my district is much different than anybody 
else's, local school boards make 95 percent of the decisions 
about how kids get educated and where they get educated, who 
they get educated by and where resources go. It's always 
fascinated me that the Federal Government, which really is only 
nibbling around the edges in terms of the financial support it 
gives education, somehow gets the blame for the lack of 
performance in schools that are largely governed by local 
school districts.
    I think you have to conclude that that judgment is not 
based on evidence, but it's based more on ideology or 
philosophy.
    Thank you, Mr. Chairman.
    Mr. Regula. Has there been any movement on the part of 
States to remodel their requirements for certification to make 
it easier for these transition type of individuals?
    Ms. Feistritzer. We survey the State departments of teacher 
ed and certification every year. And the results of that are 
published here. There's been a lot of movement in that 
direction.
    I am more encouraged, I've been covering and around 
education all my life, I'm a third generation educator. And I'm 
actually more optimistic than I think I've been throughout my 
life about the future of the teaching profession for this 
single reason, that the population of people who are stepping 
up to the plate sincerely wanting to teach is radically 
changing, positively.
    And the States and even the institutions of higher 
education are being, I think, very positively responsive to 
using it as an opportunity to design some really good, 
sensible, not a whole lot of courses and riff-raff, but really 
sensible, field based mentor companion teacher preparation 
program for life experienced adults. Forty-one States now say 
they are doing such a thing, but they need a lot of support.
    Mr. Regula. Has the NEA and/or the AFT been a help or 
hindrance, or are they neutral on this whole effort?
    Ms. Feistritzer. The NEA and the AFT both, to their credit, 
have been back in the early 1980s, rather silent on the issue 
and increasingly open to the development of good new 
alternative teacher preparation programs. They've not gone as 
far as sitting here before you, calling for $1.2 billion for 
them.
    But they have been increasingly, I think, open to the 
development of collaborative alternative teacher preparation.
    Mr. Regula. That's a positive note.
    Thank you for coming.
    Ms. Feistritzer. Thank you.
                                             Tuesday, May 22, 2001.

                         STUDENT FINANCIAL AID


                                WITNESS

BRIAN FITZGERALD, STAFF DIRECTOR, ADVISORY COMMITTEE ON STUDENT 
    FINANCIAL ASSISTANCE
    Mr. Regula. Brian Fitzgerald, Director, Advisory Committee 
on Student Financial Assistance. Your statement will be made 
part of the record, you may summarize, please.
    Mr. Fitzgerald. Thank you, Mr. Chairman, Mr. Obey, for the 
opportunity to present an overview of the Advisory Committee's 
most recent report entitled Access Denied: Restoring the 
Nation's Commitment to Equal Educational Opportunity, a copy of 
which is in your materials today.
    For the record, my name is Brian Fitzgerald, I'm staff 
director of the Advisory Committee. I will deliver testimony on 
behalf of Dr. Juliet Garcia, who is President of the University 
of Texas-Brownsville and Chairperson of the Advisory Committee. 
She is ill today and apologizes for not being able to be here 
herself.
    Our committee was authorized by Congress in the Higher Ed 
amendments of 1986, to provide expert, independent, objective 
advice to Congress and the Secretary on Federal student 
financial aid policy issues. The committee's most important 
legislative charge is to make recommendations that maintain 
access to post-secondary education for low income students.
    Over two years ago, the committee began a comprehensive 
examination of the condition of access, that is the opportunity 
to attain a baccalaureate degree. At three public meetings 
devoted exclusively to access, the committee was informed by 
testimony of dozens of students, college administrators and 
scholars about the financial as well as the academic, social 
and cultural dimensions of access.
    Emanating from those activities and a parallel two year 
study, the Access Denied report marshals the most authoritative 
data to pinpoint the access problem and its causes. The report 
documents the wide gap between available aid, including loans, 
and college costs for low income students. This gap, known as 
unmet need, is $3,200 a year at two year public colleges and 
$3,800 a year at four year public colleges. Significant enough 
to lower the rate at which low income students enter college, 
attend four year institutions and attain a bachelor's degree.
    More than 30 years ago, the Federal Government entered into 
a partnership with States and higher education institutions to 
ensure that all Americans could have access to a college 
education without regard to their economic means. As a result, 
tens of millions of Americans who otherwise would not have had 
access to college have attended and earned associate's and 
bachelor's degrees. This highly successful effort increased the 
rate at which Americans enter college to record levels, which 
has fueled this Nation's economic growth.
    Unfortunately, the post-secondary participation of low 
income students continues to lag far behind that of their 
middle and upper income peers. Large differences in college 
entry rates persist, with gaps as wide as three decades ago.
    In addition, a recent U.S. Department of Education study 
indicated that low income students who graduate high school at 
least marginally qualified, enroll in four year institutions at 
half the rate of their comparably qualified high income peers. 
Equally troubling, only 6 percent of low SES students earn a 
bachelor's degree, as compared to 40 percent of high SES 
students. These facts have major implications not only for the 
lifetime earnings of low income students, but it also robs the 
Nation of hundreds of billions of dollars a year in gross 
domestic product.
    Yet the challenges that face low income students today in 
gaining access to college will worsen considerably as a result 
of impending demographic forces. Rivaling the size of the baby 
boom generation, the projected national growth of college age 
population by 2015 exceeds 16 percent or about 5 million, with 
at least 1.6 million additional students enrolling in college, 
many of whom will be low income. Thus, even if college costs 
continue to grow no more rapidly than family income, these 
demographic changes will greatly increase the gross amount of 
financial aid required to ensure access.
    Unfortunately, financial barriers are higher now in 
constant dollars than they were three decades ago. The unmet 
need gap facing low income students has reached unprecedented 
levels, once again, $3,200 and $3,800 respectively at two year 
and four year public institutions. This includes all work and 
loan.
    Given these levels of unmet need, the failure to close the 
participation and completion gaps is not surprising. Unmet need 
is forcing low income students to choose levels of enrollment 
and financing alternatives not conducive to academic success, 
persistence and ultimately degree completion.
    One often hears the argument that poor academic preparation 
is the primary reason for low income students' lack of access. 
That is simply not true. Inadequate financial aid, that is the 
unmet need gap, often prevents the most highly qualified low 
income youth from attending college at all. In fact, the lowest 
achieving high income students attend college with the same 
frequency as the highest achieving poor students.
    If my committee members could leave you with only one 
message today, it would be this. The inability of tens of 
thousands of academically prepared low income students to 
enroll in a four year institution, attend full time and earn a 
bachelor's degree is the result of unmet need just as it was 30 
years ago, and portends no narrowing of participation gaps, 
even in the long run. No matter how strong the Nation's 
commitment to academic preparation, no matter how quickly 
academic preparation advances, no progress can be made toward 
improving access without increases in need based grant 
assistance starting with the Pell Grant program.
    Thank you, Mr. Chairman and Mr. Obey. I would be happy to 
respond to any questions you have.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I have just one.
    On the Pell Grants, which would you think would be more 
effective, have a larger amount the first year with a 
decreasing amount the second, third and fourth year, or have a 
flat amount for four years as part of a Pell Grant program? And 
some of the colleges have indicated they have to end up picking 
up the difference where it drops off in the second, third and 
fourth year. Do you have an opinion on this, which would be the 
better way to do it?
    Mr. Fitzgerald. Mr. Chairman, we looked not only at the 
ability of students to enter college, but the most important 
thing is that students must be enabled to persist and obtain a 
degree of their choosing. We feel that giving higher grants in 
the first year or first two years may have a slight impact on 
the number of students enrolling, that is to say, it may 
increase. We are very concerned that it may actually harm 
persistence, and put colleges in a position, and many of them 
serving the lowest income students will not be able to do this, 
but put colleges in a position where they have to make up the 
difference.
    Mr. Regula. So you'd prefer a flat amount for four years?
    Mr. Fitzgerald. That is correct, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    I would simply note that, the reason why low-income 
students don't attend college in the numbers that we would like 
them to is very easy to understand, when you recognize that in 
1975 the Pell Grant maximum award, as a percentage of the cost 
of going to college, was 84 percent, and today it's 39 percent. 
I don't think it takes a rocket scientist in order to figure 
out that that's a major reason why much smaller numbers of low-
income people attend college than would be the case if we 
really, truly had equal access to education.
    This country is great at myths. We always talk about equal 
justice under the law, and liberty and justice for all in the 
pledge of allegiance. But when you take a look at performance, 
if our words were to match what we're actually doing, the 
pledge of allegiance would be amended so we say that we're 
providing liberty and justice for almost everybody, but not for 
all.
    That's all, Mr. Chairman.
    Mr. Regula. There have been some allegations that college 
tuition tracks with whatever we do with Pell Grants. Any 
validity to that? When you look at the numbers, it would appear 
that might be the case.
    Mr. Fitzgerald. Mr. Chairman, although our report does not 
specifically deal with college costs, I think there's been a 
good deal of emphasis on college costs recently. We've examined 
that very carefully. We find no relationship whatsoever to the 
level of Pell Grants and college costs.
    Congress created a commission on college costs to look at 
that. The fact of the matter is, the number of Pell Grant 
recipients is a relatively small number, it's a minority among 
students enrolled in college. So if Pell were driving college 
costs, you would be, for example, I believe you are on the 
board of trustees at Mount Union----
    Mr. Regula. Right.
    Mr. Fitzgerald. I was just look at the data, I don't know 
what the enrolment is, I'm sort of backing into it. But there 
are three times as many loans as grants, as Pell Grants, at the 
college. If Pell were driving tuition at your college, you 
would be in effect taxing non-Pell Grant recipients when they 
are no better off as a result of rising Pell Grants.
    In fact, the majority of students attend public 
institutions, about 80 percent of all students. Those tuitions 
are set by a public governance process unrelated to levels of 
Federal and often unfortunately, State aid. And in key States, 
California, Massachusetts, Virginia, tuitions have declined, 20 
percent in Virginia in 1999-2000.
    So frankly, I think the concern about college costs is 
actually, the jawboning, if you will, has led college leaders 
to look very carefully at that and frankly make a very 
concerted effort to even lower tuition. That is going to 
change, though, with the decline in State subsidies.
    Mr. Regula. Yes, we're having that in Ohio because of the 
budget constraints.
    Mr. Kennedy.
    Mr. Kennedy. All the talk about Pell makes me very proud to 
come from Rhode Island. And of course, Pell didn't pioneer the 
Pell Grant without understanding the importance of what it 
meant to my State and all the institutions of higher learning 
in my State.
    I know from hearing from them, having gone to a number of 
graduations this past weekend and talked to the boards of 
directors at the different public institutions, they're all 
very concerned about what's coming down the road in terms of 
funding for higher education and assistance from the Federal 
Government. So I welcome your concerns and advocacy on behalf 
of financial aid to students. We certainly need it now more 
than ever, because as we all know, higher education is the key 
to opportunities for the future.
    So thank you.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Mr. Fitzgerald, I'd just like you to repeat one 
sentence that you uttered earlier. You said the lowest 
achieving high-income students attend college at the same rate 
as the highest achieving low-income students?
    Mr. Fitzgerald. That's correct, Mr. Obey. It's 78 percent 
of the highest achieving low-income students go to college, and 
77 percent of the lowest-achieving high income students. The 
inescapable conclusion is that money matters.
    Mr. Obey. You bet. Thank you, Mr. Chairman.
    Mr. Regula. You made your point very effectively.
                              ----------                              

                                             Tuesday, May 22, 2001.

                               EDUCATION


                               WITNESSES

PETER HORTON, ACTOR, THE CREATIVE COALITION AND COMMITTEE FOR EDUCATION 
    FUNDING
CAROLYN HENRICH, PRESIDENT, COMMITTEE FOR EDUCATION FUNDING
    Mr. Regula. Mr. Peter Horton, from the Creative Coalition 
and Committee for Education Funding. You're accompanied by 
Carolyn Henrich, President of the Committee for Education 
Funding.
    We're happy to welcome you, your testimony will be made 
part of the record, and we'll welcome your comments.
    Mr. Horton. Thank you very much. Good morning, Mr. Chairman 
and Congressman Obey, members of the panel.
    On behalf of the Creative Commission and the Committee for 
Education Funding, I would like to thank you for letting us 
speak on such an important topic. I think all of us in this 
room would agree that education of our children is a foundation 
stone, if not the cornerstone, for building and maintaining a 
healthy and prosperous society.
    My name is Peter Horton, as you stated. I am an actor, 
director, writer in the film and television business, as you 
also stated. This is Carolyn Henrich, President of the 
Committee for Education Funding.
    Mr. Chairman, I think I'm going to take your advice and not 
read my full written statement into the record. I can feel the 
room slowly wilting as we go along here, and with the exception 
of a couple of points, facts, I would like to share, I will 
then take another tack.
    One of the facts in my written statement is that the 
Federal investment in education has actually declined as a 
share of the Federal budget from 2.5 percent in 1980 to 2.1 
percent today, which means that we are spending only two cents 
of every Federal dollar on education. Now, the groups that I am 
representing today are advocating a five cent expenditure, 
which certainly to me seems reasonable, at least.
    There's just a couple other quick facts. At the elementary 
and secondary level, enrollments are projected to set new 
records every year, reaching over 54 million by the year 2006. 
Over the next decade, college enrollments are expected to 
continue to grow another 11 percent, with one in five students 
coming from families below the poverty line. And then the last 
one, which truly shocked me, which is that 30 percent of our 
students live in poverty in this country, in this Nation.
    Mr. Regula. Thirty percent in the public schools live in 
poverty, is that correct?
    Mr. Horton. Yes, sir. It's shocking.
    Mr. Regula. It is.
    Mr. Horton. I think what I would like to do for the balance 
of my time, if you don't mind, is really speak to you from my 
heart. If I can, I would like to try and explain to you why I'm 
so passionate about this issue, why I think it's so important 
that you provide adequate funding for education in this 
country. I went to public school my whole adolescence and 
childhood. My sister Ann is a school teacher. One of my heroes 
growing up was a woman named Jo Egger Lundquist, who is an 
extraordinary educator up in the northwest, who believes that 
teaching is not a profession but a calling, which I believe and 
concur with completely.
    But most importantly, what's affected me the most on this 
issue is I recently became a father for the first time. As you 
know, becoming a father for the first time changes your whole 
outlook on things, your whole perspective on the world. I am 
facing a situation in Los Angeles where, for me to get adequate 
education for my daughter, I have to be willing and able to 
spend $15,000 a year for her grammar school education, and 
$10,000 for kindergarten.
    Now, there's a significant portion of this country that 
makes $10,000 to $15,000 a year in salary, and an even larger 
group that's making more than that but still can't afford that 
kind of expenditure for education. I don't know what we tell 
them. I don't know how we explain that to their children.
    My family and I spend a lot of time in a small community in 
California called Cambria. It has 5,000 students and the public 
school there is so overcrowded that a lot of the classroom work 
has to be done in the halls of that school. Now, recently a 
number of, or two education bond measures were up for a vote in 
that community, and both failed. Now, this is a community where 
neighbors know each other, they know the children that they're 
voting against. I don't know how to explain to those children 
why they still have to use the hallway as their classroom.
    Now, you are the only body in this country that has the 
ability to set a national standard of education for this 
country, a bar if you will, under which no student, not my 
daughter, not any student, will fall. We're spending two cents 
on a dollar. It used to be two and a half cents, it's now two 
cents. We need at least five cents.
    And that's not just my opinion. As I'm sure you know, polls 
indicate a vast majority of Americans feel like spending five 
cents on education is something they can support 
wholeheartedly, in fact are asking you to do something about 
that. I mean, we are the wealthiest country in this planet. And 
we're going through one of the most prosperous times in our 
history. We can afford five cents. We can afford the nickel.
    Thank you for your time.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you for your testimony. I think you're 
right. I would put it another way, I don't think we can afford 
not to provide that nickel.
    I would just note two things. My wife started out at the 
time she married me, as a speech therapist. She used to work 
with kids in a hall closet, because that's all that the school 
system provided, in one of the schools that she taught. I never 
dreamed that 30 years later, you'd still have the same 
conditions. I was silly enough to believe in the improvability 
of a society on a consistent basis and in so many ways I've 
been proven wrong.
    The other point I would simply make is that you indicated 
that we've actually seen investments in education going down as 
a percentage of our national budget. I would point out that 
we've seen our investments in everything go down as a 
percentage of our national income. If you take a look at all of 
the dollars that the Appropriations Committee can provide in 
the budget this year, and if you compare that to what we were 
spending in 1980, this country was spending 5.2 percent of our 
total national income in 1980 on all domestic initiatives of 
the Federal Government except for entitlements. That's not 
counting programs like Social Security.
    Today we are at 3.4 percent of our total national income. 
And within five years, under the budget that Congress has just 
adopted, we will be down to 2.8 percent of our total national 
income. We are shortchanging education. We are shortchanging 
science. We are shortchanging health care. We're shortchanging 
environmental cleanup. We're shortchanging all of those 
collective enterprises that represent the fundamental 
responsibilities of people to each other in this society.
    And that's what makes this budget this year so incredibly 
frustrating.
    Mr. Horton. I would say also, I think the way we treat our 
children as a Nation is sort of the canary in the cave. It's 
our best indicator of our integrity as a Nation. I would say, 
our best focus right now, our most necessary focus right now is 
to make that statement as a Nation, that our children are worth 
at least five cents on the dollar, and the rest up to you.
    Mr. Obey. Well, again, all I will say is that over the last 
five years we've had an average annual increase in federal 
education appropriations of about 13 percent.
    Mr. Horton. Yes.
    Mr. Obey. This year, the President's budget cuts that rate 
of increase in half when you compare apples to apples, program 
delivery versus program delivery by academic year. Some 
progress. Thank you.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you. It seems to me that the big 
challenge we have as a Nation is to get these facts that you've 
just mentioned out and in the public consciousness. But not 
only that, there has to be a will, because we know more today 
than we ever have in our history about brain development and 
the impact of violence on children long term in terms of their 
learning. We know all these things, and yet we are treating our 
kids worse than they've ever been treated in the history of the 
Nation.
    So even during times of the Depression, kids were, 
according to historians and child development specialists, were 
essentially treated better because of the nature of family and 
attentiveness to children than they are today. It says 
something about the fact that it isn't just simply knowing 
more. We as a society believe that if we just had more 
information that would do it. It's not enough. It's a culture 
of change that has to take place for us to embrace this 
increase.
    So all I can say is that it takes a fundamental political 
change of heart. I think those that have advocated a reduction 
in Government spending insofar as the collective enterprises 
that Mr. Obey was talking about have been doing so by 
denigrating government and tearing down our public institutions 
and saying that you can't be trusted, politicians can't be 
trusted, our whole democracy is failing you, the public. And if 
you say that enough, people will believe it. And what they have 
come to believe is that that's true. Unfortunately, when they 
believe that that's true, there isn't the confidence to support 
these programs, and the public will to support these programs.
    So we need to change the ethic in this country that looks 
upon government and political leaders as the lowest form of 
life, and start changing the civic ethic in this country in 
terms of public institutions. So I can just say, I 
wholeheartedly appreciate what you're saying, and I do agree 
that we're becoming two separate societies as a result.
    What comes to mind is John Kenneth Galbraith's book, 
Private Wealth, Public Squalor. We're going to have a lot of 
people that have the wealth, and then we're not going to have 
any infrastructure in this country that everyone can share. 
It's not going to be a pretty sight, we're going to become a 
banana republic of sorts, an oligarchy, which is essentially 
what we're becoming now.
    So I think the disparity in income and wealth has never 
been greater in our country's history. It's an absolute 
travesty that we don't have public policy that reflects a newer 
view of where investments need to be made in education, because 
that is clearly the correlation between a good education and a 
person's ability to get a good job. It'sjust so direct. So how 
we can not look at that as a civil right, and if you deny that person a 
good public education, essentially they should be able to sue under the 
Fourteenth Amendment for denial of their civil rights.
    So I'm in agreement with you and I hope that you're 
successful in helping us change the public culture in terms of 
this. And certainly I acknowledge the fact that Hollywood has a 
great deal of influence in shaping our culture to the degree 
that folks like yourself can take a leadership role. I think 
that's really constructive and I appreciate it, and I really 
applaud your efforts.
    Mr. Horton. Thank you. I think one last brief thing. From 
the beginning of civilization, there's been a balancing act 
between the need of the community, the good of the community, 
the good of the individual. A healthy society has a very even 
balance. I think you here in Washington set that tone.
    Mr. Regula. I appreciate your testimony. I have to say, I 
read a disturbing article over the weekend from the Los Angeles 
Times. The headline is, after spending $2 billion, Kansas City 
schools get worse. A judge in Kansas City, Missouri ordered the 
schools to spend a lot more money. And he ordered the State 
government to come up with the money. They did spend the $2 
billion, on top of everything else. And their scores are down 
now. Admittedly they didn't do well. It says, 900 top of the 
line computers, an Olympic size swimming pool, with six diving 
boards, I don't know exactly how that makes you a better 
scholar, padded wrestling room, etc., etc.
    I think we have to be careful, and I support more funding, 
but I think we also need to say what works. Because it's 
obvious that in Kansas City, $2 billion did not improve. In 
fact, they're going to take the system away, apparently, and 
turn it over to the State and/or the mayor. It says the new 
approach, back to the basics. I would hope this Committee has 
time after we've finished our regular hearings to have some 
oversight on what really works. How do we make sure the money 
we do spent causes an improvement in the system and the 
education of young people?
    I think that's part of the challenge.
    Mr. Horton. I agree with that. I clearly agree with that. I 
think, though, if you go back to Jo Egger Lundquist's statement 
that teaching is a calling, I think it's important.
    Mr. Regula. That's true.
    Mr. Horton. And I think we have to start treating teachers 
with that respect. I think yes, in any endeavor, there is going 
to be anecdotal evidence that says, this didn't work over here. 
And maybe that anecdotal evidence is a good reason to take a 
look at the system, try and make sure that we're functioning 
well in that system.
    Mr. Regula. Leadership, it says in Kansas City they've had 
20 superintendents in 30 years. That tells you a lot right 
there.
    Mr. Horton. There you go. There's the problem. But I don't 
think that means we should not fund it.
    Mr. Regula. Oh, no. No, I'm more interested in how we can 
make sure our funding gets results, and that's exactly what 
you're saying, that's what all of us here want.
    Just as an aside, you have many credits as an actor. I see 
you were in the Into Thin Air, Death on Everest.
    Mr. Horton. I was.
    Mr. Regula. Did they film that there or here?
    Mr. Horton. I wish we could say we braved the elements and 
went all the way to Tibet, but we did it in Austria, which is 
sort of like Tibet but not really. [Laughter.]
    Mr. Horton. I think the food in Tibet would probably be 
better, actually, than it was in Austria.
    Mr. Regula. Very interesting. This was a TV series?
    Mr. Horton. A TV film, yes.
    Mr. Regula. That was a takeoff on the book?
    Mr. Horton. Yes.
    Mr. Regula. I read the book.
    Mr. Horton. The book was terrific. Better than the TV show, 
I have to admit. [Laughter.]
    Mr. Regula. Thank you for coming and for your interest.
                                             Tuesday, May 22, 2001.

                       DEPARTMENT OF LABOR BUDGET


                                WITNESS

RICHARD TRUMKA, SECRETARY-TREASURER, AFL-CIO
    Mr. Regula. Our next witness will be Mr. Richard Trumka, 
the Secretary-Treasurer of the AFL-CIO, on labor issues. Thank 
you for coming. We'll put your testimony in the record, and you 
can summarize for us.
    Mr. Trumka. Thank you very much, Mr. Chairman. I'll do just 
that.
    Mr. Chairman, Congressman Obey, Congressman Kennedy, on 
behalf of the 13 and a half million working women of the AFL-
CIO, I appreciate the opportunity to address some of the 
concerns the President's fiscal year 2002 budget raises for 
working families. Of particular interest and importance are 
proposals for key worker protection, work development and 
international labor programs. Those are the three that I'll 
focus on.
    Many of these programs, in our opinion, are already 
inadequate to fully protect the rights of working people here 
at home. Program cuts and flat funding will dilute these 
protections even further, with the impact harshest for the very 
workers who need most of the protections.
    If current economic weakening persists or worsens, these 
effects will be magnified. For workers in the global economy, 
program cuts undermine our capacity to promote workers' rights 
and fight child labor and other abuses, efforts central to 
ensuring that trade improves the living standards for all, 
rather than undermines the protections for America's working 
families. We ask you to bear all these concerns in mind as you 
consider the President's proposal for 2002.
    And I'll briefly talk about three of those areas. Worker 
protection. For 2002, the President proposes flat funding for 
the Employment Services Administration, which enforces the 
Nation's wage and hour laws, and for OSHA. These translate out 
into a $6 million cut in ESA and an $11.5 million cut in OSHA. 
We think this is the wrong approach.
    Violations of basic wage and hour requirements remain 
pervasive, especially in low wage industries. In the poultry 
industry, for example, a DOL survey in 2000 found wage and hour 
violations in virtually every surveyed establishment. Similar 
problems exist in garment manufacturing, where one DOL survey 
found violations in two-thirds of establishments in Los 
Angeles, agriculture and industrial laundries and many other 
traditional low wage industries.
    They even exist among workers in the modern economy, such 
as Silicon Valley immigrant workers who assemble circuit boards 
at home on a piece rate basis. The President's ESA funding 
proposals threaten the Department of Labor's oversight of 
working conditions and enforcement of work protections for all 
of these workers.
    Proposed funding levels for OSHA also threaten that 
agency's capacity to ensure workplace safety and health by 
cutting 94 full time staff positions, two-thirds of which come 
from enforcement, and by reducing funding for standard setting 
and worker safety training. In sum, the funding proposals for 
key worker protection programs concern us greatly. At a time 
when a Nation can afford to do so much, we should be investing 
more, not less, in protecting workers' rights.
    In job training, Mr. Chairman, the fiscal year 2002 budget 
would cut over $500 million in training and employment 
services, including reductions in adult, youth and dislocated 
worker programs, the latter having been targeted for a 13 
percent reduction. Ironically, the President proposes to boost 
funding for the unemployment insurance system to handle an 
expected increase in claimants at the same time that he wants 
to cut back on retraining and reemployment programs that would 
help the unemployed return to work.
    We're also deeply troubled by the proposal to eliminate 
national funding for incumbent worker training. It's 
unrealistic to expect State and local programs to pick this up, 
this funding slack up, unless the needs of other workers, 
including the unemployed and the disadvantaged, are to be 
sacrificed. On the international labor program side, the 
President's proposals for DOL international labor programs in 
2002 is $71.6 million. That's less than half of the 2001 budget 
of $148 million.
    It's especially ironic that the President is calling for 
such steep cuts at the same time that he is trumpeting those 
programs as the preferable alternative to trade agreement 
provisos as the mechanism for ensuring international labor 
rights.
    The cuts proposed by the President would seriously, 
seriously reduce the Nation's capacity to combat child labor 
around the world, to provide child laborers with basic 
educational opportunities, to support workplace HIV and AIDS 
programs targeted at youth, to promote the ILO declarations of 
the fundamental principles and rights of work and promote 
workers' rights around the world.
    Mr. Chairman, we believe these cuts are misguided and will 
undermine the efforts of American workers to compete in the 
global economy. We ask this Subcommittee and the full Committee 
to keep the needs of working families in mind during your 
budget deliberations and to fund adequately the important 
worker protection, job training and international labor 
programs on which many families in this country so deeply 
depend.
    Thank you, Mr. Chairman.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Your testimony is timely, we have 
the Secretary of Labor this afternoon before this Committee.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Trumka, I would simply make one observation and ask one 
question. In this tax bill that's working its way through the 
Congress, the cost of providing tax cuts over the next 10 years 
to persons making more than $200,000 a year--the cost of 
refusing to limit the size of their tax cuts to about $7,500 
just from the rate cut alone--is about $280 billion over 10 
years. We're going to toss that kind of money at them. Yet, 
we're being told that we have to cut the Dislocated Workers' 
Program appropriation by 13 percent and international labor 
programs by 50 percent.
     Would you explain what these international labor programs 
do? Would you explain how they work and would you explain why 
they're needed? I find it interesting that an Administration 
that is about to ask Congress for additional authority in the 
trade area is making a 50 percent cut in the program that is 
meant to cushion the blow of globalization on American workers 
because of their increasing vulnerability to products that are 
produced with either slave labor or child labor. Would you 
explain why these programs are not trinkets and why they are 
crucial to the average working person?
    Mr. Trumka. In short, the answer to that question is, these 
programs allow us to identify the most outrageous actions that 
take place around the world, whether it's child labor, whether 
it's forced labor, and allow us to correct them in one form or 
another. To not correct them causes American employees and 
American employers to compete with products in the global 
market that are made and subsidized and actually reward this 
type of child, prison, convict labor or forced labor.
    The other things allow us to monitor work places, for 
instance, to find out abroad who is complying with their labor 
laws and who isn't. We have tried for a significant amount of 
time to get workers' rights as part of every trade agreement, 
because it's our belief that workers' rights should be elevated 
to the same level as intellectual property rights. We've been 
unsuccessful to date.
    Each and every time we're told that we should look to 
another forum. And the forum that is always pointed to is the 
UNDILO. This cut actually slashes in half the program and takes 
any resemblance of seriousness that that claim can make away. 
No one, if this budget is passed with this type of funding, no 
one can seriously say to an American worker, you should go 
elsewhere to protect your rights, you should go elsewhere to 
look for help for a Mexican worker or Chilean worker or 
Brazilian worker, you should go elsewhere. Because this flies 
in the face of that argument.
    Then when you look at things like AIDS and HIV, all of 
those affect us on a moral basis and on an economic basis. The 
spread of AIDS-HIV has been a horrible thing that all of us 
want to eliminate. And we tried that, particularly with you, 
and particularly in some of the African nations, it's a very 
serious problem. But it's growing elsewhere. This would hamper 
our ability to do that.
    The other thing this would do is, we were successful in 
getting a few people, 17 I believe, around the world to work in 
embassies to identify outrageous workers rights and to promote 
workers rights in those areas, so that they could increase 
their standard of living, so that laws were either enforced, or 
if they were inadequate, we as a person in the global economy 
could say they were inadequate, change the laws so those 
workers have a real chance to participate in the global 
economy.
    All of those programs directly impact people here, whether 
it's in the Trade Bill directly with TAA assistance, whether 
it's competing with child labor, whether it's competing with 
people at forced labor, whether it's competing with Colombians 
who have workers truly assassinated. In one of the coal mines 
of Colombia, the president and vice president of the local 
union were being bussed from the home to the work site. The bus 
was stopped, they were taken off the bus and both of them were 
assassinated, shot directly in the head as a message to 
everybody else that if workers stand up for their rights, this 
is the fate that befalls you. We're forced to compete against a 
society that uses that threat to lower their prices and to 
avoid any resemblance of honest, fair treatment and dignity in 
workers.
    Mr. Obey. I think that's an eloquent statement. I think it 
will be a cold day in hell before the average worker in this 
country will be willing to support further trade agreements, so 
long as he sees programs like this that are meant to provide 
them barely minimal protection being shredded by their own 
government.
    Mr. Trumka. We would very much like to be able to support 
those trade agreements. But we would like for those trade 
agreements to be fair to workers on both sides of the border. 
And when we're told to go to the ILO, and then first of all, we 
don't adopt here at home any of the ILO standards that protect 
workers and then the meager funding that there is is slashed in 
half, I think it speaks forcefully to the American worker 
about, is that truly an avenue, or is that just a convenient 
way to deflect us.
    This truly highlights and makes it irrefutable that that 
avenue is a means to deflect us, not to protect our rights.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Thank you for coming.
    Just off the record, you were in mining, did you work in 
the mines?
    Mr. Trumka. Yes, I did, seven and a half years.
    Mr. Regula. Open pit or what type?
    Mr. Trumka. Deep mines in southwestern Pennsylvania. And 
Mr. Chairman, it's been my experience, when there's a downturn 
in the economy that the first place that employers, 
particularly mining employers, attempt to cut is in the health 
and safety area.
    Mr. Regula. Yes.
    Mr. Trumka. If you look at the last time, we had a downturn 
in both of our States.
    Mr. Regula. Right.
    Mr. Trumka. You saw that the downturn was preceded by a 
rash of belt line fires, people being killed, people being 
crippled and lost production facilities. At a time when our 
country needs as much energy as we can get, I think that's the 
wrong thing for us to be advocating.
    Mr. Regula. I was curious, my dad was a farmer, but he was 
also involved in a drift mine. I used to go back in there, and 
the closest I ever got to a pony was that animal that pulled 
the cars out to dumping tipple. So that's kind of a dangerous 
business, when you get right down to it, the point that you 
make. And I see, in China they've trapped a large group of 
miners. There's always that threat.
    Mr. Trumka. It's horrible what's happening, the lack of 
mine safety in China, the lack of safety in the workplace in 
China.
    Mr. Regula. Do you get any opportunity to communicate to 
countries like the Chinese, some decent standards and ideas on 
safety?
    Mr. Trumka. It's difficult, because as you well know, the 
representatives that they send to all the international events 
that are supposed to be worker representatives are really not 
worker representatives. So we talk to them about health and 
safety. We have American companies that attempted to go over 
there one time and create mining, but they've never caught on 
to the notion that the value of a human life was more important 
than a pound of coal.
    Mr. Regula. Well, thank you very much for your testimony.
                              ----------                              

                                             Tuesday, May 22, 2001.

                        COMMUNITY HEALTH CENTERS


                                 WITNESS

 PATRICIA DIETCH, PRESIDENT AND CEO, DELAWARE VALLEY COMMUNITY HEALTH, 
    INC.
    Mr. Regula. Patricia Dietch, President and CEO, Delaware 
Valley Community Health. Thank you for coming. Your statement 
will be put in the record, we'll appreciate your observations.
    Ms. Dietch. Thank you, Mr. Chairman, Mr. Obey. I'm Patty 
Dietch, I'm as you said, President and CEO of Delaware Valley 
Community Health in Philadelphia, Pennsylvania. I'm happy to be 
here today to represent the National Association of Community 
Health Centers and the millions of patients who get their 
medical care in health centers across the country.
    I want to start by thanking Congress and this Committee for 
your past support and let you know how much it's appreciated, 
that the past increases that have been awarded to community 
health centers have not gone unnoticed by those of us who try 
to keep them going and those of us who work in them and by our 
community boards and the patients who get their care there.
    I'd like to take a moment to tell you about how some of 
those past increases are used, from our experience. In 1999, 
Congress awarded a $94 million increase for community health 
centers. My organization applied for and received an expansion 
grant. And we moved into a suburban, actually an affluent 
suburban county, a suburban county of Philadelphia that has, 
their county seat is an old industrial town that has a lot of 
poverty pockets, economically depressed, because most of the 
industry had left the town. We identified a group of mostly 
minority low income patients who had very poor health status 
indicators and little or no access to health care.
    So we received this grant, and we projected that we would 
approximately serve about 1,600 patients. In the first year 
alone, we had 2,200 patients, over 7,000 medical visits. These 
are people who are working poor, who work in service jobs, in 
restaurants and landscaping, temporary construction jobs, 7-11, 
people who work but work in low paying jobs where they don't 
have employer sponsored health care plans. As a matter of fact, 
83 percent of the people who come to the center do not have 
health insurance.
    These people, because they haven't received medical care in 
a long time, some of them 10 years, are very expensive to work 
up and treat. They require a lot of diagnostic tests, they have 
multiple problems that when you first get them, it takes a lot 
to get them managed, people who would have probably waited 
until they got catastrophic illnesses and went to the emergency 
room. So this center, by everyone's measure, has been a 
success. I think that you'll see opportunities for that all 
over the country.
    So far this year, there's 100 applications that have been 
received to expand health center sites, and almost 500 that 
have been submitted to add services to existing sites. Even the 
$150 million increase that we received last year, only half of 
these applications could be funded with that increase. And this 
year, we're starting in a new position for us, the President 
has made health centers a priority, and both President Bush and 
Health and Human Services Secretary Thompson have been very 
supportive of community health centers. The President has 
pledged to double the number of patients served by health 
centers over the next five years. And also, he has called to 
increase the number of new sites by 1,200 in 2006.
    Last year, health centers served over 11 million. Forty-two 
percent of them have no health insurance. Although already, 
health centers are the most efficient and effective providers 
in the country, serving each patient for just over $1 a day. 
When I learned that statistic, I did my own health center and 
we're actually below that. So I was pretty proud of that.
    In order to double the number of patients served over the 
next five years, NACHC has calculated that next year, health 
centers would have to serve an additional 1.65 million 
patients. If you add that up, that's a cost of $175 million 
increase. I understand that this is an ambitious goal that the 
President has set, and we're ready to meet it, how and ever we 
can.
    We continue to see an increasing number of 
uninsuredpatients in our health centers. In my organization in the last 
five years, the percentage of uninsured has grown from 11 percent to 43 
percent, just since 1996. And now with the spotlight placed on the 
program by the President, I expect we will see more uninsured patients 
finding health centers and increasing our patient loads.
    Mr. Chairman and Mr. Obey, I work at health centers because 
I'm really committed to serving those less fortunate and to 
ensure that all people have access to high quality primary 
health care, and they really receive it at health centers. I 
think it's unparalleled, the kind of care that they get. We're 
extremely pleased with the President's call to double the 
number of patients seen in health centers in the next five 
years, but it's going to be difficult to achieve if the 
funding, the dollars say that even this year we're going to 
need $175 million just to start to get there over the five 
years.
    So that's what we're here to say, is that we appreciate 
your support and it's been greatly appreciated by the millions 
of people and those of us who keep these centers open every 
day. Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I think they are great programs.
    Mr. Obey.
    Mr. Obey. You say that the President has made funding of 
community health centers a high priority. I'd like to examine 
that statement a little bit.
    Last year, as you know, we provided an $150 million 
increase. Even with that, only half the applications were 
funded. Now the Administration is proposing an increase, not of 
$150 million as we had last year, but $124 million.
    I told the story in this Committee a week ago about a woman 
I met about two months ago who was not fortunate enough to live 
in an area where they had centers. I went to announce the 
creation of a dental clinic in this four-county low-income 
area. I met a young woman who was on Medicaid. Only about half 
the dentists in those four counties would even take Medicaid 
patients. And those who did take Medicaid patients would take 
no new ones.
    She had a child who needed to have the braces removed from 
his teeth. She looked for a long period to try to find a single 
dentist who would take those braces off. After calling 30 of 
them, she could find not a one. So she held the kid down while 
the father took the braces off with a pair of pliers.
    How many more health centers could be provided, and how 
many more people could be provided service, if the President's 
budget this year provided the same dollar increase that we had 
in the budget last year, namely $150 million rather than $124 
million that's in the President's budget?
    Ms. Dietch. Well, I'm not sure I can do this math in my 
head, but $175 million would be 1.6 million additional 
patients. So a little over a million more patients for $150 
million, 1.2.
    Mr. Obey. We have 40 million Americans without health 
insurance. At that rate, it will take about 40 years before we 
can get them covered by health centers, right?
    Ms. Dietch. That's true.
    Mr. Obey. Probably every member of this Committee and this 
Subcommittee will be pushing up daisies at that point, Mr. 
Chairman.
    Mr. Regula. Yes, probably.
    Mr. Obey. Thank you.
    Mr. Regula. Thank you for coming. I'm curious, is your pin 
of significance to community health centers? I sort of thought 
it might be, given the configuration?
    Ms. Dietch. No, I'd like to tell you that it is, but it was 
really just a gift from someone where I left a former job, and 
she bought it in a department store. It didn't come from 
Colombia, I probably should make up a better story. But it's 
really true.
    Mr. Regula. It indicates people helping people, and our 
reliance on each other.
    Ms. Dietch. Yes, and they're multicultural.
    Mr. Regula. That's very much what a community health center 
is.
    Ms. Dietch. Absolutely.
    Mr. Regula. A lot of volunteers, people helping people.
    Ms. Dietch. Actually, and a lot of usages of other Federal 
programs. My organization participates with the Senior 
Reemployment, the Older Americans Act, we have seniors who are 
trying to re-enter the work force come to us as volunteers, 
we've hired a couple of them, AmeriCorps, I mean, we utilize a 
lot of people.
    Mr. Regula. I think it's a great program. I hope we can do 
more.
    Ms. Dietch. Thank you.
                              ----------                              

                                             Tuesday, May 22, 2001.

                             PUBLIC HEALTH


                                WITNESS

ANTHONY ROBBINS, M.D., CHAIR, DEPARTMENT OF FAMILY MEDICINE AND 
    COMMUNITY HEALTH, TUFTS UNIVERSITY SCHOOL OF MEDICINE
    Mr. Regula. Dr. Anthony Robbins, you get the blue ribbon 
for patience this morning. I'm sorry we couldn't get to you 
sooner, but as you can tell, there was a lot of testimony.
    You're the Chairman of the Department of Family Medicine 
and Community Health--where, it doesn't tell me.
    Dr. Robbins. I'm sorry. It's at Tufts University in Boston, 
Massachusetts.
    Mr. Regula. Okay. And you want to talk about public health.
    Dr. Robbins. I'd like to talk about public health. I spent 
most of my career in public health, in government, State and 
Federal. Actually before I go to the core of my statement, 
perhaps I could just say to you how sad it is to be in front of 
this Committee without Silvio Conte here. He was a great 
advocate for public health and we miss him.
    The President's budget that you're considering today is 
problematic for efforts to improve the health of Americans. I 
want to make just two key points and then a lot of the 
illustrations are in my written testimony and we can go to 
those questions if you'd like.
    Expansion at NIH has great merit. But to expand NIH alone 
is shortsighted public policy. It's already clear that many 
Americans are not in a position to benefit from scientific 
advances in medicine and public health. The budget will 
increase the likelihood that under-served citizens, the 
elderly, the needy, and rural Americans will never benefit 
fully from NIH research.
    As we saw last week with the introduction of this new 
leukemia drug, when we rely on commercial firms to exploit 
research results borne of Government investment, lifesaving 
products may be beyond the financial reach of many Americans. 
Investment at NIH must be balanced with full drug coverage 
under Medicare and expansion of health programs to help the 
under-served.
    And that point really refers particular to the programs of 
HRSA and to the programs of the Substance Abuse and Mental 
Health Services Administration. That's point one.
    The second point refers to how public health works in our 
Federal system, where protecting the health of the public is 
principally in the domain of States. But we have wisely built 
federal programs that now provide the critical glue that holds 
State public health efforts together. Any weakening of the 
Federal public health programs will be far more damaging than 
the reduced Federal budget numbers might indicate. State and 
city programs will not be able to provide adequate protection 
for their people against tuberculosis, lead poisoning, or 
asthma, for example. We in New England, where we've been 
dealing with the West Nile virus problem will probably not have 
the resources we need.
    If you look at the history of this, since the Michael 
Debakey Commission on Heart Disease, Cancer and Stroke reported 
in 1965 that the benefits of biomedical research were not 
reaching all Americans, the gulf between investment and 
research and the application of the results has actually 
widened. Since that time, there is a wide body of evidence that 
early detection and intervention can reduce the burden of 
illness and disability on our aging population. As a 
consequence of our failure to assure the broad distribution of 
health advances produced by NIH research, many Americans, 
particularly the poor, those who live in rural areas, and the 
elderly, become sick and disabled and die unnecessarily.
    Two health agencies of the Department of Health and Human 
Services, HRSA and SAMHSA, define their mission in terms of 
improving health and services for under-served Americans. To 
the life saving programs of these two agencies the President's 
budget would inflict serious damage. Then in the written 
testimony I describe what happens in the community access 
program and the rural health program, the Bureau of Health 
Professions, Maternal and Child Health Block Grant and Ryan 
White, poison centers and the mental health grants to 
communities.
    I follow a witness who has spoken about the increase of 
10.6 percent for the community and migrant health centers. And 
the President is to be commended for that. But that represents 
only a small part of the overall HRSA budget which would 
decline overall, including the increase for health centers, by 
10.4 percent.
    At SAMHSA, the targeted capacity program to which a small 
amount of money has been added isn't growing nearly rapidly 
enough. The agency itself estimated that 2.9 million people are 
left out in terms of getting services from this program, from 
these targeted areas. Yet the budget would cover 17,000 new 
people or only .06 percent of what the agency says is needed.
    Now, let me go to the Centers for Disease Control and sort 
out the constitutional issue that States retain the prime 
responsibility for protecting and improving the health of their 
people. State health departments delegate some of their 
responsibility to city and local health departments. I used to, 
when I was a State health officer, first in Vermont and then in 
Colorado, I was always reminding the Feds, as we called them, 
that we in the States have the prime responsibility.
    But in truth, in modern society, threats to health have 
outgrown the capacity of State and local health departments to 
respond without Federal help. Pathogens and toxic chemicals 
cross borders. People cross borders. And public health 
responses must as well. The Federal Government has responded 
very well historically, with important assistance, help in 
gathering data and surveillance, laboratory supportto stay 
ahead of threats to health, and would help building capacity and 
purchasing power, and help developing new programs where the science 
has made it possible.
    The Centers for Disease Control and Prevention have grown 
to become the critical Federal public health assistance 
program. Yet CDC's overall programs are being cut back in a 
number of areas. The chronic disease and health promotion 
program would be cut back by $174 million in the proposed 
budget, cutting back on cervical and breast cancer screening, 
heart disease and stroke, the diabetes program and many others.
    There's new technology that is finally letting us look at 
environmental hazards by seeing how people are exposed. Yet the 
Center for Environmental Health would see a diminution in its 
budget.
    Vaccine purchases, which have become a very important part 
of Federal assistance to States, I guess it goes up a little 
bit, but the fact is that the cost of vaccines to vaccinate one 
child fully will almost double next year because of the 
addition of a wonderful new vaccine that comes out of NIH 
research. The pneumococcal vaccine, which is effective against 
one of the major causes of meningitis, and the blood borne 
pneumococcal infections in infants, costs a lot of money. And 
the new budget does not incorporate enough funding to continue 
to cover the same number of kids with these vaccine purchases.
    I mentioned asthma, where we have a national epidemic and 
where in fact we're finally getting a handle on it, and yet 
that program is cut back. And finally, the Prevention and 
Health Services block grant is reduced.
    I urge you, and maybe this is another one of those cases 
where creativity will be needed, but I urge an expansion in the 
health programs in the rest of the Department of Health and 
Human Services, especially CDC, HRSA and SAMHSA, comparable to 
that that has been proposed by the President for the National 
Institutes of Health.
    Let me conclude with a story. About 25 years ago, I was a 
brash young State health officer, State health commissioner in 
Vermont. I joked with the head of our appropriations committee 
in the State house of representatives, and I told him that the 
budget that he was proposing for me, that there wasn't a heck 
of a lot I was going to be able to do about a variety of 
avoidable problems, and that I might just have to sit back and 
name the outbreaks and epidemics after the members of the 
committee.
    Now, Em Hebard was really very supportive and used my joke, 
I guess, to help bring the budget up to a reasonable level. I 
guess I would conclude by hoping that you can do as well by my 
colleagues in the Public Health Service and for the people of 
the country. Thank you.
    [The justification follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do we get to pick our disease?
    Dr. Robbins. Oh, I guess so. [Laughter.]
    Mr. Obey. Tony, good to see you. Just a couple of 
questions.
    First of all, would you expand on what this new PCV 
vaccine? Would you give us a little more information about what 
would happen in terms of numbers of kids who would actually be 
covered by all the vaccines they need if we stuck to the 
President's budget? How many kids are going to be left out?
    Dr. Robbins. Well, I can only, I can guess----
    Mr. Obey. Why is it important?
    Dr. Robbins. Let me go back to the vaccine, because this is 
a very good story. We have had in the last 20 years three major 
vaccine successes. All the other vaccines are older than that. 
But first there was the hepatitis B vaccine and now hepatitis A 
vaccines. These were developed out of research efforts and 
brought to market and included in the universal vaccine 
programs.
    The most magnificent success was the hemophilus influenza B 
vaccine, where essentially this disease, which was the most 
common form of meningitis in children, virtually disappeared in 
this country. Now we're succeeding similarly in the rest of the 
world.
    The most common remaining cause of meningitis in young 
children is streptococcal pneumoniei, the organism that causes 
pneumococcal meningitis. And interestingly enough, the old 
vaccine that was effective in adults has been around for a long 
time. It was developed many, many years ago and the technical 
advance was producing something that would make it immunogenic, 
would produce an immune response in children.
    When that was done, they then had to produce a vaccine that 
covered seven different strains of pneumococci. And in doing 
that, this became a very expensive vaccine, sufficiently 
expensive so that I'm told that next year's price, this vaccine 
will cost as much as all the other vaccines together have been 
costing under the CDC purchase program.
    That meant in effect, if you were just going to keep the 
same number of children protected you were going to have to 
double the allocation. I think, if I remember the numbers, it's 
up by $73 million or about a third of the increase that would 
be needed to keep pace with immunization.
    CDC provides by bulk purchases, by making contracts with 
the vaccine manufacturers, I believe it's 11 States, 6 in New 
England plus 5 others that buy all of their vaccines for all of 
their children, and then the other States which buy a smaller 
number for the under-served, for the uninsured. This has become 
critical to every immunization program in the country.
    These programs are essentially surveillance, so you know 
where you've got the disease and you know how good the coverage 
is, organization so that you make sure that everyone is coming 
into health centers and health plans to be immunized, and the 
support of certain personnel and the purchase of vaccines. 
They've been magnificently successful.
    Mr. Obey. Thank you. I noticed in public polling, Mr. 
Chairman, that there's a strange gap in the public 
understanding of the Public Health Service and the public 
health agencies. When you use the term public health, what 
many, many Americans think you're talking about is health care 
delivered to the poor--Government health care for poor people. 
They don't realize that what the public health service does is 
to try to protect the health of the entire American population 
from serious diseases.
    I think if we could just find a way to make that change in 
people's heads it would be a whale of a lot easier to get 
support for some of these programs.
    Dr. Robbins. I'm even reminded that when you go into 
building one of NIH that the plaque on the wall describing the 
mission of the institutes includes public health. It is not 
simply to produce products and advances for the medical care 
system. That's the problem for the under-served and the poor. 
As we get new advances, it makes it to us, they make it to us 
middle class people. But without the HRSA program, without the 
kind of emphasis on screening and advances for diabetes 
treatment that CDC is pushing so effectively now, this doesn't 
make it to the under-served portions of the population.
    Mr. Obey. Thank you.
    Mr. Regula. Thank you, and we appreciate your patience. 
Very worthwhile information.
    The subcommittee will be in recess until 2:00 o'clock.
    Dr. Robbins. I should thank the staff, because I've been 
where you are, and you stuck it out, too.
    [The following statements were submitted for the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Acosta, Daniel, Jr...............................................  1738
Akhter, Mohammad.................................................   291
Albino, Dr. J.E..................................................    49
Albright, Ann....................................................  1542
Alexander, Dr. Richard...........................................  1750
Amundson, S.J....................................................  1288
Anderson, L.K....................................................   132
Baca, Hon. Joe...................................................   693
Bartels, Stephen.................................................   451
Bass, Patricia...................................................  1354
Bellermann, P.R.W................................................  1476
Bereuter, Hon. Doug..............................................   976
Berkley, Hon. Shelley............................................   916
Biggert, Hon. Judy...............................................   885
Black, John......................................................   606
Boehner, Hon. J.A................................................   752
Brown, D.L.......................................................  1294
Bumpers, Betty...............................................1733, 1819
Bye, Dr. R.E., Jr................................................  1397
Capito, Hon. S.M.................................................   894
Capuano, Hon. R.E............................................1570, 1832
Carter, Warrick..................................................    73
Chambers, D.A....................................................    94
Christian-Christensen, Hon. D.M..................................   811
Clayton, Hon. Eva................................................  1847
Clemens, Dr. T.L.................................................   173
Comegys, Marianne................................................   302
Conway, The Most Reverend E.M....................................  1025
Courtice, Dr. T.B................................................    61
Crawford, L.H....................................................  1726
Crowley, Hon. Joseph.............................................   631
Curtis, Danielle.................................................   361
Davis, Hon. Danny................................................   792
Denison, Donna...................................................  1627
Diaz, L.A........................................................   361
Dietch, Patricia.................................................  1178
Dreier, Hon. David...............................................   982
Dunigan, Cheryl..................................................   371
Dutchman, Richard................................................  1726
Edwards, Hon. Chet...............................................   866
Einhorn, L.H.....................................................  1234
Enna, S.J........................................................  1490
Epp, J.G.....................................................1732, 1839
Epstein, S.H.....................................................  1263
Fasig, L.G...................................................1282, 1698
Fattah, Hon. Chaka...............................................   830
Feistritzer, C.E.................................................  1082
Felter, R.A......................................................   441
Filner, Hon. Robert..............................................   650
Fisher, Lucy.....................................................  1233
Fitzgerald, Brian................................................  1093
Fossella, Hon. V.J...............................................   870
Frank, Irwin.....................................................  1220
Frelinger, J.A...................................................  1359
Friedlander, Michael.............................................  1368
Fulcher, Juley...................................................  1644
Gallegly, Hon. Elton.............................................  1870
Garcia, Dr. Juliet...............................................  1096
Gelenter, R.H....................................................  1762
Givhan, T.Y......................................................   132
Goldberg, Jerold.................................................   214
Grasmick, N.S....................................................   338
Greene, S.M......................................................  1577
Hardy, G.E., Jr..................................................   161
Harmon, W.E......................................................   528
Harrison, D.C....................................................   396
Hasselmo, Nils...................................................  1384
Hayworth, Hon. J.D...............................................   862
Held, Marilyn....................................................    85
Hennenfent, Mike.................................................  1753
Henrich, Carolyn.................................................  1150
Hill, Dorothy....................................................   490
Hinojosa, Hon. R.E...............................................   830
Hinton, Dr. Philip...............................................  1598
Honda, Hon. Michael............................................645, 967
Hooley, Hon. Darlene.............................................  1861
Horton, Peter....................................................  1150
Hunter, Kathy....................................................   371
Hurley-Wales, Jennifer...........................................   271
Hutchinson, Dr. R.A..............................................  1726
Hutchinson, Hon. Asa.............................................   680
Jackson-Lee, Hon. Sheila.........................................   937
Jacobs, Phil.....................................................   121
James, Sharpe....................................................  1346
Jenkins, Dr. Renee...............................................     1
Jones, Hon. S.T..................................................   902
Kalabokes, Vicki.................................................  1765
Kane, Joanne.....................................................   202
Karlin, H.R......................................................  1268
Kasdin, Neisen...................................................  1344
Kase, R.D........................................................   553
Keegan, L.G......................................................  1009
Kelley, C.M......................................................  1775
Kelly, Hon. S.W..................................................   654
King, Hon. Peter.................................................  1858
Kirk, Hon. M.S...................................................   663
Klose, Kevin.....................................................  1813
Knappenberger, P.H., Jr..........................................  1517
Kobor, Pat.......................................................  1317
Korn, Steve......................................................   595
Krahn, Gloria....................................................  1376
Kucinich, Hon. Dennis..........................................799, 807
Kukic, Dr. Stevan................................................    37
Lancaster, R.B...................................................   350
Lander, E.S......................................................  1073
Larson, Patricia.................................................  1642
Lee, Amy.........................................................   247
Leon, M.L........................................................   108
Lewis, Lydia.....................................................   151
Luke, G.G........................................................  1726
Mabee, M.S.......................................................  1455
Maloney, Hon. C.B................................................  1853
Mann, Dorothy....................................................   530
Martin, J.C......................................................   380
Martin, W.J., II.................................................   618
Masten, Sue......................................................  1422
Mazure, Dr. C.M..............................................1042, 1682
Meek, Hon. C.P...................................................   728
Meeks, Hon. G.W..................................................  1000
Millender-McDonald, Hon. Juanita.................................   889
Mink, Hon. P.T...................................................   771
Mintz, Paul......................................................   561
Monsky, S.L......................................................  1595
Morella, Hon. Connie.............................................   909
Mosena, David....................................................  1437
Moss, Dr. Ken....................................................   195
Moss, Myla.......................................................  1726
Napolitano, Hon. G.F.............................................   933
Neal, Deborah....................................................   235
Nunes, Carolyn...................................................    15
Nyeholt, James...................................................  1211
Nyeholt, Margaret................................................  1211
O'Toole, Patrice.................................................  1636
Okojie, Felix....................................................   467
Owens, Hon. M.R..............................................1840, 1864
Palone, Hon. Frank, Jr...........................................  1834
Pascrell, Hon. Bill..............................................   639
Payne, Hon. D.M..................................................   701
Pearsol, J.A.....................................................   260
Peck, S.B........................................................  1215
Peppe, Kathryn...................................................   572
Perez, D.P.......................................................  1499
Petrovic, Jennifer...........................................1535, 1800
Pierson, Carol...................................................  1741
Pizzi, Lawrence..................................................   184
Pizzorno, J.E., Jr...............................................   281
Pribyl, John.....................................................  1608
Price, D.L.......................................................   430
Pryce, Hon. Deborah..........................................1851, 1868
Randall, Allison.................................................  1644
Randell, Llyce...............................................1790, 1804
Reynolds, Ronna..................................................  1272
Ritcher, M.K.....................................................  1427
Robbins, Anthony.................................................  1187
Rodriguez, Hon. Ciro.............................................   852
Roemer, Hon. Tim.................................................   988
Roman, Frankie...................................................   224
Ros-Lehtinen, Hon. Ileana........................................   859
Rothmam, Hon. S.R................................................  1844
Ruth, Betty......................................................  1611
Salzberg, J.P....................................................  1230
Sanchez, Hon. Loretta.........................................920, 1860
Schakowsky, Hon. J.D.............................................   924
Schlender, J.H...................................................  1364
Schuster, C.R....................................................   408
Schwartz, Robert.................................................   501
Scott, Hon. Robert...............................................   711
Sever, Dr. J.L...................................................   135
Shannon, Jacqueline..............................................  1581
Sharpe, A.L......................................................  1317
Shays, Hon. Christopher..........................................   749
Shaeffer, Les....................................................  1271
Sheketoff, Emily.................................................   541
Sherman, Hon. Brad...............................................   966
Silver, H.J......................................................  1310
Slaughter, Hon. L.M..............................................   896
Slavet, Gerald...................................................   274
Smith, Hon. Chris................................................   759
Smokler, Irving..................................................  1504
Solis, Hon. Hilda................................................   928
Stark, Hon. Pete.................................................   738
Stevens, Christine...............................................  1615
Stokes, Hon. Louis...............................................   315
Stupak, Hon. Bart................................................   785
Suter, Carl......................................................   585
Tate, Richard....................................................  1611
Tauzin, Hon. Billy...............................................   776
Teter, Harry.....................................................  1440
Thiebe, E.A......................................................  1754
Tilman, David....................................................  1562
Torre, Robert....................................................  1688
Trumka, Richard..................................................  1164
Tubbs-Jones, Hon. Stephanie....................................719, 902
Underwood, Hon. Bob..............................................   844
Underwood, P.W...................................................   515
Valachovic, Dr. Richard..........................................  1726
Van Zelst, T.W...................................................  1707
Vander Ark, Tom..................................................  1054
Waters, Hon. Maxine..............................................   994
Watkins, Hon. Wes................................................   764
Watkins, J.H.....................................................  1824
Waxman, Dr. F.J..................................................  1810
Weinberg, Myrl...................................................  1333
Weisman, R.S.................................................1479, 1794
Wick, Douglas....................................................  1233
Wilhide, Steve...................................................   419
Williams, Christine..............................................  1431
Williams, Diane..................................................   328
Williams, G.H....................................................   393
Wolff, Liesel....................................................  1631
Wood, J.O........................................................  1305
Woolsey, Hon. Lynn...............................................   673
Wooten, C.D......................................................  1717
Wooten, R.E......................................................  1717
Wormley, Michaelle...............................................   202
Wu, Hon. David...................................................   876
Young, Hon. Don..................................................   825
Zaret, David.....................................................   361

                          ORGANIZATIONAL INDEX
                              ----------                              
                               Volume 7B
                                                                   Page
Advisory Committee on Student Financial Assistance...............  1093
Adler Planetarium and Astronomy Museum...........................  1517
The Ad Hoc Group for Medical Research Funding....................  1523
AFL-CIO..........................................................  1164
AIDS Alliance for Children, Youth and Families...................   530
Air Force Sergeants Association..................................  1712
Alachua County, Florida, Board of County Commissioners...........  1351
American Academy of Family Physicians............................   380
American Academy of Pediatrics...................................     1
American Academy of Physician Assistants.........................  1339
American Association of Blood Banks..............................   561
American Association for Geriatric Psychiatry....................   451
The American Association of Immunologists........................  1359
American Association of Nurse Anesthetists.......................    94
American Association of Poison Control Centers...................  1479
Amercian Association of Poison Control Centers...................  1794
American Association of University Affiliated Programs for 
  Persons with Developmental Disabilities........................  1376
The American Cancer Society......................................  1431
The American Chemical Society....................................  1798
The American Chemical Society....................................  1483
American College of Cardiology...................................  1529
American Dental Education Association............................  1721
American Dental Hygienists' Association..........................  1215
American Diabetes Association....................................  1542
The American Gas Association.....................................  1292
American Gastroenterological Association.........................  1449
American Indian Higher Education Consortium......................  1410
American Library Association.....................................   541
The American Lung Association and the American Thoracic Society..   618
American Museum of Natural History...............................  1400
American Nurses Association......................................   515
American Psychiatric Nurses Association..........................   490
American Psychological Association...............................  1602
American Public Health Association...............................   291
American Public Power Association................................  1521
American Trauma Society..........................................  1440
American Urological Association, Inc.............................  1220
American Society of Clinical Oncology............................  1234
American Society of Hematology...................................  1694
American Society for Microbiology (CDC)..........................  1444
American Society for Microbiology (NIH)..........................  1770
American Society for Pharmacology and Experimental Therapeutics..  1490
American Society for the Prevention of Cruelty to Animals........  1551
American Society for RSD/CRPS....................................  1732
American Society for RSD/CRPS....................................  1839
The American Society of Transplant Surgeons......................  1572
American Society of Transplantation..............................   528
Archdiocese of Chicago...........................................  1025
Arthritis Foundation Northeast Ohio Chapter......................   553
The Association of America's Public Television Stations..........  1621
Association of American Universities.............................  1384
The Association of Independent Research Institutes...............  1539
Association of Maternal and Child Health Programs................   572
Association of Medical School Pediatric Department Chairs........  1462
The Association of Minority Health Professions Schools...........   350
Association of State and Territorial Health Officials............   161
Association of Women's Health, Obstetric and Neonatal Nurses.....  1485
Bastyr University................................................   281
Bill and Melinda Gates Foundation................................  1056
The Bushnell Center for the Performing Arts......................  1272
California School of Professional Psychology.....................    49
Canavan Research Foundation......................................  1268
Center for Disease Control and Prevention (CDC) Coalition........   260
The Center for Victims of Torture and the National Consortium of 
  Torture Treatment Programs.....................................  1230
The Children's Heart Foundation..................................  1238
CJD Voice........................................................  1717
Coalition for Advancement of Health Through Behavioral and Social 
  Science Research...............................................  1317
Coalition of Academic Health Centers.............................   396
Coalition on Federal Funding of Vocational Rehabilitation........  1507
Coalition for Health Funding.....................................  1455
Coalition for Health Services Research...........................  1676
Coalition for International Education............................  1299
Coalition of Northeastern Governors..............................  1420
College of Problems of Drug Dependence, Inc......................   408
Columbia College.................................................    73
Communities Advocating Emergency AIDS Relief Coalition...........  1354
Community Medical Centers........................................  1598
Consortium of Social Science Associations........................  1310
Council of State Administrators of Vocational Rehabilitation.....   585
Creative Commission and the Committee for Education Funding......  1150
Developmental Disability Research Centers Association............  1368
Doris Day Animal League..........................................  1288
Education Leaders Council........................................  1009
Every Child By Two: Carter/Bumpers Campaign for Early 
  Immunization...................................................  1733
Every Child By Two: Carter/Bumpers Campaign for Early 
  Immunization...................................................  1819
The Federation of Behavioral, Psychological, and Cognitive 
  Sciences.......................................................  1636
Florida State University.........................................  1397
The Foundation for Ichthyosis and Related Skin Types, Inc........  1587
Friends of Cancer Research.......................................   195
Friends of CDC...................................................   121
Friends of the Health Resources and Services Administration......   247
Friends of NICHD Coalition...................................1282, 1698
FSH Society, Inc.................................................  1499
Gerald Slavet Education Performances Foundation..................   271
Great Lakes Indian Fish and Wildlife Commission..................  1364
Hackensack University Medical Center.............................  1688
Health Professions and Nursing Education Coalition...............   214
Humane Society of the United States..............................  1555
Infectious Diseases Society of America...........................  1200
International PolioPlus Committee, Rotary International..........   135
International Rett Syndrome Association..........................   371
Jackson State University.........................................   467
Joint Steering Committee for Public Policy.......................  1073
LPA..............................................................  1468
March of Dimes Birth Defects Foundation..........................   235
Maryland State Department of Education...........................   338
Medical Library Association and the Association of Academic 
  Health Sciences Libraries......................................   302
The Mended Hearts, Inc...........................................  1762
Miami Beach, Florida, the City of................................  1344
Minann, Inc......................................................  1707
Minnesota Senior Corps Association...............................  1608
Motion Picture and Television Fund...............................  1562
Museum of Science and Industry...................................  1437
National Alliance to End Homelessness............................  1780
National Alliance for the Mentally Ill...........................  1581
National Alliance of State and Territorial AIDS Directors........  1511
The National Alopecia Areata Foundation..........................  1765
National Association of Anorexia Nervosa and Associated Disorders  1727
National Association of Children's Hospitals.....................   441
National Association of Community Health Centers, Inc. (Southern 
  Ohio)..........................................................   419
National Association of Community Health Centers, Inc. (Delaware 
  Valley)........................................................  1178
National Association of County and City Health Officials.........  1294
The National Association of Developmental Disabilities Councils..  1326
National Association of Foster Grandparent Program Directors.....  1824
The National Association of Home Builders........................  1388
National Center for Education Information........................  1082
National Center for Injury Prevention and Control................   645
National Center for Learning Disabilities........................    37
National Coalition Against Domestic Violence.....................  1644
National Coalition for Heart and Stroke Research.................  1305
National Coalition for Osteoporosis and Related Bone Diseases....   173
National Congress of American Indians............................  1422
National Council of Social Security Management Associations, Inc.   595
National Depressive and Manic-Depressive Association.............   151
National Federation of Community Broadcasters....................  1741
National Foundation for Ectodermal Dysplasias....................  1427
National Head Start Association..................................  1577
National Health Council..........................................  1333
National Hemophilia Foundation...................................  1277
National High School Federation..................................   606
National Marfan Foundation.......................................  1745
National Minority AIDS Council...................................   108
National Minority Public Broadcasting Consortia..................  1591
The National MPS Society.........................................  1271
The National Multiple Sclerosis Society..........................  1391
The National Neurofibromatosis Foundation, Inc...................  1476
National Psoriasis Foundation....................................  1323
National Public Radio............................................  1785
National Public Radio............................................  1813
National Rural Health Association................................  1567
National Senior Service Corps....................................  1611
National Sleep Foundation........................................   224
The National Treasury Employees Union............................  1775
National Youth Leadership Institute..............................  1225
The National Youth Sports Program................................  1754
The NephCure Foundation..........................................  1504
Newark, New Jersey, the City of..................................  1346
North American Brian Tumor Coalition.............................   184
Ohio State University College of Law.............................   393
Ohio Wesleyan University.........................................    61
Oklahoma State Experimental Program to Stimulate Competitive 
  Research.......................................................  1810
One Voice Against Cancer.........................................  1415
Organizations of Academic Family Medicine........................   501
People for the Ethical Treatment of Animals......................  1631
Population Association of America................................  1558
Preparing for an Aging Society...................................  1251
Prostatitis Foundation...........................................  1750
Safer Foundation.................................................   328
San Diego Unified School District................................    15
Scleroderma Research Foundation..................................  1595
The Sickle Cell Disease Association of America...................   132
Society for Animal Protective Legislation........................  1615
The Society of Gynecologic Oncologists...........................  1207
The Society for Investigative Dermatology........................   361
Society for Neuroscience.........................................   430
The Society of Toxicology........................................  1738
St. John Health System, Detroit..................................    85
The Trust for America's Health...................................   317
United Fresh Fruit and Vegetable Association.....................  1627
Women's Health Research Coalition............................1042, 1682
Women Opting for More Affordable Housing Now, Inc................   202

                                <greek-d>


</pre></body></html>
